                                                                                              DoD Performance & Accountability Report FY2005
           ..............................................................................................................................Introduction


                                                       Table of Contents

Message from the Acting Deputy Secretary of Defense	                                                                                                     ii

Overview: How to Use This Report	                                                                                                                       iii

DoD in Review	                                                                                                                                          iv

Part 1: Management’s Discussion and Analysis	                                                                                                                	
	   Mission, Organization and Resources	                                                                                                                 3
	   Performance Objectives, Goals, and Results	                                                                                                          6
	   Analysis of Financial Statements and Stewardship Information	                                                                                       14
	   President’s Management Agenda	                                                                                                                      23
	   Analysis of Systems, Legal Compliance, and Controls	                                                                                                31
	   U.S. Government Accountability Office High-Risk Areas	                                                                                              55
	   Looking Forward:  Challenges for FY 2006 and Beyond	                                                                                                56

Part 2: Performance Information	
	   Overview	                                                                                                                                           59
	   Data Quality, Accuracy, and Reliability	                                                                                                            59
	   Performance Goals and Results	                                                                                                                      59

Part 3: Financial Information	
	   Message from the Chief Financial Officer	                                                                                                       135
	   Independent Auditors’ Report on the Principal Statements	                                                                                       136
	   Principal Financial Statements and Notes	                                                                                                       145
	   	 Principal Statements	                                                                                                                         146
	   	 Notes to the Principal Statements	                                                                                                            151
	   	 Consolidating and Combining Statements	                                                                                                       208
	   	 Required Supplementary Stewardship Information	                                                                                               249
	   	 Required Supplementary Information	                                                                                                           255
	   	 Other Accompanying Information 	                                                                                                              270

Part 4: Inspector General’s Summary of Management Challenges	                                                                                       285
	   Management’s Response to the Inspector General’s Assessment	                                                                                    304

Appendixes
	   A - Glossary	                                                                                                                                   A-1
	   B - Internet Links	                                                                                                                             B-1




                                                                          
                                                                                   DoD Performance & Accountability Report FY2005
..............................................................................................................................Introduction


                                 Message from the
                         Acting Deputy Secretary of Defense




                                                              ii
                                                                                              DoD Performance & Accountability Report FY2005
           ..............................................................................................................................Introduction


              Overview:                                                        Part 3: Financial Information
        How to Use This Report                                                 Financial Information comprises the Department’s
                                                                               principal financial statements, notes to the
                                                                               statements, consolidating and combining statements,
The Department of Defense (DoD) fiscal year
                                                                               and other required information for FY 2005.  This
(FY) 2005 Performance and Accountability Report
                                                                               section includes a message from the Chief Financial
provides the American people, the President,
                                                                               Officer, as well as the DoD Inspector General
Congress, other Federal departments and agencies,
                                                                               Auditor’s Report with opinion on the FY 2005
and DoD military members, civilians, and
                                                                               financial statements.
contractors with an overview of DoD’s:

•	 Mission, goals, accomplishments, and challenges;                            Part 4: Inspector General’s Summary of
•	 Financial and audit results, and                                            Management Challenges
•	 Resource management and accountability.
                                                                               Inspector General’s Summary of Management
The Report covers the 12-month period ending                                   Challenges presents a summary, prepared by
September 30, 2005 and is comprised of the                                     the DoD Inspector General, of the most serious
following five parts:                                                          management challenges facing the Department, as
                                                                               well as DoD management’s response.
Part 1: Management’s Discussion and
Analysis                                                                       Appendixes

Management’s Discussion and Analysis is a high-                                Appendixes include a glossary of acronyms used in
level overview of DoD performance and financial                                this report and a list of Internet links for further
information for FY 2005.  It describes DoD’s                                   information.
performance management model and highlights
the Department’s FY 2005 annual performance
goals and results (detailed in Part 2).  Part 1 also
provides financial highlights for FY 2005 (detailed                            We welcome your feedback regarding the content
in Part 3) and a summary of the Department’s status                            of this report.  To comment or request copies of the
on meeting the President’s Management Agenda                                   Report, please email us at DoDPAR@osd.mil, or
objectives.   Part 1 concludes with a discussion of the                        write to:
Department’s compliance with legal and regulatory
requirements and DoD’s progress on eliminating the                             U.S. Department of Defense
high risk areas identified by the U.S. Government                              Office of the Under Secretary of Defense
Accountability Office.                                                         (Comptroller)
                                                                               1100 Defense Pentagon
                                                                               Washington, DC 20301-1100
Part 2: Performance Information
Performance Information presents the Department’s
                                                                               You may also view this document at www.dod.mil/
strategic plan, strategic objectives, strategic goals,
                                                                               comptroller/par.
performance goals, and annual performance results
for FY 2005.  

                                                                         iii
                                                                                              DoD Performance & Accountability Report FY2005
           ..............................................................................................................................Introduction

                                                            DoD in Review




As recently as 2001, the Department of Defense                                Together, they represent possibly one of the most
was still arranged to fight the wars of the century                           significant periods of accomplishment in the history
just past.   The Soviet Empire was gone, but our                              of the Department of Defense.
American military was still preparing to fight it.  The
most likely enemies of the future lacked large armies,                        While transformation began well before the attacks
navies, and air forces, but we were still arranged                            on America on September 11, 2001, and continues
to defend against the conventional armies, navies,                            today, the global war on terror is perhaps the best
and the last century.  In short, we had won the                               lens through which to view all that has been achieved
wars of the past, but were not yet prepared for the                           since January 2001.
unconventional challenges of the future.
                                                                              First and foremost, al Qaeda, the global terrorist
In 2001, President George W. Bush charged the                                 network responsible for the September 11 attacks,
Department of Defense with a new mission:  to                                 has been scattered, its assets seized in more than 160
transform both the military and the Pentagon                                  countries around the world, its financial network
bureaucracy to meet the threats and challenges of the                         exposed and thwarted, its home base and host regime
21st century.                                                                 in Afghanistan destroyed, its network fractured, and
                                                                              three quarters of its top leadership killed or captured.  
Looking back across the last four years, an
extraordinary amount of change has taken place,
across the entire U.S. defense establishment.  
Without a doubt, the status quo has been challenged,
and a new architecture of American defense not only
envisioned, but planned, developed, constructed
and, in many ways, employed.

Some of the change was driven by external events,
most notably, the global war on terror.  Much was
undertaken as a result of the Department’s own
internal analysis of what was required to prepare the
U.S. military and the Department for the future.  


                                                                         iv
                                                                                              DoD Performance & Accountability Report FY2005
           ..............................................................................................................................Introduction

Terrorists and terrorist cells continue to be disrupted                       employment, overcoming restricted access to regional
or destroyed on a daily basis, and well over 10,000                           bases, integration of ground and air power, and the
individuals and enemy combatants have been                                    increased use of precision weapons.
brought under U.S. control.  While Osama bin
Laden is still alive, he is a fugitive, hunted by an                          In Operation Iraqi Freedom, the lessons learned
international coalition, with just a fraction of his                          in Afghanistan continue to be refined with a focus
earlier ability to plan and perpetrate terrorism on a                         on advanced joint and combined operations, the
scale previously possible.                                                    importance of intelligence, the need for precision in
                                                                              such a cluttered battle space, and how best to train,
Operation Enduring Freedom, the first battle                                  equip, and employ Iraqi forces in defense of their
in the first war of the 21st century, ended in the                            country.
liberation of 25 million people in Afghanistan,
the establishment of an interim representative                                While Afghanistan and Iraq remain the central
government and, on October 9, 2004, the first free                            fronts in the war on terror, they are not the only
and open election in five millennia of that country’s                         places where freedom is being defended against
recorded history.                                                             the forces of terror.  Across the globe, the United
                                                                              States is working with like-minded states to combat
In Iraq, Operation Iraqi Freedom liberated some                               the threat posed by the spread of weapons of mass
27 million people from an excessively brutal and                              destruction and, in particular, to prevent terrorists
repressive regime which maintained its grip on power                          from acquiring such weapons.
through the worst type of corruption and torture,
including the massive slaughter of its own people.  
It also eliminated a decades-old state sponsor and
facilitator of terrorism whose drive to develop or
acquire weapons of mass destruction threatened the
region and the world.

Today, Saddam Hussein, and many of the leaders of
the regime that carried out his orders, are in prison
and awaiting trial, and his sons – the next generation
of despicable dictators – are dead.   On January 30,
2005, thousands of courageous Iraqi leaders stood
for election, and millions of Iraqi citizens went to
the polls despite direct threats of death and violence,                       U.S. Special Forces persist in the search for high-
some walking more than 20 miles to exercise their                             value targets, finding and striking them where they
new-found freedom.                                                            are, and new technologies are constantly being
                                                                              developed to counter everything from improvised
Throughout operations in both Afghanistan and                                 explosive devices to the enemy’s use of the Internet
Iraq, the U.S. military has adapted quickly to the                            to communicate and execute operational command
changing conditions of combat, learned the lessons                            and control.
of current battles, and incorporated them into its
techniques, tactics, and procedures.                                          At home, the Global War on Terror gave new
In Operation Enduring Freedom, the keys to                                    impetus and urgency to transformation efforts
victory were flexibility, speed of deployment and                             already well underway, and a new determination

                                                                         
                                                                                              DoD Performance & Accountability Report FY2005
           ..............................................................................................................................Introduction

to remake the U.S. military into a more agile,                                will reflect these and other realities of the post-Cold
efficient, and expeditionary force, ready to meet the                         War world.
unconventional challenges of a new an uncertain
time.                                                                         The Department played a major role in
                                                                              humanitarian relief for natural disasters.  Hurricanes
Four years ago, U.S. forces were still organized,                             Katrina and Rita wreaked catastrophic damage on
trained and equipped for the Cold War, ready to face                          New Orleans and the Gulf Coast, as well as Florida.  
large armies, navies and air forces from mostly static                        DoD provided troops to support relief operations
positions.  Today, smaller, more agile units take the                         through air, sea, and ground operations.  The
fight to the enemy.                                                           tsunami that struck Southeast Asia after Christmas
                                                                              inflicted extensive damage.  The Department
Where once millions of tons of bombs leveled entire                           is providing assistance to the governments of
cities, today smart bombs and real-time targeting                             Indonesia, Sri Lanka, Thailand, and other affected
destroy strongholds while limiting civilian casualties                        nations as they deal with the effects of the tsunami.  
and collateral damage.                                                        U.S. military operations are in support of overall
                                                                              U.S. Government assistance efforts, and are being
                                                                              conducted in coordination with international
                                                                              organizations, non-governmental organizations, and
                                                                              other nations.




Similarly, Cold War programs and weapons systems
were canceled or significantly modified, lighter,
faster systems added, as well as new technological
advancements such as unmanned vehicles, laser
communications, and new satellites for advanced                               Organizationally, the Department stood up
command and control.  Recently, a restructured                                needed new organizations and trimmed back in
Missile Defense Program fielded a limited operating                           less functional areas.  A new Under Secretary for
capability to defend the continental United States                            Intelligence was created, as well as new Assistant
against rogue attack.                                                         Secretaries for Homeland Defense and Networks and
                                                                              Information Integration.
New strategic partnerships have been established
with the nations of Central and South Asia, as well                           A new National Security Personnel System will
as with non-traditional partners such as Pakistan.                            allow needed flexibility in managing a 21st century
                                                                              workforce, and a new Base Realignment and Closure
Going forward, the location of U.S. forces abroad



                                                                         vi
                                                                                              DoD Performance & Accountability Report FY2005
           ..............................................................................................................................Introduction

process is underway to shed unneeded infrastructure                            integrate and share intelligence to both the battlefield
and allocate resources to more appropriate needs.                              and the boardroom.

Many aspects of the Department’s basic program,
budget, and acquisition processes have been
modernized, streamlined and consolidated.  A
two-year budget cycle has been instituted, and
the acquisition process streamlined.  Procurement
safeguards have been strengthened to preclude
duplication among the Military Services.
Intrinsic to this process was the establishment early
on of the Senior Level Review Group, which consists
of the Secretary, Deputy Secretary, Chairman and
Vice Chairman of the Joint Chiefs of Staff, Under
Secretaries, Service Secretaries, and Service Chiefs of
Staff.                                                                         Most importantly, we must strike the right balance
                                                                               between the capabilities needed for the war on terror
Until this group was created, the Military Services                            and capabilities needed to manage emerging military
used to build budgets separately and often competed                            competition in other areas.
with one another for programs and funding.  Today,
this group brings top planners together, to generate                           We must hedge against the emergence of a major
common concepts of operations and programs                                     military competitor in the decades ahead through the
for the military, which also strengthens joint and                             right levels of research and development, as well as
combined warfighting operations on the battlefield.                            intelligent procurement of advanced warfighting and
                                                                               surveillance systems.

Looking ahead, many challenges remain                                          We must work with the Department of Homeland
                                                                               Security to ensure we are properly positioned to
In Afghanistan, we must ensure that Taliban                                    do our part in preventing, or contending with the
remnants and the possibility of terrorism that stems                           aftermath of, a catastrophic attack on the homeland,
from drug trafficking do not slow the progress                                 particularly with regard to terrorism involving
that is clearly underway. In Iraq, a functional Iraqi                          weapons of mass destruction.
military and police must be established to secure
the environment, defeat the insurgency, and give                               To take precision targeting to a new level, we must
the new government every chance to succeed as a                                focus resources on persistent surveillance, using both
functioning democracy.  Another challenge will be to                           manned and unmanned systems.
focus appropriately on intelligence, working closely
with other government agencies to ensure that our                              All of these, as well as other key issues such
warfighters have what they need to prevail in the                              as potential changes in roles, missions, and
global war on terror.  This will require improving all                         organizations; needed changes in the law; pursuit
aspects of our ability to collect, analyze, disseminate,                       of key enablers like space, information operations,




                                                                         vii
                                                                                              DoD Performance & Accountability Report FY2005
           ..............................................................................................................................Introduction

surveillance systems, and special programs; changes                            loaned to us by a caring Nation – the 2.2 million
to our strategic nuclear forces; new approaches for                            active duty, Guard, and Reserve members of the U.S.
developing a 21st century civilian workforce; and                              Armed Forces, along with the civilian workforce.
improved business practices of the Department of
Defense are being examined in depth.                                           The Department of Defense has initiated significant
                                                                               change and accomplished a great deal over the past
We are cognizant of the responsibilities inherent in                           four years and, with the continuing support of the
managing nearly 18 percent of the Federal budget                               Congress and, most importantly, the American
and more than 3 percent of the Gross Domestic                                  people, we will continue to improve and accomplish
Product, and even more so of the precious resources                            our mission in the years to come.




                                                                        viii
Part 1: Management’s
Discussion and Analysis
              How the
         Department Evolved


1775 - The Army, Navy, and Marine Corps were
established in concurrence with the American Revolution.

1789 - The War Department was established and was the
precursor to what is now the Department of Defense.

1798 - The Department of the Navy, and the U.S. Coast
Guard, were founded.

1947 – Congress established a civilian, Cabinet-level
Secretary of Defense. The Department of the Air Force
was created, the War Department was converted to
the Department of the Army, and the three military
departments of the Army, Navy and Air Force were placed
under the direct control of the first Secretary of Defense.

1949 - the national defense structure was consolidated
further, creating what we now know as the Department of
Defense, and withdrawing cabinet-level status for the three
Military Department Secretaries.
                                                                                                                                                                 DoD Performance & Accountability Report FY2005
                          ...........................................................................Part 1: Management’s Discussion and Analysis

                                                                                                                                        and conduct a limited number of smaller-scale
Management’s Discussion and Analysis                                                                                                    contingency operations.

This part of the report provides an overview of the
Department of Defense’s financial and performance
results for fiscal year (FY) 2005. Detailed performance
                                                                                                                                        Organization
information is presented in Part 2; detailed financial
                                                                                                                                        The Department of Defense (DoD) is America’s
information is presented in Part 3.
                                                                                                                                        oldest, largest, busiest, and most successful
                                                                                                                                        organization. Since the creation of America’s first
                                                                                                                                        army in 1775, the DoD has evolved to become a
   Mission, Organization, and Resources                                                                                                 global presence of 3 million individuals stationed in
                                                                                                                                        more than 146 countries dedicated to defending the
                                                                                                                                        United States by deterring and defeating aggression
Mission                                                                                                                                 and coercion in critical regions. The DoD works
                                                                                                                                        for America’s Chief Executive Officer, the President;
The mission of the United States Armed Forces is                                                                                        the Board of Directors, the Congress; and the
to defend the United States; deter aggression and                                                                                       Nation’s stockholders, the American people. As do all
coercion forward in critical regions; swiftly defeat                                                                                    successful organizations, the DoD embraces the core
aggression in overlapping major conflicts while                                                                                         values of leadership, professionalism, and technical
preserving for the President the option to call for a                                                                                   knowledge. Its employees are dedicated to duty,
decisive victory in one of those conflicts, including                                                                                   integrity, ethics, honor, courage, and loyalty.
the possibility of regime change or occupation;                                                                                         The chart below shows how the DoD is structured.


                                                                                                         Secretary of Defense
                                                                                                      Deputy Secretary of Defense


  Department of the Army                        Department of the Navy                       Department of the Air Force                        Office of the                                      Joint Chiefs of Staff (JCS)
                                                                                                                                              Secretary Defense              Inspector
   Secretary of the Army                         Secretary of the Navy                        Secretary of the Air Force                                                                                 Chairman JCS
                                                                                                                                                                              General
 Under Secretary      Chief of     Under Secretary         Chief of         Commandant       Under Secretary        Chief of                                                                              The Joint Staff
                                                                                                                                                 Under Secretaries,
        and          Staff, Army          and          Naval Operations    of Marine Corps          and          Staff, Air Force         Assistant Secretaries of Defense
 Asst. Secretaries                 Asst. Secretaries                                         Asst. Secretaries                                    and Equivalents                                         Vice Chairman JCS
   of the Army                       of the Navy                                              of the Air Force                                                                                           Chief of Staff, Army
                                                                                                                                                                                                       Chief of Naval Operations
                                                                                                                                                                                                        Chief of Staff, Air Force
                                                                                                                                                                                                      Commandant, Marine Corps
                 Army Major                   Navy Major                      Marine Corps Major                Air Force Major
             Commands & Agencies          Commands & Agencies                Commands & Agencies             Commands & Agencies




                                                                                                                                                                                         Unified Combatant Commands
                                                                                                                                                                                             - Central Command
                                                                                                                                                                                             - European Command
                                                                                                                                                                                             - Joint Forces Command
                                                                          DoD Field Activities                                               Defense Agencies                                - Northern Command
                                                                                                                                                                                             - Pacific Command
                                                                                                                                                                                             - Southern Command
                                                                                                                                                                                             - Special Operations Command
                                                                                                                                                                                             - Strategic Command
                                                                                                                                                                                             - Transportation Command




                                                                                                                                    
                                                                                  DoD Performance & Accountability Report FY2005
          ............................................................................Part 1: Management’s Discussion and Analysis

The Secretary and the Office of the Secretary                        Military Department. The Guard and Reserve are
                                                                     recognized as an indispensable and integral part
The Secretary of Defense and the Office of the                       of the Nation’s defense from the earliest days of a
Secretary of Defense are responsible for the                         conflict.
formulation and oversight of defense strategy and
policy. The Office of the Secretary of Defense                       Chairman of the Joint Chiefs of Staff
supports the Secretary in policy development,
planning, resource management, and fiscal and                        The Chairman of the Joint Chiefs of Staff is the
program evaluation.                                                  principal military advisor to the President, the
                                                                     National Security Council, and the Secretary of
Military Departments                                                 Defense. The Chairman assists the President and the
                                                                     Secretary in providing for the strategic direction of
The Military Departments consist of the Army,                        the armed forces, including operations conducted by
Navy (of which the Marine Corps is a component),                     the Commanders of the Combatant Commands. As
and the Air Force. In wartime, the U.S. Coast                        part of this responsibility, the Chairman also assists
Guard becomes a special component of the Navy;                       in the preparation of strategic plans and helps to
otherwise, it is a bureau of the Department of                       ensure that plans conform to available resource levels
Homeland Security. The Military Departments staff,                   projected by the Secretary of Defense.
organize, train, equip, and sustain America’s military
forces. When the President and Secretary of Defense                  Combatant Commands
determine that military action is required, these
trained and ready forces are assigned to a Combatant                 The nine Combatant Commands are responsible for
Command responsible for conducting the military                      conducting the DoD missions around the world.
operations.                                                          The Army, Navy, Air Force, and Marine Corps
                                                                     supply forces to these Commands.
The Military Departments include Active duty,
Reserve, and National Guard forces. Active duty
forces are full-time duty military service members.                                                               EUCOM
The Reserves, when ordered to active duty by                                    NORTHCOM
the Congress, support the active forces. They                                                           CENTCOM
are an extension of the active duty personnel and                                                                           PACOM
perform similarly when called into service. The
Reserves are also relied upon to conduct counter-                                   SOUTHCOM
drug operations, provide disaster aid, and perform                      PACOM
other peace-keeping missions. The National Guard
has a unique dual mission with both federal and
state responsibilities. In peacetime, the Guard is                   Five of these Commands have specific mission
commanded by the governor of each respective                         objectives for their geographic area of responsibility,
state or territory who can call the Guard into                       as shown in the map above:
action during local or statewide emergencies, such
as storms, drought, or civil disturbances. When                      •	 U.S. European Command (EUCOM) is
ordered to active duty for mobilization or called                       responsible for activities in Europe, Greenland,
into federal service for emergencies, units of the                      Russia, and most of Africa.
Guard are under the control of the appropriate DoD                   •	 U.S. Central Command (CENTCOM) is

                                                                 
                                                                                                   DoD Performance & Accountability Report FY2005
           ...........................................................................Part 1: Management’s Discussion and Analysis

   responsible for the Middle East, eastern Africa,                  Resources
   and several of the former Soviet republics. This
   Command is primarily responsible for conducting                   To provide Americans with the highest level of
   Operation Enduring Freedom in Afghanistan and                     national security, the DoD employs nearly
   Operation Iraqi Freedom.                                          1.4 million men and women in Active duty, more
•	 U.S. Pacific Command (PACOM) is responsible                       than 820,000 in the Reserve and National Guard,
   for China, Southeast Asia, Australia, and the                     and approximately 740,000 civilians. Together, these
   Pacific Ocean.                                                    men and women work daily to protect U.S. interests
•	 U.S. Southern Command (SOUTHCOM) is                               around the world.
   responsible for South America and the southern
   Caribbean.                                                                                           MILITARY & CIVILIAN
•	 U.S. Northern Command (NORTHCOM) is                                                                      PERSONNEL
                                                                                        1600
   responsible for North America and the northern                                       1400
   Caribbean.                                                                                      1,389,400
                                                                                        1200




                                                                           THOUSANDS
                                                                                        1000
Four Commands have worldwide mission                                                     800
responsibilities, each focused on a particular                                           600                                                            740,000
function:                                                                                400
                                                                                                                     381,200          439,600
                                                                                         200
                                                                                            0
•	 U.S. Strategic Command is responsible for                                                      Active Duty       Reserves       National Guard       Civilian
   providing global deterrence capabilities and                                        Source: FY 2006 President’s Budget and FY 2005 Emergency Supplemental Request

   synchronizing the DoD efforts to combat weapons
   of mass destruction worldwide.                                    The DoD’s worldwide infrastructure includes nearly
•	 U.S. Special Operations Command is responsible                    600,000 buildings and structures in more than 6,000
   for leading, planning, synchronizing and, as                      locations on more than 30 million acres of land in
   directed, executing global operations against                     146 countries. To protect the security of the United
   terrorist networks.                                               States, the Department uses approximately 250,000
•	 U.S. Transportation Command is responsible                        vehicles, 15,000 aircraft, 1,000 oceangoing vessels,
   for moving military equipment, supplies, and                      and 550 public utility systems.
   personnel around the world in support of
   operations.                                                       The Department’s budget for FY 2005 was $480.9
•	 U.S. Joint Forces Command is responsible for                      billion1. The chart below shows how the budget was
   developing future concepts for joint warfighting.                 divided among the three Military Departments and
                                                                     the DoD Department-wide functions.
Defense Agencies and the DoD Field Activities
                                                                                                   FY 2005 DoD BUDGET
Defense Agencies and the DoD Field Activities                                                                        ($ in Billions)

provide support services commonly used throughout                                                   Army
the Department. For instance, the Defense Finance                                                   $142.5                                         Air Force
                                                                                                                                                      $128.4
and Accounting Service provides accounting services,
contractor and vendor payments, and payroll
services; and the Defense Logistics Agency provides                                       Other DoD
                                                                                                $79.5                                      Navy/Marine Corps
logistics support and supplies to all the DoD                                                                                                       $130.5
activities.
                                                                     1
                                                                         Does not include Trust Fund or U.S. Army Corps of Engineers Civil Works appropriations.
                                                                 
                                                                                     DoD Performance & Accountability Report FY2005
             ............................................................................Part 1: Management’s Discussion and Analysis

The DoD, the federal government’s single largest                        that commitment. To demonstrate tangible benefits
agency, receives more than half the discretionary                       to the American public and to carefully monitor
budget of the United States. Looking to a future in                     its own performance, the Department uses the
which budgets likely will remain tight and subject                      performance management model depicted in the
to greater scrutiny, and the tempo of day-to-day                        diagram below. Each component of the model is
military operations will remain high, the cost-                         described below.
effectiveness of America’s forces takes on increased
importance.                                                             Mission. Explains why the DoD exists, tells what it
                                                                        does, and describes how it does it.
The Department uses a variety of metrics to
demonstrate accountability for the resources                            Strategic Objectives. High-level, broad actions
provided by the American people. This report                            through which the Department carries out the
highlights those metrics in the next two sections                       military, national security, and defense strategies.
of Management’s Discussion and Analysis,
“Performance Objectives, Goals, and Results” and                        Strategic Goals. The Department’s strategic goals
“Analysis of Financial Statements and Stewardship                       center on balancing risk in four key risk management
Information.”                                                           framework areas.

                                                                        Performance Goals. The desired outcomes the
        Performance Objectives, Goals,                                  Department plans to achieve to attain its strategic
                                                                        goals. The Department has 16 performance goals,
                and Results
                                                                        four for each strategic goal.
Key Performance information is summarized in this
                                                                        Performance Measures. A series of indicators,
section; details are provided in Part 2 of this report.
                                                                        expressed in qualitative, quantitative, or other
                                                                        tangible terms that the Department uses to
                                                                        indicate whether current performance achieves the
How the DoD Assesses Performance                                        performance goals.

                                                                        Performance Targets. Expressions of desired
                                                                        performance levels or specific desired results targeted
                     T




                               Mission
                                                ST
                  EN




                                                RA




                               Strategic                                for a given fiscal year. Achievement of targets defines
               SM




                                                  TE




                              Objectives
                                                                        success. Where possible, targets are expressed in
              ES




                                                    GIC
            SS




                                                                        quantifiable terms.
                                                     PL




                            Strategic Goals
           A
        CE




                                                       AN
        N




                                                         NIN
     MA




                          Performance Goals                             The fiscal year (FY) 2005 Performance and
                                                          G
   OR




                                                                        Accountability Report chronicles the Department’s
  RF




                         Performance Measures
                                                                        achievements toward meeting its FY 2005
PE




                                                                        performance goals and targets.
                         Performance Targets



                                                                        Defense Strategy and Strategic Planning
The DoD is committed to effective resource
stewardship and has implemented numerous
                                                                        As directed in the 2002 National Security Strategy,
performance and financial measures to help meet
                                                                        the Department is implementing the President’s
                                                                    6
                                                                                  DoD Performance & Accountability Report FY2005
           ...........................................................................Part 1: Management’s Discussion and Analysis

commitment “to build a safer, better world that                      a favorable international system by honoring the
favors human freedom, democracy, and free                            security commitments and working with others
enterprise.” The 2005 National Defense Strategy                      to bring about a common appreciation of threats;
outlines DoD’s approach to dealing with challenges                   a broad, secure and lasting peace; and the steps
it will likely confront, not just those it is currently              required to protect against these threats.
best prepared to meet. The intent is to create
favorable security conditions around the world and                   The Department is focusing efforts on four key
to continue transforming how the Department                          actions that enable accomplishment of these strategic
thinks about security, formulates strategic objectives,              objectives.
and adapts to achieve success. The 2005 National
Defense Strategy emphasizes the importance of                        One action is to assure allies and friends.
influencing events before challenges become more                     Throughout the Cold War, U.S. military presence
dangerous and less manageable.                                       and activities abroad upheld America’s commitment
                                                                     to its international partners. The U.S. shared risks
To guide the Department’s activities in support of                   by contributing to their physical defense. Now,
the broader effort to create conditions conducive                    given new challenges, the DoD aims to assure a
to a secure international system—as the President’s                  growing and more diverse community of partners
National Security Strategy states, a balance of power                of that same commitment. Another action is to
that favors freedom—the Department established                       dissuade potential adversaries. Would-be opponents
four strategic objectives. These strategic objectives                will seek to offset U.S. military advantages. In
serve as links between defense activities and those                  response, the Department will work to limit their
of other government agencies in pursuit of national                  strategic options and dissuade them from adopting
security goals.                                                      threatening capabilities, methods, and ambitions,
                                                                     particularly by sustaining and developing key
Secure the United States from direct attack. The                     U.S. advantages. A third action to accomplish
Department will give top priority to dissuading,                     the Department’s strategic objectives is to deter
deterring, and defeating those who seek to harm                      aggression and counter coercion. During the Cold
the U.S. directly, especially violent extremists with                War, deterrence was based necessarily on the threat
weapons of mass destruction.                                         of a major response after suffering an attack. Today,
Secure strategic access and retain global freedom of                 there are many scenarios where the U.S. is not
action. The Department will promote the security,                    willing to accept the huge consequences of an attack
prosperity, and freedom of action of the U.S. and its                before responding. Therefore, current deterrence
partners by securing access to key regions, lines of                 policy places increasing emphasis on preventing
communication, and the global commons.                               and protecting against attacks. This requires
                                                                     maintaining rapidly deployable military forces and,
Strengthen alliances and partnerships. The                           when necessary, demonstrating the will to resolve
Department will assist in expanding the community                    conflicts decisively on favorable terms. Lastly, when
of nations that share principles and interests with the              deterrence fails or efforts short of military action do
U.S. and help these partners increase their capacity                 not forestall gathering threats, the U.S will employ
to defend themselves and collectively meet challenges                military power, together with other instruments of
in the Nation’s interest.                                            national power, as necessary, to defeat adversaries.
                                                                     At the direction of the President, the Department
Establish favorable security conditions. The                         will defeat adversaries in a manner that establishes
Department will create conditions conducive to                       conditions conducive to a secure peace.

                                                                 
                                                                                  DoD Performance & Accountability Report FY2005
          ............................................................................Part 1: Management’s Discussion and Analysis

The strategic circumstances of the 21st century                      necessities for contending with the diverse and ever
are far different today from those of the Cold War.                  changing set of security challenges facing the U.S.
However, as described in the 2005 National Defense
Strategy, America remains vulnerable to security                     Experience in the war on terrorism has also
challenges in this age of uncertainty. America has                   underscored the need for a changed defense
learned that an unrivaled capacity to respond to                     establishment—one postured both for extended
traditional challenges is no longer sufficient. The                  conflict and continuous transformation. The
consequences of even a single catastrophic attack,                   U.S. is in a long-term struggle against persistent,
for example, are unthinkable. Therefore, the                         adaptive adversaries, and must transform to prevail.
U.S. must confront challenges earlier and more                       Transformation is not only about technology. It is
comprehensively, before they are allowed to mature.                  also about changing perspective in thinking about
The Department must plan with surprise in mind.                      challenges and opportunities facing the Nation,
                                                                     adapting the defense establishment to that new
To contend with a world of uncertainty and surprise,                 perspective, and refocusing capabilities to meet
the Department shifted its strategic planning from                   future challenges. Therefore, the Department will
the “threat-based” model that guided DoD thinking                    continually adapt how it approaches and confronts
in the past to a “capabilities-based” model for the                  challenges, conducts business, and works with
future. Capabilities-based planning focuses more                     others.
on how adversaries may challenge the U.S. rather
than on who those adversaries might be or where                      This demands an adaptive strategy, predicated on
conflict may occur. Under the threat-based model,                    creating and seizing opportunities and contending
planners looked at a threat posed, for example, by                   with challenges through an active, layered defense of
the former Soviet Union, and fashioned a force to                    the Nation and its interests. The U.S. will seize the
fit it. Under a capabilities-based model, planners                   strategic initiative in all areas of defense activity—
examine the capabilities that exist to threaten the                  assuring, dissuading, deterring, and defeating. The
U.S., such as chemical, biological, nuclear, or                      U.S. must also defeat the most dangerous challenges
cyber-space capabilities, and fashion a response to                  early and at a safe distance, before they are allowed
contend with those capabilities regardless of where                  to mature. Such preventive actions include security
they might originate. This new approach focuses                      cooperation, forward deterrence, humanitarian
the Department on the growing range of capabilities                  assistance, peace operations, and non-proliferation
and methods it must possess to contend with an                       initiatives. The concept of active, layered defense
uncertain future. Operating within fiscal constraints,               includes international partners. Thus, among the
this new approach enables the Secretary of Defense                   key goals of the National Security Strategy is to work
and Combatant Commanders to balance risk across                      with other nations to resolve regional crises and
traditional, irregular, disruptive, and catastrophic                 conflicts.
challenges.
                                                                     Managing risk is a central element of the defense
As such, Cold War programs and weapons systems                       strategy. It involves balancing the demands of the
have been canceled or significantly modified, and                    present against preparations for the future consistent
lighter, faster systems have been added, as well as                  with the Department’s strategic objectives and forms
new technological advancements such as unmanned                      the basis for the strategic goals. The Quadrennial
vehicles, laser communications, and new satellites                   Defense Review is the Department’s vehicle for risk
for advanced command and control. All are tied                       assessment. The Quadrennial Defense Review is a
together by the concept of net-centric warfare                       comprehensive examination of the national defense
and truly joint/combined operations – absolute                       strategy, force structure, force modernization,
                                                                 
                                                                                   DoD Performance & Accountability Report FY2005
            ...........................................................................Part 1: Management’s Discussion and Analysis

infrastructure, budget plan, and other elements of                    and defeating adversaries. America is a Nation
the defense program and policies of the U.S. It                       at war, and the war on terrorism has exposed
allows the Secretary to consider the full range of risks              new challenges, but also unprecedented strategic
associated with resources and operations and manage                   opportunities to work at home and with our
explicit tradeoffs across the Department.                             international partners to create conditions favorable
                                                                      to a secure international order. The Department’s
The risk framework comprises force management                         2005 Quadrennial Defense Review is now underway,
risk, operational risk, institutional risk, and future                is incorporating these new challenges and is
challenges risk:                                                      discussed in the last section of Part 1, titled “Looking
                                                                      Forward: Challenges for 2006 and Beyond.”
1)	 Force management risks are those associated with
    managing military forces fulfilling the missions
    described in the 2005 National Defense Strategy.                  Annual Performance Plan
    The primary concern is the ability to recruit,
    retain, train, and equip a ready force and sustain                The Secretary’s Annual Defense Report serves as the
    that readiness.                                                   Department’s annual performance plan. The Annual
                                                                      Defense Report incorporates the strategic objectives
2)	 Operational risks are those associated with the                   and goals of Quadrennial Defense Review Report,
    current force executing the strategy successfully                 as refined by the National Security, Defense, and
    within acceptable human, material, financial,                     Military Strategies.
    and strategic costs.
                                                                      The annual performance plan identifies four
3)	 Institutional risks are those associated with the                 performance goals for each strategic goal, which
    capacity of new command, management, and                          are then further defined and measured by 71
    business practices.                                               corresponding metrics (measures and targets). These
                                                                      performance goals or dimensions of risk cannot
4)	 Future challenges risks are those associated                      be assessed and managed independently because
    with the Department’s capacity to execute                         choices in one area affect choices in others. The
    future missions successfully against an array of                  Department’s guiding principle for managing risk is
    prospective future challengers.                                   to deliberate choices that balance across and within
                                                                      the four risk areas.
These four dimensions of risk cannot be assessed and
managed independently. Choices in one area affect                     Strategic Goal 1: Balancing Force Management
choices in others. The Secretary makes deliberate                     Risk. Specific performance goals include:
choices that balance across and within the four risk                      1.1	Ensure Sustainable Military Tempo and
areas.                                                                        Maintain Workforce Satisfaction.
                                                                          1.2	Maintain a Quality Workforce.
The 2005 National Defense Strategy builds                                 1.3	Maintain Reasonable Force Costs.
upon the Department’s last Quadrennial Defense                            1.4	Shape the Force of the Future.
Review and culminating Report in 2001. Since
the 2001 Quadrennial Defense Review Report was                        Strategic Goal 2: Balancing Operational Risk.
released, events have confirmed the importance of                     Specific performance goals include:
assuring our allies and friends, dissuading potential                     2.1	Maintain Force Readiness (Are Our Forces
adversaries, deterring aggression and coercion,                                Currently Ready?).

                                                                  
                                                                                  DoD Performance & Accountability Report FY2005
          ............................................................................Part 1: Management’s Discussion and Analysis

    2.2	Ensure Superior Capabilities Exist to                        provide relief for Hurricane Katrina and Hurricane
        Succeed (Are Our Forces Postured to                          Rita victims, and completed its Base Closure and
        Succeed?).                                                   Realignment recommendations to further transform
    2.3	Align Forces Consistent with Strategic                       the Department and optimize resources to support
        Priorities (Are Our Forces Employed                          the warfighter.
        Consistently With Our Strategic Priorities?).
    2.4	Transition Forces Rapidly to Meet New                        The following paragraphs summarize the
        Threats (Do We Have the Right Forces                         Department’s performance results for the past fiscal
        Available?).                                                 year, and describe progress in achieving the results
                                                                     needed to meet the goals in each of the risk areas
Strategic Goal 3: Balancing Institutional Risk.                      identified by the Annual Performance Plan.
Specific performance goals include:
    3.1	Improve the Readiness and Quality of Key                     Strategic Goal 1: Balancing Force
         Facilities.                                                 Management Risk – recruit, retain, train, and
    3.2	Manage Overhead and Indirect Costs.                          equip a ready force and sustain readiness.
    3.3	Realign Support to the Warfighter.
    3.4	Streamline the Decision Process, Improve                     The Department continued its efforts to maintain
         Financial Management, and Drive                             a quality workforce satisfied with its quality of life,
         Acquisition Excellence.                                     while making the best use of every dollar invested in
                                                                     the workforce and shaping the DoD workforce for
Strategic Goal 4: Balancing Future Challenges Risk.                  the future. Thirty-seven metrics measure progress
Specific performance goals include:                                  toward the four performance goals under Balancing
    4.1	Define and Develop Transformational                          Force Management Risk. Some of these metrics still
         Capabilities.                                               are under development or just beginning to collect
    4.2	Define Skills and Competencies for the                       information, so meaningful, quantitative data is
         Future.                                                     not yet available. In general, the preliminary steps
    4.3	Develop More Effective Organizations.                        required to establish these metrics were completed
    4.4	Drive Innovative Joint Operations.                           according to schedule in FY 2005.
The Annual Defense Report and more information                       Success stories in Force Management include two
on each of the strategic and performance goals and                   metrics where performance exceeded the goals by
the corresponding 71 metrics can be found at http://                 a wide margin. First, Active Component Enlisted
www.defenselink.mil/execsec/adr2004/index.html.                      Recruiting Quality (Metric 1.2.7) measures recruits’
                                                                     educational levels and scores on standardized
                                                                     aptitude tests taken by all military applicants.
Performance Assessment for FY 2005                                   Working with the National Academy of Sciences,
                                                                     the DoD established benchmarks to support this
During FY 2005, the DoD effectively accomplished                     metric that are highly accurate indicators of a
its mission. On the international front, the                         recruit’s success in the military. As an example, the
Department faced challenges with the fierceness                      DoD aimed to fill, at a minimum, 90 percent of its
of the insurgencies in Afghanistan and Iraq, the                     available recruitment slots with individuals that have
deterioration of the relationship with Iran, and the                 earned a high school diploma; as of the end of third
mobilization of relief efforts following the tsunami                 quarter FY 2005, 94 percent of recruits had earned a
in Asia. Closer to home, the DoD led efforts to                      high school diploma.

                                                                10
                                                                                  DoD Performance & Accountability Report FY2005
           ...........................................................................Part 1: Management’s Discussion and Analysis

Second, Military Personnel Costs—Enlisted Pay                        after factoring in normal attrition, promotions, etc.
Gap (Metric 1.3.7) tracks the percentage of the                      Overall, as of the end of the third quarter, the DoD
pay gap between military and civilian pay that has                   fell short and reached only 77,375 or 83 percent
been closed. Experience shows that when military                     of its goal of recruiting slightly more than 93,000
is significantly less than the 70th percentile, as                   reservists. The Marine Corps and the Air Force
compared to civilian pay, recruiting and retention                   Reserves, however, met their targets. The Army
problems may arise. The DoD has established                          National Guard and Army Reserve fell short of their
annual targets to close the gap at a rate of 25 percent              targets and are not expected to achieve their goals
annually until the gap is eliminated. The DoD                        for the year. Enhanced recruiting and retention
exceeded its annual target for FY 2005 by closing                    incentives are helping to attract new Reservists.
the gap 54 percent over the previous year through
an average pay increase, an average basic allowance                  Finally, some goals were not met due to a variety of
increase for housing, and an increase in the basic                   factors. For instance, Critical Skill Recruit Needs
allowance for subsistence. Overall, 88 percent of the                (Metric 1.2.4) tracks the ability of the Services to
enlisted pay gap has been closed.                                    recruit for Active duty individuals that fit one or
                                                                     more criteria, e.g., possess skills crucial to combat
The Department came close to meeting its                             readiness or meet high entrance standards. The FY
performance goals for some of the metrics. “Came                     2005 target was to fill all critical skills at 95 percent
close” is defined as estimated to be within a few                    or more. The results, as of the third quarter, showed
percentage points of the target, yet still within                    that one-third (22 of 67) of the designated critical
range to be considered acceptable performance. For                   skills did not meet that threshold. In particular,
example, Satisfaction with Access to Medical Care                    the Army reported notable declines in a significant
(Metric 1.1.5) measures individuals’ satisfaction with               majority of critical skills. These shortcomings
access to appointments in TRICARE Prime, which                       are attributed to a more challenging recruiting
is the Military Health Care System’s equivalent of                   environment, which the Department is addressing
a health maintenance organization. Health care                       through various recruiting and retention incentives
is a quality of life issue that affects recruitment,                 and bonuses.
retention, and ultimately job satisfaction in any
profession. The DoD’s target was a satisfaction rate                 Strategic Goal 2: Balancing Operational
of 84 percent or higher; as of third quarter, the rate               Risk – achieve and maintain operational
was 81.2 percent. The Department came up short                       superiority.
on this goal due to a larger percentage of medical
appointments for Active duty personnel, who                          Prior to 2001, the DoD measured operational
tend to be younger and have higher expectations.                     risk almost exclusively in terms of the ability
Steps taken to improve the score in the future                       of the Armed Forces to wage two major wars
include using more contract physicians to improve                    simultaneously in Northeast Asia and Southwest
appointment availability.                                            Asia. In 2001, the Department adopted a
                                                                     capabilities-based approach that reflects the fact
Some metrics showed mixed results; i.e., some                        that the DoD cannot be certain which nation,
Military Departments met or exceeded targets while                   combination of nations, or non-state actor will pose
others fell short. For example, Reserve Component                    threats to vital U.S. interests decades from now.
Enlisted Recruiting Quantity (Metric 1.2.10)                         This new approach more realistically captures the
tracks the number of new Reserve recruits against                    demands facing the armed forces by focusing more
targets designed to maintain required strengths                      on how an adversary might fight rather than on the

                                                                11
                                                                                   DoD Performance & Accountability Report FY2005
           ............................................................................Part 1: Management’s Discussion and Analysis

identity of the adversary or where a war might occur.                   systems to assess the percentage of forces ready for
It requires identifying capabilities that U.S. military                 specific joint tasks to address diverse requirements.
forces will need to deter and defeat adversaries who                    These systems will enable DoD to develop the
will rely on surprise, deception, and non-traditional                   ability to rapidly transition forces to post-hostility
styles of warfare to achieve their objectives.                          operations, and identify and deter threats to the
                                                                        U.S., while standing ready to assist civil authorities
Nine metrics measure the progress toward the four                       in mitigating the consequences of a terrorist attack
Balancing Operational Risk performance goals.                           or other catastrophic event. In FY 2005, the
These metrics are under development and progress                        DoD updated and used analytic baselines, a set of
is measured by adherence to specific milestones.                        common scenarios and data, to assess mobility and
Quantitative data will not be available until after FY                  air refueling capabilities.
2005. Metric examples include:
                                                                      Strategic Goal 3: Balancing Institutional Risk
•	 Adaptive Planning (Metric 2.1.1). This metric                      – align the organization and its resources to
   will ensure the capability to produce plans that                   support the warfighter.
   are more timely, adaptive, and responsive to the
   current security environment, providing relevant                   As the Department transforms its military
   options to the President and the Secretary of                      capabilities to meet changing threats, it also must
   Defense. In FY 2005, the DoD began applying                        transform its institutions to ensure that its people
   adaptive planning concepts into contingency                        can focus their immense talents on defending
   planning guidance and several warplans.                            America, and that they have the resources,
                                                                      information, and freedom to perform. This means
•	 Global Force Management (Metric 2.2.1). This                       changing the way the Department conducts its
   metric develops an integrated force assignment,                    daily business, because the current organizational
   apportionment, and allocation methodology.                         arrangements, processes, and systems are draining
   It provides comprehensive insight into U.S.                        scarce resources from training, infrastructure,
   forces available worldwide, and accounts for                       operations, and housing.
   ongoing operations and constantly changing unit
   availability. The Secretary approved the guidance                  This area has four performance goals to improve
   for the program in May 2005. The DoD also                          institutional management that focus on improving
   chartered five Global Force Management Boards                      readiness and quality of facilities, timeliness of
   led by Joint Staff study teams.                                    support, and financial management; streamlining
                                                                      processes; and reducing administrative costs.
•	 Joint Concepts (Metric 2.3.1). This metric guides                  Fourteen metrics track achievements in this area.
   the transformation of the joint force so that it                   For example, Reduce Percentage of DoD Budget
   is prepared to operate successfully 8-20 years in                  Spent on Infrastructure (Metric 3.2.1), is used
   the future. In simple terms, the joint force will                  to measure the trend in resources toward less
   eliminate military “stovepipes” by seamlessly                      infrastructure and more mission programs. The
   combining the armed forces’ capabilities necessary                 DoD’s target, set in FY 2004, is 41 percent; for
   to address a situation or event. In FY 2005, the                   FY 2005, the projected percentage is 42 percent
   Joint Staff developed and the Secretary approved                   – slightly higher than the annual performance target.
   four joint operation concepts.
                                                                      The DoD also measures Customer Wait Time
•	 Operational Availability (Metric 2.4.1). This                      (Metric 3.3.1). The purpose of this metric is to
   metric ensures integrated data and management
                                                                 12
                                                                                  DoD Performance & Accountability Report FY2005
           ...........................................................................Part 1: Management’s Discussion and Analysis

measure customer wait time in filling orders for                       program. The task of developing enduring
military equipment materials, and spare and repair                     outcome goals and measures involves a significant
parts. The targeted turnaround time in filling                         amount of developmental research and analysis. In
customer orders was 15 days; the DoD average wait                      FY 2005, the DoD initiated a polygraph program
time as of the third quarter was 21 days due to heavy                  and began conducting polygraph examinations
demands of Operation Iraqi Freedom.                                    on translators and other personnel prior to their
                                                                       arrival at Guantanamo Bay.
Strategic Goal 4: Balancing Future Challenges
Risk – execute future missions successfully                          •	 Attract, Recruit, Retain, and Reward High Quality
against an array of prospective challengers.                            People from Government, Industry, and Academia
                                                                        (Metric 4.2.1). This metric measures the DoD’s
While many elements of America’s existing military                      success in bringing to its intelligence community
force will continue to contribute to the DoD’s                          people with broad and varied experiences who
capabilities, the DoD needs to develop new, leading-                    are agile problem solvers and can operate in an
edge capabilities to meet the challenges of tomorrow.                   environment that changes as the threat changes.
The Department needs to rapidly convert innovative                      A key first step in FY 2005 was to establish a
warfighting concepts from prototypes into fielded                       common human resources system for the DoD
capabilities. It needs to define the skills required                    intelligence community.
for the future and plan to recruit, train, and retain
talented individuals who have those special abilities.               •	 Enhance Homeland Defense and Consequence
Finally, the DoD must continue to experiment with                       Management (Metric 4.3.1). This metric
new warfare concepts, enhance its intelligence-                         required the development of a comprehensive,
gathering capabilities, and maintain its science and                    Defense-wide Strategy for Homeland Defense
technology strengths.                                                   and Civil Support, which was issued in June
                                                                        2005. This strategy incorporates an integrated
This strategic goal has four performance goals, which                   threat assessment and addresses force structure,
include 11 metrics. Most of these metrics are under                     technology, and resource implications. It includes
development and progress is measured by adherence                       implementation actions that will be reported in the
to specific milestones. Quantitative data will not                      FY 2006 Performance and Accountability Report.
be available until after FY 2005. Examples of these
metrics include:                                                     •	 Maintain Balanced and Focused Science and
                                                                        Technology (Metric 4.4.2). This metric is
•	 Deny Enemy Advantages and Exploit Weaknesses                         designed to ensure a balanced and focused
   (Metric 4.1.1). This metric focuses on specific                      investment by funding basic research, applied
   steps necessary to establish strategic outcomes                      research, and advanced technology development.
   and efficiency measures to gauge the effectiveness                   The DoD established percentage goals for each
   of America’s intelligence activities and the DoD’s                   category; as of the end of FY 2005, the balance
   training and associated program structures. Many                     between the funding levels was close enough to be
   domestic, international, and organizational                          viewed as meeting the goal.
   variables contribute to the success of the overall




                                                                13
                                                                                   DoD Performance & Accountability Report FY2005
           ............................................................................Part 1: Management’s Discussion and Analysis

   Analysis of Financial Statements and                               was the establishment of a Business Enterprise
        Stewardship Information                                       Architecture, a guide for investments in the DoD
                                                                      organization, operations, and systems as they relate
This section summarizes key financial information;                    to or affect business operations. The architecture
Part 3, Financial Information, provides more details.                 plays a critical role in transformation by establishing
                                                                      clear links among systems/initiatives, business
Supporting the Department’s warfighting mission is                    capabilities, Business Enterprise Priorities, and core
critical to defending the Nation’s security. Among                    business missions. Business systems development
other things, success hinges on sound and reliable                    consists of setting priorities based on warfighting
financial management. “Clean” or unqualified                          needs and financial accountability, assigning
audits are one element of success. Overall success                    programs to provide the capabilities of those
will be achieved when the DoD has accounted for                       priorities, refining the architecture and transition
all monies expended past and present, eliminated                      plans to support those particular decisions, funding
redundancies, revealed and corrected errors,                          the approved programs, and then implementing
and directed the savings from this effort toward                      the transformation. The architecture evolves and
improving the mission-readiness of those who serve                    matures as the Department defines its priorities,
this country.                                                         identifies emerging viable programs, and institutes
                                                                      Department-wide standards.
The DoD continues to improve financial
management by overhauling the Department’s                            In 2005, the Department developed an Enterprise
business and financial management processes and                       Transition Plan, which provides an iterative,
systems. This represents a major management                           modular, and tiered approach to enable a
challenge that goes far beyond financial accounting.                  manageable transformation. The plan highlights
The Secretary and his senior leaders are committed                    the business capabilities that the DoD needs to
to changing the Department’s business culture,                        support warfighter requirements, identifies the
thus improving the Department’s combat support                        known systems and non-systems solution to achieve
infrastructure. The DoD has three primary                             business transformation, and identifies the resources
mechanisms in place to achieve these goals: the                       for implementing those solutions. The Enterprise
Business Management Modernization Program                             Transition Plan provides key milestones to mark the
(BMMP), the Financial Improvement and Audit                           path to transformation and measure progress along
Readiness (FIAR) Plan, and the Under Secretary                        that path.
of Defense (Comptroller) Strategic Plan (FY 2005
- 2009).                                                              Additionally, the Department implemented the
                                                                      concept of tiered accountability whereby systems or
                                                                      initiatives that affect Department-wide capabilities,
                                                                      or meet specific investment thresholds, are managed
Business Management Modernization                                     and reviewed as part of the DoD-wide portfolio.
Program                                                               Business systems and initiatives not meeting those
                                                                      criteria are delegated to the DoD components for
In 2001, the Department established this program                      management and review.
as the foundation to transform the DoD business
operations. Its approach targets essential business                   The Defense Business Systems Management
capabilities and functions, and creates integrated and                Committee chaired by the Acting Deputy Secretary
executable plans to achieve business and financial                    of Defense defines the Business Enterprise Priorities
transformation. One of its early achievements                         based on desired outcomes—those areas where
                                                                 14
                                                                                  DoD Performance & Accountability Report FY2005
           ...........................................................................Part 1: Management’s Discussion and Analysis

transformed business operations will improve                         structure using a common language, enabling senior-
warfighter support, reduce costs, and improve                        level DoD decision makers to weigh options and
regulatory compliance. In FY 2005, the Committee                     resource constraints across a spectrum of challenges.
approved six Business Enterprise Priorities and 43                   The Framework will help link the Department’s
initiatives to achieve them. One of those priorities,                strategic plans, programs, and budgets to accounting
the Financial Visibility Priority, focuses on achieving              and performance data.
enhanced end-to-end financial information flow
and visibility that will benefit the warfighter while
continuously improving financial transparency and                    Financial Improvement and Audit
reducing systems complexity. The Department
                                                                     Readiness Plan
defined six core financial capabilities in support of
the Financial Visibility Priority, including:
                                                                     Recognizing the need for a comprehensive,
                                                                     integrated financial improvement plan to orchestrate
•	 Forecast, plan, program, and budget;
                                                                     the financial improvement efforts of the DoD
•	 Manage financial assets and liabilities;
                                                                     components, ensure integration and leverage
•	 Funds allocation, collection, disbursement, and
                                                                     of BMMP solutions, and provide the roadmap
   control;
                                                                     to verification of improvements through audit,
•	 Manage General Ledger;
                                                                     the Department initiated an effort to develop,
•	 Managerial accounting; and
                                                                     manage and execute a FIAR Plan. This plan
•	 Financial reporting.
                                                                     complements the BMMP’s Enterprise Transition
                                                                     Plan by integrating the Financial Visibility Priority
The DoD established performance measures to
                                                                     discussed above with component-level FIAR Plans.
monitor and guide activities that will lead to the full
                                                                     The FIAR Plan is focused on, but not limited to,
development and maintenance of those financial
                                                                     the Department’s near-term objectives in four
capabilities. The FY 2005 accomplishments include
                                                                     major areas: Military Equipment, Medicare Eligible
developing a Standard Financial Information
                                                                     Retiree Health Care Fund, Real Property, and
Structure (SFIS) and initiating a Program/Budget
                                                                     Environmental Liabilities. These areas comprise
Framework.
                                                                     some of the most significant balance sheet categories;
                                                                     improving these areas will greatly enhance the
The SFIS standardizes Department-wide financial
                                                                     Department’s financial auditability.
information supported by the U.S. Standard General
Ledger and marks a major step in achieving the
                                                                     Major DoD components have prepared a FIAR Plan
financial management capabilities listed above.
                                                                     that delineates specific steps to meet a prescribed set
The DoD incorporated SFIS, a DoD-wide data
                                                                     of business rules for achieving financial improvement
structure that supports the Department’s budget,
                                                                     that is verified by audit. Issued by the DoD Chief
cost/performance management, and external
                                                                     Financial Officer in FY 2004, these business rules,
reporting requirements, into its Business Enterprise
                                                                     or phases as they are sometimes called, are Discovery
Architecture. As a common business language, SFIS
                                                                     and Correction, Validation, Assertion, Assessment,
provides the means to track and audit transaction-
                                                                     and Audit. These business rules force the
level financial information, thus enabling financial
                                                                     components to consider all pertinent factors when
statement auditability consistent with the Federal
                                                                     determining tasks and solutions, yet provide the
Financial Management Improvement Act.
                                                                     flexibility to account for unique circumstances and
                                                                     environments. Although the estimated end dates for
The Program/Budget Framework initiative provides
                                                                     corrective action and completion of all phases vary,
a foundation for a new Program/Budget data
                                                                15
                                                                                                     DoD Performance & Accountability Report FY2005
               ............................................................................Part 1: Management’s Discussion and Analysis

the process, business philosophy, and critical factors                              indicators monitor and guide financial management
are uniform across the Department. Over time, the                                   reform and target resources to areas where the DoD
FIAR Plan will enable the DoD to cost-effectively                                   needs better stewardship of financial resources.
generate reliable financial data and forecast accurate
budget expenditures and needs.
                                                                                    Financial Improvement Progress and
                                                                                    Results
Under Secretary of Defense
(Comptroller) Strategic Plan                                                        To date, the Department-wide financial statements
(FY 2005 - 2009)                                                                    have received a disclaimer of opinion from the
                                                                                    auditors, which means that the financial information
The mission of the Office of the Under Secretary of                                 displayed in the statements is in such poor condition
Defense (Comptroller)/Chief Financial Officer is to                                 that the auditors are unable to express an opinion.
ensure that the Department’s budget and financial                                   The auditors have noted 11 specific financial
expenditures support the national security objectives                               statement weaknesses, which the Department has
of the United States. This mission highlights proper                                been working to resolve through various initiatives.
stewardship and business management of taxpayer                                     These weaknesses and the Department’s mechanisms
dollars in support of the Department. The strategic                                 in place to address them, as well as the Department’s
plan establishes executive-level performance goals                                  progress are discussed below. Overall, the DoD’s
and tracks results; designates key performance                                      inability to obtain an unqualified or “clean” opinion
outcomes, measures, and indicators; and assigns                                     on its financial statements is due to inadequate
responsibility for metrics to individual component                                  systems and business processes.
levels within the Department. Budget and financial

                                                                   Primary
   Financial                                                                                                                                      Target
                                                                  Corrective
   Statement                       Description                                                               Status                             Completion
                                                                    Action
   Weakness                                                                                                                                        Date
                                                                  Mechanism
  Financial          The DoD systemic deficiencies in               BMMP            Implementation of the DoD BMMP Enterprise Transition         FY 2015
  Management         financial management systems and                               Plan and the BMMP Business Enterprise Architecture
  Systems            business processes result in the inability                     containing financial management elements, including the
                     to collect and report financial and                            SFIS, will resolve this material weakness.
                     performance information that is accurate,
                     reliable, and timely.
  Intra-             The inability to reconcile most                BMMP            Under the BMMP Financial Visibility initiative               FY 2015
  governmental       intragovernmental transactions results                         "Intragovernmental Transactions," DoD will develop
  Eliminations       in adjustments that cannot be fully                            standardized, consolidated and integrated processes and
                     supported.                                                     system components.

  Accounting         The DoD continues to enter material            BMMP            Resolving this material weakness requires the                FY 2015
  Entries            amounts of unsupported accounting                              implementation of the BMMP Enterprise Transition Plan
                     entries.                                                       and the BMMP Business Enterprise Architecture solutions,
                                                                                    including the SFIS, Business Enterprise Information
                                                                                    Services, and Intragovernmental Transactions initiatives.
                                                                                    Additionally, deployment of modern accounting systems
                                                                                    capable of using the SFIS is required. Resolution of this
                                                                                    material weakness will be achieved incrementally as the
                                                                                    BMMP solutions and systems are implemented.




                                                                               16
                                                                                                       DoD Performance & Accountability Report FY2005
                ...........................................................................Part 1: Management’s Discussion and Analysis


                                                                    Primary
 Financial                                                                                                                                             Target
                                                                   Corrective
 Statement                          Description                                                                 Status                               Completion
                                                                     Action
 Weakness                                                                                                                                               Date
                                                                   Mechanism
Fund Balance         The Department has been unable to fully       FIAR Plan         The Department strengthened internal controls for                FY 2009
with Treasury        reconcile its records to those of the U.S.                      disbursements through reconciliation training and metric        (Army and
                     Treasury.                                                       tracking to more accurately record disbursements. The            Air Force
                                                                                     Department obtained the necessary legislation to clear, and       plan to
                                                                                     did clear, old unreconcilable suspense accounts and check       have ready
                                                                                     issue differences totaling $609 million through FY 2005.        for audit in
                                                                                     The Department has a multi-phase program underway to             FY2006)
                                                                                     enhance system functionality for improving expenditure
                                                                                     reconciliation and reporting.
Environmental        Guidance and audit trails are insufficient.   FIAR Plan         The Department issued guidance for closed sites in                FY 2010
Liabilities          The inventory of ranges and operational                         October 2002. The Department plans to issue financial
                     activities (landfills, open burning pits,                       guidance for ongoing operational activities by December
                     etc.) is incomplete.                                            2005. Inventories of operational and non-operational
                                                                                     ranges are complete. Additional review and validation are
                                                                                     needed to ensure audit trails are sufficient.
General              The cost and depreciation of the              FIAR Plan         The Department implemented guidance and training to               FY 2011
Property,            DoD General PP&E is not reliably                                improve property accountability and provide better financial
Plant, and           reported due to: (1) a new accounting                           reporting. The Department has completed 95 percent of
Equipment            requirement that went into effect in                            Army and Navy initial military equipment valuations and
(PP&E)               FY 2003 that classifies military                                100 percent of Air Force valuations. The Department plans
                     equipment as General PP&E (such costs                           to complete valuations of all known military equipment
                     were previously expensed), (2) a lack of                        programs by December 2005. The military equipment
                     supporting documentation for General                            baseline will be updated to a single base year in FY 2006.
                     PP&E which were purchased many                                  The Department began development of a system that will
                     years ago, and (3) most legacy property                         facilitate the update and maintenance of baseline values.
                     and logistics systems are not integrated                        The system will be deployed as a pilot by December 2005
                     with acquisition and financial systems                          and will be fully operational by the end of September 2006.
                     and were not designed to capture the                            At that time, the DoD will have established its military
                     acquisition cost, cost of modifications and                     equipment baseline.
                     upgrades, or calculate depreciation.
Government           The cost of DoD property and material         FIAR Plan         The Department is developing policy and processes to help         FY 2011
Property and         in the possession of contractors is not                         correct this weakness. The Office of Management and
Material in the      reliably reported due to a lack of an                           Budget will soon release new policy that will bring property
Possession of        integrated reporting methodology.                               in the possession of contractors up to leading industry
Contractors                                                                          standards and help the Department correct this weakness.
                                                                                     To improve accountability, accuracy, and reliability, the
                                                                                     DoD is creating an on-line government property system to
                                                                                     be used jointly by government and industry for recording
                                                                                     property in the possession of contractors. Initial data loads
                                                                                     will take place in 2006.
Inventory            The existing inventory valuation at most      FIAR Plan         The Department issued a change in policy in FY 2001 to               DoD
                     activities is not reported in accordance                        begin valuing inventory at moving-average-cost to comply        components
                     with generally accepted accounting                              with historical cost valuation requirements. In FY 2004,        will complete
                     principles.                                                     a DoD workgroup began to assess major logistics and               plans by
                                                                                     financial systems—current and future—to determine the             12/31/05
                                                                                     adequacy for producing historically-based valuations.
                                                                                     Based on these efforts, the Department will issue a
                                                                                     baselining requirements policy in FY 2006.
Operating            The Department’s systems were                 FIAR Plan         The DoD workgroup addressed issues pertaining to the                 DoD
Materials and        designed to expense materials when                              capitalization of Operating Materials and Supplies versus       components
Supplies             purchased rather than when consumed.                            expensing. The Department currently is reviewing its            will complete
                                                                                     policies for potential update.                                    plans by
                                                                                                                                                       12/31/05




                                                                                17
                                                                                                       DoD Performance & Accountability Report FY2005
             ............................................................................Part 1: Management’s Discussion and Analysis


                                                             Primary
   Financial                                                                                                                                                    Target
                                                            Corrective
   Statement                     Description                                                                    Status                                        Completion
                                                              Action
   Weakness                                                                                                                                                      Date
                                                            Mechanism
  Statement of     The Statement of Net Cost is not           BMMP            Resolving this material weakness requires the                                        FY 2015
  Net Cost         presented by programs that align with                      implementation of the BMMP Enterprise Transition Plan
                   major goals and outputs described in                       and the BMMP Business Enterprise Architecture solutions
                   the DoD’s strategic and performance                        including the SFIS, Business Enterprise Information
                   plans required by the Government                           Services, and Intragovernmental Transactions initiatives.
                   Performance and Results Act.                               Additionally, deployment of modern accounting systems
                   Revenues and expenses are reported                         capable of using the SFIS is required. Resolution of this
                   by appropriation categories because                        material weakness will be achieved incrementally as the
                   financial processes and systems do not                     BMMP solutions and systems are implemented.
                   collect costs in line with performance
                   measures.

  Statement of     The DoD cannot reconcile budgetary         BMMP            Resolving this material weakness requires the                                        FY 2015
  Financing        obligations to net cost without making                     implementation of the BMMP Enterprise Transition Plan
                   unsupported adjustments.                                   and the BMMP Business Enterprise Architecture solutions
                                                                              including the SFIS, Business Enterprise Information
                                                                              Services, and Intragovernmental Transactions initiatives.
                                                                              Additionally, deployment of modern accounting systems
                                                                              capable of using the SFIS is required. Resolution of this
                                                                              material weakness will be achieved incrementally as the
                                                                              BMMP solutions and systems are implemented.



The following are several of the budget and financial                                                TOTAL MILITARY PERSONNEL
indicators that we monitor to help us guide financial                                            APPROPRIATIONS BUDGET AUTHORITY
management reform and target resources to areas                                                               $121.4B
                                                                                                 150
where we need to drive better stewardship of
                                                                                                 120
financial resources.
                                                                                  $ - BILLIONS




                                                                                                                                                            121.3
                                                                                                                                             111.5
                                                                                                  90                      101.1
                                                                                                        90.5
Execution of Military Personnel and                                                               60

Operation and Maintenance Appropriations                                                          30

                                                                                                   0
                                                                                                       JUN 05            JUL 05             AUG 05         SEP 05
The Department executed 99.9 percent of its                                                                              Budget Authority      Obligated
Military Personnel Appropriations by the end of
September 2005 and 100 percent of its Operation                                                 OPERATION & MAINTENANCE
and Maintenance Appropriations for the Military                                            APPROPRIATIONS MILITARY DEPARTMENTS
Departments. The Department uses the metric                                                     BUDGET AUTHORITY $190.0B
                                                                                                 200
below to compare each appropriation’s annual
                                                                                                                                                           190.0
budget authority with the Service projected annual                                               160
                                                                                                                                            169.8
                                                                                  $ - BILLIONS




                                                                                                                         155.4
obligations to fund the full requirement. The                                                    120    141.3

Department’s goal is to ensure projected obligations                                              80
remain between 98 and 100 percent of budget                                                       40
authority for the fiscal yearend.
                                                                                                   0
                                                                                                       JUN 05        JUL 05                 AUG 05         SEP 05
                                                                                                                     Budget Authority         Obligated




                                                                         18
                                                                                                                DoD Performance & Accountability Report FY2005
                                 ...........................................................................Part 1: Management’s Discussion and Analysis

DefenseDEFENSE
        Working Capital
                 WORKINGFund Cash
                             CAPITAL
                                                                                                     for each industrial type business area. This indicator
Management  with U.S. Treasury
          FUND CASH BALANCE                                                                          displays the variance between the phased plan for
                                        WITH TREASURY                                                AOR provided in the budget and the actual AOR
                     6
                                                  5.3                                                reported in the monthly financial statement.
                                                                                                     The Department anticipates completing
                                      3.6                4.0                    3.9     3.9          FY 2005 ahead of plan due to increased revenue
                     4                                             3.5
   $ - BILLIONS




                           3.0                                                                       from workload related to contingency operations.
                                      3.4                3.3       3.3                  3.5
                                                  3.1                           3.2                  Improved performance at the Depot Maintenance
                     2                                                                               activities, Defense Information Systems Agency, and
                           2.0                                       CURRENT BALANCE                 Defense Logistics Agency Distribution Depots are
                                                                     PLAN
                                                                                                     the primary drivers for AOR growth over plan. Rate
                     0
                          MAR 05 APR 05       MAY 05    JUN 05    JUL 05   AUG 05      SEP 05        adjustments in the budget years ahead will bring
                                                                                                     AOR closer to zero. Improved AOR from FY 2001
The management of cash within the Defense                                                            to FY 2002 was the result of corrections of prior year
Working Capital Fund is defined as the                                                               accounting data.
ability to maintain sufficient liquidity to meet
current obligations and accurately forecast cash                                                     Late Payments of Commercial Invoices
requirements. The Department transferred
$2.1 billion to the Operation and Maintenance                                                        The Prompt Pay Act requires that invoices be paid
appropriation this fiscal year. Transfers give the                                                   on time. This indicator highlights the degree
Fund the ability to maintain sufficient liquidity to                                                 to which the DoD is able to reduce its untimely
service current obligations and accurately forecast                                                  commercial payments. The Department met its
cash requirements. Higher fuel costs and inventory                                                   FY 2005 goal to reduce late payments to a level
replacement have severely reduced cash in FY 2005                                                    not to exceed 2 percent of total commercial
and will severely reduce cash in FYs 2006 and 2007.                                                  invoices. Improving this indicator reduces cost to
Additional supplemental funding of $1.4 billion was                                                  the Department and improves its relationship with
required to offset the fuel loss in FY 2005.                                                         suppliers. The Department reduced late payments
                                                                                                     by 46 percent from FY 2004. Attention to this
Defense Working Capital Fund Accumulated                                                             indicator has driven overdue payments to contractors
        WORKING                                                                                      down by 66 percent since FY 2001.
Operating Results CAPITAL FUND
 ACCUMULATED OPERATING RESULTS
                     2                                                                               Delinquent Accounts Receivable
                                                                         1.14

                     1                                  .67                                          This Accounts Receivable indicator highlights the
                                            .00                                        .22
                             -.13                          .55                                       amount owed to the Government by an individual,
      $ - BILLIONS




                     0
                                               -.02                      .06           .06           organization, public entity, foreign entity, or any
                     -1                                                                              other entity (including Federal entities), to satisfy
                     -2
                                                                                ACTUAL AOR           a debt or claim. Delinquent receivables are broken
                                                                                PLAN
                                                                                                     down into two types: public and intragovernmental.
                            -2.73
                     -3
                            FY 2001         FY 2002     FY 2003       FY 2004         FY 2005
                                                                                                     For FY 2005, the Department did not meet its goal
                                                                                                     to reduce these receivables by 75 percent from the
                                                                                                     FY 2003 baseline of $4.7 billion. The majority of
The Accumulated Operating Results (AOR) reflects                                                     public delinquencies are not under the Department’s
the cumulative operating gain or loss since inception                                                control. For September 2005, $3.7 billion of the

                                                                                                19
                                                                                                 DoD Performance & Accountability Report FY2005
                         ............................................................................Part 1: Management’s Discussion and Analysis

$4.6 billion of total public delinquencies were at                                  Of those, only the Military Retirement Fund
Treasury or in litigation at the Department of Justice.                             received an unqualified audit opinion, meaning
For September 2005, the amount of receivables owed                                  that the financial statements are presented fairly, in
to the Department from other federal agencies was                                   all material respects. The liabilities of the Military
$261 million.                                                                       Retirement Fund account for 47 percent of the
                                                                                    Department-wide liabilities.
The DoD Travel Card Program Individually
Billed Accounts Delinquency Rates                                                   The Medicare Eligible Retiree Health Care Fund,
                  TRAVEL CARD DELIQUENCIES                                          which accounts for 5 percent of the DoD’s assets
                 10    9.4                                                          and 28 percent of its liabilities, received a qualified
                                                                                    opinion, which means that except for certain
                                                                  DoD
                  8               7.3                                               conditions, the financial statements meet the
                                                                  GOAL
                                                                                    standards for an unqualified opinion as described
  $ - BILLIONS




                  6                          5.1
                                                       4.3                          above.
                                                                  4.2
                  4
                       4.5       4.5        4.5
                                                                                    The DoD also prepares statements for many of
                  2
                                                       2.0        2.0
                                                                                    the smaller entities within the Department that
                                                                                    are then rolled up into the overall consolidated
                  0
                      SEP 01    SEP 02     SEP 03     SEP 04     SEP 05             financial statement and identified as “Other Defense
                                                                                    Organizations.” Some of these smaller entities
                                                                                    are subject to audit each year. Four organizations
The indicator measures the percent of the DoD                                       within this group achieved unqualified audit
employee travel card balances outstanding for more                                  opinions again in FY 2005: the Defense Finance
than 61 days. Reducing outstanding balances                                         and Accounting Service, the Defense Contract Audit
helps increase rebates to the Department. The                                       Agency, the Defense Commissary Agency, and the
delinquency rate for individual travel accounts                                     Defense Threat Reduction Agency. In addition,
declined 55 percent since FY 2001.                                                  at the DoD-wide level, the Department received
                                                                                    favorable audit results on three financial statement
                                                                                    items in FY 2005: (1) Investments, (2) Federal
Overview of Financial Statement Results                                             Employees’ Compensation Act Liabilities, and (3)
                                                                                    Appropriations Received.
The DoD’s financial management environment
is complex and diverse. Its FY 2005 financial                                       As a result of these financial improvements and audit
statements included $1.3 trillion in assets,                                        successes, 21 percent of DoD’s assets and 47 percent
$1.9 trillion in liabilities, and $635 billion in Net                               of its liabilities received favorable audit results in
Cost of Operations. In FY 2005, DoD prepared                                        FY 2005. DoD’s financial statements for FY 2005
and obtained an audit opinion on the Department-                                    are presented in their entirety in Part 3, Financial
wide financial statements and nine major reporting                                  Information. A summary of results is provided
components that comprise the Department-                                            below.
wide financial statements. The major reporting
components include the Military Retirement Fund,                                    Assets
the Medicare Eligible Retiree Health Care Fund,
the U.S. Army Corps of Engineers, and the general                                   Assets are resources owned or managed by DoD that
funds and working capital funds for the Army, Air                                   are available to provide future economic benefits.
Force, and Navy.
                                                                               20
                                                                                                      DoD Performance & Accountability Report FY2005
                  ...........................................................................Part 1: Management’s Discussion and Analysis

The Consolidated Balance Sheet shows that DoD                                     Liabilities
assets as of September 30, 2005, were $1.3 trillion,
an increase of $58.4 billion from FY 2004. A                                      Liabilities are amounts owed by the DoD that will
summary analysis is provided below.                                               require payments from current or future assets.
                                                                                  The Consolidated Balance Sheet shows that DoD
                         TYPES OF ASSETS                                          liabilities as of September 30, 2005, were
                                                                                  $1.9 trillion, an increase of $163.2 billion
             Other Assets
                  3%
                                              Property, Plant & Equipment         (10 percent) from FY 2004.
                                                         36%


Inventory and Related Property                                                                        TYPES OF LIABILITIES
            17%


                  Investments                   Fund Balance With Treasury                                                         Military Retirement Benefits
                                                                                          Other Liabilities
                       21%                                                                                                                   and Other
                                                           23%                                   2%                                    Employment Related
                                                                                                                                        Actuarial Liabilities
                                                                                         Accounts Payable
                                                                                                                                              93%
                                                                                                 2%
The DoD’s Fund Balance with Treasury at                                              Environmental Liabilities
September 30, 2005 of $290.7 billion is essentially                                            3%
unchanged from FY 2005. The Fund Balance with
Treasury is the equivalent of DoD’s “checkbook”
balance or aggregate amount of funds deposited in                                 Military Retirement Benefits and Other Employment
Treasury available to make authorized expenditures                                Related Actuarial Liabilities increased $166.4 billion
or pay liabilities.                                                               (11 percent), due in part to a significant increase in
                                                                                  death benefits and life insurance for service members
Investments increased by $32.5 billion primarily due                              killed in combat. Also contributing to the increase is
to contributions and interest exceeding benefits paid                             the significant number of military retirees and their
by the Military Retirement Fund and the Medicare                                  family members who are taking greater advantage of
Eligible Retiree Health Care Fund for retired                                     military health facilities in recent years, and relying
military members and their dependents.                                            less on private sector health insurance. With civilian
                                                                                  benefits eroding due to the high cost of health
Plant, Property, and Equipment increased by                                       care, more and more veterans and their families are
$19.8 billion due primarily to DoD’s ongoing efforts                              finding their TRICARE health benefit a better value.
to identify and capitalize military equipment.                                    This phenomenon has required the adjustment of
                                                                                  actuarial factors used to calculate the expected long-
 Asset Type                        FY 05       FY 04           Change             term costs of the TRICARE benefit.
 Property, Plant, & Equipment     $460.7B     $440.9B          +$19.8B
                                                                                  Environmental Liabilities increased by
 Fund Balance w/Treasury          $290.7B     $289.6B            +$1.1B
                                                                                  $660.5 million primarily due to improving the
 Investments                      $264.0B     $231.5B          +$32.5B            Department’s inventory of environmental sites and
 Inventory & Related Property     $222.6B     $220.5B            +$2.1B           the accuracy of environmental liability estimates.
 Remaining Assets                  $36.2B      $33.3B            +$2.9B

 Total                           $1,274.2B $1,215.8B           +$58.4B




                                                                             21
                                                                                      DoD Performance & Accountability Report FY2005
              ............................................................................Part 1: Management’s Discussion and Analysis


Liability Type                   FY 05       FY 04      Change
                                                                         Budget Authority
Military Retirement Benefits                                             Budget Authority is the authority provided by law
and Other Employment            $1,736.1B   $1,569.7B   +$166.4B
Related Actuarial Liabilities                                            to incur financial obligations that will result in
                                                                         outlays—payment for the amounts of orders placed,
Environmental Liabilities        $65.0B      $64.4B      +$0.6B
                                                                         contracts and grants awarded, services received
Accounts Payable                 $30.6B      $30.2B      +$0.4B          and similar transactions during a given period.
Other Liabilities                $41.7B      $45.8B      -$4.1B          Specific forms of budget authority requested by the
                                                                         Department include:
Total                           $1,873.4B   $1,710.1B   +163.3B

                                                                         •	 Appropriations Received from Congress provide
Costs                                                                       authority to incur obligations and to make
                                                                            payments from Treasury for specified purposes.
The Consolidated Statement of Net Cost shows                             •	 Borrowing Authority from Congress to authorize
that the net cost of operations for the Department                          the DoD to incur obligations and make payments
of Defense for FY 2005 was $634.9 billion, an                               to liquidate the obligations of funds borrowed
increase of $29.5 billion (5 percent) from FY 2004.                         from Treasury or directly from the public.
The principal reason for this increase continues to                      •	 Contract Authority from Congress permits
be military operations in Iraq and Afghanistan, as                          obligations to be incurred in advance of
indicated by the table below, which reflects that                           appropriations or receipts with payments made
costs to pay, operate, maintain, supply, and transport                      only when a subsequent appropriation or offsetting
forces increased by $87.2 billion. Though liabilities                       collection is received.
associated with military retiree benefits increased                      •	 Appropriation Transfers from other funded
significantly as discussed above, the table below                           agencies permit the DoD to incur obligations and
reflects that total military retirement costs decreased                     make payments.
from FY 2004 by $31.6 billion. This is due to
the recognition of concurrent receipt benefits in                        The Combined Statement of Budgetary Resources
FY 2004, which resulted in significant additional                        shows that the amount of budget authority the
costs in FY 2004, and far exceeded the additional                        Department had for FY 2005 was $661.5 billion.
benefits recognized in FY 2005. The Consolidating                        This is a $45.2 billion (7 percent) increase from
Statement of Net Cost in Part 3, Financial                               FY 2004. Increased funding to fight the global
Information, provides a more detailed breakout of                        war on terror precipitated this increase and the
the Department’s costs.                                                  corresponding increases to both obligations and
                                                                         outlays, which are discussed below.
Program Type                       FY 05      FY 04     Change
Military Personnel                $122.5B    $112.3B    +$10.2B
Operation & Maintenance           $264.1B    $187.1B    +$77.0B
Procurement                       $62.0B     $79.2B     -$17.2B
Research, Development, Test
                                  $61.9B     $56.8B     +$5.1B
& Evaluation
Military Retirement               $121.8B    $153.5B    -$31.7B
Other Programs                     $2.6B     $16.5B     -$14.1B

Total                             $634.9B    $605.4B    +$29.5B

                                                                    22
                                                                                           DoD Performance & Accountability Report FY2005
                    ...........................................................................Part 1: Management’s Discussion and Analysis

                       STATEMENT OF                                                 President’s Management Agenda
                    BUDGETARY RESOURCES
             $800                                                             The President’s Management Agenda, announced
                                                         FY 2004              in the summer of 2001, is an aggressive strategy
             $600                                        FY 2005
                                                                              for improving the management of the federal
  BILLIONS




                                                                              government. The Department has made significant
             $400
                                                                              progress toward achieving the goals of the President’s
                                                                              Management Agenda. Each quarter, federal
             $200
                                                                              departments and agencies receive “stoplight”
                                                                              grades of green, yellow, or red from the Office of
                0
                    Budget Authority   Obligations    Outlays                 Management and Budget on both their current
                                                                              status and progress toward meeting the standards
                                                                              for success established for each area. A green score
Obligations
                                                                              indicates success, yellow denotes mixed results, and
                                                                              red represents failure. The results for all agencies
An obligation is a binding agreement that will result
                                                                              are reported on the Executive Branch Management
in outlays, immediately or in the future. Budgetary
                                                                              Scorecard, which is available at http://www.results.
resources must be available before obligations can
                                                                              gov. This website includes detailed information
be incurred legally. The Combined Statement of
                                                                              about the President’s Management Agenda.
Budgetary Resources shows that obligations made
during FY 2005 were $777.5 billion, an increase of
                                                                              The Agenda currently focuses on five key federal
$56.8 billion (8 percent) from FY 2004.
                                                                              government-wide management areas and two
                                                                              program initiatives:
Outlays                                                                       •	 Electronic Government (e-Gov),
                                                                              •	 Strategic Management of Human Capital,
An outlay is a payment to liquidate an obligation                             •	 Improved Financial Performance,
(other than the repayment of debt principal).                                 •	 Budget and Performance Integration,
Outlays generally are equal to cash disbursements,                            •	 Competitive Sourcing,
but also are recorded for cash-equivalent                                     •	 Real Property Management Initiative, and
transactions, such as the subsidy cost of direct loans                        •	 Eliminating Improper Payments Initiative.
and loan guarantees, and interest accrued on issues of
public debt. Outlays are the measure of government                            In addition, the President’s Management Agenda
spending. The Combined Statement of Budgetary                                 includes several agency-specific initiatives, two of
Resources shows that outlays made during FY 2005                              which apply to DoD:
were $563.9 billion, an increase of $42.8 billion (8
percent) from FY 2004.                                                        •	 Coordination of Department of Veterans
                                                                                 Affairs (VA) and DoD and
                                                                              •	 Privatization of Military Housing.




                                                                         23
                                                                                     DoD Performance & Accountability Report FY2005
             ............................................................................Part 1: Management’s Discussion and Analysis

As of September 30, 2005, the Department’s grades                       several initiatives, including the government-wide
were mixed:                                                             SmartBUY, Integrated Acquisition Environment,
                                                                        and Grants.gov, as well as the DoD initiatives
   Executive Branch Management Scorecard                                involving the Defense Travel System and education
       Results for DoD (September 30, 2005)                             and training.
 Government-Wide Program                  Status     Progress
 Initiatives                              Score       Score             SmartBUY
 Electronic Government (e-Gov)
 Strategic Management of Human                                           The DoD participated actively in the government-
 Capital                                                                wide SmartBUY team, which negotiated three “co-
                                                                        branded” software products on behalf of the entire
 Improved Financial Performance
                                                                        federal government. These agreements enable federal
 Budget & Performance Integration                                       agencies to obtain discounts and improved terms
 Competitive Sourcing
                                                                        and conditions, and even better discount terms and
                                                                        conditions on large orders and enterprise licenses.
 Real Property Management Initiative
 Eliminating Improper Payments                                          Integrated Acquisition Environment
 Initiative
                                                                        The DoD leads government-wide implementation
 DoD-Specific Initiatives                                               of the Integrated Acquisition Environment,
 Coordination of VA and DoD                                             which is a portfolio of systems and initiatives that
 Programs and Systems                          *           *            support procurement and procurement-related
                                                                        processes. This ongoing implementation supports
 Privatization of Military Housing
                                                                        both federal and the DoD goals of strategic and
* Scores as of June 30, 2005                                            cost-effective acquisition and delivery of the best
                                                                        possible goods and services to the warfighter, as well
Following is a brief description of each initiative                     as unification and simplification of the acquisition
and efforts the Department has undertaken thus far                      business environment to support delivery. A key
toward successful implementation of the President’s                     accomplishment includes adapting existing the
Management Agenda.                                                      DoD programs for government-wide use as a
                                                                        part of the portfolio. The federal versions of the
                                                                        DoD’s Central Contractor Registry, the DoD
Electronic Government                                                   Technical Data Solution, and Past Performance
                                                                        Information Retrieval System are all federal award-
Goal: To ensure that the DoD’s multi-billion dollar                     winning programs under the Integrated Acquisition
annual investment in information technology (IT) is well                Environment mantel. This simplifies the way
spent.                                                                  the government does business, as well as the way
                                                                        industry interacts with government.
The DoD is working to ensure that all major IT
investments are justified with strong business cases;                   Grants.gov
all projects are completed within 10 percent of cost,
schedule, and performance goals; and IT systems are                     The Department has been influential in shaping
secured properly and data is protected appropriately.                   the policy related to the electronic processing of
The Department is taking an active role in                              government grants. Earlier this year, the DoD

                                                                   24
                                                                                  DoD Performance & Accountability Report FY2005
           ...........................................................................Part 1: Management’s Discussion and Analysis

succeeded in adding language to the electronic                       National Security, Domestic Preparedness, or the
grant application to better reflect the legal effect                 Business of Government. This program replaces
of individuals or organizations submitting a grant                   the current eGovernment Leadership Certificate
application electronically through Grants.gov. The                   program.
DoD components are posting solicitations that
may result in assistance agreements at Grants.gov.                   The College also inaugurated a new Enterprise
Use of Grants.gov and the standard solicitation                      Architecture Certificate program in January 2005.
announcement provide greater insight into the                        This program is organized around the seven core
DoD’s programs and funding and have the potential                    competencies for enterprise architecture established
to expand the Department’s research base by making                   by the federal Chief Information Officers’ Council,
program information more widely available.                           and builds on architectures & infrastructures,
                                                                     one of the 11 Chief Information Officer core
Defense Travel System                                                competencies. The program includes a choice of
                                                                     classes concentrating on either the DoD or federal
The DoD Defense Travel System was developed                          architectures as well as a final practicum course
separately from the General Services Administration’s                where students will apply their learning to solve real-
eTravel Service. It is more expansive in scale, scope,               world enterprise architecture challenges.
and functionality than the eTravel Service, which
is being implemented in non-Defense agencies.                        The DoD continues to expand the information
The DoD and the General Services Administration                      technology and information assurance education
collaborate closely on a wide range of federal travel                opportunities available through the DoD’s
issues, seeking common solutions where appropriate.                  Information Assurance Scholarship program. One
The Defense Travel System represents a whole new                     hundred and fifty students have participated in
way of doing business for government and the DoD                     this program, with 65 graduated to date. The
must ensure that promises and goals envisioned                       Department continues to enhance the flexibility of
are achievable. Specifically, the Department will                    the program to meet emerging needs by adding part-
assess whether it is delivering increased efficiencies,              time master’s degree programs, authorizing enlisted
improved services, and achieving cost savings as                     participation at the Naval Postgraduate School, and
promised. In doing so, the DoD will study carefully                  increasing the number of partnership arrangements
the several reports and evaluations of the system                    with civilian Centers of Academic Excellence.
before taking any action.

Education and Training Initiatives                                   Strategic Management of Human Capital

The DoD established a new Organizational                             Goal: To ensure that the Department’s civilian workforce
Transformation Certificate program at the                            is high-performing, capable, agile, and well trained. This
Information Resources Management College in                          includes moving toward a mission-focused, performance-
June 2005. The program focuses on developing                         based human resources management system that provides
leaders who can anticipate and implement the                         flexibility while taking care of the DoD’s civilian
transformational changes required to establish a                     employees.
net-centric environment that serves the citizen,
warfighter, and the business mission equally well.                   The Department has several initiatives underway to
Students may specialize in Electronic Government,                    meet this goal:


                                                                25
                                                                                  DoD Performance & Accountability Report FY2005
          ............................................................................Part 1: Management’s Discussion and Analysis

National Security Personnel System                                   performance and contribution to the DoD’s mission.
                                                                     The Department sent a request for provisional
The Department, with assistance from the Office                      certification to the Office of Personnel Management
of Personnel Management, designed the National                       in June 2005 and received a response in late August
Security Personnel System (NSPS), a modernized,                      2005. While DoD did very well overall, the
performance-based civilian personnel system. This                    Office of Personnel Management recommended
system, an essential element of the Department’s                     improvement in translating and cascading
overall transformation, will provide a more                          performance requirements into more refined
flexible means of managing the DoD’s civilian                        expectations, particularly in terms of achieving
workforce while preserving employee rights and                       results. With only a few weeks remaining in the
protections. Civilians are critical to accomplishing                 FY 2005 performance cycle, the DoD elected not
the Department’s mission. The NSPS not only will                     to revise senior employees’ performance plans. The
benefit the Department; it will provide the DoD                      Department will seek provisional certification by the
employees with opportunities for greater control of                  end of 2005 for the FY 2006 performance cycle.
their careers and advancement.
                                                                     Critical Skills and Competencies
The DoD published a proposed regulation that
outlined the fundamental features of the system in                   The correct mix of skills and competencies is critical
the February 14, 2005 Federal Register. More than                    to mission completion. Monitoring the fill rate
58,000 comments were received from employees,                        of core and critical support occupations is one
employee representatives, interest groups, elected                   aspect of assessing skill gaps that the Department
officials, and the public. The Department reviewed                   undertakes quarterly. Assessing competency gaps
and analyzed these comments and plans to issue the                   is another important element. The Department is
final regulations for Congressional notification and                 approaching this from two directions: (1) convening
publication in the Federal Register by the end of                    study groups to focus on specific competencies
2005. After the regulations are published, the DoD                   required in core, critical occupations across the
will begin training its workforce and implementing                   Department and (2) by recurring reviews of metrics
the flexibilities afforded by NSPS.                                  that identify competency gaps in the workforce.
                                                                     The DoD recently initiated a project to identify the
Senior Executive Service Appraisal System                            fundamental competencies and expertise needed by
                                                                     general/flag officers, senior executives, and senior
In addition to NSPS, the DoD is institutionalizing                   noncommissioned officers serving in joint positions
a performance-based culture at all levels. The                       to identify gaps between required and available
Department developed a pay-for-performance                           competencies and to develop proposals to close the
strategy for Senior Executive Service members                        gaps.
and equivalent senior executives. The design
of the system grew out of the Department’s                           The Department also chartered a working group to
experience with performance-based pay strategies                     examine the core DoD competencies associated with
at its personnel demonstration projects. The                         the development and progression in career fields.
Office of Personnel Management approved the                          Competency identification will create a foundation
DoD Executive and Senior Professional Pay and                        for applications and investment in such areas as
Performance System in April 2005. Under this                         recruitment, selection, performance management,
system, individual performance will be a basis                       training and development, and strategic workforce
for pay decisions and recognition of individual                      shaping. The alignment of core competencies with

                                                                26
                                                                                  DoD Performance & Accountability Report FY2005
           ...........................................................................Part 1: Management’s Discussion and Analysis

mission requirements will result in a more flexible,                 been affected adversely by workforce reductions,
agile, and mission-focused civilian workforce.                       transfer of functions, and the Base Realignment
                                                                     and Closure process. The Department established
The Department continues to perform thorough                         the Base Realignment and Closure 2005 Working
reviews of historical and projected loss and                         Group (consisting of members from the DoD
turnover rates for these mission-critical occupations                components and Defense Agencies) to assess private
quarterly. In light of findings from these reviews,                  sector transition assistance programs, evaluate the
the Department received approval for direct-hire                     best practices/lessons learned from previous Base
authority for severe shortages in forensic biologist                 Realignment and Closure rounds, and recommend
positions at the U.S. Army Criminal Investigation                    applicable Departmental guidance, publications,
Laboratory and certain accountant positions,                         and services in advance of the 2005 process. The
and successfully sought special pay rates for law                    Department developed an on-line “tool kit” to help
enforcement occupations.                                             employees understand the process and become
                                                                     familiar with the programs and benefits available
Workforce Restructuring                                              to them. The website provides information on
                                                                     various placement programs, separation incentives,
The Department of Defense Workforce                                  transition benefits, frequently asked questions
Restructuring Plan and Human Resources Strategic                     concerning a wide range of pertinent issues, links
Plan performance measures are valuable tools that                    to the DoD component Base Realignment and
enable effective monitoring of the Department’s                      Closure websites, and offers up-to-date information
ability to meet current and future human capital                     on Base Realignment and Closure developments.
needs and accomplish the Administration’s                            Additionally, Internet-based distance learning
objectives. All components continue to support the                   modules were developed to provide cost-effective
plan’s initiatives in the following areas:                           training to reach all human resources specialists
                                                                     involved with reduction-in-force and placement
•	 Major Headquarters Reductions,                                    activities.
•	 Planned Reorganizations,
•	 Reduction in the Number of Managers and                           Accountability
   Supervisors,
•	 Projected Outsourcing Efforts, and                                The Human Capital Accountability and Evaluation
•	 Reengineered or Streamlined Processes Resulting                   initiative launched during the fourth quarter will
   in Efficiencies or Savings.                                       design, develop, and implement a Human Capital
                                                                     Accountability System to provide centralized
The DoD issued policy regarding the use of                           management and oversight of human capital
Voluntary Separation Incentive Pay (buyout)                          assessment and accountability efforts across the
allocations to the components for FY 2005.                           DoD. The effort will result in a common framework
Quarterly monitoring of usage indicates clearly that                 for identifying issues and comprehensive strategies
the DoD is applying buyout and early retirement                      to improve performance. This program is being
authorities judiciously to shape the force as necessary.             developed in close cooperation with the Office
                                                                     of Personnel Management and will align with its
The Department’s Priority Placement Program is                       framework. Implementation of the program is
the primary vehicle for placing employees who have                   planned for FY 2006.




                                                                27
                                                                                    DoD Performance & Accountability Report FY2005
            ............................................................................Part 1: Management’s Discussion and Analysis

Improved Financial Performance                                         budget. This process increases the effectiveness of
                                                                       the Department’s resource allocation process by
Goal: To ensure transparency over the DoD’s finances by                linking performance results to programming and
having timely and reliable financial information available             budgeting decisions and placing additional emphasis
on a regular, recurring basis and using that information               on program execution. The Department addressed
to make informed decisions about the DoD or program
                                                                       the marginal costs of achieving goals during the
                                                                       development of its FY 2006 President’s Budget by
management. Transparency means knowing the costs
                                                                       considering alternatives that made performance
and results of government programs and operations and
                                                                       trade-off decisions more focused and useful.
being able to judge the best return on investment for the
American people. Demonstrating fiscal accountability
                                                                       The Department developed and submitted the
and achieving unqualified financial statements are good
                                                                       FY 2005 Emergency Wartime Supplemental
first steps. Ultimately, agency leadership will use this more
                                                                       Request for funds to finance continuing military
accurate, precise, and timely financial information in day-
                                                                       operations in Iraq and Afghanistan. The request was
to-day management.
                                                                       formulated, in large part, by calculating the costs—
                                                                       based on current cost and performance data—for
The Department has several initiatives underway
                                                                       specific performance elements (e.g., the deployment
to improve its financial performance: the Business
                                                                       of specific units to specific locations) and estimating
Management Modernization Program, the Financial
                                                                       the associated operational tempo.
Improvement and Audit Readiness Plan, and the
Under Secretary of Defense (Comptroller) Strategic
                                                                       The Department also met the goal of using the
Plan. These initiatives are discussed earlier in this
                                                                       Program Assessment Rating Tool (PART) to assess
report.
                                                                       programs representing 60 percent of its resources
                                                                       in the FY 2006 President’s Budget. The PART
Budget and Performance Integration                                     provides a systematic and consistent approach to
                                                                       rating programs across the federal government. The
Goal: To improve program results and to ensure that                    PART process analyzes whether a program has a
performance is routinely considered in funding and                     clear definition of success, uses strong management
management decisions.                                                  practices, and produces results.

During FY 2005, the Department developed and                           The Office of Management and Budget provided
defended its FY 2006 budget, which requested                           favorable ratings to most DoD PART programs.
$419.3 billion in the DoD discretionary budget                         Of the 23 DoD programs assessed using the PART
authority for FY 2006. The budget supports                             through the FY 2006 President’s Budget, the Office
priorities established by Secretary Rumsfeld to                        of Management and Budget rated 19 (83 percent)
fulfill the President’s pledges to defeat global                       as Adequate or better. Examples of programs
terrorism, restructure America’s armed forces and                      include Air Force Aircraft Depot Maintenance,
global defense posture, develop and field advanced                     Communications Infrastructure, and Navy Ship
warfighting capabilities, and take good care of the                    Operations. The Missile Defense Program improved
DoD’s people. To develop the FY 2006 budget,                           the previous year’s Results Not Demonstrated rating
the Department continued to implement a new                            to a Moderately Effective rating. The following
Planning, Programming, Budgeting, and Execution                        chart provides a breakout of the overall ratings for
process and developed the DoD’s first full 2-year                      the DoD PART programs.


                                                                  28
                                                                                      DoD Performance & Accountability Report FY2005
               ...........................................................................Part 1: Management’s Discussion and Analysis


        DoD PROGRAMS                                                     The DoD is committed to providing all responsible
                                                                         officials with the training required to meet their
   BY PART RATING CATEGORY
                                                                         new and expanded duties required to successfully
             Adequate                                                    execute the Department’s A-76 competitive
                                          Moderately Effective
               13%
                                                  26%                    sourcing program. Courses are being developed by
    Ineffective                                                          the Defense Acquisition University to ensure the
       13%                                                               training is timely, effective, and consistent across the
   Results Not
                                                                         Department. Prior to competing a function, the
  Demonstrated                                    Effective              government defines its requirements with both the
                                                    44%
        4%                                                               in-house and contractor workforces independently
                                                                         determining how they will perform the function.
                                                                         When the decision favors contract performance,
                                                                         the contractor normally hires much of the existing
Competitive Sourcing                                                     workforce, thus reinforcing the competitive process
                                                                         and ensuring that the DoD has the right person for
Goal: To help agencies become more results-oriented and                  the job.
effective through public-private competition in accordance
with Office of Management and Budget Circular A-76,                      The DoD’s web-based data information system
“Performance of Commercial Activities,” and efficiency                   provides the Department with real time daily
alternatives to the A-76 process.                                        updates on the status of A-76 initiatives with a
                                                                         special module to track the status of military to
The Department uses the A-76 process only                                civilian conversions. The Department maintains
when it makes military and economic sense to                             oversight of the relatively small number of other
do so. Competition is a driving force enabling                           types of competitive sourcing initiatives by tracking
organizations to improve quality, reduce cost,                           status periodically.
and provide rapid delivery of better products and
services. The DoD continues to use the process of                        Ultimately, the success of competitive sourcing
public-private competition to obtain services clearly                    and achievement of true savings will be realized by
identified as commercial, thereby improving support                      addressing the cultural hurdles and embracing the
to the warfighter and increasing readiness.                              reengineered work processes, funding and integrating
                                                                         the new technology tools with the existing systems,
The alternatives to A-76 also produce significant                        and ensuring a complete and seamless integration.
efficiencies and are focused primarily on military to
civilian conversions, high performing organizations
in accordance with section 337 of the National                           Real Property Management Initiative
Defense Authorization Act of 2004 (Public Law 108-
136), and privatization initiatives.                                     Goal: To help the DoD efficiently manage the nearly
                                                                         $100 billion in real property it owns. The Federal Real
A-76 competitions have produced significant savings                      Property Council developed standards for how federal
for the DoD. From FY 2000 to the present, the                            agencies should initiate improvements to property
Department expects to produce savings of nearly $10                      management, to include timely and accurate inventory
billion through the periods of performance regardless                    data and performance measures in evaluating property
of who ultimately wins the competition.                                  acquisition, maintenance, and disposal decisions.


                                                                    29
                                                                                  DoD Performance & Accountability Report FY2005
          ............................................................................Part 1: Management’s Discussion and Analysis

The Department has developed and implemented                         and financial data to real property. This concept
a comprehensive plan to improve real property                        is being reviewed by industry and other federal
management to ensure that the right assets                           agencies for use outside of the DoD.
are available when and where needed with the
capabilities necessary to support the warfighter.
Accurately capturing the real property inventory,                    Eliminating Improper Payments
and continuing to refine performance measures
                                                                     Initiative
that monitor how well the DoD sustains, restores,
and modernizes its facilities are integral steps in
                                                                     Goal: To strengthen financial management controls
accomplishing that goal. The Department’s plan to
                                                                     to better detect and prevent improper payments, thus
monitor progress, identify and correct deficiencies,
                                                                     enabling the DoD to better ensure the taxpayer dollar is
and address overall management of its real property
                                                                     put to the use the Congress intended.
includes:
                                                                     The Department makes more than $500 billion
•	 Increased visibility of the assets under management
                                                                     in payments to individuals and a variety of other
   through improved real property inventories.
                                                                     entities each year. An improper payment occurs
•	 Application of requirements models based on
                                                                     when the funds go to the wrong recipient, the
   accurate and auditable commercial benchmarks
                                                                     recipient receives the incorrect amount of funds,
   and tied directly to the existing and forecasted
                                                                     or the recipient receives payment for an ineligible
   assets.
                                                                     service. Improper payments also include duplicate
•	 Standardization of performance targets across the
                                                                     payments and payments for products and services
   Department through improved planning guidance.
                                                                     not received. The Department maintains a vigorous
•	 Implementation of mechanisms for continuous
                                                                     review process to identify and prevent duplicate
   tracking of performance through the programming
                                                                     vendor payments and make sure program dollars are
   and budgeting cycle.
                                                                     spent as intended. This review process includes pre
•	 Controlling the size of the Defense footprint
                                                                     and post payment reviews, continual enhancements
   through incentives and robust demolition and
                                                                     to commercial payment systems to detect potential
   disposal programs, including Base Realignment
                                                                     erroneous payments prior to disbursement, post-
   and Closure 2005.
                                                                     payment reviews of commercial payments within
•	 An up-to-date asset management plan including
                                                                     180 days of disbursement, and continual review by
   goals and timelines, linked to and consistent with
                                                                     Office of Inspector General of purchase and travel
   higher order plans and priorities.
                                                                     card payments. The DoD’s efforts to eliminate
•	 Achieving full sustainment funding levels to
                                                                     improper payments are described in the Analysis of
   prevent waste through deterioration and loss of
                                                                     Systems, Legal Compliance, and Controls section of
   service life.
                                                                     this report and in greater detail in Part 3, Financial
•	 Reaching a recapitalization rate that matches
                                                                     Information.
   the expected service life of the assets under
   management to prevent loss of effectiveness
   through obsolescence.
                                                                     Coordination of Department of Veterans
To improve asset accountability, the Department                      Affairs and DoD Programs and Systems
developed a real property unique identification
concept. All assets have a DoD-wide unique                           Goal: This initiative seeks to ensure a seamless transition
identifier, allowing management and financial                        from active duty to veteran status, continuity of care,
systems to better track environmental, operational,
                                                                30
                                                                                   DoD Performance & Accountability Report FY2005
            ...........................................................................Part 1: Management’s Discussion and Analysis

greater accuracy in forecasting patient population, and               Privatization of Military Housing
increased sharing of services to reduce costs and improve
the quality of care.                                                  Goal: This initiative seeks to eliminate inadequate
                                                                      family housing and increase the quality of life for
Both the DoD and the Department of Veterans                           Service members and their families.
Affairs (VA) operate comprehensive medical care
systems programs for Active duty military members                     DoD received “green” scores for both status and
and veterans. The DoD and VA continue to work                         progress on this initiative. Leveraging the DoD’s
together in a wide variety of areas to find efficiencies              resources with private sector capital revitalizes
and improve health care to their beneficiaries.                       inadequate housing faster and at a lower lifecycle
The Joint Executive Council and its subordinate                       cost to the taxpayer than traditional construction.
Health Executive Council and Benefits Executive                       Since the end of 2000, the DoD has privatized
Council are pursuing opportunities to share health                    almost 111,600 housing units, and plans to privatize
care resources between the two Departments and                        a cumulative total of more than 185,000 units by the
updating the Joint Strategic Plan for FY 2006. The                    end of 2007. The DoD tracks its progress in four
plan includes goals, objectives, and performance                      categories: (1) elimination of inadequate housing
metrics in the following areas:                                       units, (2) privatization of housing inventory, (3)
                                                                      average housing costs covered for Service members
•	 Leadership, commitment, and accountability,                        living in non-governmental housing, and (4)
•	 High quality health care,                                          satisfaction of Service members who choose to live in
•	 Seamless coordination of benefits,                                 revitalized private housing.
•	 Integrated information sharing,
•	 Efficiency of operations, and
•	 Joint contingency/readiness capabilities.
                                                                       Analysis of Systems, Legal Compliance,
As part of the integrated information sharing
goal, the Departments have created the Federal
                                                                                    and Controls
Health Information Exchange to support the
transfer of electronic health information from the
DoD to VA at the point of a Service member’s                          Systems
separation. VA clinicians and claims adjudicators
use this information, which includes patient                          Federal Financial Management
demographics, lab results, radiology reports,                         Improvement Act
outpatient pharmacy data, allergy information,
discharge summaries, consultation reports, and the                    The Federal Financial Management Improvement
DoD’s standard ambulatory data records for specific                   Act of 1996 requires federal agencies to conform
health encounters. As of June 2005, the DoD had                       to the U.S. Government Standard General Ledger,
transferred medical records for more than 3 million                   comply with all applicable federal accounting
unique patients to the exchange repository. More                      standards, establish financial management
than 1.4 million of these patients—nearly half—                       systems that meet government-wide standards
have approached VA for care or claim determination.                   and requirements, and support full disclosure of
VA queries the exchange repository more than 2,500                    federal financial data, including the costs of federal
times per week.                                                       programs and activities.


                                                                 31
                                                                                  DoD Performance & Accountability Report FY2005
          ............................................................................Part 1: Management’s Discussion and Analysis

The Department’s Inspector General and the audit                     and operations comply with laws to ensure that the
agencies in the Military Services have provided                      federal government provides the best possible service
comprehensive reporting on the Department’s failure                  to the American people.
to comply with the Act’s requirements. The DoD’s
inability to comply materially with the Act primarily                Chief Financial Officers Act
is the result of structural problems related to legacy
accounting systems that do not accurately account                    The Chief Financial Officers Act of 1990 requires
for both budgetary and proprietary activities. Quite                 federal agencies to prepare auditable annual financial
simply, the Department does not have the systems                     statements. An overview of the DoD’s financial
and accounting structures in place to achieve                        statement activity is included in the prior section on
compliance.                                                          Analysis of Financial Statements and Stewardship
                                                                     Information; a detailed presentation of the
To remedy these challenges, the Department of                        statements and the auditor’s report appear in Part 3,
Defense is placing an unprecedented emphasis on                      Financial Information.
reforming the Department’s financial management
systems and accounting structures. Primarily                         As noted earlier, the DoD received a disclaimer
through the Business Management Modernization                        of opinion from its auditors. The Department
Program, the Department is identifying the business                  developed the Financial Improvement and
capabilities, standards, and solutions at the DoD-                   Audit Readiness Plan to serve as a roadmap for
wide enterprise-level that support compliance.                       financial improvement and plots the Department’s
However, substantial compliance cannot be achieved                   course for accurate and reliable financial data
completely until improved accounting systems and                     that results in a clean financial audit. The plan’s
underlying accounting structures are in place to                     comprehensive strategy supports continual and
support proper accounting for both proprietary and                   integrated improvements, while its agility allows
budgetary activities.                                                each DoD component to realistically identify goals,
                                                                     progress, and necessary actions. The Financial
As previously discussed, a major step toward                         Improvement and Audit Readiness Plan’s framework
achieving compliance is the development of a                         and boundaries ensure that the DoD’s financial
Department-wide Standard Financial Information                       improvement efforts are consistent operationally.
Structure supported by a U.S. Government Standard
General Ledger. This structure was incorporated                      To minimize the funds spent on audits until
in the DoD Business Enterprise Architecture and                      the financial statements are ready for audit, the
serves as a common business language that facilitates                Department implemented a rigorous five-phase
tracking and traceability of financial information                   process in FY 2004. Phase one requires entities
at the transaction level. Improving visibility of                    to identify and correct deficiencies in financial
financial information at the transaction level                       reporting. In phase two, management validates that
enhances financial statement auditability consistent                 the deficiencies were corrected. After validation, in
with the Act.                                                        phase three, management asserts to the auditors that
                                                                     the information is reliable, and documents the basis
Legal Compliance                                                     for that assertion. In phase four, the auditors perform
                                                                     an assessment to determine audit readiness. If the
In addition to establishing and maintaining effective                information is ready, the auditors will perform a full
controls throughout the Department, each year the                    audit in phase five.
DoD works aggressively to ensure that its programs

                                                                32
                                                                                  DoD Performance & Accountability Report FY2005
           ...........................................................................Part 1: Management’s Discussion and Analysis

Government Performance and Results Act                               military health benefits and military retirement,
                                                                     two programs previously identified by the Office of
The DoD’s activities under the Government                            Management and Budget as susceptible to significant
Performance and Results Act of 1993 are                              erroneous payments. Reviews of these programs
highlighted in the prior section on Performance                      produced the following results.
Objectives, Goals, and Results; detailed performance
information is provided in Part 2, Performance                       Military Health Benefits. Numerous prepayment
Information.                                                         and postpayment controls are built into the military
                                                                     health benefits’ claims processing system to minimize
Inspector General Act Amendments                                     improper payments. One control, the claims
                                                                     edit system, “rebundles” services that the provider
The Inspector General Act of 1978, as amended,                       should have billed under a single code. Procedure
requires an explanation for all audit reports with                   “unbundling” occurs when the provider uses two
recommendations open for more than 1 year. As of                     or more procedure codes to describe a service for
September 30, 2005, the Department had 214 audit                     which a single comprehensive code exists that
reports open for more than 1 year, with potential                    accurately describes all services performed. This is
monetary benefits of $7.1 billion. The Department                    an inflationary practice and contributes to excessive
closed out and implemented recommendations from                      health care costs.
94 audit reports in FY 2005 with claimed monetary
benefits of $444 million.                                            An example of this practice is “unbundling” charges
                                                                     that should be included in a global surgical package.
Improper Payments Information Act                                    Some surgical codes represent an all-inclusive
                                                                     charge to include certain types of anesthesia, pre-
The Improper Payments Information Act of 2002,                       op visits, post-op care in the recovery room, and
as implemented by the Office of Management and                       typical follow-up visits after discharge for a 90-day
Budget, requires federal agencies to review annually                 period. Physicians who perform the entire global
all programs and activities and identify those                       package should bill for their services with the single
that may be susceptible to significant erroneous                     comprehensive surgical code. “Unbundling” occurs
payments.                                                            when a physician bills separately for services included
                                                                     in this global package. For example:
The DoD’s FY 2005 survey did not identify                            Code                       Procedure                   Cost
any programs or activities where payments                                                 Unbundle Billing:
met the Office of Management and Budget’s                            30520        Repair of nasal septum                    $547.60
criteria for “significant” erroneous payments.
                                                                     00160        Anesthesia, nose/sinus                     246.60
During this survey, however, the DoD found
                                                                     99214        Preop visit                                  64.25
military pay susceptible to significant risk for
erroneous payments. In accordance with Office                        99231        Subsequent hospital visit                    37.03
of Management and Budget guidance, the DoD                                        Final Unbundle Billing Cost               $895.48
calculated a statistically valid estimate of military                                              vs.
pay erroneous payments and implemented a plan                                             Bundle Billing:
to reduce the amount of erroneous payments. The                      30520        Global surgical package                   $547.60
DoD reports to both the President and the Congress
                                                                                  Final Unbundle Billing Cost               $547.60
its progress in reducing erroneous payments. The
Department also reports again this fiscal year on                                     OVERCHARGE                           $347.88

                                                                33
                                                                                   DoD Performance & Accountability Report FY2005
           ............................................................................Part 1: Management’s Discussion and Analysis

In FY 2004, the DoD realized a cost avoidance of                      the contractors at risk for unallowable costs, this
$110.7 million because of these rebundling edits.                     contractual design provides a built-in incentive for
Anticipating that this trend will continue, the                       the contractors to continually perfect their claims
Department projects approximately a 10 percent                        processing system, up to the point where financial
increase in the cost avoidance for FY 2005.                           costs outweigh the benefits.

Another control that helps to ensure the accurate                     Military Retirement. The Department conducts
payment of claims and appropriate expenditure of                      various types of prepayment and postpayment
taxpayer dollars is the prepayment review required                    reviews for military retirement payments. Payments
under the contracts. Contractors use this strategy to                 to deceased retirees pose the highest risk for
prevent payment for questionable billing practices.                   improper payments. A review of confirmed
Prepayment review allows for a closer examination of                  payments to deceased retirees in FY 2005 indicated
the services rendered and may require the provider                    that the DoD had recovered 96 percent of the
to submit medical documentation to support the                        amount overpaid within 60 days.
services billed. In calendar year 2004, prepayment
review resulted in a cost savings of $7.3 million.                    For FY 2005, the Department projected
                                                                      $49.3 million of improper payments for this
The Department also requires each contractor to                       program, with most of that amount ($46.7 million)
have a fraudulent claims investigation or anti-fraud                  going to deceased retirees. This represents an
unit to identify and investigate any pattern of                       error rate of 0.1381 percent of the $35.6 billion in
suspicious or potential fraudulent billings. Artificial               military retirement payments.
intelligence software is a contract requirement to
facilitate data mining to identify questionable billing               Military Pay. Several sources identify improper
practices. In calendar year 2004, the Department                      payments for military pay. The Department
received $6 million in fraud judgments and                            performs monthly random reviews by Military
identified another $2.29 million for administrative                   Service, identifies pay system discrepancies, and
recovery.                                                             conducts special audits or reviews. Monthly reviews
                                                                      are stratified by military pay account, which include
For FY 2005, the Department projected                                 the Active and Reserve components of the Military
$150.0 million of improper payments                                   Departments and Army National Guard and the
(underpayments and overpayments) for the military                     Air National Guard. The sampling plan produces
health benefits purchased care program. This                          estimates with a 95 percent probability and sample
represents an error rate of approximately 2 percent of                estimate precision of plus or minus 2.5 percent. For
the $7.5 billion in military health benefits program                  the first 10 months of FY 2005, the DoD reviewed
payments made during FY 2005.                                         8,530 military pay accounts using the sampling
                                                                      plan criteria. Based on the sample results and
For many years prior to passage of the Improper                       discrepancies identified, the Department estimated
Payments Information Act in 2002, the Department                      $432 million in improper payments for military pay
had in place performance standards for claims                         in FY 2005. This represents 0.63 percent of the total
processing. Under the existing managed care                           net pay of more than $66.8 billion.
support contracts, the DoD has a zero tolerance for
unallowable costs. If the contractor pays a claim                     For further reporting details about the Improper
that is not allowable, the Department will not                        Payments Information Act, see Part 3, Financial
reimburse the contractor. In addition, contractors                    Information.
face a financial disincentive. In addition to placing
                                                                 34
                                                                                  DoD Performance & Accountability Report FY2005
           ...........................................................................Part 1: Management’s Discussion and Analysis

Controls (Management Assurances)                                     communication, and emphasis for forthright
                                                                     reporting and prompt resolution of weaknesses.
The Federal Managers’ Financial Integrity Act                        Early in the calendar year, the Department
of 1982 requires federal agencies to assess the                      conducted a Department-wide conference attended
effectiveness of internal controls for program,                      by more than 120 representatives from the
operational, and administrative areas as well as                     Department’s 33 components. The main topic
accounting and financial management. Internal                        introduced was the broad strategy for implementing
controls are the organization, policies, and                         the Office of Management and Budget Circular
procedures that are considered the tools that help                   A-123, “Management’s Responsibility for Internal
program and financial managers achieve results and                   Control” Appendix A, which prescribes a statement
safeguard the integrity of their programs.                           of assurance on the effectiveness of internal controls
                                                                     over financial reporting. Also discussed at the
Using self-assessments as the basis, this Act requires               conference was the DoD scorecard which is used
agency heads to provide an annual statement                          to measure important elements of the Defense
of assurance on the effectiveness of the internal                    component feeder statements. These feeder
controls and to include material weaknesses found                    statements help build the DoD Annual Statement of
in internal controls that warrant reporting to a                     Assurance. The categories scored are the timeliness
higher level. The Department’s FY 2005 Annual                        of the feeder statements, accuracy and completeness,
Statement of Assurance is provided in the Acting                     evidence of effective program execution and training
Deputy Secretary’s Message at the front of this                      to ensure robust assessments of the internal controls,
report. The Department is also asserting that all                    and prompt resolution of previously reported
DoD components have reported to the Secretary                        weaknesses. The scorecard (as shown in Table VI)
of Defense their individual statements of assurance                  has already improved the timeliness of component
over internal controls, except for the National                      feeder statements. Since instituted, the timeliness
Reconnaissance Office, which is reporting to the                     has improved from 48 percent on time in FY 2003
Director of National Intelligence beginning this fiscal              to 97 percent on time in FY 2005.
year. Material weaknesses previously reported to the
Secretary of Defense by the National Reconnaissance                  The Department classifies management control
Office are being transferred to the Director of                      weaknesses into three categories:
National Intelligence.
                                                                     1. Section 2 Systemic Weaknesses: Weaknesses
Maintaining integrity and accountability in                          materially affecting management controls across
programs and operations:                                             organizational and program lines and usually
                                                                     affecting multiple DoD components.
(1)	 Is critical for good government,
(2)	 Demonstrates responsible stewardship over assets                2. Section 2 Material Weaknesses: Weaknesses
and resources,                                                       materially affecting management controls that
(3)	 Promotes high-quality, responsible leadership,                  warrant reporting to a higher level and usually affect
(4)	 Enhances the sound delivery of services to                      a single DoD component.
customers, and
(5) Maximizes desired program outcomes.                              3. Section 4 System Nonconformance Weaknesses:
                                                                     System nonconformance with the principles,
In FY 2005, the Department took numerous steps to                    standards, or related requirements prescribed by the
improve the Department-wide training, awareness,                     Comptroller General.

                                                                35
                                                                                           DoD Performance & Accountability Report FY2005
               ............................................................................Part 1: Management’s Discussion and Analysis

The prompt resolution of weaknesses became a                                  expenses are recorded and accounted for properly.”
leadership focus area in FY 2004 and, as a result                             Section 4 requires that “accounting systems conform
of the scorecard and the quarterly tracking on the                            to principles, standards or related requirements
progress of corrective actions, the Department                                prescribed by the Comptroller General.”
has dramatically reduced the number of Federal
Managers’ Financial Integrity Act (FMFIA)                                     In FYs 2002 through 2005, the Department
weaknesses in FY 2005.                                                        reported one Section 4 system nonconformance
                                                                              weakness that encompasses the entire DoD financial
Recognizing that training is essential for                                    system noncompliance with control requirements.
understanding how to establish and continuously                               The Department also considers the DoD financial
assess the effectiveness of internal controls, the                            systems’ noncompliance as a Section 2 systemic
Department presented training briefings to 8 of the                           weakness which affects multiple DoD components.
33 Defense components in FY 2005. In addition,                                In addition, the auditors have identified the DoD
the Department conducted training at the American                             financial systems as a material weakness under the
Society of Military Comptrollers national training                            requirement of the Chief Financial Officers Act.
session, introducing the Department of Defense
overall strategy for implementing the Office of                               The following six tables list the weaknesses grouped
Management and Budget Circular No. A-123,                                     differently as Section 2 (corrected, transferred, or
Appendix A. This training was audio-taped and is                              ongoing, financial, and non-financial) and Section 4
now available on-line as course instruction for the                           (ongoing only).
Certified Defense Financial Manager certification.
                                                                              Tables Ia and Ib
The Department uses periodic management-                                      Section 2 Corrected Financial and Non-Financial
conducted assessments as the basis for the Annual                             Material Weaknesses list 22 corrected during this
Statement of Assurance and reports internal control                           fiscal year.
weaknesses relating to Sections 2 and 4 of the Federal
Managers’ Financial Integrity Act. Section 2 requires                         Table II
“internal accounting and administrative controls                              Section 2 Material Weaknesses Transferred to Non-
that reasonably ensure costs comply with applicable                           Defense Agency lists one material weakness that was
laws, assets are safeguarded, and revenue and                                 transferred to the Director of National Intelligence.

 FMFIA Weaknesses                                             Beginning            New            Resolved       Transferred       Ending
                                                                FY05               FY05             FY05            FY05            FY05

  Section 2 -Systemic                            Financial                5                0                 0             0                 5
                                             Non-Financial                4                2                 0             0                 6
  Subtotal                                                                9                2                 0             0                11
  Section 2 - Material                           Financial            12                   4                 8             0                 8
                                             Non-Financial            25                   4             14                1                14
  Subtotal                                                            37                   8             22                0                22

  Section 2 Total                                                     46                  10             22                1                33
  Section 4 - System Nonconformance                                       1                0                 0             0                 1

  TOTAL FMFIA WEAKNESSES                                              47                  10             22                1                34




                                                                     36
                                                                                                             DoD Performance & Accountability Report FY2005
                ...........................................................................Part 1: Management’s Discussion and Analysis

Table III                                                                               selected for reporting. The status dates for FYs 2004
Section 2 Systemic Weaknesses – Ongoing lists the                                       and 2005 are listed to show progress in completing
nine systemic weaknesses that remained open at the                                      the weakness as planned.
end of FY 2004, plus two additional weaknesses that
were identified in FY 2005.                                                             Table V
                                                                                        Section 4 System Nonconformance Weaknesses
Tables IVa and IVb                                                                      – Ongoing lists the one ongoing Section 4 system
Section 2 Financial and Non-Financial Material                                          nonconformance material weakness.
Weaknesses – Ongoing list the 22 ongoing
material weaknesses. Eight are financial issues of                                      Since FY 2003, the Department has scored the
which four are being newly reported. Fourteen are                                       annual statements of assurance provided by the DoD
related to non-financial issues of which four were                                      components. The results for each of the components
newly identified this fiscal year. For these material                                   for FY 2005 scoring have been included in Table VI,
weaknesses, a sample of the corrective actions was                                      Scorecard Results for FY 2005.

                                              TABLE 1a. Section 2 Corrected Financial Material Weaknesses
                                                                                                                                  Status Date      Status Date
                                                                          Major Corrective Action(s)
      Financial Material Weaknesses                                                                                              as Reported in   as Reported in
                                                                     A sample of the actions is presented.
                                                                                                                                     FY04             FY05
  1. Estimation of accrued liabilities,        - Revised and published the estimation policy in the DoD financial               1st QTR 2005      Completed
  when goods and services are provided,             management guide.
  is not always properly monitored
                                               - Developed adequate procedures and controls for the DoD Business                1st QTR 2005      Completed
  due to inadequate controls recording
                                                    Enterprise Architecture.
  undelivered orders.
  (Defense Finance and Accounting              - Validated that the weakness was corrected.                                     4th QTR 2005      Completed
  Service)

  First Reported: FY 2003                      Correction Target Date: 4th Qtr, FY 2005 Completed
  2. Suspense account balances with            - Legislation passed to allow DoD to write-off aged suspense accounts to         Completed         Completed
  Treasury trial balances are not fully             help reduce the balances to zero.
  resolved and reconciled.
                                               - Began write-offs.                                                              Completed         Completed
  (Defense Finance and Accounting
  Service)                                     - Implemented courses of action to reduce account activity to an                 4th QTR 2005      Completed
                                                    acceptable level, thus improving the reconciliation process.
                                               - Validated that the weakness was corrected.                                     4th QTR 2005      Completed

  First Reported: FY 1997                      Correction Target Date: 4th Qtr, FY 2005 Completed
  3. Appropriation balances in the             - Updated procedures on how to reconcile the DoD balances with Treasury          Completed         Completed
  accounting records do not always                  Balances.
  balance with the Treasury’s balances
                                               - Conducted the first Department-wide conference highlighting business           Completed         Completed
  and transaction level reconciliations are
                                                    rules.
  not always performed.
  (Defense Finance and Accounting              - Expanded systems solutions for Treasury reporting.                             4th QTR 2005      Completed
  Service)
                                               - Validated that the weakness was corrected.                                     4 QTR 2005
                                                                                                                                  th
                                                                                                                                                  Completed

  First Reported: FY 1999                      Correction Target Date: 4th Qtr, FY 2005 Completed




                                                                                   37
                                                                                                        DoD Performance & Accountability Report FY2005
             ............................................................................Part 1: Management’s Discussion and Analysis

                                           TABLE 1a. Section 2 Corrected Financial Material Weaknesses
                                                                                                                             Status Date      Status Date
                                                                     Major Corrective Action(s)
    Financial Material Weaknesses                                                                                           as Reported in   as Reported in
                                                                A sample of the actions is presented.
                                                                                                                                FY04             FY05
4.Telecommunication invoices are not        - Began summary certification process for the Defense Information              Completed         Completed
always certified and obligations are not         Telcommunications.
pre-validated prior to payment.
                                            - Received from the Defense Information Telecommunications                     1st QTR 2005      Completed
(Defense Finance and Accounting
                                                 leadership a formal decision on how to account for the receipt of
Service)
                                                 telecommunication services.
                                            - Validated that the weakness was corrected.                                   4th QTR 2005      Completed

First Reported: FY 2001                     Correction Target Date: 4th Qtr, FY 2005 Completed
5. Inadequate controls have caused          - Standardized the procedures for suspending retirement payments when          Completed         Completed
payments to be made to deceased                  Department suspects the retiree has died.
retirees which were not reclaimed in an
                                            - Improved documentation of procedures.                                        Completed         Completed
effective or timely manner.
(Defense Finance and Accounting             - Trained customer service representatives to differentiate between            1 QTR 2005
                                                                                                                             st
                                                                                                                                             Completed
Service)                                          accounts suspended due to death rather than for other reasons.
                                            - Automated processes for using existing records to determine if payment       3rd QTR 2005      Completed
                                                should be made.
                                            - Validated that the weakness was corrected.                                   3rd QTR 2005      Completed

First Reported: FY 2004                     Correction Target Date: 3rd Qtr, FY 2005 Completed
6. Inadequate data being provided to        - A team was established from all the Services to work in concert with         Completed         Completed
the Services for budget planning results          finance for a viable solution to the varied problems.
in the appearance of over-obligation on
                                            - Began implementing forward compatible pay.                                   2nd QTR 2005      Completed
the financial statements.
(Defense Finance and Accounting             - Validated that the weakness was corrected.                                   3rd QTR 2005      Completed
Service)

First Reported: FY 2004                     Correction Target Date: 3rd Qtr, FY 2005 Completed
7. Adequate controls are not in place to    - Established control mechanisms to confirm receipt of payment data.           Completed         Completed
ensure that “fast payment purchases”
                                            - Developed and distributed standard operating procedures.                     Completed         Completed
are received in Department of the Navy
vendor pay offices.                         - Initiated system change requirements to automatically compare receipt        Completed         Completed
(Defense Finance and Accounting                    data in the supply system to payment data.
Service)
                                            - Weakness has been downgraded from a material weakness to significant         3rd QTR 2005      Completed
                                                deficiency.

First Reported: FY 2004                     Correction Target Date: 3rd Qtr, FY 2005 Completed

8. Contract pay services are non-           - Implemented a daily validation process that compares invoice data to         Completed         Completed
compliant with Certifying Officer’s              payment data.
Legislation because some invoices are
                                            - Modified the contract pay certification process.                             2nd QTR 2005      Completed
not individually reviewed and certified
prior to payment.                           - Pursued data mining techniques to enhance and automate the                   2 QTR 2005
                                                                                                                             nd
                                                                                                                                             Completed
(Defense Finance and Accounting                  comparison of invoices to payments.
Service)
                                            - Validated that the weakness was corrected.                                   4th QTR 2005      Completed

First Reported: FY 2004                     Correction Target Date: 4th Qtr, FY 2005 Completed




                                                                               38
                                                                                                        DoD Performance & Accountability Report FY2005
             ...........................................................................Part 1: Management’s Discussion and Analysis


                                         TABLE 1b. Section 2 Corrected Non-Financial Material Weaknesses
                                                                                                                             Status Date      Status Date
                                                                     Major Corrective Action(s)
  Non-Financial Material Weaknesses                                                                                         as Reported in   as Reported in
                                                                A sample of the actions is presented.
                                                                                                                                FY04             FY05
9. Procedures are not always adequate        - Conducted reviews to ensure proper documentation of “price-                 Completed         Completed
to ensure that the prices paid for           reasonableness.”
contracts are reasonable.
                                             - Conducted a management review to assess performance.                        1st QTR 2005      Completed
(Defense Logistics Agency)
                                             - Validated that the weakness was corrected.                                  2nd QTR 2005      Completed

First Reported: FY 2001                      Correction Target Date: 2nd Qtr, FY 2005 Completed
10. Payments for fuel charges incurred       - Established an integrated process team for oversight of program             Completed         Completed
as part of the DoD Fleet Card have           management.
been delinquent.
                                             - Established periodic audit procedures. Developed a plan to ensure           1st QTR 2005      Completed
(Defense Logistics Agency)
                                             oversight responsibilities are adequate.
                                             - Established and implemented a formal training program for program           1st QTR 2005      Completed
                                             coordinators and end-users.
                                             - Validated that the weakness was corrected.                                  1st QTR 2005      Completed

First Reported: FY 2002                      Correction Target Date: 1st Qtr, FY 2005 Completed
11. Controls for assessing which             - Obtained Union agreement on mass transit benefits.                          Completed         Completed
employees can receive mass transit
                                             - Validated parking decals. Certified employee participation against the      1st QTR 2005      Completed
benefits are not always adequate.
                                             Department of Transportation database.
(Defense Logistics Agency)
                                             - Validated that the weakness was corrected.                                  1st QTR 2005      Completed

First Reported: FY 2003                      Correction Target Date: 1st Qtr, FY 2005 Completed
12. Existing controls did not ensure         - Completed 138 of 165 corrective actions. Incorporated training to           Completed         Completed
that incidents of sexual assault among       improve the gender climate.
the cadet population were prevented or
                                             - Implemented remaining action items.                                         1st QTR 2005      Completed
reported.
(Department of the Air Force)                - Conducted unit compliance inspections to review institutional response to   2 QTR 2005
                                                                                                                             nd
                                                                                                                                             Completed
                                             sexual assault and compliance within the instructions.
                                             - Validated that the weakness was corrected.                                  4th QTR 2005      Completed

First Reported: FY 2003                      Correction Target Date: 4th Qtr, FY 2005 Completed
13. Controls over management of spare        - Sponsored an integrated process team and performed an analysis to           Completed         Completed
parts were not always adequate to meet       determine the correct number of stock level days that should be used in
the war fighter mission.                     spares’ computation. Revised the Department of Air Force guidance.
(Department of the Air Force)
                                             - Initiated a management plan to enhance spare parts support and identify     Completed         Completed
                                             systematic supply shortfalls.
                                             - Determined the total spares parts requirement for FY 2004 Program           Completed         Completed
                                             Objective Memorandum.
                                             - Revised the requirements computation systems to provide more accurate       Completed         Completed
                                             consumption patterns.
                                             - Included the total spare parts requirement in the                           Completed         Completed
                                             FY 2004 Program Objective Memorandum submission.
                                             - Compared the projected spare part requirements to actual and                4th QTR 2005      Completed
                                             determined effectiveness of forecasting tools and other corrective actions.
                                             - Validated that the weakness was corrected.                                  4th QTR 2005      Completed

First Reported: FY 1999                      Correction Target Date: 4th Qtr, FY 2005 Completed




                                                                               39
                                                                                                         DoD Performance & Accountability Report FY2005
             ............................................................................Part 1: Management’s Discussion and Analysis


                                          TABLE 1b. Section 2 Corrected Non-Financial Material Weaknesses
                                                                                                                               Status Date      Status Date
                                                                      Major Corrective Action(s)
  Non-Financial Material Weaknesses                                                                                           as Reported in   as Reported in
                                                                 A sample of the actions is presented.
                                                                                                                                  FY04             FY05
14. Better controls over efforts to           - Raised awareness of air hazards around aircraft operations. Developed         Completed        Completed
provide safe areas surrounding air            the Department of Air Force multi-Service training.
installations are needed to minimize
                                              - Re-evaluated the Air Installation Compatible Use Zone Program.                2nd QTR 2006     Completed
public exposure from the hazards of
aircraft operations.                          - Validated that the weakness was corrected.                                    4th QTR 2006     Completed
(Department of the Air Force)

First Reported: FY 2000                       Correction Target Date: 4th Qtr, FY 2006 Completed
15. Processes for reporting the               - Discontinued the use of estimates to compile data, using only actual          Completed        Completed
readiness for going to war are not            enrollees or graduates.
always accurate and consistent.
                                              - Revised training and readiness reporting procedures to ensure accuracy        Completed        Completed
(Department of the Navy)
                                              and consistency.
                                              - Developed an installation readiness assessment system to support and          3rd QTR 2005     Completed
                                              sustain forces.
                                              - Weakness has been downgraded from a material weakness to a                    4th QTR 2005     Completed
                                              significant deficiency.

First Reported: FY 2002                       Correction Target Date: 4th Qtr, FY 2005 Completed
16. Some procedures for projecting            - Automated the instructor requirements.                                        Completed        Completed
training requirements have not been
                                              - Used computer software to develop more effective and efficient delivery       Completed        Completed
adequate, causing inefficient use of
                                              techniques to provide instruction.
training resources and lost operational
work years.                                   - Transitioned to a curriculum module within the Training Information           4th QTR 2006     Completed
(Department of the Navy)                      Management System, which will enable quantitative tracking and analysis.
                                              - Weakness has been downgraded from a material weakness to a                    1st QTR 2007     Completed
                                              significant deficiency.

First Reported: FY 1999                       Correction Target Date: 1st Qtr, FY 2007 Completed
17. Better management of Active and           - Ensured that the recruiter and classifier errors are corrected or waived in   Completed        Completed
Reserve recruiting functions is needed        a timely and efficient manner.
to maintain a ready force.
                                              - Validated the corrective measures using an on-site verification.              1st QTR 2005     Completed
(Department of the Navy)
                                              - Validated that the weakness was corrected.                                    1 QTR 2005
                                                                                                                               st
                                                                                                                                               Completed

First Reported: FY 2001                       Correction Target Date: 1st Qtr, FY 2005 Completed
18. Policies and procedures were not          - Reviewed current policies and procedures.                                     Completed        Completed
always adequate for processing other
                                              - Published policy and procedures guidance.                                     Completed        Completed
non-recurring requirement transactions.
(Defense Logistics Agency)                    - Completed validation of policy and procedures and published final policy.     2 QTR 2005
                                                                                                                               nd
                                                                                                                                               Completed
                                              - Validated that the weakness was corrected.                                    2nd QTR 2005     Completed

First Reported: FY 2004                       Correction Target Date: 2nd Qtr, FY 2005 Completed




                                                                                 40
                                                                                                         DoD Performance & Accountability Report FY2005
             ...........................................................................Part 1: Management’s Discussion and Analysis


                                          TABLE 1b. Section 2 Corrected Non-Financial Material Weaknesses
                                                                                                                              Status Date        Status Date
                                                                      Major Corrective Action(s)
  Non-Financial Material Weaknesses                                                                                          as Reported in     as Reported in
                                                                 A sample of the actions is presented.
                                                                                                                                 FY04               FY05
19. Inadequate training has caused            - Developed a program management training course.                             Completed           Completed
inconsistent, uncoordinated, and
                                              - Held two pilot training sessions for module 1, which addressed planning     Completed           Completed
sometimes inadequate approaches
                                              and documentation for milestone decision authority review and approval.
to satisfying the United States’
commitment to provide foreign countries       - Held module 1 training session.                                             1st QTR 2005        Completed
adequate assistance with Cooperative
Threat Reduction.                             - Held pilot training session for module 2, which addressed contract and      2 QTR 2005
                                                                                                                              nd
                                                                                                                                                Completed
(Defense Threat Reduction Agency)             project execution, control and close-out.
                                              - Held module 2 training session.                                             2nd QTR 2005        Completed
                                              - Validated that the weakness was corrected.                                  3 QTR 2005
                                                                                                                              rd
                                                                                                                                                Completed

First Reported: FY 2004                       Correction Target Date: 3rd Qtr, FY 2005 Completed
20. Inadequate controls to ensure             - Developed instructions addressing responsibilities for validating sources   Completed           Completed
that secondary item repair costs were         of repair used in preparing budgets.
properly budgeted.
                                              - Published revised secondary item repair costs instructions.                 2nd QTR 2005        Completed
(Department of the Air Force)
                                              - Incorporated new procedures in automated budget processes to support        3 QTR 2005
                                                                                                                              rd
                                                                                                                                                Completed
                                              budget development.
                                              - Validated that the weakness was corrected.                                  4th QTR 2005        Completed

First Reported: FY 2004                       Correction Target Date: 4th Qtr, FY 2005 Completed
21. Controls were not always adequate         - Disciplinary actions initiated to correct personnel performance issues.     Completed           Completed
to ensure accountability of automated
                                              - Appointed custodians to assist in managing and tracking equipment.          Completed           Completed
data processing equipment.
(United States Pacific Command)               - Performed 100% wall-to-wall inventory.                                      4 QTR 2005
                                                                                                                              th
                                                                                                                                                Completed
                                              - Validated that the weakness was corrected.                                  4 QTR 2005
                                                                                                                              th
                                                                                                                                                Completed

First Reported: FY 2004                       Correction Target Date: 4th Qtr, FY 2005 Completed
22. Manpower challenges impact the            - Identified manpower requirements.                                           Completed           Completed
mission accomplishment of military
                                              - Developed documentation for manpower requirements.                          Completed           Completed
intelligence operations.
(Under Secretary of Defense                   - Validated manpower data to correct weakness.                                2 QTR 2005
                                                                                                                              nd
                                                                                                                                                Completed
(Intelligence))
                                              - Validated that the weakness was corrected.                                  2nd QTR 2005        Completed

First Reported: FY 2004                       Correction Target Date: 2nd Qtr, FY 2005 Completed




                                   Table II. Section 2 Material Weaknesses Transferred to Non-Defense Agency
Lack of sufficient controls to ensure regulation compliance, information management, and records management. (National Reconnaissance Office)




                                                                                  41
                                                                                                             DoD Performance & Accountability Report FY2005
              ............................................................................Part 1: Management’s Discussion and Analysis


                                                   Table III. Section 2 Systemic Weaknesses – Ongoing

Title                1. Department of Defense Financial Management Systems and Processes
Description of       The Department of Defense financial and business management systems and processes are costly to maintain and operate, not fully
Issue                  integrated, and do not provide information that is reliable, timely, and accurate.
Progress to          A. Completed Milestones:
Date                 •	 Created a portfolio management approach to review information technology investments.
                     •	 Incorporated the enterprise business process model into the Business Enterprise Architecture release 2.1.
                     •	 Established integrated goals, objectives, measures, and targets.
                     •	 Initiated a single Department-wide information technology registry to track all business systems.
                     •	 Established five core business mission areas: financial management, human resources management, weapon system lifecycle
                        management, real property and installation lifecycle management, and materiel supply and service management. These were business
                        areas which worked together to unify the Department’s business transformation efforts.
                     •	 Established six initial business enterprise priorities: financial visibility; acquisition program visibility; materiel transaction visibility; personnel
                        visibility; real property accountability; and common supplier engagement to guide the initial direction of transformation activities.
                     •	 Defined six core financial capabilities in support of the financial visibility priorities, and established performance measures to monitor and
                        guide activities that lead to the full development and maintenance of those capabilities. The six capabilities are: forecast, plan, program
                        and budget; manage financial assets and liabilities; managerial accounting; funds allocation, funds collection, funds control, and funds
                        disbursement; manage general ledger; and financial reporting.
                     •	 Identified five initiatives to support the financial visibility priorities: Standard Financial Information Structure; business enterprise
                        information services; defense cash accountability system; intragovernmental transaction system; and the program budget framework.
                     •	 Chartered the Defense Business System Management Committee to oversee transformation in the five core business mission areas.
                     •	 Established the Defense Financial Management Investment Review Board as the authoritative body to review and approve all investment
                        priorities for all Defense business systems under the Under Secretary of Defense (Comptroller) purview. The Financial Management
                        Investment Review Board will enhance the Department’s ability to comply with the National Defense Authorization Act of FY 2005
                        to ensure the review all business system investments annually and certify the compliance of business system modernizations over
                        $1,000,000.

                     B. Planned Milestones for FY 2006 and beyond:
                     •	 Publish version 3.0 of the Business Enterprise Architecture, which will include the elements of Phase 1 of the Standard Financial
                        Information Structure.
                     •	 Publish the Department of Defense Enterprise Transition Plan which will reflect the Department’s goals, objectives, and implementation
                        strategies and create an integrated picture of the Department’s business transformation.
                     •	 Update the Enterprise Transition Plan and Financial Improvement and Audit Readiness Plan every 6 months to ensure the Department of
                        Defense components have the most up to date guidance available.
                     •	 Update and publish versions 3.1 and 4.0 of the business enterprise architecture and integrate it with the Enterprise Transition Plan.
                     •	 Integrate Phase 1 of the Standard Financial Information Structure into the business enterprise information services to create a shared
                        business intelligence environment. The business enterprise information services will include a corporate general ledger where legacy
                        accounting systems transactions (that have been cross-walked to the Standard Financial Information Structure) can be recorded. The
                        financial management transformation team will work closely with the targeted accounting systems to ensure a common understanding and
                        implementation of the Phase 1 elements of the Standard Financial Information Structure.
                     •	 Implement Phase 2 of the Standard Financial Information Structure into the framework for a Statement of Net Cost. Phase 2 will define
                        segments of responsibility and links to support the consolidation of financial statements, and provide a corporate level view of major
                        operations segments of responsibility.
                     •	 Align and integrate the program budget framework initiative with Phases I and II of the Standard Financial Information Structure to create a
                        direct link between the Department’s plans, programs, and budgets with execution and performance data.
                     •	 Align the financial visibility performance measures to the Office of the Under Secretary of Defense (Comptroller) strategic plan goals and
                        measures.

                     Correction Target Date: 4th Quarter, FY 2015

Title                2. Management of Information Technology and Assurance
Description of       The Department of Defense information systems are potentially vulnerable to an information warfare attack. In addition, this issue has also
Issue                  been reported as a “significant deficiency” under the reporting requirements of the Federal Information Security Management Act.
Progress to          A.	Completed Milestones:
Date                 • Expanded the authority of the United States Strategic Command to include network operations and information assurance.
                     • Completed and updated the Department of Defense policies addressing public key infrastructure and enterprise-wide certification
                        requirements for information assurance / technology professionals.




                                                                                    42
                                                                                                         DoD Performance & Accountability Report FY2005
                 ...........................................................................Part 1: Management’s Discussion and Analysis


                                                   Table III. Section 2 Systemic Weaknesses – Ongoing
Progress to             A. Completed Milestones (continued):
Date (continued)        • Developed an automated security certification and accreditation process for information systems. Began the expansion to more robust
                           web-based design using shared information and services that deliver improved functionality by interconnecting data transactions into a
                           common database.
                        • Awarded the Department of Defense-wide enterprise license for an information assurance vulnerability scanning tool.
                        • Coordinated for comments the revised Department of Defense security certification and accreditation policy and process to improve
                           compliance and to provide an enterprise management capability.
                        • Incorporated a revised security certification and accreditation process, including vulnerability management into the enterprise mission
                           assurance support system and began piloting this process in selected Defense components.
                        • Developed and coordinated for comments the information assurance training, certification, and workforce management manual. The
                           manual provides essential details necessary to track information assurance personnel through the personnel management systems.
                        • Awarded the Department of Defense-wide enterprise license for an automated information assurance vulnerability “patching” tool and
                           completed evaluating the “wrapper” capability that helps prevent malicious modification of operating systems by viruses.
                        • Developed an on-line knowledge service that provides detailed guidelines, standards and collaboration tools for security certification and
                           accreditation.
                        • In the Federal Information Security Management Act report, dated March 2005, reported 84 percent of Department of Defense systems
                           certified and accredited.
                        • Approved Increment 1.0 of the information assurance element of the Global Information Grid architecture, which for the first time provides
                           a comprehensive architectural basis for developing and providing information assurance within the Department.


                        B.	Planned Milestones for FY 2006:
                        •	 Issue policy establishing a comprehensive process to develop and implement plans and milestones to manage and correct identified
                           security performance weaknesses, and direct Department of Defense components to appropriately report all security weaknesses
                           identified in annual reviews or audits.
                        •	 Issue guidance on information assurance training and certification standards.
                        •	 Award Department of Defense-wide enterprise license for operating system “wrapper” capability.
                        •	 Continue modular development and deployment of additional services to support core information assurance processes, e.g., investment,
                           resource management, workforce management, and information assurance management tools.
                        •	 Expand the information assurance element of the Global Information Grid architecture.
                        •	 Provide information assurance management tools as a core enterprise service.
                        •	 Achieve 100 percent security certification and accreditation for the Department of Defense systems.
                        •	 Complete the Defense Civilian Personnel Data System detailed information assurance workforce database updates. Incorporate changes
                           to the military personnel databases to support the information assurance workforce management program.


                        C.	Planned Milestones for Beyond FY 2006:
                        •	 Continue developing the information assurance element of the Global Information Grid architecture and deploy the information assurance
                           capabilities.
                        •	 Continue to identify and track information assurance personnel in the civilian and military personnel systems.
                        •	 Provide the United States Strategic Command a real time situational awareness of the Department of Defense information assurance
                           posture.

                        Correction Target Date: 3rd Quarter, FY 2007

Title                   3. Environmental Liabilities

Description of          The Department of Defense has not developed the policies, procedures, and methodologies needed to ensure that cleanup costs for all of
Issue                     its ongoing and inactive or closed operations are identified, consistently estimated, and appropriately reported. Site inventories and cost
                          methodologies to identify budget requirements and financial liabilities continue to need improvement.

Progress to             A.	Completed Milestones:
Date                    •	 Provided guidance to accomplish an initial operational range inventory.
                        •	 Reported the operational range inventory to Congress in February of FY 2004.
                        •	 Completed a real property inventory business process reengineering and presented the concept for Department of Defense-wide review.
                        •	 Revised the Financial Management Regulation for liability recognition and reporting for operational ranges and munitions response areas.
                        •	 Published the directive entitled “Sustainment of Ranges and Operating Areas,” that requires reporting of environmental remediation
                           liabilities.




                                                                                  43
                                                                                                        DoD Performance & Accountability Report FY2005
              ............................................................................Part 1: Management’s Discussion and Analysis


                                                 Table III. Section 2 Systemic Weaknesses – Ongoing

Progress to          A.	Completed Milestones (continued):
Date (continued)     •	 Issued planning guidance that requires the assessment of environmental condition of the operational ranges.
                     •	 Completed the final inventory of munitions sites (other than operational ranges) and made this information available to the public in
                        accordance with Congressional direction. This inventory is updated and reported annually to Congress.
                     •	 Developed and issued an interim change to the regulations that requires the reconciliation of real property and environmental site records.
                     •	 Developed and coordinated guidance to enable Department of Defense components to recognize, document, and report environmental
                        liabilities other than those included in the Defense Environmental Restoration Program.
                     •	 Developed and coordinated the guidance on how to conduct operational range assessments.
                     •	 Developed and coordinated the guidance on how to report and forecast real property inventory.


                     B.	Planned Milestones for FY 2006:
                     •	 Complete the policy changes.
                     •	 Closure of final recommendations in the Government Accountability Office report.

                     Correction Target Date: 1st Quarter, FY 2006
                     (Management within the Office of the Secretary of Defense for Acquisition, Technology and Logistics responsible for reporting this systemic
                      weakness provided this information. However, the DoD components reporting similar weaknesses show corrective actions extending past the
                      correction target date to FY 2007. Therefore, the corrective actions and correction target date will be reviewed and the impact assessed.)


Title                4. Personnel Security Investigations Program

Description of       The Department of Defense hiring is adversely affected because personnel security investigations are backlogged.
Issue

Progress to          A.	Completed Milestones:
Date                 •	 Signed an interagency agreement with the Office of Personnel Management to allow the Defense Security Service to use the Office of
                        Personnel Management computer system for tracking and controlling the Department of Defense personnel security investigations and
                        case processing.
                     •	 Realigned 200 overhead positions in the Defense Security Service to investigator positions, redesigned the organizational structure,
                        closed offices that lacked sufficient work, and deployed “tiger teams” to conduct overseas investigations. Reduced the number of pending
                        cases in the case control management system from over 400,000 to less than 57,000.
                     •	 Reinforced quality reviews of contractor work. Issued to the contractors cure letters for failing to meet agreed upon timelines. Took back a
                        number of investigations from the contractors.
                     •	 Transferred the security investigations function to the Office of Personnel Management in February 2005. The Department made final
                        payments to contractors and terminated all contracts associated with this function.
                     •	 Notified that the Office of Personnel Management has contracted with five investigative service providers to address the need for more
                        investigators in order to improve the processing time of investigations.
                     •	 Implemented the Joint Personnel Adjudication System for submitting and tracking all investigative requests. The verification and validation
                        module achieved initial operating capability in May 2005. Beginning in July 2005, investigations for Defense contract personnel were
                        submitted to the Office of Personnel Management through the Joint Personnel Adjudication System.


                     B.	Planned Milestones for FY 2006:
                     •	 The Office of Personnel Management indicates that 90 percent of investigations submitted in FY 2006 will be completed within the
                        timelines established by the Intelligence Reform and Terrorism Prevention Act of 2004 and that there will be no open investigations over a
                        year old.

                     Correction Target Date: 4th Quarter, FY 2006

Title                5. Real Property Infrastructure

Description of       The Department has not adequately managed the real property infrastructure to halt the deterioration or obsolescence of facilities on military
Issue                  installations.

Progress to          A.	Completed Milestones:
Date                 •	 Conducted a comprehensive review of planned facilities sustainment programs, resulting in an increase of $85 million in funding for FY
                        2005..




                                                                                 44
                                                                                                           DoD Performance & Accountability Report FY2005
                 ...........................................................................Part 1: Management’s Discussion and Analysis


                                                    Table III. Section 2 Systemic Weaknesses – Ongoing

Progress to             A.	Completed Milestones (continued):
Date (continued)        •	 Preserved the previously approved corporate facilities sustainment rate at 95 percent of benchmarks in FY 2005
                        •	 Improved funding to support an overall facilities recapitalization rate of 136 years, down from a funded rate of 149 years in FY 2003.
                        •	 Issued updated strategic planning guidance to the Defense components addressing sustainment and recapitalization goals.
                        •	 Initiated new efforts to model the operation costs for facilities and forecast requirements.
                        •	 Published an updated Defense Installations Strategic Plan, expanding the focus to include environment and installation services, and
                           directed the Defense components to prepare implementation plans.
                        •	 Initiated a second survey of demolition and disposal requirements for obsolete and excess assets.
                        •	 Completed a study of facility restoration requirements, which updated the target date for restoring adequate readiness conditions.
                        •	 Accepted a reduction in funding for facilities recapitalization, which resulted in a slight increase in the overall recapitalization rate to 110
                           years in FY 2006, up slightly from 104 years in FY 2005. This risk is taken in view of upcoming restationing and Base Realignment and
                           Closure actions that will decrease the size of the Department’s inventory and increase the investment in recapitalization.
                        •	 Refined and updated the unit costs for sustainment and construction of facilities, with emphasis on utility systems.
                        •	 Completed a model that predicts the average annual cost required to modernize and refurbish facilities on an ongoing basis.
                        •	 Corrected a deficiency in the methodology used to score facilities sustainment funding that had produced inaccuracies due to contingency-
                           related costs.
                        •	 Completed a model to improve the accuracy of forecasting costs associated with operating facilities.
                        •	 Completed an assessment of demolition and disposal requirements for obsolete and excess assets.
                        •	 Initiated actions to improve the accuracy of the facilities recapitalization metric.
                        •	 Initiated efforts to report the condition of facilities in the Defense Readiness Reporting System.
                        •	 Expanded metrics to include family housing and industrial facilities.

                        B.	Planned Milestones for FY 2006 and beyond:
                        •	 Complete a standard reporting procedure for facility conditions in the real property inventory.
                        •	 Deploy a model that predicts the requirements for facility-related services, utilities, and leasing.
                        •	 Deploy a model that predicts the average annual cost required to modernize and refurbish facilities on an ongoing basis.
                        •	 Implement new corporate procedures for demolition and disposal of facilities that will more accurately capture the net effect of eliminating
                           excess and obsolete facilities.
                        •	 Begin reporting installation and facility data in order to fully capture the impact of facility capabilities on mission readiness.
                        •	 Integrate military family housing and industrial facilities into the facility’s metrics.

                        Correction Target Date: 1st Quarter, FY 2008

Title                   6. Government Card Program Management

Description of          Instances of misuse, abuse, and fraud in respect to purchase and travel card use, and centrally billed accounts have been attributed to
Issue                      inadequate Department of Defense emphasis on proper use of the cards, poorly enforced controls, and lax oversight.

Progress to             Purchase Card Program:
Date
                        A.	Completed Milestones:
                        •	 Cancelled unnecessary cards and tailored spending limits to historical buying patterns.
                        •	 Established methods to ensure cards are collected from departing civilians and service members.
                        •	 Developed and issued a comprehensive purchase card concept of operations.
                        •	 Completed the initial field tests of a centralized data mining tool to detect fraudulent, wasteful, and abusive card transactions.
                        •	 Implemented new disciplinary guidelines specifically targeted to card misuse. Aggressively pursued prosecution of known fraud cases.
                        •	 Increased awareness concerning the usage of purchase cards through training forums. Developed and enhanced training materials.
                        •	 Issued omnibus charge card guidebook, including governing laws, regulations, and more salient business rules for purchase, travel, fleet,
                           and air cards.
                        •	 Implemented use of on-line statement review, approval, and certification.
                        •	 Issued directive on purchase card roles and responsibilities.


                        B.	Planned Milestones for FY 2006:
                        •	 Implement initial operating capability of authorization and data mining capabilities.




                                                                                    45
                                                                                                         DoD Performance & Accountability Report FY2005
              ............................................................................Part 1: Management’s Discussion and Analysis


                                                 Table III. Section 2 Systemic Weaknesses – Ongoing

Progress to          Travel Card Program
Date
                     A.	Completed Milestones
                     •	 Updated Joint Federal Travel Regulation and Joint Travel Regulation specifically prohibiting commercial travel offices from issuing
                        premium class tickets without proper approval.
                     •	 Issued guidance directing Defense components to modify contracts with commercial travel offices so that performance standards direct
                        them not to issue airline tickets for premium class travel unless the traveler’s orders identify that premium class travel is authorized.
                     •	 Issued policy for all travelers to return unused paper and electronic tickets to their travel offices.
                     •	 Issued policy to commercial travel offices to cancel unused tickets 30 days after the date of the last leg of the itinerary and to initiate refund
                        actions.
                     •	 Issued policy directing a contract modification with commercial travel offices that automatically cancels unused tickets 30 days after the
                        date of the last leg of the itinerary and provides reports of unused airline tickets.
                     •	 Issued policy to develop processes and procedures that minimize the potential for commercial travel offices to issue airline tickets under
                        fraudulent circumstances.
                     •	 Instituted a monthly review of travel card metrics.
                     •	 Implemented mandatory split disbursement for military personnel and initiated bargaining for civilian employees.
                     •	 Published disciplinary guidelines for both military and civilian personnel and modified systems to record and report instances of disciplinary
                        actions taken.
                     •	 Closed 161,000 unused accounts in FY 2004, and approximately 600,000 in FY 2002 and FY 2003.
                     •	 Closed 3,900 accounts after reviewing the separation or retirement lists.
                     •	 Collected approximately $48 million through salary offset.
                     •	 Issued exemptions from mandatory use of the government travel charge card for travel related to deployments.
                     •	 Instituted a monthly review of charges made on merchant codes that are supposed to be blocked from authorization.
                     •	 Implemented a management initiative decision to require higher approval authorities for premium travel and to strengthen management
                        controls.
                     •	 Implemented a data mining pilot program with the Bank of America and Visa Corporation to flag and review high-risk transactions.
                     •	 Published a standard training program.
                     •	 Developed and issued additional guidelines for management of centrally-billed accounts.
                     •	 Implemented the premium class travel task force recommendations regarding policies for the Department.
                     •	 Developed a method for preventing or identifying centrally-billed travel tickets claimed for reimbursement on an individual’s travel voucher.

                     B.	Planned Milestones for FY 2006:
                     •	 Depending on the results of the Defense Travel System assessment, Office of the Under Secretary of Defense for Personnel and
                        Readiness will determine whether to complete the deployment in FY 2006.
                     •	 Continue to enhance the Defense Travel System to provide visibility of charges and establish additional controls.
                     •	 Perform audits of travel claims to ensure compliance with new regulatory and policy guidelines on unused tickets and improper payments.
                     •	 Continue to monitor travel card performance through monthly metric reviews.

                     Correction Target Date: 4th Quarter, FY 2006

Title                7. Valuation of Plant, Property, and Equipment on Financial Reports

Description of       The Department of Defense is unable to accurately report the value of property, plant, and equipment on its financial statements.
Issue

Progress to          A.	Completed Milestones:
Date                 •	 Established offices and groups of personnel to develop baseline valuations for property, plant, and equipment.
                     •	 Received financial improvement and executing plans from components.
                     •	 Established recurring reviews of Department of Defense components’ progress against plans.
                     •	 Issued new guidance for internal use software financial management policy. The Military Departments have established working groups to
                        address the valuation and accountability of internal use software and have begun formulating a universe of programs to be valued.
                     •	 Initiated discussions with the Marine Corps to develop and implement a pilot program to value personal property items meeting
                        capitalization criteria.
                     •	 Directed the Defense Commissary Agency and the Military Departments to reconcile property under the Department’s “preponderance of
                        use” policy. The Department has begun a similar initiative with the Defense Agencies.
                     •	 Reviewed and developed procedures in accounting for real property inventory assets.
                     •	 Reviewed the capitalization threshold methodology for real property.




                                                                                  46
                                                                                                            DoD Performance & Accountability Report FY2005
                 ...........................................................................Part 1: Management’s Discussion and Analysis


                                                    Table III. Section 2 Systemic Weaknesses – Ongoing

Progress to             A.	Completed Milestones (continued):
Date (continued)        •	 Established metrics that report on the status of the reconciliation of the “preponderance of use” policy, documentation of inventory, and
                           construction in process.
                        •	 Developed and issued the military equipment valuation business rules (reviewed by the Government Accountability Office and approved by
                           the Deputy Chief Financial Officer) and updated the regulations.
                        •	 Established initial valuations based on actual data; 95 percent of identified military equipment will be valued.
                        •	 Developed a functional requirement for the first increment of a transaction based valuation system for military equipment.
                        •	 Reconciled 40 percent of property for other Defense Agencies under “the preponderance of use” policy.


                        B.	Planned Milestones for FY 2006:
                        •	 Provide the Military Departments with baseline valuations for military equipment, a process and corresponding business rules for valuation,
                           and a tool to maintain these baseline valuations. This will allow them to begin the assertion process for general property, plant, and
                           equipment.
                        •	 Publish the Federal Acquisition Regulation rule on property in the hands of contractors.
                        •	 Reconciling the remaining 60 percent of property for other Defense Agencies under the “preponderance of use” policy.
                        •	 Complete the baseline valuation for military equipment.
                        •	 Implement Increment 1, full operational capability of the Capital Asset Management System-Military Equipment.


                        C.	Follow on Actions (after completion of Increment 1):
                        •	 Reconcile construction in progress, inventory and associated documentation.
                        •	 Implement Increment 2, initial operational capability of the Capital Asset Management System-Military Equipment.

                        Correction Target Date: 4th Quarter, FY 2006
                         (Management within the Office of the Secretary of Defense for Acquisition, Technology and Logistics responsible for reporting this systemic
                        weakness provided this information. However, the DoD components reporting similar weaknesses show corrective actions extending past the
                        correction target date to FY 2008. Therefore, the corrective actions and correction target date will be reviewed and the impact assessed.)


Title                   8. Valuation of Inventory on Financial Reports

Description of          The valuation of inventory is not always correctly reported.
Issue

Progress to             A.	Completed Milestones:
Date                    •	 Convened an inventory working group charged with developing a baseline for inventory valuation, establishing methodologies for valuing
                           inventory, and testing the existence and completeness assertions.
                        •	 Updated the policy on unique identification of assets.
                        •	 Established an operating materials and supplies group, which is developing a methodology for baseline valuation.
                        •	 Developed methodologies for valuing inventory; identified systems that are compliant with and could sustain moving average cost
                           inventory valuations; and developed timelines and approaches to completing baselines for all systems to include testing existence and
                           completeness assertions.
                        •	 Worked with the Federal Accounting Standards Advisory Board to interpret and apply standards to the Department’s processes.
                        •	 Issued a final “unique identification and valuation” rule.
                        •	 Published policy governing the application of passive radio frequency identification in the Federal Register for public comments.
                        •	 Completed a methodology for baseline valuation based on the working group findings and recommendations.
                        •	 Issued new and revised policies as a result of the working group findings and recommendations.


                        B.	Planned Milestones for FY 2006
                        •	 Extend “unique identification and valuation” rule to legacy items.
                        •	 Publish policy governing application of identification tags to remaining commodities and locations.
                        •	 Institute baseline inventory systems and implement processes to sustain them.

                        Correction Target Date: 3rd Quarter, FY 2006
                        (Management within the Office of the Secretary of Defense for Acquisition, Technology and Logistics responsible for reporting this systemic
                        weakness provided this information. However, DoD components reporting similar weaknesses show corrective actions extending past the corrective
                        target date to FY 2011. Therefore, the correction actions and correction target date will be reviewed and the impact assessed.)




                                                                                    47
                                                                                                     DoD Performance & Accountability Report FY2005
              ............................................................................Part 1: Management’s Discussion and Analysis


                                                Table III. Section 2 Systemic Weaknesses – Ongoing

Title                9. Improper Use of Non-Department of Defense Contracting Vehicles

Description of       Non-Department of Defense contracting vehicles have been used improperly to procure services or supplies.
Issue

Progress to          A.	Completed Milestones
Date                 •	 Commenced collaboration with the General Services Administration on the “Get It Right” Campaign.
                     •	 Created a new policy which establishes internal review procedures for any procurement of services or supplies greater than the simplified
                        acquisition threshold when using non-Department of Defense contract vehicles.
                     •	 Conducted site visits to multiple assisting agencies.
                     •	 Issued Department of Defense guidance.
                     •	 Tasked the Office of the Secretary of Defense, Military Departments, and Defense Agencies to perform compliance reviews and report
                        results.
                     •	 Developed training programs with the Defense Acquisition University and General Services Administration.
                     •	 Issued policy memorandum.
                     •	 Issued interim rules in the Defense Federal Acquisition Regulation.
                     •	 Conducted outreach programs with assisting civilian agencies.
                     •	 Commenced workforce training.


                     B.	Planned Milestones for FY 2006:
                     •	 Commence reporting on the use of non-Department of Defense contracts from assisting civilian agencies.
                     •	 Complete compliance review conducted by the Office of the Secretary of Defense, Military Departments, and Defense Agencies regarding
                        proper implementation of policy in using non Department of Defense contracts.

                     Correction Target Date: 2nd Quarter, FY 2006

Title                10. Department of Defense Contracting for Services

Description of       The Office of Inspector General, Department of Defense, and the Government Accountability Office have identified deficiencies in the policy
Issue                  for, and the execution of, procurement for services. (Newly reported: FY 2005)

Progress to          A.	Planned Milestones for FY 2006:
Date                 •	 Ensure Army reviews all logistic civil augmentation program contract orders to ensure that they are within scope and that they are being
                        completed in a timely manner.
                     •	 Ensure the Military Departments and Defense Agencies have adequate policies dealing with the appointment and training of contracting
                        office representatives.
                     •	 Provide guidance to the Military Departments and Defense Agencies regarding procedures for and use of waivers to competitive
                        requirements.
                     •	 Revise the policy on the proper use of other agencies’ contracts to include guidance on conducting surveillance of services procured from
                        other agencies’ contracts.
                     •	 Ensure the Military Departments’ and Defense Agencies’ service contract review processes and associated data collection procedures
                        provide adequate visibility over contract surveillance.


                     B.	Planned Milestones for Beyond FY 2006:
                     •	 Ensure that all personnel who develop statements of work receive performance-based service acquisition training.

                     Correction Target Date: 2nd Quarter, FY 2007




                                                                               48
                                                                                                          DoD Performance & Accountability Report FY2005
                 ...........................................................................Part 1: Management’s Discussion and Analysis


                                                  Table III. Section 2 Systemic Weaknesses – Ongoing

Title                   11. Federal Procurement Data Reporting
Description of          The new Federal Procurement Data System is not fully functional causing inaccurate procurement reporting data and increased costs
Issue                     required for continued maintenance of legacy systems. (Newly reported: FY 2005)

Progress to             A.	Completed Milestones:
Date                    •	 Established a joint Federal Procurement Data System–Next Generation migration team in 2003.
                        •	 Identified outstanding requirements to the General Services Administration, necessary to transition to the new system.
                        •	 Held regular weekly meetings with the General Services Administration throughout FYs 2004 and 2005 to provide detailed explanation of
                           the outstanding requirements and to answer questions.
                        •	 Provided on-site support with subject matter experts to the General Services Administration throughout FYs 2004 and 2005.
                        •	 Certified contract-writing systems that directly report to the new system.

                        B.	Planned Milestones for FY 2006:
                        •	 Certify that all FY 2005 data has been appropriately submitted to the new Federal Procurement Data System–Next Generation.
                        •	 Complete testing to ensure that data from FYs 1997-2004 has been correctly migrated to the new system, which will be done by the
                           General Services Administration in conjunction with the Defense Management Data Center.
                        •	 Receive certification from the General Services Administration that the Federal Procurement Data System–Next Generation has attained
                           full operating capability.
                        •	 Complete migration from the current reporting environment to the Federal Procurement Data System–Next Generation.

                        C.	Follow on actions:
                        •	 Certify that all FY 2006 data has been submitted to Federal Procurement Data System–Next Generation.
                        •	 Decommission feeder systems.

                        Correction Target Date: 2nd Quarter, FY 2006



                                             Table IVa. Section 2 Financial Material Weaknesses - Ongoing
                                                                                                                                Status Date         Status Date
                                                                       Major Corrective Action(s)
    Financial Material Weaknesses                                                                                              as Reported in      as Reported in
                                                                  A sample of the actions is presented.
                                                                                                                                   FY04                FY05
1. Adequate documentation does not             - Built crosswalks from the legacy line of accounting to the standard fiscal    Completed           Completed
always exist to support adjustments            code to the Defense Departmental Reporting System-Budgetary.
used to reconcile general ledger data to
                                               - Implemented and validated a crosswalk process to map transactions to          Completed           Completed
budgetary data.
                                               the appropriate general ledger accounts.
(Defense Finance & Accounting Service)
                                               - Activated the Defense Departmental Reporting System-Budgetary.                2nd QTR 05          Completed
                                               - Validate that the weakness is corrected.                                      2nd QTR 05          2nd QTR 06

First Reported: FY 2003                        Revised Correction Target Date: 2nd Qtr, FY 2006
2. Policy for recording, reporting,            - Monitored monthly and performed quarterly reconciliation.                     Completed           Completed
collecting and reconciling accounts
                                               - Conduct random review of compliance to policy and procedures.                 4th QTR 05          2nd QTR 06
receivable from public and government
sources is not always followed.                - Publish standard accounts receivable operating procedures for                 2nd QTR 05          4th QTR 06
(Defense Finance & Accounting Service)         Department.
                                               - Provide assertion that accounts receivables are ready for audit and           3rd QTR 06          2nd QTR 07
                                               validate that the weakness is corrected.

First Reported: FY 2003                        Revised Correction Target Date: 2nd Qtr, FY 2007




                                                                                  49
                                                                                                          DoD Performance & Accountability Report FY2005
             ............................................................................Part 1: Management’s Discussion and Analysis


                                           Table IVa. Section 2 Financial Material Weaknesses - Ongoing
                                                                                                                               Status Date      Status Date
                                                                       Major Corrective Action(s)
    Financial Material Weaknesses                                                                                             as Reported in   as Reported in
                                                                  A sample of the actions is presented.
                                                                                                                                  FY04             FY05
3. Instances where an ineffective           - Established adequate staffing.                                                  -                Completed
process prevents ensuring that
                                            - Establish a baseline for reconciliation.                                        -                4th QTR 06
disbursements and collections by
service providers are properly recorded.    - Reconcile the Fund Balance with Treasury account.                               -                1st QTR 07
(Defense Intelligence Agency)
                                            - Validate that the weakness is corrected.                                        -                4th QTR 07

First Reported: FY 2005                     Correction Target Date: 4th Qtr, FY 2007
4. Accounts Payable were not always         - Defined scope and created plan to correct problem.                              -                Completed
accurately recorded in a timely manner.
                                            - Conduct training.                                                               -                1st QTR 06
(Department of the Navy)
                                            - Collect requirements to modify the workflow process.                            -                2nd QTR 06
                                            - Modify the workflow and systems to accurately record accounts payable.          -                1st QTR 07
                                            - Ensure that corrective actions are working.                                     -                3rd QTR 07
                                            - Assert that the account is ready to audit.                                      -                1st QTR 08
                                            - Conduct audit to validate that the weakness is corrected.                       -                2nd QTR 08

First Reported: FY 2005                     Correction Target Date: 2nd Qtr, FY 2008
5. There are instances where                Launched agency-wide effort to properly establish codes and correctly use         -                Completed
unsupported adjustments are being           them.
made to the general ledger accounts.
                                            Review procedures to maintain supporting documentation.                           -                1st QTR 06
(Defense Logistics Agency)
                                            Implement procedures to perform reconciliation.                                   -                1st QTR 06
                                            Validate that the weakness is corrected.                                          -                4th QTR 06

First Reported: FY 2005                     Correction Target Date: 4th Qtr, FY 2006
6. The Fund Balance with Treasury           - Develop a plan and milestones that address controls, reconciliation, and        -                1st QTR 06
accounts for the Defense Agencies           assertion that the accounts are ready to audit.
and Navy cannot always be accurately
                                            - Implement full operational capability of financial system.                      -                2nd QTR 06
reconciled.
(Defense Finance and Accounting             - Reconcile disbursements.                                                        -                3rd QTR 06
Service)
                                            - Modify business procedures to eliminate incorrect subheads on                   -                4th QTR 06
                                            transactions.
                                            - Perform validation of identified actions for selected Defense Agencies.         -                1st QTR 07
                                            - Validate that the weakness is corrected.                                        -                3rd QTR 07

                                            Correction Target Date: 3rd Qtr, FY 2007
First Reported: FY 2005
7. Accounts receivable and accounts         - Issued standard guidance and procedures for managing accounts                   Completed        Completed
payable need to be actively managed         receivables and payables.
and reduced to acceptable levels.
                                            - Collected, wrote-off, or closed-out supportable and valid account               Completed        Completed
(Defense Logistics Agency)
                                            receivables over 2 years old except for certain categories.
                                            - Implemented a plan to liquidate valid over aged accounts payable and            1st QTR 05       Completed
                                            write-off invalid payables.
                                            - Validate that the weakness is corrected.                                        4th QTR 05       1st QTR 06

First Reported: FY 2002                     Revised Correction Target Date: 1st Qtr, FY 2006




                                                                                50
                                                                                                              DoD Performance & Accountability Report FY2005
               ...........................................................................Part 1: Management’s Discussion and Analysis


                                              Table IVa. Section 2 Financial Material Weaknesses - Ongoing
                                                                                                                                   Status Date       Status Date
                                                                           Major Corrective Action(s)
     Financial Material Weaknesses                                                                                                as Reported in    as Reported in
                                                                      A sample of the actions is presented.
                                                                                                                                      FY04              FY05
8. The accounts payable do not                  - Reviewed current business practices.                                            Completed         Completed
always accurately reflect the liabilities
                                                - Established a plan of action.                                                   1st QTR 05        Completed
associated with the actual receipt of
goods and services in the appropriate           - Implement metrics to measure magnitude of problem and impact of                 2nd QTR 05        2nd QTR 06
time period.                                    corrective actions.
(Defense Finance & Accounting Service)
                                                - Validate that the weakness is corrected.                                        2nd QTR 06        1st QTR 07

First Reported: FY 2004                         Revised Correction Target Date: 1st Qtr, FY 2007



                                            Table IVb. Section 2 Non-Financial Material Weaknesses - Ongoing
                                                                                                                                      Status Date    Status Date
                                                                           Major Corrective Action(s)
  Non-Financial Material Weaknesses                                                                                                   as Reported   as Reported in
                                                                      A sample of the actions is presented.
                                                                                                                                        in FY04         FY05
9. Contractors are not always                   - Developed remedial training for contractors.                                    -                 Completed
appropriately identifying themselves
                                                - Standardized e-mail procedures for contractors.                                 -                 Completed
according to the Federal Acquisition
Regulation.                                     - Proper identification is established.                                           -                 2nd QTR 06
(National Defense University)
                                                Validate that the weakness is corrected.                                          -                 2nd QTR 06

First Reported: FY 2005                         Correction Target Date: 2nd Qtr, FY 2006
10. Inadequate controls to effectively          - Issued policy.                                                                  -                 Completed
manage pharmaceuticals.
                                                - Implemented system modifications to alert medical personnel of                  -                 2nd QTR 06
(Department of the Air Force)
                                                inappropriate procurement sources and to track backorder status.
                                                - Publish procedures to manage procurement of pharmaceuticals.                    -                 3rd QTR 06
                                                - Validate that the weakness is corrected.                                        -                 3rd QTR 07

First Reported: FY 2005                         Correction Target Date: 3rd Qtr, FY 2007
11. There are instances where planning          - Develop and implement a plan.                                                   -                 2nd QTR 06
for periods of crisis has not been fully
                                                - Conduct training.                                                               -                 2nd QTR 06
developed.
(Office of the Under Secretary of               - Validate that the weakness is corrected.                                        -                 2nd QTR 06
Defense (Counter-Intelligence Field
Activity))

First Reported: FY 2005                         Correction Target Date: 2nd Qtr, FY 2006
12. The skill sets to support critical          - Identified the requirement for manpower.                                        -                 Completed
missions are currently inadequate.
                                                - Develop supporting documentation.                                               -                 Completed
(Office of the Under Secretary of
Defense (Intelligence))                         - Obtain senior level approval.                                                   -                 3rd QTR 06
                                                - Validate that the weakness is corrected.                                        -                 4th QTR 06

First Reported: FY 2005                         Correction Target Date: 4th Qtr, FY 2006




                                                                                    51
                                                                                                             DoD Performance & Accountability Report FY2005
             ............................................................................Part 1: Management’s Discussion and Analysis


                                            Table IVb. Section 2 Non-Financial Material Weaknesses - Ongoing
                                                                                                                                 Status Date      Status Date
                                                                        Major Corrective Action(s)
  Non-Financial Material Weaknesses                                                                                              as Reported     as Reported in
                                                                   A sample of the actions is presented.
                                                                                                                                   in FY04           FY05
13. DoD’s capital investment process            - Completed the inventory of the enterprise information technology               Completed       Completed
for information technology does not             hardware and established a mechanism to maintain it.
confirm that the best investments are
                                                - Publish a capital planning and investment guide that incorporates              2nd QTR 05      1st QTR 06
selected, that they deliver expected
                                                the portfolio management, enterprise architecture requirements, and
benefits, or that the final product or
                                                information management.
service delivers what DoD expects.
(Defense Information Systems Agency)            - Validate that the weakness is corrected.                                       3rd QTR 05      1st QTR 06

First Reported: FY 2002                         Revised Correction Target Date: 1st Qtr, FY 2006
14. The Russian Federation failed to            - The Russian Federation signed the amendments for storage security,             Completed       Completed
honor commitments associated with the           weapons transportation security, and chemical weapon elimination.
Cooperative Threat Reduction Program.
                                                - Work with the Russian Federation to ensure plans are prepared for              3rd QTR 05      1st QTR 06
(Defense Threat Reduction Agency)
                                                further reduction of nerve agents.
                                                - Validate that the weakness is corrected.                                       3rd QTR 05      1st QTR 06

First Reported: FY 2002                         Revised Correction Target Date: 1st Qtr, FY 2006
15. DoD has not established guidance            - Developed policies and procedures.                                             Completed       Completed
or effective controls for processing line
                                                - Conducted legal review of the regulation changes.                              1st QTR 05      Completed
of duty and incapacitation pay, which
adversely affects reservists who attempt        - Published the regulatory guidance.                                             2nd QTR 05      Completed
to receive benefits after their duty
obligation is met.                              - Conduct audit review to validate the effectiveness of corrective actions.      4th QTR 05      1st QTR 06
(Department of the Army)

First Reported: FY 2002                         Revised Corrected Target Date: 1st Qtr, FY 2006
16. Current processes for managing              - Validated the missions. Refined the linkage between operating and              Completed       Completed
workload, linking workload to dollars           generating forces.
required, or predicting future manpower
                                                - Analyzed workload for peacetime and wartime. Linked the workload to            2nd QTR 05      Completed
requirements have not been established.
                                                the operating force.
(Department of the Army)
                                                - Ensured that there is accurate documentation to validate the manpower          4th QTR 05      Completed
                                                requirements in the official record called the “Table of Distribution and
                                                Allowances.”
                                                - Issued a change to the regulation on the approval authority for manpower       4th QTR 05      Completed
                                                requirement determinations.
                                                - Audit review to validate that the weakness is corrected.                       4th QTR 05      1st QTR 06

First Reported: FY 1997                         Revised Correction Target Date: 1st Qtr, FY 2006
17. Automated management tools are              - Modified the global command and control system to allow data entry at all      Completed       Completed
needed to ensure accountability of              the mobilization stations.
Reserve component personnel from
                                                - Corrected the mobilized unit identification codes.                             1st QTR 05      Completed
home station to duty station and back
home.                                           - Corrected any disconnects between mobilization orders and the data             2nd QTR 05      Completed
(Department of the Army)                        entry.
                                                - Interfaced between the global command and control system and the               2nd QTR 06      Completed
                                                mobilization deployment integration system to obtain the on-hand data.
                                                - Validate that the weakness is corrected.                                       4th QTR 06      4th QTR 06

First Reported: FY 2003                         Correction Target Date: 4th Qtr, FY 2006




                                                                                   52
                                                                                                             DoD Performance & Accountability Report FY2005
              ...........................................................................Part 1: Management’s Discussion and Analysis


                                             Table IVb. Section 2 Non-Financial Material Weaknesses - Ongoing
                                                                                                                                 Status Date      Status Date
                                                                          Major Corrective Action(s)
  Non-Financial Material Weaknesses                                                                                              as Reported     as Reported in
                                                                     A sample of the actions is presented.
                                                                                                                                   in FY04           FY05
18. Lack of clearly defined strategies           - Developed draft strategies and implement risk management plans.               1st QTR 05      Completed
or implementation plans has caused
                                                 - Submitted draft strategies and plans for review and approval.                 1st QTR 05      Completed
program inefficiencies for both the
Chemical Demilitarization and the                - Completed actions required for a clearly defined strategies and               2nd QTR 05      Completed
Nuclear Weapons Physical Security                implementation plans.
Programs.
(Office of the Under Secretary of                - Submit final transition plan to leadership.                                   2nd QTR 05      2nd QTR 06
Defense for Acquisition, Technology and          - Validate that the weakness is corrected.                                      2nd QTR 05      2nd QTR 06
Logistics)

First Reported: FY 2004                          Revised Corrected Target Date: 2nd Qtr, FY 2006
19. Inadequate controls have caused              - Set record keeping standards.                                                 Completed       Completed
instances of inaccurate accountability for
                                                 - Developed checklists for validation.                                          Completed       Completed
equipment sold to foreign countries.
(Defense Security Cooperation Agency)            - Deployed automated application and conducted assessment visits.               4th QTR 05      Completed
                                                 - Conduct final assessment visits and validate that the weakness is             4th QTR 06      4th QTR 06
                                                 corrected.

First Reported: FY 2004                          Correction Target Date: 4th Qtr, FY 2006

20. Lack of policy and clear delineation         - Reviewed and coordinated changes to regulations.                              3rd QTR 05      Completed
of organizations and responsibilities
puts the organization at risk for security       - Publish handbook.                                                             2nd QTR 06      2nd QTR 06
violations, duplication of efforts, delays
                                                 - Validate that the weakness is corrected.                                      2nd QTR 06      2nd QTR 06
in program activities, and confusion over
requirements.
(Defense Security Cooperation Agency)


First Reported: FY 2004                          Correction Target Date: 2nd Qtr, FY 2006

21. Controls were not always adequate            - Actively participated with interagency working groups.                        Completed       Completed
over exported Defense articles from
initial shipment point to receipt by             - Issue detailed documentation requirements and policy.                         4th QTR 05      2nd QTR 06
foreign customers.
                                                 - Confirmation that the Bureau of Customs and Border Protection receives        1st QTR 05      3rd QTR 06
(Defense Security Cooperation Agency)
                                                 adequate information on shipments.

                                                 - Issue policy decision on freight tracking system.                             4th QTR 05      4th QTR 06

                                                 - Validate that the weakness is corrected.                                      4th QTR 06      4th QTR 06

First Reported: FY 2004                          Correction Target Date: 4th Qtr, FY 2006

22. Adequate policies to mandate                 - Obtained approval of a transformation roadmap.                                1st QTR 05      Completed
the appropriate proficiency in foreign
languages are necessary to more                  - Publish revised DoD Directive.                                                2nd QTR 05      Completed
adequately support the global war on
                                                 - Publish DoD Instruction.                                                      3rd QTR 06      3rd QTR 06
terror.
(Office of the Under Secretary of                - Validate that the weakness is corrected.                                      4th QTR 06      4th QTR 06
Defense (Personnel and Readiness)
First Reported: FY 2004                          Corrected Target Date: 4th Qtr, FY 2006


                                             Table V. Section 4 System Nonconformance Weaknesses - Ongoing
Description of Issue        The Department of Defense financial and business management systems and processes are costly to maintain and operate, not fully
                              integrated, and do not provide information that is reliable, timely, and accurate.
Progress to Date            See Table III, number 1 above, for progress explanation.

                                                                                     53
                                                                                                           DoD Performance & Accountability Report FY2005
                 ............................................................................Part 1: Management’s Discussion and Analysis


                                                             Table VI. Scorecard Results for FY 2005

                                                                            Rating Categories                                            Scoring
                                                                                                                                                    Change
                     Agency                                                                                                               FY05       from
                                                                                                                 Material      FY05       Over-      FY04
                                                                               Program                          Weakness       Color       all      Overall
                                                  Timely         Format       Execution     Training            Reporting      Score      Score      Score
Defense Logistics Agency                          Green           Blue           Blue            Blue              White        Blue       3.2         1.6

Department of Air Force                           Green           Blue           Blue            Blue              White        Blue       3.2         0.4

Department of Navy                                Green           Blue           Blue            Blue              White        Blue       3.2         1.4

Defense Finance and Accounting Service            Green           Blue           Blue           Green              White        Blue       3.0         1.6

Defense Commissary Agency                          Blue           Blue           Blue            Blue             Green        Green       2.8         0.2

Defense Intelligence Agency                        Blue           Blue           Blue            Blue             Green        Green       2.8         0.4

Pentagon Force Protection Agency                   Blue           Blue           Blue            Blue             Green        Green       2.8         0.4

United States Special Operations Command           Blue           Blue           Blue            Blue             Green        Green       2.8         0.2

National Defense University                        Blue          Green           Blue            Blue             Green        Green       2.6         0.8

National Security Agency                          Green           Blue           Blue            Blue             Green        Green       2.6         0.0

Office of Secretary of Defense
                                                  Green           Blue           Blue            Blue             Green        Green       2.6        -0.2
(OSD Principal Staff and DoD Field Activities)

United States Pacific Command                      Blue          Green          Green           Green             Purple       Green       2.6         1.6

United States Strategic Command                    Blue          Green           Blue            Blue             Green        Green       2.6         0.4

Defense Information Systems Agency                Green          Green           Blue            Blue             Green        Green       2.4         0.6

Defense Security Cooperation Agency                Blue          Amber          Green           Green             Purple       Green       2.4         1.0

Joint Staff                                       Green           Blue          Green            Blue             Green        Green       2.4         0.0

Missile Defense Agency                            Green          Green           Blue            Blue             Green        Green       2.4         0.0

National Geo-Spatial Intelligence Agency           Blue          Green           Blue           Green             Green        Green       2.4         0.4

Office of the Secretary of Defense,
                                                   Blue          Green           Blue           Green             Green        Green       2.4         1.0
Inspector General

United States Southern Command                     Blue          Green          Green            Blue             Green        Green       2.4         0.2

United States Transportation Command              Green          Green           Blue            Blue             Green        Green       2.4         0.6

Defense Advanced Research Projects Agency          Blue           Blue          Green           Green             Amber        Green       2.2         0.0

Defense Contract Audit Agency                      Blue          Green          Green           Green             Green        Green       2.2         0.4

Uniformed Service University of the Health Sci-
                                                   Blue          Green          Green           Green             Green        Green       2.2         0.4
ences

Defense Contract Management Agency                 Blue          Green          Green           Green             Amber        Green       2.0         0.8

Defense Threat Reduction Agency                   Green          Green          Green           Green             Green        Green       2.0         0.6

United States Central Command                     Green          Green          Green           Green             Green        Green       2.0         1.6

United States Joint Forces Command                 Blue          Green          Green           Green             Amber        Green       2.0         1.0

United States Northern Command                    Green          Green          Green           Green             Green        Green       2.0         0.6

Defense Security Service                          Green          Amber          Green            Red               White       Amber       1.8         1.0

United States European Command                    Green          Green          Green           Amber             Green        Amber       1.8         1.6

Department of Army                                 Red           Green          Amber            Blue              Red          Red        0.8        -0.4

Maximum Possible Scores                           3 (Blue)       3 (Blue)       3 (Blue)        3 (Blue)         5 (White)      Blue       3.4

Possible Scores per Category: White = 5, Purple = 4, Blue = 3, Green = 2, Amber = 1, and Red = -1



                                                                                 54
                                                                                  DoD Performance & Accountability Report FY2005
           ...........................................................................Part 1: Management’s Discussion and Analysis

 U.S. Government Accountability Office                                  Homeland Security (2005).
           High-Risk Areas                                           •	 Management of Interagency Contracting (2005).

Since 1990, the U.S. Government Accountability                       (*) GAO noted that legislation is likely to be necessary, as a
Office (GAO) has periodically reported on                            supplement to actions by the executive branch, to effectively
government operations that it has designated as high                 address this high-risk area.
risk. GAO’s high-risk status reports are provided
at the start of each new Congress. GAO’s audits
and evaluations identify federal programs and                        Emerging Areas
operations that, in some cases, are high risk due to
their greater vulnerabilities to fraud, waste, abuse,                In addition to specific areas designated as high
and mismanagement. Increasingly, GAO also is                         risk, GAO identified other important broad-
identifying high-risk areas to focus on the need                     based challenges facing the government that are
for broad-based transformations to address major                     serious and merit continuing close attention. GAO
economy, efficiency, or effectiveness challenges.                    noted specifically that the DoD is in the process
                                                                     of transforming its force capabilities and business
In its latest report, GAO designated 26 high-risk                    processes and commented that it had reported on
areas. Eight cited DoD programs and operations                       limitations in the DoD’s strategic planning and
specifically; five involved the DoD as well as other                 budgeting, including the use of overly optimistic
federal agencies. The DoD-related high-risk areas                    assumptions in estimating funding needs, often
are listed below; the year that the area was first added             resulting in a mismatch between programs and
to the list is noted in parentheses.                                 budgets.

DoD-Specific:
•	 DoD Approach to Business Transformation                           The DoD’s Efforts to Resolve GAO
   (2005).*                                                          High-Risk Areas
•	 DoD Business Systems Modernization (1995).
•	 DoD Personnel Security Clearance Program                          In general, the DoD agrees with GAO’s assessment
   (2005).                                                           of the high-risk areas facing the Department. These
•	 DoD Support Infrastructure Management (1997).                     challenges are long-standing problems that defy
•	 DoD Financial Management (1995).                                  quick fixes. The DoD has plans in place to resolve
•	 DoD Supply Chain Management (formerly                             these problems areas, but recognizes that it will take
   Inventory Management) (1990).                                     time and resources to address the problems inherent
•	 DoD Weapon Systems Acquisition (1990).                            in the Department. The DoD is pleased to note that
•	 DoD Contract Management (1992).                                   GAO has acknowledged the Department’s progress.
                                                                     The DoD Inspector General’s list of management
DoD Involved:                                                        challenges, presented in Part 4 of this report, echoes
•	 Strategic Human Capital Management (2001).*                       most of the GAO high-risk designations. The
•	 Managing Federal Real Property (2003).*                           President’s Management Agenda also addresses many
•	 Protecting the Federal Government’s Information                   of the areas identified by
   Systems and the Nation’s Critical Infrastructures
   (1997).                                                           GAO and the Inspector General as opportunities for
•	 Establishing Appropriate and Effective                            improvement. The DoD’s response to the challenges
   Information-Sharing Mechanisms to Improve                         it faces are presented throughout this report.
                                                                55
                                                                                   DoD Performance & Accountability Report FY2005
           ............................................................................Part 1: Management’s Discussion and Analysis

 Looking Forward: Challenges for 2006                                 The 2005 Quadrennial Defense Review process
             and Beyond                                               is also looking at all aspects of the DoD, not
                                                                      just programs and force size: the right mix of
The “Defense Strategy and Strategic Planning”                         capabilities; enablers like logistics, space, and ISR
section mentioned the 2005 Quadrennial Defense                        (intelligence, surveillance, and reconnaissance); roles,
Review process, which is now underway, and will                       missions, and organizations; manning and balancing
incorporate the National Defense, National Military,                  the force; business practices and processes; and DoD
and National Security Strategies. Past Quadrennial                    authorities.
Defense Reviews focused on the proper “size” of the
force; for 2005, the Department is first determining                  The 2005 Quadrennial Defense Review recognizes
the right mix of capabilities for the 21st century                    that the United States is a Nation at war and is
and then considering the capabilities the Nation                      building upon lessons learned from recent and
needs without prejudging to how these capabilities                    ongoing operations in Iraq and Afghanistan. Senior
should be resourced, or even whether they belong                      DoD leaders are guiding and participating in all
in the DoD. The 2005 Quadrennial Defense                              aspects of the review to avoid “stovepiping” of issues
Review will operationalize the new National Defense                   and resource priorities. This Quadrennial Defense
Strategy and shape the future force with a 20-year                    Review includes ideas from other government
outlook by linking strategy to defense resources                      agencies, industry, allies, and partners. The DoD
and encompassing four areas that drive capabilities                   is consulting closely with Congress throughout the
development and force planning:                                       process. A theme crosscutting Quadrennial Defense
                                                                      Review issues is how America might help allies
•	 Building partnerships to defeat terrorist extremist                and partners develop their capacities to confront
   networks,                                                          common security challenges. Experience in the
•	 Defending the homeland in depth,                                   war on terrorism has underscored the need for a
•	 Shaping the choices of countries at strategic                      changed defense establishment—one postured both
   crossroads, and                                                    for extended conflict and continuous transformation.
•	 Preventing the acquisition or use of weapons of                    This demands an adaptive strategy, predicated on
   mass destruction by hostile state or non-state                     creating and seizing opportunities and contending
   actors.                                                            with challenges through an active, layered defense of
                                                                      the Nation and its interests.




                                                                 56
Part 2: Performance
Information
                                                                                         DoD Performance & Accountability Report FY2005
              ..............................................................................................Part 2: Performance Information

             Performance Information                                        Data Quality, Accuracy, and Reliability

This part of the report contains the annual program                       The DoD is committed to providing clear and reliable
performance information required by the Government                        data to those who use it for managing, decision
Performance and Results Act of 1993.                                      making, and for oversight of the DoD programs.
                                                                          The Department also ensures, to the greatest extent
                                                                          possible, that the data are quantifiable and verifiable
                         Overview                                         by putting in place internal management controls
                                                                          and by being responsive to the insights provided by
Part 1 of this report, Management’s Discussion                            the Department’s Office of Inspector General, the
and Analysis, describes in detail the Department’s                        U.S. Government Accountability Office, and others.
strategic planning process and its methods for                            Performance data for most quantifiable measures
measuring performance. This part of the report                            are generated as a by-product of the DoD’s routine
explains each of the DoD’s 71 metrics, summarizes                         operations. Survey satisfaction data is produced from
the results for FY 2005, and presents for comparison                      statistically valid surveys. Accuracy measures come
prior year data in charts and tables as appropriate.                      from validated automated systems and are periodically
In a few cases, FY 2004 results are presented because                     reviewed and analyzed for accuracy. New metrics
they are the latest available. Due to the volume                          or metrics under development will be subject to the
of information, a full discussion of each metric,                         same data quality requirements once the metric is
including the validation and verification procedures,                     established.
can be found   at http://www.dod.mil/comptroller/par.
            MANAGEMENT              MODEL                                 In many cases, the data for FY 2005 are as of third
                                                                          quarter or incomplete due to lengthy reporting cycles.
                                                                          As a result, results are projected using partial year data.
                  T




                               Mission
                                                ST
                 EN




                                                                          Incomplete data and projected results are noted for
                                                RA




                               Strategic
              SM




                                                  TE




                              Objectives                                  each metric as applicable. The FY 2006 Performance
             ES




                                                     GIC




                                                                          and Accountability Report will note any significant
            SS




                                                       PL




                            Strategic Goals
        EA




                                                                          deviations from projected and actual results.
                                                        AN
        NC




                                                           NIN
        A




                          Performance Goals
     RM




                                                            G
    O
 RF




                         Performance Measures                                     Performance Goals and Results
PE




                          Performance Targets                             This section is organized by the four strategic goals
                                                                          as identified by risk area. Under each strategic goal
                                                                          are four performance goals, which are supported
                                                                          by one or more performance measures with targets.
                                                                          Each performance goal is explained and followed by
                                                                          a discussion of the performance measures and targets
                                                                          used to assess results.




                                                                     59
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

       Strategic Goal 1: Balancing Force Management Risk - recruit, retain, train, and
                          equip a ready force and sustain readiness.


Performance Goal 1.1 - Ensure Sustainable Military Tempo and
Maintain Workforce Satisfaction

                                               Metric 1.1.1: PERSTEMPO Across Occupational Groups

      End-state Metric          FY 2001              FY 2002              FY 2003                   FY 2004                    FY 2005A
  The percentage of          Services            Published          •	 Validated and          •	 Began tracking         •	 Metrics developed
  an occupational            began tracking      Interim               verified Service          frequency and          •	 Initial performance
  group that                 PERSTEMPO           Personnel             data                      duration of               results to be posted
  surpasses the              as directed by      Tempo Policy       •	 Considered global         PERSTEMPO                 to Departmental
  PERSTEMPO day              Congress            Guidance              joint rotational          trends                    website during the
  constraints                                                          policy                 •	 Work continued            first quarter FY 2006
                                                                                                 on metric
                                                                                                 development
  A
      FY 2005 data are estimated as of the fourth quarter.


Metric Description

As directed by Congress, the Services started tracking and reporting individual time away from home (expressed
in days), commonly referred to as personnel tempo (PERSTEMPO), on October 1, 2000. Each of the Services
has developed or enhanced existing data collection systems to support the legislative requirements. They will
report the number of days each member is deployed; particular emphasis and scrutiny will be placed on those
10 major occupational groups that have deployed 400 or more days out of the preceding 2 years. On October
8, 2001, the Department suspended certain PERSTEMPO management processes in accordance with the
provisions of the national security waiver set forth in section 991(d) of Title 10, U.S. Code.

The metric being developed will incorporate a frequency and duration dimension to PERSTEMPO based on
changes to the PERSTEMPO legislation in the FY 2004 National Defense Authorization Act. The metric
will capture the percentage of an occupational group, as defined by the Defense Manpower Data Center
occupational codes, that have exceeded the 400-day PERSTEMPO constraint within the last 730 days and/or
the 191consecutive-day PERSTEMPO constraint, by Service and across the Department. This metric will
provide valuable insight into the “high-deploying” skills and relate them to the high-deploying/low-density
units, as appropriate

Performance Results for FY 2005

A contractor helped define and refine key performance indicators. Evaluation of the metrics using “live” data
will be conducted into FY 2006. The Department completed development of the metric during second quarter
FY 2005. Work continued throughout the remainder of the fiscal year to determine the best way to accumulate



                                                                        60
                                                                                             DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

the data from the PERSTEMPO database and how best to display the information on the information delivery
system website. DoD expects the data displays to be posted to the website during the first quarter FY 2006 for
Departmental approval.

                                                      Metric 1.1.2: PERSTEMPO Standards Met

       End-state Metric                FY 2001               FY 2002          FY 2003                 FY 2004                   FY 2005A
  The percentage of                Congressionally-      Published        •	 Validated and      •	 Began tracking        •	 Developed metrics
  Active and Reserve               directed              Interim             verified data         frequency and         •	 Initial performance
  components (by                   PERSTEMPO             Personnel        •	 Considered            duration of              results to be posted
  Service) that has                reporting began       Tempo Policy        global joint          PERSTEMPO                to Departmental
  exceeded PERSTEMPO                                     Guidance            rotational            trends                   website during the
  constraints.                                                               policy             •	 Work continued           first quarter FY
                                                                                                   on metric                2006
                                                                                                   development
  A
      FY 2005 data are estimated as of the fourth quarter.


Metric Description

On October 8, 2001, the Department suspended certain PERSTEMPO management processes in accordance
with the provisions of the national security waiver set forth in section 991(d) of Title 10, U.S. Code. These
included general/flag officer monitoring, approval of Service member PERSTEMPO days that may exceed
certain thresholds, and payment of the high deployment per diem. However, Services were still required to
report individual days away.

The metric being developed will incorporate a frequency and duration dimension to PERSTEMPO based on
changes to the PERSTEMPO legislation in the FY 2004 National Defense Authorization Act. The metric will
portray the percentage of the Service Active and Reserve components that exceed the 400-day PERSTEMPO
constraint within the last 730 days and/or the 191-consecutive day PERSTEMPO constraint. This metric will
provide valuable insight into the “high deploying” tendencies of various Service components. The “drill down”
metric, PERSTEMPO Across Occupational Groups, (Metric 1.1.1) will measure those occupational groups
that exceed the 400-day and/or the 191 consecutive-day constraint, and will provide further information on a
Service’s use of the distinctive skills of their personnel.

Performance Results for FY 2005

The DoD used a contractor to help define and refine key performance indicators. Evaluation of the
metrics using “live” data will be conducted in FY 2006. The contractor completed its work in FY 2005.
The Department completed development of the metric during second quarter FY 2005. Work continued
throughout the remainder of the fiscal year to determine the best way to accumulate the data from the
PERSTEMPO database and how best to display the information on the information delivery system
website. The DoD expects the data displays to be posted to the website during the first quarter FY 2006 for
Departmental approval.




                                                                        61
                                                                                                 DoD Performance & Accountability Report FY2005
               ..............................................................................................Part 2: Performance Information


                                          Metric 1.1.3: Quality of Life Social Compact Improvement Index

                             FY 2001           FY 2002               FY 2003                         FY 2004                             FY 2005
        Metric                Actual            Actual                Actual                       Target/Actual                      Target/ActualA
  Trend data                No historical data; new            Developed                 Meet or exceed standard for              Meet or exceed
  to monitor                metric                             framework for QoL         eight functional areas/Four met          standard for eight
  improvements in                                              index                     or exceeded standards, two met           functional areasC /
  leading Quality                                                                        or exceeded standards for some           Data not yet available
  of Life (QoL)                                                                          DoD components, one did not
  indicators                                                                             meet standards, and one metric
                                                                                         is still under development B
  A
    FY 2005 data are not available until end of FY 2005. This is a new metric and it is a lagging indicator - 2005 actual data will not be available until
  the end of the fiscal year.
  B
    Detailed FY 2004 actual and target data for each of the 21 programs that comprise the eight functional areas are provided at (website address).
  C
    Detailed FY 2005 target data for each of the 21 programs that comprise the eight functional areas are provided at (website address).


Metric Description

The Quality of Life (QoL) Social Compact Improvement Index is one indicator in a three-pronged approach
that combines a Community QoL Per Capita Cost (Metric 1.3.2) and Commitment to Military Life Index
(Metric 1.1.4) to measure the health of QoL programs and services supporting military members and families.
The Social Compact, a living document that outlines a 20-year strategy, requires continual review and revision
to keep pace with the changing needs of the transforming military. While the Social Compact includes long-
term, mid-term and short-term strategies, the index will focus on the short term. Current deployment and
high operation tempo necessitate robust QoL support for troops and families. In an effort to mitigate force
management risk in attracting and maintaining a quality workforce, the Department must transform QoL to
keep pace with the American standard of living, changing demographics (two-thirds of military families live off
the installation), and expectations of military members and their families.

The index links to the QoL programs and services included in the modernized Social Compact that recognize
the reciprocal partnership that exists between DoD, the Service member, and his or her family. The index
tracks improvement in QoL to ensure the Department underwrites support to families. The current index
is comprised of eight major program areas, e.g., housing assignments, educational assistance, child care, etc.
Functional areas and metrics will be added or eliminated as data mature and priorities change. Data will be
cross-referenced with the Community QoL Per Capita Cost Metric and Commitment to Military Life Index to
ensure QoL programs are provided to meet the unique needs of military members and their families.

Performance Results for FY 2005

This is the first full cycle of performance reporting for this metric since conversion from an activity to a metric.
The data for the Social Compact index will not be available until the end of the fiscal year.




                                                                            62
                                                                                             DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information


                                                    Metric 1.1.4: Commitment to Military Life Index

      End-state Metric       FY 2001        FY 2002             FY 2003                       FY 2004                        FY 2005A
  Trend data to              No historical data; new     •	 Reviewed corporate      •	 Fielded survey               •	 Analyzed data from May
  monitor results in         metric                         commitment              •	 Developed final                 2004 survey of Guard
  key commitment                                            literature                 commitment index for            and Reserve members
  areas that are                                         •	 Developed                  military service             •	 Analyzed data from
  predictors of                                             commitment factors      •	 Fielded commitment              August 2004 Active duty
  retention and                                             reflecting military        index in May 2004 survey        survey
  satisfaction                                              environment and            of Guard and Reserve         •	 Established baseline
                                                            culture                    members                         commitment data and
                                                         •	 Conducted focus         •	 Commitment index                correlations
                                                            groups to validate         included in the August       •	 Ongoing development of
                                                            and expand                 2004 Active duty survey         research methodology
                                                            commitment factors                                         to link commitment and
                                                                                                                       re-enlistment decisions
  A
      The FY 2005 data are final as of fourth quarter.


Metric Description

The Commitment to Military Life Index is one indicator in a three-pronged approach that combines a
Community QoL Per Capita Cost Metric and QoL Social Compact Improvement Index to measure the
health of QoL programs and services supporting military members and families. It is a new indicator that will
track the factors that influence and predict commitment to military service for both Active duty members
and spouses. This index is modeled after an approach used in corporate America to measure employee
commitment. This performance measure responds to the National Security Presidential Directive–2 (February
2001), “Improving Quality of Life,” and guidance from the Secretary of Defense to track QoL improvements
and give priority to the implementation of QoL initiatives. Current deployment and high personnel tempo
necessitate robust QoL support for troops and families. In an effort to mitigate force management risk and
enhance workforce satisfaction, the Department must transform QoL to meet the needs of the changing
demographics and expectations of military members and their families.

Retention is a critical problem in the military and commitment has been shown to be a primary predictor of
retention decisions. Thus, this effort is directed at tracking a brief index of service member commitment to
military service. A complementary index of spousal commitment to the military has been developed, thereby
acknowledging the importance of both military and family factors in predicting commitment to the military.

The value of the index is to demonstrate the different fluctuations and factors of commitment over time.
The commitment indexes contained in the Defense Manpower Data Center’s Reserve Component Survey
(May 2004) and Active Duty Survey (August 2004) provided initial baseline data for the commitment index.
Frequent short surveys to a statistically valid DoD military population will be used to pulse the commitment of
military members and spouses. The index will gain meaning as the factors influencing commitment are tracked
at different points in time. The survey instrument will be reviewed and updated as needed and data will be
cross-referenced with the QoL Social Compact Improvement Index and Community QoL Per Capita Cost
Metric.



                                                                          63
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Ongoing Research

The DoD developed and validated metrics for tracking member commitment, and is in the process of doing
the same for spousal commitment. Tracking commitment as a component of retention is important, but not
sufficient to create informed interventions; the DoD needs to understand the underlying causes of commitment
for members and spouses. This includes understanding the disruptions, policies, and practices which buffer
negative events or foster positive ones, and determining how they affect the retention decision processes for
Service members and their families. The DoD needs to validate the impact of commitment on decisions
to re-enlist. Ongoing research must track, over time, how commitment develops and changes. It also must
be connected to actual decisions to stay or leave the Service to verify the predictive validity of commitment.
Ongoing research must also focus on the family so that DoD can learn how different events affect levels of
commitment, and how re-enlistment decisions are negotiated. For example, baseline data collected from the
May 2004 Reserve Status of Forces survey and the August 2004 Active duty survey showed that Active duty
members who were married with children had the highest levels of commitment.

Performance Results for FY 2005

The DoD established preliminary baseline commitment data for Active duty, National Guard, and Reserve
members and developed the spousal commitment index, which will be fielded during Fall 2005 in the Defense
Manpower Data Center Survey of Military Spouses.


                                                        Metric 1.1.5: Saitsfaction with Access

                                                FY 2001             FY 2002              FY 2003             FY 2004               FY 2005
                 Metric                          Actual              Actual               Actual           Target/Actual        Target/ActualA
  Satisfaction with access                            81.8%               80.8%                  83.0%        >84%/81.8%           >84%/81.2%
  A
      The FY 2005 data are estimated as of the third quarter.


Metric Description

Access always has been a significant factor in the overall satisfaction with medical care, and an area for focused
improvement. The intent of this metric is to improve satisfaction with access to appointments for those
individuals who have chosen to enroll in TRICARE Prime (similar to a health maintenance organization)
within the Military Health System. This metric is based on a monthly customer satisfaction survey for those
individuals who had an outpatient medical visit at a Military Treatment Facility (MTF) hospital or clinic
during the previous month. Although there are a number of measures related to access, ease of making an
appointment by phone is considered a key measure that has been tracked over the past few years. The metric
is based on Question 10a of the customer satisfaction survey, which asks: How would you rate the (Clinic
Name) on Ease of Making this Appointment by Phone?

The percentage of respondents (weighted by appropriate sampling weights) that answer “Good,” “Very Good,”
or “Excellent” on a scale from “Poor” to “Excellent” is computed. The survey is fielded monthly. Reports are
produced quarterly. Although information is available by Military Service branch, only an aggregate Military
Health System score is shown above.
                                                                          64
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

Each of the three Services experienced a decline in satisfaction with telephone access through the first three
quarters of FY 2005. While two of the Services are down slightly, the third is down significantly. One reason
for the decline is related to the survey population. For example, the survey shows that some of this decline is
attributable to age differences, as older individuals tend to be more satisfied than younger individuals, and a
larger percentage of the individuals being treated in the MTFs are now younger, Active duty personnel.

The greatest decline in performance has been experienced in Army MTFs with large troop populations.
Because Active duty personnel generally score lower than other beneficiaries, and a larger percentage of the
appointments are for Active duty personnel, there is a significant decrease in satisfaction with access. Not only
is the system experiencing a shift in workload from retirees to Active duty, but the Active duty scores are also
slightly lower this year than last. In fact, at some major troop locations, satisfaction scores are down as much as
10 percent.

For those locations where there have been problems with access, the DoD is using additional contract
physicians to make more appointments available to returning Reservists. Based on the increased capacity at
these MTFs, satisfaction with access should improve.


                                                 Metric 1.1.6: Overall Satisfaction With Appointment

                                                FY 2001             FY 2002              FY 2003             FY 2004               FY 2005
                 Metric                          Actual              Actual               Actual           Target/Actual        Target/ActualA
  Satisfaction with appointment                       88.5%               87.1%               88.4%          ≥ 90%/87.6%          ≥ 89%/87.8%
  A
      The FY 2005 data are estimated as of the third quarter.


Metric Description

This metric looks at beneficiaries’ overall satisfaction with their outpatient medical appointments at a MTF
hospital or clinic during the month. Overall satisfaction with the appointment is affected by numerous factors
during the visit, including the experience in getting an appointment, the wait time at the appointment, the
interaction with the provider, and interactions with the pharmacy or ancillary services. This metric is based on
a monthly customer satisfaction survey for those individuals who had an outpatient medical visit at an MTF
during the previous month. The metric is based on Question 12 of the customer satisfaction survey, which
asks: All things considered, how satisfied were you with the (name of clinic) during this visit?

The percentage of respondents (weighted by appropriate sampling weights) who answer “Good,” “Very Good,”
or “Excellent,” on a scale from “Poor” to “Excellent,” is computed. The survey is fielded monthly. There is a
55-day lag between the appointment date and the posting of data on the web-based reporting site due to the
time required for fielding, collecting, and analyzing the data. Results are based on the summation of results
for all surveys completed by patients during the year. Although information is available by Military Service
branch, only an aggregate Military Health System score is shown above.



                                                                         65
                                                                                              DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

FY 2005 performance results were mixed across the Services. Two of the Services are just slightly below the
goal for the year, and the other Service struggled during the first two quarters of FY 2005. During the third
quarter, all three Services are at or above the goal of 89 percent satisfaction. This trend is expected to continue
and the performance target should be achieved.


                                                 Metric 1.1.7: Satisfaction with Military Health Plan

                                               FY 2001               FY 2002               FY 2003              FY 2004               FY 2005
                 Metric                        ActualA               ActualB                Actual           TargetC/ActualD       TargetE/ActualF
  Percentage satisfied with military                 44.6%                 46.5%                 51.2%           ≥ 56%/ 53%            ≥ 57%/53%
  health plan
  A
      Surveys fielded in January, April, and July 2001.
  B
      Surveys fielded in October 2001 and January, April, and July 2002.
  C
      The FY 2004 initial goal was the same as the FY 2003 goal; however, after progress tracking during FY 2003, it was determined that the FY
      2004 goal needed to be reset to a yearly goal that will match the Defense Health Program Performance plan for FY 2004. Accordingly, the goal
      changed from = civilian average to =56%, which represents closing the gap between the military health plan and civilian plans in 3 years. All
      future goals will be updated on an annual basis.
  D
      FY 2004 is now complete and the actual performance represents a weighted average for the entire year, not the highest score during the year.
  E
      The FY 2005 target has been adjusted to reflect the Defense Health Program Annual Performance plan goal (58% to 57%) and a change in the
      civilian benchmark (59% to 58%).
  F
      The FY 2005 data are estimated as of second quarter.


Metric Description

A person’s satisfaction with his or her health plan is a key indicator of the performance of the Military Health
System in meeting its mission to provide health care to over eight million eligible beneficiaries. For this metric,
the following survey item is used: We want to know your rating of all your experience with your health plan.
Use any number from 0 to 10 where 0 is the worst health plan possible, and 10 is the best health plan possible.
How would you rate your health plan now?

Satisfaction is measured as the percentage of respondents (weighted by appropriate sampling weights) who
answer 8, 9, or 10. The survey, fielded quarterly, asks respondents questions about the plan during the prior
year. Currently, the results for the year are based on the surveys fielded during the fiscal year, which means the
results are actually based on the respondent’s interactions with the health system during the prior fiscal year.

Performance Results for FY 2005

FY 2005 began with the initial rollout of the new Health Support Services Contracts and associated changes in
claims processing and network development. Some problems occurred during this transition and beneficiaries
voiced their displeasure when completing the survey. For example, claims processing dropped from
approximately 99.9 percent of claims properly processed within 30 days, to a low of 80 percent (during a single
month) for one of the claims processors. Additionally, a number of providers decided to leave the network



                                                                          66
                                                                                                     DoD Performance & Accountability Report FY2005
                  ..............................................................................................Part 2: Performance Information

when the rollout of new contracts occurred. With claims processing improving, and provider networks
expanded to previous levels, satisfaction with plan results should improve for the rest of the year. For the first 2
months of this fiscal year, the metric is one percent above last year’s performance at the same time.


Performance Goal 1.2 - Maintain a Quality Workforce

                                                 Metric 1.2.1: Active Component Enlisted Retention Goal
                                    FY 2001                    FY 2002                    FY 2003                   FY 2004                   FY 2005
          Service                    Actual                     Actual                    ActualA                Target/ActualA            Target/ActualA,B
  Army
   Initial                                  20,000                     19,433                     21,838            23,000/24,465              21,080/20,721
   Mid-career                               23,727                     23,074                     19,509            20,292/20,407              18,433/18,669
   Career                                   21,255                     15,700                     12,804            12,808/13,574              10,436/13,730
  Navy
   Initial                                   56.9%                     58.7%                      61.8%                56%/54.1%                  53%/57.1%
   Mid-career                                68.2%                     74.5%                      76.7%                70%/70.2%                  69%/66.2%
   Career                                    85.0%                     87.4%                      87.9%                85%/86.9%                  85%/85.6%
  Marine Corps
   First term                                 6,144                     6,050                       6,001              5,990/6,011               4,462/5,888
   Subsequent                                 5,900                     7,258                       5,815              5,628/7,729               3,809/5,520
  Air Force
   First Term                                56.1%                     72.1%                      60.5%                  55%/63%                    55%/47%
   Mid-career                                68.9%                     78.3%                      72.9%                  75%/70%                    75%/52%
   Career                                    90.2%                     94.6%                      95.2%                  95%/97%                    95%/95%
  A
      The Services are allowed (due to the National Emergency) to operate with the strength required to prosecute the global war on terror.  Because
      of Operation Iraqi Freedom and Operation Enduring Freedom, the Services decided to operate at a higher level than they had planned at the
      beginning of the year. To get to this higher strength, they increased the retention goals. The Services use retention and recruiting as two levers
      they can adjust to hit the desired end strength.  So, if recruiting is falling short, they increase retention goals.  Similarly, if retention is falling
      short, they may choose to increase recruiting goals. In this case, they chose to adjust retention goals to operate at desired operational strength.
  B
      FY 2005 data are final as of third quarter.

  Definitions by years of service:
  	           Army: Mid-career: 7 to 10; career: 10 to 20
  	           Navy: Mid-career: 6 to 10; career 10 to 14
  	           Air Force: Mid-career: 6 to 10; career 10 to 14


Metric Description

The Services determine their annual retention goals with latitude in how they establish their categories, goals
within each category, and methods for tracking attainment of those goals. For that reason, three metrics are
used: (1) number of people retained (used by the Army and Marine Corps), (2) percentage of eligible people
retained (used by the Navy), and (3) average career length (used by the Air Force). The annual goals for these
metric are dynamic and can change during the year of execution.




                                                                                67
                                                                                               DoD Performance & Accountability Report FY2005
                  ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

The Services are on course for a strong finish in FY 2005. Army reenlisted 63,507 soldiers toward a year-to-
date target of 59,087 (107 percent). Army is on track to meet its annual goal. Air Force retention is sound,
albeit below historical achievement as it seeks to reduce strength through voluntary separations in surplus
skills. Like Army, Air Force is reducing stress by realigning military positions to war on terrorism needs (e.g.,
one in eight Air Force recruits this year will be trained as security forces). Navy has had strong reenlistment
performance, and its attrition rates are at or near 15-year lows. Marine Corps continues to surpass its retention
goals.


       Metric 1.2.2: Active Component End Strength Meets or Exceeds the Fiscal Year Authorization But No More Than 2% Over the Fiscal
                                               Year Authorization (At the End of Each Quarter)
                                    FY 2001              FY 2002               FY 2003                 FY 2004                  FY 2005
          Service                    Actual               Actual                Actual             Authorized/Actual       Authorized/ActualA
  Army                                    480,801            486,542                 499,301          482,400/499,543           502,400/489,971
                                          (+0.2%)            (+1.4%)                 (+4.0%)                  (+3.6%)                    (-2.5%)
  Navy                                    377,810            383,108                 382,235          373,800/373,197           365,900/363,858
                                          (+1.4%)            (+1.9%)                 (+1.7%)                   (-0.2%)                   (-0.6%)
  Marine Corps                            172,934            173,733                 177,779          175,000/177,480           178,000/178,231
                                          (+0.2%)            (+0.7%)                 (+1.6%)                  (+1.4%)                   (+0.1%)
  Air Force                               353,571            368,251                 375,062          359,300/376,616           359,700/358,705
                                           (-1.0%)           (+2.6%)                 (+4.4%)                  (+4.8%)                    (-0.3%)
  A
      FY 2005 data are final as of the third quarter.


Metric Description

Service end strength authorizations are set forth in the National Defense Authorization Act for the fiscal year.
Services are required to budget and execute to that end strength. The Services’ actual end strength for each
quarter will be evaluated against the authorized strength for that fiscal year. By law (Section 115 of Title 10),
the Service Secretaries may authorize operating up to two percent above the authorized end strength, and the
Secretary of Defense may authorize the Services to operate up to three percent above their authorized end
strength for that fiscal year, if determined to be in the national interest. Due of the ongoing global war on
terror, the Secretary waived the Title 10 strength constraints. A recent change in law added a quarterly measure
and requires that the Secretary, within the DoD’s budgetary documentation for the fiscal year, report the
strength levels of each DoD component for each of the first three quarters of the fiscal year, and the maximum
allowable variance from those prescribed strengths.

Performance Results for FY 2005

The Nation continued to operate in a state of National Emergency by Reason of Certain Terrorist Threats in
FY 2005. Consequently, the end strength requirements were waived. In addition, the Army and Marine Corps
were granted authorized end strength increases during FY 2005. The Army’s authorization was increased by
20,000; while the Marine Corps was increased by 3,000. The Marine Corps reached its new authorization by

                                                                         68
                                                                                                  DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

the end of the third quarter; while the Army struggled and lost ground as the year progressed. While Army
had a successful retention program, it had a challenging recruiting year and probably will miss its authorized
strength for the fiscal year. Air Force ended FY 2004 almost five percent above its fiscal year authorization and
set about reducing strength levels and shaping the force in FY 2005. Air Force is a little below its authorized
strength in the third quarter but will have no trouble meeting the FY 2005 year-end requirement. Navy had
a 7,900 reduction in authorized strength from FY 2004 to FY 2005; its force-shaping plans enabled Navy to
reduce strength gradually. Although the Navy ended the third quarter slightly below its authorized strength, it
will meet its authorization at the end of the fiscal year.


                  Metric 1.2.3: Reserve Component Selected Reserve End Strength Within 2% of the Fiscal Year Authorization
                                                       (at the End of Each Quarter)
        Reserve                   FY 2001                FY 2002                 FY 2003                   FY 2004                 FY 2005
       Component                   Actual                 Actual                  Actual               Authorized/Actual      Authorized/ActualB
  Army National                       351, 829                351,078                 351,089A           350,000/342,918           350,000/330,312
  Guard                                (+0.4%)                (+0.3%)                  (+0.3%)                    (-2.0%)                   (-5.6%)
  Army Reserve                         205,628                206,682                  211,890           205,000/204,131           205,000/192,267
                                       (+0.2%)                (+0.8%)                  (+3.4%)                    (-0.4%)                   (-6.2%)
  Navy Reserve                           87,913                 87,958                  88,156             85,900/82,558             83,400/77,484
                                        (-1.1%)                (+1.1%)                 (+0.4%)                   (-3.9%)                   (-7.1%)
  Marine Corps                          39,810                  39,905                  41,046             39,600/39,644             39,600/40,318
  Reserve                              (+0.6%)                 (+0.9%)                 (+3.8%)                   (+0.1%)                   (+1.8%)
  Air National                         108,485               112,071a                  108,137           107,030/106,822           106,800/105,964
  Guard                                (+0.4%)                (+3.4%)                  (+1.4%)                    (-0.2%)                   (-0.8%)
  Air Force                             74,869                  76,632                   74,754            75,800/75,322             76,100/75,499
  Reserve                              (+0.7%)                 (+2.6%)                  (-1.1%)                  (-0.6%)                   (-0.8%)
  Coast Guard                             7,976                  7,816                   7,720              10,000/8,011              10,000/8,146
  Reserve                               (-0.3%)                (-2.3%)                (-14.2%)                  (-19.9%)                  (-18.5%)
  A
      Selected actual results for prior years were found to be in error and were updated in FY 2005.
  B
      FY 2005 data are final as of the third quarter.


Metric Description

End of year strength authorizations for each of the seven Reserve components are set forth in the National
Defense Authorization Act for the fiscal year. The DoD components are compelled to budget and execute
to that end strength by the end of the fiscal year. By law, the Secretary of Defense may authorize the DoD
components to vary, by no more than two percent, their authorized end strength for the end of that fiscal year,
if determined to be in the national interest. A recent change in law added a quarterly measure and requires
that the Secretary, within the DoD’s budgetary documentation for the fiscal year, report the strength levels of
each DoD component for each of the first three quarters of the fiscal year, and the maximum allowable variance
from those prescribed strengths. The DoD component actual end strength for each quarter is evaluated against
the prescribed end of quarter strength. The DoD is evaluating the Reserve components’ quarterly strengths
against the year-end authorization, and is considering changing that measure to relate actual end of quarter
strengths against the quarterly prescribed strengths. While under partial mobilization, the Secretary may, as
authorized by the President, waive all end strength limitations, if deemed appropriate.

                                                                            69
                                                                                              DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

The President waived the end strength limitations during this time of national emergency. The Secretary has
directed DoD components to attempt to meet the two percent criterion, though exceptions are authorized
based on the operational situation. At the end of the third quarter, four DoD components are outside the
prescribed two percent criterion as evaluated against the end of year authorization. Army National Guard,
Army Reserve, Navy Reserve, and Coast Guard Reserve are under their authorizations. The primary reason
for the shortfall in the two Army Reserve components is a shortfall in recruiting. The shortfall in the Navy
Reserve is due primarily to budgeted and programmed Navy Reserve downsizing. This equated to a 2,500
reduction in FY 2005, and a planned reduction of about 10,000 for FY 2006. In addition, the Coast Guard
Reserve shortfall is exaggerated because of certain strength accounting rules, which count 897 Reserve members
in the Active Coast Guard strength. Additionally, the Coast Guard Reserve budgeted for an end strength of
9,000 instead of the Congressionally-authorized 10,000, which makes its end strength achievement appear even
lower. Finally, the Coast Guard Reserve is part of the new Department of Homeland Security, not the DoD.
Based on budgeted manpower ramps, the current end strength status may approximate year-end data.


                                                      Metric 1.2.4: Critical Skill Recruit Needs
                              FY 2001            FY 2002          FY 2003                  FY 2004                               FY 2005
        Metric                 Actual             Actual           Actual                Target/Actual                        Target/ActualA
  Percentage of             No historical data; new metric                       ≥95% fill for all skills/3 of the   ≥95% fill for all skills/22 of the
  accession mission                                                              63 designated skills (5%)           67 designated skills (33%) filled
  met for all skills                                                             filled less than 95%                less than 95%
  Accession missions for each skill are set by the Services based upon required manning levels in the current and future force and expected losses
  in training.
  Data was not collected for this metric prior to FY 2004.
  A
    FY 2005 data are final as of the third quarter.


Metric Description

The Department is now implementing a “critical skill recruit needs” metric whereby Services will identify
annually the 10 percent of their skills that are most critical for recruitment focus in the coming year. At this
time, the metric is applied only to Active duty enlisted recruits. “Critical skill recruit needs” consist of a certain
type of recruiting emphasis (e.g., enlistment bonuses, college funds, incentives to recruiters) and meet one or
more of the following criteria:

•	 Crucial to combat readiness,
•	 Undermanned in the force,
•	 Unfilled class seats,
•	 High volume required,
•	 High entrance standards, and
•	 Undesirable duty.

The exact fill rate for each skill will be measured, and each Service will be rated based on the recruit rate of its
lowest skill rating.
                                                                         70
                                                                                                     DoD Performance & Accountability Report FY2005
                   ..............................................................................................Part 2: Performance Information

The Department’s overall readiness rating system, the Status of Resources and Training System, uses the
following criteria for evaluating unit readiness with respect to skill match. The categories and percentages
depict whether unit personnel have the skills to fit the unit’s missions.

	   C1	 Fully Mission Capable		                              85% or above
	   C2	 Mostly Mission Capable		                             75% to 84%
	   C3	 Major Parts Mission Capable	                         65% to 74%
	   C4	 Some Parts Mission Capable	                          64% and below

Performance Results for FY 2005

At the end of the third quarter, 22 of 67 designated skills were filled to less than 95 percent. The challenging
recruiting environment experienced thus far in FY 2005 is beginning to affect the depth of the critical skills
shortage. In particular, the Army reports notable declines in a significant majority of critical skills. This more
challenging recruiting environment may prove that targets, established in a favorable timeframe, are very
ambitious. The DoD projects further decline for fourth quarter results.


                                           Metric 1.2.5: Selected Reserve Component Enlisted Attrition Ceiling
         Selected Reserve                  FY 2001                   FY 2002                  FY 2003                 FY 2004                  FY 2005
            Component                       Actual                    Actual                   Actual               Target/Actual           Target/ActualA
    Army National Guard                              20.0B                    20.6B                    18.1B               18.0/18.6B               19.5B/15.6
    Army Reserve                                     27.4                      24.6                     22.1                28.6/22.6               28.6/17.2
    Navy Reserve                                     27.6                      26.5                     26.5                36.0/28.2               36.0/23.9
    Marine Corps Reserve                             26.4                      26.0                     21.4                30.0/26.3               30.0/16.0
    Air National Guard                                 9.6                      7.3                     12.7                12.0/11.5                 12.0/7.8
    Air Force Reserve                                13.4                       8.7                     17.0                18.0/13.6                18.0/11.1
    A
        FY 2005 data are final as of the third quarter.
    B
        The ceiling for Army Reserve National Guard enlisted attrition has been corrected to reflect enlisted attrition only, vice the previously
         documented total (officer + enlisted) DoD component attrition ceiling.

    Note: All numbers are percentages representing total losses divided by average strength.


Metric Description

The DoD uses attrition rather than retention rates to assess retention trends in the Reserve components.
Attrition is computed by dividing total losses from the selected Reserve of a specific DoD component for a
fiscal year by the average personnel strength of that component’s selected Reserve for that year. This metric is
preferable to retention rates because only a small portion of the Reserve component population is eligible for
reenlistment during any given year. In addition to monitoring attrition, the DoD established annual attrition
targets for Reserve component personnel. These targets, which took effect in FY 2000, represent the maximum
number of losses deemed acceptable in a given fiscal year by establishing a ceiling for personnel departures.
The attrition goal is actually a ceiling, which is not to be exceeded.


                                                                                71
                                                                                                    DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

The Presidential Declaration of National Emergency by Reason of Certain Terrorist Threats and accompanying
Executive Order, giving the Military Departments the authority to implement “stop loss” programs, remains
in effect as the global war on terrorism and operations in Afghanistan and Iraq continue. The only Military
Department that continues to use a “stop loss” program is the Army. Depending on the number of members
mobilized, this influences attrition rates, since mobilized Army Reserve component members are subject to
“stop loss” for the duration of their mobilization, plus a transition period of 90 days after demobilization.
Through the end of the third quarter FY 2005, Reserve component enlisted attrition remained within
acceptable limits. There is nothing remarkable or unexpected in attrition figures for FY 2005 to date.
However, continued vigilance is prudent, especially considering the large number of forces supporting the
ongoing contingency operations and the ongoing Army “stop loss” program.


                                                        Metric 1.2.6: Manning Level of Critical Skills
         End-state Metric             FY 2001           FY 2002                 FY 2003                      FY 2004                  FY 2005A
  The percentage of skills           No historical data; new           •	 Started to define           •	 Established            Began tracking the
  that are deemed critical           metric                               critical skills                common definition      metric during the
  for retention relative to a                                          •	 Services developed             for critical skill     second quarter FY
  DoD-wide benchmark.                                                     list of critical skills     •	 Tested data            2005.
                                                                                                         collection
  A
      FY 2005 data are final as of the third quarter.


Metric Description

The DoD is developing a way to measure its effectiveness at retaining the military skills most critical to its
mission. To be designated as “critical,” a skill must meet two tests: (1) it must be short of its targeted manning
and (2) it must be critical to the Service’s mission. As a first step, the Department established a common
definition and metric to monitor critical skills across the Services. The next step is to test both data collection
methods and the effectiveness of the metric in monitoring manning levels.

The Department defines a critical skill as a shortage skill (objective), plus a mission-critical skill (subjective).
A shortage skill is either assigned less than authorized (quantitative) and or average grade experience is
substantially different from desired experience (qualitative). These shortages are actual, projected, or have a
past trend of historical shortages. A mission-critical skill meets at least one of the following criteria:

•	 Technical skills requiring notably above average training or replacement costs,
•	 Skills that are in high demand in the civilian sector,
•	 Skills that present recruiting challenging,
•	 Skills crucial to combat readiness, or
•	 A low-density high demand skill.

The metric monitors each Service’s ability to retain members in its top10 critical skills for retention. If the
Service retains 95 percent or more of its desired goal for a particular skill, it is considered “Green.” If the

                                                                              72
                                                                                                DoD Performance & Accountability Report FY2005
                ..............................................................................................Part 2: Performance Information

Service retains 86 percent to 94 percent of its goal for a particular skill, it is considered “Yellow.” If it retains
85 percent or less of its goal for a particular skill, it is considered “Red.” The Service’s overall rating will be no
higher than its lowest rated designated critical skill.

Performance Results for FY 2005

Each Service began reporting its most critical skills for retention in second quarter FY 2005. To allow visibility
into the full array of issues presenting retention challenges (e.g., skills in high demand in the civilian sector),
the DoD chose not to focus on a single criterion, but rather investigate a variety of potential issues. The DoD
began using the metric during the second quarter; therefore year-end data is not available. The DoD will track
this metric as a performance measure in FY 2006.


                                            Metric 1.2.7: Active Component Enlisted Recruiting Quality
                                                                                                                      FY 2004          FY 2005
                                                                    FY 2001         FY 2002           FY 2003          Target/          Target/
                            Category                                 ActualA         ActualA           ActualA         Actual          ActualB
  Percentage of recruits holding high school diplomas                      93              94               95            ≥ 90/95         ≥ 90/94
  (education tier 1)
  Percentage of recruits in AFQT categories I–IIIA                         66              70               72            ≥ 60/73         ≥ 60/72
  Percentage of recruits in AFQT category IV                                   1          0.7               0.2           ≤ 4/0.3             ≤ 4/1.0
  A
      Official High School Diploma Graduates performance excludes 4,000 participants in the Army’s GED+ pilot program, therefore the actual
      numbers were adjusted to reflect this factor.
  B
      FY 2005 data are final as of the third quarter.


Metric Description.

DoD measures recruiting quality along two dimensions – aptitude and educational achievement of recruits.
All military applicants take a written enlistment test called the Armed Services Vocational Aptitude Battery.
One component of that test is the Armed Forces Qualification Test (AFQT), which measures math and verbal
skills and has proven to correlate closely with trainability and on-the-job performance. The table below shows
how AFQT percentiles are grouped into categories:

                                        AFQT Test Categories and Corresponding Percentile Score Ranges
                                    AFQT Category                                                Percentile Score Range
                                           I                                                             93-99
                                           II                                                            65-92
                                          IIIA                                                           50-64
                                          IIIB                                                           31-49
                                           IV                                                            10-30
                                           V                                                              1-9




                                                                          73
                                                                                           DoD Performance & Accountability Report FY2005
                ..............................................................................................Part 2: Performance Information

Those who score at or above the 50th percentile on the AFQT are in categories I-IIIA . The DoD values these
higher-aptitude recruits because their training and job performance are superior to those in the lower groupings
(categories IIIB-IV). The Department also values recruits with high school diplomas because years of research
and experience demonstrate that high school diploma graduates are more likely to complete their initial 3 years
of service.

Quality benchmarks for recruiting were established in 1992 based on a study conducted jointly by the DoD
and the National Academy of Sciences. The study produced a model linking recruit quality and recruiting
resources to the job performance of enlistees. As its minimum acceptable quality thresholds, the Department
has adopted the following recruiting quality targets derived from the model: 90 percent in education tier 1
(primarily high school graduates), 60 percent in categories I–IIIA, and not more than 4 percent in category
IV. Adhering to these benchmarks reduces personnel and training costs, while ensuring the force meets high
performance standards.

Performance Results for FY 2005

All Active components, except Army, met or exceeded their third quarter recruiting quality goals. The Army is
within one percent of the education tier 1 goal of 90 percent. Current Army drop in this metric during third
quarter may indicate risk for FY 2005 outcome.


                                          Metric 1.2.8: Reserve Component Enlisted Recruiting Quality
                                                       FY 2001            FY 2002          FY 2003           FY 2004              FY 2005
                      Metric                            Actual             Actual           Actual         Target/Actual       Target/ActualC
  Percentage of recruits holding high school                     89                 89               87          ≥ 90/87A             ≥ 90/87
  diplomas (education tier 1)
  Percentage of recruits in AFQT categories                      64                 66               66          ≥ 60/66B             ≥ 60/65
  I–IIIA
  Percentage of recruits in AFQT category IV                      1              1.1              1.5             ≤ 4/2.0              ≤ 4/2.0
  A
      Excludes Air National Guard; see discussion in Performance Results paragraph.
  B
      Excludes Air National Guard; see discussion in Performance Results paragraph.
  C
      FY 2005 data are final as of the third quarter.


Metric Description

Quality benchmarks for recruiting were established in 1992 based on a study conducted jointly by the DoD
and the National Academy of Sciences. The study produced a model linking recruit quality and recruiting
resources to the job performance of enlistees. As its minimum acceptable quality thresholds, the Department
has adopted the following recruiting quality targets derived from the model: 90 percent in education tier 1
(primarily high school graduates), 60 percent in Armed Forces Qualification Test (AFQT) categories I–IIIA,
and not more than 4 percent in AFQT category IV. Adhering to these benchmarks reduces personnel and
training costs, while ensuring the force meets high performance standards.



                                                                         74
                                                                                             DoD Performance & Accountability Report FY2005
                ..............................................................................................Part 2: Performance Information


                                        AFQT Test Categories and Corresponding Percentile Score Ranges
                                    AFQT Category                                              Percentile Score Range
                                           I                                                            93-99
                                           II                                                           65-92
                                          IIIA                                                          50-64
                                          IIIB                                                          31-49
                                           IV                                                           10-30
                                           V                                                             1-9


Performance Results for FY 2005

All of the Reserve components except for the Army National Guard met or exceeded the category I-IIIA goal
and the tier 1/high school diploma goal for enlisted recruit quality through the third quarter. However, there
has been a slight decrease in quality throughout the year as the recruiting force continues to face significant
challenges. There is increased emphasis on the non-prior service market as the number of individuals
separating from Active duty service has declined (due in part to increased emphasis on retention in the regular
forces) and fewer of those who are separating are affiliating with the Reserve components. Some of the data is
drawn from data systems that are incomplete or known to contain errors. The Air National Guard continues
to experience difficulties in reporting recruit quality data, but reports that a solution is near. Historically it has
far exceeded the DoD benchmarks. The Army National Guard continues to struggle to meet the Department’s
quality benchmarks, and the Army National Guard recruit quality will likely continue to remain below the
DoD benchmark.


                                           Metric 1.2.9: Active Component Enlisted Recruiting Quantity
                                                      FY 2001           FY 2002            FY 2003            FY 2004            FY 2005
                     Metric                            Actual            Actual             Actual          Target/Actual     TargetA/ActualB
  Number of enlisted Active Component                    196,355           196,472           184,879       181,360/182,631    169,587/103,006
  accessions
  A
      FY 2005 target has changed since last report because of changes in requirements and recruiting behavior.
  B
      FY 2005 data are final as of the third quarter.


Metric Description

Department-wide targets for Active duty enlisted recruiting represent the projected number of new Service
members needed each year to maintain statutory military end strengths and appropriate distributions by rank,
allowing for discharges, promotions, and anticipated retirements. As personnel trends change during the year,
Active component recruiting objectives may be adjusted.




                                                                          75
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

All Active components, with the exception of the Army, are on track for meeting their goals. Army is showing
signs of improvement, recruiting 507 more than its goal for June. However, Army’s year-end goal is at risk.


                                            Metric 1.2.10: Reserve Component Enlisted Recruiting Quantity
                                                         FY 2001         FY 2002         FY 2003             FY 2004               FY 2005
                      Metric                              Actual          Actual          Actual           Target/Actual        Target/ActualB
  Number of enlisted Reserve component                     141,023          147,129         133,075      126,410A/118,177         93,196/77,375
  accessions
  A
      Army Reserve and National Guard and Navy Reserve have adjusted their FY 2004 targets downward because trends changed during FY 2003.
       Therefore, the DoD-wide target decreased from the 139,523 previously reported to 126,410.
  B
      FY 2005 data are final as of the third quarter.


Metric Description

Department-wide targets for enlisted recruiting represents the projected number of new Service members
needed each year to maintain statutory military end strengths and appropriate distributions by rank, allowing
for discharges, promotions, and anticipated retirements. As personnel trends change during the year, Reserve
component recruiting objectives may be adjusted.

Performance Results for FY 2005

Two of the six Reserve components achieved their recruiting objectives through the third quarter – the Marine
Corps Reserve and the Air Force Reserve. The Army National Guard and Army Reserve fell short of their
objectives and will likely not achieve their total year recruiting objectives. Recruiting challenges remain for all
Reserve components. Enhanced recruiting and retention incentives are helping, and attrition is generally lower
than programmed throughout the Reserve components. Through June 30, the Reserve components, taken
together, are achieving just 83 percent of their recruiting objectives.


                                 Metric 1.2.11: Retain Balanced Mix of Non-Commissioned Officer Grade/Experience
      End-state Metric          FY 2001          FY 2002             FY 2003                     FY 2004                      FY 2005A
  Number of                    No historical data; new        Services established       •	 Completed study of        •	 Contracted a study to
  skills/experience            metric                         a promotion-timing            Service retention            operationalize policy
  deficiencies in                                             benchmark for 10              metrics                      changes and align
  top 10 enlisted                                             most critical enlisted     •	 Began policy revisions       enlisted grade and
  occupational                                                occupational specialties      to establish a tie           experience pyramids
  groups                                                                                    between grade and         •	 Developed metric
                                                                                            experience                •	 Completed the
                                                                                                                         revision of directive on
                                                                                                                         promotion timing.
  A
      FY 2005 data are final as of the third quarter.



                                                                           76
                                                                                       DoD Performance & Accountability Report FY2005
            ..............................................................................................Part 2: Performance Information

Metric Description

This metric will measure alignment, within certain occupational skill/groups, between by-grade requirements
and the supply of experience emerging from promotion and retention programs, as well as promotion
bottlenecks that operate against retention. The metric will monitor the top 10 enlisted occupational
skills/groups that fall outside Service-defined promotion boundaries, time-in-service, time-in-grade, and/or
promotion points. Annual goals are dynamic and can adjust from year to year. The goal for this metric is to
avoid skill/experience deficiencies. This information is used to evaluate the DoD’s experience/skill mix and to
determine where emphasis should be placed in development, promotion, and retention programs.

The DoD is assessing the Services’ current retention metrics to ensure measurement tools are designed to meet
force sustainment goals. The Department asked the Center for Naval Analyses to determine why promotion
policies vary across the Service’s (and across different communities within the Services), to suggest whether this
variation is rational and supports useful objectives, and to suggest how the Department might integrate the
Services’ different promotion policies into Service-specific models of military force shaping.

Performance Results for FY 2005

In September, the revision of the DoD directive requiring the Services to establish baselines, goals, and metrics
to determine promotion timing for enlisted grades in FY 2006 was approved; publication was pending as of the
fourth quarter. The Department also has contracted the Center for Naval Analyses to make recommendations
on how to (1) employ the new policy, (2) project the average experience at promotion 1-3 years in the future,
and (3) provide the Services a methodology to establish the benchmarks and metrics. During FY 2006, the
Services will establish a long-term baseline/goal to determine the promotion timing benchmark to help focus
retention programs and evaluate outcomes. Promotion data is available now; however, the Services need to
determine benchmarks for the occupations, such as time-in-service, time-in-grade at pin-on, or promotion
points.




                                                                   77
                                                                                               DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Goals 1.3 - Maintain Reasonable Force Costs

                                                          Metric 1.3.1: Civilian Force Costs
      Civilian force costs          FY 2001                FY 2002                 FY 2003                  FY 2004               FY 2005
      (Current Year $000)           ActualB                ActualC                 ActualE                   Actual              ProjectedF
  Total A                             42,258,733             44,867,328               47,227,585              50,326,400             51,971,521
  Basic pay                           31,887,999             33,376,576               34,947,575              37,046,481             38,765,799
  Premium pay D                        1,985,502                     —                        —                       —                      —
  Overtime pay                                —               1,173,810                1,215,873               1,503,543                936,046
  Holiday pay                                 —                  53,772                   46,787                  66,610                 62,161
  Other pay                                   —               1,119,919                1,105,238               1,150,070              1,141,362
  Benefit pay                          8,066,742              8,822,937                9,501,778              10,276,114             10,895,709
  Separation pay                         318,490                320,049                  410,333                 283,582                170,444
  A
       Totals may not add due to rounding error.
  B
       FY 2001 data are from the DoD component summary of President’s Budget FY 2003.
  C
       FY 2002 data are from FY 2004 President’s Budget.
  D
       Premium pay includes overtime pay, holiday pay, and other pay. It was reported only as an aggregate number in FY 2001.
  E
       FY 2003 through FY 2005 data are from FY 2005 President’s Budget.
  F
       FY 2005 data are projected based on FY2005 President’s Budget, and includes actual results as of the second quarter.


Metric Description

In the past, civilian force costs reflected costs reported annually to the Office of Personnel Management
(OPM). OPM’s data were not timely, so in FY 2004, the DoD began using data from the President’s Budget
that provided a better source of past and present workforce cost. Consequently, premium pay costs after FY
2002 are presented with more specificity in the overtime, holiday, and other pay categories.

Although this metric provides only a broad overview of civilian compensation costs, it may become a baseline
for evaluating National Security Personnel System costs. However, it is not an effective measure of the success
of any individual personnel program or benefit. For example, additional benefit costs do not indicate successful
use of recruitment or retention incentives. Increased recruitment bonus or retention allowance payment
amounts would only reflect usage, not the change in recruitment or retention based on payment of the
incentive.

The metric monitors trends in the following pay categories:
•	 Basic pay—the aggregate personnel compensation for full-time permanent, full-time temporary, and part-
   time/intermittent appointments.
•	 Premium pay—personnel compensation for overtime, holiday, Sunday, night differential, hazardous duty,
   post differential, staffing differential, supervisory differential, physicians comparability allowance, remote
   work site allowance, cash awards, and other.
•	 Benefit pay—health insurance, life insurance, retirement, social security, workers’ compensation, uniform
   allowances, overseas allowances, non-foreign cost-of-living allowance, retention allowance, recruitment
   bonus, relocation bonus, and other.
•	 Separation pay—personnel compensation to involuntarily separated employees and payments made through
   the $25,000 voluntary separation incentive pay program (buyout bonuses).


                                                                          78
                                                                                             DoD Performance & Accountability Report FY2005
                ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

In FY 2005, civilian force cost continues a relatively slight upward trend. In constant dollar terms, the FY
2005 civilian payroll costs increased 1.7 percent from FY 2004 payroll costs. Simultaneously, the size of the
workforce increased 1.2 percent, or 4,228 employees.


                                           Metric 1.3.2: Community Quality of Life Per Capita Metric
                                                                                                                                      FY 2005
      Community Quality of Life Per           FY 2001               FY 2002                FY 2003              FY 2004            Target/Actual
      Capita Cost Metric (Current $)           Actual                Actual                 Actual           Target/ActualA          (Budget)B
  Army                                              $1,125                $1,180                $1,539        $1,559/$1,628          $1,581/(-$37)
  Navy                                              $1,121                $1,269                $1,391        $1,409/$1,365         $1,429/(-$214)
  Marine Corps                                        $812                    $940              $1,018        $1,031/$1,103          $1,045/(+$47)
  Air Force                                         $1,507                $1,580                $1,642        $1,663/$1,884        $1,687/(+$239)
  A
     FY 2004 includes emergency supplemental funding.
  B
     FY 2005 data are budget estimates in the FY 2006 President’s Budget. Actual funding will not be available until the FY 2007 President’s Budget
  is approved.


Metric Description

Quality of Life (QoL) Per Capita is one metric in a three-pronged approach that combines a QoL Social
Compact Improvement Index and Commitment to Military Life Index to measure the health of QoL programs
and services supporting military members and families. The QoL per capita metric responds to the National
Security Presidential Directive, “Improving Quality of Life,” and supports the Secretary’s guidance that the
Department track QoL improvements and give priority to the implementation of QoL initiatives. Current
deployment and high personnel tempo necessitate robust QoL support for troops and families to ensure there is
adequate support to ameliorate the stress associated with the military lifestyle, and to engender commitment to
military service. The QoL per capita metric will monitor trends in the Department’s QoL funding investment
per active duty member over time. DoD will track individual Service progress towards sustaining or improving
funding for critical QoL support.

The metric will calculate per capita cost using financial data submitted annually by the Services and annual
Active duty end strength data. The majority of funding to support Service QoL activities is identified in
specific budget and program exhibits submitted to the Office of the Secretary of Defense on an annual basis.
The metric will correlate Active duty end strength with Service direct operation and maintenance funding for
the following programs: morale; welfare and recreation; childcare; family centers; voluntary education and
tuition assistance; and youth programs.

Performance Results for FY 2005

FY 2005 performance reflects preliminary data based on budget estimates in the FY 2006 President’s Budget.
Final performance results for FY 2005 will not be available until the FY 2007 President’s Budget is approved.


                                                                         79
                                                                                               DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

The FY 2006 budget estimate reveals a decline in per capita funding for Army and Navy QoL programs. The
DoD notes that these reductions are due to improved management practices, and will monitor these programs
for potential impact on the support provided to troops and their families.

QoL per capita will become the benchmark for QoL investments as the DoD changes its global basing profile.
The goal is to keep standards high, even as the Department closes, realigns, and relocates installations and units
to better fit the DoD’s global defense mission. QoL per capita is a macro-level indicator that must be analyzed
in conjunction with the QoL Social Compact Improvement Index and the Commitment to Military Life Index
to gain insight into the best ways to support and take care of Service members and their families.


                                                            Metric 1.3.3: Cost of Basic Training
            Cost Indicator                       FY 2001                FY 2002              FY 2003            FY 2004             FY 2005
       (Constant FY 2005 dollars)                 Actual                 Actual               Actual             Actual             ActualA
  Cost of basic training per enlisted
                                                     $7,615.4               $8,491.9               $8,915.4       $11,359.9           $10,158.3
  recruit
  A
      FY 2005 data are estimated as of the third quarter.


Metric Description

Basic training is the fundamental introductory and indoctrination training provided to enlisted entrants.
Each Service has different training pipelines that take different lengths of time to complete. The cost of basic
training is a management cost indicator; performance/production targets are accession-driven and vary by
Service and year. Funding requirements are projected by fiscal year and include manpower, support equipment,
facilities, and all other costs associated with indoctrinating recruits into military culture, raising their standards
of physical conditioning, and instructing them in basic military skills. (Basic training costs do not include
expenses associated with initial skills training; initial skills training follows basic training, and its duration and
costs vary with each military specialty.)

Performance Results for FY 2005

Basic training costs rose from $1,660.8 million in FY 2001 to $1,990 million in FY 2005, a total increase of
19.8 percent. However, the Army’s costs are projected to decrease significantly this year. The mobilization and
deployment of large numbers of Army Reserve and National Guard soldiers for Operations Enduring Freedom
and Iraqi Freedom required expansion of the training base and its infrastructure in FY 2004, including the
construction of training barracks in Afghanistan and Iraq for operations. The removal of this expense drops
the Army’s projected costs to a more reasonable $811.2 million, a decrease of approximately 30 percent from
the $1,147.9 million expended in FY 2004. At the same time, the number of recruits entering the system
increased by 4.3 percent from 77,804 to 81,116.




                                                                             80
                                                                                             DoD Performance & Accountability Report FY2005
                ..............................................................................................Part 2: Performance Information


                                           Metric 1.3.4: Cost Per Enlisted Recruit - Active Component
            Cost Indicator                    FY 2000                 FY 2001             FY 2002             FY 2003             FY 2004
       (Constant FY 2005 dollars)              Actual                  Actual              Actual              Actual             ActualB
  Cost per RecruitA                               $12,202                $13,620               $14,361             $14,675            $14,750
  A
      Methodology and data updated from the FY 2003 Performance and Accountability report.
  B
      FY 2004 data are final as of the fourth quarter.


Metric Description

The metric is a performance indicator designed to analyze costs and trends over time, not set specific annual
performance targets. Each year, the DoD enlists about 200,000 new recruits for the Active components. These
new Service members provide entry-level manning necessary to meet manning and readiness needs. The cost
of recruiting is calculated by dividing a Service’s total number of accessions into the total expenditures for
enlisted recruiting. These resources are made up of recruiting personnel compensation, enlistment bonuses,
college funds, advertising, communications, recruiting support (vehicles, equipment, computers, supplies, and
applicant’s transportation, food and lodging, etc.), and other appropriations resources within the recruiting
Command/Service (i.e., other procurement and research, development, test, and evaluation funding).

Performance Results for FY 2004

Cost per enlisted recruit is a macro-level performance indicator used to analyze Service programs. Recruiting
costs are driven by a host of external variables, such as the state of the economy, unemployment, youth
propensity to serve, the posture of the delayed-entry program, etc. After steady growth through FY 2002,
this measure has stabilized in budgets at the FY 2003 level through FY 2004, and into the FY 2005 budget.
However, with steep recruiting mission requirements for the Army in FYs 2004 and beyond, coupled with a
strengthening economy, the DoD expects to see growth in this measure through supplemental appropriations
and in-year reprogramming in FY 2005.


                                          Metric 1.3.5: Cost Per Enlisted Recruit - Reserve Component
              Cost Indicator                        FY 2001                     FY 2002                  FY 2003               FY 2004B
         (Constant FY 2005 dollars)                  Actual                      Actual                   Actual                Actual
  Cost per Recruit – Reserve                                $7,065A                  $6,636A                  $7,773A                 $11,369
  A
      Methodology and data updated from the FY 2003 Performance and Accountability Report.
  B
      FY 2004 data are final as of the fourth quarter.


Metric Description

The metric provides an indicator to analyze costs and trends over time, not to set annual targets for
performance. Each year, the DoD enlists about 200,000 new recruits for the Active components and




                                                                         81
                                                                                               DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

approximately130,000 for the Reserve components. These new Service members provide the entry-level
manning necessary to meet manning and readiness needs. The cost of recruiting is calculated by dividing a
Service’s total number of accessions into the total expenditures for enlisted recruiting. These resources are made
up of recruiting personnel compensation, enlistment bonuses, college funds, advertising, communications,
recruiting support (vehicles, equipment, computers, supplies and applicant’s transportation, food, and lodging,
etc.), and other appropriations resources within the recruiting Command/Service (i.e., other procurement and
research, development, test, and evaluation funding).

Performance Results for FY 2004

The pressures of the global war on terrorism and the necessary focus of recruiting efforts on the non-prior
service market have driven up sharply costs associated with Reserve recruiting. For example, from FY 2003
to FY 2004, funds dedicated to total Reserve recruiting increased as follows: college programs – $11 million;
enlistment bonuses – $49 million; advertising – $59 million; and, recruiter support – $18 million. With
continuing challenges and increased bonus authorities, recruiting costs will likely continue to climb.


                                                 Metric 1.3.6: Medical Cost Per Enrollee Per Month
                                  FY 2000          FY 2001            FY 2002               FY 2003             FY 2004                FY 2005
  Metric (Current $000)            Actual           Actual            ActualB               ActualC          Target/ActualC        Target/ ActualD, E
  Medical cost per
                                                                                $174              $192             $219/$206              $229/$222
  enrollee per month             No historical data; new
                                 metricA                             N/A (first year
  Percentage change                                                                              10.2%          ≤ 14% / 7.3%           ≤ 11%/ 11.4%
                                                                     data reported)
  A
      Data used to calculate this metric were not available in FYs 1999 or 2000. Additionally, since the metric is based on rolling 12-month expenses
       from the Military Treatment Facilities, FY 2002 was first year when data could be reported.
  B
      FY 2002 data have been updated to reflect additional purchased care claims and reallocation of pharmacy expenses in the calculation.
  C
      The data for FYs 2003/2004 has been updated as of July 2005. The data is updated to reflect the most recent purchased care claims that
       have been adjudicated, a process that takes 3 years. The metric is expressed as a percentage; however, dollar amounts are shown for
       informational purposes.
  D
      FY 2005 data are estimated as of the second quarter.
  E
      FY 2005 actual data is for a 6-month period. $222 (FY 2005) is compared to $199.67 (similar period FY 2004) resulting in the actual percentage
       of 11.4%.


Metric Description

This metric looks at how well the Military Health System manages the care for those individuals who have
chosen to enroll in a health maintenance organization-type of benefit. It is designed to capture aspects of three
major management issues: (1) how efficiently the Military Treatment Facilities (MTF) provides care; (2) how
efficiently the MTF manages the demand of its enrollees; and (3) how well the MTF determines which care
should be produced inside the facility versus that purchased from a managed care support contractor.
This aggregate measure helps to monitor how well the Military Health System is managing the care for
TRICARE Prime enrollees. It looks at all Prime enrollees, whether at the MTF or with the health support
services contractors. The overall measure can be broken into multiple components that allow for review
of utilization factors for both direct care and purchased care, and unit cost information for direct care and
purchased care. By reviewing this information, MTFs are able to determine the cost of providing care at the
                                                                           82
                                                                                               DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

MTF, and how many times the enrollees are receiving care. While the top-level measure is used to track overall
performance, the detailed measures allow for review and management at the local level.

Due to claims processing times, purchased care workload is projected to completion 6 months after the fiscal
year ends; final results will not be available for approximately 3 years. Purchased care workload does not place
care delivered overseas into hospital or clinic areas, so overseas workload is excluded. To ensure consistency
across the program years, purchased care excludes all resource sharing, continued health care benefit plan, and
TRICARE-for-Life purchased care workload. Since data will not be available until 6 months after fiscal year-
end, this will be a lagging indicator.

Performance Results for FY 2005

Due to delays in claims processing and medical records coding, this measure is delayed longer than other
performance measures for reporting. Through the second quarter, the system is slightly above its annual goal
(11.4 percent vs. ≤ 11 percent). Yet, because of changes that occurred in claims processing this year, it is
expected that the most recent months are overstated, and performance is actually below the goal. In addition,
current reporting through the second quarter is based largely on projected to completion data that will improve
over time. The overall metric goal of equal to or less than 11 percent is based on the average premium increase
in private sector plans for calendar year 2005.


                                              Metric 1.3.7: Military Personnel Costs—Enlisted Pay Gap
                                         FY 2001                FY 2002                 FY 2003                FY 2004                 FY 2005
              Metric                      Actual                ActualB                  Actual             Target/ActualB          Target/ActualC
  Percentage of enlisted pay
                                                   23%                    48%                     61%               71%/73%                79%/88%
  gap closed A
  Percentage of remaining
                                                   N/A                    31%                     25%                    33%               27%/54%
  gap closed (annually)
  A
      Relative to FY 2000 baseline.
  B
      Actual results for FY 2002 and FY 2004 changed from prior reports because the baseline for civilian wages was updated due to the availability
      of more recent data.
  C
      FY 2005 data are final as of the fourth quarter.


Metric Description

The goal of military compensation is to provide sufficient military manpower to provide for the national
defense. To achieve this end, military compensation must be competitive. The DoD determined that
military pay that matches the 70th percentile of pay earned by comparably experienced civilian workers is an
appropriate short-run measure for assessing whether military pay is competitive with civilian compensation. In
the past, whenever military compensation was significantly less than the 70th percentile as compared to civilian
pay, recruiting and retention problems arose. It is generally very costly, in terms of both dollars and experience
mix, to correct recruiting and retention shortfalls after they have appeared. This metric tracks the percentage
of the pay gap between military pay and the comparable 70th percentile for civilian counterparts that has been
closed, as measured and beginning in FY 2000.

                                                                           83
                                                                                              DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

For officers, the appropriate comparison group is civilians with college degrees and advanced degrees in
managerial and professional occupations. The FY 2000 pay gap for officers was eliminated in FY 2002 through
a combination of targeted pay increases, across-the-board raises that exceed the average increase in the private
sector, and general increases in allowances.

Measurement of the enlisted pay gap is based on civilian pay by education and years of experience and
enlisted pay by pay-grade and years of service. There still is a measurable pay gap today for enlisted service
members. Therefore, the DoD’s goal is to close at least 25 percent of the remaining gap annually until the gap
is eliminated. After the gap is closed, the goal is to ensure military pay remains commensurate with the 70th
percentile of comparable civilians.

Although a good leading indicator of recruiting or retention trends, this metric alone is not sufficient to gauge
the overall efficiency or effectiveness of the military personnel compensation program. Consequently, the DoD
also is working on monitoring change in total military personnel costs (in current and constant dollars); the
probability an enlisted member will remain in service until 15 years; and the average experience at promotion
for grades affected by the pay gap.

Performance Results for FY 2005

The DoD achieved a sizeable reduction in the enlisted pay gap from 73 to 88 percent of the total gap. This was
accomplished with an average pay increase of 3.5 percent, an increase in the average basic allowance for housing
of 12.4 percent, and a 5 percent rise in the basic allowance for subsistence. The average civilian wage increase
during this period was 3 percent.


                                               Metric 1.3.8: TRICARE Prime Outpatient Market Share
                                       FY 2001                 FY 2002                 FY 2003                FY 2004                 FY 2005
             Metric                     Actual                  Actual                  Actual             Target/ ActualA         Target/ActualB
  TRICARE Prime
                                                                                                                                          No longer
  outpatient market share                     84.4%                   81.0%                   75.1%               78%/71%
                                                                                                                                           reported
  (MTF enrolled)
  A
      This was a new measure for FY 2004. For FY 2004, the target is based on business plans received from Military Treatment Facilities and is
       contained in the Defense Health Program performance plan. Changes to the performance plan goals will result in changes to the goals for this
       metric.
  B
      After further review of this modified measure, the value of reporting was found to be limited, and therefore this measure is being removed.


Metric Description

Outpatient encounters represent the majority of contacts between the Military Health System and its
beneficiaries. This metric looks at how much of the care is delivered in the direct system rather than being
purchased. Since there is a large fixed manpower cost related to the medical readiness mission, it is vital that
resources are used efficiently and effectively.

Although medical care can be purchased at numerous locations throughout the United States and overseas,
this measure focuses on enrollees in the United States because purchased care data are not available in
                                                                          84
                                                                                             DoD Performance & Accountability Report FY2005
                ..............................................................................................Part 2: Performance Information

sufficient detail for overseas activities. Due to the extensive medical capabilities of the hospitals compared with
ambulatory clinics, the market-share percentage will vary by Military Treatment Facilities and Military Service.
Over the past couple of years, the downsizing of small hospitals into ambulatory care clinics has affected the
clinical capabilities of these facilities, and market share has decreased. This reduction is expected to continue
for several years until the direct-care system stabilizes.

Market-share percentages for the Services are shown based on direct-care workload compared to total
purchased-care plus direct-care workload for TRICARE Prime enrollees. This metric will be based on
relative value units to compare more accurately the relative complexity of care instead of just a visit count. To
compensate for factors that cannot be controlled under current program rules, the metric was changed in FY
2004 to focus just on the Military Treatment Facilities’ TRICARE Prime enrollees. Rules under the TRICARE
Prime enrollee program provide more oversight for the facility in managing the overall health and utilization of
this population.

Performance Results for FY 2005

Based on results from business plan execution for the first 2 years, the value of the measure is uncertain. In the
future, when business plans become more stable, the measure may be reviewed again, but for the time being,
this measure has been closed.


                                                  Metric 1.3.9: Primary Care Provider Productivity
                                       FY 2001                 FY 2002                FY 2003               FY 2004                 FY 2005
             Metric                     Actual                  Actual                 Actual             Target/Actual          TargetA/ActualB
  Relative value units per
  primary care provider per                      13.6                    13.8                   14.0           ≥ 14.5/14.1            ≥ 14.3/14.6
  day
  A
      FY 2005 target was reset to a yearly goal that would match the Defense Health Program performance plan for FY 2005. All future years goals
       will be updated on an annual basis.
  B
      FY 2005 data are estimated as of the third quarter.


Metric Description

To run a premier health maintenance organization (HMO), the critical focus area is primary care. The primary
care provider frequently represents the first medical interaction between the beneficiary and the HMO. In
this role, the primary care provider is responsible for the majority of the preventive care to keep beneficiaries
healthy and away from more costly specialty care. While the HMO has a goal to reduce the overall number
of encounters per beneficiary, an additional goal is to ensure that the dollars spent on medical care are used
efficiently.

The targets for this metric represent stretch goals that were instituted to move the organization forward, but
were not achieved in FY 2003 or FY 2004. This metric looks at the complexity of care and the number of
patients seen by the primary care providers each day, with a goal of increasing the complexity, number, or both,
of patients seen each day by the provider. To measure the complexity of care, and not just the count of visits,
the relative value unit is used. Developed by the Centers for Medicare and Medicaid Services, this measure
                                                                          85
                                                                                             DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

approximates the physician resources used during a visit. (For example, a returning visit by a patient with a
simple problem might be 0.17 units, whereas arthroscopic surgery of the knee might be 16.00 units.) Due to
the nature of this data reporting, the metric results will lag the actual performance by one quarter.

Performance Results for FY 2005

Prior to the beginning of the fiscal year, the performance target was adjusted to make the goal more realistic
for annual performance, and to match the Defense Health Program performance plan for FY 2005. Instead of
an increase of 1 relative value unit per primary care provider per day, the goal was adjusted to a .2 increase, a
target that was viewed as more achievable by the Services. Based partially on that change, and an emphasis on
provider productivity, two of the three Services showed immediate improvements as the fiscal year began. As of
the third quarter, the last Service is also showing signs of improvement that will likely help it to achieve its goal.
Assuming that performance levels remain steady, or continues to improve, the overall Military Health System
will meet its goal for the year.


                                                   Metric 1.3.10: Total Costs for Contractor Support
            End-state Metric                FY 2001          FY 2002            FY 2003                 FY 2004                  FY 2005A
  Trend data showing the                  No historical data; new         Army assigned            Worked towards          •	 Army began to
  percentage increase or                  metric                          pilot program            overcoming                 determine DoD-
  decrease in costs associated                                            to contractor            legal hurdles              wide applicability
  with contract support                                                   manpower and             and developing          •	 Implemented pilot
                                                                          costs                    processes to               program within
                                                                                                   implement pilot            the Army
                                                                                                   program within Army
  A
      FY 2005 data are estimated as of the fourth quarter.


Metric Description

The contractor workforce is comprised of non-federally appointed individuals who form the third component
of the Department’s workforce, along with military members and civilian employees. Contractor costs will
grow as the DoD continues its efforts to balance personnel investments by outsourcing non-core functions,
allowing it to return military manpower slots to the kinds of operational tasks that only can be performed by a
trained soldier, sailor, or Marine.

The purpose of the contract support cost indicator is to provide visibility into the total funding burden that
contracted personnel render across the entire Department. To do this, the DoD must find ways to capture data
about the contracted work performed, the associated costs, and the unit supported. This information is needed
to satisfy fiscal accountability standards, as well to determine where contractor investments overlap, allowing
DoD to propose alternative solutions, as needed.

Unfortunately, existing financial and procurement systems do not capture contractor workforce data such as
direct labor hours, direct labor dollars, and the unit supported. The DoD is developing a systemic method to
capture this data across the DoD; the final cost indicator will allow the Department to monitor the trends in
contract investments in direct labor dollars for all Military Services.
                                                                          86
                                                                                             DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

In summer 2002, the Department approved an Army pilot program to capture contractor manpower and
costs. The Army is testing a Contractor Manpower Reporting Application, documenting lessons learned, and
developing a proposal for DoD-wide (Service-only) use. The Army pilot program and final proposal for DoD-
wide applicability are scheduled for completion in September 2007; DoD-wide implementation is expected by
2008. Services may begin reporting total contracting support cost data in 2009.

Performance Results for FY 2005

The Secretary of the Army issued implementation guidance to include reporting requirements into applicable
contracts. Contracting offices are implementing standardized contract workforce data as a line item in new
Army contracts and the industry is populating the website for data collection. The Army plans to garner
lessons learned and, based upon results, the Army staff will conduct a cross-Service working group to develop
the DoD implementation instructions and negotiate legal and policy requirements.


Performance Goals 1.4 - Shape the Force of the Future

                                           Metric 1.4.1: Active Component/Reserve Component Force Mix
           End-state Metric                FY 2001           FY 2002           FY 2003                  FY 2004                  FY 2005A
  Benchmark of the proper                No historical data; new         •	 Services              Services rebalanced      Services rebalanced
  balance between Active and             metric                             determined            18,366 spaces            28,905 spaces
  Reserve component forces                                                  spaces to be
                                                                            rebalanced
                                                                         •	 Services began
                                                                            rebalancing
                                                                            (rebalanced
                                                                            22,486 spaces)
  A
      FY 2005 data are estimated as of the fourth quarter.


Metric Description

A December 2002 study of the proper mix of Active component/Reserve component forces concluded that
the DoD could enhance capability overall military by rebalancing both components’ force mix and mission
assignments. The Secretary of Defense directed the Services to review their force structure and, where required,
rebalance their forces to ease stress on the Guard and Reserve.

The Secretary provided the Services with two force structure planning objectives. They were: (1) rebalance
forces to eliminate the involuntary mobilization of Reservists during the first 15 days of a rapid response
operation, and (2) limit the involuntary mobilization of Reservists to no more than 1 year out of any 6-year
period.

Ongoing Research

A study of the stress on the Reserve component forces examined all specialties mobilized for current military
operations and comparing the data against previous operations and recent Presidential Reserve Call-ups
                                                                        87
                                                                                                   DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

(Bosnia, Kosovo, and Southwest Asia). The study measured stress using three factors: (1) frequency of call-
ups; (2) duration of call-ups; and (3) percentage of inventory used (i.e., how much of the force capability was
employed). The results of this study helped inform the Services as to where rebalancing was needed.

The Department began tracking rebalancing actions in FY 2003. As the environment changes, the Services will
review their force structure and, where applicable, take additional rebalancing actions. Although rebalancing is
an iterative and continuous process, the rebalancing actions required to compensate for the transition from the
Cold War to the global war on terrorism are scheduled to be completed by September 2010.

Performance Results for 2005

The DoD estimates that 28,905 spaces will be rebalanced in 2005 (pending end of year results from the
Services). The Services have each reviewed their force structure and have submitted plans for rebalancing. The
number and type of spaces rebalanced varies by Service. Current Service plans call for rebalancing to continue
through FY 2010.


                                                    Metric 1.4.2: Civilian Human Resources Strategic Plan
                                       FY 2001                FY 2002              FY 2003                    FY 2004                 FY 2005
             Metric                     Actual                 Actual               Actual                  Target/Actual          Target/ActualA
  Percentage of Civilian            No historical          90%                98%                        80%/90%                 80%/60%
  Human Resources                   data; new              (26 of 29 tasks    (40 of 41 tasks            (54 of 60 tasks         (20 tasks
  Strategic Plan tasks              metric                 completed)         completed)                 completed)              scheduled)
  completed
                                                                              (includes three FY         (includes one FY        (includes one FY
                                                                              2002 carryover             2003 carryover task)    2004 rescheduled
                                                                              tasks)                                             task)
  A
      FY 2005 data are final as of the third quarter.


Metric Description

Good human capital management is one of the key tenets of the Department’s transformation initiative.
The DoD Civilian Human Resources Strategic Plan is the roadmap that provides direction and outlines the
standards for achieving those transformational results. This plan links to agency mission and goals that cascade
throughout the Department; progress is measured quarterly.

The DoD uses as a measure the number of tasks scheduled to the number completed on a quarterly and
annual basis. A successful rating requires completing 80 percent of scheduled tasks annually. To provide more
qualitative information about the overall effect of annual activities, the DoD is replacing task-dependent output
measures with task-dependent outcome measures.




                                                                             88
                                                                                               DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

As of the third quarter, 12 of the 20 activities were completed. The Department expects to complete the
remaining eight activities in the fourth quarter. The Civilian Human Resources Strategic Plan is being revised
for FY 2006. The focus will be on analysis of DoD components’ performance against specific metrics and
standards than the current activity-based strategic plan.


                                                        Metric 1.4.3: Civilian Recruiting Cycle Time
       End-State Metric              FY 2001            FY 2002            FY 2003                     FY 2004                  FY2005A
  Trend data to monitor             No historical data; new          •	 Draft Performance     •	 Issue reporting         •	 Collected and
  the number of days                metric                              Measures                 requirements for           validated data
  appropriated fund                                                  •	 Benchmark with           measure                 •	 Began to
  positions are vacant.                                                 Fortune 500           •	 Integrate Office           characterize results
                                                                                                 of Personnel            •	 Metrics will be
                                                                                                 Management reporting       applied to the data in
                                                                                                 requirements into          the fourth quarter
                                                                                                 the DoD reporting
                                                                                                 requirements.
  A
      FY 2005 data are final as of the third quarter.


Metric Description

This measure provides a standard metric and data collection method for evaluating the efficiency of civilian
recruiting cycle time across the Department. It is linked to the Strategic Management of Human Capital
initiative of the President’s Management Agenda and benchmarked to the “time to fill” metric used by Fortune
500 companies. Once data is collected, the Department will be able to determine the average number of days
from the date the position became vacant to the effective date of the placement action.

In 2004, the Office of Personnel Management (OPM) imposed a new requirement to report on its 45-day
hiring model. The OPM model tracks the number of working days from the date the vacancy announcement
closed to the date the job offer was made. Since the OPM 45-day hiring requirement is a subset of the DoD
“Time to Fill Metric,” the DoD plans to combine the DoD and OPM requirements into a single reporting
requirement.

Performance Results for FY 2005

As of the third quarter, 71 percent of the Requests for Personnel Action were completed within 90 days from
the initiation date to the effective date. Additionally, 12 percent were completed within 120 days, while the
remaining 17 percent were completed 120-plus days.




                                                                            89
                                                                                                   DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information


                                                          Metric 1.4.4: Identify Future Critical Skills
        End-state Metric             FY 2001             FY 2002             FY 2003                       FY 2004                      FY 2005A
  Outcome goals that               No historical data; new            •	 Established              •	 Agreed to common           Services reported
  establish standards for          metric                                common definitions          definition of critical     metrics on skills most
  emerging critical skills                                               of critical fill needs      skills                     critical to recruiting and
                                                                      •	 Considered               •	 Identified most critical   retention
                                                                         alternative metric          needs for recruitment
                                                                         development                 and retention
  A
      FY 2005 data are final as of the fourth quarter.


Metric Description

The DoD needs to identify skills critical to future forces, with enough lead-time to ensure that there are trained
and ready Service members with these skills when needed. The skill/experience combinations deemed critical
will vary from Service to Service. The DoD needs to understand fully what makes these skill/experience
combinations so important to assess adequately the capability to identify, recruit, train, retain, and sustain
Service members in these skills.

Ongoing Research

The DoD developed a metric for “critical skills” to provide a comprehensive list of the most common critical
skills across the Department. The next step is to review the Services’ transformation programs and the
Department’s vision of military strategy and responsibilities for the next 25 years. Specifically, the DoD will
address what skills are required to support this future strategy and which of those skills will be catalogued as
“critical” (e.g., foreign area specialists, information operators, space experts) based on the criteria established
in the study. The follow-on questions are many such as: How will personnel be recruited in these skills?
What programs will be required – current programs, special incentives, and lateral entry? Is the training base
adequately resourced with experienced personnel to provide entry level and advanced training? What retention
incentives are going to be required to retain them? What jobs and education are required to provide for a viable
and rewarding career path?

Performance Results for FY 2005

During the first quarter, the DoD completed the metrics for the retention portion of critical skills. However,
the funding for the next step has not approved, so further action has been delayed.




                                                                               90
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information


                                      Metric 1.4.5: Implement New Reserve Component Management Paradigm
       End-state Metric              FY 2001            FY 2002          FY 2003                    FY 2004                    FY 2005A
  A new baseline for                No historical data; new       •	 Established goals     •	 Introduced legislative    •	 Certain legislative
  managing Reserve                  metric                           such as promoting        proposals                    proposals approved
  component forces                                                   volunteerism          •	 Introduced linguist          in National Defense
                                                                     and reachback            program                      Authorization Act
                                                                     capabilities                                       •	 Continued to
                                                                  •	 Employed five                                         identify potential
                                                                     initiatives geared                                    quantitative and/or
                                                                     to support creating                                   qualitative metrics
                                                                     a seamless flow                                       for implementation
                                                                     between Active                                     •	 Initiated / expanded
                                                                     and Reserve                                           various pilot
                                                                     components                                            programs
  A
      FY 2005 data are final as of the third quarter.


Metric Description

A December 2002 review of the use of Reserve component forces proposed a concept of “continuum of
service” that would allow a Reservist who normally trains 38 days per year to volunteer to move to full-
time service for a period of time or some increased level of service between full-time and his or her normal
Reserve component commitment, without abandoning civilian life. Similarly, an Active duty Service member
could request transfer into the Reserve component for a period of time, or some status in between, without
jeopardizing his or her full-time career and opportunity for promotion. Military retirees with hard-to-find
skills could return on a flexible basis and create opportunities for others with specialized skills to serve. Some of
the review’s recommended initiatives will require legislative, policy, or regulatory changes and may take several
years to implement.

The DoD’s efforts are geared to support (1) creating a seamless flow between Active and Reserve components
forces, (2) encouraging volunteerism and establishing new affiliation programs, (3) simplifying rules for
accessing, employing, and separating Reserve component personnel, (4) increasing flexibility of the Reserve
component compensation system, and (5) enhancing combined Active and Reserve component career
development.

The DoD has not settled on a means of measuring the success of this new concept. Possible ways to measure
this metric are (1) establishing specific measures for each approved and initiated program, (2) compiling results
of each specific program evaluation into a single comprehensive measure, and (3) percentage of legislative
proposals approved. Efforts to determine valid, useful performance measures will continue as the DoD moves
forward with these multiple initiatives.




                                                                           91
                                                                                                   DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

Numerous efforts have been either newly initiated or expanded from last year. The direct accession/lateral
entry program has been evaluated via a report to Congress and is being considered for expansion in certain
areas; the civilian employment information effort has been implemented, to include gathering information and
population of a database in accordance with specific quantitative goals.

Regarding legislation, about 80 percent of proposed legislative changes have been approved and incorporated
into the FY 2005 National Defense Authorization Act, including:

•	 Elimination of the “180-day” rule; creation of the “operational support” accounting category,
•	 Enhanced bonuses for language skills, and
•	 Changed “purpose” of the Reserve components.


                                                        Metric 1.4.6: Meeting Civilian Critical Fill Goals
              Metric                 FY 2001            FY 2002               FY 2003                        FY 2004                FY2005A
  Number of critical                No historical data; new            •	 Reviewed                Analyzed data at the       Explore automated
  positions encumbered              metric                                previously              DoD and component          alternatives for
  as compared to number                                                   identified DoD          level                      collection of authorized
  of critical positions                                                   critical positions,                                data
  authorized equals                                                       by core mission
  percentage                                                              and critical support
                                                                          occupations
                                                                       •	 Issued reporting
                                                                          requirements
  A
      FY 2005 data are final as of the third quarter.


Metric Description

This measure monitors the fill rate of critical positions by core mission occupations and critical support
occupations. Core mission occupations, supported by critical support occupations, are an indicator of the
Department’s ability to accomplish its mission over the long term. Fill rate is an integral part of human capital
management. As early as 1999, the U.S. Government Accountability Office asked the DoD to list core mission
and critical support occupations. The DoD subsequently surveyed the Military Departments and Defense
Agencies and identified 13 core mission occupations and 23 critical support occupations. The DoD is working
with the Defense Manpower Data Center to develop a system to account accurately for manpower data.

Performance Results for FY 2005

Based on the metrics implemented in the third quarter of FY 2005, the overall fill rate for core mission
occupations was 108.8 percent and critical support occupations was 108.1 percent. Next year, the DoD will
refine this metric.



                                                                                92
                                                                                              DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information


                                               Metric 1.4.7: Military Human Resources Strategic Plan
                                              FY 2001               FY 2002              FY 2003               FY 2004               FY 2005
                 Metric                        Actual                Actual               Actual            Target/ Actual        Target/ActualB
 Percentage of scheduled tasks           No historical data;                    1                     7     8/8 (80%/100%)A               9/5 (56%)
 completed                               new metric
 A
     In 2002, 25 funded or in-house studies were programmed to be completed by the end of FY 2005. However, in 2003, this metric was changed to
      be consistent with the Civilian Human Resource Strategic Plan metric. Beginning with FY 2004, the measure is the percentage of tasks (funded
      or in-house) scheduled for completion that the DoD completed during the fiscal year.
 B
     FY 2005 data are final as of the third quarter.


Metric Description

This metric compares the number of tasks scheduled for completion under the Military Human Resources
Plan with those actually completed. If 80 percent of tasks are completed, the result is considered “on track” to
achieving plan goals. Beginning in FY 2004, the percentage target will be calculated by dividing the number of
projects completed in a fiscal year by the number scheduled to be completed that fiscal year. Tasks are removed
from the plan as they are completed.

The Military Human Resources Strategic Plan has six main goals:

•	 Increase the willingness of the American public to recommend military service to youth,
•	 Recruit the right number of quality people,
•	 Develop, sustain, and retain the force,
•	 Seamlessly transition members to and from Active and Reserve status,
•	 Develop a flexible, integrated human resources management information system, and
•	 Sustain continuous human resources process improvement.

Each goal has subordinate objectives and actions. As studies of new ideas or proposals are completed, one of
four actions is taken (1) the idea is abandoned (typically, because it is ineffective or inefficient), (2) legislation is
requested to implement the idea, (3) the idea is implemented and applicable metrics established, or (4) the idea
scheduled for further study.

This plan establishes the legislative and policy priorities for the next several years, such as:

•	 Accessing enlisted personnel with the right level of education and aptitude,
•	 Ensuring the force is manned with the right number of military members and in the appropriate skills, and
•	 Implementing a demonstration program evaluating various personnel management policies and programs
   for extending careers, such as, an “up-and-stay” policy (versus “up-or-out”) for certain high-investment
   specialties.




                                                                          93
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

By the end of the third quarter, the DoD had completed five of nine scheduled studies and plans to complete
all nine by the end of the year. The completed studies (1) developed a critical skills metric for retention, (2)
evaluated the utility and availability of non-monetary incentives to support retention efforts, (3) evaluated an
indefinite reenlistment option, and (4) developed policies and programs to facilitate the seamless transfer of
members from the Active to the Reserve component and vice-versa.


                                                    Metric 1.4.8: Optimal Officer Career Patterns
         End-state Metric             FY 2001        FY 2002            FY 2003                     FY 2004                    FY 2005A
  Percentage of officers on          No historical data; new     •	 Phase I of RAND         Published Phase I report     Complete Phase II
  optimal career path for            metric                         study complete                                       draft report
  retention                                                      •	 Started Phase II
  A
      FY 2005 data are estimated as of the fourth quarter.


Metric Description

The Military Personnel Human Resources Strategic Plan requires Military Personnel Policy to “conduct studies
on officer career and promotion management that will extend time in job and service tenure.” The DoD
commissioned a study to assess management and policy implications of potential changes in officer career
management. Legislative action will be required to implement such changes. RAND is conducting a study to
develop alternative management processes, plans, and policies that consider:

•	 The cap on officer career lengths,
•	 The feasibility and advisability of longer assignments,
•	 The effects of different grade and position tenures on retention or performance,
•	 Past officer assignment length patterns,
•	 Patterns of promotion and career tenure,
•	 Existing system dynamics military manpower models to reflect selected changes to current officer
   management,
•	 The implications of selected changes to policy for officers’ career paths, and
•	 The need for different or additional compensation and incentives to support any changes in existing
   personnel practices.




                                                                         94
                                                                                      DoD Performance & Accountability Report FY2005
           ..............................................................................................Part 2: Performance Information

Phase I addressed General and Flag Officer careers; Phase II is addressing careers of officers in the grade of
colonel and below. After Phase II is complete, the DoD will develop an implementation plan with appropriate
metrics that may depend on legislative and policy changes.

The Phase I report was published in January 2004. The Phase II study began at the end of FY 2003; the final
report, “Future Officer Force Modeling and Analysis,” was expected by the end FY 2005. As appropriate, policy
or legislative changes will be compiled in FYs 2006 and 2007, and metrics developed in FY 2007. The timeline
has slipped because the scope of the project was increased to include Air Force and Marine communities, in
addition to Army and Navy communities. The scope was expanded to investigate the effects of competency-
based management on career patterns.

Performance Results for FY 2005

Two Phase II communities have been modeled in FY 2005: (1) Air Force Space and Missile and (2) Marine
Corps officers. Progress reports were completed in January and May 2005. The Phase II draft report is
scheduled for completion in early FY 2006.




                                                                  95
                                                                                                DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

                        Strategic Goal 2: Balancing Operational Risk – achieve and
                                     maintain operational superiority.


Performance Goal 2.1 – Maintain Force Readiness (Are Our Forces Currently Ready?)

                                                             Metric 2.1.1: Adaptive Planning
         End-state Metric             FY 2001       FY 2002           FY 2003                  FY 2004                       FY 2005A
  Percentage of deliberate            No historical data; new     Tested prototype     Approved adaptive        •	 Adaptive planning used on select
  and crisis plans networked          metric                      of adaptive          planning concept            plans in Contingency Planning
  as “living plans” in a                                          planning tool        and matured                 Guidance
  collaborative joint command                                                          operational              •	 Adaptive planning used to
  and control environment                                                              prototype                   develop three deliberate
                                                                                                                   warplans
                                                                                                                •	 Roadmap written, staffed and
                                                                                                                   approved for implementation
                                                                                                                •	 Initiation phase started
                                                                                                                •	 Volume 1 of guidance rewritten
                                                                                                                   and distributed for planner level
                                                                                                                   staffing with Adaptive Planning
                                                                                                                   concept incorporated
  A
      FY 2005 data are estimated as of the fourth quarter.


Metric Description

As a result of a Combatant Commander’s conference, the Secretary of Defense directed the Chairman of the
Joint Chiefs of Staff to develop a new system to replace existing deliberate and crisis planning methods. The
goal is to produce plans that are more timely, adaptive, and responsive to the current security environment,
providing relevant options to the President and Secretary of Defense. The long-term goal is to have a
networked capability to produce plans on demand via the Global Information Grid by 2008.

Adaptive planning will be implemented in three phases. The initiation phase (now through FY 2006) will
deploy new tools and exercise portions of the adaptive planning construct on select priority plans. The
implementation phase (FYs 2006 - 2008) will produce electronic plans for all contingencies in a collaborative
joint command and control environment. The integration phase (beyond FY 2008) will produce and
continually update “living” plans in a collaborative environment.

The Chairman established an implementation working group to provide direction to adaptive planning
activities, actions, and procedures. The DoD continues to test and refine the web-based Collaborative Force
Analysis, Sustainment and Transportation tool to build campaign plans. This tool provides a portal-accessible
family of 30-plus web-enabled applications in an operational planning environment. Additional tools also are
under consideration. Adaptive Planning efforts continue to be synchronized with numerous other Department
transformational initiatives.




                                                                           96
                                                                                                   DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

The DoD prepared an Adaptive Planning Roadmap.


                                                              Metric 2.1.2: Analytic Baselines
          End-state Metric                 FY 2001            FY 2002                FY 2003                   FY 2004                  FY 2005A
  Number and quality of analytic         No historical data; new metric        Developed two            Developed two              Developed/updated
  baselines used to support the                                                future baselines         current and two            two current and
  Quadrennial Defense Review                                                                            future baselines           three future-year
  and other major Department                                                                                                       analytic baselines
  studies
  A
      FY 2005 data are estimated as of the fourth quarter.


Metric Description

The Secretary of Defense directed that the DoD create a foundation for strategic analyses that relied on
common scenarios and data. These analytic baselines are intended to help provide senior staff with responsive
and analytically sound insights to help them make decisions on joint warfighting issues and policy. They
accomplish this by establishing common starting points (scenarios and data) for the Department’s major
studies: the current-year analytic baselines accelerate the deliberate planning process and are based on existing
Combatant Commander war planning efforts and concepts of operation; future-year analytic baselines are
used in analyses of alternatives and major studies such as the Mobility Capabilities Study. Department-wide
studies such as Operational Availability FY05 are often used to develop the analytic baselines. The Joint Staff is
currently conducting Operational Availability 2006 in support of the 2005 Quadrennial Defense Review.

Performance Results for FY 2005

As of the third quarter, two Combatant Commands developed and released current-year analytic baselines
and the Office of Program Analysis and Evaluation provided two updated and one new future-year analytic
baseline.


                                                         Metric 2.1.3: Operational Lessons Learned
         End-state Metric                FY 2001                     FY 2002                      FY 2003                FY 2004           FY 2005A
  Percentage of lessons-              No historical          Chairman of the Joint          Secretary of           Approved             Completed
  learned captured, analyzed,         data; new              Chiefs of Staff, released      Defense released       enhanced             Block 1
  and implemented to                  metric                 lessons learned                the DoD Training       Joint Lessons        projected
  improve joint warfighting                                  development concept            Transformation         Learned              outcomes
  capabilities.                                              to U.S. Joint Forces           Implementation         Program Study
                                                             Command                        Plan
  A
      FY 2005 data are final as of the fourth quarter.




                                                                               97
                                                                                              DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Metric Description

The Secretary of Defense and the Chairman of the Joint Chiefs of Staff highlighted the importance of an
effective joint lessons learned program in the Defense Planning Guidance. The strategic plan for transforming
the DoD training identifies the need to ensure that lessons learned are integrated into the development of new
training processes and systems. Lessons learned from operational missions must be systematically captured
and injected into the full range of preparatory and planning activities; ongoing experimentation; concept
development; doctrine; and joint tactics, techniques, and procedures development. The overall purpose of this
supporting action is to develop an enhanced and robust Joint Lessons Learned Program that encompasses the
range of joint activities, from Active and Reserve components, specifically related to operational missions.

The Joint Staff finalized lessons learned from Operation Iraqi Freedom and introduced the first five priority
lessons learned into the Joint Capabilities Integration and Development System. The Chairman directed the
U.S. Joint Forces Command to expand the lessons learned program by collecting and analyzing lessons learned
data collected by Combatant Commands, Services, and Defense Agencies.

Performance Results for FY 2005

The Joint Staff published a new “Joint Lessons Learned Program” that documents the Chairman’s policy
and guidance governing the program. It continued to fund the Joint Lessons Learned Specialists assigned to
the Joint Staff, selected Combatant Commands, and Services. These actions, combined with previous years’
activities will lay the groundwork for the design, documentation, and development of a common Joint Lessons
Learned Information System that will facilitate knowledge management of lessons learned in concert with
the Joint Training System, the Defense Readiness Reporting System, and Service systems through the Global
Information Grid.


                                            Metric 2.1.4: DoD Readiness Reporting System Implementation
       End-state Metric
       (New Baseline)               FY 2002              FY 2003           FY 2004                                 FY 2005A
  A new DoD-wide                  No historical      Awarded        •	 Reached initial         •	 Expanded force management query capabilities
  readiness reporting             data; new          development       operating                  with nascent business intelligence applications
  system                          metric             contract          capability              •	 Expanded scope of resource data
                                                                    •	 Conducted               •	 Joint Task Force assessment application
                                                                       technical capability       reached initial operating capability
                                                                       review                  •	 Published Serial 1 and 2 guidance governing
                                                                    •	 Provided an                identification of data sources, reporting
                                                                       operational version        processes, and transition from legacy reporting
                                                                                                  systems
  A
      FY 2005 data are final as of the fourth quarter.


Metric Description

The 2001 Quadrennial Defense Review directed the DoD to change fundamentally the way force readiness
issues are measured, reported, and resolved. The DoD Directive 7730.65, “DoD Readiness Reporting

                                                                         98
                                                                                             DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

System,” launched a series of important changes to policy and procedures to develop and field a new readiness
reporting and assessment system. When mature, this system will provide a capabilities-based, adaptive, near-
real-time readiness reporting system for all military units. Readiness will be assessed from the perspective of
the Combatant Commanders. This is important because Combatant Commanders describe their roles and
responsibilities in terms of mission essential tasks and assigned missions or core tasks first, and then assess their
ability to conduct these tasks. The system concept has been validated with a proof of concept demonstration;
a development team is now in the process of designing and fielding an enhanced version of the Department’s
decades-old Status of Resources and Training System, called the Enhanced Status of Resources and Training
System. The Under Secretary of Defense (Personnel and Readiness) is managing a comprehensive research
effort being conducted by two primary contractors. The system achieved initial operational capability by the
end of FY 2004; full operational capability is expected by the end of 2007.

Performance Results for FY 2005

In FY 2005, the project office released the first two issuances of system serial guidance outlining policies,
processes, and timelines for mission assessments, data integration, and transitions from existing or legacy
reporting systems. The project office identified feeds of more than 45 authoritative data sources throughout
the Department into the DoD Readiness Reporting System. These feeds contain detailed information on the
status of military personnel, equipment, supplies ordnance, and training, as well as organizational structure
and location information. In addition, FY 2005 marked the development of nascent business intelligence tools
that allows users to conduct analyses of underlying data. The project team also developed first-generation force
management applications that allow users to search for capabilities based on identifiers such as individual skill
codes or unit task reporting.


Performance Goal 2.2 - Ensure Superior Capabilities Exist to Succeed
(Are Our Forces Postured to Succeed?)

                                                         Metric 2.2.1: Global Force Management
                                                   FY
       End-state Metric           FY 2001                        FY 2003              FY 2004                          FY 2005A
                                                  2002
  Real-time operational           No historical data;        Developed           •	 Established         •	 Executed five Boards
  availability and risk           new metric                 Global Force           Force               •	 Global Force Management process
  assessment to guide                                        Management             Management             codified in guidance
  decisions on how                                           construct              Functional          •	 Integrate capabilities based
  to source joint force                                                             Capabilities           methodology with automated tools
  capabilities                                                                      Board               •	 Started conducting Capabilities
                                                                                 •	 Tested prototype       Based Assessment to determine
                                                                                    process to source      automated tools requirements
                                                                                    FY 2005-2006           needed to support
                                                                                    commitment          •	 Started developing Global Force
                                                                                                           Management data prototype to define
                                                                                                           business rules and demonstrate force
                                                                                                           structure data accessible and visible
                                                                                                           in a net-centric environment
  A
      FY 2005 data are final as of the fourth quarter.


                                                                            99
                                                                                              DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Metric Description

In 2003, the Secretary of Defense directed the Chairman of the Joint Chiefs of Staff to develop an integrated
force assignment, apportionment, and allocation methodology. The Secretary also directed the U.S. Joint
Forces Command to develop a means for monitoring joint force operational availability. In response, the
Department has initiated the Global Force Management process, designed to manage continuously the process
that provides forces to conduct operational missions (called “sourcing”) using analytically-based availability and
readiness management methodologies. This process provides comprehensive insight into U.S. force postures
worldwide, and accounts for ongoing operations and constantly changing unit availability. It leverages the
most responsive, best-positioned force at the time of need and forms the basis of a rotational force allocation
process that guides the allocating of Service forces that rotate into theater. Global Force Management also
provides senior decision makers the means to assess risk in terms of forces available to source Combatant
Commanders’ war plans, and predicts the likely stress on the force (i.e., personnel tempo) associated with
proposed allocation, assignment, and apportionment changes. Finally, to support the process with reliable,
accessible, and visible information, the Secretary also directed the Chairman to develop a joint hierarchical way
to organize force structure data for integration across Service lines. When mature, this metric will describe the
DoD’s ability to rapidly source joint force capabilities with the right units providing the right capabilities.

Several ongoing initiatives support of Global Force Management. The Joint Staff is leading the data initiative
to standardize and web-enable Service and Combatant Command force structure data, as a key enabler to
reliable, visible, and responsive global force availability information. This initiative is expected to achieve
initial operational capability by FY 2006. The U.S. Joint Forces Command is the primary joint force provider
and thus the single voice to source Combatant Command requirements. To assist, the Joint Staff is leading
a capabilities-based assessment to define the capabilities needed for global visibility as primary joint force
provider. A final initiative is the codification of the Global Force Management Board to establish the roles,
missions, and functions of this board that will support the process.

Performance Results for FY 2005

The Secretary of Defense approved the processes in the Global Force Management guidance in May. The DoD
also executed five Global Force Management Boards, which are Joint Staff-led study teams that support the
Global Force Management process.


                                                        Metric 2.2.2: Theater Security Cooperation
       End-state Metric             FY 2001        FY 2002               FY 2003                     FY 2004                   FY 2005A
  Annual assessment of             No historical data; new       •	 Initial security           •	 FY 2005 plans         •	 Review Security
  how theater security             metric                           cooperation guidance          completed                Cooperation
  cooperation plans are                                             developed and approved     •	 FY 2004 strategies       Guidance with
  contributing to the DoD                                        •	 Combatant Commands            successfully             new global war on
  strategic goals                                                   and Services developed        completed                terrorism focus
                                                                    strategies                                          •	 Combatant
                                                                                                                           Command/Service
                                                                                                                           plans completed
  A
      FY 2005 data are final as of the third quarter.

                                                                           100
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Metric Description

Recently, the Department initiated a comprehensive security cooperation strategy review that focused the
activities of Combatant Commands, the Services, and Defense Agencies on the common goals that need
to be achieved if the Department is to build the right defense partnerships with friends and allies. Security
cooperation embraces all Defense interactions with foreign defense establishments, and is the primary means
of building relationships that promote specific U.S. security interests. Security cooperation activities help
America’s allies develop military capabilities for self-defense and coalition operations. They also provide
information, intelligence, and peacetime access to enroute infrastructure and other access in the event of a
contingency. The title of this metric is being modified to reflect more accurately the metric’s intent.

The DoD is researching appropriate assessment metrics to determine effectiveness of the security cooperation
program, and evaluating the capabilities required for security cooperation. This analysis will shape an
associated Joint Operating Concept. Initial metrics are slated for completion during FY 2005, in time to be
used to develop the FY 2006 plans.

Performance Results for FY 2005

In FY 2005, the Security Cooperation Guidance was rewritten to focus on global war on terrorism themes
oriented around the National Defense Strategy framework (assure, dissuade, deter, defeat). Under this schema,
18 objectives are organized to encompass all the DoD efforts with foreign military organizations. The FY 2004
assessment inputs from Combatant Commands served to inform the latest draft of the Security Cooperation
Guidance and will inform the upcoming FY 2005 assessments. While all Combatant Commands, Services,
and selected Defense Agencies must produce Security Cooperation Strategies and Plans, only Geographic
Combatant Commands were required to submit assessments for FY 2005.


Performance Goal 2.3 – Align Forces Consistent with Strategic Priorities
(Are Our Forces Employed Consistently With Our Strategic Priorities?)

                                                           Metric 2.3.1: Joint Concepts
                                  FY 2001          FY
       End-state Metric                           2002          FY 2003                     FY 2004                          FY 2005A
  Number of concepts              No historical data;      Joint Operations        Joint Chiefs of Staff           •	 Last two of four Joint
  approved to link                new metric               Concepts construct      endorsed two of four Joint         Operating Concepts
  strategic guidance to                                    approved                Operating Concepts;                endorsed; Secretary of
  warfighting capabilities                                                         attributes of five functional      Defense approved all four
                                                                                   concepts approved               •	 Joint Chiefs of Staff
                                                                                                                      approved Capstone
                                                                                                                      Concept for Joint
                                                                                                                      Operations
  A
      FY 2005 data are final as of the fourth quarter.




                                                                        101
                                                                                       DoD Performance & Accountability Report FY2005
            ..............................................................................................Part 2: Performance Information

Metric Description

Joint concepts provide the operational context for the transformation of the armed forces by bridging the gap
between strategic guidance and the DoD’s resourcing strategy for capabilities. The Joint Operations Concepts
family consists of a Capstone Concept for Joint Operations, Joint Operating Concepts, Joint Functional
Concepts, and Joint Integrating Concepts.

The Capstone is the overarching concept that guides the development of future joint capabilities and leads
force development and employment, primarily by providing a broad description of how the future joint force
will operate across the range of military operations. It applies to operations around the globe conducted
unilaterally or in conjunction with multinational military partners and other government and non-government
agencies. It envisions military operations conducted within a national strategy that incorporates all instruments
of national power. The three joint concepts are interwoven and describe how a Joint Force Commander, 8 – 20
years in the future, is expected to manage various aspects of a Command.

The Joint Operations Concept prescribes operations within a military campaign, linking end states, objectives,
and effects. It identifies the broad capabilities considered essential for implementing the concept, including
Major Combat Operations, Homeland Security, Strategic Deterrence, and Stability Operations.

A Joint Functional Concept prescribes performance of a broad military function across the full range of military
operations. It identifies the capabilities required to support joint force operations and the attributes needed
to compare capability alternatives and measure achievement, including Force Application, Force Protection,
Focused Logistics, Force Management, Battlespace Awareness, Command and Control, Joint Training, and
Net-Centric.

A Joint Integrating Concept prescribes performance of a specific operation or function derived from an
operating or functional concept. These are narrowly scoped to identify, describe, and apply specific capabilities,
decomposing them into the fundamental tasks, conditions, and standards required to conduct a capabilities-
based assessment, and include Global Strike; Joint Logistics Distribution; Joint Command and Control;
Seabasing; Integrated Air and Missile Defense; Joint Undersea Superiority; Joint Forcible Entry Operations.

Performance Results for FY 2005

The Joint Staff issued revised guidance for the various concepts, based on input from stakeholders across the
Department. The Secretary approved all four Joint Operating Concepts.




                                                                   102
                                                                                                   DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information


                                                         Metric 2.3.2: Enhanced Planning Process
          End-state Metric
       (New Analytic Baseline)              FY 2001        FY 2002           FY 2003               FY 2004                            FY 2005A
   An annual assessment of                  No historical data; new metric                 •	 Enhanced Planning             The Enhanced Planning
  issues and alternatives for                                                                 Process chartered by          Process was not conducted
  providing the Department’s                                                                  Secretary of Defense          during FY 2005
  highest priority joint capabilities.                                                    •	 Resource guidance
                                                                                              captures results
  A
      FY 2005 data are final as of the fourth quarter.


Metric Description

For the first time in FY 2004, major planning and resource issues presented for decision to the Secretary
of Defense were formulated and assessed via the Enhanced Planning Process, an enhanced collaborative
joint planning process. By considering needs and costs simultaneously, the process enabled cost-effective
programmatic options for achieving the Department’s strategic policy objectives. The process underpins the
framework of an executable Joint Programming Guidance, which provides the shared planning and resource
assumptions used in the annual updates to the Defense program and budget.

Performance Results for FY 2005

An analytic baseline is being developed in concert with the Chairman of the Joint Chiefs of Staff and the
Under Secretary of Defense (Policy). This baseline will establish common planning assumptions to be used in
warfighting models, acquisition analysis, and other shared analysis tools.

The Enhanced Planning Process was not conducted during FY 2005.


Performance Goal 2.4 – Transition Forces Rapidly to Meet New Threats
(Do We Have the Right Forces Available?)

                                                           Metric 2.4.1: Operational Availability
      End-state Metric
      (New Baseline)              FY 2001        FY 2002       FY 2003                   FY 2004                                  FY 2005A
  Integrated data and             No historical data; new metric               •	 Tested prototype                   •	 Began Global Force Management
  management systems                                                              process for Global Force              prototype development
  that can be used to                                                             Management system                  •	 Updated all warfight analytical
  assess percentage of                                                         •	 Approved adaptive planning            baselines and built baseline
  force ready for specific                                                        concept and prototype                 security posture baseline
  joint tasks                                                                  •	 Developed two current              •	 Used baselines in the DoD
                                                                                  and two future analytic               capability assessments (e.g.,
                                                                                  baselines                             mobility capabilities study, and
                                                                                                                        aerial refueling)
  A
      FY 2005 data are estimated as of the fourth quarter.



                                                                               103
                                                                                       DoD Performance & Accountability Report FY2005
            ..............................................................................................Part 2: Performance Information

Metric Description

The DoD must prevent terrorists from doing harming America, its people, and its friends and allies. The DoD
must be able to rapidly transition military forces to post-hostilities operations, and identify and deter threats
to the United States, while standing ready to assist civil authorities in mitigating the consequences of a terrorist
attack or other catastrophic event. These diverse requirements will demand integration and leverage other
elements of national power, such as strengthened international alliances and partnerships.

To meet these new missions, and to hedge against an uncertain future, the DoD is developing a broader
portfolio of capabilities, and realigning forces using a building-block approach to match those capability
portfolios with mission goals. Among the most important are:

•	 Global Force Management. This initiative will provide a database and management system that can be used
   to monitor U.S. force postures worldwide. It will account for ongoing operations and constantly changing
   unit availability, and will allow the DoD to allocate the right force for specific missions, at the right place and
   time.
•	 Adaptive Planning. The DoD’s goal is to produce war and contingency plans that are more timely, adaptive,
   and responsive to the current security environment, thus providing relevant options to the President and
   Secretary of Defense. The Department plans to have a networked capability to produce plans on demand via
   the Global Information Grid by 2008.
•	 Analytic Baselines. To guide analysis for both the near- and far-term, the DoD is creating a set of common
   scenarios and data. These analytic baselines will underpin strategic assessments, and guide decisions on joint
   warfighting issues and policy.

Performance Results for FY 2005

The Strategic Planning Guidance directed the Chairman of the Joint Chiefs of Staff to develop a joint
hierarchical way to organize force structure data for integration across Service lines. The Global Force
Management data initiative defines how the DoD will electronically document force structure in a hierarchical
way and make data transparent and easily accessible to users in a net-centric environment. This initiative will
transform the Department by solving the data accuracy and standardization issues and is based on the premise
that everything relates to force structure. The DoD completed three analytical baselines and created a security
posture baseline. These documents were used in assessments of DoD’s mobility and aerial refueling capabilities.




                                                                   104
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

        Strategic Goal 3: Balancing Institutional Risk – Align the organization and its
                             resources to support the warfighter.

Performance Goal 3.1 - Improve the Readiness and Quality of Key Facilities

                                            Metric 3.1.1: Base Realignment and Closure (BRAC) in FY 2005
  End-state Metric
  (New Baseline)              FY 2001            FY 2002               FY 2003                   FY 2004                    FY 2005A
  A new DoD                BRAC cited           Legislative    •	 2005 BRAC                 •	 Final selection    •	 Presented final
  facility footprint       as a key             authority         authorized by the            criteria              recommendations to
                           element of           for BRAC          Secretary of Defense         established           independent Commission
                           the DoD              established    •	 Management                •	 Data                  and Congress (May 2005)
                           transformation                         structure and seven          collection and     •	 Commission provides
                                                                  joint cross-service          certification         its recommendation to
                                                                  groups established           begun                 President
                                                                                                                  •	 Congress reviews BRAC
                                                                                                                     recommendations
  A
      FY 2005 data are estimated as of the fourth quarter.


Metric Description

To shift defense planning from the “threat-based” model that had dominated thinking in the past to a
“capabilities-based” model for the future, the DoD persuaded Congress to grant authority in the FY 2002
National Defense Authorization Act for another Base Realignment and Closure (BRAC) process in 2005.

The BRAC 2005 guidance outlined the expectations and importance of reshaping the DoD’s infrastructure to
better support future force structure. It established two senior-level groups to manage and oversee the process,
provided for the analysis of common business-oriented functions separate from Service-unique functions, and
required specific functional recommendations to undergo joint analysis within 150 days.

An Infrastructure Executive Council, headed by the Deputy Secretary of Defense and including senior DoD
officials, provided policy and oversight. An Infrastructure Steering Group headed by the Under Secretary of
Defense (Acquisition, Technology and Logistics) oversaw joint analysis of common military functions and
ensured those efforts were coordinated with Service reviews of specific operations.

Each of the Military Departments and Joint Cross-Service Groups have established procedures and designated
appropriate personnel to certify that data and information collected for use in the BRAC 2005 analyses were
accurate and complete. These procedures were incorporated within the required internal control plans, and
consistent with the DoD certification procedures. Both were audited by the U.S. Government Accountability
Office and the DoD Office of Inspector General.




                                                                        105
                                                                                              DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

The Department met its milestones by providing the Congress with a revised Force Structure Plan in March
2005, analyzing more than 1,000 closure and realignment scenarios, and providing the Secretary with 222 final
closure and realignment recommendations. The BRAC Commission forwarded its closure and realignment
recommendations to the President on September 8, 2005. The President approved the recommendations and
forwarded them to the Congress on September 15, 2005. Upon receipt, the Congress has 45 legislative days to
vote down the Commission’s recommendations on an all-or-none basis; otherwise, they take on the force and
effect of law.

The Department’s process is well-documented. The DoD provided the Commission and Congress a 12-
volume report detailing its recommendations. The Department also established a section on the DoD’s
website (http://www.defenselink.mil/BRAC) containing the report volumes (with the exception of the classified
force structure volume) as well as all policies, deliberative meeting minutes, and raw data used to develop the
recommendations.


                                             Metric 3.1.2: Eliminate Inadequate Family Housing by 2007
                                                       FY 2001              FY 2002            FY 2003C            FY 2004C           FY 2005B, D
                     Metric                             Actual               Actual             Actual           Target/Actual        Projected
 Number of inadequate family housing units                   170,314             143,608             140,641      93,294/117,615               67,079
 Percentage of total family housing unitsA                        59                  53                  51                  48                    41
 A
     Targets are not established for the percentage of total family housing units.
 B
     Targets are based on Service military construction and family housing budget estimates for FY 2006.
 C
      Actual results are updated based on subsequent budget changes and progress in planned military construction projects, demolitions, and
      divestitures. Results generally are final after two budget cycles.
 D
     FY 2005 data are estimated as of the fourth quarter.


Metric Description

The DoD’s goal is to eliminate all inadequate family housing in the continental United States by the end
of FY 2007 (and by FY 2009 for overseas bases). In general, inadequate housing is any unit that requires a
major repair, component upgrade, component replacement, or total upgrade. Each Service has evaluated its
housing and identified inadequate units. Each Service has then developed a plan to eliminate this inadequate
housing through a combination of traditional military construction, operations and maintenance support, and
privatization. The plans are updated annually with the President’s Budget.

Performance Results for FY 2005

Through the end of the third quarter, approximately 22,000 inadequate units have been eliminated through
privatization. Final results for FY 2005 will not be available until the President’s Budget for FY 2007 is
submitted to Congress in February 2006.




                                                                          106
                                                                                            DoD Performance & Accountability Report FY2005
                ..............................................................................................Part 2: Performance Information


                                               Metric 3.1.3: Fund to a 67-year Recapitalization Rate
                                                      FY 2001             FY 2002            FY 2003            FY 2004A            FY 2005
                    Metrics                            Actual              Actual             Actual             Actual             ActualE
  Facilities Recapitalization Metric (years)                    192              101                149C               136D                 104
  Facilities Sustainment Model (percent)                    70%   B
                                                                                89%   B
                                                                                                    93%                 94%                95%
  A
      Three Defense Agencies (Defense Logistics Agency, DoD Education Activity, and TRICARE Medical Activity) included beginning in FY 2004, but
       excluded in previous years.
  B
      Estimated (the Facilities Sustainment Model was first fielded in FY 2003).
  C
      The FY 2003 data are as of the FY 2003 President’s Budget.
  D
      The FY 2004 data are as of the FY 2004 President’s Budget.
  E
      The FY 2005 data are as of the FY 2005 President’s Budget.


Metric Description

The facilities recapitalization metric measures the rate at which an inventory of facilities is being recapitalized.
The term “recapitalization” means to restore or modernize facilities. Recapitalization may (or may not) involve
total replacement of individual facilities; recapitalization often occurs incrementally over time without a
complete replacement.

The performance goal for recapitalization equals the average expected service life of the facilities inventory,
currently estimated at 67 years. The expected service life, in turn, is a function of facilities sustainment.
“Sustainment” means routine maintenance and repair necessary to achieve the expected service life. To
compute a normal expected service life, full sustainment levels must be assumed. A reduced expected service life
results from less than full sustainment. For this reason, the metrics for facilities recapitalization and facilities
sustainment are unavoidably linked and should be considered together.

Sustainment levels required to achieve a normal expected service life are benchmarked to commercial per unit
costs; for example, $1.94 per square foot annually is needed to properly sustain the aircraft maintenance hangar
inventory for a 50-year life cycle. The facilities sustainment model adjusts these costs to local areas and assigns
the costs to the DoD components and funding sources.

The recapitalization rate is compared to service life benchmarks for various types of facilities. For example, the
expected service life of a pier is 75 years, and the expected service life of a dental clinic is 50 years (provided the
facilities are fully sustained during that time). The average of all the expected service life benchmarks, weighted
by the value of the facilities represented by each benchmark, is 67 years. Weighting is required to normalize
the expected service life. For example, without weighting, 50 years is the expected service life of a hypothetical
inventory consisting of administrative buildings (75-year expected service life) and fences (25-year expected
service life). But fences are insignificant compared to administrative buildings—the DoD has $22 billion worth
of administrative buildings, but only $3 billion worth of fences and related structures—and should not have
equal weight. The expected service life of this hypothetical inventory of buildings and fences when weighted by
plant replacement value is 68 years, not 50 years.




                                                                        107
                                                                                       DoD Performance & Accountability Report FY2005
            ..............................................................................................Part 2: Performance Information

For evaluating planned performance, both metrics are converted to dollars (annual funding requirements) and
compared to funded programs. The sustainment rate can be measured through execution; the recapitalization
rate, which is primarily—but not exclusively—a function of multi-year military construction appropriations, is
not tracked for execution on an annual basis.

These metrics do not capture “actual” expenditures as the term “actual” is normally understood. For
recapitalization, there is no reporting process for determining the “actual” (i.e., executed) recapitalization rate in
a given year, and there is little reason to do so. Appropriations for military construction projects—which make
up the bulk of the recapitalization investment—are good for 5 years and are typically executed over more than
1 year. Additionally, Congressional adds, rescissions, reprogramming, and late project adjustments all alter the
“actual” recapitalization rate. There is no system yet to capture these changes at the DoD level, and an annual
rate of execution for military construction appropriations has little meaning.

For sustainment, a system is in place to capture the “actual” sustainment expenditure at the DoD component
level. That system has been refined since its inception in FY 2003, and the results have been made increasingly
reliable. Currently, a process is being implemented that will enable the Department to distinguish between
sustainment for facilities included in the budgeted DoD sustainment requirement and those that are not. This
essential distinction has been blurred by the war on terrorism and global repositioning which have skewed
execution results. The new process will allow for sustainment of facilities not captured in the sustainment
requirement to be accounted for independently of sustainment for facilities that are captured in the
requirement.

Performance Results for FY 2005

Achieving a 104-year recapitalization rate and a 95 percent sustainment rate show improvement from the
FY 2004 levels of a 136-year recapitalization rate and 94 percent for sustainment. In addition to the overall
improvement in performance results in FY 2005, efforts to improve the fidelity and accuracy of the tools and
metrics also continued. For example, the unit costs for sustainment, with specific emphasis on utilities systems,
were updated and refined using the best information available. In addition, an initiative to develop a more
robust model to upgrade the existing metric for facilities recapitalization was completed. When implemented,
the upgraded model will provide a more precise expected service life for each Defense component, as opposed
to the “one-size-fits-all” metric of 67 years. Efforts were also initiated to improve the accuracy of the model
by capturing the net effect of adding and eliminating capacity. Additionally, actions were initiated to expand
the facilities metrics to areas not currently included such as family housing, test and evaluation, and industrial
facilities.

While the tools and metrics are being refined continuously, there are still concerns that continuing to fall
short of the targets of a 67-year recapitalization rate and full sustainment results in less than a full service life
and reduced utility and performance of the Department’s facilities. As a result of not achieving a 67-year
recapitalization rate, for example, obsolescence in the facilities inventories increases. The cumulative and
compounding effect of these shortfalls is measured by the number of deteriorated, obsolete, or otherwise
inadequate facilities. The Department’s goal for sustainment remains full sustainment each year; a five percent




                                                                   108
                                                                                              DoD Performance & Accountability Report FY2005
                  ..............................................................................................Part 2: Performance Information

shortfall in programmed sustainment in FY 2005 cannot be offset with five percent overage in FY 2006.
Furthermore, the goal for recapitalization remains 67 years on average, even though past performance already
has reduced the service life of the facilities inventory. The direct effect of inadequate funding for sustainment
and recapitalization is reflected in an accelerated recapitalization rate that is required to restore readiness to
adequate levels by 2010.


                                                Metric 3.1.4: Restore Readiness of Key Facilities by 2010
      End-state Metric        FY 2001        FY 2002           FY 2003                     FY 2004                          FY 2005A
  Percentage of               No historical data; new     Chartered effort        •	 Implemented revised        •	 Initiated independent
  the DoD facilities          metric                      to standardize             condition reporting           verification and validation
  restored to a high                                      facility records           process                       study of new condition ratings
  state of military                                       and improve             •	 Began Installations        •	 Incorporated “Q” ratings into
  readiness                                               Installations              Readiness Report re-          the new Office of Management
                                                          Readiness Report           engineering                   and Budget-directed federal
                                                          summaries               •	 Conducted a special           real property requirements
                                                                                     study to determine         •	 Continued Installations
                                                                                     whether the FY 2010           Readiness Report re-
                                                                                     goal is still viable          engineering with creation of
                                                                                                                   multi-component integration
                                                                                                                   panel
  A
       FY 2005 data are final as of the fourth quarter.


Metric Description

This goal is to restore the readiness of existing facilities to at least C-2, on average, by the end of 2010
(C-2 is the DoD’s readiness rating defined as “some facility deficiencies with limited impact on capability to
perform missions”). In FY 2004, the Department initiated a two-pronged approach to refine the methodology
for evaluating and reporting the condition of the facilities inventory, which continued in FY 2005. First,
evaluation of the condition of facilities has been improved by adoption of the “Q” rating, a standardized
indicator of restoration and modernization requirements associated with an individual facility record in the
inventory. These ratings will allow consistent programmatic analysis of funding needs directly from the real
property inventory. In addition, the “Q” rating is consistent with new federal-wide reporting requirements
issued in FY 2005 by the Office of Management and Budget and the Federal Real Property Council. Second,
assessment of the impact of facility condition on unit readiness is being enhanced through integration of
facilities directly into the larger Defense Readiness Reporting System, in which facilities will be considered as
resources, just as personnel and equipment are currently viewed.

Defense components are now implementing the revised condition reporting methodology (“Q” ratings) for
their facilities portfolios (consisting of more than 500,000 individual facility records). The rate of completion
is not equal across all Defense components, however, at the end of FY 2006 the Department should have
complete ratings for all seven of the largest Defense components. As part of this process, an independent
verification and validation of the “Q” ratings project was launched in FY 2005 and will be complete in
FY 2006.



                                                                          109
                                                                                            DoD Performance & Accountability Report FY2005
                ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

During FY 2005, the Department:

•	 Completed condition ratings (“Q” ratings) for a large portion of the facilities inventory including Army, Air
   Force, Defense Logistics Agency, and the DoD Education Activity,
•	 Initiated a study to validate and verify the new condition rating (“Q” rating) across the DoD,
•	 Developed definitions for mission dependency index ratings consistent with Federal Real Property Council
   guidance, and
•	 Established a multi-component/multi-functional working group to oversee the integration of facilities into
   the Defense Readiness Reporting System. This group has developed a viable working concept and is crossing
   traditional “stovepipe” organizations.


Performance Goal 3.2 - Manage Overhead and Indirect Costs

                                     Metric 3.2.1: Reduce Percentage of DoD Budget Spent on Infrastructure
                                                  FY 2001              FY 2002              FY 2003            FY 2004            FY 2005A
                   Metric                          Actual               Actual               Actual          Target/Actual        Projected
  Percentage of DoD budget spent on
                                                            46                   44                   42              41/42                   42
  infrastructure
  A
      This is a lagged indicator. Projections based on the FY 2006 President’s Budget Future Years Defense Program.


Metric Description

The share of the Defense budget devoted to infrastructure is one of the principal measures the Department
uses to gauge progress toward achieving its infrastructure reduction goals. A downward trend in this metric
indicates that the balance is shifting toward less infrastructure and more mission programs. In tracking annual
resource allocations, the DoD uses mission and infrastructure definitions that support macro-level comparisons
of the DoD resources. These definitions are consistent with the Goldwater-Nichols Department of Defense
Reorganization Act of 1986, which requires assignment of combat units and their support to the Combatant
Commanders and that the Military Departments retain the activities that create and sustain those forces.
This feature of U.S. law provides the demarcation line between forces (military units assigned to Combatant
Commanders) and infrastructure (activities retained by the Military Departments). In addition to more
precisely distinguishing forces from infrastructure, the force and infrastructure subcategories have been updated
and streamlined to reflect current operational concepts.

Performance Results for FY 2004

The DoD allocated approximately 42 percent of total obligational authority to infrastructure activities in FY
2004, about the same as the preceding year. The Department continues to maintain its allocation of resources
to forces fighting the global war on terrorism and meeting other operational requirements. Infrastructure
requirements have decreased due to reform initiatives, including savings from previous base realignment and

                                                                         110
                                                                                              DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

closure rounds, strategic and competitive sourcing initiatives, and privatization and reengineering efforts. The
DoD expects infrastructure expenditures to continue to decrease as a share of the Defense budget in FY 2005
and FY 2006.


                                           Metric 3.2.2: Link Defense Resources to Key Performance Goals
         End-state Metric              FY 2001          FY 2002        FY 2003              FY 2004                          FY 2005A
  Common resource data                No historical data; new metric                  Developed draft data      Establish a more flexible lexicon
  lexicon                                                                             framework and common      that supports various types of
                                                                                      business rules            reporting and analysis
  A
      The FY 2005 data are estimated as of the fourth quarter


Metric Description

In FY 2003, the DoD opened a program office to combine or align program and budget databases that
previously had been managed separately. In FY 2006, DoD will complete a review of almost 4,000 areas
within the Department’s program and budget data structure to ensure that the common resource management
database:

•	 More directly aligns with Congressional and other external reporting requirements,
•	 Better supports internal business and policy decisions by allowing an overlay of issue taxonomies that support
   strategy development and reviews, and
•	 More easily manages data structures and improves the DoD’s ability to validate data.

Performance Results for FY 2005

Preliminary findings show that today’s new strategic approach is merging and blurring the traditional lines
between “tooth” (deployable operational units) and “tail” (non-deploying units and central support). When the
study is complete, the DoD will have a more flexible analysis interface with defense data, allowing it to build
alternative ways of mapping the programming data structure and making it easier to crosswalk performance
results to resource investments. In FY 2005, the DoD continued to develop standard definitions and business
rules through several sub-initiatives to expand efforts to define categories and sub-categories within the
framework.


Performance Goal 3.3 - Realign Support to the Warfighter

                                                    Metric 3.3.1: Reduce Customer Wait Time (Days)
                                                   FY 2001             FY 2002              FY 2003            FY 2004              FY 2005
                  Metric                            Actual              Actual               Actual          Target/Actual       Target/ActualA
  Customer wait time (in days)                               18                  16                   19             15/23                  15/21
  A
      FY 2005 data are final as of the third quarter.



                                                                          111
                                                                                               DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information



Metric Description

Customer wait time measures the elapsed time from order to receipt when a customer orders an item of
material. The customer’s order may be filled from assets on hand at the customer’s military installation or naval
vessel, or through the DoD wholesale logistics system. For purposes of this enterprise-level metric, customer
wait time includes orders for spare and repair parts ordered by organizational maintenance activities. Customer
wait time- captured orders considered below enterprise level are maintained by each of the Military Services
and the Defense Logistics Agency.

Performance Results for FY 2005

Through the third quarter, the DoD experienced an average customer wait time of 21 days. The DoD did
not meet its FY 2004 goal of 15 days because of the increase in demand for critical items and delays in closing
out transactions due primarily to Operation Iraqi Freedom. The DoD does not expect to achieve significant
reduction in customer wait time until the conclusion of Operation Iraqi Freedom.


                        Metric 3.3.2: Reduce Major Defense Acquisition Program Annual Rate of Acquisition Cost Growth
                                               FY 2001              FY 2002                FY 2003               FY 2004                FY 2005
                  Metric                        Actual               Actual                 Actual                Actual             Target/ActualB
  Percentage/annual growth in                                                                                                               0% cost
  acquisition costs                                  +13.9A                 +6.4                   +5.0             0%/+3.5%            growth/to be
                                                                                                                                         determined
  A
      The December Selected Acquisition Report, which reflects the President’s Budget, is used for calculating acquisition cost growth. There were no
       December 2000 reports, because a Future Years Defense Program was not included in the FY 2002 President’s Budget submit. Thus, the FY
       2001 actual reflects acquisition cost growth for a 2-year period (FY 2000 and FY 2001)
  B
      Results for FY 2005 will be available with the release of the December 2005 Selected Acquisition Reports in April 2006.


Metric Description

Acquisition cost growth measures the amount that acquisition costs grow from year to year. It is computed
by taking the difference between the acquisition costs in the current and previous years’ President’s Budget,
divided by the acquisition costs for the previous-year President’s Budget, expressed as a percentage. A dollar-
weighted average is calculated for the common major Defense acquisition programs and adjusted for changes in
quantity or inflation. Acquisition cost growth can occur for various reasons, including technical risk, schedule
slips, programmatic changes, or overly optimistic cost estimates. The Department’s reform initiatives seek
to reduce cost growth from all sources, providing an output target for procurement managers of individual
systems, as well as for the aggregate procurement programs of the individual Services. The objective is to be on
a downward trend toward an ultimate goal of no (zero percent) acquisition cost growth. Managerial responses
are expected to include both specific cost-control initiatives and process changes.

Performance Results for FY 2005

FY 2005 results will not be available until the release of the December 2005 Selected Acquisition Reports in
                                                                          112
                                                                                               DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

April 2006.
                                 Metric 3.3.3: Reduce Major Defense Acquisition Program Acquisition Cycle Time
                   Metric                         FY 2001              FY 2002              FY 2003            FY 2004               FY 2005
                  (months)                         Actual               Actual               Actual          Target/Actual        Target/ActualA
  Acquisition cycle time in months (for
                                                                                                                                         <99/to be
  new starts from FY 1992 through FY                       102                   103               102             <99/101
                                                                                                                                        determined
  2001)
  Acquisition cycle time in months (for                                                                                                  <66/to be
                                                           N/A                   N/A                   76            <66/80
  new starts after FY 2001)                                                                                                             determined
  A
      Results for FY 2005 will be available with the release of the December 2005 Selected Acquisition Reports in April 2006.


Metric Description

Acquisition cycle time is the elapsed time, in months, from program initiation—when the Department makes
a commitment to develop and produce a weapon system—until the system attains initial operational capability.
This metric measures the average cycle time across all major Defense acquisition programs. During the 1960s,
a typical Defense acquisition took 7 years (84 months) to complete. By 1996, a similar acquisition required 11
years (132 months) from program start to initial operational capability. To reverse this trend, the Department
established an objective to reduce the average acquisition cycle time for programs started since 1992 to less
than 99 months, a reduction of 25 percent. The DoD achieved that initial objective through rapid acquisition
with demonstrated technology, time-phased requirements and evolutionary development, and integrated test
and evaluation. To continue that improvement, the Department will seek to reduce the average cycle time to
less than 66 months by introducing improvements to development and production schedules similar to those
it initiated for managing system performance and cost. Rapid development and fielding of weapon systems—
leveraging new technologies faster—will enable U.S. forces to stay ahead of potential adversaries.

Performance Results for FY 2005

FY 2005 results will not be available until the release of the December 2005 Selected Acquisition Reports in
April of 2006.


                          Metric 3.3.4: Reduce Major Defense Acquisition Program Operating and Support Cost Growth
                                                                                                              FY 2004                FY 2005
              Metric                   FY 2001           FY 2002                   FY 2003A                 Target/Actual         Target/ActualA
  Percentage of annual               No historical data; new metric      Established metric baseline        0%/+2.3%            0%/Not available
  operating and support cost                                             from which to measure
  growth                                                                 growth
  A
      Results for FY 2005 will be available with the release of the December 2005 Selected Acquisition Reports in April 2006.


Metric Description

This metric measures the amount that operating and support costs grow from year to year. It is computed
by taking the difference between the total operating and support cost estimates reported in the current year’s

                                                                           113
                                                                                             DoD Performance & Accountability Report FY2005
               ..............................................................................................Part 2: Performance Information

Selected Acquisition Report against the previous year’s report, then dividing by the total operating and support
cost estimates reported in the previous year’s report, expressed as a percentage. A dollar-weighted average is
calculated for the common programs. Estimated operating and support cost growth can occur for various
reasons, including technical or programmatic changes, changes in the support strategy/concept, or overly
optimistic cost estimates. The objective is no (zero percent) operating and support cost growth. Managerial
responses are expected to include both specific cost-control initiatives and process changes.

Performance Results for FY 2005

FY 2005 results will not be available until the release of the December 2005 Selected Acquisition Reports in
April 2006.


Performance Goal 3.4 - Streamline the Decision Process, Improve Financial
Management, and Drive Acquisition Excellence

                                             Metric 3.4.1: Support Acquisition Excellence Goals
        Metric
   (Excellence Goal)         FY 2001        FY 2002         FY 2003                FY 2004                              FY 2005A
  Acquisition               Progress demonstrated via the following DoD scorecard metrics:           Conduct quarterly capabilities-based reviews
  Excellence with           major Defense acquisition program cycle time, acquisition cost           and continue evolutionary acquisition and
  Integrity                 growth, and operations and sustainment cost growth                       spiral development efforts to push systems
                                                                                                     to the warfighter faster
  Logistics: Integrated     Progress demonstrated via the following DoD scorecard metric:            Continue FY 2004 initiatives and develop
  and Efficient             Customer Wait Time                                                       budget to support performance-based
                                                                                                     logistics
  Systems Integration       No historical data for FY 2001-2002;              •	 Established         •	 Continue efforts to lead development of
  and Engineering for       established goal but did not measure data            senior-level           systems views of integrated architectures
  Mission Success           for FY 2003                                          forum                  and integrated plans and/or roadmaps
                                                                              •	 Established         •	 Foster interoperability, jointness, and
                                                                                 systems                coalition capabilities
                                                                                 engineering         •	 Improve the systems engineering
                                                                                 framework and          environment
                                                                                 formal plan         •	 Provide effective systems engineering
                                                                              •	 Developed three        policies, practices, and tools
                                                                                 continuous
                                                                                 learning courses
  Technology                No historical data for FY 2001-2002. Progress FY 2003 to present         •	 Defense Technology Objectives results
  Dominance                 demonstrated via the following DoD scorecard metrics: Balanced              will be assessed in Technology Area
                            and Focused Science and Technology and Status of Defense                    Review and Assessment reviews during
                            Technology Objectives                                                       FY 2006
                                                                                                     •	 The balance between funding levels in the
                                                                                                        three activities is sufficiently close to the
                                                                                                        DoD goals




                                                                        114
                                                                                                   DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information


                                                  Metric 3.4.1: Support Acquisition Excellence Goals
           Metric
      (Excellence Goal)          FY 2001         FY 2002        FY 2003                 FY 2004                              FY 2005A
  Resources                     No historical data for FY 2001-2002. Progress FY 2003 to present           •	 Presented final recommendations to
  Rationalized                  demonstrated via the following DoD scorecard metric: Base                     independent Commission and Congress
                                Realignment and Closure 2005                                                  (May 2005)
                                                                                                           •	 Commission provides its recommendation
                                                                                                              to President
                                                                                                           •	 Congress reviews BRAC
                                                                                                              recommendations
  Industrial Base               No historical data for FY 2001-2002. In FY         •	 IIdentified          •	 Evaluated industrial sufficiency for key
  Strengthened                  2003, increased competition by relieving              industrial              capabilities
                                contractors from covering government                  base issues in       •	 Accessed emerging suppliers for
                                shortfalls in research and development                battle space            innovative solutions
                                                                                      awareness and        •	 Established organizational cross-feed
                                                                                      command and             mechanisms for major industrial base
                                                                                      control                 assessment
                                                                                   •	 Published
                                                                                      roadmap for
                                                                                      transforming the
                                                                                      industrial base
  Motivated, Agile              No historical data for FY 2001-2002. In            Created a transition    •	 Released draft National Security
  Workforce                     FY 2003, supported Civilian Acquisition              plan to move             Personnel System to Federal Register for
                                Workforce Personnel Demonstration                    from AcqDemo             comment
                                (AcqDemo) Project                                    to best practices     •	 Began transition of AcqDemo participants
                                                                                     and the National         into the system
                                                                                     Security
                                                                                     Personnel
                                                                                     System
  A
      The FY 2005 data are estimated as of the third quarter.


Metric Description

The focus of the Department in the area of acquisition, technology and logistics has changed from one
of “reform” to “excellence.” “Excellence” stresses making the current system function better, and then
institutionalizing the improved process. The Under Secretary of Defense (Acquisition, Technology, and
Logistics) faces many challenges in identifying, retailoring, and institutionalizing the system’s strengths to
perform better.




                                                                             115
                                                                                       DoD Performance & Accountability Report FY2005
            ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

•	 Acquisition Excellence with Integrity. The long-term objective is to shorten the system acquisition cycle
   by using evolutionary acquisition and spiral development, maximizing the use of mature and commercial
   technology, and expanding the use of technology demonstrations. At the same time, the DoD is working to
   increase the accuracy and credibility of cost estimates and thus fund all major Defense acquisition programs
   at the cost analysis improvement group estimate, if appropriate.

•	 Logistics: Integrated and Efficient. The Department is striving for integrated and efficient logistics and will
   adopt initiatives that reduce logistics handoffs and ensure reliable delivery of products and services; develop
   weapon-system support strategies based on performance-based logistics; design logistics requirements using
   high-reliability systems; reduce the deployable logistics footprint of operational and support forces; and
   reduce logistics costs of operations.

•	 Systems Integration and Engineering for Mission Success. The DoD needs to employ integrated architectures,
   plans, and roadmaps, and establish a clear mission context for Defense Acquisition Board reviews. It is
   important to continue to foster interoperability, enhancements to joint and coalition capabilities, and
   improve the systems engineering environment. The Department needs to sustain a professional systems
   engineering workforce, and give them the policies and analytic tools they need to assess system readiness. The
   DoD must continue to conduct high-standard operational tests and evaluations and reduce lifecycle costs.

•	 Technology Dominance. To dominate in future conflicts, the DoD must have technologically superior
   military systems. To achieve this dominance, the Department will employ activities such as fully leveraging
   Advanced Concept Technology Demonstrations, closely linking high pay-off science and technology efforts
   to enhance joint warfighting capabilities and align with strategic defense initiatives. Further, the Department
   needs to establish a new science and technology career field to better focus human capital resources.

•	 Resources Rationalized. The Department met its milestones for the fiscal year by providing the Congress
   with a revised Force Structure Plan in March 2005, analyzing more than 1,000 closure and realignment
   scenarios, and providing the Secretary with 222 final closure and realignment recommendations, which he
   approved and submitted to the Commission and Congress on May 13, 2005.

•	 Industrial Base Strengthened. One of the DoD’s enduring goals is to ensure a Defense industrial base that
   is focused on and capable of supporting 21st century warfighting. To do this, it is establishing cross-feed
   mechanisms for major industrial base assessments, evaluating industrial sufficiency for key capabilities,
   developing industrial policy that creates and retains surge capacity for essential materials, and accessing
   emerging suppliers for innovative solutions.

•	 Motivated, Agile Workforce. The DoD continued efforts to create a flexible personnel system and began
   transitioning to the National Security Personnel System.




                                                                   116
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information


           Metric 3.4.2: Improve the Transparency of Component Submissions for Alignment of Program Review to Strategic Trades
        End-state Metric           FY 2001        FY 2002               FY 2003                    FY 2004                      FY2005A
  A DoD-wide transactional         No historical data; new       Established initial      Established single            Database integration
  data collection process          metric                        database integration     collection point              is ongoing to achieve
                                                                 criteria                 for operation and             objective by FY 2007
                                                                                          maintenance data
  Streamlined Planning,                                          Streamlined and          Continue with streamlining    Continue building the
  Programming, Budgeting                                         combined the program     effort to place more          Framework to allow
  and Execution process                                          and budget review.       emphasis on planning          greater visibility of
                                                                 Instituted streamlined   and less on resourcing        program and resource
                                                                 process for developing   decisions                     data
                                                                 the FY 2005 budget       Created a Framework to        Created a lab
                                                                                          allow greater visibility of   environment to validate
                                                                                          program and resource          the framework and data
                                                                                          data                          structure rationalization
  A
      The FY 2005 data are estimated as of the fourth quarter.


Metric Description

Improving the transparency of DoD component submissions will help align resource plans and provide senior-
level decision makers with the insight they need to make better-informed decisions. Transparency fosters an
agreement of facts, which provides a consistent baseline that serves as a common point of departure for making
resource trades.

To achieve a consistent baseline, the DoD must first streamline the flow of data. Each data element should be
collected once by a single authoritative source collection system and reused as needed. The agreement of all
parties on the accuracy and validity of the number (and of the authority of the source that provided it) would
facilitate the DoD’s ability to reuse data collected once to support multiple decisions.

Efforts to improve transparency have been under way for several years, but the Department has never
documented or quantified metrics to monitor progress. Evidence of success to date is mostly anecdotal. One
area where the DoD can measure progress is the programming data requirements data collection and reuse
initiative, which may serve as the pilot for the development of measures to be applied more broadly.

To determine the accuracy of resource data, the DoD will rely on fiscal and budgetary controls, combined
with assessments of whether the data comply with strategic guidance. Where possible, the DoD established
business rules to ensure existing data structures are used appropriately. The DoD also will validate data by
having analysts and subject-matter experts monitor particular groups of resources or programs. Refining the
submission of programming and budgeting data are tasks in progress with the Services, Defense Agencies,
and the DoD Comptroller. Streamlining the data flow to eliminate dual submissions between budget and
programming systems will reduce workload and improve data quality. Requirements will be standardized and
reduced. Programming data requirements have been reduced from 139 in FY 2000 to 39 distinct formats in
the FY 2003 cycle. This degree of reduction needs to be achieved in other areas as allowed for by legal and
external agency reporting requirements.



                                                                           117
                                                                                              DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Evaluating, validating, and improving the current program and budget data structures will significantly
contribute to the alignment of programming and budgeting, and the analytic use of common data. The data
structures must:

•	 Facilitate compliance with reporting requirements,
•	 Better support business and policy decisions,
•	 Allow for easier management of the structures to ensure validity of the data, and
•	 Support the overlay of taxonomies for specific analytic purposes in support of strategic reviews.

Connections to the lower-level, DoD component-maintained source data would provide further transparency
as issues arise. The end-state solution should provide the ability for analysts supporting a decision maker to find
data at a finer level of detail maintained by the DoD components.

Criteria that measure the improvement of transparency might include:

•	 Data requirements: the reduction in the number of distinct data requirements requested at each point in the
   cycle,
•	 Data structure management: the level of human effort required annually to keep the structure accurate; the
   amount of time and effort to create a new element, and
•	 Consistency of program reporting: the degree to which resource plans provide a non-ambiguous result when
   viewed from different perspectives; the time to create new mappings and the accuracy of the mappings to
   emerging requirements.

The DoD Business Management Modernization Program has set a target of full deployment of the systems
supporting this metric by 2010. A unified information architecture will be implemented by FY 2008.

Performance Results for FY 2005

Validation of the program/budget framework and data structure rationalization efforts are ongoing. The DoD
developed a common information model and began using it to validate the program/budget framework and
data structure.


                                                    Metric 3.4.3: Increase Visibility of Trade Space
         End-state Metric            FY 2001       FY 2002         FY 2003                       FY 2004                         FY 2005A
  Ability to define and cost         No historical data; new    Conducted          •	 Published Strategic Planning        •	 Initiated several
  trades within and across           metric                     Joint                 Guidance                               capability area
  capabilities areas while                                      Defense            •	 Initiated Enhanced Planning            reviews
  balancing investment                                          Capabilities          process                             •	 Approved use of
  and risk across the entire                                    Study              •	 Issued Joint Programming               joint capability areas
  defense program.                                                                    Guidance using initial analytical      taxonomy
                                                                                      findings
  A
      FY 2005 data are estimated as of the fourth quarter.




                                                                          118
                                                                                       DoD Performance & Accountability Report FY2005
            ..............................................................................................Part 2: Performance Information

Metric Description

The planning guidance of the Secretary of Defense is the primary tool for directing how defense programs and
budgets will be shaped. Previous guidance provided a list of projects of interest, and it set priorities across the
Defense program. However, it did so with little fidelity. The result was fiscally unsound and unclear planning
guidance that made it difficult to ensure compliance. To provide clarification and ensure compliance, in FY
2003 the DoD restructured the guidance to better define where more risk or less risk should be taken across
the Defense program. This revised structure directed the Services and Agencies to apply explicit criteria for risk
management, and to align their resource plans accordingly. Then, during the program and budget review, any
resource proposal that varied from guidance was corrected in the President’s Budget.

The DoD further strengthened the guidance as a resource decision tool by adding more details on how Services
and Defense Agencies were expected to meet the Secretary’s intent within fiscal constraints. The guidance—
renamed Strategic Planning Guidance—marked the first attempt to estimate the direct cost of program
priorities within the context of the overall defense program. However, shortfalls still exist. It is still difficult
to develop a truly independent cost estimate of planning priorities, or to assess accurately all the variables
associated with estimating the potential trade space created by accepting increased risk in some areas of the
defense program.

The newly initiated Enhanced Planning Process will provide a continuous, open and collaborative analytic
forum to examine closely issues of the greatest interest to the Secretary. The process is intended to produce
programmatic recommendations that will be documented in a new annual publication, the Joint Programming
Guidance.

The Department continues to improve this metric but several factors will influence progress:

•	 Defining “visibility” and its gradations. The DoD needs the ability to estimate accurately the costs associated
   with programmatic and budget trades. It must be able to frame the trade space discussion within the context
   of the overall Defense program and ensure clarity about the impact of making trades within and among the
   four risk management areas.
•	 Developing an index for measuring compliance. One approach to measuring increased visibility is measuring
   the degree of compliance. This metric might be measured in dollars failing to conform to guidance or in
   the number of issues of noncompliance that are raised in the program and budget review. Either index can
   provide a trend to show progress in achieving visibility of the trade space.
•	 Classification and the pre-decisional nature of document. The Secretary’s planning guidance is pre-
   decisional, and thus not releasable. In addition, much of the guidance is classified. It is likely that some or
   portions of any trade-space metric would also be subject to these restrictions.

Performance Results for FY 2005

Efforts to institute a capabilities-based planning process have further improved the Department’s ability to
shape the overall defense program. Rather than examining systems on an individual basis only, the DoD has
launched a number of “capability area reviews” that lay out and examine programs in related areas, and has
produced initial drafts of capability “road-maps” in those areas.

                                                                   119
                                                                                               DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

The Secretary approved an initial taxonomy of joint capability areas, which provides a framework for defining
trade-space. These areas will be incorporated as appropriate into planning scenarios, planning guidance, joint
concepts, joint task lists, the joint capabilities integration development system, integrated priority lists, and
program and budget databases. The Secretary has directed continued elaboration and refinement of these joint
capability areas. Once fully developed and implemented, this capabilities-based approach will greatly increase
the Department’s ability to define and cost trade-offs both within and across capability areas to balance risk.


                                   Metric 3.4.4: Provide Explicit Guidance for Program and Budget Development
       End-state Metric
                                  FY 2001       FY 2002            FY 2003                        FY 2004                         FY 2005A
       (New Baseline)
  Revised planning,              No historical data; new         Conducted         •	 Combined the program/budget review     Reevaluate
  programming, and               metric                          the DoD-wide         process                                resource allocation
  budgeting decision                                             study of joint    •	 Implemented new joint perspective in   and execution
  process                                                        Defense              planning and program guidance          procedures
                                                                 capabilities      •	 Added execution reviews to formal
                                                                                      process
  A
      The FY 2005 data are estimated as of the fourth quarter.


Metric Description

Section 113 of Title 10, U.S. Code, requires the Secretary of Defense to give the heads of the Military
Departments and Defense Agencies the resource levels projected to be available for the period of time for
which national security objectives and policies and military missions established as priorities under the
Defense strategy are to be effective. In March 2003, the Secretary of Defense chartered a broad review of the
Department’s planning and resource decision process. A study team, chaired by the former Under Secretary of
Defense, explored ways to make the existing defense decision process less cumbersome, more responsive, and
more helpful to the Secretary’s attempt to focus on managing and enhancing joint capabilities.

The Joint Defense Capabilities Study, completed in November 2003, recommended focusing the Secretary’s
annual planning and programming guidance on high-level strategic issues, and framing resource alternatives
as capabilities rather than programs. The study also recommended that actual results become a formal part of
the overall assessment process. Accordingly, the DoD Planning, Programming, and Budgeting System (PPBS)
added a final “Execution” phase to the overall process – to become the PPB—“E”—S. The DoD has enhanced
its planning process to focus on issues that are strategic and joint and address core military capabilities.

Performance Results for FY 2005

The Department is reevaluating its resource allocation and execution procedures in the ongoing Quadrennial
Defense Review.




                                                                             120
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

        Strategic Goal 4: Balancing Future Challenges Risks - execute future missions
                    successfully against an array of prospective challengers

Performance Goal 4.1 - Define and Develop Transformational Capabilities

                                           Metric 4.1.1: Deny Enemy Advantages and Exploit Weaknesses
      End-state Metric         FY 2001             FY 2002          FY 2003                FY 2004                         FY2005A
  Explicit strategic          No                The Secretary     The              •	 Addressed                 •	 Write new policy instructions
  outcomes and                historical        of Defense        Secretary           shortfall in DoD          •	 Satisfied the Joint Task
  effectiveness               data; new         established       established         counterintelligence          Force Guantanamo
  measures                    metric            the Defense       an Under            policy                       Bay Commander’s FY
  for the DoD                                   Counterintelli-   Secretary        •	 Developed, managed           2004 polygraph support
  counterintelligence                           gence Field       of Defense          and executed the DoD         requirement
  activities                                    Activity          (Intelligence)      polygraph program in      •	 Completed
                                                                                      support of Joint Task        counterintelligence plan
                                                                                      Force Guantanamo             and associated resource
                                                                                      Bay                          requirements
                                                                                   •	 Initiated study to        •	 Included Intelligence
                                                                                      identify shortfalls in       Campaign Planning into
                                                                                      counterintelligence          the priority DoD Unified
                                                                                      support for Pentagon         Command Plan for
                                                                                   •	 Developed standards          designated contingency
                                                                                      for horizontal               plans
                                                                                      integration activities    •	 One Intelligence Campaign
                                                                                      used to shape the DoD        completed and approved;
                                                                                      planning guidance            three drafted. All four
                                                                                   •	 Established an               Intelligence Campaigns
                                                                                      Intelligence Campaign        plans underway based on
                                                                                      Plan concept                 spiral development concept
                                                                                      and timeline for             and using approved and
                                                                                      implementation.              draft guidance. Targeting
                                                                                                                   packages issued and
                                                                                                                   operational activity underway
                                                                                                                   in all four campaigns.
  A
      FY 2005 data are final as of the fourth quarter.


Metric Description

Denying enemy advantages and exploiting weaknesses is at the core of the work by the Under Secretary of
Defense (Intelligence). The long-term goal is to establish strategic outcomes and efficiency measures to
help gauge the effectiveness of intelligence activities, and training and associated program structures. Many
domestic, international, and organizational variables contribute to the success of the overall program, so the
task of developing enduring outcome goals and measures involves a significant amount of developmental
research and analysis. The DoD counterintelligence community will conduct aggressive activities to contribute
to the intelligence requirements of military operations and national security. Further, the Department
requires current and comprehensive policies to guide its counterintelligence community. The ongoing
counterintelligence efforts included the identification of 22 directives, instructions, regulations, and manuals
that need to be revised, rewritten, or cancelled.

                                                                           121
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Four fundamental areas contribute to the success of any counterintelligence program: (1) ensuring that
the Defense intelligence security, strategy, policy, and processes are aligned for maximum effectiveness and
efficiency, (2) ensuring the horizontal integration of Defense intelligence activities, i.e., communication among
and within Agencies promotes increased information sharing, (3) aligning counterintelligence plans and
architectures with the goal of improved military operations and overall national security, and (4) supporting the
warfighter in the most efficient and effective manner possible.

Performance Results for FY 2005

Work continued on 20 issuances identified for revision. The DoD published the Intelligence, Surveillance,
and Reconnaissance Roadmap, which cuts across the Defense intelligence community and synchronizes a large
number of platforms and capabilities that require integration. The roadmap identifies integration phases in
which programmatic efforts are intended to first align (2003 – 2010), then enable (2005 – 2012) and finally
integrate (2007 – 2015) Defense intelligence, surveillance, and reconnaissance capabilities.

The DoD worked across intelligence community to support U.S. Central Command in improving intelligence,
surveillance, and reconnaissance support to the Command’s efforts.

The DoD developed, managed, and executed the polygraph program in support of the Joint Task Force
Guantanamo Bay. Polygraph examinations are now given to translators and personnel before they arrive at
Guantanamo Bay. The Defense Counterintelligence Field Activity is leading a multi-agency working group
that is developing the plan and resource requirements for the integrated multi-agency program designed to fill
the void in counterintellligence support to the DoD Agencies and activities, to include the Pentagon. This plan
is almost complete.

The recent creation of the Strategic Counterintelligence Detachment concept currently in Iraq (and possible
future Detachments in other theaters) has directly resulted in the denial of enemy advantages and the
exploitation of enemy weaknesses. It is foreseeable that the Strategic Counterintelligence Detachment will
further develop into a capability which will be employed against an array of adversaries.


                              Metric 4.1.2: Make Information Available on a Network that People Depend On and Trust
            End-state Metric                   FY 2001         FY 2002          FY 2003        FY 2004                     FY 2005A
  •	 Number of systems that                  No historical data; new metric               Begun transition of   •	 Implemented IPv6 in limited
     support the Internet Protocol                                                        selected systems         lab/test networks
     Version 6 (IPv6)                                                                     and weapons to        •	 Information assurance
  •	 Number of systems that                                                               IPv6                     standards remain in
     meet information assurance                                                                                    development
     standards
  A
      FY 2005 data are final as of the third quarter.


Metric Description

Moving information securely, quickly, and accurately is vital for combat commanders. The DoD’s ability to
build a worldwide information net, populate it with information needed by military commanders, and then use
                                                                              122
                                                                                              DoD Performance & Accountability Report FY2005
                ..............................................................................................Part 2: Performance Information

the network for command and control has been limited by the amount of information that can flow through
the network and be processed at any given time. In response, the DoD has set the goal of building a Global
Information Grid to:

•	 Achieve an ubiquitous, secure, and robust network,
•	 Eliminate bandwidth, frequency, and computing capability limitations,
•	 Deploy collaborative capabilities and other performance support tools, and
•	 Secure and assure the network and the information.

The Director, Strategic Resource Planning for the Assistant Secretary of Defense for Networks and Information
Integration is working with the Deputy Chief Information Officer and a contractor to develop outcome
and output metrics to measure progress toward achieving the strategic planning goals of DoD’s Information
Technology Plan.

Performance Results for FY 2005

Efforts to establish the grid continued through FY 2005, with significant progress gained in forming the
DoD-wide policies for infrastructure, core enterprise services, and data standards. The DoD established
Internet Protocol Version 6 (IPv6) as the common end-to-end network protocol to achieve net-centric war
fighting requirements, with the goal of complete transition by calendar year 2008. (IPv6 is a standard used
to communicate via the Internet.) The DoD will begin pilot implementation of IPv6 on networks that carry
operations traffic in FY 2006. Additionally, the Defense Information Systems Agency programmed conversion
from circuit-based to Internet Protocol operational capability for all teleport sites. The DoD also will establish
a Department-wide software assurance tiger team to develop a holistic strategy to reduce software assurance risk
and develop a software assurance strategy for use on major acquisition programs and across the Department.


                                             4.1.3: Monitor the Status of Defense Technology Objectives
                                                         FY 2001           FY 2002             FY 2003           FY 2004              FY 2005
                       Metric                             Actual            Actual              Actual         Target/Actual       Target/ActualF
  Percentage of Defense technology objectives                    96                  97                  96           ≥ 70/94            ≥ 70/N/AE
  evaluated as progressing satisfactorily toward
  goalsA
  Objectives evaluated in biannual reviewB                      180              149C                163C                 180                      0
  Total number of objectivesB,C,D                               326               401                 386                 404                  404
  A
      “Progressing satisfactorily” includes objectives rated as “green” or “yellow.”
  B
      The number of objectives evaluated and the total number of objectives are provided for information only; no targets are established.
  C
      The numbers for objectives evaluated in FY 2002 and FY 2003 were transposed in the FY 2003 Performance and Accountability Report.
  D
      The total number of objectives is the sum of all objectives contained in the Joint Warfighting Science and Technology Plan and the Defense
       Technology Area Plan, dated February of the calendar year prior to the fiscal year the reviews are conducted.
  E
      The DoD implemented a new comprehensive review process that evaluates all objectives biennially. The next assessment will be in FY 2007
       for FY 2005 and FY 2006 objectives.
  F
      FY 2005 data are final as of the fourth quarter.




                                                                         123
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Metric Description

Technological superiority is a cornerstone of the national military strategy. Technologies such as radar, jet
engines, nuclear weapons, night vision, smart weapons, stealth, the Global Positioning System, and vastly
more capable information management systems have changed warfare dramatically. Today’s technological edge
allows the DoD to prevail decisively across a broad spectrum of conflicts and with relatively few casualties.
Maintaining this technological edge has become even more important as the size of U.S. forces decreases and
high-technology weapons are now readily available on the world market. Future warfighting capabilities will be
determined substantially by today’s investment in science and technology.

Science and technology investments are focused and guided through a series of Defense technology
objectives developed by the senior DoD planners. Each of these objectives highlights a specific technological
advancement, the anticipated date the technology will be available, the specific benefits that should result
from the technological advance, and the funding required (and funding sources) to achieve the new capability.
These objectives also specify milestones to be reached and approaches to be used, quantitative metrics that
will indicate progress, and the customers who will benefit when the new technology is eventually fielded. This
metric measures the percentage of defense technology objectives that are progressing satisfactorily toward the
goals established for them.

Performance Results for FY 2005

The Department implemented a new comprehensive review process that evaluates all Defense technology
objectives biennially. The FY 2005 and FY 2006 objectives will be assessed during FY 2007.


                        Metric 4.1.4: Populate the Network with New, Dynamic Sources of Information to Defeat the Enemy
             End-state Metric                  FY 2001       FY 2002       FY 2003               FY 2004                        FY 2005A
  Percentage of DoD information                                                       •	 Published net-centric           Codified the DoD Net-
  available via net-centric solutions                                                    checklist                       Centric Data Strategy
                                              No historical data; new metric
                                                                                      •	 Began portfolio
                                                                                         management
  A
      FY 2005 data are estimated as of the third quarter.


Metric Description

Military commanders use information of all kinds, not only intelligence data, to “see” the battle space and
outwit and overcome adversaries. The net-centric enterprise architecture will allow commanders to engage
the network at anytime from anywhere using a military version of the Internet search engine, without needing
cumbersome base support. Data will be posted and ready for download and analysis as soon as it arrives,
anywhere on the network. The Chief Information Officer’s strategy is to ensure data are visible, available,
and usable when needed and where needed to accelerate decision making. This metric will be completed no
later than FY 2008, by which point all DoD data will be compliant with Internet Protocol Version 6 (IPv6)
standards.


                                                                           124
                                                                                                  DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Results for FY 2005

The Department codified the DoD Net-Centric Data Strategy by issuing “Data Sharing in a Net-Centric
Department of Defense,” a directive that sets the Department’s policy and responsibilities to ensure that data
assets are visible, accessible, and understandable to any potential DoD user.


Performance Goal 4.2 - Define Skills and Competencies for the Future

                Metric 4.2.1: Attract, Recruit, Retain, and Reward High Quality People from Government, Industry, and Academia
        End-state Metric             FY 2001        FY 2002       FY 2003                   FY 2004                            FY2005A
  •	 Create a Defense                No historical data; new metric               •	 Designation of Office of      •	 The Under Secretary submitted
     Civilian Intelligence                                                           the Under Secretary for          11 subchapters; six were
     Personnel System                                                                Defense (Intelligence)           approved for interim use
  •	 Develop policies and                                                            as Defense Civilian              (subchapters will be revised
     programs to attract,                                                            Intelligence Personnel           to be consistent with National
     recruit, retain, and                                                            System organization              Security Personnel System
     reward high-quality                                                             and submission of 11             regulations)
     people                                                                          system subchapters for        •	 Successfully advocated and
                                                                                     implementation                   approved an increase in foreign
                                                                                  •	 Develop and draft policies       language proficiency pay
                                                                                     to implement the Defense      •	 Established a senior-level panel
                                                                                     Civilian Intelligence            to review a 10 percent sample
                                                                                     Personnel System and             of the new executive and senior
                                                                                     regulations to utilize the       level performance plans
                                                                                     legislative flexibilities
  A
      FY 2005 data are final as of the fourth quarter.


Metric Description

To accomplish its ambitious goals, the Defense intelligence community needs the best people available.
The community needs to recruit people with broad and varied experiences who are agile problem solvers
and can operate in an environment that changes as the threat changes. Legislation such as the National
Security Personnel System provides the DoD with hiring flexibility. A key first step and an ongoing effort
is the development of an overarching directive establishing a common human resources system for the DoD
intelligence community.

Performance Results for FY 2005

DoD submitted 11 subchapters for the National Security Personnel System regulations; six were approved for
interim use pending formal coordination and publication. The DoD also revised and upgraded the foreign
language proficiency pay policy that resulted in a substantial increase in the maximum pay authorized for
proficiency in a language or multiple languages.




                                                                            125
                                                                                             DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information


                                                    Metric 4.2.2: Strategic Transformation Appraisal
                Metric                   FY 2001         FY 2002          FY 2003                      FY 2004                FY 2005A
  Assessment of “gaps” or                No historical data; new    Published first          Completed                Completed second
  adjustments needed to remain           metric                     transformational         first strategic          strategic transformation
  on track                                                          planning guidance        transformation           appraisal
                                                                                             appraisal
  A
      FY 2005 data are final as of the fourth quarter.


Metric Description

The Department’s overall transformation roadmaps address activities, processes, resources, and incentives
to foster and promote innovation and transformational activities, including concept-based experimentation
processes, education and training programs, and the use of operational prototypes. Each Service also prepares
an individual roadmap, which is updated annually; Defense Agencies submit their annual roadmap updates
to the U.S. Joint Forces Command, which develops a consolidated “joint” roadmap. Each year, the Office
of Force Transformation evaluates the progress and plans reported in the individual and joint roadmaps and
produces an assessment of “gaps” or adjustments indicated for future action. These roadmaps point to a
shared future vision and provide actionable language for implementation. They complement the program and
budget process, ensuring coherence between resource allocation decisions and future concept development and
experimentation and provide a baseline for managing transformational change within the force. Additionally,
they articulate the Service and Defense Agency strategies for implementing and managing transformation risks.

Performance Results for FY 2005

The Office of Force Transformation completed its second full-scale strategic transformation appraisal in
November 2004 that emphasized the planned development by the Services and Defense Agencies of directed
energy, information warfare techniques and concepts, joint battle management, non-lethal technology, and
rapid access to space. The appraisal also highlighted the dilemma of balancing near-term concerns generated
by operations in Iraq against long-term science and technology needs. Beginning in FY 2007, this unclassified
report (with classified annexes) will be submitted each November to the Secretary of Defense.Performance Goal
4.3 - Develop More Effective Organizations.




                                                                          126
                                                                                               DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

Performance Goal 4.3 - Develop More Effective Organizations

                                    Metric 4.3.1: Enhance Homeland Defense and Consequence Managementl
    End-state
      Metric                              FY
  (New Baseline)         FY 2001         2002            FY 2003              FY 2004                                  FY 2005A
  Strategy and           No historical data;         •	 Established      •	 Began                 •	 Finalized homeland defense strategy during
  an associated          new metric                     an Assistant        developing               the first quarter
  resource and                                          Secretary for       first homeland        •	 Promulgated homeland defense
  technology                                            Homeland            defense                  implementation guidance during the third
  roadmap                                               Defense             strategy                 quarter
                                                     •	 Established      •	 Developed             •	 Published Policy Memorandum 5 regarding use
                                                        U.S. Northern       initial resource         of the strategy in BRAC 2005 considerations
                                                        Command             and technology           during the first quarter
                                                                            roadmaps              •	 Published the National Response Plan during
                                                                                                     the first quarter
                                                                                                  •	 The DoD, Department of Homeland Security,
                                                                                                     and U.S. Coast Guard memorandum of
                                                                                                     understanding - U.S. Coast Guard support to
                                                                                                     DoD maritime homeland defense operations
                                                                                                     during first quarter
                                                                                                  •	 Standing Rules for the Use of Force during
                                                                                                     third quarter FY 2005
                                                                                                  •	 Established 11 new Weapons of Mass
                                                                                                     Destruction – Civil Support Teams and initiated
                                                                                                     training and certification during first quarter FY
                                                                                                     2005
                                                                                                  •	 Established with Departments of Homeland
                                                                                                     Security and Justice a standardized process to
                                                                                                     transfer technology, equipment, and expertise
                                                                                                     to federal, state, and local responders
  A
      FY 2005 data are estimated as of the fourth quarter.


Metric Description

The DoD’s highest priority is protecting the U.S. homeland from attack; the Department must be able to
succeed at the full range of tasks associated with an active defense-in-depth, including military missions in the
forward regions, approaches to the United States, the U.S. homeland, and the global commons. Specifically,
the Department must be able to:

•	 Conduct military missions to prevent, deter, defend, and defeat attacks on America, its people, and its
   Defense critical infrastructure (homeland defense), and
•	 Support civil authorities directed by the President or Secretary of Defense as part of a comprehensive national
   response to prevent and protect against terrorist incidents or manage the consequences of attack or disaster
   (homeland security). Enhance contributions of domestic and foreign partners to homeland security and
   homeland defense.




                                                                        127
                                                                                            DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information


To meet the challenges of the post-9/11 threat environment, the Secretary of Defense directed the development
of the first comprehensive, Defense-wide strategy for homeland defense and civil support. This new strategy
relies on an integrated threat assessment to define the DoD’s strategic goals, key objectives, and core capabilities
for homeland defense and civil support. The strategy describes associated force structure, technology, and
resource implications. The completed strategy articulates a number of actions for immediate implementation
to transform the DoD’s capabilities for homeland defense and civil support in each of the core capability areas,
including providing maximum threat awareness; interdiction and defeat of threats at safe distance; mission
assurance; improved interagency and international capabilities; and managing the consequences of a chemical,
biological, radiological, nuclear, or explosive incident.

Performance Results for FY 2005

Several actions were taken to support implementation of the Strategy for Homeland Defense and Civil
Support, published in June, along with implementation guidance that directs specific actions to support
accomplishment of the strategic goals and objectives.


                                            Metric 4.3.2: Establish a Standing Joint Force Headquarters
  End-state Metric
   (New baseline)              FY 2001           FY 2002          FY 2003                 FY 2004                          FY 2005A
  The ability to            Development         Concept      •	 Experiments        Headquarters                •	 Headquarters in Geographic
  rapidly execute           of Standing         released        conducted          established and                Combatant Commands
  transformational          Joint Force                      •	 Implementation     staffed at Geographic          complete initial training
  command and               Headquarters                        guidelines         Combatant Commands          •	 Regional Combatant Command
  control functions         directed                            developed          (except U.S. Central           Standing Joint Force
  for joint force           in 2001                                                Command)                       Headquarters participated in
  operations                Quadrennial                                                                           Joint Training Exercise
                            Defense                                                                            •	 U.S. Joint Forces Command
                            Review                                                                                established a headquarters to
                                                                                                                  be employed by Geographic
                                                                                                                  Combatant Commands when
                                                                                                                  required
  A
      FY 2005 data are estimated as of the fourth quarter.


Metric Description

In 2003, the Secretary of Defense directed Geographic Combatant Commands to establish Standing Joint
Force Headquarters by FY 2005. These headquarters reflect standards established by U.S. Joint Forces
Command and incorporate the lessons learned from 2002 joint exercises. Each Geographic Combatant
Commands has a 58-person core Standing Joint Force Headquarters that serves as a planning staff during
day-to-day operations. In the event of a crisis, the in-place headquarters is prepared immediately to execute
command and control functions for the integrated employment of air, land, maritime, and information forces.
The headquarters is made up of joint-trained personnel skilled in using computer-based analysis tools and joint
information and processes. To operate in the field, each deployable headquarters must have a deployable joint
command and control capability.

                                                                        128
                                                                                                  DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information


The U.S. Joint Forces Command is continuing an extensive program of research, development, and
experimentation to advance the key enabling concepts of knowledge management, effects-based planning and
operations, and a collaborative information environment.

Performance Results for FY 2005

All of the Geographic Combatant Commands have accomplished the assigned task, except U.S. Central
Command. In addition, all Commands’ Standing Joint Force Headquarters participated in a Joint Training
Exercise during FY 2005, completing their initial training cycle.


                                                            Metric 4.3.3: Transform DoD Training
                                                                                                                                       FY 2005
                                                                      FY 2001        FY 2002        FY 2003         FY 2004
                                                                                                                                       Target/
                                                                       Actual         Actual         Actual       Target/Actual
                              Metric                                                                                                   ActualA
  Percentage of military officers in critical positions certified
                                                                      No historical data; new metric.               50% / 54.2%      52.5% / 53.8%
  as joint-trained or educated
  A
      FY 2005 data are final as of the second quarter.


Metric Description

Training Transformation (T2) is designed to provide dynamic, capabilities-based training in support of
national security requirements across the full spectrum of service, joint, interagency, intergovernmental, and
multinational operations. Starting in FY 2004, DoD began transitioning from activity-based to outcome-based
measures.

One of the leading indicators of training transformation is the overall percentage of the force that has received
joint training or joint education. A higher percentage correlates to increased performance in jobs that require
knowledge of joint matters that relate to national military strategy, strategic and contingency planning, and
command and control of combat operations under a Combatant Commander. Although the entire force
is not measurable at this time, the DoD is measuring the critical positions filled by officers at Combatant
Commander staffs.

To be joint-trained, an officer must complete a joint duty assignment, a joint billet that is 2-3 year position in
a multi-Service or multinational Command or activity involved in the integrated employment or support of
the land, sea, and air forces of at least two of the three Military Departments. An officer is considered to have
received joint education if he or she graduates from a course certified as Joint Professional Military Education
Phase 2 (Joint and Combined Warfighting School, National War College, or the Industrial College of the
Armed Forces).

T2 measures will constantly evolve through a process of spiral-development and will consider the overall
outputs and desired outcomes of the Joint Knowledge Development and Distribution Capability, Joint


                                                                             129
                                                                                             DoD Performance & Accountability Report FY2005
                 ..............................................................................................Part 2: Performance Information

National Training Capability, and transformation as a whole. The DoD expects to have a complete set of
outcome-based measures and assessments across the areas of quantity, quality, and responsiveness for both
individual and collective training by the end of FY 2006.

Performance Results for FY 2005

The Joint Assessment and Enabling Capability continued the shift to outcome-based measures in FY 2005 and
is on track to complete its first block assessment of T2 by the end of the year. Transition will be complete by
the end of FY 2006, with measures encompassing the areas of quantity, quality, and responsiveness for both
individual and collective training. However, the spiral development of T2 measures is an ongoing process as
program objectives constantly evolve in response to current and future mission requirements.

The DoD continued to track Combatant Commander critical positions filled by joint-trained or joint-educated
officers through the second quarter. At that time, 53.8 percent of military officers filling critical positions were
certified as joint-trained or joint-educated, surpassing the goal of 52.5 percent. The Department is refining and
expanding current metrics to better assess the degree to which T2 meets Combatant Commander needs.



Performance Goal 4.4 - Drive Innovative Joint Operations

                                                Metric 4.4.1: Experiment with New Warfare Concepts
      End-state Metric         FY 2001          FY 2002        FY 2003                 FY 2004                          FY 2005A
  Percentage of goals         No              Developed       Revised          •	 Conducted four major     •	 Conducted four major
  met                         historical      guidance        guidance            experimentation             experimentation events
                              data; new                                           exercises                •	 Began FY 2006-2013 Joint Concept
                              metric                                           •	 Submitted joint             Development and Experimentation
                                                                                  experimentation plan        Campaign Plan
                                                                                  for approval             •	 Began Joint Experimentation Work
                                                                               •	 Fielded Standing Joint      Plan
                                                                                  Force Headquarters       •	 Initiated Joint Experimentation
                                                                                  prototypes                  Knowledge portal
  A
      FY 2005 data are estimated as of the fourth quarter


Metric Description

The goal of the Department’s experimentation program is to convert rapidly innovative warfighting concepts to
prototypes to fielded capabilities. Accordingly, the April 2003 transformation planning guidance directed the
development of the Joint Concept Development and Experimentation Campaign Plan to describe the role of
joint experimentation as a major generator of transformational change.
The plan follows two paths:




                                                                         130
                                                                                         DoD Performance & Accountability Report FY2005
              ..............................................................................................Part 2: Performance Information


•	 The Joint Concept Development Program explores innovative concepts for improving future joint
   warfighting. These concepts result from an iterative experimentation program that relies on frequent, small-
   scale sets of experiments conducted in a joint wargaming environment. Once concepts prove viable through
   continuous refinement and experimentation, they are transferred to the prototype team.
•	 The Joint Prototype Program improves current warfighting capabilities and matures new capabilities through
   continuous experimentation in which are part of Combatant Command joint exercise programs. The plan
   will identify capabilities proposals for rapid prototyping and provide actionable recommendations for future
   resource investments based on experimentation results.

Performance Results for FY 2005

U.S. Joint Forces Command is revising the 2006-2013 Joint Concept Development and Experimentation
Campaign Plan to capture joint experimentation guidance from the Unified Command Plan and the Chairman
of the Joint Chiefs of Staff. The Command also is developing a work plan to ensure concepts are programmed
adequately into efforts over the next 2 years. Joint efforts for FY 2005 included a national security workshop,
campaigning planning from the strategic to operational levels, unified quest, and joint urban warrior. Results
from these events have helped inform many of the current concepts as well as generate new ideas for additional
concepts.


                                    Metric 4.4.2: Maintain Balanced and Focused Science and Technology
                                                            FY 2001          FY 2002          FY 2003           FY 2004           FY 2005
                        Metric                               Actual           Actual           Actual            Actual            Actual
                                                                             Percentage of Science and Technology budget
  Basic research                                                  16%            14.8%              14%             12.8%             12.6%
  Applied research                                              42.7%              42%              38%             35.9%             36.8%
  Advanced technology development                               41.3%            43.2%              48%             51.3%             50.6%


Metric Description

The DoD science and technology program consists of research and development investments in Basic Research,
Applied Research, and Advanced Technology Development. This metric is designed to ensure a balanced and
focused investment by funding Basic Research, Applied Research, and Advanced Technology Development to
15 percent, 35 percent, and 50 percent respectively, of the total annual science and technology budget.

Performance Results for FY 2005

The balance between the funding levels for FY 2005 in the three categories is sufficiently close to the DoD
goals.




                                                                      131
left blank intentionally
Part 3: Financial
Information
                                                                            DoD Performance & Accountability Report FY2005
..................................................................................................Part 3: Financial Information


                 Message from the Chief Financial Officer




                                                        135
                                                                            DoD Performance & Accountability Report FY2005
..................................................................................................Part 3: Financial Information


       Independent Auditors’ Report on the Principal Statements




                                                        136
                                                                            DoD Performance & Accountability Report FY2005
..................................................................................................Part 3: Financial Information




                                                        137
                                                                            DoD Performance & Accountability Report FY2005
..................................................................................................Part 3: Financial Information




                                                        138
                                                                                 DoD Performance & Accountability Report FY2005
     ..................................................................................................Part 3: Financial Information


                           Report on Internal Control and
                        Compliance with Laws and Regulations

Internal Control
Management is responsible for implementing effective internal control and for providing
reasonable assurance that accounting data are accumulated, recorded, and reported properly and
that assets are safeguarded against misappropriation and abuse. Our purpose was not to, and we
do not, express an opinion on internal control over financial reporting. However, we have
identified the following material weaknesses and reportable conditions that could adversely
affect a favorable opinion on internal control.

Material Weaknesses. Management acknowledged that previously identified reportable
conditions, all of which are material, continue to exist.

        Financial Management Systems. Statement of Federal Financial Accounting Concepts
No. 1, “Objectives of Federal Financial Reporting,” requires financial management systems
controls that are adequate to ensure that transactions are executed in accordance with budgetary
and financial laws and other requirements, are consistent with the purposes authorized, and are
recorded in accordance with Federal accounting standards. Statement of Federal Financial
Accounting Concepts No. 1 also requires that financial management systems controls ensure that
assets are properly safeguarded to deter fraud, waste, and abuse; and that performance
measurement information is adequately supported. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer acknowledged that many DoD financial management
systems do not substantially comply with Federal financial management systems requirements.
DoD financial management and feeder systems were not designed to adequately support various
material amounts on the financial statements. These systemic deficiencies in financial
management and feeder systems and inadequate DoD business processes result in the inability to
collect and report financial and performance information that is accurate, reliable, and timely.

In addition, reviews of five DoD financial management systems and Defense Information
Systems Agency Computing Services identified several common vulnerabilities. Controls over
security planning, access controls, and software controls did not comply with DoD information
assurance requirements. As a result, potential system and procedural vulnerabilities threatened
the confidentiality, integrity, and availability of financial data.

        Fund Balance with Treasury. The U.S. Treasury Financial Manual and DoD Financial
Management Regulation 7000.14-R require DoD to resolve financial and accounting
inconsistencies to accurately report Fund Balance With Treasury. However, inconsistencies
continue to exist related to in-transit disbursements, unmatched disbursements, negative
unliquidated obligations, unreconciled differences in suspense accounts, and unreconciled
differences between U.S. Treasury records and DoD accounting records.

        Inventory. DoD is required by the Statement of Federal Financial Accounting Standards
No. 3, “Accounting for Inventory and Related Property,” to use historical cost, the latest
acquisition cost (adjusted for holding gains and losses), or moving average cost for valuing


                                                                                                             Attachment

                                                             139
                                                                                 DoD Performance & Accountability Report FY2005
     ..................................................................................................Part 3: Financial Information
                                                                                                                        2

Inventory. However, DoD acknowledged that the existing inventory valuation at most activities
does not approximate historical cost. Additionally, DoD does not distinguish between Inventory
Held for Sale and Inventory Held in Reserve for Future Sale, as required by the standard.

       Operating Materials and Supplies. Statement of Federal Financial Accounting
Standards No. 3 also states that Operating Materials and Supplies must be expensed when the
items are consumed. DoD has acknowledged that significant amounts of Operating Materials
and Supplies were expensed when purchased instead of when consumed. In addition, DoD
acknowledged that significant amounts of Operating Materials and Supplies in the possession of
contractors were not included in the Operating Materials and Supplies account balance.

        General Property, Plant, and Equipment. DoD is required by Statement of Federal
Financial Accounting Standards No. 6, “Accounting for Property, Plant, and Equipment,” to
record Property, Plant, and Equipment at acquisition cost, capitalize improvement costs, and
recognize depreciation expense. However, DoD has acknowledged that it is unable to accurately
report the value of Property, Plant, and Equipment on its financial statements. DoD legacy
property and logistics systems were not designed to capture acquisition cost and costs of
modifications and upgrades or to calculate depreciation. In addition, the value of DoD Property,
Plant, and Equipment is not reliably reported because of a lack of supporting documentation.

         Government-Furnished Material and Contractor-Acquired Material. Statement of
Federal Financial Accounting Standards No. 11, “Amendments to Accounting for Property,
Plant, and Equipment,” requires that property and equipment in the possession of a contractor for
use in accomplishing a contract be considered Government property. Government property
should be accounted for based on the nature of the item, regardless of who has possession. DoD
has acknowledged, and prior audits confirm, that it is unable to comply with applicable
requirements for Government-Furnished Materials and Contractor Acquired-Materials. As a
result, the value of DoD property and material in the possession of contractors is not reliably
reported.

       Environmental Liabilities. DoD acknowledged that guidance and audit trails for
estimating environmental liabilities are incomplete. Environmental liability estimates are
unreliable because activities do not have effective controls in place to ensure that:

        x they have adequate audit trails and supporting documentation for estimates,

        x they comply with established guidance in developing estimates, and

        x they maintain reliable feeder and coordination systems.

In addition, DoD has not developed policies, procedures, and methodologies needed to ensure
that cleanup costs for all of its ongoing and inactive or closed operations are identified,
consistently estimated, and appropriately reported.

        Intragovernmental Eliminations. DoD acknowledged that it made unverifiable
adjustments because of the inability to reconcile most intragovernmental transactions. For
example, Defense Finance and Accounting Service Indianapolis entered more than $26 billion in
unsupported adjustments to Army intragovernmental accounts to bring them into agreement with
related amounts reported by its trading partners.


                                                                                                           Attachment

                                                             140
                                                                                   DoD Performance & Accountability Report FY2005
       ..................................................................................................Part 3: Financial Information
                                                                                                                          3

        Other Accounting Entries. DoD acknowledged that it continues to enter material
amounts of unsupported accounting entries. For example, Defense Finance and Accounting
Service Indianapolis recorded $248.5 billion (excluding adjustments for intragovernmental
transactions) in unsupported accounting entries to prepare the FY 2005 Army General Fund
Financial Statements.

        Statement of Net Cost. Statement of Federal Financial Accounting Concepts No. 2,
“Entity and Display,” requires the Statement of Net Cost to provide an understanding of the net
costs of each organization and each program. In addition, the Statement of Net Cost should
provide gross and net cost information that can be related to the amounts of outputs and
outcomes for the programs and organization. DoD acknowledged the following deficiencies
related to the Statement of Net Cost.

   x     The amounts presented for General Funds may not report actual accrued costs.

   x     Although the funds are generally recorded on an accrual basis for Working Capital
         Funds, as is required by generally accepted accounting principles, the systems do not
         always capture actual costs in a timely manner.

   x     Current financial processes and systems do not capture and report accumulated costs for
         major programs based on performance measures as required by the Government
         Performance and Results Act.

   x     DoD accounting systems do not capture trading partner data at the transaction level in a
         manner that facilitates trading partner aggregations. Consequently, DoD was unable to
         reconcile intragovernmental revenue balances with its trading partners.

        Statement of Financing. Statement of Federal Financial Accounting Standards No. 7,
“Accounting for Revenue and Other Financing Sources and Concepts for Reconciling Budgetary
and Financial Accounting,” states that the Statement of Financing should reconcile resources
obligated during the period to the net cost of operations. However, DoD acknowledged that it is
unable to reconcile budgetary obligations to net costs without making adjustments. Specifically,
budgetary data are not in agreement with proprietary expenses. DoD disclosed in Note 21 that
the Statements of Financing and Net Cost were adjusted by $11,378.9 million to bring them into
agreement. Finally, DoD presented the Statement of Financing on a combined basis instead of a
consolidated basis as required by Office of Management and Budget Circular A-136, “Financial
Reporting Requirements.”

Other Reportable Conditions. During FY 2005, we noted reportable conditions related to
Accounts Payable, Accounts Receivable, and Contingent Legal Liabilities.

         Accounts Payable. Statement of Federal Financial Accounting Standards No. 5,
“Accounting for Liabilities of the Federal Government,” states, “a liability is recognized when
one party receives goods or services in return for a promise to provide money or other resources
in the future.” DoD acknowledged that the accounts payable do not always accurately reflect the
liabilities associated with the actual receipt of goods and services in the appropriate time period.
Also, our reports on Internal Control for the DoD Components disclosed that some Accounts
Payable were not recorded timely, unsupported adjustments were made to Accounts Payable, and
supporting documentation could not be provided in a timely manner.



                                                                                                             Attachment

                                                               141
                                                                              DoD Performance & Accountability Report FY2005
  ..................................................................................................Part 3: Financial Information
                                                                                                                        4

        Accounts Receivable. Statement of Federal Financial Accounting Standards No. 1,
“Accounting for Selected Assets and Liabilities,” states “A receivable should be recognized
when a Federal entity establishes a claim to cash or other assets against other entities, either
based on legal provisions,…or goods and services provided.” DoD has acknowledged
weaknesses in Accounts Receivable because policy is not always followed in relation to the
recording, reporting, collecting, and reconciling of accounts receivable. Also, our reports on
Internal Control for the DoD Components showed deficiencies such as inadequate audit trails
and reconciliations with subsidiary records, and a general lack of controls to ensure that
Accounts Receivable balances are supportable at the transaction level.

         Contingent Legal Liabilities. Statement of Federal Financial Accounting Standards
No. 5 requires contingent liabilities to be disclosed if there is at least a reasonable possibility that
a loss may be incurred. DoD did not disclose in its legal representation letter an undetermined
amount of cases that individually did not exceed the reporting threshold requested by the
auditors, but in aggregate exceeded the materiality threshold. DoD and its Components had not
established adequate procedures and controls to provide this information. As a result, we were
unable to determine the magnitude of these potential losses. We plan to issue a separate report
early in FY 2006 discussing deficiencies in the DoD process for reporting contingent legal
liabilities, which will include additional information concerning this reportable condition and
appropriate recommendations for correction actions.

Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial
reporting. Our work to determine compliance with selected provisions of the applicable laws
and regulations was limited because management acknowledged instances of noncompliance,
and previously reported instances of noncompliance continue to exist. Therefore, we did not
determine whether DoD was in compliance with selected provisions of all applicable laws and
regulations related to financial reporting. Our objective was not to, and we do not, express an
opinion on compliance with applicable laws and regulations.

Statutory Financial Management Systems Reporting Requirements. DoD is required to
comply with the following financial management systems reporting requirements.

  x     Section 3512, title 31, United States Code, incorporates the reporting requirements of the
        Federal Managers’ Financial Integrity Act of 1982 and requires DoD to evaluate its
        systems and to annually report whether those systems are in compliance with
        requirements prescribed by the Comptroller General.

  x     The Federal Financial Management Improvement Act of 1996 requires DoD to establish
        and maintain financial management systems that comply substantially with Federal
        financial management systems requirements, applicable Federal accounting standards,
        and the U.S. Government Standard General Ledger at the transaction level. The Federal
        Financial Management Integrity Act also requires DoD to develop a remediation plan
        when its financial management systems do not comply with Federal financial
        management systems requirements. The remediation plan is to include remedies,
        resources required, and milestones.




                                                                                                           Attachment

                                                          142
                                                                                DoD Performance & Accountability Report FY2005
    ..................................................................................................Part 3: Financial Information
                                                                                                                             5

For FY 2005, DoD did not fully comply with the statutory reporting requirements identified in
these provisions. Specifically, DoD acknowledged that many of its critical financial
management and feeder systems did not comply substantially with Federal financial management
systems requirements, Federal accounting standards, and the U.S. Government Standard General
Ledger at the transaction level as of September 30, 2005. In an attempt to remedy these long-
standing financial management systems deficiencies, DoD is developing a DoD-Wide Business
Enterprise Architecture. Until the architecture is fully developed and implemented, DoD will
continue to be unable to fully comply with the statutory reporting requirements. We did not
perform tests of compliance for these requirements.

Government Performance and Results Act. Congress enacted the Government Performance
and Results Act of 1993 (The Act) to establish strategic planning and performance measurement
in the Federal Government. Strategic plans, annual performance plans, and annual program
performance reports comprise the main elements of The Act.

DoD did not fully comply with The Act and subsequent implementation guidance in Office of
Management and Budget Circular A-11, “Preparation, Submission, and Execution of the
Budget.” Specifically, DoD did not have a compliant strategic plan for FY 2005 because it
designated the Quadrennial Defense Review report as its Government Performance and Results
Act strategic plan, without consideration of The Act’s requirements. In addition, the DoD
performance budget and performance report for FY 2005 did not comply with The Act and
Office of Management and Budget Circular A-11 because The Act strategic plan provides the
framework for implementing all other parts of The Act. We plan to issue a separate report on
compliance with The Act in early FY 2006 with a specific recommendation to correct this
deficiency.

Antideficiency Act. Section 1341, title 31, United States Code states that a Federal employee
may not “make or authorize an expenditure or obligation exceeding the amount available in an
appropriation or fund for the expenditure or obligation.” Additionally, DoD, and its agents, may
not contract or obligate for the payment of money before an appropriation is made available for
that contract or obligation unless otherwise authorized by law. During FY 2005, DoD
investigated 20 cases of potential violations of the Antideficiency Act and determined 15 cases
to be actual violations.

Sections 1349 and 1351 of the Antideficiency Act also require DoD to immediately report the
nature of violations to the President and Congress, and to take appropriate disciplinary action
against those responsible for such violations. In implementing this requirement, the DoD
Financial Management Regulation requires that all investigations and reports of violations be
completed within one year from the date of discovery. DoD took an average 45 months to
investigate and report violations. During FY 2005, DoD took an average of 16 months to
identify violations of the Antideficiency Act and begin investigations. In addition, DoD
Components were not consistent in disciplining personnel responsible for Antideficiency Act
violations.

Prompt Payment Act. The Prompt Payment Act requires DoD to pay vendors within specified
timeframes and pay interest penalties for late payments. Office of Management and Budget
Circular A-123, “Management’s Responsibility for Internal Control,” December 21, 2004, also
requires management to develop and maintain effective internal control to ensure compliance
with applicable laws and regulations. A review of invoices paid at Defense Finance and


                                                                                                           Attachment

                                                            143
                                                                                DoD Performance & Accountability Report FY2005
    ..................................................................................................Part 3: Financial Information
                                                                                                                       6

Accounting Service Columbus during FY 2004 showed that incorrect interest payments or
noncompliance with certain provisions of the Prompt Payment Act occurred for an estimated
11 percent of invoices paid. The errors occurred because DoD did not have effective systems or
personnel controls in place to ensure compliance. We plan to issue a separate report on
compliance with the Prompt Payment Act in early FY 2006 with specific recommendations to
correct these deficiencies and improve controls.

Audit Disclosures
The Under Secretary of Defense (Comptroller)/Chief Financial Officer acknowledged to us on
March 21, 2005, that the DoD financial management systems cannot provide adequate evidence
supporting various material amounts on the financial statements. Therefore, we did not perform
detailed testing related to previously identified material weaknesses. In addition, we did not
perform audit work related to the following selected provisions of laws and regulations:
Provisions Governing Claims of the United States Government (including provisions of the Debt
Collection Improvement Act), Federal Credit Reform Act, and the Pay and Allowance System
for Civilian Employees.

This report does not include recommendations to correct the material internal control weaknesses
and instances of noncompliance because previous audit reports contained recommendations for
corrective actions, or audit projects currently in process will include appropriate
recommendations.




                                                                                                          Attachment

                                                            144
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

Principal Financial Statements and Notes                                  net position resulting from the net cost of DoD
                                                                          operations, budgetary financing sources other than
The principal financial statements included in this                       exchange revenues and other financing sources for
report have been prepared in accordance with the                          the years ended September 30, 2005 and 2004.
requirements of the Chief Financial Officers Act of
1990 (P.L. 101-576), the Government Management                            The Combined Statement of
Reform Act of 1994, and the Office of Management                          Budgetary Resources
and Budget’s (OMB) Circular A-136, “Financial                             The Combined Statement of Budgetary Resources,
Reporting Requirements.” The responsibility for                           which present the budgetary resources available to
the integrity of the financial information included                       DoD during FY 2005 and 2004, the status of these
in these statements rests with management of the                          resources at September 30, 2005 and 2004, and the
Department of Defense. The Department’s fiscal                            outlay of budgetary resources for the years ended
years 2005 and 2004 principal financial statements                        September 30, 2005 and 2004.
were audited by the Office of Inspector General.
The auditors’ report accompanies the principal                            The Consolidated Statement of Financing
statements.                                                               The Consolidated Statement of Financing, which
                                                                          reconciles the net cost of operations with the
The Department’s principal financial statements                           obligation of budgetary resources for the years ended
for fiscal years 2005 and 2004 consisted of the                           September 30, 2005 and 2004.
following:
                                                                          The Combined Statement of Custodial Activity
The Consolidated Balance Sheet                                            The Combined Statement of Custodial Activity,
The Consolidated Balance Sheet, which present as                          which present the sources and disposition of
of September 30, 2005 and 2004 those resources                            nonexchange revenues collected or accrued by DoD
owned or managed by DoD which are available to                            on behalf of other recipient entities for the years
provide future economic benefits (assets); amounts                        ended September 30, 2005 and 2004.
owed by DoD that will require payments from those
resources or future resources (liabilities) and residual                  Limitations of Financial Statements
amounts retained by DoD, comprising the difference                        The following limitations apply to the preparation of
(net position).                                                           the fiscal year 2005 financial statements:

The Consolidated Statement of Net Cost                                    The principal financial statements have been prepared to
The Consolidated Statement of Net Cost, which                             report the financial position and results of operations of the
present the net cost of DoD operations for the years                      Department of Defense, pursuant to the requirements of
ended September 30, 2005 and 2004. DoD’s net                              31 U.S.C. 3515 (b). The statements are prepared from
cost of operations includes the gross costs incurred                      the books and records of the Department in accordance
by DoD less any exchange revenue earned from                              with OMB Bulletin A-136 and to the extent possible
DoD activities.                                                           generally accepted accounting principles. The statements
                                                                          are in addition to the financial reports used to monitor
The Consolidated Statement of Changes                                     and control budgetary resources which are prepared from
in Net Position                                                           the same books and records. The statements should be read
The Consolidated Statement of Changes in Net                              with the realization that they are for a component of the
Position, which present the change in DoD’s                               U.S. Government, a sovereign entity.


                                                                    145
                                                                                                   DoD Performance & Accountability Report FY2005
                      ..................................................................................................Part 3: Financial Information

                                                            Principal Statements

   CONSOLIDATED BALANCE SHEET
CONSOLIDATED BALANCE SHEET
  Department
Department         of Defense
           of Defense
As As  of September
   of September 30           30
    ($millions)
($ in  in millions)
                                                                        2005                           2004
                                                                                                      Restated
ASSETS
Intragovernmental
Fund Balance with Treasury (Notes 2 and 3)                      $               290,657.1      $                  289,598.9
Investments (Note 4)                                                            263,367.8                         231,069.7
Accounts Receivable, Net (Note 5)                                                    1,291.3                        1,118.3
Other Assets (Note 6)                                                                1,394.2                        1,011.9
Total Intragovernmental Assets                                                  556,710.4                         522,798.8


Cash and Other Monetary Assets (Note 7)                                              2,072.7                        2,178.1
Accounts Receivable, Net (Note 5)                                                    7,615.5                        7,427.8
Loans Receivable (Note 8)                                                              75.6                            70.7
Inventory and Related Property (Note 9)                                         222,573.3                         220,505.6
General Property, Plant and Equipment (Note 10)                                 460,699.3                         440,898.6
Investments (Note 4)                                                                 605.0                         406.5
Other Assets (Note 6)                                                             23,822.1                      21,486.3
Total Assets                                                    $              1,274,173.9     $             1,215,772.4


LIABILITIES
Intragovernmental
Accounts Payable (Note 12)                                      $                    2,058.0   $                    1,888.4
Debt (Note 13)                                                                        467.1                           591.8
Other Liabilities (Notes 15 and 16)                                               11,150.8                         10,726.9
Total Intragovernmental Liabilities                                              13,675.9                          13,207.1


Accounts Payable (Note 12)                                                       28,575.4                          28,309.0
Military Retirement Benefits and Other Employment Related
                                                                               1,736,057.8                   1,569,704.7
Actuarial Liabilities (Note 17)
Environmental Liabilities (Note 14)                                              65,027.6                          64,367.2
Loan Guarantee Liability (Note 8)                                                      41.1                            34.4
Other Liabilities (Notes 15 and 16)                                              29,985.4                          34,491.2
Total Liabilities                                               $              1,873,363.2     $             1,710,113.6


NET POSITION
Unexpended Appropriations                                       $               271,493.6      $                  243,813.9
Cumulative Results of Operations                                               (870,682.9)                       (738,155.1)
Total Net Position                                             $               (599,189.3)     $                 (494,341.2)


Total Liabilities and Net Position                              $              1,274,173.9     $             1,215,772.4




                                                                               146
                                                                                                                                       DoD Performance & Accountability Report FY2005
                           ..................................................................................................Part 3: Financial Information


     CONSOLIDATED STATEMENT OF NET COST (Note 18)
CONSOLIDATED STATEMENT OF NET COST (Note 18)
  Department of Defense
Department of Defense
As As   of September
   of September 30                      30
($ in($millions)
        in millions)
                                                                                                        2005                                               2004



Program Costs
Intragovernmental Gross Costs                                                           $                              24,510.0                $                      23,574.5
(Less: Intragovernmental Earned Revenue)                                                                              (18,264.1)                                     (15,429.0)
Intragovernmental Net Costs                                                             $                               6,245.9                $                        8,145.5


Gross Costs With the Public                                                             $                             655,576.6                $                     619,573.8
(Less: Earned Revenue From the Public)                                                                                (26,943.0)                                     (22,354.4)
Net Costs With the Public                                                               $                             628,633.6                $                     597,219.4


Net Cost of Operations                                                                  $                             634,879.5                $                     605,364.9




     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION (Note 19)
     Department of Defense
     As of September 30
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION (Note 19)
Department of Defense
     ($ in millions)
As of September 30
($ in millions)                                                                                        2005                                                                              2004

                                                                        Cumulative Results of                                                              Cumulative Results of
                                                                            Operations                        Unexpended Appropriations                        Operations                       Unexpended Appropriations
                                                                                                                                                                Restated


Beginning Balances                                              $                     (745,441.3)             $                    243,813.9       $                      (621,610.7)           $                192,955.8
Prior Period Adjustments
Changes in Accounting Principles                                                            3,632.4                                            -                               699.5                                        -
Correction of Errors                                                                        7,256.5                                            -                            (8,301.8)                              25,913.7
Beginning Balances, as adjusted                                 $                     (734,552.4)             $                     243,813.9      $                      (629,213.0)           $                218,869.5


Budgetary Financing Sources
Appropriations received                                             $                             -           $                     524,990.1          $                             -          $                512,194.5
Appropriations transferred in(out)                                                                                                     (651.7)                                                                        485.6
Other adjustments (recissions, etc)                                                                                                  (5,078.2)                                                                     (9,114.6)
Appropriations used                                                                    491,580.5                                   (491,580.5)                             478,621.1                            (478,621.1)
Nonexchange revenue                                                                         1,665.0                                            -                             1,469.7                                   (0.1)
Donations and forfeitures of cash and cash equivalents                                        42.6                                             -                                   7.0                                  0.1
Transfers in(out) without reimbursement                                                     3,176.4                                            -                            10,568.6                                        -
Other budgetary financing sources                                                               0.5                                            -                              4,511.5                                       -


Other Financing Sources
Donations and forfeitures of property                           $                               1.5               $                            -   $                               0.4          $                           -
Transfers in(out) without reimbursement                                                      (14.3)                                            -                            (2,848.6)                                       -
Imputed financing from costs absorbed by others                                             4,465.3                                            -                             4,092.5                                        -
Other                                                                                   (2,168.5)                                              -                                   0.6                                      -
Total Financing Sources                                         $                      498,749.0              $                      27,679.7      $                       496,422.8            $                  24,944.4


Net Cost of Operations                                          $                      634,879.5                  $                            -   $                       605,364.9            $                           -


Net Change                                                      $                     (136,130.5)             $                      27,679.7      $                      (108,942.1)           $                  24,944.4


Ending Balance (Note 19)                                        $                     (870,682.9)             $                     271,493.6      $                      (738,155.1)           $                243,813.9


                                                                                                      147
                                                                                                                                  DoD Performance & Accountability Report FY2005
                            ..................................................................................................Part 3: Financial Information


     COMBINED STATEMENT OF BUDGETARY RESOURCES (Note 20)
     Department of Defense
     As of September 30
COMBINED STATEMENT OF BUDGETARY RESOURCES (Note 20)
     ($ in millions)
Department of Defense
As of September 30
($ in millions)                                                                                     2005                                                                     2004

                                                                     Budgetary Financing                       Non-Budgetary Financing                                                  Non-Budgetary Financing
                                                                         Accounts                                    Accounts                Budgetary Financing Accounts                     Accounts


BUDGETARY RESOURCES
Budget Authority:
Appropriations received                                          $                 604,969.5                   $                         -    $                 582,010.7           $                             -
Borrowing authority                                                                            -                                   170.3                               0.1                                   114.6
Contract authority                                                                  56,753.1                                             -                       34,855.8                                         -
Net transfers                                                                         (220.0)                                            -                         (519.3)                                        -
Other                                                                                          -                                         -                               -                                        -
Unobligated balance:
Beginning of period                                              $                  73,282.9               $                        24.6      $                 256,659.0           $                        21.8
Net transfers, actual                                                                  484.5                                             -                          782.0                                         -
Spending authority from offsetting collections:
Earned:
      Collected                                                  $                 158,928.0               $                        16.9      $                 146,274.3           $                        17.4
      Receivable from federal sources                                                  (18.2)                                            -                          (79.7)                                   (0.6)
Change in unfilled customer orders:
      Advanced received                                                                642.0                                             -                          360.5                                         -
      Without advance from federal sources                                           5,065.9                                        40.6                            980.0                                    47.2
Subtotal                                                         $                 164,617.7               $                        57.5      $                 147,535.1           $                        64.0
Recoveries of prior year obligations                             $                  36,376.7                   $                         -    $                  33,681.9           $                             -
Temporarily not available pursuant to Public Law                                   (31,875.4)                                            -                          (10.0)                                        -
Permanently not available                                                          (58,299.7)                                       (2.2)                       (40,338.0)                                   20.7
Total Budgetary Resources                                        $                 846,089.3               $                       250.2      $                1,014,657.2          $                       221.1

STATUS OFBUDGETARY RESOURCES
Obligations Incurred:
      Direct                                                     $                 601,516.8               $                       215.2      $                 568,053.7           $                       196.6
      Reimbursable                                                                 175,983.1                                             -                      152,658.9                                         -
      Subtotal                                                   $                 777,499.9               $                       215.2      $                 720,712.6           $                       196.6
Unobligated balance:
    Apportioned                                                  $                  59,206.9               $                         1.5      $                  58,631.0           $                          1.4
      Exempt from apportionment                                                        725.9                                             -                      183,488.1                                         -
      Other available                                                                      (0.4)                                         -                             0.3                                        -
Unobligated Balances Not Available                               $                   8,657.0               $                        33.5      $                  51,825.3           $                        23.1
Total, Status of Budgetary Resources                             $                 846,089.3               $                       250.2      $                1,014,657.3          $                       221.1


Relationship of Obligations to Outlays:
      Obligated Balance, Net - beginning of period               $                 233,234.1               $                       155.7      $                 214,371.9           $                        29.9
      Obligated Balance transferred, net                                                       -                                         -                          (14.1)                                        -
      Obligated Balance, Net - end of period:
            Accounts Receivable                                  $                 (10,118.7)                  $                         -   $                  (10,136.8)          $                             -
            Unfilled customer order from federal sources                           (44,468.0)                                     (123.7)                       (39,402.0)                                  (83.1)
            Undelivered orders                                                     250,153.2                                       446.3                        228,801.3                                   238.8
            Accounts payable                                                        50,292.3                                             -                       53,470.6                                         -
      Outlays:
            Disbursements                                        $                 723,450.6               $                         7.7      $                 667,755.1           $                        24.1
            Collections                                                           (159,570.1)                                      (16.9)                      (146,634.7)                                  (17.4)
            Subtotal                                             $                 563,880.5               $                        (9.2)     $                 521,120.4           $                          6.7
      Less: Offsetting receipts                                                    (55,072.9)                                            -                      (46,546.4)                                        -
Net Outlays                                                      $                 508,807.6               $                        (9.2)     $                 474,574.0           $                          6.7




                                                                                                   148
                                                                                                                 DoD Performance & Accountability Report FY2005
                      ..................................................................................................Part 3: Financial Information


   CONSOLIDATED STATEMENT OF FINANCING (Note 21)
CONSOLIDATED STATEMENT OF FINANCING (Note 21)
Department of Defense
     Department of Defense
As of September 30
($ inAs    of September 30
      millions)
   ($ in millions)
                                                                                                              2005                      2004


Resources Used to Finance Activities
Bugetary Resources Obligated                                                                              $          777,715.1     $           720,909.2
    Obligations incurred
    Less: Spending authority from offsetting collections and recoveries                                              (201,052.5)               (181,281.0)
    Obligations net of offsetting collections and recoveries                                                           576,662.6                 539,628.2
    Less: Offsetting receipts                                                                                         (55,072.9)                (46,546.4)
    Net Obligations                                                                                                   521,589.7                 493,081.8
Other Resources
    Donations and forfeitures of property                                                                 $                  1.5   $                   0.4
    Transfers in(out) without reimbursement                                                                               (14.3)                 (2,848.6)
    Imputed financing from costs absorbed by others                                                                     4,465.3                   4,092.5
    Other                                                                                                              (2,168.5)                       0.6
    Net other resources used to finance activities                                                                      2,284.0                   1,244.9
Total Resources used to finance activities                                                                $           523,873.7    $            494,326.7


Resources Used to Finance Items not Part of the Net Cost of Operations

Change in budgetary resources obligated for goods, services and benefits ordered but not yet provided
   Undelivered Orders                                                                                     $           (42,391.5)   $            (13,925.6)
    Unfilled Customer Orders                                                                                             5,748.6                   1,387.4
Resources that fund expenses recognized in prior periods                                                               (2,610.0)                 (2,637.4)
Budgetary offsetting collections and receipts that do not affect Net Cost of Operations                                  3,325.1                   2,645.4
Resources that finance the acquisition of assets                                                                     (112,714.7)                (86,943.6)
Other resources or adjustments to net obligated resources that do not affect Net Cost of Operations
    Less: Trust or Special Fund Receipts Related to Exchange                                                              (10.0)                     (10.0)
    Other                                                                                                                2,176.3                   2,855.5
Total resources used to finance items not part of the Net Cost of Operations                              $          (146,476.2)   $            (96,628.3)

Total resources used to finance the Net Cost of Operations                                                $          377,397.5     $            397,698.4

Components of the Net Cost of Operations that will not Require or Generate Resources in the
Current Period
Components Requiring or Generating Resources in the Future Period:
    Increase in annual leave ability                                                                      $               615.1    $                514.8
    Increase in environmental and disposal liability                                                                    1,100.3                   3,864.6
    Updward(Downward) reestimates of credit subsidy expense                                                                   -                      14.9
    Increase in exchange revenue receivable from the public                                                                40.5                     (73.8)
   Other                                                                                                              168,069.4                 139,064.9
   Total components of Net Cost of Operations that will require or generate resources in future periods   $           169,825.3    $            143,385.4
Components not Requiring or Generating Resources:
    Depreciation and amortization                                                                         $            48,944.0    $             42,249.2
    Revaluation of assets and liabilities                                                                               1,775.1                  (5,712.6)
    Other
        Trust Fund Exchange Revenue                                                                                   (26,007.0)                (24,285.4)
        Cost of Goods Sold                                                                                             46,172.4                  41,421.8
        Operating Materials and Supplies Used                                                                             246.8                   4,655.9
        Other                                                                                                          16,525.4                   5,952.2

Total components of Net Cost of Operations that will require not require or generate resources            $            87,656.7    $             64,281.1

Total components of Net cost of Operations that will not require or generate
                                                                                                          $           257,482.0    $            207,666.5
resources in the current period

Net Cost of Operations                                                                                    $             634,880    $              605,365



                                                                                                 149
                                                                                                              DoD Performance & Accountability Report FY2005
                    ..................................................................................................Part 3: Financial Information


   COMBINED STATEMENT OF CUSTODIAL ACTIVITY (Note 22)
  Department
COMBINED   STATEMENTof Defense
                        OF CUSTODIAL ACTIVITY (Note 22)
  As of September 30
Department of Defense
As ($ in millions)
   of September 30
($ in millions)
                                                                                          2005                             2004

SOURCE OF COLLECTIONS
Deposits by Foreign Governments                                                 $                10,693.1         $               11,237.5
Seized Iraqi Cash                                                                                         -                          118.3
Total Cash Collections                                                                           10,693.1                         11,355.8
Accrual Adjustments                                                                                       -                            0.9
Total Custodial Collections                                                     $                10,693.1         $               11,356.7

DISPOSITION OF COLLECTIONS
   Disbursed on Behalf of Foreign Governments and International Organizations   $                11,070.7         $                9,998.8
   Seized Assets Disbursed on behalf of Iraqi People                                                 52.1                            283.1
   Increase (Decrease) in Amounts to be Transferred                                               (377.6)                          1,239.5
   Seized Assets Retained for Support of the Iraqi People                                          (52.1)                          (164.7)
   Total Disposition of Collections                                             $                10,693.1         $               11,356.7
NET CUSTODIAL COLLECTION ACTIVITY                                               $                     -           $                     -




                                                                                    150
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

                                     Notes to the Principal Statements

Note 1 - Significant Accounting Policies

1.A. Basis of Presentation

These financial statements have been prepared to report the financial position and results of operations of
the Department of Defense (DoD), as required by the Chief Financial Officers Act of 1990, expanded by the
Government Management Reform Act of 1994, and other appropriate legislation. The financial statements
have been prepared from the books and records of the Department in accordance with the “DoD Financial
Management Regulation,” Office of Management and Budget Circular A-136, (Financial Management
Reporting Requirements), and to the extent possible generally accepted accounting principles (GAAP). The
accompanying financial statements account for all resources for which the Department is responsible. Starting
in FY 2005, the Department’s Statements of Financing is presented as Consolidated and Consolidating in
accordance with OMB Circular A-136. The methodology used to compute the line amounts has not changed
from prior years. Information relative to classified assets, programs, and operations is excluded from the
statements or otherwise aggregated and reported in such a manner that it is no longer classified.

The Department is unable to fully implement all elements of GAAP and Office of Management and
Budget Circular A-136 due to limitations of its financial management processes and systems, and non-
financial systems and processes that feed into the financial statements. The Department derives its reported
values and information for major asset and liability categories largely from non-financial systems, such as
inventory systems and logistics systems. These systems were designed to support reporting requirements for
maintaining accountability over assets and reporting the status of federal appropriations rather than preparing
financial statements in accordance with GAAP. The Department continues to implement process and system
improvements addressing these limitations. The Department currently has 11 auditor-identified financial
statement material weaknesses: (1) Financial Management Systems, (2) Intragovernmental Eliminations,
(3) Accounting Entries, (4) Fund Balance with Treasury, (5) Environmental Liabilities, (6) General Property,
Plant and Equipment, (7) Government Property and Material in Possession of Contractors, (8) Inventory,
(9) Operating Materials and Supplies, (10) Statement of Net Cost, and (11) Statement of Financing.

1.B. Mission of the Reporting Entity

The National Security Act of 1947 established the Department of Defense. The Department’s mission is
to organize, train, and equip armed forces to deter aggression and, if necessary, defeat aggressors against the
United States and its allies. Fiscal year (FY) 2005 is the 10th year that the Department has prepared audited
DoD Agencywide financial statements as required by the Chief Financial Officers Act and Government
Management Reform Act. Auditors are required to audit the financial statements of the following stand-alone
reporting entities: (1) Army General Fund, (2) Army Working Capital Fund, (3) Navy General Fund, (4) Navy
Working Capital Fund, (5) Air Force General Fund, (6) Air Force Working Capital Fund,
(7) Military Retirement Fund, (8) DoD Medicare-Eligible Retiree Health Care Fund, and (9) U.S. Army Corps
of Engineers (Civil Works).



                                                                    151
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

In addition to the nine stand-alone reporting entities, separate columns in the combining/consolidating
statements are included with the financial information of the “Other Defense Organizations General Funds”
and “Other Defense Organizations Working Capital Funds.” The Office of the Inspector General will not issue
separate audit opinions on the statements of the Other Defense Organizations; instead, the financial statements
and records of those organizations are included in the audit performed to support the opinion issued on the
DoD Agencywide financial statements.

The Department requires the following Defense Agencies to prepare internal stand-alone auditable financial
statements: (1) Defense Logistics Agency, (2) Defense Finance and Accounting Service, (3) Defense
Information Systems Agency, (4) Defense Contract Audit Agency, (5) Defense Commissary Agency,
(6) Defense Security Service, (7) Defense Threat Reduction Agency, (8) Defense Advanced Research Projects
Agency, (9) Chemical Biological and Defense Program, and (10) Missile Defense Agency.

1.C. Appropriations and Funds

The Department receives its appropriations and funds as general, working capital (revolving), trust, special, and
deposit funds. The DoD components use these appropriations and funds to execute their missions and report
on resource usage.

General funds (GF) are used for financial transactions funded by Congressional appropriations, including
personnel, operation and maintenance, research and development, procurement, and military construction
accounts.

Working capital funds (WCFs) receive their initial funding through an appropriation or a transfer of resources
from existing appropriations or funds and use those capital resources to finance the initial startup. The WCF
entities provide goods and services on a reimbursable basis. Reimbursable receipts fund ongoing operations
and generally are available in their entirety for use without further Congressional action.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out
specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Special fund accounts are used to process government receipts earmarked for a specific purpose.

Deposit funds are used to record amounts held temporarily until ownership is determined. The Department is
acting as an agent or a custodian for funds awaiting distribution, for example, payroll taxes.

1.D. Basis of Accounting

For FY 2005, the Department’s financial management systems are unable to meet all of the requirements for
full accrual accounting. Many of the Department’s financial and non-financial feeder systems and processes
were designed and implemented prior to the issuance of GAAP for federal agencies and, therefore, were not
designed to collect and record financial information on the full accrual accounting basis as required by GAAP.
Most of the Department’s legacy systems were designed to record information on a budgetary basis.


                                                                    152
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

The Department has undertaken efforts to determine the actions required to bring its financial and non-
financial feeder systems and processes into compliance with GAAP. One such action is the current revision of
its accounting systems to record transactions based on the United States Standard General Ledger (USSGL).
Until all of the Department’s financial and non-financial feeder systems and processes are updated to collect
and report financial information as required by GAAP, the DoD’s financial data will be based on budgetary
transactions (obligations, disbursements, and collections), transactions from non-financial feeder systems, and
adjustments for known accruals of major items such as payroll expenses, accounts payable, and environmental
liabilities.

In addition, the Department identifies program costs based upon the major appropriation groups provided
by the Congress. Current processes and systems do not capture and report accumulated costs for major
programs based upon the performance measures as required by the Government and Performance and Results
Act (GPRA). The Department is in the process of reviewing available data and attempting to develop a cost
reporting methodology that balances the need for cost information required by GPRA and the Statement of
Federal Financial Accounting Standard (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards
for the Federal Government,” with the need to keep the financial statements from being overly voluminous.

1.E. Revenues and Other Financing Sources

The Department receives Congressional appropriations as financing sources for general funds on either an
annual or multi-year basis. When authorized, these appropriations are supplemented by revenues generated
by sales of goods or services. The Department recognizes revenue as a result of costs incurred for goods and
services provided to other federal agencies and the public. Full cost pricing is the Department’s standard policy
for services provided as required by OMB Circular A-25. The Department recognizes revenue when earned
within the constraints of current system capabilities. In some instances, revenue is recognized when bills are
issued.

The Department does not include non-monetary support provided by U.S. allies for common defense and
mutual security in amounts reported in its Statements of Net Cost and Financing. The U.S. has cost-sharing
agreements with other countries. Examples include countries where there is a mutual or reciprocal defense
agreement, where U.S. troops are stationed, or where the U.S. fleet is in a port.

1.F. Recognition of Expenses

For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period
incurred. However, because the Department’s financial and non-financial feeder systems were not designed to
collect and record financial information on the full accrual accounting basis, accrual adjustments are made for
major items such as payroll expenses, accounts payable, environmental liabilities, and unbilled revenue. The
Department’s expenditures for capital and other long-term assets are recognized as operating expenses based
on depreciation. In the case of Operating Materials and Supplies (OM&S), operating expenses are generally
recognized when the items are purchased. Efforts are underway to migrate towards the consumption method
for recognizing OM&S expenses.



                                                                    153
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

1.G. Accounting for Intragovernmental Activities

Preparation of reliable financial statements requires the elimination of transactions occurring among entities
within the Department or between two or more federal agencies. However, the Department cannot accurately
identify most of its intragovernmental transactions by customer because DoD’s systems do not track buyer
and seller data needed to match related transactions. Seller entities within the Department provide summary
seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD
accounting offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances.
Intra-DoD intragovernmental balances are then eliminated. Starting in FY 2005, the Department properly
eliminates the revenue resulting from intra-DoD sales of capitalized assets. The Department is developing
long-term systems improvements that will include sufficient up-front edits and controls to eliminate the need
for after-the-fact reconciliations. The volume of intragovernmental transactions is so large that after-the-fact
reconciliation cannot be accomplished effectively with the existing or foreseeable resources.

The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating
transactions between the Department and other federal agencies. The Treasury Financial Manual Part 2
– Chapter 4700 “Agency Reporting Requirements for the Financial Report of the United States Government,”
and the Treasury’s “Federal Intragovernmental Transactions Accounting Policies Guide,” provide guidance
for reporting and reconciling intragovernmental balances. While the Department is unable to fully reconcile
intragovernmental transactions with all federal partners, the Department is able to reconcile balances pertaining
to investments in federal securities, borrowings from the U.S. Treasury and the Federal Financing Bank,
Federal Employees’ Compensation Act transactions with the Department of Labor (DoL), and benefit program
transactions with the Office of Personnel Management (OPM). The Department’s proportionate share of
public debt and related expenses of the federal government are not included. The federal government does
not apportion debt and its related costs to federal agencies. The DoD’s financial statements, therefore, do not
report any portion of the public debt or interest thereon, nor do the statements report the source of public
financing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this
financing ultimately may have been obtained through the issuance of public debt, interest costs have not been
capitalized since the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

1.H. Transactions with Foreign Governments and International Organizations

Each year, the DoD components sell defense articles and services to foreign governments and international
organizations, primarily under the provisions of the “Arms Export Control Act of 1976.” Under the
provisions of the Act, the Department has authority to sell defense articles and services to foreign countries
and international organizations, generally at no profit or loss to the U.S. Government. Payment is required in
advance.

1.I. Funds with the U.S. Treasury

The Department’s monetary financial resources are maintained in U.S. Treasury accounts. The disbursing
offices of the Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps

                                                                    154
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

of Engineers (USACE), and the Department of State’s financial service centers process the majority of the
Department’s cash collections, disbursements, and adjustments worldwide. Each disbursing station prepares
monthly reports that provide information to the U.S. Treasury on check issues, electronic fund transfers, and
interagency transfers and deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury,
by appropriation, on interagency transfers, collections received, and disbursements issued. The Department
of the Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account.
Differences between the Department’s recorded balance in the FBWT accounts and Treasury’s FBWT accounts
sometimes result and are subsequently reconciled.

1.J. Foreign Currency

Cash is the total of cash resources under the control of the Department of Defense, which includes coin, paper
currency, negotiable instruments, and amounts held for deposit in banks and other financial institutions.
Foreign currency consists of the total U.S. dollar equivalent of both purchased and non-purchased foreign
currencies held in foreign currency fund accounts.

The majority of cash and all foreign currency is classified as non-entity and, therefore, restricted. Amounts
reported consist primarily of cash and foreign currency held by Disbursing Officers to carry out their paying,
collecting, and foreign currency accommodation exchange missions. Cash seized during Operation Iraqi
Freedom is restricted for use to assist the Iraqi people and support the reconstruction of Iraq.

The Department conducts a significant portion of its operations overseas. The Congress established a special
account to capture the gains and losses from foreign currency transactions for five general fund appropriations
(operation and maintenance, military personnel, military construction, family housing operation and
maintenance, and family housing construction). The gains and losses are computed as the variance between the
exchange rate at the date of payment and a budget rate established at the beginning of each fiscal year. Foreign
currency fluctuations related to other appropriations require adjustments to the original obligation amount at
the time of payment. The Department does not separately identify currency fluctuations

1.K. Accounts Receivable

As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable from
other federal entities or from the public. Allowances for uncollectible accounts due from the public are based
upon analysis of collection experience by fund type. The Department does not recognize an allowance for
estimated uncollectible amounts from other federal agencies. Claims against other federal agencies are to be
resolved between the agencies (per the Code of Federal Regulations 4 CFR 101).

The DoD components use a variety of techniques for estimating the Allowance for Uncollectible Accounts
Receivable from the public. While the exact details differ among the DoD components, estimates are usually
based on either a percentage of actual prior-year write-offs or a percentage of aged accounts receivable from the
public.


                                                                    155
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

1.L. Loans Receivable

The Department operates a direct loan and loan guarantee program authorized by the National Defense
Authorization Act for FY 1996 Public Law 104-106, Statute 186, Section 2801. The Act includes a series
of authorities that allow the Department to work with the private sector to renovate military housing. The
Department’s goals are to obtain private capital to leverage government dollars, make efficient use of limited
resources, and use a variety of private sector approaches to build and renovate military housing faster and at a
lower cost to American taxpayers.

The Act also provides the Department with a variety of authorities to obtain private sector financing and
expertise to improve military housing. The Department uses these authorities individually or in combination.
They include guarantees (both loan and rental); conveyance/leasing of existing property and facilities;
differential lease payments; investments (both limited partnerships and stock/bond ownership); and direct
loans. In addition, the Federal Credit Reform Act of 1990 governs all amended direct loan obligations and
loan guarantee commitments made after FY 1991 resulting in direct loans or loan guarantees.

The Department also operates a loan guarantee program designed to encourage commercial use of inactive
government facilities. The revenue generated from property rental offsets the cost of maintaining these
facilities.

1.M. Inventories and Related Property

Most of the Department’s inventories are currently reported at an approximation of historical cost using latest
acquisition cost adjusted for holding gains and losses. The latest acquisition cost method is used because legacy
inventory systems were designed for materiel management rather than accounting. Although these systems
provide visibility and accountability over inventory items, they do not maintain historical cost data necessary
to comply with SFFAS No. 3, “Accounting for Inventory and Related Property.” Additionally, these systems
cannot produce financial transactions using the USSGL, as required by the Federal Financial Management
Improvement Act of 1996 (P.L. 104-208). By utilizing new systems development processes, the DoD
components have transitioned, and are continuing to transition, their inventory to the moving average cost
method. Upon full implementation, the Department will be compliant with SFFAS No. 3. Approximately
35 percent of the Department’s inventory value is now being reported from systems that have transitioned to
moving average cost functionality. However, since the on-hand balances which transitioned were not, for the
most part, baselined to auditable historical cost, the reported values remain noncompliant with SFFAS No. 3
and GAAP.

The Department manages only military or government-specific materiel under normal conditions. Items
commonly used in and available from the commercial sector are not managed in the DoD materiel
management activities. Operational cycles are irregular, and the military risks associated with stock-out
positions have no commercial parallel. The Department holds materiel based on military need and support for
contingencies. Therefore, the Department does not attempt to account separately for “inventory held for sale”
and “inventory held in reserve for future sale” based on SFFAS No. 3 definitions.



                                                                    156
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

Related property includes operating materials and supplies (OM&S) and stockpile materials. OM&S,
including munitions not held for sale, are valued at standard purchase price. The Department uses both the
consumption method and the purchase method of accounting for OM&S. Items that are centrally managed
and stored such as ammunition and engines, are generally recorded using the consumption method and
reported on the Balance Sheet as OM&S. When current systems cannot fully support the consumption
method, the Department uses the purchase method - that is, materials and supplies are expensed when
purchased. For FY 2005, the Department expensed significant amounts using the purchase method either
because the systems could not support the consumption method or because management deemed that the item
was in the hands of the end user.

The Department determined that the recurring high dollar value of OM&S in need of repair is material to
the financial statements and requires a separate reporting category. Many high-dollar managed items, such as
aircraft engines, are categorized as OM&S rather than military equipment by DoD activities.

The Department recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The net value of
condemned materiel is zero, because the costs of disposal are greater than the potential scrap value. Potentially
redistributable materiel, presented in previous years as “Excess, Obsolete, and Unserviceable,” is included in
“Held for Use” or “Held for Repair” categories according to its condition.

Past audits identified uncertainties about the completeness and existence of the reported values of inventory.
Inventory available and purchased for resale includes consumable spare and repair parts and repairable
items owned and managed by the Department. This inventory is retained to support military or national
contingencies. Inventory held for repair is damaged inventory that requires repair to make suitable for sale. It
is more economical to repair than to procure these inventory items. Because the Department often relies on
weapon systems and machinery no longer in production, the Department supports a process that encourages
the repair and rebuilding of certain items. This repair cycle is essential to maintaining a ready, mobile, and
armed military force. Finally, work in process balances include costs related to the production or servicing of
items, including direct materiel, direct labor, applied overhead, and other direct costs. Work in process also
includes the value of finished products or completed services pending the submission of bills to the customer.
The work in process designation may also be used to accumulate amounts paid to contractors under cost
reimbursable contracts, including amounts withheld from payment to ensure performance, and amounts
paid to other government plants for accrued costs of end items of materiel ordered but not delivered. Work
in process includes munitions in production and depot maintenance work with its associated labor, applied
overhead, and supplies used in the delivery of maintenance services.

1.N. Investments in U.S. Treasury Securities

The Department reports investments in U.S. Treasury securities at cost, net of amortized premiums or
discounts. Premiums or discounts are amortized into interest income over the term of the investment using
the effective interest rate method or another method obtaining similar results. The Department’s intent is
to hold investments to maturity, unless they are needed to finance claims or otherwise sustain operations.
Consequently, a provision is not made for unrealized gains or losses on these securities.




                                                                    157
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

The Department invests in both marketable and non-marketable securities. Marketable securities are
investments trading on a public market. The two types of non-marketable securities are par value and
market-based intragovernmental securities. The Bureau of Public Debt issues non-marketable par value
intragovernmental securities. Non-marketable, market-based intragovernmental securities mimic marketable
securities, but are not traded publicly.

The Department’s Net Investments are supported by various Trust Funds in each of the reporting entities.
These Trust Funds are comprised of the Military Retirement Trust Fund (MRF); Medicare-Eligible Retiree
Health Care Fund (MERHCF); Other Defense Organizations General Fund (ODO GF) trust funds;
donations (Gift Funds); and the USACE South Dakota Terrestrial Habitat Restoration, Inland Waterways, and
Harbor Maintenance Trust Fund accounts

1.O. General Property, Plant and Equipment

The SFFAS No. 23 establishes generally accepted accounting principles for valuing and reporting military
equipment (e.g., ships, aircraft, combat vehicles, and weapons) in federal financial statements. The
standard requires the capitalization and depreciation of the cost of military equipment, including the cost of
modifications and upgrades for accounting periods beginning after September 30, 2002. The Department uses
data from the Bureau of Economic Analysis to calculate a value for military equipment.

General Plant, Property, and Equipment (PP&E) assets are capitalized at historical acquisition cost plus
capitalized improvements when an asset has a useful life of 2 or more years, and when the acquisition cost
equals or exceeds the DoD capitalization threshold of $100,000, except for the USACE and WCF as discussed
below. Also, the DoD requires capitalization of improvement costs over the DoD capitalization threshold of
$100,000 to General PP&E. The Department depreciates all General PP&E, other than land, on a straight-
line basis.

Prior to FY 1996, General PP&E was capitalized if it had an acquisition cost of $15,000, $25,000, and
$50,000 for FYs 1993, 1994, and 1995, respectively, and an estimated useful life of 2 or more years. General
PP&E previously capitalized at amounts below $100,000 were written off General Fund financial statements
in FY 1998. No adjustment was made for WCF assets. These assets remain capitalized and reported on WCF
financial statements.

The USACE Civil Works General PP&E assets are capitalized at historical acquisition cost plus capitalized
improvements when an asset has a useful life of 2 or more years, and when the acquisition cost exceeds
$25,000. One exception is all buildings and structures related to hydropower projects are capitalized regardless
of cost. During 2003, the Corps increased its buildings and structures threshold from $0 to $25,000 for all
Civil Works appropriations with the exception of Revolving Fund and Power Marketing Agency assets. All
Civil Works buildings and structures currently capitalized under $25,000 (excluding Revolving Fund and
Power Marketing Agency) were expensed in FY 2003 and removed from the Corps of Engineers Financial
Management System. Beginning in FY 2004, all Civil Works Buildings and Structures under $25,000 are
expensed except for Power Marketing Agency assets.




                                                                    158
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

When it is in the best interest of the government, the Department provides government property necessary to
contractors to complete contract work. The Department either owns or leases such property, or it is purchased
directly by the contractor for the government based on contract terms. When the value of contractor-procured
General PP&E exceeds the DoD capitalization threshold, it must be reported on the Department’s Balance
Sheet.

The Department is developing new policies and a contractor reporting process that will provide appropriate
General PP&E information for future financial statement reporting purposes. Accordingly, the Department
reports only the government property in the possession of contractors that is maintained in the DoD’s property
systems.

To bring the DoD into fuller compliance with federal accounting standards, the Department has issued new
property accountability and reporting regulations that require the DoD components to maintain, in their
property systems, information on all property furnished to contractors. This action and other DoD proposed
actions are structured to capture and report the information necessary for compliance with federal accounting
standards.

1.P. Advances and Prepayments

The Department records payments in advance of the receipt of goods and services as advances or prepayments
and reports them as assets on the Balance Sheet. In addition, when the Department receives the related goods
and services, it recognizes advances and prepayments as expenses.

1.Q. Leases

Generally, lease payments are for the rental of equipment and operating facilities and are classified as either
capital or operating leases. When a lease is essentially equivalent to an installment purchase of property (a
capital lease), the Department records the applicable asset and liability if the value equals or exceeds the current
DoD capitalization threshold. The Department records the amounts as the lesser of the present value of the
rental and other lease payments during the lease term (excluding portions representing executory costs paid
to the lessor) or the asset’s fair market value. The discount rate for the present value calculation is either the
lessor’s implicit interest rate or the government’s incremental borrowing rate at the inception of the lease. DoD
as the lessee receives the use and possession of leased property, for example real estate or equipment, from a
lessor in exchange for a payment of funds. An operating lease does not substantially transfer all the benefits
and risk of ownership. Payments for operating leases are charged to expense over the lease term as it becomes
payable.

Office space and leases entered into by the Department in support of contingency operations are the largest
components of operating leases. These costs were gathered from existing leases, General Service
Administration (GSA) bills, and Inter-service Support Agreements. Future year projections use the Consumer
Price Index (CPI), rather than the DoD inflation factor. The CPI impacts increases to the leases, especially
those at commercial lease sites. Equipment leases have a variety of lease terms, which are not expected to
be renewed upon expiration. Other operating leases are generally 1-year leases. The Department expects to


                                                                    159
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

continue to reduce the level of owned assets while increasing the number of leased assets. The Department will
strive to displace commercial leases with more economical GSA leases.

1.R. Other Assets

The Department conducts business with commercial contractors under two primary types of contracts: fixed
price and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term
contracts can cause, the Department provides financing payments. One type of financing payment that the
Department makes for real property is based upon a percentage of completion. In accordance with SFFAS
No. 1, “Accounting for Selected Assets and Liabilities,” such payments are treated as construction in process
and are reported in General PP&E on the Balance Sheet and in General PP&E, Net.

The Federal Acquisition Regulation allows the Department to make financing payments, under fixed price
contracts. The Department reports these financing payments as “Other Assets” because the Department
becomes liable only after the contractor delivers the goods in conformance with the contract terms. If the
contractor does not deliver a satisfactory product, the Department is not obligated to reimburse the contractor
for its costs and the contractor is liable to repay the Department for the full amount of the advance.

1.S. Contingencies and Other Liabilities

The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12,
“Recognition of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition,
situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty
will be resolved when one or more future events occur or fail to occur. The DoD recognizes contingencies as
liabilities when past events or exchange transactions occur, a future loss is probable and the loss amount can be
reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but
there is at least a reasonable possibility of incurring a loss or additional losses. Examples of loss contingencies
include the collectibility of receivables, pending or threatened litigation, and possible claims and assessments.
The Department’s loss contingencies arise as a result of pending or threatened litigation or claims and
assessments occur due to events such as aircraft, ship, and vehicle accidents; medical malpractice; property or
environmental damages; and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for the Department's assets. This type of liability
has two components: non-environmental and environmental. Consistent with SFFAS No. 6, “Accounting
for Property, Plant, and Equipment,” recognition of an anticipated environmental disposal liability begins
when the asset is placed into service. Non-environmental disposal liabilities are recognized for assets when
management decides to dispose of an asset based upon the Department's policy, which is consistent with
SFFAS No. 5, “Accounting for Liabilities of the Federal Government.” The Department recognizes non-
environmental disposal liabilities for National Defense PP&E nuclear-powered assets when placed into service.
Such amounts are developed in conjunction with, and not easily separately identifiable from, environmental
disposal costs.


                                                                    160
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

1.T. Accrued Leave

The Department reports as liabilities civilian annual leave and military leave that has been accrued and not
used as of the Balance Sheet date. The liability reported at the end of the accounting period reflects the current
pay rates.

1.U. Net Position

Net position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent amounts of authority that are unobligated and have not been rescinded
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for
payments have not been incurred.

Cumulative Results of Operations represent the difference, since inception of an activity, between expenses and
losses and financing sources (including appropriations, revenue, and gains). Beginning with FY 1998, these
results included the cumulative amount of donations and transfers of assets in and out without reimbursement.

1.V. Treaties for Use of Foreign Bases

The DoD components have the use of land, buildings, and other overseas facilities that are obtained through
various international treaties and agreements negotiated by the Department of State. The Department
purchases capital assets overseas with appropriated funds; however, the host country retains title to land and
improvements. Generally, treaty terms allow the DoD components continued use of these properties until
the treaties expire. In the event treaties or other agreements are terminated, whereby use of the foreign bases
is prohibited, losses are recorded for the value of any non-retrievable capital assets. This takes place after
negotiations between the U.S. and the host country have determined the amount to be paid to the U.S. for
such capital investments.

1.W. Comparative Data

Financial statement fluctuations greater than 2 percent of total assets on the Balance Sheet or 10 percent from
the previous period presented are generally explained within the Notes to the Financial Statements.

1.X. Unexpended Obligations

The Department obligates funds to provide goods and services for outstanding orders not yet delivered. The
financial statements do not reflect this liability for payment for goods and services not yet delivered.




                                                                    161
                                                                                             DoD Performance & Accountability Report FY2005
                 ..................................................................................................Part 3: Financial Information

1.Y. Undistributed Disbursements and Collections

Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to a specific obligation, payable, or receivable in the activity field records as
opposed to those reported by the U.S. Treasury. These amounts should agree with the undistributed amounts
reported on the Departmental accounting reports. In-transit payments are those payments that have been
made to other agencies or entities that have not been recorded in their accounting records. These payments are
applied to the entities' outstanding accounts payable balance. In-transit collections are those collections from
other agencies or entities that have not been recorded in the accounting records. These collections are also
applied to the entities' accounts receivable balance.

The Department of Defense policy is to allocate supported undistributed disbursements and collections
between federal and nonfederal categories based on the percentage of federal and nonfederal accounts payable
and accounts receivable. The majority of the DoD components reported following this allocation procedure.
Unsupported undistributed disbursements are recorded in accounts payable. Unsupported undistributed
collections are recorded in other liabilities.


Note 2 - Nonentity Assets

                                 As of September 30                                                2005                            2004
                                                                                                           (Amounts in millions)
  Intragovernmental Assets
       Fund Balance with Treasury                                                                         $1,653.5                        $1,913.5
       Accounts Receivable                                                                                     0.3                             8.2
       Total Intragovernmental Assets                                                                      1,653.8                         1,921.7
  Nonfederal Assets
       Cash and Other Monetary Assets                                                                      1,959.4                         2,079.6
       Accounts Receivable                                                                                 4,469.6                         5,107.7
       Other Assets                                                                                          156.9                             0.6
       Total Nonfederal Assets                                                                             6,585.9                         7,187.9
  Total Nonentity Assets                                                                                   8,239.7                         9,109.6
  Total Entity Assets                                                                                  1,265,934.2                   1,206,662.9
  Total Assets                                                                                       $1,274,173.9                   $1,215,772.5


Nonentity assets are assets for which the Department maintains stewardship accountability and responsibility
to report, but are not available for the Department’s operation.

Fluctuations

Nonentity Fund Balance with Treasury decreased a net of $260 million (14 percent). The decrease is primarily
due to the reclassification of Budget Clearing Accounts from Nonentity to Entity assets, $143.3 million in
                                                                         162
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

FY 2005. The Department also misclassified $61.6 million of Deposit Funds as Entity versus Nonentity funds
in FY 2005. The Department also disbursed $52.1 million of Iraqi seized funds for support of the Iraqi people
in FY 2005.

Nonfederal Accounts Receivable decreased $638.2 million (12 percent). This decrease represents receivables on
appropriations that closed. The decrease is due to management initiatives and emphasis in identifying valid
accounts receivable and taking the appropriate corrective action to collect these receivables.

Nonfederal Other Assets increased $156.3 million (261 percent). The increase is attributed to the
reclassification of advances to contractors to Other Assets.

Other Disclosures

Intragovernmental Assets
Nonentity Fund Balance With Treasury is comprised of four elements: Iraqi Custodial Fund, Development
Fund for Iraq, Foreign Military Sales (FMS) Trust Fund, and deposit and specific suspense accounts. The
Iraqi Custodial Fund represents Iraqi cash seized by coalition forces during Operation Iraqi Freedom. The
Development Fund for Iraq contains funds transferred from the Interim Iraqi Government to the Multi-
National Force-Iraq. These funds are used to support the Iraqi people. Under authority of the Arms Export
and Control Act, the FMS Trust Fund receives collections from foreign governments that are dedicated
specifically to FMS purchases. The deposit and suspense accounts primarily represent various deposits and
Thrift Savings Plan balances.

The Nonentity accounts receivable are primarily from cancelled year appropriations. These receivables will be
returned to the Treasury as miscellaneous receipts once collected.

Non-Federal Assets
Nonentity Cash and Other Monetary Assets consist of cash held by Disbursing Officers to carry out their
paying, collecting, and foreign currency accommodation exchange missions. Foreign currency is valued using
the Department of Treasury Prevailing Rate of Exchange.

Nonentity Accounts Receivable are primarily related to accrued interest on advance payments made to
contractors which remain in litigation; long-term receivables due from state and local municipalities for water
storage contracts, hydraulic mining, and the leasing of land for flood control purposes; and accrued interest,
penalties, fines and administrative fees receivable.

Nonentity Other assets primarily represent advances to contractors as part of an advance-payment pool
agreement with Massachusetts Institute of Technology and other nonprofit institutions. Advance-payment
pool agreements are used for the financing of cost-type contracts with nonprofit educational or research
institutions for experimental or research and development work when several contracts or a series of contracts
require financing by advance payments.




                                                                    163
                                                                                               DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information

Note 3 - Fund Balance with Treasury

                                As of September 30                                                   2005                                 2004
                                                                                                                (Amounts in millions)
 Fund Balances
    Appropriated Funds                                                                                    $278,565.8                         $267,067.5
    Revolving Funds                                                                                             8,249.0                            9,036.3
    Trust Funds	                                                                                                 406.2                             1,955.5
    Special Funds                                                                                                344.3                                 0.0
    Other Fund Types                                                                                            3,091.8                           11,539.6
    Total Fund Balances                                                                                       290,657.1                          289,598.9
 Fund Balances Per Treasury Versus Agency
   Fund Balance per Treasury                                                                                  294,103.0                          293,082.2
   Fund Balance per                                                                                           290,657.1                          289,598.9
 Reconciling Amount                                                                                            $3,445.9                           $3,483.3


                                                                              2005                                                         2004
                                            Fund Balance with          Fund Balance per                Reconciling                      Reconciling
           Reporting Entity
                                                Treasury                 Entity Books                   Amount                           Amount
                                                                                      (Amounts in millions)
 Navy GF                                               $86,922.1                 $86,079.2                         $842.9                          $986.4
 Air Force GF                                           63,268.8                  62,350.2                          918.6                           896.8
 Army GF                                                87,795.0                  87,093.3                          701.7
 ODO GF                                                 48,732.8                  47,784.2                          948.6                          1,055.7
 Corps of Engineers                                      3,180.2                     3,146.1                          34.1                          520.3
 MERHCF                                                      5.0                         5.0
 MRF                                                        22.9                       22.9
 Air Force WCF                                           1,038.6                     1,164.2                       (125.6)                          652.8
 Army WCF                                                  623.3                      623.3
 ODO WCF                                                 1,536.4                     1,410.8                        125.6                          (628.7)
 Navy WCF                                                  977.9                      977.9
 Total                                               $294,103.0                $290,657.1                        $3,445.9                         $3,483.3



Analysis of Reconciling Amounts

The Department of Defense (DoD) shows a reconciling net difference of $3.4 billion with the Department of
the Treasury, which is comprised of:



                                                                        164
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

•	 $842.9 million, for the Navy General Fund (GF), that is primarily from $792.3 million in canceling
   appropriated authority withdrawn by the Department of the Treasury at the end of the fiscal year and
   $50.6 million in receipt account transactions unavailable to the Navy.

•	 $918.6 million, for the Air Force GF, that is primarily from $783.3 million in canceling appropriated
   authority withdrawn by the Department of the Treasury at the end of the fiscal year and $123.8 million in
   preclosed receipt account balances.

•	 $701.7 million, for the Army GF, primarily from a combination of $555.1 million in canceling appropriated
   authority withdrawn by the Department of the Treasury at the end of the fiscal year and $166.8 million in
   receipt account transactions unavailable to the Army, reduced by $52.3 million in parent transfers reported in
   the fund balance for Army but not in the fund balance per Treasury for Army.

•	 $948.6 million, for the Other Defense Organizations (ODO) GF, that primarily consists of the net of the
   positive reconciling difference for the DoD component level accounts offset by the aggregated negative
   reconciling difference of approximately 50 defense agencies and organizations.

•	 $34.1 million, for the US Army Corps of Engineers, consisting of approximately $83.8 million in parent
   account allocations for the reporting of trust funds (Inland Waterways and Harbor Maintenance) for the
   Bureau of Public Debt offset by $117.9 million in preclosed receipt account balances.

•	 ($125.6) million, for the Air Force Working Capital Fund (WCF) and an offsetting $125.6 million for
   the ODO Working Capital Fund. These reconciling differences represent the Fund Balance with Treasury
   for the United States Transportation Command, which is reported to the Treasury as part of the Air Force
   Working Capital Fund. The accounting for these funds is actually performed within the entity Financial
   Statements of ODO Working Capital Fund. For financial reporting, the Fund Balance with Treasury for the
   ODO Working Capital Fund is adjusted downward to reconcile with the Air Force Working Capital Fund.

Other Information Related to Fund Balance with Treasury

The Army General Fund includes approximately $34.7 million in Vested Iraqi Cash. This cash represents
frozen Iraqi deposits in the United States and is vested in accordance with the International Emergency
Economic Powers Act, Section 1701, and is used in support of the Iraqi people. The Army has collected
$1.7 billion in Vested Iraqi Cash and has disbursed $1.7 billion benefiting the Iraqi people as follows:

        	                                                                                             Disbursed
        	                                                                                           ($ in millions)
        Iraqi Salaries	                                                                               $1,184.8
        Repair/Reconstruction/Humanitarian Assistance	                                                    147.8
        Iraqi Ministry Operations (Ministry of Finance, Defense, etc.)	                                   356.8
        Total Disbursed	                                                                              $1,689.4




                                                                    165
                                                                                             DoD Performance & Accountability Report FY2005
                 ..................................................................................................Part 3: Financial Information

Special Funds increased to approximately $341.3 million from zero. Special Funds is a new category for
FY 2005. These funds are receipt and expenditure accounts used to obligate and expend for special programs
in accordance with specific provisions of law. Amounts reported in FY 2004 for these funds were reported in
one of the other four categories.

The Other Fund Types decreased approximately $8.4 billion (73 percent) primarily as a result of reclassifying
the Iraqi Relief and Reconstruction Fund from Other Fund Types to Appropriated Funds. The Iraqi Relief and
Reconstruction Fund reported a balance of $9.4 billion in FY 2004.

                                                       Status of Fund Balance with Treasury
                                As of September 30                                                2005                               2004
                                                                                                             (Amounts in millions)
  Unobligated Balance
     Available                                                                                            $59,934.1                     $248,483.7
    Unavailable                                                                                             8,690.4                          45,485.4
  Obligated Balance not yet Disbursed                                                                     556,162.3                         284,832.8
  Non-Budgetary FBWT                                                                                        8,783.4                           1,913.5
  Non-FBWT Budgetary Accounts                                                                            (342,387.7)                    (302,305.5)
  Total                                                                                                  $291,182.5                     $278,409.9


The Status of Fund Balance with Treasury consists of unobligated and obligated balances. These balances
reflect the budgetary authority remaining for disbursements against current or future obligations. In addition,
the Status includes various accounts that affect either budgetary reporting or Fund Balance with Treasury, but
not both.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to
cover outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated
with appropriations expiring at fiscal year end that remain available only for obligation adjustments until the
account is closed.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been
received or services that have not been performed.

Non-Budgetary Fund Balance with Treasury (FBWT) includes entity and nonentity FBWT accounts which do
not have budgetary authority, such as unavailable receipt accounts or clearing accounts.

Non-FBWT Budgetary Accounts include budgetary accounts that do not affect FBWT, such as contract
authority, borrowing authority and investment accounts. This category reduces the Status of Fund Balance
with Treasury.




                                                                         166
                                                                                             DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

Fluctuations

Many of fluctuations are due to a further breakout of this note to comply with recently published Office of
Management and Budget Circular A-136, to more closely reconcile the budgetary and proprietary aspect of
Fund Balance with Treasury with the President’s Budget. Specifically, the last categories (Lines 3 and 4) have
been added. In addition, various accounts previously reported on Lines 1 and 2 have been transferred to
Lines 3 and 4 and new accounts have been added. These changes are intended to more closely reconcile the
budgetary and proprietary aspects of FBWT.

                                      Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                                                        Decrease/Increase from
             As of September 30                          2003                 2004                       2005
                                                                                                                            FY 2004 - 2005
  Account                                                                                    (Amounts in millions)
    F3875                                                  ($628.8)            ($608.5)                      $263.5                     $872.0
    F3880                                                       (6.0)                (1.4)                      11.9                       13.3
    F3882                                                    (21.6)              (59.5)                         83.5                     143.0
    F3885                                                   (399.5)             (118.2)                      (211.6)                     (93.4)
    F3886                                                        0.2                  0.2                       (4.9)                     (5.1)
  Total                                                  ($1,055.7)            ($787.4)                      $142.4                     $929.8


A description of the suspense and budget clearing accounts and their respective balances follows:
Account F3875 reported a positive balance of approximately $263.5 million that represents the Disbursing
Officer’s (DO) suspense. Account F3885, which includes the Interfund/IPAC suspense transactions, reported
a negative balance of approximately $211.6 million. Account F3886 has a negative balance of approximately
$4.9 million represented by the (payroll) Thrift Savings Plan suspense. These three suspense accounts
temporarily hold collections or disbursements until they can be assigned or identified to a valid appropriation.

The F3880 suspense account reported a positive balance of approximately $11.9 million. This amount
represents the balance of Treasury checks that (1) have either been lost by the payee and need to be reissued,
(2) have never been cashed by the payee, or (3) have been cancelled by the Treasury and need to be transferred
to the original appropriation.

The F3882 suspense account reported a positive balance of approximately $83.5 million. This account was
established for the Uniformed Services Thrift Savings Plan in FY 2002. The amounts in this account represent
a timing difference between the posting of the Thrift Savings Plan deductions by the U.S.D.A. National
Finance Center and the posting of these same amounts in the military accounting systems in the following
month.




                                                                        167
                                                                                                 DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information


                                 Disclosures Related to Problem Disbursements and In-Transit Disbursements
                                                                                                                                Decrease/Increase from
                 As of September 30                            2003                     2004                 2005
                                                                                                                                    FY 2004 - 2005
                                                                                                  (Amounts in millions)
  Total Problem Disbursements, Absolute Value
    Unmatched Disbursements (UMDS)                                $854.3                  $734.6              $2,221.9                         $1,487.3
     Negative Unliquidated Obligations (NULO)                      124.9                       94.8                  95.1                            0.3
  Total In-transit Disbursements, Net                           $4,675.5                $5,197.8              $4,557.5                         ($640.3)


The DoD reported $2.2 billion (absolute value) in UMDs, which is an increase of $1.5 billion. A UMD
occurs when a payment is not matched to a corresponding obligation in the accounting system. Absolute value
is the sum of the positive values of debit and credit transactions without regard to the sign (plus or minus).

The DoD reported $95.1 million (absolute value) in NULOs, which is an increase of $0.3 million. A NULO
occurs when a payment is made against a valid obligation, but the payment is greater than the amount of the
obligation recorded in the official accounting system. These payments have been made using available funds
and are based on valid receiving reports for goods and services delivered under valid contracts.

The DoD reported $4.6 billion (net) for In-transits, which is a decrease of $640.3 million. The In-transits
represent the net value of disbursements and collections made by a DoD disbursing activity on behalf of an
accountable activity and have not been posted to the accounting system.


Note 4 - Investments and Related Interest

                                                                                 2005                                                         2004
                                                                              Unamortized                                     Market
                                     Par Value/       Amortization                                    Investments,                        Investments,
      As of September 30                                                       (Premium/                                      Value
                                       Cost             Method                                            Net                                 Net
                                                                               Discount)                                    Disclosure
                                                                                  (Amounts in millions)
  Intragovernmental Securities
    Non-Marketable, Market                                  Effective
                                      $234,915.8                                 $24,509.0              $259,424.8          $262,243.7       $227,069.5
      Based                                                  Interest
    Accrued Interest                      3,943.0                                                          3,943.0             3,943.0          4,000.2
    Total Intragovernmental
                                        238,858.8                                 24,509.0               263,367.8           266,186.7        231,069.7
       Securities

  Other Investments                        605.0                                         0.0                 605.0                 N/A            406.5


The amortization method used for non-marketable, market-based securities is effective interest. Other
Investments represent limited partnerships, entered into on behalf of the U.S. Government by the Army and
Navy in support of the Military Housing Privatization Initiative authorized by Public Law 104-106, Stat. 186,
on February 11, 1996. These investments do not require market value disclosure.

                                                                        168
                                                                                             DoD Performance & Accountability Report FY2005
                 ..................................................................................................Part 3: Financial Information

Intragovernmental Securities

Net Investments increased $32.3 billion (14 percent) in non-marketable, market-based securities. This
increase is primarily due to positive cash flows of $22.1 billion for the Medicare-Eligible Retiree Health Care
Fund, $9.8 billion for the Military Retirement Fund, and $0.4 billion for the Inland Waterways, Harbor
Maintenance, and South Dakota Terrestrial Wildlife Habitat Restoration Trust Funds.

Other Investments

Other Investments increased $198.5 million (49 percent) from new investments in limited partnerships by
the Army ($163.9 million) and Navy ($34.6 million) in support of military housing. A summary of the
Department’s total investments in these limited partnerships follows:

                                                       Q4 FY 2004           Month                New               Month            Q4 FY 2005
                     Installation
                                                        Balance            Invested          Investments          Invested             Total
  Beaufort/Paris ISL/Quantico                                  97.1             Oct-03                                                      $ 7.1
  Ft. Campbell, Kentucky *                                     52.2             Jan-04                $7.9             Mar-05                60.1
  Ft. Hood, Texas                                              52.0             Nov-01                                                       52.0
  Ft. Bragg, North Carolina                                    49.4             Dec-03                                                       49.4
  Ft. Stewart, Georgia                                         37.4             Feb-04                                                       37.4
  South Texas, Texas                                           29.4             Feb-02                                                       29.4
  New Orleans Naval Complex, Louisiana                         23.1             Oct-01                                                       23.1
  San Diego, California                                        20.9             Jun-03                                                       20.9
  Everett NAS, Washington                                      12.2             Dec-00                                                       12.2
  Kingsville NAS, Texas                                         4.3             Dec-00                                                        4.3
  Ft. Hamilton, New York                                        2.2             May-04                                                        2.2
  Ft. Detrick, Maryland                                         1.3             Sep-04                                                        1.3
  Ft. Polk, Louisiana*                                                                                53.6             Feb-05                53.6
  Oahu, Hawaii                                                 25.0             May-04                                                       25.0
  Yuma Naval Air Station **                                                                           18.7             Dec-04                18.7
  Pacific Northwest **                                                                                15.9             Mar-05                15.9
  Ft. Sam Houston, Texas*                                                                              6.6             Jun-05                 6.6
  Ft. Eustis, Virginia*                                                                               14.8             Apr-05                14.8
  Ft. Drum, New York*                                                                                 52.0             Jun-05                52.0
  Ft. Leonard Wood, Missouri*                                                                         29.0             Sep-05                29.0
  TOTALS                                                    $406.5                                  $198.5                                $605.0
  *Army investments in FY 2005
  **Navy investments in FY 2005




                                                                         169
                                                                                            DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information

Note 5 - Accounts Receivable

               As of September 30                                                    2005                                                 2004
                                                                                Allowance
                                                       Gross Amount                                      Accounts                  Accounts
                                                                               For Estimated
                                                           Due                                         Receivable, Net           Receivable, Net
                                                                               Uncollectibles
                                                                                         (Amounts in millions)
  Intragovernmental Receivables                               $1,291.3                        N/A                 $1,291.3                  $1,118.3
  Nonfederal Receivables (From the Public)                     7,990.7                   (375.2)                   7,615.5                   7,427.8
  Total Accounts Receivable                                   $9,282.0                  ($375.2)                  $8,906.8                  $8,546.1


Fluctuations

Intragovernmental receivables increased $173.0 million (16 percent). This was primarily due to increased
receivables for support provided to the Federal Emergency Management Agency (FEMA) for hurricane relief
efforts in the Gulf Coast. The support provided was in a broad range of areas, including helicopter search and
rescue operations, medical assistance, contract medical support, and the provision of food, water, and other
supplies.


Note 6 - Other Assets

                                     As of September 30                                                    2005                       2004
                                                                                                                  (Amounts in millions)
  Intragovernmental Other Assets
    Advances and Prepayments                                                                                      $1,394.2                  $1,011.9
    Total Intragovernmental Other Assets                                                                           1,394.2                   1,011.9


  Nonfederal Other Assets
    Outstanding Contract Financing Payments                                                                       21,776.1                  18,451.6
    Other Assets (With the Public)                                                                                 2,046.0                   3,034.7
    Total Nonfederal Other Assets                                                                                 23,822.1                  21,486.3
  Total Other Assets                                                                                             $25,216.3                 $22,498.2


Fluctuations

Intragovernmental Other Assets
Advances and Prepayments increased $382.3 million (38 percent). This increase is primarily attributed to
the improved visibility in identifying and recording government advances to the Departments of Interior,
Transportation and Homeland Security that are procuring goods and services for the Department of Defense.


                                                                         170
                                                                                          DoD Performance & Accountability Report FY2005
              ..................................................................................................Part 3: Financial Information

Nonfederal Other Assets
Outstanding Contract Financing Payments increased $3.3 billion (18 percent). The increase is attributable
to the acquisition of the V-22 Osprey and F/A-18 Hornet aircraft and the replenishment of weapons,
ammunition, missiles, and combat vehicles.

Other Assets (With the Public) decreased $988.7 million (33 percent). This is primarily due to increased
collection efforts of outstanding travel advances, a decrease in the amount of returns to vendors pending credit,
and the reclassification from Other Assets (With the Public) for Foreign Military Sales to Nonfederal Accounts
Receivable and progress payments to Outstanding Contract Financing Payments.


Note 7 - Cash and Other Monetary Assets

                                     As of September 30                                                  2005                         2004
                                                                                                              (Amounts in millions)
  Cash                                                                                                       $1,494.0                   $1,811.1
  Foreign Currency (non-purchased)                                                                              578.7                        367.0
  Total Cash, Foreign Currency, and Other Monetary Assets                                                    $2,072.7                   $2,178.1


Other Information

The majority of cash and all foreign currency are classified as nonentity and their use is, therefore, restricted.
Approximately $1.38 billion in cash and $578.7 million in foreign currency are restricted.


Note 8 - Direct Loan and/or Loan Guarantee Programs
As of September 30

The Department operates the following direct loan and/or Loan guarantee program(s)
•	 Military Housing Privatization Initiative
•	 Armament Retooling & Manufacturing Support Initiative

The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan guarantee
commitments made after FY 1991 resulting in direct loans or loan guarantees.
Direct loans are reported at the net present value of the following projected cash flows:

•	 Loan disbursements;
•	 Repayments of principal; and
•	 Payments of interest and other payments over the life of the loan after adjusting for estimated defaults,
   prepayments, fees, penalties and other recoveries.



                                                                      171
                                                                                            DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information

Loan guarantee liabilities are reported at the net present value. The cost of the loan guarantee is the net present
value of the following estimated projected cash flows:

•	 Payments by the Department to cover defaults and delinquencies, interest subsidies, or other payments;
   offset by
•	 Payments to the Department including origination and other fees, penalties, and recoveries.

Military Housing Privatization Initiative

The Military Housing Privatization Initiative (MHPI) includes both Direct Loan and Loan Guarantee
Programs. The Department obtains private sector capital to leverage government dollars. The Department
provides protection against specific risks, such as base closure or member deployment, for the private sector
partner. The Loan Guarantee Program is authorized by the National Defense Authorization Act for FY 1996,
Public Law (P.L.) 104-106 Statute 186, Section 2801.

Armament Retooling and Manufacturing Support Initiative

The Armament Retooling and Manufacturing Support Initiative (ARMS), Title 10 USC 4551-4555, is a
Loan Guarantee Program designed to encourage commercial use of the Army’s Inactive Ammunition Plants
through many incentives for businesses willing to locate to a government ammunition production facility.
The production capacity of these facilities is greater than current military requirements; however, this capacity
may be needed by the military in the future. The revenues from the property rental are used to pay for the
operation, maintenance and environmental cleanup at the facilities. The resulting savings in overhead costs
lower the production cost of the goods manufactured and fund environmental cleanup at no cost to the
government.

                                                      Direct Loans Obligated After FY 1991
                                         As of September 30                                                2005                           2004
  Loan Programs                                                                                                   (Amounts in millions)

  Military Housing Privatization Initiative
    Loans Receivable Gross                                                                                        $141.5                         $141.5
    Interest Receivable                                                                                               0.0                           0.0
    Foreclosed Property                                                                                               0.0                           0.0
    Allowance for Subsidy Cost (Present Value)                                                                     (65.9)                        (70.8)
    Value of Assets Related to Direct Loans                                                                          75.6                          70.7
  Total Loans Receivable                                                                                           $75.6                          $70.7


Subsidy costs are recognized when direct loans are disbursed to borrowers and are re-estimated each year as of
the date of the financial statements. The allowance for subsidy cost is the difference between the outstanding
principal of the loans and the present value of their net cash flows. The decrease in the allowance for subsidy
is the result of FY 2005 subsidy re-estimates and subsidy amortization. Interest subsidy amortization is the
net of interest revenue and interest expense. The subsidy amortization represents the difference between

                                                                        172
                                                                                                DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information

net borrowing from Treasury and gross loans receivable. For additional information, see the Schedule for
Reconciling Subsidy Cost Allowance Balances for Post-1991 Direct Loans.

Gross direct loans for the MHPI program from inception consists of the following:

                 	                                                                   (in Millions)
                 Dyess Air Force Base, Texas	                                            $28.9
                 Elmendorf Air Force Base, Alaska	                                        48.0
                 Lackland Air Force Base, Texas	                                          10.4
                 Robins Air Force Base, Georgia	                                          22.3
                 Camp Pendleton Marine Corps Base, California	                            29.4
                 Kingsville Air Force Base, Texas	                                         2.5
                 Total Loans Receivable Gross	                                          $141.5

                                                     Total Amount of Direct Loans Disbursed
                                         As of September 30                                                        2005                           2004
  Direct Loan Programs                                                                                                    (Amounts in millions)
  Military Housing Privatization Initiative                                                                                   0.0                        12.4
  Total                                                                                                                       0.0                        12.4


The Department disbursed no new direct loans in the current fiscal year. The demand for direct loans by
private developers varies from year to year depending upon the progression of planned construction and
renovation, and upon economic factors unrelated to the operations of the Department of Defense.

                                                   Subsidy Expense for Post-1991 Direct Loans
                                                      As of September 30 (Amounts in millions)
                                                           Interest
                         2004                                                    Defaults             Fees                   Other                  Total
                                                          Differential
  1. New Direct Loans Disbursed:
  Military Housing Privatization Initiative                         7.7                0.5                   0.0                     0.0                    8.2
                                                                                 Interest          Technical                 Total
                         2005                            Modifications                                                                              Total
                                                                                  Rates           Reestimates             Reestimates
  2. Direct Loan Modifications and Reestimates:
  Military Housing Privatization Initiative                        (0.3)              (0.9)               (3.6)                     (4.5)                (4.8)
                         2004
  3. Direct Loan Modifications and Reestimates:
  Military Housing Privatization Initiative                        (0.7)              (2.0)                  0.1                    (1.9)                (2.6)


                                                                                              2005                                      2004
  4. Total Direct Loan Subsidy Expense:
  Military Housing Privatization Initiative                                                   (4.8)                                         5.6


                                                                           173
                                                                                            DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information

The total subsidy expense for direct loans decreased by $10.5 million (187 percent) due to no new direct loans
disbursed in FY 2005 and an increase in the downward re-estimate. The total direct loan subsidy expense
includes interest differential, defaults, modification and re-estimates.

                                                          Subsidy Rate for Direct Loans
                                                               Interest
                   As of September 30                                               Defaults            Fees              Other           Total
                                                              Differential
  Military Housing Privatization Initiative                          24.17%               9.78%           0.00%            0.00%              33.95%


Subsidy rates pertain to the loan agreements contracted during the current fiscal year. These rates cannot
be applied to the direct loans disbursed during the current reporting year to yield the subsidy expense. The
subsidy expense for new loans disbursed in the current year could result from disbursement of loans from both
current and prior-year loan agreements.

                              Schedule for Reconciling Subsidy Cost Allowance Balances for Post-1991 Direct Loans
                                              As of September 30                                                   2005                  2004
                                                                                                                      (Amounts in millions)

  Beginning Balance of the Subsidy Cost Allowance                                                                      $70.7                   $65.1
  Add: Subsidy Expense for Direct Loans Disbursed during the Reporting Years by Component
    Interest Rate Differential Costs                                                                                       0.0                   7.7
    Default Costs (Net of Recoveries)                                                                                      0.0                   0.5
    Total of the above Subsidy Expense Components                                                                          0.0                   8.2
  Adjustments
    Subsidy Allowance Amortization                                                                                        (0.3)                 (0.6)
    Total of the above Adjustment Components                                                                              (0.3)                 (0.6)
  Ending Balance of the Subsidy Cost Allowance before Re-estimates                                                        70.4                  72.7
  Add or Subtract Subsidy Re-estimates by Component
    Interest Rate Re-estimate                                                                                             (0.9)                 (2.0)
    Technical/default Re-estimate                                                                                         (3.6)                  0.1
    Total of the above Re-estimate Components                                                                             (4.5)                 (1.9)
  Ending Balance of the Subsidy Cost Allowance                                                                         $65.9                   $70.8


Subsidy Expense
The total decrease of $8.2 million (100 percent) relates to zero direct loans issued in FY 2005 compared to one
loan in FY 2004.

Adjustments
The total increase of $0.3 million (52 percent) in subsidy allowance amortization resulted from internal analysis
which computed the Interest Revenue (Treasury and Borrower) less Interest Expense (Interest to Treasury on
borrowed funds). This adjustment can increase or decrease subsidy costs.


                                                                        174
                                                                                            DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information

Subsidy Re-estimates
The total decrease in re-estimates of $2.6 million (141 percent) is related to the analysis of cash flows for direct
loans. The last re-estimate of cash flow is compared with the new analysis of cash flow and any deviation from
the projections will result in a change (re-estimate).

Defaulted Guarantee Loans from Post-1991 Guarantees

As of September 30, 2005, the Department had no default guaranteed loans.

                                                          Guaranteed Loans Outstanding
                                                                                 Outstanding Principal,               Amount of Outstanding
                           As of September 30
                                                                              Guaranteed Loans, Face Value             Principal Guaranteed
                                                                                                    (Amounts in millions)
  Military Housing Privatization Initiative                                                          $551.8                              $551.8
  Armament Retooling & Manufacturing Support Initiative                                                 27.0                                24.2
  Total                                                                                              $578.8                              $576.0
                                                                       2005
  New Guaranteed Loans Disbursed
  Military Housing Privatization Initiative                                                            165.0                               165.0
  Armament Retooling & Manufacturing Support Initiative                                                  0.7                                  0.6
  Total                                                                                              $165.7                              $165.6
                                                                       2004
  Military Housing Privatization Initiative                                                              0.0                                  0.0
  Armament Retooling & Manufacturing Support Initiative                                                  0.0                                  0.0
  Total                                                                                                 $0.0                                $0.0


The Guaranteed Loans Outstanding for the MHPI program as of the 4th Quarter, FY 2005 consists of the
following:

                 	                                                                  (in Millions)
                 Robins Air Force Base, Georgia	                                        $25.6
                 Fort Carson, Colorado	                                                 144.9
                 Kirtland Air Force Base, New Mexico	                                    74.0
                 Wright Patterson Air Force Base, Ohio	                                  65.0
                 Elmendorf Air Force Base, Alaska	                                       48.0
                 Lackland Air Force Base, Texas	                                         29.3
                 Fort Polk, Louisiana (New for FY 2005)	                                165.0
                 Total Guaranteed Loans Outstanding	                                   $551.8




                                                                        175
                                                                                            DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information


                                              Liability for Post-1991 Loan Guarantees, Present Value
                                         As of September 30                                                 2005                        2004
                                                                                                                (Amounts in millions)
  Loan Guarantee Program
  Military Housing Privatization Initiative                                                                         $28.7                      $22.1
  Armament Retooling & Manufacturing Support Initiative                                                              12.4                        12.3
  Total                                                                                                             $41.1                      $34.4


The liability for loan guarantees increased by $6.7 million (20 percent) due to one loan guarantee disbursed in
FY 2005 for Fort Polk, Louisiana. For additional information, see the Schedule for Reconciling Loan
Guarantee Liability Balances for Post-1991 Loan Guarantees.


                                                 Subsidy Expense for Post-1991 Loan Guarantees
                                                      As of September 30 (Amounts in millions)
                                                 Interest
                  2005                                                 Defaults              Fees                  Other                 Total
                                                Differential
  1. New Loan Guarantees Disbursed:
     Military Housing Privatization
    Initiative                                                 0.0             10.3                  0.0                    0.0                  10.3
  Total                                                    $0.0               $10.3                 $0.0                   $0.0                $10.3
                  2004
  2. New Loan Guarantees Disbursed:
    Armament Retooling &
    Manufacturing Support Initiative                           0.0                0.2               (0.1)                   0.0                   0.1
  Total                                                    $0.0                $0.2              ($0.1)                    $0.0                  $0.1


                                                                                          Technical              Total
                  2005                         Modifications         Interest Rates                                                      Total
                                                                                         Reestimates          Reestimates
  3. Modifications and Reestimates:
     Military Housing Privatization
    Initiative                                                 1.1             (1.5)                (3.4)                  (4.9)                 (3.8)
  Total                                                    $1.1               ($1.5)             ($3.4)                ($4.9)                  ($3.8)
                  2004
  4. Modifications and Reestimates:
     Military Housing Privatization
    Initiative                                                 1.9                0.0               (4.4)                  (4.4)                 (2.5)
    Armament Retooling &
    Manufacturing Support Initiative                           0.0                0.0                7.5                    7.5                   7.5
  Total                                                    $1.9                $0.0                 $3.1                   $3.1                  $5.0



                                                                        176
                                                                                            DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information


                                                                                   2005                                         2004
  5. Total Loan Guarantee:
  Military Housing Privatization Initiative                                         6.5                                         (2.5)
  Armament Retooling & Manufacturing Support Initiative                             0.0                                          7.6
  Total                                                                            $6.5                                         $5.1


The total subsidy expense for loan guarantees increased by $1.4 million (30 percent) due to a new loan
guarantee disbursed in FY 2005 for Fort Polk, Louisiana. Expense activity occurs at the point when a new loan
guarantee is disbursed. There was also a modification and re-estimate of loan guarantee activity in FY 2005
due to an internal analysis performed at the end of the fiscal year.

                                                         Subsidy Rate for Loan Guarantees

                                                                 Interest                            Fees and other
                                                                                    Defaults                                    Other         Total
                                                               Supplements                            Collections
  Loan Guarantees:
  Military Housing Privatization Initiative                            0.00%              9.65%                0.00%            0.00%         9.65%
  Armament Retooling & Manufacturing Support
                                                                       0.00%              3.75%               -1.79%            0.00%         1.96%
  Initiative


The subsidy rates disclosed pertain only to loan agreements made during the current fiscal year. These rates
cannot be applied to the guarantees of loans disbursed during the current reporting year to yield the subsidy
expense. The subsidy expense for new loans reported in the current year result from disbursements of loans
from both current year loan agreements and prior year(s) loan agreements. The subsidy expense reported in the
current year also includes modifications and re-estimates.

                           Schedule for Reconciling Loan Guarantee Liability Balances for Post-1991 Loan Guarantees
                                              As of September 30                                                 2005                     2004
                                                                                                                      (Amounts in millions)

  Beginning Balance of the Loan Guarentee Liability                                                                     $34.4                  $25.9
  Add: Subsidy Expense for Guaranteed Loans Disbursed during the Reporting Years by Component
     Default Costs (Net of Recoveries)                                                                                   10.3                     0.2
     Fees and Other Collections                                                                                           0.0                    (0.1)
     Total of the above Subsidy Expense Components                                                                       10.3                     0.1
  Adjustments
     Fees Received                                                                                                        0.1                     0.0
     Interest Accumulation on the Liability Balance                                                                       1.1                     5.3
     Total of the above Adjustments                                                                                       1.2                     5.3
  Ending Balance of the Loan Guarantee Liability before Re-estimates                                                     45.9                    31.3




                                                                        177
                                                                                           DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information


                         Schedule for Reconciling Loan Guarantee Liability Balances for Post-1991 Loan Guarantees
                                           As of September 30                                                   2005                  2004
  Add or Subtract Subsidy Re-estimates by Component
     Interest Rate Re-estimate                                                                                         (1.5)                   0.0
     Technical/default Re-estimate                                                                                     (3.3)                   3.1
     Total of the above Re-estimate Components                                                                         (4.8)                   3.1
  Ending Balance of the Loan Guarantee Liability                                                                       $41.1                $34.4


Subsidy Expense
The subsidy expense components increased by $10.2 million due to one loan guarantee disbursed in FY 2005
for Fort Polk, Louisiana. This disbursement caused an increase in subsidy default costs. This disbursement was
issued in the 1st Quarter, FY 2005.

Adjustments
The $4.1 million decrease in total adjustments is primarily due to the re-estimated loan amortization amount
from the Treasury. The accumulation is interest revenue from the Treasury.

Subsidy Re-estimates
The subsidy re-estimates decreased by $8.0 million primarily due to the downward re-estimate of subsidy.

Administrative Expenses

Administrative Expense is limited to separately identified expenses administered to direct and guaranteed loans.
DoD does not maintain a separate program to capture the expenses related to direct and guaranteed loans for
the MHPI. Administrative Expense for the ARMS is a fee paid to the US Department of Agriculture Rural
Business-Cooperative Service (RBS) for administering the loan guarantees under the ARMS, which is a joint
program. There were no administrative expenses in FY 2005.


Note 9 - Inventory and Related Property

                                     As of September 30                                              2005                           2004
                                                                                                            (Amounts in millions)
  Inventory, Net                                                                                         $79,699.1                     $75,494.2
  Operating Materials & Supplies, Net                                                                    141,533.6                     143,489.7
  Stockpile Materials, Net                                                                                  1,340.6                        1,521.8
  Total                                                                                                 $222,573.3                    $220,505.7




                                                                       178
                                                                                              DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information


                                                                  Inventory, Net
             As of September 30                                         2005                                      2004
                                                                           (Amounts in millions)
                                                 Inventory,           Revaluation                                               Valuation Method
                                                                                          Inventory, Net      Inventory, Net
                                                Gross Value            Allowance
  Inventory Categories
    Available and Purchased for Resale              $80,033.8           ($25,582.2)            $54,451.6          $49,660.8           LAC,MAC
    Held for Repair                                  27,961.0              (3,507.0)               24,454.0        24,657.9           LAC,MAC
    Excess, Obsolete, and
                                                       6,835.6             (6,835.6)                    0.0               0.0               NRV
      Unserviceable
    Raw Materials                                         25.8                    0.0                  25.8              21.3      MAC,SP,LAC
    Work in Process                                     767.7                     0.0                767.7          1,154.2                  AC
     Total                                         $115,623.9           ($35,924.8)            $79,699.1          $75,494.2
  Legend for Valuation Methods:
  Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
  NRV = Net Realizable Value
  SP = Standard Price
  O = Other
  AC = Actual Cost
  MAC = Moving Average Cost


Generally, there are no restrictions on the use, sale, or disposition of inventory except in the following
situations:

•	 Distributions without reimbursement are made when authorized by Department of Defense directives.
•	 War reserve materiel includes fuels and subsistence items that are considered restricted.
•	 Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments, private
   parties, and contractors in accordance with the current policies and guidance or at the direction of the
   President.

General Composition of Inventory

Inventory includes spare and repair parts, clothing and textiles, and fuels held for sale by the Defense Working
Capital Funds. Inventory is tangible personal property that is:

•	 Held for sale, or held for repair for eventual sale;
•	 In the process of production for sale; or
•	 To be consumed in the production of goods for sale or in the provision of service for a fee.

Fluctuations

Inventory Available and Purchased for Resale increased $4.8 billion (10 percent). The primary reason for the
increase was due to a revaluation of Inventory and prior-period adjustments by the Air Force of $11.3 billion.
Air Force FY 2004 Inventory was restated (increased) by $7.3 billion for accounting errors; the remaining
                                                                        179
                                                                                                  DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information

$4.0 billion was recorded as an adjustment and an increase to FY 2005 Inventory. Further information on this
prior period adjustment is in Note 19, “Statement of Changes in Net Position.”

                                                     Operating Materials and Supplies, Net
             As of September 30                                          2005                                         2004
                                               OM&S Gross              Revaluation
                                                                                                OM&S, Net          OM&S, Net          Valuation
                                                 Value                  Allowance
                                                                                                                                       Method
                                                                               (Amounts in millions)
  OM&S Categories
   Held for Use                                    126,300.0                         0.0           126,300.0          127,765.1            SP, LAC
   Held for Repair                                   17,341.7                  (2,108.1)               15,233.6        15,724.6            SP, LAC
   Excess, Obsolete, and Unserviceable                3,664.5                  (3,664.5)                    0.0               0.0             NRV
   Total                                          $147,306.2               $(5,772.6)             $141,533.6         $143,489.7
  Legend for Valuation Methods:
  Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
  SP = Standard Price
  AC = Actual Cost
  NRV = Net Realizable Value
  O = Other


Operating Materials and Supplies (OM&S) include spare and repair parts, ammunition, tactical missiles,
aircraft configuration pods, and centrally managed aircraft engines held for consumption by General Funds.
Generally, there are no restrictions on the use or disposition of operating materials and supplies.

                                                               Stockpile Materials, Net
             As of September 30                                           2005                                         2004
                                                   Stockpile
                                                                      Allowance for             Stockpile           Stockpile
                                                   Materials                                                                           Valuation
                                                                      Gains (Losses)           Materials, Net      Materials, Net
                                                   Amount                                                                               Method
                                                                                (Amounts in millions)
  Stockpile Materials Categories
     Held for Sale                                     $1,246.5                    $0.0                 $1,246.5        $1,427.7          AC, LCM
     Held in Reserve for Future Sale                       94.1                      0.0                    94.1              94.1        AC, LCM
     Total                                             $1,340.6                    $0.0                 $1,340.6        $1,521.8
  Legend for Valuation Methods:
  LAC = Latest Acquisition Cost                                                 LCM = Lower of Cost or Market
  NRV	     = Net Realizable Value                                               AC = Actual Cost
  SP	       = Standard Price                                                    O = Other




                                                                         180
                                                                                                 DoD Performance & Accountability Report FY2005
                  ..................................................................................................Part 3: Financial Information

Stockpile materials are strategic and critical materials held due to statutory requirements, for use in national
defense, conservation or national emergencies. All materials held by the National Defense Stockpile are
classified as Material Held in Reserve until Congressional action declares the materials are no longer required
to be stockpiled, and are available for sale on the open market. When National Defense Stockpile receives
authorization to offer materials for sale, National Defense Stockpile removes the materials from Material Held
in Reserve and reclassifies them as Materials Held for Sale. Disposals cannot be made from the stockpile except
under the following situations: (1) necessary upgrading, refining, or processing; (2) necessary rotation to
prevent deterioration; (3) determination as excess with potential financial loss if retained, and (4) as authorized
by law. The estimated market price of the stockpile materials held for sale is $1.6 billion.


Note 10 - General PP&E, Net

         As of September 30                                                         2005                                                 2004
                                         Depreciation/                                              (Accumulated
                                                              Service            Acquisition                            Net Book     Prior FY Net
                                         Amortization                                               Depreciation/
                                                               Life                Value                                 Value       Book Value
                                           Method                                                   Amortization)
                                                                                      (Amounts in millions)

  Major Asset Classes
       Land                                         N/A             N/A            $10,479.4                     N/A     $10,479.4      $10,103.0
       Buildings, Structures, and
                                                     S/L       20 or 40            163,929.6             (95,378.3)       68,551.3       67,983.7
         Facilities
       Leasehold Improvements                        S/L     Lease Term                308.3                  (131.8)        176.5            42.8
       Software                                      S/L       2-5 or 10              7,889.7             (4,405.4)        3,484.3         2,496.0
       General Equipment                             S/L         5 or 10             63,478.7            (46,896.5)       16,582.2       15,971.8
       Military Equipment                            S/L        Various           1,202,889.8           (862,080.0)      340,809.8      324,440.0
       Assets Under Capital Lease                    S/L     Lease Term                630.5                  (445.5)        185.0           206.7
       Construction-in-Progress                     N/A             N/A              20,304.3                    N/A      20,304.3       19,574.6
       Other                                                                           159.3                   (32.8)        126.5            80.0
  Total General PP&E                                                             $1,470,069.6       $(1,009,370.3)      $460,699.3     $440,898.6
  1
      Note 15 for additional information on Capital Leases
  Legend for Valuation Methods:
  S/L = Straight Line
  N/A = Not Applicable


Fluctuations

General Property, Plant and Equipment (PP&E) increased $19.8 billion (5 percent).




                                                                           181
                                                                                            DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information


                                                           Assets Under Capital Lease
                                   As of September 30                                               2005                             2004
                                                                                                             (Amounts in millions)
  Entity as Lessee, Assets Under Capital Lease
     Land and Buildings                                                                                     $619.6                            $574.6
     Equipment                                                                                                10.9                               11.3
     Accumulated Amortization                                                                               (445.5)                           (379.2)
     Total Capital Leases                                                                                   $185.0                            $206.7


Assets Under Capital Lease consist primarily of leases for the Section 801 Family Housing Program.


Note 11 - Liabilities Not Covered by Budgetary Resources

                                   As of September 30                                               2005                             2004
                                                                                                             (Amounts in millions)
  Intragovernmental Liabilities
    Accounts Payable                                                                                           $0.0                              $9.2
    Debt                                                                                                       14.3                              15.0
    Other                                                                                                   7,619.4                           5,303.1
    Total Intragovernmental Liabilities                                                                     7,633.7                           5,327.3
  Nonfederal Liabilities
    Accounts Payable                                                                                         425.4                             695.8
    Military Retirement Benefits and Other Employment-Related Actuarial Liabilities                   1,483,425.0                      1,348,776.0
    Environmental Liabilities                                                                              62,239.1                          60,979.4
    Other Liabilities                                                                                      14,014.3                          15,158.0
    Total Nonfederal Liabilities                                                                      1,560,103.8                      1,425,609.2
  Total Liabilities Not Covered by Budgetary Resources                                                1,567,737.5                      1,430,936.5

  Total Liabilities Covered by Budgetary Resources                                                      305,625.7                           279,177.1

  Total Liabilities                                                                                  $1,873,363.2                     $1,710,113.6


Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by
realized budgetary resources as of the Balance Sheet date.

Fluctuations

Intragovernmental Accounts Payable
Intragovernmental Accounts Payable decreased $9.2 million to $0. In FY 2004, several activities recognized
federal accounts payable from cancelled appropriations. These cancelled year accounts payable have now been
resolved or settled.
                                                                        182
                                                                                                  DoD Performance & Accountability Report FY2005
                 ..................................................................................................Part 3: Financial Information

Intragovernmental – Other
Intragovernmental Liabilities - Other increased $2.3 billion (44 percent) primarily due to the reclassification of
$1.6 billion of Uncollected Custodial Liability from Liabilities Covered by Budgetary Resources to Liabilities
Not Covered by Budgetary Resources as required by Treasury Guidance.

Nonfederal Accounts Payable
Nonfederal Accounts Payable decreased $270 million (39 percent) primarily due to a concentrated effort in
FY 2005 to clean up unsupported accounts payable in cancelled appropriations.


Note 12 - Accounts Payable

               As of September 30                                                       2005                                            2004

                                                                                Interest, Penalties, and
                                                   Accounts Payable                                                   Total             Total
                                                                                  Administrative Fees

                                                                                              (Amounts in millions)
  Intragovernmental Payables                                  $2,058.0                                  N/A             $2,058.0          $1,888.4

  Non-Federal Payables (to the Public)                        28,573.9                                  1.5             28,575.4          28,309.0

  Total                                                      $30,631.9                                $1.5             $30,633.4         $30,197.4




Note 13 - Debt

               As of September 30                                                      2005                                            2004
                                                        Beginning                       Net                       Ending              Ending
                                                         Balance                    Borrowings                    Balance             Balance
                                                                                              (Amounts in millions)
  Agency Debt
     Debt to the Treasury                                         $85.5                          $0.1                    $85.6                  $85.5
     Debt to the Federal Financing Bank                           506.3                       (124.8)                    381.5                  506.3
  Total Debt                                                     $591.8                    ($124.7)                    $467.1                 $591.8


Debt to the Federal Financing Bank

Debt owed to the Federal Financing Bank decreased $124.8 million (25 percent) primarily due to a semiannual
payment of $112 million made in July 2005. As part of the Afloat Prepositioning Force program, the
Department makes loan repayments to the Federal Financing Bank on behalf of ship owners in lieu of capital
lease payments to ship owners. Payments are made twice a year, in January and July.




                                                                          183
                                                                                          DoD Performance & Accountability Report FY2005
              ..................................................................................................Part 3: Financial Information

Note 14 - Environmental Liabilities and Disposal Liabilities

                     As of September 30                                                      2005                                    2004
                                                                   Current Liability    Noncurrent Liability            Total        Total
                                                                                               (Amounts in millions)
 Environmental Liabilities – Non Federal
  Accrued Environmental Restoration (DERP funded) Costs:
    Active Installations--Environmental Restoration (ER)                    $1,063.6                $9,060.3           $10,123.9    $10,868.2
    Active Installations--ER for Closed Ranges                                  44.7                 7,037.3             7,082.0       7,709.0
    Formerly Used Defense Sites (FUDS) -- ER                                   110.7                 4,116.8             4,227.5       4,321.3
    FUDS--ER for Transferred Ranges                                             69.2                14,514.8            14,584.0      14,084.3
 Other Accrued Environmental Costs (Non-DERP funds)
   Active Installations--Environmental Corrective Action                        29.1                  594.1               623.2          569.6
   Active Installations--Environmental Closure Requirements                      5.9                  170.6               176.5          178.5
   Active Installations--Environ. Response at Active Ranges                      6.5                  297.6               304.1          279.6
    Other                                                                        1.0                  560.5               561.5              9.2
 Base Realignment and Closure (BRAC)
    BRAC Installations--Environmental Restoration (ER)                        335.0                  2,514.2             2,849.2       3,120.9
    BRAC Installations--ER for Transferring Ranges                              23.2                  676.1               699.3          535.9
    BRAC Installations--Environmental Corrective Action                         13.6                  192.9               206.5          167.8
    Other                                                                     123.7                   219.2               342.9          209.3
 Environmental Disposal for Weapons Systems Programs
    Nuclear Powered Aircraft Carriers                                            0.0                 6,426.1             6,426.1       5,693.0
    Nuclear Powered Submarines                                                  42.4                 5,794.8             5,837.2       5,188.7
    Other Nuclear Powered Ships                                                  0.0                  223.9               223.9          287.5
    Other National Defense Weapons Systems                                       2.4                  195.4               197.8          271.9
    Chemical Weapons Disposal Program                                         557.9                  9,892.1            10,450.0      10,769.5
    Other                                                                       54.2                    57.8               112.0         103.0
 Total Environmental Liabilities:                                           $2,483.1             $62,544.5             $65,027.6    $64,367.2




                                                                      184
                                                                                         DoD Performance & Accountability Report FY2005
             ..................................................................................................Part 3: Financial Information


  Service Component – Environmental Restoration (Cleanup)                                                Air
                                                                           Army          Navy                           ODO          Total
       Liabilities and Environmental Disposal Liabilities                                               Force
                                                                                                (Amounts in millions)
Environmental Liabilities-Nonfederal
Accrued Environmental Restoration (Defense Environmental Restoration Program (DERP) funded) Costs:
   Active Installations-Environmental Restoration (ER)                     $3,212.0     $2,666.5       $4,006.6         $238.8     $10,123.9
   Active Installations--ER for Closed Ranges                               5,182.7         554.5       1,344.8                       7,082.0
   Formerly Used Defense Sites (FUDS) –ER                                   4,227.4                                                   4,227.4
   FUDS--ER for Transferred Ranges                                         14,584.0                                                  14,584.0
Other Accrued Environmental Costs (Non-DERP funds)
   Active Installations--Environmental Corrective Action                     379.6                        138.4          105.2          623.2
   Active Installations--Environmental Closure Requirements                    96.8                        51.7           28.0          176.5
   Active Installations--Environ. Response at Active Ranges                  304.1                                                      304.1
   Other                                                                     529.6                                        31.9          561.5
Base Realignment and Closure (BRAC)
  BRAC Installations--Environmental Restoration (ER)                         523.4        1,079.3       1,201.4           45.1        2,849.2
  BRAC Installations--ER for Transferring Ranges                             634.1           65.2                                       699.3
  BRAC Installations--Environmental Corrective Action                          54.1                       152.4                         206.5
  Other                                                                       112.1                       230.8                         342.9
Environmental Disposal for Weapon Systems Programs
  Nuclear Powered Aircraft Carriers                                                       6,426.1                                     6,426.1
  Nuclear Powered Submarines                                                              5,837.2                                     5,837.2
  Other Nuclear Powered Ships                                                               223.9                                       223.9
  Other National Defense Weapon Systems                                                     197.8                                       197.8
  Chemical Weapons Disposal Program                                        10,450.0                                                  10,450.0
  Other                                                                                                                  112.0          112.0
Total Nonfederal Environmental Liabilities:                             $40,290.0      $17,050.5       $7,126.1         $561.0     $65,027.6




                                                                     185
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

                                     Others Category Disclosure Comparative Table
			                                                                                                            September 30, 2005
			                                                                                                                 ($ in Millions)
Other Accrued Environmental Costs (Non-DERP funds) – Other
	    U.S. Army Corps of Engineers Formally Utilized Sites Remedial Action Program 	                                        $529.6
	    Defense Commissary Agency estimate includes costs associated with asbestos
     and lead paint contamination.	                                                                                         $31.9
	    Total	                                                                                                                $561.5

Base Realignment and Closure (BRAC) – Other
	     Army’s BRAC unliquidated obligations that cannot be identified to a specific
      program/project.	                                                                                                    $112.1
	     Air Force’s BRAC unliquidated obligations that cannot be identified to a specific
      program/project.	                                                                                                    $230.8
	     Total	                                                                                                               $342.9

Environmental Disposal for Weapons Systems Programs – Other
	     National Defense Stockpile–Other Defense Organizations (ODO)	                                                          $54.2
	     ODO’s Environmental Disposal unliquidated obligations that cannot be
      identified to a specific program/project.	                                                                            $57.8
	     Total	                                                                                                               $112.0

The Department of Defense (DoD) is required to clean up contamination resulting from past waste disposal
practices, leaks, spills, and other past activity, which have created a public health or environmental risk. The
Department accomplishes this effort in coordination with regulatory agencies, and if applicable, with other
responsible parties and current property owners. The Department is also required to recognize closure and
post-closure costs for its General Property, Plant, and Equipment (PP&E) and environmental corrective action
costs for current operations. Each of the Department’s major reporting entities is responsible for tracking
and reporting all required environmental information related to environmental restoration costs, other
accrued environmental costs, disposal costs of weapons systems, and environmental costs related to the Base
Realignment and Closure (BRAC) actions that have taken place in prior years.

The Department uses engineering estimates and independently validated models to estimate environmental
liabilities. The models are contained within the Remedial Action Cost Engineering Requirements (RACER)
and the Normalization of Data System (NORM). The Department validates the models in accordance with
DoD Instruction 5000.61 and primarily uses the models to estimate the liabilities based on data received
during a preliminary assessment and initial site investigation. The Department primarily uses engineering
estimates after obtaining extensive data during the remedial investigation/feasibility phase of the environmental
project.

The DoD has clean up requirements for the Defense Environmental Restoration Program (DERP) sites at
active installations, BRAC installations, Formerly Used Defense Sites (FUDS), non-DERP sites at active
installations, weapon systems programs, and chemical weapons disposal programs. The DoD follows the
Comprehensive Environmental Response, Compensation Liability Act (CERCLA) and the Superfund

                                                                    186
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

Amendment and Reauthorization Act (SARA) to clean up DERP-eligible contamination. Non-DERP
eligible contamination clean up is performed in accordance with the Resource Conservation and Recovery Act
(RCRA). The CERCLA and RCRA require DoD to clean up contamination in coordination with regulatory
agencies, current property owners of property damaged by the Department, and third parties that have a partial
responsibility for the environmental restoration. Failure to comply with agreements and legal mandates can put
DoD at risk of incurring fines and penalties.

The clean up requirements for nuclear-powered aircraft carriers, submarines, and other nuclear ships are
based on the significant laws that affect the Department’s conduct of environmental policy and regulations.
The Atomic Energy Act of 1954, as amended, assures the proper management of source, special nuclear,
and byproduct material. As in all cases with nuclear power, the Department coordinates actions with the
Department of Energy. The Nuclear Waste Policy Act of 1982 requires all owners and generators of high-level
nuclear waste and spent nuclear fuel to pay their respective shares of the full cost of the program. Finally, the
Low Level Radioactive Waste Policy Amendments Act of 1986 provides for the safe and efficient management
of low-level radioactive waste.

The Chemical Weapons Disposal Program is based on the FY 1986 National Defense Authorization Act
(PL 99-145, as amended by subsequent acts) that directed the DoD to destroy the unitary chemical stockpile
by April 29, 2004. The current guidelines for destruction are based on the Chemical Weapons Convention
treaty. The United States ratified the treaty in April 1997 that required the stockpile of chemical weapons to
be destroyed by April 2007, according to the terms outlined. The Army, as Executive Agent within the DoD,
provides policy, direction, and oversight for both the Chemical Stockpile Program and the Non-Stockpile
Chemical Materiel Project. As such, the Army is responsible for the safe and economical disposal of the U.S.
stockpile of lethal and incapacitating chemical warfare agents and munitions.

The estimated total clean up liability for the current operating period is assigned based on the amount of
the current year appropriation and unliquidated obligations that will be disbursed within 12 months from
the Balance Sheet date. The non-current clean up liability is the portion of the clean up liability that will be
disbursed more than 12 months from the Balance Sheet date.

The DoD has not identified any unrecognized portion of the estimated total clean up cost associated with
General PP&E. The Department requires the unrecognized clean up cost associated with General PP&E to be
disclosed and is working with the Military Departments to ensure this policy is properly implemented.

The Department had changes in estimates resulting from overlooked or previously unknown contaminants,
better site characterization with sampling, re-estimation based on different assumptions, and lessons-learned.
Environmental liabilities can also change in the future due to changes in laws and regulation, changes in
agreements with regulatory agencies, and advances in technology.

The Department is working on processes to disclose: the amount of operating and capital resources disbursed
to remediate legacy waste; the unrecognized portion of the estimated costs associated with General PP&E; and
changes in estimates due to laws and technology.




                                                                    187
                                                                                            DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information

In addition to the liabilities reported above, the Army has a liability to take environmental restoration/
corrective action for buried chemical munitions and agents. The Army is unable to provide a reasonable
estimate at this time because the extent of the buried chemical munitions and agents is not known.


Note 15 - Other Liabilities

                            As of September 30                                                  2005                                   2004
                                                                           Current           Noncurrent
                                                                                                                      Total            Total
                                                                           Liability          Liability
                                                                                                   (Amounts in millions)
  Intragovernmental
      Advances from Others                                                      $394.6                 $0.0                $394.6         $749.6
      Deposit Funds and Suspense Account Liabilities                             742.1                  0.0                 742.1          561.6
      Disbursing Officer Cash                                                   2,092.0                 0.0                2,092.0       2,071.8
      Judgment Fund Liabilities                                                  162.6                  0.0                 162.6          379.8
      FECA Reimbursement to the Department of Labor                              588.9               806.5                 1,395.4       1,432.2
      Other Liabilities                                                         4,707.4            1,656.7                 6,364.1       5,531.9
      Total Intragovernmental Other Liabilities                                 8,687.6            2,463.2             11,150.8         10,726.9
  Nonfederal
      Accrued Funded Payroll and Benefits                                       7,382.8                 0.0                7,382.8      10,871.8
      Advances from Others                                                      1,697.5                 0.0                1,697.5       1,741.6
      Deferred Credits                                                             11.8                 0.0                   11.8             4.2
      Deposit Funds and Suspense Accounts                                        413.9                  0.0                 413.9          322.6
      Temporary Early Retirement Authority                                          0.4                 0.3                    0.7             2.1
      Nonenvironmental Disposal Liabilities
           Military Equipment (Nonnuclear)                                         18.5              665.0                  683.5          565.8
           Excess/Obsolete Structures                                              53.8              182.1                  235.9          435.3
           Conventional Munitions Disposal                                          0.0            1,318.4                 1,318.4       1,325.9
  Accrued Unfunded Annual Leave                                                 8,566.1                 0.0                8,566.1       7,991.5
  Capital Lease Liability                                                        184.6               132.6                  317.2          299.9
  Other Liabilities                                                             8,526.2              831.4                 9,357.6      10,930.5
  Total Nonfederal Other Liabilities                                           26,855.6            3,129.8             29,985.4         34,491.2
  Total Other Liabilities                                                     $35,543.2           $5,593.0           $41,136.2        $45,218.1


Nonfederal Other Liabilities – Fluctuations

Nonfederal Other Liabilities decreased $4.5 billion (13%) primarily due to changes in Accrued Funded Payroll
and Benefit, Other Liabilities, and Accrued Unfunded Annual Leave.



                                                                        188
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

The Accrued Funded Payroll and Benefit decreased $3.5 billion primarily due to the reclassification of Incurred
But Not Reported Costs to Other Accrued Liabilities and decreased accrual for military pay. In FY 2004, the
liability reflected an accrual of one-half month of military payroll. Since military pay disbursements were paid
on September 30, 2005, no additional accruals were necessary in FY 2005.

The Other Liabilities, comprised of Contingent Liabilities, Custodial Liabilities, Other Accrued Liabilities, and
Other Liabilities, decreased $1.6 billion.

•	 Contingent Liabilities decreased $2.3 billion due to a change in the accounting methodology used for items
   held for repair (reparable carcasses) and a reclassification of chemical demilitarization contingent liabilities as
   Environmental Liabilities.

•	 Custodial liabilities decreased by $1.7 billion for foreign military sales primarily due to the transfer of
   Japanese funds from the Foreign Military Sales Trust Fund to the Federal Financing Bank.

•	 The Other Accrued Liabilities increased $2.3 billion primarily due to increased Incurred But Not Reported
   Costs for TRICARE Management Activity and the Medicare-Eligible Retiree Health Care Fund, and
   the reclassification of these costs as Other Accrued Liabilities. The increased cost is due to changes in the
   methodology used to estimate these costs, including the medical rate of inflation, authorized beneficiaries,
   and increasing numbers of retirees taking full advantage of their benefits.

The Accrued Unfunded Annual Leave increase of $574.7 million is consistent with the fluctuation reported in
previous annual statements.

Intragovernmental Other Liabilities

Intragovernmental Other Liabilities are comprised primarily of custodial liabilities resulting from accounts
receivable for cancelled appropriations and interest, penalties, fines, and administrative fees from the public.
The amounts collected cannot be used by DoD and must be distributed to the Department of Treasury.

Nonfederal Other Liabilities

Nonfederal Other Liabilities include employer contributions and payroll taxes payable, contingent liabilities,
contract holdbacks, contract incentives, and incurred but not reported costs. Incurred but not reported costs
result from medical care provided at nonfederal facilities which have not yet been billed to DoD.




                                                                    189
                                                                                           DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information


                                                             Capital Lease Liability

                            As of September 30                                                2005 - Asset Category                    2004
                                                                                  Land and
                                                                                                    Equipment            Total         Total
                                                                                  Buildings
                                                                                                       (Amounts in millions)
  Future Payments Due
     2006                                                                               $63.8              $0.2                $64.0      $66.4
     2007                                                                                57.9                1.1                59.0       66.0
     2008                                                                                47.1                4.0                51.1       61.1
     2009                                                                                43.9                0.1                44.0       51.0
     2010                                                                                43.9                0.0                43.9       43.9
     After 5 Years                                                                      137.6                0.0               137.6      129.3
  Total Future Lease Payments Due                                                       394.2                5.4               399.6      417.7
  Less: Imputed Interest Executory Costs                                                 82.0                0.4                82.4      117.8
  Net Capital Lease Liability                                                          $312.2              $5.0                317.2      299.9
  Capital Lease Liabilities Covered by Budgetary Resources                                                                      74.1      219.4
  Capital Lease Liabilities Not Covered by Budgetary Resources                                                            $243.1          $80.5


For the Department of Defense, all leases prior to FY 1992 are funded on an annual basis and subject to the
availability of funds. Noncurrent amounts for these leases are shown as not covered by budgetary resources.

Leases originating after FY 1992 are required to be fully funded in the year of their inception. Therefore,
budgetary resources show the present value of those lease payments as covered by budgetary resources.


Note 16 - Commitments and Contingencies

Legal Contingencies

The Department is a party in various administrative proceedings and legal actions, with claims including
environmental damage claims, equal opportunity matters, and contractual bid protests. The Department has
accrued contingent liabilities for legal actions where the Department’s Office of the General Counsel considers
an adverse decision probable and the amount of loss is measurable. In the event of an adverse judgment against
the Government, some of the liabilities may be payable from the Judgment Fund. The Department records
Judgment Fund liabilities in Note 15, “Other Liabilities” and Note 12 “Accounts Payable.” See Notes 15 and
12 for details.

The Department’s General Counsel reported 42 legal actions with individual claims greater than the
DoD-wide materiality threshold of $171.4 million for fiscal year 2005. The total claim amount of these 42
actions is approximately $342 billion. The Department’s General Counsel identified 35 of these cases
($331 billion) as unable to determine the outcome.

                                                                       190
                                                                                               DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information

Other Commitments and Contingencies

The Department also has a number of potential claims that individually do not meet the $171.4 million
threshold materiality at the DoD-wide level, but do meet individual DoD Component level thresholds. These
claims should be disclosed in the Component’s financial statements.


Note 17 - Military Retirement Benefits and Other Employment Related Actuarial
Liabilities

            As of September 30                                                          2005                                           2004
                                                     Actuarial
                                                                          Assume               (Less: Assets       Unfunded         Unfunded
                                                  Present Value of
                                                                          Interest              Available to       Actuarial        Actuarial
                                                   Projected Plan
                                                                          Rate (%)             Pay Benefits)        Liability        Liability
                                                      Benefits
                                                                                          (Amounts in millions)
  Pension and Health Benefits
    Military Retirement Pensions                        $892,111.6                $6             ($191,138.9)       $700,972.7       $653,449.0
    Military Retirement Health Benefits                  296,473.2               6.25                      0.0       296,473.2        221,242.0
    Medicare-Eligible Retiree Benefits                   537,397.0               6.25              (59,816.0)        477,581.0        465,987.9
    Total Pension and Health Benefits                  1,725,981.8                                (250,954.9)      1,475,026.9      1,340,678.9
  Other
    FECA                                                    6,918.9              5.02                      0.0         6,918.9          6,958.7
    Voluntary Separation Incentive
                                                            1,495.7                                    (649.6)           846.1            892.0
      Programs
    DoD Education Benefits Fund                             1,661.4                                  (1,028.4)           633.0            246.4
    Total Other                                           10,076.0                                   (1,678.0)         8,398.0          8,097.1
  Total Military Retirement Benefits and
    Other Employment Related Actuarial                $1,736,057.8                               ($252,632.9)     $1,483,424.9     $1,348,776.0
    Liabilities:
  Actuarial Cost Method Used: Aggregate entry-age normal method
  Assumptions: See Below
  Market Value of Investments in Market-based and Marketable Securities: $262.2 billion


Fluctuations

The unfunded liability for Military Retirement and Other Employment-Related Actuarial Liabilities increased
$124.7 billion (9 percent) and is attributable to an increase of $156.4 billion (10 percent) in the actuarial
liability that was partially offset by an increase of $31.7 billion in the value of assets available to pay benefits.




                                                                       191
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

Military Retirement Benefits

The unfunded actuarial liability increased $47.5 billion (7 percent). This increase is attributable to an increase
of $57.5 billion in the actuarial liability that is offset by an increase of $10.0 billion in the value of assets
available to pay benefits. The increase in the actuarial liability is primarily the result of an amendment to the
Military Retirement Fund (MRF) Plan established by the National Defense Authorization Act for FY 2005
increasing survivor benefits.

The Military Retirement System is a single-employer, defined benefit plan. Administrative costs of the Fund
are not ascertainable. Projected revenues into the Fund, authorized by PL 98-94, come from three sources:
interest earnings on Fund assets, monthly DoD contributions, and annual contributions from the Treasury
Department. The monthly DoD contributions are determined as a percentage (approved by the DoD
Retirement Board of Actuaries) of basic pay. The contribution from Treasury is paid into the Fund at the
beginning of each fiscal year, and represents the amortization of the unfunded liability for service performed
prior to October 1, 1984, as well as the amortization of actuarial gains and losses that have arisen since then.
Effective FY 2005, Treasury began making an annual contribution to the Fund that represents the normal cost
amount for the new concurrent receipt provisions of the 2004 National Defense Authorization Act. The Board
determines Treasury’s contribution and the Secretary of Defense directs the Secretary of Treasury to make the
payment.

The long-term economic assumptions for each valuation are set by the DoD Retirement Board of Actuaries.
The long-term assumptions for the FY 2004 valuation were 6.25 percent interest, 3.0 percent Consumer Price
Index, and 3.75 percent salary increase. The long-term economic assumptions did not change for the FY 2005
valuation. Other assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates,
were based on actual experience. Because of reporting deadlines, the current year actuarial present value of
projected plan benefits is rolled forward, using accepted actuarial methods, from the prior year valuation results
as reported in the DoD Office of Actuary Valuation of the Military Retirement System. In calculating the
FY 2005 roll-forward amount, the following assumptions were used:

       	                               Inflation	                    Salary	                                Interest
       Fiscal Year 2005	              2.7 percent (actual)	          3.5 percent (actual)	                  6.25 percent
       Fiscal Year 2006	              4.1 percent (actual)	          3.1 percent (estimated)	               6.25 percent
       Long-Term	                     3.0 percent	                   3.75 percent	                          6.25 percent

For purposes of the Fund’s financial reporting, this roll-forward process is applied annually.

Actuarial Cost Method Used: Aggregate entry-age normal method.
Market Value of Investments in Market-Based and Marketable Securities: $197.4 billion




                                                                    192
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

       	                                                                                              FY 2005
       	                                                                                  (Amounts in millions)
       Actuarial Liability as of 9/30/04	                                                         $834,582.1
       Expected Normal Cost for FY 05	                                                               14,857.2
       Plan Amendment Liability	                                                                     25,835.9
       Assumption Change Liability	                                                                   4,904.2
       Expected Benefit Payments for FY 05	                                                        (38,704.4)
       Interest Cost for FY 05	                                                                      51,427.4
       Actuarial (gains)/losses due to changes in trend assumptions	                                  (709.9)
       Actuarial Liability as of 09/30/05	                                                        $892,111.6
       Change in Actuarial Liability	                                                              $57,529.5

Military Retirement Health Benefits (MRHB)

The unfunded actuarial liability for the Military Retirement Health Benefits increased $75.2 billion
(34 percent). In FY 2005, there was a significant actuarial loss attributable to medical cost experience; this loss
is included in “Actuarial (gains)/losses due to other factors” in the table above. Other (gains)/losses in this line
include new population data, other actuarial experience being different from assumed and actuarial assumption
changes other than the change in trend assumptions.

Change in MRHB Actuarial Liability

       	                                                                                  (Amounts in millions)
       Actuarial Liability as of 09/30/04 (DoD pre-Medicare +
       all Uniformed Services medicare cost-basis effect)	                                        $221,242.0
       Expected Normal Cost for FY05	                                                                 7,686.0
       Expected Benefit Payments for FY05	                                                          (7,718.0)
       Interest Cost for FY05	                                                                      13,827.0
       Actuarial (gains)/losses due to other factors	                                               20,323.0
       Actuarial (gains)/losses due to changes in trend assumptions	                                41,113.0
       Actuarial Liability as of 09/30/05 (DoD pre-Medicare +
       all Uniformed Services medicare cost-basis effect)	                                       *$296,473.0
       Change in Actuarial Liability	                                                              $75,231.0

       * MRHB Actuarial Liability is comprised of the following components not
       previously seperately identified:

       Tricare Management Activity Actuarial Liability as of 9/30/05	                            $155,155.0
       Service Management Activity Actuarial Liability as of 9/30/05	                             141,318.0
       Total MRHB Actuarial Liability	                                                          *$296,473.0

       Assumptions in Calculation of MRHB Liability
       Interest Rate:	 6.25%


                                                                    193
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

Medical Trend

Medicare Inpatient: 	                                          3.2% from FY04 to FY05, ultimate rate of 6.25% in 2029.
Medicare Outpatient:	                                          5.6% from FY04 to FY05, ultimate rate of 6.25% in 2029.
Medicare Prescriptions (Direct Care):	                        10.0% from FY04 to FY05, ultimate rate of 6.25% in 2029.
Medicare Prescriptions (Purchased Care):	                     15.2% from FY04 to FY05, ultimate rate of 6.25% in 2029.
Non-Medicare Inpatient: 	                                      6.1% from FY04 to FY05, ultimate rate of 6.25% in 2029.
Non-Medicare Outpatient:	                                     6.25% from FY04 to FY05, ultimate rate of 6.25% in 2029.
Non-Medicare Prescription:	                                   15.1% from FY04 to FY05, ultimate rate of 6.25% in 2029.

Other Information

The DHP liability includes pre-Medicare liabilities for the Department of Defense, plus a cost-basis effect
related to the direct care portion of Medicare liabilities for all Uniformed Services. The approximate breakout
of the September 30, 2005, liability was:

             	                                                                                    (Amounts in millions)
             DoD	                                                                                         $295,962.0
             Coast Guard	                                                                                      453.0
             Public Health Service	                                                                             54.0
             National Oceanic & Atmospheric Administration (NOAA)	                                               4.0
             Total	                                                                                       $296,473.0

Prior to the end of FY 2005, the “DHP” liability included pre-Medicare liabilities for the Department of
Defense, plus a cost-basis effect related to the direct care portion of Medicare liabilities for all Uniformed
Services. The cost-basis effect is approximately $22.3 billion as of September 30, 2005, and arises because
liabilities for direct care in the total Military Retirement Health Benefits liability are valued at a higher cost
basis than they are in the Medicare Eligible Retiree Health Care Fund (MERHCF) liability.

Actuarial Cost Method Used for DHP Actuarial Liability: Aggregate Entry-Age Normal	

Medicare-Eligible Retiree Benefits

The MERHCF unfunded actuarial liability increased $11.6 billion (2 percent). This increase is attributable to
an increase of $33.3 billion in the actuarial liability that is offset by an increase of $21.7 billion in the value of
assets available to pay benefits.




                                                                    194
                                                                                       DoD Performance & Accountability Report FY2005
           ..................................................................................................Part 3: Financial Information

Change in MERHCF Actuarial Liability

       	                                                                                            (Amounts in millions)
       Actuarial Liability as of 09/30/04 (all Uniformed Services Medicare)	                                $504,073.8
       Expected Normal Cost for FY05	                                                                          10,613.8
       Expected Benefit Payments for FY05	                                                                    (6,546.9)
       Interest Cost for FY05	                                                                                 31,629.8
       Actuarial (gains)/losses due to other factors	                                                        (14,902.7)
       Actuarial (gains)/losses due to changes in trend assumptions	                                           12,529.3
       Actuarial Liability as of 09/30/05 (all Uniformed Services Medicare)	                                $537,397.2
       Change in Actuarial Liability	                                                                        $33,323.3

Assumptions in Calculation of MERHCF Liability
Interest Rate:	 6.25%

Medical Trend

Medicare Inpatient: 				                                    3.2% from FY04 to FY05, ultimate rate of 6.25% in 2029.
Medicare Outpatient:				                                    5.6% from FY04 to FY05, ultimate rate of 6.25% in 2029.
Medicare Prescriptions (Direct Care):		                    10.0% from FY04 to FY05, ultimate rate of 6.25% in 2029.
Medicare Prescriptions (Purchased Care):	                  15.2% from FY04 to FY05, ultimate rate of 6.25% in 2029.

The MERHCF liability includes Medicare liabilities for all Uniformed Services. The approximate breakout of
the September 30, 2005, liability was:


            	                                                                                       (Amounts in millions)
            DoD	                                                                                           $526,082.5
            Coast Guard	                                                                                     10,176.7
            Public Health Service	                                                                            1,067.0
            NOAA	                                                                                                71.0
            Total	                                                                                         $537,397.2

FY 2005 Service contributions to the MERHCF were:

            	                                                                                       (Amounts in millions)
            DoD	                                                                                             $10,220.0
            Coast Guard	                                                                                         236.7
            Public Health Service	                                                                                32.1
            NOAA	                                                                                                  1.5
            Total	                                                                                           $10,490.3




                                                                   195
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

Assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on
actual experience. Claims cost assumptions for direct care were based on actual experience; assumptions for
purchased care were developed from industry-based cost estimates adjusted to approximate the military retired
population.

Projected revenues into the Medicare Eligible Retiree Health Care Fund, authorized by Chapter 56 of Title
10, United States Code, come from three sources: interest earnings on Fund assets, monthly Uniformed
Services “normal cost” contributions, and annual contributions from the Treasury Department. The monthly
contributions are determined as a per-capita amount (approved by the DoD Medicare Eligible Retiree Health
Care Board of Actuaries) times end strength. The contribution from Treasury is paid into the Fund at the
beginning of each fiscal year and represents the amortization of the unfunded liability for service performed
prior to October 1, 2002, as well as the amortization of actuarial gains and losses that have arisen since then.
The Board determines Treasury’s contribution, and the Secretary of Defense directs the Secretary of Treasury to
make the payment. Starting in FY 2006, the beginning-of-fiscal-year Treasury contribution will also include
the total normal cost amount for the year, determined based on Board-approved per capita normal cost rates
and expected average force strengths for the Uniformed Services. Thus, starting in FY 2006, the Services will
no longer make monthly contributions into the Fund.

The actuarial liability reported above does not include $762.2 million in incurred but not reported liabilities as
of September 30, 2005. These liabilities are disclosed in the Liabilities Not Covered and Covered by Budgetary
Resources note, and the Other Liabilities note.
	
Because of reporting deadlines, the current year actuarial present value of projected plan benefits is rolled
forward, using accepted actuarial methods, from the prior year's results. For purposes of the Fund's financial
reporting, this process is applied annually.

Actuarial Cost Method Used for MERHCF Liability: Aggregate Entry-Age Normal
Market Value of Investments in Market-Based and Marketable Securities: $60.0 billion

Federal Employees Compensation Act (FECA)

The unfunded liability for FECA decreased 1 percent.

The liability for future workers’ compensation (FWC) benefits includes the expected liability for death,
disability, medical, and miscellaneous costs for approved compensation cases, plus a component for incurred
but not reported claims. The liability is determined using a method that utilizes historical benefit payment
patterns related to a specific incurred period to predict the ultimate payments related to that period. Consistent
with past practice, these projected annual benefit payments have been discounted to present value using the
Office of Management and Budget’s economic assumptions for 10-year Treasury notes and bonds. Interest rate
assumptions utilized for discounting were as follows:

            Year 1	                                 4.53%
            Year 2	                                 5.02%
            Year 3 and thereafter	                  5.02%

                                                                    196
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

To provide more specifically for the effects of inflation on the liability for future workers’ compensation
benefits, wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer
price index medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates
for these factors for the charge back year (CBY) 2005 were also used to adjust the methodology’s historical
payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various charge back years
(CBY) were as follows:
           CBY	         COLA	             CPIM
           2005	        2.20%	            4.33%
           2006	        3.33%	            4.09%
           2007	        2.93%	            4.01%
           2008	        2.40%	            4.01%
           2009+	       2.40%	            4.01%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was
based on three tests: (1) a comparison of the percentage change in the liability amount by agency to the
percentage change in the actual payments; (2) a comparison of the ratio of the estimated liability to the actual
payment of the beginning year calculated for the current projection to the liability-payment ratio calculated for
the prior projection; and (3) a comparison of the incremental paid losses (the medical component in particular)
in CBY 2005 (by injury cohort) to the average pattern observed during the prior three charge back years.

Voluntary Separation Incentive Programs (VSI)

The unfunded actuarial liability decreased $45.9 million (5 percent) as a result of a decrease of $97.8 million in
the actuarial liability and a decrease of $51.9 million in the value of assets available to pay benefits.

The VSI program was established by Public Law 102-190. The intent of this program is to reduce the number
of military personnel on active duty. This plan was offered to personnel with a minimum of six years of service
who do not qualify for retirement. The incentive payments are spread over a period equivalent to twice the
years of active service. The annual payment is based on 2.5 percent of the person's basic pay at the time they
leave service multiplied by the number of years of service. The September 30, 2005, VSI Actuarial Present
Value of Projected Plan Benefits (Actuarial Liability) was calculated at an assumed annual interest rate of 4
percent.

Since the VSI program is discontinued for new takers, each year the Actuarial Liability is expected to decrease
with benefit outlays, and increase with interest cost. In the absence of (1) actuarial gains and losses, and
(2) assumption changes, a decrease of $94 million in the Actuarial Liability was expected during FY 2005. The
September 30, 2005, Actuarial Liability includes changes due to experience, which resulted in a net gain of
$3 million. This reflects the new population on which the September 30, 2005, Actuarial Liability is based, as




                                                                    197
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

well as other economic experience being different than assumed.

The Present Value of Projected Plan Benefits (Actuarial Liability) for the VSI Fund, as of September 30, 2005,
is $1.5 billion. It has been calculated as in prior years; namely, as the present value, as of September 30, 2005,
of all remaining VSI payments.

Market Value of Investments in Market-based and Marketable Securities:	$624 million.

DoD Education Benefits Fund

The estimated present value of benefit (PVB) for the Department of Defense Education Benefits Fund as of
September 30, 2004, increased over what was reported on the FY 2004 statement because of a new educational
benefit for mobilized reservists under Chapter 1607 of Title 10. Chapter 1607, in turn, reduced the liabilities
under Chapter 1606. In addition, the PVB includes more complete experience, a different interest rate
(5.1 percent vs. 5.3 percent), and somewhat different modeling. The net effect of these changes was to
increase the PVB by $386 million (157 percent). For the numbers reported as of September 30, 2005, there
is a further increase (net $21 million) (2 percent) due to an additional year of new entrants, the inclusion of
National-Call-to-Service benefits (10USC510), and calculating the present value of benefits as of a year later.

The Education Benefits Fund was established by Public Law 98-525. The program is designed to accumulate
funds for the Educational Assistance program, to promote the recruitment and retention of members for the
All-Volunteer Forces program and the Total Force Concept of the Armed Forces, and aid in the readjustment of
members of the Armed Forces to civilian life after separation from military service.

Market Value of Investments in Market-based and Marketable Securities: $1.0 billion


Note 18 - Disclosures Related to the Statement of Net Cost

General Disclosures Related to the Statement of Net Cost

This statement provides gross and net cost information that can be related to the amount of output or outcome
for a given program and/or organization administered by a responsible reporting entity.

For General Funds, the amounts presented in the Statement of Net Cost are based on obligations and
disbursements and therefore may not, in all cases, accrue actual costs. While the Department’s Working
Capital Funds generally record transactions on an accrual basis, the systems do not always capture actual
costs in a timely manner. As such, information presented in the Statement of Net Cost is based on budgetary
obligations, disbursements, and collection transactions, as well as non-financial feeder systems, adjusted to
record known accruals for major items such as payroll expenses, accounts payable and environmental liabilities.




                                                                    198
                                                                                           DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information

Fluctuations

Intragovernmental Earned Revenue
Intragovernmental Earned Revenue increased $2.8 billion (18 percent) primarily due to a $2.1 billion increase
in interest on investments and increased reimbursable work performed for the Federal Emergency Management
Agency (FEMA) for hurricane relief efforts.

Gross Costs With the Public
Gross Costs With the Public increased $36.0 billion (6 percent) primarily due to a $32.2 billion increase in
future funded expenses related to actuarial liability estimates.

Earned Revenue From the Public
Earned Revenue From the Public increased $4.6 billion (21 percent) primarily due to a $2.3 billion increase for
real property additions and inventory revaluation gains. In addition, the Army incurred a $2.0 billion increase
primarily due to inventory reporting errors in the Logistics Modernization Program. This resulted in revenues
and expenses being overstated in FY 2005. The Department is working to resolve the issue.


Note 19 - Disclosures Related to the Statement of Changes in Net Position

               As of September 30                                         2005                                           2004
                                                      Cumulative Results          Unexpended           Cumulative Results        Unexpended
                                                        of Operations            Appropriations          of Operations          Appropriations
                                                                                         (Amounts in millions)
  Prior Period Adjustments Increases (Decreases) to Net Position
    Changes in Accounting Standards                                $3,632.4                 $0.0                   $699.5                  $0.0
    Errors and Omissions in Prior Year
                                                                    7,256.5                  0.0                 (7,257.0)             25,913.7
       Accounting Reports
    Other Prior Period Adjustments                                      0.0                  0.0                 (1,044.7)                  0.0
    Total Prior Period Adjustments                                 10,888.9                  0.0                 (7,602.2)             25,913.7
  Imputed Financing
    Civilian CSRS/FERS Retirement                                   1,604.1                  0.0                  1,658.6                   0.0
    Civilian Health                                                 2,457.1                  0.0                  2,248.7                   0.0
    Civilian Life Insurance                                            24.7                  0.0                     22.4                   0.0
    Judgment Fund                                                    379.4                   0.0                    162.8                   0.0
    Intra-Entity                                                        0.0                  0.0                      0.0                   0.0
    Total Imputed Financing                                        $4,465.3                 $0.0                 $4,092.5                  $0.0


Prior Period Adjustments

The Department of Defense recorded $10.9 billion (net) in prior period adjustments to Cumulative Results of
Operations. In FY 2005, the Air Force completed conversion of its inventory valuation method from Latest

                                                                        199
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

Acquisition Cost to Moving Average Cost. This resulted in adjustments to eliminate allowance for gains and
losses, establish an allowance for repair and revalue the inventory. Total inventory revaluation was
$11.3 billion. The revaluation was offset by the $0.4 billion reversal of erroneous gains and losses from prior
years.

All adjustments comply with guidance provided by SFAS 16, APB 20, and SFFAS No. 21, all of which address
the treatment of errors and disclosure of prior period adjustments.

Imputed Financing

The amounts the Department of Defense remits to the Office of Personnel Management by and for employees
covered by the Civil Service Retirement System, the Federal Employees' Retirement System, the Federal
Employees' Health Benefits program, and the Federal Employees' Group Life Insurance program do not fully
cover the government's cost to provide these benefits. An imputed cost is recognized as the difference between
the government's cost of providing these benefits to employees and DoD’s contributions for them. The Office
of Personnel Management provides cost factors for the computation of imputed financing costs, and their
inclusion in the Department’s financial statements.

Fluctuations

Cumulative Results of Operations
Budgetary Financing Sources, Transfers-in/out Without Reimbursement decreased $7.4 billion primarily
due to the Department receiving less budgetary resources for the Iraqi Relief and Reconstruction Fund. The
Department reported $2.9 billion in FY 2005 and $10.3 billion in FY 2004.

Other Budgetary Financing Sources, Other decreased $4.5 billion due to a correction in the treatment of
reconciling adjustments. Due to system deficiencies, the Department is unable to fully reconcile budgetary
and proprietary trial balances and must make reconciling adjustments. Prior to FY 2005, these adjustments
were being reflected incorrectly on this line. These adjustments are now correctly reflected as Other Financing
Sources, Other.

Other Financing Sources, Transfers-in/out Without Reimbursement (net transfers) decreased by
$2.8 billion.  In FY 2004, the Department transferred-in a large actuarial liability from the U.S. Coast Guard
to the Medicare Eligible Retiree Health Care Fund. Net transfers in FY 2005 consist of a downward subsidy
reestimate on loan guarantees for Military Housing Privatization and property transfers.

Other Financing Sources, Other decreased $2.2 billion due to the reclassification of budgetary/proprietary
adjustments from Other Budgetary Financing Sources, Other discussed above.

Unexpended Appropriations
The $12.8 billion increase in appropriations received resulted primarily from:

•	 An increase of approximately $24.8 billion in appropriations received in the FY 2005 Appropriations Act.
•	 A net decrease in supplemental appropriations received of $13.4 billion in FY 2005 as compared to FY 2004.

                                                                    200
                                                                                           DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information

  During FY 2005, the Department received supplementals totaling $77.8 billion in support of the Global War
  on Terror, tsunami relief, and hurricane relief. During FY 2004, the Department received two supplementals
  totaling $91.2 billion.

Other Disclosures

There is a difference of $80 billion between Appropriations Received that are reported on the Statement
of Changes in Net Position ($524.9 billion) and Appropriations Received in the Statement of Budgetary
Resources ($604.9 billion). Trust Funds are duplicated in the Statement of Budgetary Resources but not in
the Statement of Changes in Net Position. See Note 20, “Statement of Budgetary Resources,” for further
disclosures.


Note 20 -Disclosures Related to the Statement of Budgetary Resources

                                As of September 30                                               2005                             2004
                                                                                                          (Amounts in millions)
  Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End
                                                                                                     $275,627.9                      $233,505.4
  of the Period
  Available Borrowing and Contract Authority at the End of the Period                                   28,006.3                         25,314.3


The Net Amount of Budgetary Resources Obligated for Undelivered Orders increased $42.1 billion
(18 percent). The increase is due to increased support of contingency missions Operations Enduring Freedom,
Iraqi Freedom, and Noble Eagle, appropriations received for the Global War on Terror, Tsunami and Hurricane
Relief, and replacement of lost, damaged, and destroyed military equipment.

Available Borrowing and Contract Authority at the end of the period increased $2.7 billion (11 percent). This
fluctuation was primarily attributable to increased activity in support of the following contingency missions:
Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle, as well as to the increased authority available
to incur obligations for Foreign Military Sales administrative expenses.

The Budgetary Financing, Budgetary Resources Section of the Statement of Budgetary Resources (SBR)
reflects a decrease of $168.6 billion (17 percent). The decrease is primarily attributed to a reporting change in
unobligated fund balances for special and trust funds, such as the Medicare-Eligible Retiree Health Care Fund
(MERHCF) and the Military Retirement Fund (MRF). Brought forward balances from Fiscal Year 2004 were
decreased by $220.7 billion to correct an inconsistency in presentation with the President’s Budget. The overall
decrease was partially offset by increased funding provided in support of contingency missions Operations
Enduring Freedom, Iraqi Freedom, Noble Eagle, the Global War on Terror, and Tsunami and Hurricane Relief.

The Nonbudgetary Financing, Budgetary Resources Section of the SBR reflects an increase of $29.1 million
(13 percent). This section of the SBR reports activity for the Military Housing Privatization Initiative. This
fluctuation was primarily due to an increased number of direct loan contracts that were scheduled to be
disbursed in FY 2005; however, the contracts are now scheduled for completion and disbursement in FY 2006.


                                                                        201
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

The Navy incorrectly reported an appropriation transfer of $25.2 million as Appropriations Received, resulting
in an overstatement of Appropriations Received.

Permanent Indefinite Appropriations

The Department of Defense received the following permanent indefinite appropriations:

•	 Department of the Army General Gift Fund (10 USC 2601(b)(1))
•	 Department of the Navy General Gift Fund (10 USC 2601(b)(2))
•	 Department of the Air Force General Gift Fund (10 USC 2601 (b)(3))
•	 Foreign National Employees Separation Pay Account, Defense (10 USC 1581)
•	 United States Naval Academy Gift and Museum Fund (10 USC 6973-4)
•	 Ship Stores Profits, Navy (10 USC 7220, 31 USC 1321)
•	 Midshipmen’s Store (10 USC 6971B)
•	 Burdensharing Contributions Account (10 USC 2350j)
•	 Forest Program (10 USC 2665)
•	 Department of Defense Base Closure Account (BRAC 10 USC 2687 note)
•	 Medicare Eligible Retiree Health Care Fund (10 USC 1111)
•	 Military Retirement Fund (10 USC 1461)
•	 Education Benefits Fund (10 USC 2006)
•	 Reserve Mobilization Income Insurance Fund (RII) (10 USC 12528)
•	 Host Nation Support for U.S. Relocation Activities (10 USC 2350k)
•	 National Defense Sealift Fund (10 USC 2218)
•	 Environmental Restoration, Navy (10 USC 2702)
•	 Hydraulic Mining Debris Reservoir (33 USC 683)
•	 Maintenance and Operation of Dams and Other Improvements of Navigable Waters (16 USC 810(a))
•	 Payments to States (33 USC 701c-3)
•	 Wildlife Conservation (16 USC 670-670f )
•	 Ainsworth Bequest (IAW 31 USC 1321)

Reconciliation Differences

The Department of the Treasury issues annual warrants to pay amortized payments for the unfunded actuarial
liabilities of the MRF and MERHCF. This amount is credited and expended from the Other Defense
Organizations – General Funds to the MRF and MERHCF in accordance with the Office of Management and
Budget (OMB) guidance. The OMB is aware of and approves of this duplicate reporting. As a result,
$38.6 billion is duplicated in Appropriations Received on the SBR.

The MERHCF, MRF, Education Benefits and Voluntary Separation Incentive Program report Appropriations
Received for contributions paid by the Army, Navy, and Air Force. These Military Departments also include
these amounts in Appropriations Received. As a result, $25.4 billion is duplicated on the SBR.

There is a difference of $25.0 billion between undelivered orders (UDOs) reported on line 1 in the table above
($275.6 billion) and the amount of UDOs on the SBR ($250.6 billion). This difference is primarily

                                                                    202
                                                                                           DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information

attributable to the process of reporting UDOs with advances. Line 1 reports UDOs with advances, but the
SBR does not. In addition, the SBR reports transferred obligations for UDOs without advances, but line 1 in
the table above does not.

Intra-Entity Transactions

The SBR includes intra-entity transactions because the statements are presented as combined and combining.

                                                  Direct Obligations - Apportionment Categories
                                                                                                          Exempt from
                    Reporting Entity                           Category A           Category B                                      Totals
                                                                                                         Apportionment
                                                                                            (Amounts in millions)
  Army General Fund                                               $174,140.9               $945.3                                   $175,086.2
  Navy General Fund - see disclosure below                          85,776.8              51,917.6                                    137,694.4
  Air Force General Fund                                            70,014.7              54,673.4                       1.3          124,689.4
  US Army Corps of Engineers                                         5,710.5                                           29.0             5,739.5
  Military Retirement Fund                                          39,166.2                                                           39,166.2
  Medicare-Eligible Retiree Health Care Fund                         6,398.7                                                            6,398.7
  Other Defense Organizations – General Fund                       110,700.4                 649.2                    466.0           111,815.6
  Other Defense Organizations – Working Capital Fund                 1,142.0                                                            1,142.0
  Totals                                                          $493,050.2           $108,185.5                    $496.3         $601,732.0


                                               Reimbursable Obligations - Apportionment Categories
                                                                                                           Exempt from
                     Reporting Entity                           Category A           Category B                                     Totals
                                                                                                          Apportionment
                                                                                            (Amounts in millions)
  Army General Fund                                                $20,206.7              $4,300.0                                   $24,506.7
  Navy General Fund - see disclosure below                                                13,463.8                                     13,463.8
  Air Force General Fund                                             8,543.7               3,904.9                                     12,448.6
  Army Working Capital Fund                                                               11,850.8                   4,971.6           16,822.4
  Navy Working Capital Fund                                                               23,936.0                                     23,936.0
  Air Force Working Capital Fund                                                          15,892.1                                     15,892.1
  US Army Corps of Engineers                                         6,901.4                                             1.0            6,902.4
  Other Defense Organizations – General Fund                         5,447.4                                                            5,447.4
  Other Defense Organizations – Working Capital Fund                56,563.7                                                           56,563.7
  Totals                                                           $97,662.9            $73,347.6                   $4,972.6        $175,983.1


Due to system limitations, the Navy General Fund could not categorize obligations. Therefore, all of Navy’s
direct and reimbursable obligations are reported in the above table as Category “A.”



                                                                       203
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

NOTE:
1. Category “A” relates to appropriations for a specific period of time (e.g., Military Personnel appropriation).
2. Category “B” relates to appropriations for a specific project (e.g., Military Construction appropriation).


Note 21 - Disclosures Related to the Statement of Financing
Due to the Department’s financial system limitations, budgetary data is not in agreement with proprietary
expenses and assets capitalized. The difference between budgetary and proprietary data is a previously
identified deficiency. To bring the Statement of Financing into balance with the Statement of Net Cost, the
following adjustments (absolute value) were made:

          Resources That Finance the Acquisition of Assets	                                        $11,095.5 million
          Other Components Not Requiring or Generating Resources	                                     $283.1 million
          Statement of Net Cost*	                                                                        $.3 million

*The U.S. Army Corps of Engineers adjusted the Statement of Net Cost instead of the Statement of Financing.

The following Statement of Financing lines are presented as combined instead of consolidated due to intra-
agency budgetary transactions not being eliminated:

•	 Obligation Incurred
•	 Less: Spending Authority from Offsetting Collections and Recoveries
•	 Obligations Net of Offsetting Collections and Recoveries
•	 Net Obligations
•	 Undelivered Orders
•	 Unfilled Orders

Resources Used to Finance Activities

Offsetting Receipts increased $8.5 billion due primarily to increases in contributions to the Military Retirement
Fund and the Medicare-Eligible Retiree Health Care Fund.

Transfers In/Out Without Reimbursement decreased $2.8 billion due primarily to the reduction of transfers in
from other federal agencies. In FY 2004, the U.S. Coast Guard transferred $2.8 billion to the
Medicare-Eligible Retiree Health Care Fund, which completed the U.S. Coast Guard liability transfer. There
were no Coast Guard transfers in FY 2005.

Other Resources – Other decreased $2.1 billion primarily due to Component adjustments to gains and losses
necessary to reconcile the proprietary and budgetary accounts and adjustments to reconcile trading partner
differences.




                                                                    204
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

Resources Used to Finance Items not Part of the Net Cost of Operations

Resources That Finance the Acquisition of Assets increased $25.8 billion due primarily to a revision of military
equipment projections provided by the Bureau of Economic Analysis (BEA), Department of Commerce. For
further disclosure on military equipment see Note 10.

Components of the Net Cost of Operations Requiring or Generating Resources in the Future
Periods

Increase in Environmental and Disposal Liability reported decreased $2.8 billion (72%) due to the reduction of
environmental liabilities related to closed ranges. For further disclosure on environmental liabilities see
Note 14.

Components Requiring Resources in Future Periods - Other consists of unfunded expenses relating to
contingent liabilities, actuarial and other unfunded employment-related liabilities. The $29.0 billion increase
resulted primarily from changes in actuarial liabilities for the Military Retirement Fund, Medicare-Eligible
Retiree Health Care Fund and the Defense Health Program. For further disclosure on actuarial liabilities see
Note 17.

Components not Requiring or Generating Resources

Depreciation and amortization increased $6.7 billion due primarily to the revision of military equipment
projections provided by the BEA, Department of Commerce.

Revaluation of Assets or Liabilities increased $7.5 billion primarily due to the gains reported by the Air Force
after converting their inventory valuation method from Latest Acquisition Cost to Moving Average Cost.


Note 22 - Disclosures Related to the Statement of Custodial Activity
The Statement of Custodial Activity displays current year collections and disbursements for three custodial
accounts: Foreign Military Sales, Development Fund for Iraq, and Seized Assets. Funds held in a custodial
activity are only used for the stated purposes and are not available for the Department’s use.

Foreign Military Sales (FMS)

Current year Deposits by Foreign Governments into the FMS Trust Fund are $10.7 billion and disbursements
on Behalf of Foreign Governments and International Organizations equal $11.1 billion.




                                                                    205
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

Under authority of the Arms Export and Control Act, the FMS Trust Fund receives collections from foreign
governments that are dedicated specifically to FMS purchases. Funds collected into the Trust Fund are in
advance of the performance of services or sale of articles. These advance collections constitute a fiduciary
relationship with the countries.

FMS neither recognizes nor reports revenue. The only exception is cost clearing accounts, which are reflected
in all other principle financial statements. Since various DoD Components actually perform the services and
sell the articles, recognition of revenue and expense occurs in the financial statements of the applicable DoD
Components.

Development Fund for Iraq (DFI)

The DFI is for urgent humanitarian assistance, reconstruction, and other projects carried out for the benefit of
the Iraqi people. Current year deposits from the Interim Iraqi Government transferred to the Multi-National
Force-Iraq are $136.0 million with $82.6 million in disbursements.

     				                                                                                                     (Amounts in millions)
     			                                 During	                                                                    Cumulative
     			                                FY 2005	                                                                 from Inception
     Source of Collections
     	 Deposits By Foreign Governments	  $136.0	                                                                           $136.0

     Disposition of Collections
     	 Security and Law Enforcement 	                                                              .8 	                        .8
     	 Electric Sector	                                                                          24.4	                       24.4
     	 Oil Infrastructure	                                                                         .4	                         .4
     	 Water Resources and Sanitation 	                                                           6.7	                        6.7
     	 Transportation and Telecommunications 	                                                    5.2 	                       5.2
     	 Roads, Bridges and Construction 	                                                          4.2	                        4.2
     	 Health Care 	                                                                              2.7 	                       2.7
     	 Private Sector Development 	                                                               3.8 	                       3.8
     	 Education, Refugees, Human Rights, and Governance	                                        34.4 	                      34.4
     	 Total Disbursed on Behalf of Foreign Governments	                                         82.6	                       82.6
     	 Retained for Future Support of Foreign Governments (note)	                                53.4	                       53.4
     	 Total Disposition of Collections	                                                       $136.0	                     $136.0

     Net Custodial Collection Activity	                                                              $0	                         $0

Note – Reported on Statement of Custodial Activity under Disposition of Collections, Increase (Decrease) in
Amounts to be Transferred.




                                                                    206
                                                                                           DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information

Seized Assets

During Operation Iraqi Freedom, the U.S. Government seized assets from the former Iraqi Government that
are used in support of the Iraqi people. As of September 30, 2005, $61.4 million of seized monetary assets
remain to be disbursed in support of the Iraqi people as shown in the table below.

     			                                                                                                                 (Amount in millions)
     		                     During	                                                                                          Cumulative
     		                    FY 2005	                                                                                       from Inception
     Source of Collections
     	 Seized Iraqi Cash	      $0.0	                                                                                                $927.2

     Disposition of Collections
     	 Iraqi Salaries	                                                                                     0.0	                       30.8
     	 Repair/Reconstruction/Humanitarian Assistance	                                                     51.2	                      495.0
     	 Iraqi Ministry Operations (Ministry of Finance, Defense, etc.)	                                      .8	                      264.7
     	 Fuel/Supplies	                                                                                        0	                       75.3
     	 Total Disbursed on behalf of Iraqi People	                                                         52.0	                      865.8
     	 Retained for Future Support of the Iraqi People	                                                 (52.0)	                       61.4
     	 Total Disposition of Collections	                                                                   $0	                      $927.2

     Net Custodial Collection Activity	                                                                     $0	                          $0


Note 23 - Other Disclosures

                As of September 30                                                               2005
                                                       Land and Buildings           Equipment                    Other                 Total
                                                                                         (Amounts in millions)
 ENTITY AS LESSEE-Operating Leases
 Future Payments Due (Fiscal Year)
      2006                                                            $198.8                    $0.2                 $133.3                $ 332.3
      2007                                                             195.4                     0.0                     136.0                  331.4
      2008                                                             216.2                     0.0                     138.7                  354.9
      2009                                                             230.7                     0.0                     141.4                  372.1
      2010                                                             231.2                     0.0                     144.3                  375.5
      After 5 Years                                                    206.9                     0.0                     147.2                  354.1
 Total Future Lease Payments Due                                    $1,279.2                    $0.2                 $ 840.9              $2,120.3




                                                                       207
                                                                                                               DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

                                                   Consolidating and Combining Statements
Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2005 and 2004
($ in Millions)                                                                  Army General Fund                     Navy General Fund               Air Force General Fund



 ASSETS (Note 2)

       Intragovernmental:
          Fund Balance with Treasury (Note 3)
          Entity                                                             $                      86,799.0      $                   85,734.7     $                     62,273.0
          Non-Entity Seized Iraqi Cash                                                                  61.4                                 0.0                                 0.0
          Non-Entity-Other                                                                            232.9                                344.5                                77.3
          Investments (Note 4)                                                                           3.5                                 9.5                                 0.7
          Accounts Receivable (Note 5)                                                                276.7                                281.4                            653.6
          Other Assets (Note 6)                                                                       824.3                                672.3                            428.0
          Total Intragovernmental Assets                                     $                      88,197.8      $                   87,042.4     $                     63,432.6


       Cash and Other Monetary Assets (Note 7)                               $                       1,482.0      $                        305.4   $                        151.8
       Accounts Receivable (Note 5)                                                                   584.0                            3,267.7                            1,028.3
     Loans Receivable
Department of Defense (Note 8)                                                                           0.0                                 0.0                                 0.0
Agency Inventory
          Wide and Related Property (Note 9)                                                        37,703.4                          55,584.8                           47,169.0
CONSOLIDATING        BALANCE
       General Property, Plant andSHEET
                                   Equipment (Note 10)                                          120,401.7                            158,328.8                          123,646.1
As of September
        Investments 30, 2005
                    (Note 4) and 2004                                                                    0.0                                 0.0                               0.0
($ in Millions)                                                                   Army General Fund                    Navy General Fund               Air Force General Fund
        Other Assets (Note 6)                                                                     3,844.5                              6,988.8                            11,179.0
 TOTAL ASSETS                                                                $                  252,213.4         $                  311,517.9     $                    246,606.8
 LIABILITIES (Note 11)

       Intragovernmental:
          Accounts Payable (Note 12)                                         $                       1,918.4       $                   1,208.8     $                       1,651.9
          Debt (Note 13)                                                                                 0.0                                 0.0                                 0.0
          Other Liabilities (Note 15 & Note 16)                                                      2,372.3                           3,826.0                             1,589.9
          Total Intragovernmental Liabilities                                $                       4,290.7       $                   5,034.8     $                       3,241.8


       Accounts Payable (Note 12)                                            $                      10,137.0       $                   1,180.0     $                       5,851.2
       Military Retirement Benefits and Other Employment-Related                                     1,663.6                           1,532.8                             1,147.4
       Actuarial Liabilities (Note 17)
 The accompanying notes are an integral part of these statements.                          Page 1
       Environmental Liabilities (Note 14)                                                          39,760.5                          17,050.5                             7,126.2
       Loan Guarantee Liability (Note 8)                                                                12.4                                 0.0                                 0.0
       Other Liabilities (Note 15 and Note 16)                                                       6,401.9                           4,459.8                             4,179.5
 TOTAL LIABILITIES                                                           $                      62,266.1       $                  29,257.9     $                     21,546.1


 NET POSITION

      Unexpended Appropriations                                              $                      74,704.7       $                  89,739.9     $                     63,716.6
      Cumulative Results of Operations                                                          115,242.6                            192,520.1                          161,344.1
 TOTAL NET POSITION                                                          $                  189,947.3          $                 282,260.0     $                    225,060.7


 TOTAL LIABILITIES AND NET POSITION                                          $                  252,213.4          $                 311,517.9     $                    246,606.8




 The accompanying notes are an integral part of these statements.                          Page 7

                                                                                 208
                                                                                                                DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2005 and 2004
($ in Millions)                                                                  Army Working Capital                  Navy Working Capital               Air Force Working Capital
                                                                                       Fund                                  Fund                                   Fund

 ASSETS (Note 2)

       Intragovernmental:
          Fund Balance with Treasury (Note 3)
          Entity                                                             $                          623.3      $                          977.9   $                        1,164.2
          Non-Entity Seized Iraqi Cash                                                                    0.0                                   0.0                                   0.0
          Non-Entity-Other                                                                                0.0                                   0.0                                   0.0
          Investments (Note 4)                                                                            0.0                                   0.0                                   0.0
          Accounts Receivable (Note 5)                                                                  366.8                                 494.5                              510.6
          Other Assets (Note 6)                                                                           0.0                                   0.4                               48.5
          Total Intragovernmental Assets                                     $                          990.1      $                     1,472.8      $                        1,723.3


       Cash and Other Monetary Assets (Note 7)                               $                            0.0      $                            0.0   $                               0.0
       Accounts Receivable (Note 5)                                                                      12.0                                  29.7                              219.9
      Loans Receivable
Department  of Defense(Note 8)                                                                            0.0                                   0.0                                   0.0
Agency Inventory
          Wide and Related Property (Note 9)                                                         15,933.1                           15,610.8                              32,701.7
CONSOLIDATING        BALANCE
       General Property, Plant andSHEET
                                   Equipment (Note 10)                                                1,228.2                            3,730.5                               1,205.6
As of September
        Investments 30, 2005
                    (Note 4) and 2004                                                                     0.0                                   0.0                               0.0
($ in Millions)                                                                  Army Working Capital                  Navy Working Capital             Air Force Working Capital
        Other Assets (Note 6)                                                                         333.7                                 536.7                              440.3
                                                                                       Fund                                  Fund                                 Fund
 TOTAL ASSETS                                                                $                   18,497.1          $                   21,380.5       $                    36,290.8
 LIABILITIES (Note 11)

       Intragovernmental:
          Accounts Payable (Note 12)                                         $                          105.7      $                          199.6   $                          199.8
          Debt (Note 13)                                                                                  0.0                                 381.5                                   0.0
          Other Liabilities (Note 15 & Note 16)                                                          75.6                                 457.5                              146.5
          Total Intragovernmental Liabilities                                $                          181.3      $                     1,038.6      $                          346.3


       Accounts Payable (Note 12)                                            $                          295.8      $                     2,152.1      $                          546.7
       Military Retirement Benefits and Other Employment-Related                                        286.5                            1,192.6                                 233.7
       Actuarial Liabilities (Note 17)
 The accompanying notes are an integral part of these statements.                           Page 2
       Environmental Liabilities (Note 14)                                                                0.0                                   0.0                                   0.0
       Loan Guarantee Liability (Note 8)                                                                  0.0                                   0.0                                   0.0
       Other Liabilities (Note 15 and Note 16)                                                          642.5                            3,450.7                               1,389.3
 TOTAL LIABILITIES                                                           $                        1,406.1      $                     7,834.0      $                        2,516.0


 NET POSITION

      Unexpended Appropriations                                              $                            0.0      $                            6.3   $                               0.0
      Cumulative Results of Operations                                                               17,091.0                           13,540.2                              33,774.8
 TOTAL NET POSITION                                                          $                       17,091.0      $                    13,546.5      $                       33,774.8


 TOTAL LIABILITIES AND NET POSITION                                          $                       18,497.1      $                    21,380.5      $                       36,290.8




 The accompanying notes are an integral part of these statements.                           Page 8




                                                                                 209
                                                                                                                   DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2005 and 2004
($ in Millions)                                                                  Military Retirement Fund                  US Army Corps of                    Other Defense
                                                                                                                              Engineers                     Organizations General
                                                                                                                                                                   Funds
 ASSETS (Note 2)

       Intragovernmental:
          Fund Balance with Treasury (Note 3)
          Entity                                                             $                              22.9      $                       3,138.2   $                     46,854.7
          Non-Entity Seized Iraqi Cash                                                                       0.0                                  0.0                                0.0
          Non-Entity-Other                                                                                   0.0                                  7.8                            929.5
          Investments (Note 4)                                                                     197,807.1                                  3,127.8                          1,727.6
          Accounts Receivable (Note 5)                                                                       0.0                               614.0                             432.7
          Other Assets (Note 6)                                                                              0.0                                  0.0                            502.2
          Total Intragovernmental Assets                                     $                     197,830.0          $                       6,887.8   $                     50,446.7


       Cash and Other Monetary Assets (Note 7)                               $                               0.0      $                           1.1   $                           18.5
       Accounts Receivable (Note 5)                                                                         26.7                              1,750.9                            196.7
      Loans Receivable
Department  of Defense(Note 8)                                                                               0.0                                  0.0                               75.6
Agency Inventory
          Wide and Related Property (Note 9)                                                                 0.0                               117.4                           1,409.3
CONSOLIDATING        BALANCE
       General Property, Plant andSHEET
                                   Equipment (Note 10)                                                       0.0                          26,780.1                            20,996.9
As of September
        Investments 30, 2005
                    (Note 4) and 2004                                                                        0.0                                  0.0                             605.0
($ in Millions)                                                                  Military Retirement Fund                  US Army Corps of                    Other Defense
        Other Assets (Note 6)                                                                                0.0              Engineers        0.0                                286.9
                                                                                                                                                            Organizations General
 TOTAL ASSETS                                                                $                     197,856.7          $                   35,537.3      $          Funds      74,035.6
 LIABILITIES (Note 11)

       Intragovernmental:
          Accounts Payable (Note 12)                                         $                              0.0       $                         87.2    $                        590.2
          Debt (Note 13)                                                                                    0.0                                 14.6                                71.0
          Other Liabilities (Note 15 & Note 16)                                                             1.1                            1,956.9                             1,504.5
          Total Intragovernmental Liabilities                                $                              1.1       $                    2,058.7      $                      2,165.7


       Accounts Payable (Note 12)                                            $                              0.0       $                        535.9    $                      2,411.9
       Military Retirement Benefits and Other Employment-Related                                   892,111.6                                     0.0                         299,981.7
       Actuarial Liabilities (Note 17)
 The accompanying notes are an integral part of these statements.                             Page 3
       Environmental Liabilities (Note 14)                                                                  0.0                                529.6                             520.4
       Loan Guarantee Liability (Note 8)                                                                    0.0                                  0.0                                28.7
       Other Liabilities (Note 15 and Note 16)                                                         3,321.3                                 600.9                           3,993.1
 TOTAL LIABILITIES                                                           $                     895,434.0          $                    3,725.1      $                    309,101.5


 NET POSITION

      Unexpended Appropriations                                              $                              0.0       $                    1,005.8      $                     42,270.5
      Cumulative Results of Operations                                                            (697,577.3)                             30,806.4                         (277,336.4)
 TOTAL NET POSITION                                                          $                    (697,577.3)         $                   31,812.2      $                  (235,065.9)


 TOTAL LIABILITIES AND NET POSITION                                          $                     197,856.7          $                   35,537.3      $                     74,035.6




 The accompanying notes are an integral part of these statements.                             Page 9




                                                                                  210
                                                                                                                 DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2005 and 2004
($ in Millions)                                                                     Other Defense                         DoD Medicare-Eligible               Agency-Wide Component
                                                                                 Organizations Working                   Retiree Health Care Fund
                                                                                     Capital Funds
 ASSETS (Note 2)

       Intragovernmental:
          Fund Balance with Treasury (Note 3)
          Entity                                                             $                        1,410.8       $                               5.0   $                           0.0
          Non-Entity Seized Iraqi Cash                                                                    0.0                                       0.0                               0.0
          Non-Entity-Other                                                                                0.0                                       0.0                               0.0
          Investments (Note 4)                                                                            0.0                               60,691.7                                  0.0
          Accounts Receivable (Note 5)                                                                2,152.1                                   32.9                                  0.0
          Other Assets (Note 6)                                                                           0.2                                       0.0                               0.0
          Total Intragovernmental Assets                                     $                        3,563.1       $                       60,729.6      $                           0.0


       Cash and Other Monetary Assets (Note 7)                               $                         113.9        $                               0.0   $                           0.0
       Accounts Receivable (Note 5)                                                                    488.3                                    11.3                                  0.0
     Loans Receivable
Department of Defense(Note 8)                                                                             0.0                                       0.0                               0.0
Agency Inventory
          Wide and Related Property (Note 9)                                                         16,343.8                                       0.0                               0.0
CONSOLIDATING        BALANCE
       General Property, Plant andSHEET
                                   Equipment (Note 10)                                                4,381.4                                       0.0                               0.0
As of September
        Investments 30, 2005
                    (Note 4) and 2004                                                                     0.0                                       0.0                            0.0
($ in Millions)                                                                     Other Defense                      DoD Medicare-Eligible                  Agency-Wide Component
        Other Assets (Note 6)                                                                         212.2                                    0.0                                 0.0
                                                                                 Organizations Working                Retiree Health Care Fund
 TOTAL ASSETS                                                                $       Capital Funds 25,102.7         $                    60,740.9         $                           0.0
 LIABILITIES (Note 11)

       Intragovernmental:
          Accounts Payable (Note 12)                                         $                           614.6       $                              0.0   $                           0.0
          Debt (Note 13)                                                                                   0.0                                      0.0                               0.0
          Other Liabilities (Note 15 & Note 16)                                                          308.1                                      0.0                               0.0
          Total Intragovernmental Liabilities                                $                           922.7       $                              0.0   $                           0.0


       Accounts Payable (Note 12)                                            $                        5,223.1        $                         241.7      $                           0.0
       Military Retirement Benefits and Other Employment-Related                                         510.8                             537,397.1                                  0.0
       Actuarial Liabilities (Note 17)
 The accompanying notes are an integral part of these statements.                           Page 4
       Environmental Liabilities (Note 14)                                                                40.4                                      0.0                               0.0
       Loan Guarantee Liability (Note 8)                                                                   0.0                                      0.0                               0.0
       Other Liabilities (Note 15 and Note 16)                                                           784.2                                 762.2                                  0.0
 TOTAL LIABILITIES                                                           $                        7,481.2        $                     538,401.0      $                           0.0


 NET POSITION

      Unexpended Appropriations                                              $                            49.8       $                              0.0   $                           0.0
      Cumulative Results of Operations                                                               17,571.7                             (477,660.1)                                 0.0
 TOTAL NET POSITION                                                          $                       17,621.5        $                    (477,660.1)     $                           0.0


 TOTAL LIABILITIES AND NET POSITION                                          $                       25,102.7        $                       60,740.9     $                           0.0




 The accompanying notes are an integral part of these statements.                           Page 10




                                                                                 211
                                                                                                               DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2005 and 2004
($ in Millions)                                                                    Combined Total                        Elimination                 2005 Consolidated


 ASSETS (Note 2)

       Intragovernmental:
          Fund Balance with Treasury (Note 3)
          Entity                                                             $                  289,003.7         $                        0.0   $                 289,003.7
          Non-Entity Seized Iraqi Cash                                                                 61.4                                0.0                             61.4
          Non-Entity-Other                                                                          1,592.0                                0.0                        1,592.0
          Investments (Note 4)                                                                  263,367.9                                  0.1                     263,367.8
          Accounts Receivable (Note 5)                                                              5,815.3                            4,524.0                        1,291.3
          Other Assets (Note 6)                                                                     2,475.9                            1,081.7                        1,394.2
          Total Intragovernmental Assets                                     $                  562,316.2         $                    5,605.8   $                 556,710.4


       Cash and Other Monetary Assets (Note 7)                               $                      2,072.7       $                        0.0   $                    2,072.7
       Accounts Receivable (Note 5)                                                                 7,615.5                                0.0                        7,615.5
     Loans Receivable
Department of Defense(Note 8)                                                                          75.6                                0.0                             75.6
Agency Inventory
          Wide and Related Property (Note 9)                                                    222,573.3                                  0.0                     222,573.3
CONSOLIDATING        BALANCE
       General Property, Plant andSHEET
                                   Equipment (Note 10)                                          460,699.3                                  0.0                     460,699.3
As of September
        Investments 30, 2005
                    (Note 4) and 2004                                                                 605.0                                0.0                          605.0
($ in Millions)                                                                    Combined Total                        Elimination                 2005 Consolidated
        Other Assets (Note 6)                                                                   23,822.1                                   0.0                       23,822.1
 TOTAL ASSETS                                                                $                1,279,779.7         $                    5,605.8   $               1,274,173.9
 LIABILITIES (Note 11)

       Intragovernmental:
          Accounts Payable (Note 12)                                         $                       6,576.2       $                   4,518.2   $                       2,058.0
          Debt (Note 13)                                                                              467.1                                0.0                            467.1
          Other Liabilities (Note 15 & Note 16)                                                     12,238.4                           1,087.6                       11,150.8
          Total Intragovernmental Liabilities                                $                      19,281.7       $                   5,605.8   $                   13,675.9


       Accounts Payable (Note 12)                                            $                      28,575.4       $                       0.0   $                   28,575.4
       Military Retirement Benefits and Other Employment-Related                              1,736,057.8                                  0.0                    1,736,057.8
       Actuarial Liabilities (Note 17)
 The accompanying notes are an integral part of these statements.                          Page 5
       Environmental Liabilities (Note 14)                                                          65,027.6                               0.0                       65,027.6
       Loan Guarantee Liability (Note 8)                                                                41.1                               0.0                             41.1
       Other Liabilities (Note 15 and Note 16)                                                      29,985.4                               0.0                       29,985.4
 TOTAL LIABILITIES                                                           $                1,878,969.0          $                   5,605.8   $                1,873,363.2


 NET POSITION

      Unexpended Appropriations                                              $                  271,493.6          $                       0.0   $                 271,493.6
      Cumulative Results of Operations                                                        (870,682.9)                                  0.0                    (870,682.9)
 TOTAL NET POSITION                                                          $                (599,189.3)          $                       0.0   $                (599,189.3)


 TOTAL LIABILITIES AND NET POSITION                                          $                1,279,779.7          $                   5,605.8   $                1,274,173.9




 The accompanying notes are an integral part of these statements.                         Page 11




                                                                                 212
                                                                                                             DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING BALANCE SHEET
As of September 30, 2005 and 2004
($ in Millions)                                                                 2004 Consolidated
                                                                                     Restated

 ASSETS (Note 2)

       Intragovernmental:
          Fund Balance with Treasury (Note 3)
          Entity                                                            $                 287,685.5
          Non-Entity Seized Iraqi Cash                                                              113.4
          Non-Entity-Other                                                                         1,800.0
          Investments (Note 4)                                                                231,069.7
          Accounts Receivable (Note 5)                                                             1,118.3
          Other Assets (Note 6)                                                                    1,011.9
          Total Intragovernmental Assets                                    $                 522,798.8


       Cash and Other Monetary Assets (Note 7)                              $                      2,178.1
       Accounts Receivable (Note 5)                                                                7,427.8
     Loans Receivable
Department of Defense(Note 8)                                                                        70.7
Agency Inventory
          Wide and Related Property (Note 9)                                                  220,505.6
CONSOLIDATING        BALANCE
       General Property, Plant andSHEET
                                   Equipment (Note 10)                                        440,898.6
As of September
        Investments 30, 2005
                    (Note 4) and 2004                                                              406.5
($ in Millions)                                                                 2004 Consolidated
        Other Assets (Note 6)                                                                   21,486.3
 TOTAL ASSETS                                                               $               1,215,772.4
 LIABILITIES (Note 11)

       Intragovernmental:
          Accounts Payable (Note 12)                                        $                      1,888.4
          Debt (Note 13)                                                                            591.8
          Other Liabilities (Note 15 & Note 16)                                                   10,726.9
          Total Intragovernmental Liabilities                               $                     13,207.1


       Accounts Payable (Note 12)                                           $                     28,309.0
       Military Retirement Benefits and Other Employment-Related                             1,569,704.7
       Actuarial Liabilities (Note 17)
 The accompanying notes are an integral part of these statements.                        Page 6
       Environmental Liabilities (Note 14)                                                        64,367.2
       Loan Guarantee Liability (Note 8)                                                              34.4
       Other Liabilities (Note 15 and Note 16)                                                    34,491.2
 TOTAL LIABILITIES                                                          $                1,710,113.6


 NET POSITION

      Unexpended Appropriations                                             $                 243,813.9
      Cumulative Results of Operations                                                       (738,155.1)
 TOTAL NET POSITION                                                         $                (494,341.2)


 TOTAL LIABILITIES AND NET POSITION                                         $                1,215,772.4




 The accompanying notes are an integral part of these statements.                        Page 12




                                                                                 213
                                                                                                             DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                 Army General Fund                   Navy General Fund                Air Force General Fund



 Program Costs
A. Military Personnel

       Intragovernmental Gross Costs                                        $                        (0.7)      $                   8,103.2      $                        349.2
       (Less: Intragovernmental Earned Revenue)                                                    (133.3)                          (501.5)                              (299.4)
       Intragovernmental Net Costs                                          $                      (134.0)      $                   7,601.7      $                            49.8

       Gross Costs With the Public                                                             53,307.0                            31,742.5                            30,090.4
       (Less: Earned Revenue From the Public)                                                        (0.5)                                0.0                            (112.9)
       Net Costs With the Public                                            $                  53,306.5         $                  31,742.5      $                     29,977.5
       Total Net Cost                                                       $                  53,172.5         $                  39,344.2      $                     30,027.3

B. Operation and Maintenance

       Intragovernmental Gross Costs                                        $                      8,870.2      $                   1,907.5      $                     19,221.4
       (Less: Intragovernmental Earned Revenue)                                               (11,077.0)                           (6,896.3)                           (4,397.1)
       Intragovernmental Net Costs                                          $                  (2,206.8)        $                  (4,988.8)     $                     14,824.3

       Gross Costs With the Public                                                             68,994.7                            45,630.7                            31,909.5
       (Less: Earned Revenue From the Public)                                                      (930.8)                                0.0                            (582.3)
       Net Costs With the Public                                            $                  68,063.9         $                  45,630.7      $                     31,327.2
       Total Net Cost                                                       $                  65,857.1         $                  40,641.9      $                     46,151.5

C. Procurement

       Intragovernmental Gross Costs                                        $                       970.0       $                       (82.4)   $                     17,606.6
       (Less: Intragovernmental Earned Revenue)                                                    (927.3)                         (1,022.3)                             (316.7)
       Intragovernmental Net Costs                                          $                        42.7       $                  (1,104.7)     $                     17,289.9

       Gross Costs With the Public                                                             10,210.1                            20,547.3                            12,496.1
       (Less: Earned Revenue From the Public)                                                       (49.4)                          (605.2)                               (92.3)
       Net Costs With the Public                                            $                  10,160.7         $                  19,942.1      $                     12,403.8
       Total Net Cost                                                       $                  10,203.4         $                  18,837.4      $                     29,693.7




 The accompanying notes are an integral part of these statements.                        Page 13




                                                                                214
                                                                                                               DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                    Other Defense                       Combined Total                 Elimination
                                                                                Organizations General
                                                                                       Funds
 Program Costs
A. Military Personnel

       Intragovernmental Gross Costs                                                                              $                     8,451.7   $                      0.0
       (Less: Intragovernmental Earned Revenue)                                                                                         (934.2)                          0.0
       Intragovernmental Net Costs                                                                                $                     7,517.5   $                      0.0

       Gross Costs With the Public                                                                                                 115,139.9                             0.0
       (Less: Earned Revenue From the Public)                                                                                           (113.4)                          0.0
       Net Costs With the Public                                                                                  $                115,026.5      $                      0.0
       Total Net Cost                                                                                             $                122,544.0      $                      0.0

B. Operation and Maintenance

       Intragovernmental Gross Costs                                        $                    13,405.8         $                 43,404.9      $                  2,366.1
       (Less: Intragovernmental Earned Revenue)                                                  (2,652.5)                         (25,022.9)                       (1,833.6)
       Intragovernmental Net Costs                                          $                    10,753.3         $                 18,382.0      $                    532.5

       Gross Costs With the Public                                                              101,554.0                          248,088.9                             0.0
       (Less: Earned Revenue From the Public)                                                        (284.0)                        (1,797.1)                            0.0
       Net Costs With the Public                                            $                   101,270.0         $                246,291.8      $                      0.0
       Total Net Cost                                                       $                   112,023.3         $                264,673.8      $                    532.5
C. Procurement

       Intragovernmental Gross Costs                                        $                         368.4       $                 18,862.6      $                      0.0
       (Less: Intragovernmental Earned Revenue)                                                       (21.5)                        (2,287.8)                            0.0
       Intragovernmental Net Costs                                          $                         346.9       $                 16,574.8      $                      0.0

       Gross Costs With the Public                                                                   2,886.3                        46,139.8                             0.0
       (Less: Earned Revenue From the Public)                                                           42.7                            (704.2)                          0.0
       Net Costs With the Public                                            $                        2,929.0      $                 45,435.6      $                      0.0
       Total Net Cost                                                       $                        3,275.9      $                 62,010.4      $                      0.0




 The accompanying notes are an integral part of these statements.                          Page 14




                                                                                215
                                                                                                               DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  2005 Consolidated                    2004 Consolidated



 Program Costs
A. Military Personnel

       Intragovernmental Gross Costs                                        $                       8,451.7       $                  16,533.8
       (Less: Intragovernmental Earned Revenue)                                                      (934.2)                         (1,104.8)
       Intragovernmental Net Costs                                          $                       7,517.5       $                  15,429.0

       Gross Costs With the Public                                                             115,139.9                             96,919.3
       (Less: Earned Revenue From the Public)                                                        (113.4)                               (87.8)
       Net Costs With the Public                                            $                  115,026.5          $                  96,831.5
       Total Net Cost                                                       $                  122,544.0          $                 112,260.5

B. Operation and Maintenance

       Intragovernmental Gross Costs                                        $                   41,038.8          $                  37,562.8
       (Less: Intragovernmental Earned Revenue)                                                (23,189.3)                           (21,412.2)
       Intragovernmental Net Costs                                          $                   17,849.5          $                  16,150.6

       Gross Costs With the Public                                                             248,088.9                            172,818.9
       (Less: Earned Revenue From the Public)                                                   (1,797.1)                            (1,896.8)
       Net Costs With the Public                                            $                  246,291.8          $                 170,922.1
       Total Net Cost                                                       $                  264,141.3          $                 187,072.7

C. Procurement

       Intragovernmental Gross Costs                                        $                   18,862.6          $                   2,022.9
       (Less: Intragovernmental Earned Revenue)                                                 (2,287.8)                            (1,824.3)
       Intragovernmental Net Costs                                          $                   16,574.8          $                        198.6

       Gross Costs With the Public                                                              46,139.8                             79,695.3
       (Less: Earned Revenue From the Public)                                                        (704.2)                              (714.8)
       Net Costs With the Public                                            $                   45,435.6          $                  78,980.5
       Total Net Cost                                                       $                   62,010.4          $                  79,179.1




 The accompanying notes are an integral part of these statements.                         Page 15




                                                                                216
                                                                                                             DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                 Army General Fund                   Navy General Fund              Air Force General Fund



D. Research, Development, Test & Evaluation

       Intragovernmental Gross Costs                                        $                      3,077.4      $                       0.0    $                      9,218.5
       (Less: Intragovernmental Earned Revenue)                                                (3,411.9)                            (382.7)                          (3,174.5)
       Intragovernmental Net Costs                                          $                      (334.5)      $                   (382.7)    $                      6,044.0

       Gross Costs With the Public                                                             10,373.7                            16,105.6                          14,262.6
       (Less: Earned Revenue From the Public)                                                      (127.1)                              0.0                            (160.7)
       Net Costs With the Public                                            $                  10,246.6         $                  16,105.6    $                     14,101.9
       Total Net Cost                                                       $                      9,912.1      $                  15,722.9    $                     20,145.9
E. Military Construction/Family Housing

       Intragovernmental Gross Costs                                        $                      3,657.7      $                       0.0    $                        264.9
       (Less: Intragovernmental Earned Revenue)                                                (3,725.3)                            (723.3)                                 1.2
       Intragovernmental Net Costs                                          $                       (67.6)      $                   (723.3)    $                        266.1

       Gross Costs With the Public                                                                  934.3                           3,957.7                             (68.2)
       (Less: Earned Revenue From the Public)                                                      (138.9)                         (1,963.4)                                0.0
       Net Costs With the Public                                            $                       795.4       $                   1,994.3    $                        (68.2)
       Total Net Cost                                                       $                       727.8       $                   1,271.0    $                        197.9

F. Military Retirement Fund

       Intragovernmental Gross Costs
       (Less: Intragovernmental Earned Revenue)
       Intragovernmental Net Costs

       Gross Costs With the Public
       (Less: Earned Revenue From the Public)
       Net Costs With the Public
       Total Net Cost




 The accompanying notes are an integral part of these statements.                        Page 16




                                                                                217
                                                                                                                 DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                 Military Retirement Fund                   Other Defense                     DoD Medicare-Eligible
                                                                                                                        Organizations General               Retiree Health Care Fund
                                                                                                                               Funds
D. Research, Development, Test & Evaluation

       Intragovernmental Gross Costs                                                                                $                      2,795.4
       (Less: Intragovernmental Earned Revenue)                                                                                            (452.9)
       Intragovernmental Net Costs                                                                                  $                      2,342.5

       Gross Costs With the Public                                                                                                       13,521.5
       (Less: Earned Revenue From the Public)                                                                                                   25.2
       Net Costs With the Public                                                                                    $                    13,546.7
       Total Net Cost                                                                                               $                    15,889.2

E. Military Construction/Family Housing

       Intragovernmental Gross Costs                                                                                $                           55.1
       (Less: Intragovernmental Earned Revenue)                                                                                                  0.0
       Intragovernmental Net Costs                                                                                  $                           55.1

       Gross Costs With the Public                                                                                                          481.5
       (Less: Earned Revenue From the Public)                                                                                                   (0.1)
       Net Costs With the Public                                                                                    $                       481.4
       Total Net Cost                                                                                               $                       536.5
F. Military Retirement Fund

       Intragovernmental Gross Costs                                        $                              0.0                                          $                       1,561.3
       (Less: Intragovernmental Earned Revenue)                                                   (48,812.2)                                                                  (28,412.4)
       Intragovernmental Net Costs                                          $                     (48,812.2)                                            $                     (26,851.1)

       Gross Costs With the Public                                                                 96,694.4                                                                    38,415.0
       (Less: Earned Revenue From the Public)                                                              0.0                                                                         0.0
       Net Costs With the Public                                            $                      96,694.4                                             $                      38,415.0
       Total Net Cost                                                       $                      47,882.2                                             $                      11,563.9




 The accompanying notes are an integral part of these statements.                           Page 17




                                                                                 218
                                                                                                              DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                    Combined Total                       Elimination                    2005 Consolidated


D. Research, Development, Test & Evaluation

       Intragovernmental Gross Costs                                         $                  15,091.3          $                         5.9    $                  15,085.4
       (Less: Intragovernmental Earned Revenue)                                                 (7,422.0)                                (234.3)                      (7,187.7)
       Intragovernmental Net Costs                                           $                      7,669.3       $                      (228.3)   $                   7,897.6

       Gross Costs With the Public                                                              54,263.4                                    0.0                       54,263.4
       (Less: Earned Revenue From the Public)                                                       (262.6)                                 0.0                            (262.6)
       Net Costs With the Public                                             $                  54,000.8          $                         0.0    $                  54,000.8
       Total Net Cost                                                        $                  61,670.1          $                      (228.3)   $                  61,898.4
E. Military Construction/Family Housing

       Intragovernmental Gross Costs                                         $                      3,977.7       $                        10.1    $                   3,967.6
       (Less: Intragovernmental Earned Revenue)                                                 (4,447.4)                                   0.0                       (4,447.4)
       Intragovernmental Net Costs                                           $                      (469.7)       $                        10.1    $                       (479.8)

       Gross Costs With the Public                                                                  5,305.3                                 0.0                        5,305.3
       (Less: Earned Revenue From the Public)                                                   (2,102.4)                                   0.0                       (2,102.4)
       Net Costs With the Public                                             $                      3,202.9       $                         0.0    $                   3,202.9
       Total Net Cost                                                        $                      2,733.2       $                        10.1    $                   2,723.1

F. Military Retirement Fund

       Intragovernmental Gross Costs                                         $                      1,561.3       $                     1,561.3    $                          0.0
       (Less: Intragovernmental Earned Revenue)                                                (77,224.6)                             (63,886.4)                     (13,338.2)
       Intragovernmental Net Costs                                           $                 (75,663.3)         $                   (62,325.1)   $                 (13,338.2)

       Gross Costs With the Public                                                             135,109.4                                    0.0                      135,109.4
       (Less: Earned Revenue From the Public)                                                           0.0                                 0.0                               0.0
       Net Costs With the Public                                             $                 135,109.4          $                         0.0    $                 135,109.4
       Total Net Cost                                                        $                  59,446.1          $                   (62,325.1)   $                 121,771.2




 The accompanying notes are an integral part of these statements.                         Page 18




                                                                                 219
                                                                                                                DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                   2004 Consolidated



D. Research, Development, Test & Evaluation

       Intragovernmental Gross Costs                                         $                       6,582.4
       (Less: Intragovernmental Earned Revenue)                                                  (5,981.1)
       Intragovernmental Net Costs                                           $                         601.3

       Gross Costs With the Public                                                               56,536.7
       (Less: Earned Revenue From the Public)                                                         (293.4)
       Net Costs With the Public                                             $                   56,243.3
       Total Net Cost                                                        $                   56,844.6
E. Military Construction/Family Housing

       Intragovernmental Gross Costs                                         $                       2,716.3
       (Less: Intragovernmental Earned Revenue)                                                  (4,008.2)
       Intragovernmental Net Costs                                           $                   (1,291.9)

       Gross Costs With the Public                                                               11,982.1
       (Less: Earned Revenue From the Public)                                                         (178.9)
       Net Costs With the Public                                             $                   11,803.2
       Total Net Cost                                                        $                   10,511.3

F. Military Retirement Fund

       Intragovernmental Gross Costs                                         $                           0.0
       (Less: Intragovernmental Earned Revenue)                                                 (11,288.3)
       Intragovernmental Net Costs                                           $                  (11,288.4)

       Gross Costs With the Public                                                              164,796.6
       (Less: Earned Revenue From the Public)                                                            0.0
       Net Costs With the Public                                             $                  164,796.6
       Total Net Cost                                                        $                  153,508.2




 The accompanying notes are an integral part of these statements.                          Page 19




                                                                                 220
                                                                                                                 DoD Performance & Accountability Report FY2005
                            ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                     Army General Fund                   Navy General Fund              Air Force General Fund



G. Civil Works

           Intragovernmental Gross Costs
           (Less: Intragovernmental Earned Revenue)
           Intragovernmental Net Costs

           Gross Costs With the Public
           (Less: Earned Revenue From the Public)
           Net Costs With the Public
           Total Net Cost
H. Working Capital Funds

           Intragovernmental Gross Costs
           (Less: Intragovernmental Earned Revenue)
           Intragovernmental Net Costs

           Gross Costs With the Public
           (Less: Earned Revenue From the Public)
           Net Costs With the Public
           Total Net Cost

I. Other

           Intragovernmental Gross Costs                                        $                  23,412.7         $                  29,316.8    $                    (16,814.9)
           (Less: Intragovernmental Earned Revenue)                                                10,783.7                             6,045.9                           3,978.9
           Intragovernmental Net Costs                                          $                  34,196.4         $                  35,362.7    $                    (12,836.0)

           Gross Costs With the Public                                                            (27,640.5)                          (33,618.0)                         10,845.9
           (Less: Earned Revenue From the Public)                                                        (2.7)                         (2,132.4)                                68.4
           Net Costs With the Public                                            $                 (27,643.2)        $                 (35,750.4)   $                     10,914.3
           Total Net Cost                                                       $                      6,553.2      $                    (387.7)   $                     (1,921.7)




 The accompanying notes are an integral part of these statements.                            Page 20




                                                                                    221
                                                                                                                  DoD Performance & Accountability Report FY2005
                            ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                     Army Working Capital                  Navy Working Capital             Air Force Working Capital
                                                                                          Fund                                  Fund                                 Fund

G. Civil Works

           Intragovernmental Gross Costs
           (Less: Intragovernmental Earned Revenue)
           Intragovernmental Net Costs

           Gross Costs With the Public
           (Less: Earned Revenue From the Public)
           Net Costs With the Public
           Total Net Cost

H. Working Capital Funds

           Intragovernmental Gross Costs                                        $                       2,016.2       $                     5,567.5    $                        5,312.7
           (Less: Intragovernmental Earned Revenue)                                                  (7,556.4)                            (20,715.9)                         (10,643.2)
           Intragovernmental Net Costs                                          $                    (5,540.2)        $                   (15,148.4)   $                       (5,330.5)

           Gross Costs With the Public                                                               10,600.4                              19,256.8                             5,201.5
           (Less: Earned Revenue From the Public)                                                    (6,918.3)                             (1,524.5)                            (771.7)
           Net Costs With the Public                                            $                       3,682.1       $                    17,732.3    $                        4,429.8
           Total Net Cost                                                       $                    (1,858.1)        $                     2,583.9    $                        (900.7)
I. Other

           Intragovernmental Gross Costs
           (Less: Intragovernmental Earned Revenue)
           Intragovernmental Net Costs

           Gross Costs With the Public
           (Less: Earned Revenue From the Public)
           Net Costs With the Public
           Total Net Cost




 The accompanying notes are an integral part of these statements.                             Page 21




                                                                                    222
                                                                                                                  DoD Performance & Accountability Report FY2005
                            ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                      US Army Corps of                       Other Defense                    Other Defense
                                                                                        Engineers                        Organizations General            Organizations Working
                                                                                                                                Funds                         Capital Funds
G. Civil Works

           Intragovernmental Gross Costs                                        $                       1,378.8
           (Less: Intragovernmental Earned Revenue)                                                (2,152.8)
           Intragovernmental Net Costs                                          $                       (774.0)

           Gross Costs With the Public                                                                  8,882.5
           (Less: Earned Revenue From the Public)                                                       (428.8)
           Net Costs With the Public                                            $                       8,453.7
           Total Net Cost                                                       $                       7,679.7
H. Working Capital Funds

           Intragovernmental Gross Costs                                                                                                              $                     3,450.3
           (Less: Intragovernmental Earned Revenue)                                                                                                                       (39,742.2)
           Intragovernmental Net Costs                                                                                                                $                   (36,291.9)

           Gross Costs With the Public                                                                                                                                     47,375.2
           (Less: Earned Revenue From the Public)                                                                                                                          (8,968.7)
           Net Costs With the Public                                                                                                                  $                    38,406.5
           Total Net Cost                                                                                                                             $                     2,114.6
I. Other

           Intragovernmental Gross Costs                                                                             $                    38,324.9
           (Less: Intragovernmental Earned Revenue)                                                                                       (1,419.6)
           Intragovernmental Net Costs                                                                               $                    36,905.3

           Gross Costs With the Public                                                                                                    12,324.3
           (Less: Earned Revenue From the Public)                                                                                         (1,284.6)
           Net Costs With the Public                                                                                 $                    11,039.7
           Total Net Cost                                                                                            $                    47,945.0




 The accompanying notes are an integral part of these statements.                            Page 22




                                                                                    223
                                                                                                                   DoD Performance & Accountability Report FY2005
                            ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                     Agency-Wide Component                  Combined Total                 Elimination



G. Civil Works

           Intragovernmental Gross Costs                                                                              $                     1,378.8   $                     433.7
           (Less: Intragovernmental Earned Revenue)                                                                                     (2,152.8)                          (850.1)
           Intragovernmental Net Costs                                                                                $                     (774.0)   $                    (416.4)

           Gross Costs With the Public                                                                                                      8,882.5                           0.0
           (Less: Earned Revenue From the Public)                                                                                           (428.8)                           0.0
           Net Costs With the Public                                                                                  $                     8,453.7   $                       0.0
           Total Net Cost                                                                                             $                     7,679.7   $                    (416.4)
H. Working Capital Funds

           Intragovernmental Gross Costs                                                                              $                 16,346.7      $                  12,762.7
           (Less: Intragovernmental Earned Revenue)                                                                                    (78,657.7)                       (75,561.5)
           Intragovernmental Net Costs                                                                                $                (62,311.0)     $                 (62,798.9)

           Gross Costs With the Public                                                                                                  82,433.9                              0.0
           (Less: Earned Revenue From the Public)                                                                                      (18,183.2)                             0.0
           Net Costs With the Public                                                                                  $                 64,250.7      $                       0.0
           Total Net Cost                                                                                             $                     1,939.7   $                 (62,798.9)

I. Other

           Intragovernmental Gross Costs                                        $                          (6.3)      $                 74,233.2      $                 141,658.4
           (Less: Intragovernmental Earned Revenue)                                                      1,698.2                        21,087.1                        (16,432.3)
           Intragovernmental Net Costs                                          $                        1,691.9      $                 95,320.3      $                 125,226.1

           Gross Costs With the Public                                                               (1,698.2)                         (39,786.5)                             0.0
           (Less: Earned Revenue From the Public)                                                            0.0                        (3,351.3)                             0.0
           Net Costs With the Public                                            $                    (1,698.2)        $                (43,137.8)     $                       0.0
           Total Net Cost                                                       $                          (6.3)      $                 52,182.5      $                 125,226.1




 The accompanying notes are an integral part of these statements.                              Page 23




                                                                                     224
                                                                                                                   DoD Performance & Accountability Report FY2005
                            ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                      2005 Consolidated                    2004 Consolidated


G. Civil Works

           Intragovernmental Gross Costs                                        $                         945.1       $                        893.3
           (Less: Intragovernmental Earned Revenue)                                                 (1,302.7)                                 (609.6)
           Intragovernmental Net Costs                                          $                        (357.6)      $                        283.7

           Gross Costs With the Public                                                                  8,882.5                           8,658.7
           (Less: Earned Revenue From the Public)                                                        (428.8)                              (368.0)
           Net Costs With the Public                                            $                       8,453.7       $                   8,290.7
           Total Net Cost                                                       $                       8,096.1       $                   8,574.4
H. Working Capital Funds

           Intragovernmental Gross Costs                                        $                       3,584.0       $                   3,380.9
           (Less: Intragovernmental Earned Revenue)                                                 (3,096.2)                            (1,339.3)
           Intragovernmental Net Costs                                          $                         487.9       $                   2,041.6

           Gross Costs With the Public                                                              82,433.9                             74,938.5
           (Less: Earned Revenue From the Public)                                                  (18,183.2)                           (13,788.4)
           Net Costs With the Public                                            $                   64,250.7          $                  61,150.1
           Total Net Cost                                                       $                   64,738.6          $                  63,191.7
I. Other

           Intragovernmental Gross Costs                                        $                  (67,425.2)         $                 (46,117.9)
           (Less: Intragovernmental Earned Revenue)                                                 37,519.4                             32,138.8
           Intragovernmental Net Costs                                          $                  (29,905.8)         $                 (13,979.1)

           Gross Costs With the Public                                                             (39,786.5)                           (46,772.3)
           (Less: Earned Revenue From the Public)                                                   (3,351.3)                            (5,026.3)
           Net Costs With the Public                                            $                  (43,137.8)         $                 (51,798.6)
           Total Net Cost                                                       $                  (73,043.6)         $                 (65,777.7)




 The accompanying notes are an integral part of these statements.                             Page 24




                                                                                    225
                                                                                                                   DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                    Army General Fund                       Navy General Fund                 Air Force General Fund



J. Total Program Costs

       Intragovernmental Gross Costs                                         $                      39,987.3          $                    39,245.1      $                      29,845.7
       (Less: Intragovernmental Earned Revenue)                                                     (8,491.1)                              (3,480.2)                            (4,207.6)
       Intragovernmental Net Costs                                           $                      31,496.2          $                    35,764.9      $                      25,638.1

       Gross Costs With the Public                                                                 116,179.3                               84,365.8                             99,536.3
       (Less: Earned Revenue From the Public)                                                       (1,249.4)                              (4,701.0)                             (879.8)
       Net Costs With the Public                                             $                     114,929.9          $                    79,664.8      $                      98,656.5
       Total Net Cost                                                        $                     146,426.1          $                   115,429.7      $                    124,294.6

 Cost Not Assigned to Programs                                                                              0.0                                   0.0                                 0.0
 (Less:Earned Revenue Not Attributable to Programs)                                                         0.0                                   0.0                                 0.0
 Net Cost of Operations                                                      $                     146,426.1          $                   115,429.7      $                    124,294.6



Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                   Army Working Capital                     Navy Working Capital              Air Force Working Capital
                                                                                        Fund                                     Fund                                  Fund

J. Total Program Costs

       Intragovernmental Gross Costs                                         $                          2,016.2        $                       5,567.5   $                        5,312.7
       (Less: Intragovernmental Earned Revenue)                                                        (7,556.4)                           (20,715.9)                          (10,643.2)
       Intragovernmental Net Costs                                           $                         (5,540.2)       $                   (15,148.4)    $                       (5,330.5)

       Gross Costs With the Public                                                                     10,600.4                             19,256.8                              5,201.5
       (Less: Earned Revenue From the Public)                                                          (6,918.3)                            (1,524.5)                              (771.7)
       Net Costs With the Public                                             $                          3,682.1        $                    17,732.3     $                        4,429.8
       Total Net Cost                                                        $                         (1,858.1)       $                       2,583.9   $                         (900.7)

 Cost Not Assigned to Programs                                                                              0.0                                    0.0                                   0.0
 (Less:Earned Revenue Not Attributable to Programs)                                                         0.0                                    0.0                                   0.0
 The accompanying notes are an integral part of these statements.                            Page 25
 Net Cost of Operations                                                      $                         (1,858.1)       $                       2,583.9   $                         (900.7)




Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  Military Retirement Fund                  US Army Corps of                     Other Defense
                                                                                                                              Engineers                      Organizations General
                                                                                                                                                                    Funds
J. Total Program Costs

       Intragovernmental Gross Costs                                         $                              0.0       $                       1,378.8    $                      54,949.6
       (Less: Intragovernmental Earned Revenue)                                                    (48,812.2)                              (2,152.8)                            (4,546.5)
       Intragovernmental Net Costs                                           $                     (48,812.2)         $                       (774.0)    $                      50,403.1

       Gross Costs With the Public                                                                  96,694.4                                  8,882.5                          130,767.6
       (Less: Earned Revenue From the Public)                                                               0.0                               (428.8)                           (1,500.8)
       Net Costs With the Public                                             $                      96,694.4          $                       8,453.7    $                     129,266.8
       Total Net Cost                                                        $                      47,882.2          $                       7,679.7    $                     179,669.9
 Cost Not Assigned to Programs                                                                              0.0                                   0.0                                 0.0
 (Less:Earned
 The          Revenue
     accompanying notesNot
                       are Attributable to of
                           an integral part Programs)
                                              these statements.                               Page 26       0.0                                   0.0                                 0.0
 Net Cost of Operations                                                      $                      47,882.2          $                       7,679.7    $                     179,669.9



                                                                                  226
                                                                                                                    DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                         Other Defense                        DoD Medicare-Eligible                Agency-Wide Component
                                                                                     Organizations Working                  Retiree Health Care Fund
                                                                                         Capital Funds
J. Total Program Costs

       Intragovernmental Gross Costs                                         $                            3,450.3      $                           1,561.3    $                          (6.3)
       (Less: Intragovernmental Earned Revenue)                                                      (39,742.2)                                  (28,412.4)                         1,698.2
       Intragovernmental Net Costs                                           $                       (36,291.9)        $                         (26,851.1)   $                     1,691.9

       Gross Costs With the Public                                                                    47,375.2                                    38,415.0                         (1,698.2)
       (Less: Earned Revenue From the Public)                                                         (8,968.7)                                        0.0                                0.0
       Net Costs With the Public                                             $                        38,406.5         $                          38,415.0    $                    (1,698.2)
       Total Net Cost                                                        $                            2,114.6      $                          11,563.9    $                          (6.3)

 Cost Not Assigned to Programs                                                                                0.0                                      0.0                                0.0
 (Less:Earned Revenue Not Attributable to Programs)                                                           0.0                                      0.0                                0.0
 Net Cost of Operations                                                      $                            2,114.6      $                          11,563.9    $                          (6.3)




Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                         Combined Total                             Elimination                       2005 Consolidated



J. Total Program Costs

       Intragovernmental Gross Costs                                             $                    183,308.2         $                         158,798.2   $                     24,510.0
       (Less: Intragovernmental Earned Revenue)                                                     (177,062.3)                              (158,798.2)                           (18,264.1)
       Intragovernmental Net Costs                                               $                        6,245.9       $                               0.0   $                      6,245.9

       Gross Costs With the Public                                                                    655,576.6                                         0.0                        655,576.6
       (Less: Earned Revenue From the Public)                                                         (26,943.0)                                        0.0                        (26,943.0)
       Net Costs With the Public                                                 $                    628,633.6         $                               0.0   $                    628,633.6
       Total Net Cost                                                            $                    634,879.5         $                               0.0   $                    634,879.5

 Cost Not Assigned to Programs                                                                                0.0                                       0.0                                0.0
 The accompanying
 (Less:Earned     notes Not
              Revenue   are an integral part
                            Attributable  to ofPrograms)
                                                these statements.                               Page 28       0.0                                       0.0                                0.0
 Net Cost of Operations                                                          $                    634,879.5         $                               0.0   $                    634,879.5



Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF NET COST
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                      2004 Consolidated



J. Total Program Costs

       Intragovernmental Gross Costs                                         $                       23,574.5
       (Less: Intragovernmental Earned Revenue)                                                     (15,429.0)
       Intragovernmental Net Costs                                           $                        8,145.5

       Gross Costs With the Public                                                                  619,573.8
       (Less: Earned Revenue From the Public)                                                       (22,354.4)
       Net Costs With the Public                                             $                      597,219.4
       Total Net Cost                                                        $                      605,364.9

 Cost Not Assigned to Programs                                                                               0.0
 (Less:Earned Revenue Not Attributable to Programs)                                                          0.0
 The accompanying notes are an integral part of these statements.                               Page 29
 Net Cost of Operations                                                      $                      605,364.9



                                                                                     227
                                                                                                             DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                 Army General Fund                   Navy General Fund               Air Force General Fund



CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                          $                 109,208.0         $                 188,170.3     $                     168,982.1
Adjustments (+/-)

Changes in Accounting Principles (+/-)                                                               (0.2)                                0.0                                0.0
Correction of Errors (+/-)                                                                           (0.1)                                0.0                                0.0
Beginning Balances, as adjusted                                                               109,207.7                           188,170.3                           168,982.1
Budgetary Financing Sources:

Appropriations received                                                                                0.0                                0.0                                0.0
Appropriations transferred-in/out (+/-)                                                                0.0                                0.0                                0.0
Other adjustments (rescissions, etc) (+/-)                                                             0.0                                0.0                                0.0
Appropriations used                                                                           150,048.8                           119,015.7                           114,970.0
Nonexchange revenue                                                                                    9.5                                0.2                                0.9
Donations and forfeitures of cash and cash equivalents                                                 5.4                               29.6                                1.9
Transfers-in/out without reimbursement (+/-)                                                       3,721.7                              150.0                             967.4
Other budgetary financing sources (+/-)                                                                2.1                                0.0                                0.0

Other Financing Sources:

Donations and forfeitures of property                                                                  0.0                                0.0                                0.0
Transfers-in/out without reimbursement (+/-)                                                        528.1                               (1.7)                             (25.6)
Imputed financing from costs absorbed by others                                                    1,092.8                              585.7                             742.0
Department of Defense
Other (+/-)                                                                                    (2,947.4)                                  0.0                                0.0
Agency Wide
Total Financing Sources                                                                       152,461.0                           119,779.5                           116,656.6
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
Net Cost of Operations (+/-)                                                                  146,426.1                           115,429.7                           124,294.6
For the periods ended September 30, 2005 and 2004
($ inChange
Net   Millions)                                                                 Army General Fund6,034.9            Navy General Fund4,349.8        Air Force General Fund
                                                                                                                                                                       (7,638.0)

Ending Balance                                                              $                 115,242.6         $                 192,520.1     $                     161,344.1
UNEXPENDED APPROPRIATIONS
  Beginning Balances                                                        $                   73,238.3        $                   79,161.8    $                      49,660.7
  Prior period adjustments (+/-)

         Changes in Accounting Principles (+/-)                                                        0.0                                0.0                                0.0
 The accompanying notes are an integral part of these statements.                        Page 31
         Correction of Errors (+/-)                                                                    0.0                                0.0                                0.0
  Beginning Balances, as adjusted                                                               73,238.3                            79,161.8                           49,660.7
  Budgetary Financing Sources:

         Appropriations received                                                              149,831.9                           130,972.5                           128,888.2
         Appropriations transferred-in/out (+/-)                                                   2,560.7                              164.7                           1,631.2
         Other adjustments (rescissions, etc) (+/-)                                                (877.4)                         (1,543.4)                           (1,493.5)
         Appropriations used                                                                 (150,048.8)                         (119,015.7)                        (114,970.0)
         Nonexchange revenue                                                                           0.0                                0.0                                0.0
         Donations and forfeitures of cash and cash equivalents                                        0.0                                0.0                                0.0
        Transfers-in/out without reimbursement (+/-)                                                   0.0                                0.0                                0.0
        Other budgetary financing sources (+/-)                                                        0.0                                0.0                                0.0

  Other Financing Sources:

         Donations and forfeitures of property                                                         0.0                                0.0                                0.0
         Transfers-in/out without reimbursement (+/-)                                                  0.0                                0.0                                0.0
         Imputed financing from costs absorbed by others                                               0.0                                0.0                                0.0
         Other (+/-)                                                                                   0.0                                0.0                                0.0
   Total Financing Sources                                                                         1,466.4                          10,578.1                           14,055.9

   Net Cost of Operations (+/-)

   Net Change                                                                                      1,466.4                          10,578.1                           14,055.9
   Ending Balance                                                           $                   74,704.7        $                   89,739.9    $                      63,716.6



                                                                                228


 The accompanying notes are an integral part of these statements.                        Page 37
                                                                                                                 DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  Army Working Capital                   Navy Working Capital                Air Force Working Capital
                                                                                       Fund                                   Fund                                    Fund

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                           $                    15,370.8          $                    16,021.9       $                       21,890.4
Adjustments (+/-)

Changes in Accounting Principles (+/-)                                                                    0.0                                    0.0                             3,632.6
Correction of Errors (+/-)                                                                                0.0                                    0.0                             7,256.6
Beginning Balances, as adjusted                                                                   15,370.8                               16,021.9                               32,779.6
Budgetary Financing Sources:

Appropriations received                                                                                   0.0                                    0.0                                    0.0
Appropriations transferred-in/out (+/-)                                                                   0.0                                    0.0                                    0.0
Other adjustments (rescissions, etc) (+/-)                                                                0.0                                    0.0                                    0.0
Appropriations used                                                                                       0.1                                  288.0                                    0.0
Nonexchange revenue                                                                                       0.0                                    0.0                                    0.0
Donations and forfeitures of cash and cash equivalents                                                    0.0                                    0.0                                    0.0
Transfers-in/out without reimbursement (+/-)                                                         (516.0)                                   (84.8)                              (73.9)
Other budgetary financing sources (+/-)                                                                   0.0                                    0.0                                    0.0

Other Financing Sources:

Donations and forfeitures of property                                                                     0.0                                    0.0                                    0.0
Transfers-in/out without reimbursement (+/-)                                                              0.0                                    0.0                                    0.0
Imputed financing from costs absorbed by others                                                         147.1                                  552.6                               168.4
Department of Defense
Other (+/-)                                                                                             230.9                             (653.6)                                       0.0
Agency    Wide
Total Financing Sources                                                                              (137.9)                                   102.2                                94.5
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
Net Cost of Operations (+/-)                                                                      (1,858.1)                               2,583.9                                (900.7)
For the periods ended September 30, 2005 and 2004
($ inChange
Net   Millions)                                                                  Army Working Capital
                                                                                                   1,720.2              Navy Working Capital
                                                                                                                                        (2,481.7)         Air Force Working Capital
                                                                                                                                                                                 995.2
                                                                                       Fund                                   Fund                                  Fund
Ending Balance                                                               $                   17,091.0           $                   13,540.2        $                    33,774.8
UNEXPENDED APPROPRIATIONS
  Beginning Balances                                                         $                            0.1       $                            0.0    $                               0.0
  Prior period adjustments (+/-)

         Changes in Accounting Principles (+/-)                                                           0.0                                    0.0                                    0.0
 The accompanying notes are an integral part of these statements.                          Page 32
         Correction of Errors (+/-)                                                                       0.0                                    0.0                                    0.0
  Beginning Balances, as adjusted                                                                         0.1                                    0.0                                    0.0
  Budgetary Financing Sources:

         Appropriations received                                                                          0.0                                  298.0                                    0.0
         Appropriations transferred-in/out (+/-)                                                          0.0                                   (3.7)                                   0.0
         Other adjustments (rescissions, etc) (+/-)                                                       0.0                                    0.0                                    0.0
         Appropriations used                                                                             (0.1)                             (288.0)                                      0.0
         Nonexchange revenue                                                                              0.0                                    0.0                                    0.0
         Donations and forfeitures of cash and cash equivalents                                           0.0                                    0.0                                    0.0
        Transfers-in/out without reimbursement (+/-)                                                      0.0                                    0.0                                    0.0
        Other budgetary financing sources (+/-)                                                           0.0                                    0.0                                    0.0
  Other Financing Sources:

         Donations and forfeitures of property                                                            0.0                                    0.0                                    0.0
         Transfers-in/out without reimbursement (+/-)                                                     0.0                                    0.0                                    0.0
         Imputed financing from costs absorbed by others                                                  0.0                                    0.0                                    0.0
         Other (+/-)                                                                                      0.0                                    0.0                                    0.0
   Total Financing Sources                                                                               (0.1)                                   6.3                                    0.0
   Net Cost of Operations (+/-)

   Net Change                                                                                            (0.1)                                   6.3                                    0.0
   Ending Balance                                                            $                            0.0       $                            6.3    $                               0.0



                                                                                 229


 The accompanying notes are an integral part of these statements.                          Page 38
                                                                                                                  DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  Military Retirement Fund                US Army Corps of                    Other Defense
                                                                                                                            Engineers                     Organizations General
                                                                                                                                                                 Funds
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                           $                    (649,695.1)        $                  32,276.3      $                  (199,854.0)
Adjustments (+/-)

Changes in Accounting Principles (+/-)                                                                      0.0                                 0.0                                0.0
Correction of Errors (+/-)                                                                                  0.0                                 0.0                        (1,290.6)
Beginning Balances, as adjusted                                                                   (649,695.1)                           32,276.3                         (201,144.6)

Budgetary Financing Sources:

Appropriations received                                                                                     0.0                                 0.0                                0.0
Appropriations transferred-in/out (+/-)                                                                     0.0                                 0.0                                0.0
Other adjustments (rescissions, etc) (+/-)                                                                  0.0                                 0.0                                0.0
Appropriations used                                                                                         0.0                             4,009.7                       101,789.8
Nonexchange revenue                                                                                         0.0                             1,632.7                                0.3
Donations and forfeitures of cash and cash equivalents                                                      0.0                                 0.0                                5.7
Transfers-in/out without reimbursement (+/-)                                                                0.0                              326.3                                 5.6
Other budgetary financing sources (+/-)                                                                     0.0                                 0.3                               (1.9)

Other Financing Sources:

Donations and forfeitures of property                                                                       0.0                                 1.5                                0.0
Transfers-in/out without reimbursement (+/-)                                                                0.0                               (3.0)                          (692.2)
Imputed financing from costs absorbed by others                                                             0.0                              241.6                            632.9
Department of Defense
Other (+/-)                                                                                                 0.0                                 0.7                          1,737.9
Agency    Wide
Total Financing Sources                                                                                     0.0                             6,209.8                       103,478.1
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
Net Cost of Operations (+/-)                                                                         47,882.2                               7,679.7                       179,669.9
For the periods ended September 30, 2005 and 2004
($ inChange
Net   Millions)                                                                  Military Retirement(47,882.2)
                                                                                                     Fund                US Army Corps of
                                                                                                                                       (1,469.9)             Other Defense(76,191.8)
                                                                                                                            Engineers                     Organizations General
Ending Balance                                                               $                    (697,577.3)        $                 30,806.4       $          Funds (277,336.4)
UNEXPENDED APPROPRIATIONS
  Beginning Balances                                                         $                              0.0      $                        396.4   $                     40,827.5
  Prior period adjustments (+/-)

         Changes in Accounting Principles (+/-)                                                             0.0                                 0.0                                 0.0
 The accompanying notes are an integral part of these statements.                            Page 33
         Correction of Errors (+/-)                                                                         0.0                                 0.0                          1,290.6
  Beginning Balances, as adjusted                                                                           0.0                               396.4                         42,118.1

  Budgetary Financing Sources:

         Appropriations received                                                                            0.0                             4,629.5                        107,949.5
         Appropriations transferred-in/out (+/-)                                                            0.0                                27.5                         (4,881.3)
         Other adjustments (rescissions, etc) (+/-)                                                         0.0                              (37.9)                         (1,126.0)
         Appropriations used                                                                                0.0                         (4,009.7)                        (101,789.8)
         Nonexchange revenue                                                                                0.0                                 0.0                                 0.0
         Donations and forfeitures of cash and cash equivalents                                             0.0                                 0.0                                 0.0
        Transfers-in/out without reimbursement (+/-)                                                        0.0                                 0.0                                 0.0
        Other budgetary financing sources (+/-)                                                             0.0                                 0.0                                 0.0

  Other Financing Sources:

         Donations and forfeitures of property                                                              0.0                                 0.0                                 0.0
         Transfers-in/out without reimbursement (+/-)                                                       0.0                                 0.0                                 0.0
         Imputed financing from costs absorbed by others                                                    0.0                                 0.0                                 0.0
         Other (+/-)                                                                                        0.0                                 0.0                                 0.0
   Total Financing Sources                                                                                  0.0                               609.4                               152.4
   Net Cost of Operations (+/-)

   Net Change                                                                                               0.0                               609.4                               152.4
   Ending Balance                                                            $                              0.0      $                      1,005.8   $                     42,270.5



                                                                                  230


 The accompanying notes are an integral part of these statements.                             Page 39
                                                                                                               DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                    Other Defense                        DoD Medicare-Eligible               Agency-Wide Component
                                                                                Organizations Working                  Retiree Health Care Fund
                                                                                    Capital Funds
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                          $                    18,284.2          $                   (466,096.2)      $                           0.0
Adjustments (+/-)

Changes in Accounting Principles (+/-)                                                                   0.0                                      0.0                               0.0
Correction of Errors (+/-)                                                                           1,290.6                                      0.0                               0.0
Beginning Balances, as adjusted                                                                  19,574.8                              (466,096.2)                                  0.0
Budgetary Financing Sources:

Appropriations received                                                                                  0.0                                      0.0                               0.0
Appropriations transferred-in/out (+/-)                                                                  0.0                                      0.0                               0.0
Other adjustments (rescissions, etc) (+/-)                                                               0.0                                      0.0                               0.0
Appropriations used                                                                                  1,458.4                                      0.0                               0.0
Nonexchange revenue                                                                                     21.4                                      0.0                               0.0
Donations and forfeitures of cash and cash equivalents                                                   0.0                                      0.0                               0.0
Transfers-in/out without reimbursement (+/-)                                                     (1,319.9)                                        0.0                               0.0
Other budgetary financing sources (+/-)                                                                  0.0                                      0.0                               0.0

Other Financing Sources:

Donations and forfeitures of property                                                                    0.0                                      0.0                               0.0
Transfers-in/out without reimbursement (+/-)                                                          180.1                                       0.0                               0.0
Imputed financing from costs absorbed by others                                                       308.5                                       0.0                            (6.3)
Department
Other (+/-)
            of Defense                                                                               (537.0)                                      0.0                               0.0
Agency    WideSources
Total Financing                                                                                       111.5                                       0.0                            (6.3)
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
Net Cost of Operations (+/-)                                                                         2,114.6                              11,563.9                               (6.3)
For the periods ended September 30, 2005 and 2004
($ inChange
Net   Millions)                                                                    Other Defense (2,003.1)            DoD Medicare-Eligible
                                                                                                                                        (11,563.9)          Agency-Wide Component 0.0
                                                                                Organizations Working                Retiree Health Care Fund
Ending Balance                                                              $       Capital Funds 17,571.7         $                  (477,660.1)       $                           0.0
UNEXPENDED APPROPRIATIONS
  Beginning Balances                                                        $                         529.1       $                               0.0   $                           0.0
  Prior period adjustments (+/-)

         Changes in Accounting Principles (+/-)                                                          0.0                                      0.0                               0.0
 The accompanying notes are an integral part of these statements.                          Page 34
         Correction of Errors (+/-)                                                              (1,290.6)                                        0.0                               0.0
  Beginning Balances, as adjusted                                                                    (761.5)                                      0.0                               0.0
  Budgetary Financing Sources:

         Appropriations received                                                                     2,420.5                                      0.0                               0.0
         Appropriations transferred-in/out (+/-)                                                     (150.8)                                      0.0                               0.0
         Other adjustments (rescissions, etc) (+/-)                                                      0.0                                      0.0                               0.0
         Appropriations used                                                                     (1,458.4)                                        0.0                               0.0
         Nonexchange revenue                                                                             0.0                                      0.0                               0.0
         Donations and forfeitures of cash and cash equivalents                                          0.0                                      0.0                               0.0
        Transfers-in/out without reimbursement (+/-)                                                     0.0                                      0.0                               0.0
        Other budgetary financing sources (+/-)                                                          0.0                                      0.0                               0.0
  Other Financing Sources:

         Donations and forfeitures of property                                                           0.0                                      0.0                               0.0
         Transfers-in/out without reimbursement (+/-)                                                    0.0                                      0.0                               0.0
         Imputed financing from costs absorbed by others                                                 0.0                                      0.0                               0.0
         Other (+/-)                                                                                     0.0                                      0.0                               0.0
   Total Financing Sources                                                                            811.3                                       0.0                               0.0
   Net Cost of Operations (+/-)

   Net Change                                                                                         811.3                                       0.0                               0.0
   Ending Balance                                                           $                           49.8      $                               0.0   $                           0.0


                                                                                231



 The accompanying notes are an integral part of these statements.                          Page 40
                                                                                                                DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                    Combined Total                         Elimination             2005 Consolidated



CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                           $                 (745,441.3)         $                    0.0   $                (745,441.3)
Adjustments (+/-)

Changes in Accounting Principles (+/-)                                                               3,632.4                            0.0                        3,632.4
Correction of Errors (+/-)                                                                           7,256.5                            0.0                        7,256.5
Beginning Balances, as adjusted                                                                (734,552.4)                              0.0                    (734,552.4)
Budgetary Financing Sources:

Appropriations received                                                                                  0.0                            0.0                              0.0
Appropriations transferred-in/out (+/-)                                                                  0.0                            0.0                              0.0
Other adjustments (rescissions, etc) (+/-)                                                               0.0                            0.0                              0.0
Appropriations used                                                                             491,580.5                               0.0                     491,580.5
Nonexchange revenue                                                                                  1,665.0                            0.0                        1,665.0
Donations and forfeitures of cash and cash equivalents                                                  42.6                            0.0                             42.6
Transfers-in/out without reimbursement (+/-)                                                         3,176.4                            0.0                        3,176.4
Other budgetary financing sources (+/-)                                                                  0.5                            0.0                              0.5

Other Financing Sources:

Donations and forfeitures of property                                                                    1.5                            0.0                              1.5
Transfers-in/out without reimbursement (+/-)                                                           (14.3)                           0.0                            (14.3)
Imputed financing from costs absorbed by others                                                      4,465.3                            0.0                        4,465.3
Department of Defense
Other (+/-)                                                                                      (2,168.5)                              0.0                      (2,168.5)
 Agency Wide
Total Financing Sources                                                                         498,749.0                               0.0                     498,749.0
 CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
Net Cost of Operations (+/-)                                                                    634,879.5                               0.0                     634,879.5
 For the periods ended September 30, 2005 and 2004
 ($ in
Net    Millions)
    Change                                                                          Combined Total
                                                                                              (136,130.5)                 Elimination   0.0       2005 Consolidated
                                                                                                                                                               (136,130.5)

Ending Balance                                                               $                 (870,682.9)         $                    0.0   $                (870,682.9)
UNEXPENDED APPROPRIATIONS
   Beginning Balances                                                         $                 243,813.9          $                    0.0   $                 243,813.9
   Prior period adjustments (+/-)

          Changes in Accounting Principles (+/-)                                                          0.0                           0.0                              0.0
 The accompanying notes are an integral part of these statements.                          Page 35
          Correction of Errors (+/-)                                                                      0.0                           0.0                              0.0
   Beginning Balances, as adjusted                                                              243,813.9                               0.0                     243,813.9

   Budgetary Financing Sources:

          Appropriations received                                                               524,990.1                               0.0                     524,990.1
          Appropriations transferred-in/out (+/-)                                                     (651.7)                           0.0                           (651.7)
          Other adjustments (rescissions, etc) (+/-)                                                (5,078.2)                           0.0                      (5,078.2)
          Appropriations used                                                                  (491,580.5)                              0.0                    (491,580.5)
          Nonexchange revenue                                                                             0.0                           0.0                              0.0
          Donations and forfeitures of cash and cash equivalents                                          0.0                           0.0                              0.0
         Transfers-in/out without reimbursement (+/-)                                                     0.0                           0.0                              0.0
         Other budgetary financing sources (+/-)                                                          0.0                           0.0                              0.0

   Other Financing Sources:

          Donations and forfeitures of property                                                           0.0                           0.0                              0.0
          Transfers-in/out without reimbursement (+/-)                                                    0.0                           0.0                              0.0
          Imputed financing from costs absorbed by others                                                 0.0                           0.0                              0.0
          Other (+/-)                                                                                     0.0                           0.0                              0.0
    Total Financing Sources                                                                          27,679.7                           0.0                      27,679.7

    Net Cost of Operations (+/-)

    Net Change                                                                                       27,679.7                           0.0                      27,679.7
    Ending Balance                                                            $                 271,493.6          $                    0.0   $                 271,493.6



                                                                                  232


  The accompanying notes are an integral part of these statements.                         Page 41
                                                                                                               DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  2004 Consolidated
                                                                                      Restated

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                          $                 (621,610.7)
Adjustments (+/-)

Changes in Accounting Principles (+/-)                                                                699.5
Correction of Errors (+/-)                                                                         (8,301.8)
Beginning Balances, as adjusted                                                               (629,213.0)

Budgetary Financing Sources:

Appropriations received                                                                                 0.0
Appropriations transferred-in/out (+/-)                                                                 0.0
Other adjustments (rescissions, etc) (+/-)                                                              0.0
Appropriations used                                                                            478,621.1
Nonexchange revenue                                                                                 1,469.7
Donations and forfeitures of cash and cash equivalents                                                  7.0
Transfers-in/out without reimbursement (+/-)                                                       10,568.6
Other budgetary financing sources (+/-)                                                             4,511.5
Other Financing Sources:

Donations and forfeitures of property                                                                   0.4
Transfers-in/out without reimbursement (+/-)                                                       (2,848.6)
Imputed financing from costs absorbed by others                                                     4,092.5
Department of Defense
Other (+/-)                                                                                             0.6
Agency    Wide
Total Financing Sources                                                                        496,422.8
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
Net Cost of Operations (+/-)                                                                   605,364.9
For the periods ended September 30, 2005 and 2004
($ inChange
Net   Millions)                                                                 2004 Consolidated
                                                                                              (108,942.1)

Ending Balance                                                              $                 (738,155.1)
UNEXPENDED APPROPRIATIONS
  Beginning Balances                                                        $                  192,955.8
  Prior period adjustments (+/-)

         Changes in Accounting Principles (+/-)                                                         0.0
 The accompanying notes are an integral part of these statements.                         Page 36
         Correction of Errors (+/-)                                                             25,913.7
  Beginning Balances, as adjusted                                                              218,869.5
  Budgetary Financing Sources:

         Appropriations received                                                               512,194.5
         Appropriations transferred-in/out (+/-)                                                     485.6
         Other adjustments (rescissions, etc) (+/-)                                             (9,114.6)
         Appropriations used                                                                 (478,621.1)
         Nonexchange revenue                                                                            0.0
         Donations and forfeitures of cash and cash equivalents                                         0.0
        Transfers-in/out without reimbursement (+/-)                                                    0.0
        Other budgetary financing sources (+/-)                                                         0.0

  Other Financing Sources:

         Donations and forfeitures of property                                                          0.0
         Transfers-in/out without reimbursement (+/-)                                                   0.0
         Imputed financing from costs absorbed by others                                                0.0
         Other (+/-)                                                                                    0.0
   Total Financing Sources                                                                      24,944.4

   Net Cost of Operations (+/-)

   Net Change                                                                                   24,944.4
   Ending Balance                                                           $                  243,813.9



                                                                                233


 The accompanying notes are an integral part of these statements.                        Page 42
                                                                                                              DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  Army General Fund                   Navy General Fund                Air Force General Fund


BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

   Budget Authority:
       Appropriations received                                               $                 149,846.9         $                 131,002.4      $                     128,891.0
       Borrowing authority                                                                              0.0                                0.0                                 0.0
       Contract authority                                                                               0.0                                0.0                                 0.0
       Net transfers (+/-)                                                                          1,046.6                              361.3                              638.2
       Other                                                                                            0.0                                0.0                                 0.0
   Unobligated balance:

       Beginning of period                                                                      22,880.9                            18,027.9                              9,043.4
       Net transfers, actual (+/-)                                                                  2,369.2                              (46.6)                           1,960.3
         Anticipated Transfers Balances                                                                 0.0                                0.0                                 0.0
   Spending authority from offsetting collections:
       Earned                                                                                           0.0                                0.0                                 0.0
         Collected                                                                              20,948.2                              8,830.6                             8,923.5
         Receivable from Federal sources                                                            (415.1)                              696.7                              142.9
       Change in unfilled customer orders                                                               0.0                                0.0                                 0.0
         Advance received                                                                             77.7                               147.7                              349.7
         Without advance from Federal sources                                                       2,159.9                           (636.4)                               388.5
       Anticipated for the rest of year, without advances                                               0.0                                0.0                                 0.0
       Previously unavailable                                                                           0.0                                0.0                                 0.0
Department  offor
     Transfers Defense
                  trust funds                                                                           0.0                                0.0                                 0.0
Agency    Wide
       Subtotal                                                                                 22,770.7                              9,038.6                             9,804.6
COMBINING      STATEMENT
   Recoveries of                OF BUDGETARY RESOURCES
                 prior year obligations                                                         17,033.4                            11,446.4                              1,300.2
ForTemporarily
     the periods
               not ended
                   availableSeptember
                             pursuant to 30, 2005
                                         Public Lawand 2004                                             0.0                                0.0                                 0.0
($ in Millions)                                                                  Army General Fund                   Navy General Fund                Air Force General Fund
   Permanently not available                                                                      (877.5)                           (1,543.4)                            (1,493.5)
   Total Budgetary Resources                                                 $                 215,070.2         $                 168,286.6      $                     150,144.2
STATUS OF BUDGETARY RESOURCES

  Obligations
 The          incurred:
     accompanying notes are an integral part of these statements.                         Page 43
       Direct                                                                $                 175,086.2         $                 137,694.4      $                     124,689.4
       Reimbursable                                                                              24,506.7                            13,463.8                            12,448.6
       Subtotal                                                                                199,592.9                           151,158.2                            137,138.0
   Unobligated balance:
       Apportioned                                                                               13,665.5                            15,607.5                            11,756.9
       Exempt from apportionment                                                                       12.0                                0.0                                 3.2
       Other available                                                                                (0.1)                               (0.1)                                0.0
   Unobligated Balances Not Available                                                               1,799.9                           1,521.0                             1,246.1
   Total, Status of Budgetary Resources                                      $                 215,070.2         $                 168,286.6      $                     150,144.2

Relationship of Obligations to Outlays:

   Obligated Balance, Net - beginning of period                              $                   57,022.4        $                   63,856.2     $                      51,504.1
   Obligated Balance transferred, net (+/-)                                                             0.0                                0.0                                 0.0
   Obligated Balance, Net - end of period:
       Accounts receivable                                                                      (1,478.3)                           (1,234.2)                            (1,619.6)
       Unfilled customer order from Federal sources                                            (14,873.1)                           (2,166.6)                            (1,215.9)
       Undelivered orders                                                                        66,772.3                            68,731.0                            42,643.7
       Accounts payable                                                                          13,948.6                             3,362.2                             9,197.1
   Outlays:
       Disbursements                                                                           173,467.6                           134,815.3                            137,805.1
       Collections                                                                             (21,026.0)                           (8,978.3)                            (9,273.2)
       Subtotal                                                                                152,441.6                           125,837.0                            128,531.9
   Less: Offsetting receipts                                                                        (195.2)                           (115.8)                              (123.2)
   Net Outlays                                                               $                 152,246.4         $                 125,721.2      $                     128,408.7



                                                                                 234

 The accompanying notes are an integral part of these statements.                         Page 48
                                                                                                                 DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  Army Working Capital                   Navy Working Capital                Air Force Working Capital
                                                                                       Fund                                   Fund                                    Fund

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

   Budget Authority:
       Appropriations received                                               $                            0.0       $                          298.0    $                               0.0
       Borrowing authority                                                                                0.0                                    0.0                                    0.0
       Contract authority                                                                         10,951.9                                     865.3                             9,744.3
       Net transfers (+/-)                                                                                0.0                                   (3.8)                                   0.0
       Other                                                                                              0.0                                    0.0                                    0.0
   Unobligated balance:

       Beginning of period                                                                           1,530.1                              2,749.8                                  134.4
       Net transfers, actual (+/-)                                                                   (515.9)                                   (84.6)                              (73.9)
         Anticipated Transfers Balances                                                                   0.0                                    0.0                                    0.0
   Spending authority from offsetting collections:
       Earned                                                                                             0.0                                    0.0                                    0.0
         Collected                                                                                14,180.3                               23,151.3                               16,559.4
         Receivable from Federal sources                                                                (29.4)                             (233.7)                                  50.4
       Change in unfilled customer orders                                                                 0.0                                    0.0                                    0.0
         Advance received                                                                                19.3                                    8.2                              (121.4)
         Without advance from Federal sources                                                        (774.2)                                   250.0                               692.7
       Anticipated for the rest of year, without advances                                                 0.0                                    0.0                                    0.0
       Previously unavailable                                                                             0.0                                    0.0                                    0.0
     Transfers
Department  offor trust funds
               Defense                                                                                    0.0                                    0.0                                    0.0
Agency    Wide
       Subtotal                                                                                   13,396.0                               23,175.8                               17,181.1
COMBINING      STATEMENT
   Recoveries of                OF BUDGETARY RESOURCES
                 prior year obligations                                                              1,435.6                                     0.0                                    0.0
ForTemporarily
     the periods
               not ended
                   availableSeptember
                             pursuant to 30, 2005
                                         Public Lawand 2004                                               0.0                                    0.0                                  0.0
($ in Millions)                                                                  Army Working Capital                   Navy Working Capital                Air Force Working Capital
   Permanently not available                                                           Fund      (8,798.8)                    Fund         (247.8)                    Fund     (10,801.2)
  Total Budgetary Resources                                                  $                    17,998.9          $                    26,752.7       $                       16,184.7
STATUS OF BUDGETARY RESOURCES

   Obligations
 The           incurred:
     accompanying  notes are an integral part of these statements.                         Page 44
       Direct                                                                $                            0.0       $                            0.0    $                               0.0
       Reimbursable                                                                               16,822.4                               23,936.0                               15,892.1
       Subtotal                                                                                   16,822.4                               23,936.0                               15,892.1
   Unobligated balance:
       Apportioned                                                                                   1,176.5                              2,768.1                                  292.7
       Exempt from apportionment                                                                          0.0                              (143.7)                                      0.0
       Other available                                                                                    0.0                                    0.0                                (0.1)
   Unobligated Balances Not Available                                                                     0.0                               192.3                                       0.0
   Total, Status of Budgetary Resources                                      $                    17,998.9          $                    26,752.7       $                       16,184.7
Relationship of Obligations to Outlays:

   Obligated Balance, Net - beginning of period                              $                       3,968.1        $                     4,238.7       $                        4,756.0
   Obligated Balance transferred, net (+/-)                                                               0.0                                    0.0                                    0.0
   Obligated Balance, Net - end of period:
       Accounts receivable                                                                           (433.2)                               (356.8)                             (1,009.2)
       Unfilled customer order from Federal sources                                               (3,748.5)                              (7,281.4)                             (3,958.2)
       Undelivered orders                                                                            9,775.6                              7,468.9                                6,461.7
       Accounts payable                                                                                 555.9                             5,198.4                                2,159.6
   Outlays:
       Disbursements                                                                              14,008.7                               23,129.3                               16,251.0
       Collections                                                                              (14,199.6)                              (23,159.5)                            (16,438.0)
       Subtotal                                                                                      (190.9)                                (30.2)                               (187.0)
   Less: Offsetting receipts                                                                              0.0                                    0.0                                    0.0
   Net Outlays                                                               $                       (190.9)        $                       (30.2)      $                        (187.0)



                                                                                 235

 The accompanying notes are an integral part of these statements.                          Page 49
                                                                                                                  DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  Military Retirement Fund                US Army Corps of                     Other Defense
                                                                                                                            Engineers                      Organizations General
                                                                                                                                                                  Funds
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

   Budget Authority:
       Appropriations received                                               $                      49,172.0        $                       5,987.9    $                   109,222.0
       Borrowing authority                                                                                  0.0                                 0.0                                 0.0
       Contract authority                                                                                   0.0                                 0.0                            367.0
       Net transfers (+/-)                                                                                  0.0                              265.0                          (2,376.4)
       Other                                                                                                0.0                                 0.0                                 0.0
   Unobligated balance:

       Beginning of period                                                                                (0.1)                             1,693.3                         15,374.9
       Net transfers, actual (+/-)                                                                          0.0                               (7.6)                         (2,504.9)
         Anticipated Transfers Balances                                                                     0.0                                 0.0                                 0.0
   Spending authority from offsetting collections:
       Earned                                                                                               0.0                                 0.0                                 0.0
         Collected                                                                                          0.0                             6,471.7                           7,215.4
         Receivable from Federal sources                                                                    0.0                                11.1                           (313.0)
       Change in unfilled customer orders                                                                   0.0                                 0.0                                 0.0
         Advance received                                                                                   0.0                              (34.3)                                44.3
         Without advance from Federal sources                                                               0.0                             3,306.3                            (94.8)
       Anticipated for the rest of year, without advances                                                   0.0                                 0.0                                 0.0
       Previously unavailable                                                                               0.0                                 0.0                                 0.0
Department  offor
     Transfers Defense
                  trust funds                                                                               0.0                                 0.0                                 0.0
Agency    Wide
       Subtotal                                                                                             0.0                             9,754.8                           6,851.9
COMBINING      STATEMENT
   Recoveries of                OF BUDGETARY RESOURCES
                 prior year obligations                                                                     0.0                                 0.0                           5,072.5
ForTemporarily
     the periods
               not ended
                   availableSeptember
                             pursuant to 30, 2005
                                         Public Lawand 2004                                        (10,005.7)                                (10.0)                            (20.2)
($ in Millions)                                                                  Military Retirement Fund                US Army Corps of                     Other Defense
   Permanently not available                                                                              0.0               Engineers     (38.4)                            (1,497.5)
                                                                                                                                                           Organizations General
  Total Budgetary Resources                                                  $                      39,166.2        $                  17,645.0        $          Funds 130,489.3
STATUS OF BUDGETARY RESOURCES

  Obligations
 The          incurred:
     accompanying notes are an integral part of these statements.                            Page 45
       Direct                                                                $                         39,166.2      $                      5,739.5    $                    111,600.4
       Reimbursable                                                                                         0.0                             6,902.4                           5,447.4
       Subtotal                                                                                        39,166.2                         12,641.9                            117,047.8
   Unobligated balance:
       Apportioned                                                                                          0.0                             4,421.1                           9,462.2
       Exempt from apportionment                                                                            0.0                               582.0                                81.6
       Other available                                                                                      0.0                                (0.1)                                0.1
   Unobligated Balances Not Available                                                                       0.0                                 0.1                           3,897.6
   Total, Status of Budgetary Resources                                      $                         39,166.2      $                  17,645.0       $                    130,489.3

Relationship of Obligations to Outlays:

   Obligated Balance, Net - beginning of period                              $                          3,120.2      $                      1,038.7    $                     32,929.2
   Obligated Balance transferred, net (+/-)                                                                 0.0                                 0.0                                 0.0
   Obligated Balance, Net - end of period:
       Accounts receivable                                                                                  0.0                              (235.8)                           (753.7)
       Unfilled customer order from Federal sources                                                         0.0                         (5,214.2)                            (1,272.4)
       Undelivered orders                                                                                   0.0                             2,862.4                          31,136.1
       Accounts payable                                                                                 3,321.1                             1,083.0                           4,635.0
   Outlays:
       Disbursements                                                                                   38,965.4                         11,867.7                            111,567.4
       Collections                                                                                          0.0                         (6,437.4)                            (7,259.7)
       Subtotal                                                                                        38,965.4                             5,430.3                         104,307.7
   Less: Offsetting receipts                                                                       (22,897.0)                           (1,744.7)                            (1,617.6)
   Net Outlays                                                               $                         16,068.4      $                      3,685.6    $                    102,690.1



                                                                                   236

 The accompanying notes are an integral part of these statements.                             Page 50
                                                                                                                 DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                     Other Defense                        DoD Medicare-Eligible               Agency-Wide Component
                                                                                 Organizations Working                  Retiree Health Care Fund
                                                                                     Capital Funds
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

   Budget Authority:
       Appropriations received                                               $                        2,420.5       $                      28,128.8      $                           0.0
       Borrowing authority                                                                                0.0                                      0.0                               0.0
       Contract authority                                                                          34,824.6                                        0.0                               0.0
       Net transfers (+/-)                                                                            (150.9)                                      0.0                               0.0
       Other                                                                                              0.0                                      0.0                               0.0
   Unobligated balance:

       Beginning of period                                                                            1,641.7                                 206.6                                  0.0
       Net transfers, actual (+/-)                                                                    (611.5)                                      0.0                               0.0
         Anticipated Transfers Balances                                                                   0.0                                      0.0                               0.0
   Spending authority from offsetting collections:
       Earned                                                                                             0.0                                      0.0                               0.0
         Collected                                                                                 52,647.6                                        0.0                               0.0
         Receivable from Federal sources                                                                 71.9                                      0.0                               0.0
       Change in unfilled customer orders                                                                 0.0                                      0.0                               0.0
         Advance received                                                                              150.8                                       0.0                               0.0
         Without advance from Federal sources                                                         (226.1)                                      0.0                               0.0
       Anticipated for the rest of year, without advances                                                 0.0                                      0.0                               0.0
       Previously unavailable                                                                             0.0                                      0.0                               0.0
Department  offor
     Transfers Defense
                  trust funds                                                                             0.0                                      0.0                               0.0
Agency    Wide
       Subtotal                                                                                    52,644.2                                        0.0                               0.0
COMBINING      STATEMENT
   Recoveries of                OF BUDGETARY RESOURCES
                 prior year obligations                                                                  88.6                                      0.0                               0.0
ForTemporarily
     the periods
               not ended
                   availableSeptember
                             pursuant to 30, 2005
                                         Public Lawand 2004                                               0.0                           (21,839.5)                                   0.0
($ in Millions)                                                                     Other Defense                      DoD Medicare-Eligible                 Agency-Wide Component
   Permanently not available                                                                      (33,001.6)
                                                                                 Organizations Working                Retiree Health Care Fund 0.0                                   0.0
   Total Budgetary Resources                                                 $       Capital Funds 57,855.6         $                      6,495.9       $                           0.0
STATUS OF BUDGETARY RESOURCES

  Obligations
 The          incurred:
     accompanying notes are an integral part of these statements.                           Page 46
       Direct                                                                $                        1,142.0       $                       6,398.7      $                           0.0
       Reimbursable                                                                                56,563.7                                        0.0                               0.0
       Subtotal                                                                                    57,705.7                                 6,398.7                                  0.0
   Unobligated balance:
       Apportioned                                                                                     (40.8)                                  97.2                                  0.0
       Exempt from apportionment                                                                       190.8                                       0.0                               0.0
       Other available                                                                                   (0.1)                                     0.0                               0.0
   Unobligated Balances Not Available                                                                     0.0                                      0.0                               0.0
   Total, Status of Budgetary Resources                                      $                     57,855.6         $                       6,495.9      $                           0.0
Relationship of Obligations to Outlays:

   Obligated Balance, Net - beginning of period                              $                     10,538.4         $                         262.1      $                           0.0
   Obligated Balance transferred, net (+/-)                                                               0.0                                      0.0                               0.0
   Obligated Balance, Net - end of period:
       Accounts receivable                                                                         (2,997.9)                                       0.0                               0.0
       Unfilled customer order from Federal sources                                                (4,737.7)                                       0.0                               0.0
       Undelivered orders                                                                          14,155.3                                   146.2                                  0.0
       Accounts payable                                                                               6,589.7                                 241.7                                  0.0
   Outlays:
       Disbursements                                                                               55,300.2                                 6,272.9                                  0.0
       Collections                                                                                (52,798.4)                                       0.0                               0.0
       Subtotal                                                                                       2,501.8                               6,272.9                                  0.0
   Less: Offsetting receipts                                                                              0.0                             (28,379.4)                                 0.0
   Net Outlays                                                               $                        2,501.8       $                     (22,106.5)     $                           0.0



                                                                                 237

 The accompanying notes are an integral part of these statements.                           Page 51
                                                                                                             DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                   2005 Combined                     2004 Combined



BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

   Budget Authority:
       Appropriations received                                               $                 604,969.5       $                 582,010.7
       Borrowing authority                                                                             0.0                             0.1
       Contract authority                                                                       56,753.1                          34,855.8
       Net transfers (+/-)                                                                         (220.0)                          (519.3)
       Other                                                                                           0.0                             0.0
   Unobligated balance:

       Beginning of period                                                                      73,282.9                         256,659.0
       Net transfers, actual (+/-)                                                                  484.5                            782.0
         Anticipated Transfers Balances                                                                0.0                             0.0
   Spending authority from offsetting collections:
       Earned                                                                                          0.0                             0.0
         Collected                                                                             158,928.0                         146,274.3
         Receivable from Federal sources                                                            (18.2)                           (79.7)
       Change in unfilled customer orders                                                              0.0                             0.0
         Advance received                                                                           642.0                            360.5
         Without advance from Federal sources                                                      5,065.9                           980.0
       Anticipated for the rest of year, without advances                                              0.0                             0.0
       Previously unavailable                                                                          0.0                             0.0
     Transfers
Department  offor trust funds
               Defense                                                                                 0.0                             0.0
Agency Subtotal
          Wide                                                                                 164,617.7                         147,535.1
COMBINING      STATEMENT
   Recoveries of                OF BUDGETARY RESOURCES
                 prior year obligations                                                         36,376.7                          33,681.9
ForTemporarily
     the periods
               not ended
                   availableSeptember
                             pursuant to 30, 2005
                                         Public Lawand 2004                                   (31,875.4)                            (10.0)
($ in Millions) not available                                                     2005 Combined                     2004 Combined
   Permanently                                                                                (58,299.7)                        (40,338.0)
   Total Budgetary Resources                                                 $                 846,089.3       $               1,014,657.3
STATUS OF BUDGETARY RESOURCES

  Obligations
 The          incurred:
     accompanying notes are an integral part of these statements.                        Page 47

       Direct                                                                $                601,516.8        $                568,053.7
       Reimbursable                                                                           175,983.1                         152,658.9
       Subtotal                                                                               777,499.9                         720,712.6
   Unobligated balance:
       Apportioned                                                                              59,206.9                          58,631.0
       Exempt from apportionment                                                                    725.9                       183,488.1
       Other available                                                                               (0.4)                             0.3
   Unobligated Balances Not Available                                                              8,657.0                        51,825.3
   Total, Status of Budgetary Resources                                      $                846,089.3        $               1,014,657.3

Relationship of Obligations to Outlays:

   Obligated Balance, Net - beginning of period                              $                233,234.1        $                214,371.9
   Obligated Balance transferred, net (+/-)                                                            0.0                           (14.1)
   Obligated Balance, Net - end of period:
       Accounts receivable                                                                    (10,118.7)                        (10,136.8)
       Unfilled customer order from Federal sources                                           (44,468.0)                        (39,402.0)
       Undelivered orders                                                                     250,153.2                         228,801.3
       Accounts payable                                                                         50,292.3                          53,470.6
   Outlays:
       Disbursements                                                                          723,450.6                         667,755.1
       Collections                                                                           (159,570.1)                       (146,634.7)
       Subtotal                                                                               563,880.5                         521,120.4
   Less: Offsetting receipts                                                                  (55,072.9)                        (46,546.4)
   Net Outlays                                                               $                508,807.6        $                474,574.0


                                                                                 238

 The accompanying notes are an integral part of these statements.                        Page 52
                                                                                                             DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  Army General Fund                  Navy General Fund             Air Force General Fund


NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

   Budget Authority:
       Appropriations received                                               $                        0.0       $                       0.0   $                            0.0
       Borrowing authority                                                                            0.0                               0.0                                0.0
       Contract authority                                                                             0.0                               0.0                                0.0
       Net transfers (+/-)                                                                            0.0                               0.0                                0.0
       Other                                                                                          0.0                               0.0                                0.0
   Unobligated balance:

       Beginning of period                                                                            1.4                               0.0                                0.0
       Net transfers, actual (+/-)                                                                    0.0                               0.0                                0.0
         Anticipated Transfers Balances                                                               0.0                               0.0                                0.0
   Spending authority from offsetting collections:
       Earned                                                                                         0.0                               0.0                                0.0
         Collected                                                                                    0.1                               0.0                                0.0
         Receivable from Federal sources                                                              0.0                               0.0                                0.0
       Change in unfilled customer orders                                                             0.0                               0.0                                0.0
         Advance received                                                                             0.0                               0.0                                0.0
         Without advance from Federal sources                                                         0.0                               0.0                                0.0
       Anticipated for the rest of year, without advances                                             0.0                               0.0                                0.0
       Previously unavailable                                                                         0.0                               0.0                                0.0
Department  offrom
     Transfers Defense
                   trust funds                                                                        0.0                               0.0                                0.0
Agency    Wide
       Subtotal                                                                                       0.1                               0.0                                0.0
COMBINING
   Recoveries ofSTATEMENT       OF BUDGETARY RESOURCES
                 prior year obligations                                                               0.0                               0.0                                0.0
ForTemporarily
     the periodsnot ended
                    availableSeptember
                              pursuant to 30, 2005
                                          Public Lawand 2004                                          0.0                               0.0                                0.0
($ in Millions)                                                                  Army General Fund                  Navy General Fund             Air Force General Fund
   Permanently not available                                                                          0.0                               0.0                                0.0
   Total Budgetary Resources                                                 $                        1.5       $                       0.0   $                            0.0
STATUS OF BUDGETARY RESOURCES

  Obligations
 The          incurred:
     accompanying notes are an integral part of these statements.                         Page 53
       Direct                                                                $                        0.0       $                       0.0   $                            0.0
       Reimbursable                                                                                   0.0                               0.0                                0.0
       Subtotal                                                                                       0.0                               0.0                                0.0
   Unobligated balance:
       Apportioned                                                                                    1.5                               0.0                                0.0
       Exempt from apportionment                                                                      0.0                               0.0                                0.0
       Other available                                                                                0.0                               0.0                                0.0
   Unobligated Balances Not Available                                                                 0.0                               0.0                                0.0
   Total, Status of Budgetary Resources                                      $                        1.5       $                       0.0   $                            0.0
Relationship of Obligations to Outlays:

   Obligated Balance, Net ? beginning of period                              $                        0.0       $                       0.0   $                            0.0
   Obligated Balance transferred, net (+/-)                                                           0.0                               0.0                                0.0
   Obligated Balance, Net - end of period:
       Accounts receivable                                                                            0.0                               0.0                                0.0
       Unfilled customer order from Federal sources                                                   0.0                               0.0                                0.0
       Undelivered orders                                                                             0.0                               0.0                                0.0
       Accounts payable                                                                               0.0                               0.0                                0.0
   Outlays:
       Disbursements                                                                                  0.0                               0.0                                0.0
       Collections                                                                                   (0.1)                              0.0                                0.0
       Subtotal                                                                                      (0.1)                              0.0                                0.0
   Less: Offsetting receipts                                                                          0.0                               0.0                                0.0
   Net Outlays                                                               $                       (0.1)      $                       0.0   $                            0.0




                                                                                 239
 The accompanying notes are an integral part of these statements.                         Page 58
                                                                                                                  DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  Military Retirement Fund                US Army Corps of                 Other Defense
                                                                                                                            Engineers                  Organizations General
                                                                                                                                                              Funds
NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

   Budget Authority:
       Appropriations received                                               $                              0.0      $                       0.0   $                            0.0
       Borrowing authority                                                                                  0.0                              0.0                            170.3
       Contract authority                                                                                   0.0                              0.0                                0.0
       Net transfers (+/-)                                                                                  0.0                              0.0                                0.0
       Other                                                                                                0.0                              0.0                                0.0
   Unobligated balance:

       Beginning of period                                                                                  0.0                              0.0                               23.2
       Net transfers, actual (+/-)                                                                          0.0                              0.0                                0.0
         Anticipated Transfers Balances                                                                     0.0                              0.0                                0.0
   Spending authority from offsetting collections:
       Earned                                                                                               0.0                              0.0                                0.0
         Collected                                                                                          0.0                              0.0                               16.8
         Receivable from Federal sources                                                                    0.0                              0.0                                0.0
       Change in unfilled customer orders                                                                   0.0                              0.0                                0.0
         Advance received                                                                                   0.0                              0.0                                0.0
         Without advance from Federal sources                                                               0.0                              0.0                               40.6
       Anticipated for the rest of year, without advances                                                   0.0                              0.0                                0.0
       Previously unavailable                                                                               0.0                              0.0                                0.0
Department  offrom
     Transfers Defense
                   trust funds                                                                              0.0                              0.0                                0.0
Agency    Wide
       Subtotal                                                                                             0.0                              0.0                               57.4
COMBINING
   Recoveries ofSTATEMENT       OF BUDGETARY RESOURCES
                 prior year obligations                                                                     0.0                              0.0                                0.0
ForTemporarily
     the periodsnot ended
                    availableSeptember
                              pursuant to 30, 2005
                                          Public Lawand 2004                                                0.0                              0.0                               0.0
($ in Millions)                                                                  Military Retirement Fund                 US Army Corps of                Other Defense
   Permanently not available                                                                                0.0              Engineers       0.0       Organizations General (2.2)
   Total Budgetary Resources                                                 $                              0.0      $                       0.0   $          Funds        248.7
STATUS OF BUDGETARY RESOURCES

  Obligations
 The          incurred:
     accompanying notes are an integral part of these statements.                            Page 55
       Direct                                                                $                              0.0      $                       0.0   $                        215.2
       Reimbursable                                                                                         0.0                              0.0                                0.0
       Subtotal                                                                                             0.0                              0.0                            215.2
   Unobligated balance:
       Apportioned                                                                                          0.0                              0.0                                0.0
       Exempt from apportionment                                                                            0.0                              0.0                                0.0
       Other available                                                                                      0.0                              0.0                                0.0
   Unobligated Balances Not Available                                                                       0.0                              0.0                               33.5
   Total, Status of Budgetary Resources                                      $                              0.0      $                       0.0   $                        248.7
Relationship of Obligations to Outlays:

   Obligated Balance, Net ? beginning of period                              $                              0.0      $                       0.0   $                        155.7
   Obligated Balance transferred, net (+/-)                                                                 0.0                              0.0                                0.0
   Obligated Balance, Net - end of period:
       Accounts receivable                                                                                  0.0                              0.0                                0.0
       Unfilled customer order from Federal sources                                                         0.0                              0.0                           (123.7)
       Undelivered orders                                                                                   0.0                              0.0                            446.3
       Accounts payable                                                                                     0.0                              0.0                                0.0
   Outlays:
       Disbursements                                                                                        0.0                              0.0                                7.7
       Collections                                                                                          0.0                              0.0                            (16.8)
       Subtotal                                                                                             0.0                              0.0                               (9.1)
   Less: Offsetting receipts                                                                                0.0                              0.0                                0.0
   Net Outlays                                                               $                              0.0      $                       0.0   $                           (9.1)



                                                                                  240

 The accompanying notes are an integral part of these statements.                            Page 60
                                                                                                              DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                    2005 Combined                      2004 Combined



NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

   Budget Authority:
       Appropriations received                                               $                          0.0      $                       0.0
       Borrowing authority                                                                           170.3                            114.6
       Contract authority                                                                               0.0                              0.0
       Net transfers (+/-)                                                                              0.0                              0.0
       Other                                                                                            0.0                              0.0
   Unobligated balance:

       Beginning of period                                                                             24.6                             21.8
       Net transfers, actual (+/-)                                                                      0.0                              0.0
         Anticipated Transfers Balances                                                                 0.0                              0.0
   Spending authority from offsetting collections:
       Earned                                                                                           0.0                              0.0
         Collected                                                                                     16.9                             17.4
         Receivable from Federal sources                                                                0.0                            (0.6)
       Change in unfilled customer orders                                                               0.0                              0.0
         Advance received                                                                               0.0                              0.0
         Without advance from Federal sources                                                          40.6                             47.2
       Anticipated for the rest of year, without advances                                               0.0                              0.0
       Previously unavailable                                                                           0.0                              0.0
     Transfers
Department  of from trust funds
                Defense                                                                                 0.0                              0.0
Agency Subtotal
          Wide                                                                                         57.5                             64.0
COMBINING
   Recoveries ofSTATEMENT       OF BUDGETARY RESOURCES
                 prior year obligations                                                                 0.0                              0.0
ForTemporarily
     the periodsnotended   September
                   available pursuant to 30, 2005
                                         Public Lawand 2004                                             0.0                              0.0
($ in Millions)                                                                   2005 Combined                       2004 Combined
   Permanently not available                                                                          (2.2)                             20.7
   Total Budgetary Resources                                                 $                       250.2       $                    221.1
STATUS OF BUDGETARY RESOURCES

  Obligations
 The          incurred:
     accompanying notes are an integral part of these statements.                         Page 57
       Direct                                                                $                       215.2       $                    196.6
       Reimbursable                                                                                    0.0                              0.0
       Subtotal                                                                                      215.2                            196.6
   Unobligated balance:
       Apportioned                                                                                     1.5                              1.4
       Exempt from apportionment                                                                       0.0                              0.0
       Other available                                                                                 0.0                              0.0
   Unobligated Balances Not Available                                                                 33.5                             23.1
   Total, Status of Budgetary Resources                                      $                       250.2       $                    221.1
Relationship of Obligations to Outlays:

   Obligated Balance, Net ? beginning of period                              $                       155.7       $                     29.9
   Obligated Balance transferred, net (+/-)                                                            0.0                              0.0
   Obligated Balance, Net - end of period:
       Accounts receivable                                                                             0.0                              0.0
       Unfilled customer order from Federal sources                                                 (123.7)                           (83.1)
       Undelivered orders                                                                            446.3                            238.8
       Accounts payable                                                                                0.0                              0.0
   Outlays:
       Disbursements                                                                                   7.7                             24.1
       Collections                                                                                   (16.9)                           (17.4)
       Subtotal                                                                                       (9.2)                             6.7
   Less: Offsetting receipts                                                                           0.0                              0.0
   Net Outlays                                                               $                        (9.2)      $                      6.7


                                                                                 241

 The accompanying notes are an integral part of these statements.                        Page 62
                                                                                                                  DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF FINANCING
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                    Army General Fund                     Navy General Fund                 Air Force General Fund



Resources Used to Finance Activities:

Budgetary Resources Obligated
 Obligations incurred                                                          $                 199,592.9           $                 151,158.2       $                    137,138.0
 Less: Spending authority from offsetting collections                                            (39,804.4)                            (20,485.1)                           (11,104.9)
 and recoveries (-)
 Obligations net of offsetting collections and recoveries                                        159,788.5                             130,673.1                            126,033.1

 Less: Offsetting receipts (-)                                                                         (195.2)                            (115.8)                              (123.2)
 Net obligations                                                                                 159,593.3                             130,557.3                            125,909.9

Other Resources
 Donations and forfeitures of property                                                                     0.0                                  0.0                                  0.0
 Transfers in/out
Department        without reimbursement (+/-)
              of Defense                                                                                528.1                                 (1.7)                             (25.6)
  ImputedWide
Agency     financing from costs absorbed by others                                                    1,092.8                                585.7                              742.0
CONSOLIDATING
  Other (+/-)          STATEMENT OF FINANCING                                                     (2,947.4)                                     0.0                                  0.0
For
  Netthe periods
      other         ended
             resources usedSeptember     30, 2005 and 2004
                            to finance activities                                                 (1,326.5)                                584.0                                716.4
($ in Millions)                                                                    Army General Fund                     Navy General Fund                 Air Force General Fund
 Total resources used to finance activities                                                      158,266.8                             131,141.3                            126,626.3


Resources Used to Finance Items not Part
of the Net Cost of Operations

 Change in budgetary resources obligated for goods,
 services and benefits ordered but not yet provided
       Undelivered Orders (-)                                                                     (10,942.9)                           (13,332.3)                           (11,681.8)
       Unfilled Customer Orders                                                                        2,237.7                               (488.7)                                738.2
 Resources that fund expenses recognized in prior periods                                             (1,282.3)                              (269.7)                           (606.5)
 Budgetary offsetting collections and receipts that                                                      195.3                                  0.0                                 123.2
 do not affect net cost of operations
 Resources that finance the acquisition of assets                                                 (26,752.5)                           (14,697.5)                           (18,029.6)
 Other resources or adjustments to net obligated resources
 that do not affect net cost of operations
      Less: Trust notes
 The accompanying or Special
                        are anFund  Receipts
                              integral           Related
                                       part of these      to Exchange in the
                                                     statements.                            Page 63        0.0                                  0.0                                   0.0
Entity's Budgetof
Department      (-)Defense
       Other (+/-)                                                                                     2,419.3                                  1.7                                  25.6
Agency Wide
  Total resources usedSTATEMENT
CONSOLIDATING            to finance itemsOF
                                         not FINANCING                                            (34,125.4)                           (28,786.5)                           (29,430.9)
For
  partthe  periods
       of the net costended    September 30, 2005 and 2004
                       of operations
($ in Millions)                                                                    Army General Fund                     Navy General Fund                 Air Force General Fund
 Total resources used to finance the net cost of                                                  124,141.4                             102,354.8                             97,195.4
 operations
Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future
Period:
 Increase in annual leave liability                                                                       91.4                                170.0                                 81.0
 Increase in environmental and disposal liability                                                         (0.3)                          1,028.8                                     0.0
 Upward/Downward reestimates of credit subsidy expense (+/-)                                               0.0                                  0.0                                  0.0
 Increase in exchange revenue receivable from the the public (-)                                           0.0                                  0.0                                  0.0
 Other (+/-)                                                                                              54.9                                 69.1                                 13.7
 Total components of Net Cost of Operations that                                                         146.0                           1,267.9                                    94.7
 The accompanying notes are an integral part of these statements.                           Page 68
 will require or generate resources in future periods

Components not Requiring or Generating Resources:
 Depreciation and amortization                                                                     16,965.2                             15,844.3                             11,743.1
 Revaluation of assets or liabilities (+/-)                                                                1.1                          (1,785.3)                               787.8
 Other (+/-)
       Trust Fund Exchange Revenue                                                                        (0.1)                                 0.0                                  0.0
       Cost of Goods Sold                                                                                  0.0                                  0.0                                  0.0
       Operating Material & Supplies Used                                                                  0.0                          (2,244.2)                             2,037.8
       Other                                                                                           5,172.5                                 (7.8)                         12,435.8
 Total components of Net Cost of Operations that                                                   22,138.7                             11,807.0                             27,004.5
  will not require or generate resources

 Total components of net cost of operations that                                                   22,284.7                             13,074.9                             27,099.2
 will not require or generate resources in the current

 period

Net Cost of Operations                                                                           146,426.1                             115,429.7                            124,294.6




                                                                                   242
 The accompanying notes are an integral part of these statements.                           Page 73
                                                                                                                DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF FINANCING
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  Army Working Capital                  Navy Working Capital               Air Force Working Capital
                                                                                       Fund                                  Fund                                   Fund

Resources Used to Finance Activities:

Budgetary Resources Obligated
 Obligations incurred                                                        $                    16,822.4         $                     23,936.0     $                       15,892.1
 Less: Spending authority from offsetting collections                                            (14,831.6)                             (23,175.8)                           (17,181.1)
 and recoveries (-)
 Obligations net of offsetting collections and recoveries                                            1,990.8                                  760.2                           (1,289.0)

 Less: Offsetting receipts (-)                                                                            0.0                                   0.0                                   0.0
 Net obligations                                                                                     1,990.8                                  760.2                           (1,289.0)

Other Resources
 Donations and
Department   of forfeitures
                 Defense of property                                                                      0.0                                   0.0                                   0.0
  Transfers
Agency       in/out without reimbursement (+/-)
          Wide                                                                                            0.0                                   0.0                                   0.0
  Imputed financing from
CONSOLIDATING              costs absorbed
                        STATEMENT      OF by  others
                                          FINANCING                                                     147.1                                 552.6                              168.4
For  the(+/-)
  Other  periods ended September 30, 2005 and 2004                                                    230.9                               (653.6)                                   0.0
($Net
   in Millions)
      other resources used to finance activities                                 Army Working Capital 378.0            Navy Working Capital(101.0)        Air Force Working Capital
                                                                                                                                                                                 168.4
                                                                                       Fund                                  Fund                                   Fund
 Total resources used to finance activities                                                        2,368.8                                   659.2                           (1,120.6)
Resources Used to Finance Items not Part
of the Net Cost of Operations

 Change in budgetary resources obligated for goods,
 services and benefits ordered but not yet provided
       Undelivered Orders (-)                                                                     (1,514.9)                               (684.7)                                180.3
       Unfilled Customer Orders                                                                      (754.9)                                258.2                                571.3
 Resources that fund expenses recognized in prior periods                                             (21.3)                                   0.0                                (5.8)
 Budgetary offsetting collections and receipts that                                                       0.0                                  0.0                                    0.0
 do not affect net cost of operations
 Resources that finance the acquisition of assets                                                 (7,999.0)                              (4,342.3)                           (5,376.8)
 Other resources or adjustments to net obligated resources
 that do not affect net cost of operations
        Less: Trust or Special Fund Receipts Related to Exchange in the                                   0.0                                  0.0                                    0.0
Entity's Budget (-)
Department      of Defense
 The accompanying
        Other (+/-) notes are an integral part of these statements.                         Page 64 (230.9)                                 653.6                                     0.0
Agency Wide
  Total resources used to finance items not                                                      (10,521.0)                              (4,115.2)                           (4,631.0)
CONSOLIDATING STATEMENT OF FINANCING
For
  partthe  periods
       of the net costended   September 30, 2005 and 2004
                       of operations
($Total
   in Millions)                                                                  Army Working Capital                  Navy Working Capital               Air Force Working Capital
        resources used to finance the net cost of                                                (8,152.2)                             (3,456.0)                             (5,751.6)
                                                                                       Fund                                  Fund                                   Fund
 operations
Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future
Period:
 Increase in annual leave liability                                                                     28.9                                   0.0                                    0.0
 Increase in environmental and disposal liability                                                        0.0                                   0.0                                    0.0
 Upward/Downward reestimates of credit subsidy expense (+/-)                                             0.0                                   0.0                                    0.0
 Increase in exchange revenue receivable from the the public (-)                                         0.0                                   0.0                                    0.0
 Other (+/-)                                                                                             0.0                                  24.3                                    6.0
 Total components of Net Cost of Operations that                                                        28.9                                  24.3                                    6.0
 The accompanying notes are an integral part of these statements.                          Page 69
 will require or generate resources in future periods

Components not Requiring or Generating Resources:
 Depreciation and amortization                                                                          95.9                                205.2                               190.7
 Revaluation of assets or liabilities (+/-)                                                           699.9                               1,236.0                                     3.2
 Other (+/-)
       Trust Fund Exchange Revenue                                                                       0.0                                   0.0                                    0.0
       Cost of Goods Sold                                                                            6,025.4                              4,574.4                              5,026.6
       Operating Material & Supplies Used                                                                0.0                                   0.0                              416.0
       Other                                                                                         (556.0)                                   0.0                             (791.6)
 Total components of Net Cost of Operations that                                                     6,265.2                              6,015.6                              4,844.9
  will not require or generate resources
 Total components of net cost of operations that                                                     6,294.1                              6,039.9                              4,850.9
 will not require or generate resources in the current

 period

Net Cost of Operations                                                                            (1,858.1)                               2,583.9                              (900.7)



                                                                                 243
                                                                                                                  DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF FINANCING
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  Military Retirement Fund                US Army Corps of                    Other Defense
                                                                                                                            Engineers                     Organizations General
                                                                                                                                                                 Funds
Resources Used to Finance Activities:

Budgetary Resources Obligated
 Obligations incurred                                                        $                       39,166.2        $                   12,641.9     $                   117,263.0
 Less: Spending authority from offsetting collections                                                       0.0                          (9,754.9)                        (11,981.8)
 and recoveries (-)
 Obligations net of offsetting collections and recoveries                                            39,166.2                               2,887.0                       105,281.2

 Less: Offsetting receipts (-)                                                                     (22,897.0)                            (1,744.7)                         (1,617.6)
 Net obligations                                                                                     16,269.2                               1,142.3                       103,663.6

Other Resources
 Donations and
Department   offorfeitures
                Defense of property                                                                         0.0                                 1.5                                0.0
  Transfers
Agency       in/out without reimbursement (+/-)
          Wide                                                                                              0.0                               (3.0)                          (692.2)
  Imputed financing from
CONSOLIDATING              costs absorbed
                        STATEMENT      OF by  others
                                          FINANCING                                                         0.0                              241.6                            632.9
For  the(+/-)
  Other  periods ended September 30, 2005 and 2004                                                          0.0                                 0.7                          1,737.9
($Net
   in Millions)
      other resources used to finance activities                                 Military Retirement Fund 0.0             US Army Corps of 240.8             Other Defense 1,678.6
                                                                                                                             Engineers                    Organizations General
 Total resources used to finance activities                                                          16,269.2                             1,383.1                Funds 105,342.2
Resources Used to Finance Items not Part
of the Net Cost of Operations

 Change in budgetary resources obligated for goods,
 services and benefits ordered but not yet provided
       Undelivered Orders (-)                                                                               0.0                             (839.1)                          (721.1)
       Unfilled Customer Orders                                                                             0.0                             3,272.0                               (9.9)
 Resources that fund expenses recognized in prior periods                                                   0.0                              (25.8)                          (257.0)
 Budgetary offsetting collections and receipts that                                                         0.0                             1,744.7                          1,261.9
 do not affect net cost of operations
 Resources that finance the acquisition of assets                                                           0.0                              (13.1)                        (3,879.1)
 Other resources or adjustments to net obligated resources
 that do not affect net cost of operations
        Less: Trust or Special Fund Receipts Related to Exchange in the                                     0.0                              (10.0)                                5.8
Entity's Budget (-)
 The accompanying notes are an integral part of these statements.                             Page 65
        Other (+/-)                                                                                         0.0                                 1.6                        (1,045.7)
Department of Defense
 Total resources used to finance items not                                                                  0.0                             4,130.3                        (4,645.1)
Agency Wide
CONSOLIDATING
  part of the net cost ofSTATEMENT
                          operations   OF FINANCING
For  the periods ended September 30, 2005 and 2004
  Total resources used to finance the net cost of                                                     16,269.2                              5,513.4                       100,697.1
($ in Millions)                                                                  Military Retirement Fund                US Army Corps of                    Other Defense
 operations                                                                                                                 Engineers                     Organizations General
                                                                                                                                                                 Funds
Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future
Period:
 Increase in annual leave liability                                                                         0.0                                 0.0                           243.8
 Increase in environmental and disposal liability                                                           0.0                                 0.0                               31.4
 Upward/Downward reestimates of credit subsidy expense (+/-)                                                0.0                                 0.0                                0.0
 Increase in exchange revenue receivable from the the public (-)                                            0.0                                 0.0                           (14.6)
 Other (+/-)                                                                                         57,529.6                                540.6                         76,232.8
 The accompanying notes are an integral part of these statements.                             Page 70
 Total components of Net Cost of Operations that                                                     57,529.6                                540.6                         76,493.4
 will require or generate resources in future periods

Components not Requiring or Generating Resources:
 Depreciation and amortization                                                                              0.0                             1,195.6                          2,107.6
 Revaluation of assets or liabilities (+/-)                                                                 0.0                             1,046.7                           129.0
 Other (+/-)
       Trust Fund Exchange Revenue                                                                 (25,915.2)                                   0.0                           (58.7)
       Cost of Goods Sold                                                                                   0.0                                 2.8                           156.9
       Operating Material & Supplies Used                                                                   0.0                                 0.0                                0.0
       Other                                                                                             (1.4)                              (619.4)                           144.6
 Total components of Net Cost of Operations that                                                   (25,916.6)                               1,625.7                          2,479.4
  will not require or generate resources

 Total components of net cost of operations that                                                     31,613.0                               2,166.3                        78,972.8
 will not require or generate resources in the current

 period

Net Cost of Operations                                                                               47,882.2                               7,679.7                       179,669.9




                                                                                  244
                                                                                                                 DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF FINANCING
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                     Other Defense                        DoD Medicare-Eligible               Agency-Wide Component
                                                                                 Organizations Working                  Retiree Health Care Fund
                                                                                     Capital Funds
Resources Used to Finance Activities:

Budgetary Resources Obligated
 Obligations incurred                                                        $                     57,705.7         $                        6,398.7     $                           0.0
 Less: Spending authority from offsetting collections                                             (52,732.9)                                       0.0                               0.0
 and recoveries (-)
 Obligations net of offsetting collections and recoveries                                             4,972.8                                6,398.7                                 0.0

 Less: Offsetting receipts (-)                                                                            0.0                             (28,379.4)                                 0.0
 Net obligations                                                                                      4,972.8                             (21,980.7)                                 0.0

Other Resources
 Donations and
Department   offorfeitures
                 Defenseof property                                                                       0.0                                      0.0                               0.0
  TransfersWide
Agency        in/out without reimbursement (+/-)                                                       180.1                                       0.0                               0.0
  Imputed financing from
CONSOLIDATING               costs absorbed
                         STATEMENT      OFby   others
                                            FINANCING                                                  308.5                                       0.0                            (6.3)
For   the(+/-)
  Other    periods ended September 30, 2005 and 2004                                                (537.0)                                      0.0                                0.0
($Net
    in other
       Millions)
             resources used to finance activities                                   Other Defense (48.4)                 DoD Medicare-Eligible 0.0           Agency-Wide Component(6.3)
                                                                                 Organizations Working                  Retiree Health Care Fund
 Total resources used to finance activities                                          Capital Funds 4,924.4                                (21,980.7)                              (6.3)
Resources Used to Finance Items not Part
of the Net Cost of Operations

  Change in budgetary resources obligated for goods,
  services and benefits ordered but not yet provided
          Undelivered Orders (-)                                                                   (2,841.7)                                   (13.3)                                0.0
          Unfilled Customer Orders                                                                     (75.3)                                      0.0                               0.0
  Resources that fund expenses recognized in prior periods                                            (141.6)                                      0.0                               0.0
  Budgetary offsetting collections and receipts that                                                      0.0                                      0.0                               0.0
  do not affect net cost of operations
  Resources that finance the acquisition of assets                                                (31,624.8)                                       0.0                               0.0
  Other resources or adjustments to net obligated resources
  that do not affect net cost of operations
          Less: Trust or Special Fund Receipts Related to Exchange in the                                (5.8)                                     0.0                               0.0
Entity's Budgetof(-)Defense
Department
 The accompanying notes are an integral part of these statements.                           Page 66
          Other (+/-)                                                                                  351.1                                       0.0                               0.0
Agency Wide
  Total resources used to finance items not                                                       (34,338.1)                                   (13.3)                                0.0
CONSOLIDATING STATEMENT OF FINANCING
For  the
  part    periods
       of the        ended
              net cost       September 30, 2005 and 2004
                       of operations
($ in Millions)                                                                     Other Defense                        DoD Medicare-Eligible               Agency-Wide Component
  Total resources used to finance the net cost of                                                 (29,413.7)
                                                                                 Organizations Working                  Retiree Health Care(21,994.0)
                                                                                                                                            Fund                                 (6.3)
  operations                                                                         Capital Funds
Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future
Period:
  Increase in annual leave liability                                                                      0.0                                      0.0                               0.0
  Increase in environmental and disposal liability                                                       40.4                                      0.0                               0.0
  Upward/Downward reestimates of credit subsidy expense (+/-)                                             0.0                                      0.0                               0.0
  Increase in exchange revenue receivable from the the public (-)                                        55.1                                      0.0                               0.0
  Other (+/-)                                                                                             4.3                               33,594.1                                 0.0
  Total components of Net Cost of Operations that                                                        99.8                               33,594.1                                 0.0
  The accompanying notes are an integral part of these statements.                          Page 71
  will require or generate resources in future periods

Components not Requiring or Generating Resources:
  Depreciation and amortization                                                                        596.4                                       0.0                               0.0
  Revaluation of assets or liabilities (+/-)                                                          (343.3)                                      0.0                               0.0
  Other (+/-)
       Trust Fund Exchange Revenue                                                                        0.0                                  (33.0)                                0.0
       Cost of Goods Sold                                                                          30,386.3                                        0.0                               0.0
       Operating Material & Supplies Used                                                                37.2                                      0.0                               0.0
       Other                                                                                           751.9                                    (3.2)                                0.0
  Total components of Net Cost of Operations that                                                  31,428.5                                    (36.2)                                0.0
  will not require or generate resources

  Total components of net cost of operations that                                                  31,528.3                                 33,557.9                                 0.0
  will not require or generate resources in the current

  period

Net Cost of Operations                                                                                2,114.6                               11,563.9                              (6.3)




                                                                                  245
                                                                                                             DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
CONSOLIDATING STATEMENT OF FINANCING
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                   2005 Combined                     2004 Combined



Resources Used to Finance Activities:

Budgetary Resources Obligated
 Obligations incurred                                                        $                777,715.1         $                720,909.2
 Less: Spending authority from offsetting collections                                        (201,052.5)                        (181,281.0)
 and recoveries (-)
 Obligations net of offsetting collections and recoveries                                     576,662.6                          539,628.2

 Less: Offsetting receipts (-)                                                                (55,072.9)                         (46,546.4)
 Net obligations                                                                              521,589.7                          493,081.8

Other Resources
 Donations and
Department   of forfeitures
                 Defense of property                                                                   1.5                               0.4
  Transfers
Agency       in/out without reimbursement (+/-)
          Wide                                                                                      (14.3)                        (2,848.6)
  Imputed financing from
CONSOLIDATING              costs absorbed
                        STATEMENT      OF by  others
                                          FINANCING                                                4,465.3                           4,092.5
For  the(+/-)
  Other  periods ended September 30, 2005 and 2004                                             (2,168.5)                              0.6
($Net
   in Millions)
      other resources used to finance activities                                  2005 Combined 2,284.0             2004 Combined 1,244.9

 Total resources used to finance activities                                                   523,873.7                          494,326.7
Resources Used to Finance Items not Part
of the Net Cost of Operations

 Change in budgetary resources obligated for goods,
 services and benefits ordered but not yet provided
       Undelivered Orders (-)                                                                 (42,391.5)                         (13,925.6)
       Unfilled Customer Orders                                                                    5,748.6                          1,387.4
 Resources that fund expenses recognized in prior periods                                      (2,610.0)                          (2,637.4)
 Budgetary offsetting collections and receipts that                                                3,325.1                          2,645.4
 do not affect net cost of operations
 Resources that finance the acquisition of assets                                            (112,714.7)                         (86,943.6)
 Other resources or adjustments to net obligated resources
 that do not affect net cost of operations
        Less: Trust or Special Fund Receipts Related to Exchange in the                             (10.0)                            (10.0)
Entity's Budgetof
Department       (-)Defense
 The accompanying    notes are an integral part of these statements.                     Page 67
        Other (+/-)                                                                                2,176.3                          2,855.5
Agency Wide
  Total resources used to finance items not                                                  (146,476.2)                         (96,628.3)
CONSOLIDATING           STATEMENT OF FINANCING
For
  partthe  periods
       of the net costended   September 30, 2005 and 2004
                       of operations
($ in Millions)                                                                   2005 Combined                      2004 Combined
 Total resources used to finance the net cost of                                              377,397.5                          397,698.4
 operations
Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:

Components Requiring or Generating Resources in Future
Period:
 Increase in annual leave liability                                                                  615.1                            514.8
 Increase in environmental and disposal liability                                                  1,100.3                           3,864.6
 Upward/Downward reestimates of credit subsidy expense (+/-)                                           0.0                              14.9
 Increase in exchange revenue receivable from the the public (-)                                      40.5                            (73.8)
 Other (+/-)                                                                                  168,069.4                          139,064.9
 Total components of Net Cost of Operations that                                              169,825.3                          143,385.4
 will require or generate resources in future periods

Components not Requiring or Generating Resources:
 Depreciation and amortization                                                                    48,944.0                          42,249.2
 Revaluation of assets or liabilities (+/-)                                                        1,775.1                        (5,712.6)
 Other (+/-)
       Trust Fund Exchange Revenue                                                            (26,007.0)                         (24,285.4)
       Cost of Goods Sold                                                                         46,172.4                          41,421.8
       Operating Material & Supplies Used                                                            246.8                           4,655.9
       Other                                                                                      16,525.4                           5,952.2
 Total components of Net Cost of Operations that                                                  87,656.7                          64,281.1
  will not require or generate resources

 Total components of net cost of operations that                                              257,482.0                          207,666.5
 will not require or generate resources in the current

 period

Net Cost of Operations                                                                        634,879.5                          605,364.9



                                                                                 246
                                                                                                                  DoD Performance & Accountability Report FY2005
                       ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
COMBINING STATEMENT OF CUSTODIAL ACTIVITY
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                   Army General Fund                       Navy General Fund             Air Force General Fund



 SOURCE OF COLLECTIONS
      Deposits by Foreign Governments                                       $                         136.0           $                       0.0   $                            0.0
      Seized Iraqi Cash                                                                                     0.0                               0.0                                0.0
      Other Collections                                                                                     0.0                               0.0                                0.0
      Total Cash Collections                                                $                         136.0           $                       0.0   $                            0.0
      Accrual Adjustments (+/-)                                             $                               0.0       $                       0.0   $                            0.0
      Total Custodial Collections                                           $                         136.0           $                       0.0   $                            0.0
 DISPOSITION OF COLLECTIONS
      Disbursed on Behalf of Foreign Governments and                        $                              82.6       $                       0.0   $                            0.0
International Organizations
      Seized Assets Disbursed on behalf of Iraqi People                                                    52.1                               0.0                                0.0
      Increase (Decrease) in Amounts to be Transferred                                                     53.4                               0.0                                0.0
      Collections Used for Refunds and Other Payments                                                       0.0                               0.0                                0.0
      Retained by The Reporting Entity                                                                      0.0                               0.0                                0.0
      Seized Assets Retained for Support of the Iraqi People                                          (52.1)                                  0.0                                0.0
      Total Disposition of Collections                                      $                         136.0           $                       0.0   $                            0.0
 NET CUSTODIAL COLLECTION ACTIVITY                                          $                               0.0       $                       0.0   $                            0.0




Department of Defense
Agency Wide
COMBINING STATEMENT OF CUSTODIAL ACTIVITY
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                 Military Retirement Fund                  US Army Corps of                 Other Defense
                                                                                                                             Engineers                  Organizations General
                                                                                                                                                               Funds
 SOURCE OF COLLECTIONS
      Deposits by Foreign Governments                                       $                               0.0       $                       0.0   $                     10,557.1
      Seized Iraqi Cash                                                                                     0.0                               0.0                                0.0
      Other Collections                                                                                     0.0                               0.0                                0.0
      Total Cash Collections                                                $                               0.0       $                       0.0   $                     10,557.1
      Accrual Adjustments (+/-)                                             $                               0.0       $                       0.0   $                            0.0
      Total Custodial Collections                                           $                               0.0       $                       0.0   $                     10,557.1
 DISPOSITION OF COLLECTIONS
      Disbursed on Behalf of Foreign Governments and                        $                               0.0       $                       0.0   $                     10,988.1
International Organizations
      Seized Assets Disbursed on behalf of Iraqi People                                                     0.0                               0.0                                0.0
      Increase (Decrease) in Amounts to be Transferred                                                      0.0                               0.0                           (431.0)
      Collections Used for Refunds and Other Payments                                                       0.0                               0.0                                0.0
      Retained by The Reporting Entity                                                                      0.0                               0.0                                0.0
      Seized Assets Retained for Support of the Iraqi People                                                0.0                               0.0                                0.0
      Total Disposition of Collections                                      $                               0.0       $                       0.0   $                     10,557.1
 NET CUSTODIAL COLLECTION ACTIVITY                                          $                               0.0       $                       0.0   $                            0.0




                                                                                247
                                                                                                            DoD Performance & Accountability Report FY2005
                       ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
COMBINING STATEMENT OF CUSTODIAL ACTIVITY
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                   2005 Combined                      2004 Combined



 SOURCE OF COLLECTIONS
      Deposits by Foreign Governments                                       $                 10,693.1          $                11,237.5
      Seized Iraqi Cash                                                                              0.0                              118.3
      Other Collections                                                                              0.0                                 0.0
      Total Cash Collections                                                $                 10,693.1          $                11,355.8
      Accrual Adjustments (+/-)                                             $                        0.0        $                        0.9
      Total Custodial Collections                                           $                 10,693.1          $                11,356.7
 DISPOSITION OF COLLECTIONS
      Disbursed on Behalf of Foreign Governments and                        $                 11,070.7          $                    9,998.8
International Organizations
      Seized Assets Disbursed on behalf of Iraqi People                                             52.1                              283.1
      Increase (Decrease) in Amounts to be Transferred                                            (377.6)                            1,239.5
      Collections Used for Refunds and Other Payments                                                0.0                                 0.0
      Retained by The Reporting Entity                                                               0.0                                 0.0
      Seized Assets Retained for Support of the Iraqi People                                       (52.1)                            (164.7)
      Total Disposition of Collections                                      $                 10,693.1          $                11,356.7
 NET CUSTODIAL COLLECTION ACTIVITY                                          $                        0.0        $                        0.0




                                                                                248
                                                                                             DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information


                         Required Supplementary Stewardship Information
Heritage Assets

                                      DEPARTMENT OF DEFENSE CONSOLIDATED HERITAGE ASSETS
                                              For Fiscal Year Ended September 30, 2005
                                                        Unit of               As of                                                  As of
                      Categories                                                              Additions         Deletions
                                                       Measure               10/01/04                                               9/30/05
  Museums                                                Each                      166                 75                                  241
  Monuments & Memorials                                  Each                     2,087                                  77               2,010
  Cemeteries & Archeological Sites                       Sites                   25,694            68,833                56             94,471
  Buildings and Structures                               Each                    23,533             1,778                                25,311
  Major Collections                                      Each                           12             78                                     90


Heritage Assets are real and personal property with importance at the national level due to their significant
historical (e.g., buildings on the National Registry of Historical Buildings), natural, cultural, educational,
artistic, architectural, or, aesthetic value. Heritage Assets can include museums and/or their collections, art and
other collections, archival records, cemeteries, monuments and memorials, and archeological sites.

Establishing items as having heritage significance varies among categories and type of assets. Subject matter
experts, criteria such as listing on the National Register of Historic Places, and Federal statutes, all play a
significant role in characterizing these assets.

The FY 2005 categories are defined as follows:

Museums. Buildings that house collection-type items including artwork, archeological artifacts, archival
materials, and other historical artifacts. The primary use of such buildings is the preservation, maintenance and
display of collection-type Heritage Assets.

Monuments and Memorials. Sites and structures built to honor and preserve the memory of significant
individuals and/or events in history.

Cemeteries and Archeological Sites. Land on which gravesites of prominent historical figures are located,
honored individuals, and/or items of archeological significance are located.

Buildings and Structures. Includes buildings and structures that are listed on, or are eligible for listing on,
the National Register of Historic Places, including Multi-Use Heritage Assets. These buildings do not include
museums.

Major Collections. Significant collections that are maintained outside of a museum.




                                                                       249
                                                                                           DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information

Stewardship Land

                                     DEPARTMENT OF DEFENSE CONSOLIDATED STEWARDSHIP LAND
                                              For Fiscal Year Ended September 30, 2005
                                                     As of                                                                         As of
                 Land Use                                                    Additions                     Deletions
                                                    10/01/04                                                                      9/30/05
                                                                                      (Acres in Thousands)
  Mission                                                    16,664                         5                                            16,669
  Parks and Historic Sites                                        1                        --                          --                        1
  Total                                                      16,665                                                                      16,700


Stewardship Land is land that is not acquired for, or in connection with, items of General Property, Plant and
Equipment. All land, regardless of its use, provided to the Department from the Public Domain, or at no cost,
is classified as Stewardship Land. Stewardship Land is reported in physical units (acres) rather than cost or fair
value.


Nonfederal Physical Property

                             DEPARTMENT OF DEFENSE CONSOLIDATED NONFEDERAL PHYSICAL PROPERTY
                                        Annual Investments in State and Local Governments
                                                For Fiscal Years 2001 through 2005

                                                  FY 2001             FY 2002              FY 2003                FY 2004           FY 2005
                Categories
                                                                                     (In Millions of Dollars)
  Transferred Assets:
    National Defense Mission Related                        $95                 $7                   $85                    $54             $71
  Funded Assets:
    National Defense Mission Related                        $20               $21                    $11                    $18               $8
  Total                                                  $115                 $28                    $96                    $72             $79


The Department incurs investments in Nonfederal Physical Property for the purchase, construction, or major
renovation of physical property owned by state and local governments, including major additions, alterations,
and replacements, and the purchase of major equipment; and the purchase or improvement of other physical
assets. In addition, Nonfederal Physical Property Investments include federally-owned physical property
transferred to state and local governments.

Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures).
Outlays are used because current DoD accounting systems are unable to capture and summarize costs in
accordance with Federal Accounting Standards Advisory Board requirements.




                                                                       250
                                                                                            DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information

Investments In Research And Development

                      DEPARTMENT OF DEFENSE CONSOLIDATED INVESTMENTS IN RESEARCH AND DEVELOPMENT
                                        Annual Investments in Research and Development
                                               For Fiscal Years 2001 through 2005

                                                           FY 2001            FY 2002           FY 2003               FY 2004        FY 2005
                     Categories
                                                                                           (In Millions of Dollars)
  Basic Research                                               $1,311            $1,356               $1,444             $1,554          $1,404
  Applied Research                                              3,843             4,311                4,388              4,639            4,527
  Development
    Advanced Technology Development                             4,383             4,604                5,080              6,178            7,045
    Demonstration and Validation                                8,166            10,525               11,928             14,779          15,971

    Engineering and Manufacturing Development                   8,831             9,500               11,234             14,633          16,190

    Research, Development, Test & Evaluation
                                                                2,946             3,351                3,210              4,188            4,431
      Management Support
    Operational Systems Development                            11,000            11,804               12,289             14,906          16,324
  Total                                                      $40,480            $45,451             $49,573             $60,877         $65,892


Investment values included in this report are based on Research, Development, Test and Evaluation (RDT&E)
outlays (expenditures). Outlays are used because current DoD accounting systems are unable to capture and
summarize costs in accordance with the Federal Accounting Standards Advisory Board requirements.

The DoD Research and Development programs are classified in the following categories: Basic Research,
Applied Research, and Development. The following table presents representative program examples for each of
the major Research and Development categories and highlights outcomes.




                                                                        251
                                                                                                         DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information


                                           Department of Defense Investment in Research and Development
         Major Program Areas                                                                          Outcomes

Basic Research
Systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and of observable facts

•	 Without specific applications, processes, or products in mind

Defense Research Sciences                      •	 Provides new technologies for the Army’s Future Force, and fosters innovation in niche areas where investment is
                                                  lacking due to limited markets.
University and Industry Research               •	 Leverages research in the private sector through Collaborative Technology Alliances, Centers of Excellence,
Centers                                           and the University Affiliated Research Centers. Partners with academia, entertainment and gaming industries to
                                                  leverage innovation research and concepts for training and design.
Digital Signal Processing                      •	 Improved digital signal processing through holography. Holographic technology enables systems to record events
                                                  in nanoseconds. Advances could lead to significant improvements in our capability to track and identify enemy
                                                  aircraft and missile threats.
Studying Dolphins to Improve Sonar             •	 Improved sonar capabilities that can be leveraged in military, scientific, and natural science applications.
Techniques
Stress and Mutations - New Method              •	 Elimination of antibiotic resistance by Identifying biochemical compounds that prevent mutation of bacteria.
of Fighting Antibiotic Resistance by
Stopping Evolution
Improved Semiconductor Devices                 •	 Enables improved electronics that can perform in harsh environments. Possible applications include: remote-
                                                  sensing platforms, light-emitting diodes, laser diodes for optical data storage, solar-blind shield surveillance
                                                  systems, and biological agent detectors.
Biological Simulation Program for Intra-       •	 Cutting-edge computer modeling, simulation and analysis program, that allows researchers to use molecular
Cell Evaluation (Bio-SPICE)                       methods to detect and assess the threat from pathogens, and to develop radically new methods of molecular
                                                  medicine for soldier health protection.
                                               •	 Bio-SPICE will all be used to study and develop interventions both natural (immunologic) and therapeutic
                                                  (pharmacologic).
Magnetism without Magnets                      •	 New and unique way to obtain spin polarized carriers without having ferromagnetic injectors or contacts. This
                                                  effect is very sensitive to any applied magnetic field and thus is a way to simplify structures non-magnetically and
                                                  can be immediately applied for military magnetic field sensing.

Applied Research
Systematic study to understand the means to meet a recognized specific national security requirement

•	 Systematic application of knowledge to develop useful materials, devices, and system or methods
Materials Technology                           •	 Matures materials technology for armor and armaments lethality and survivability capabilities to be fielded in the
                                                  Future Combat Systems and Future Force systems.
                                               •	 Translates new nanomaterials concepts into applications to increase performance and reduce weight of soldier
                                                  support equipment, armor, armaments, aircraft, and ground combat vehicles.
Combat Vehicle and Automotive                  •	 Improves survivability, mobility, sustainability, and maintainability of Army ground vehicles.
Technology                                     •	 Supports transformation goals by reducing reliance on heavy passive armor using a layered approach,
                                                  substituting long-rang situational awareness, multi-spectral signature reduction, active protection systems and
                                                  advanced lightweight armor.
                                               •	 Advanced technologies for critical power, propulsion and electric components, including energy storage, power
                                                  distribution and pulse forming networks.
Scientists Create World’s Tiniest              •	 Creation of particles, measured in hundreds of nanometers, for carrying genetic material, pharmaceuticals and
Organic Particles                                 other compounds of unprecedented small size and uniformity into the human body.
                                               •	 Profound positive impact on future human health care, including chemotherapy, gene therapy, disease detection
                                                  and drug delivery.
Expeditionary Unit Water Purifier              •	 Mobile water purification systems that can be airlifted using transport planes to provide potable water for
                                                  reconstruction, humanitarian aid and disaster relief.
                                               •	 Treatment of water from a variety of sources including turbid or saline water, and feed water that has nuclear,
                                                  biological or chemical contamination.



                                                                                 252
                                                                                                       DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information


                                         Department of Defense Investment in Research and Development
        Major Program Areas                                                                         Outcomes
Therapy for Sleep Deprivation                 •	 Identification of biochemical pathways that account for inter-individual differences in sleep requirements, the
                                                 characterization of sleep deprivation resistant brain pathways, nutraceutical interventions for neuron preservation
                                                 and enhanced learning, and novel pharmaceutical approaches that target sleep induced changes in neural
                                                 signaling. The first potential transition from this program is an ampakine compound that completely reverses
                                                 defects in memory and psychomotor performance caused by sleep deprivation.
Chip-Scale Atomic Clock                       •	 Development of a small and power efficient atomic clock for use in portable applications that depend heavily on
                                                 accurate timing, including jam-resistant global positioning systems, high security communications with ultra-
                                                 fast frequency hopping rates or long silence intervals, high-channel density communications, high-confidence
                                                 identification of friends or foes, and missile and even munitions guidance.
High Energy Liquid Laser Area Defense         •	 A revolutionary 150 kW high energy laser weapon system for use on tactical platforms at a system weight of 750
System                                           kg (5kg/kW) or less.
Kits for Armored Gun Truck for Convoy         •	 Development of a “Gun Truck” to escort convoys of unarmored or lightly armored vehicles by retrofitting standard
Escort                                           5-ton trucks with kits including steel and armor panels and other hardware. An early prototype truck has been
                                                 operational in theater with 7th Transportation Battalion for 6 months, and 8 of the newly arrived kits have been
                                                 fully assembled and are ready for use.

Development
Takes what has been discovered or learned from basic and applied research and uses it to establish:
 •	 Technological feasibility
 •	 Assessment of operability
 •	 Production capability

Development is comprised of five stages:
 •	 Advanced technology development
 •	 Advanced component development and prototypes
 •	 System development and demonstration
 •	 RDT&E management support
 •	 Operational systems development
Test Ranges & Facilities                      Sustains the Department’s required developmental test and evaluation capability and operates the developmental
and RDT&E Management Support                  test activities required by weapons systems developers.
                                              •	 Operates White Sands Missile Range (NM), Aberdeen Test Center (MD), Yuma Proving Ground (AZ), Aviation
                                                 Technical Test Center (AL) and Redstone Arsenal (AL).
                                              •	 Supports R&D efforts and includes test ranges, military construction, maintenance support of laboratories, and
                                                 O&M of test aircraft and ships.
                                              •	 Funds the planning, improvements and modernization for three national asset test centers.
                                                   -	 Two efforts utilizing these unique test capabilities are the Propulsion Wind Tunnel Upgrade at Arnold
                                                       Engineering Development Center and the Threat Simulator Development/Low Radar Cross Section threat
                                                       modeling and simulation
                                              •	 Provides resources for test planning and safety verification and confirmation.
                                              •	 Achieved successful launches of military satellites, utilizing Titan and Atlas & Delta.
                                              •	 Develops the Family of Advanced Beyond Line of Sight Terminals (FAB-T) to provide robust, secure, strategic and
                                                 tactical global communications for nuclear and conventional forces.
Electronic Warfare Advanced                   •	 Provides technologies for a secure, mobile, wireless network that operates in diverse and complex terrain.
Technology                                    •	 Also matures:
                                                 -	 Protection technologies for tactical wireless networks
                                                 -	 Smart communication technologies to enable network and control of unmanned systems shortening the
                                                    sensor-decider-engagement time to defeat critical targets.
Advanced Tank Armament System                 •	 Improves the deployability and operational effectiveness of rapid response/early entry forces.
                                              •	 Provides immediate response by a lethal, versatile, tactically agile joint force capable of operational maneuver
                                                 once in the Area of Operations
                                              •	 Leverages common platform/common chassis design which reduces requirements for repair parts and logistics
                                                 support in the area of operations.
Multiple Launch Rocket System (MLRS)          •	 Supports improvements to MLRS: High Mobility Artillery Rocket System (HIMARS), M270A1, Guided Multiple
Product Improvement Program                      Launch Rocket System (GMLRS) and GMLRS Unitary munition which provide precision strike capability.




                                                                               253
                                                                                                       DoD Performance & Accountability Report FY2005
              ..................................................................................................Part 3: Financial Information


                                          Department of Defense Investment in Research and Development
        Major Program Areas                                                                         Outcomes
Unmanned Aerial Vehicles Collaborate         •	 Initiation of the Joint Operational Test Bed System with the goal of improving the war fighting capabilities of
                                                unmanned aerial vehicles using a communications network between the vehicles and base stations.
Fast and Flexible, X-CRAFT/ 'Sea             •	 Development of new Littoral Combat Ships (LCS) that are fast, highly maneuverable in shallow waters with
Fighter' May Transform Naval Warfare            minimal crew. Designed to help the Navy fight modern-day battles in ways that hulking battleships and giant
                                                aircraft carriers can not. The new class of ships is designed for patrolling coastlines, dropping mines or sensors,
                                                delivering assault teams, and intercepting or outrunning small terrorist boats. At the same time, they are designed
                                                to carry enough missiles and other weapons to bombard a good-sized city or support battlefield troops hundreds
                                                of miles inland.
Aluminum Combustor Demonstration             •	 Igniting and fully reacting aluminum with seawater vapor and integration of this technology into undersea power
Program                                         generating systems that power torpedoes and mini-subs.
Advanced Component Development and           Comprises programs of system specific advanced technology integration efforts in an operational environment.
Prototypes                                   •	 Demonstrates Fighter Aircraft Command and Control Enhancement, providing improved, beyond-line-of-sight
                                                command and control line with fighter aircraft.
Space Based Infrared System (SBIRS)          •	 Continues development for the Transformational Satellite Communications System (TSAT), the next-generation
                                                communication satellite.
                                             •	 Delivers the Counter Communications System, now operational, which is a transportable ground-based system
                                                that denies adversary satellite communications through reversible, non-destructive methods.
Air Defense Command, Control and             •	 Integrates Air and Missile Defense (AMD) operations.
Intelligence -- Engineering Development      •	 Provides joint command and control interoperability and horizontal integration with Patriot, the Terminal High-
                                                Altitude Area Defense (THAAD) program, the Medium Extended Air Defense System (MEADS), the Joint Land
                                                Attack Cruise Missile Defense Elevated Netted Sensor System (JLENS) and short-range air defense weapon
                                                systems.
System Demonstration and Engineering         Further develops projects which have not received approval for full production:
Development (SD&ED)                          •	 Space Based Infrared System Increment 1 Mission Control System (MCS), which reduces manpower by 58% and
                                                operations and maintenance costs by 25%
                                             •	 F/A-22 Raptor program, continuing development of the Air Force’s next-generation air dominance fighter.
                                                Significant accomplishments include:
                                                  -	 Completion of Fatigue Testing through 2.68 lifetimes
                                                  -	 Commencement of Initial Operational Test and Evaluation
                                                  -	 Completion of multiple supersonic AMRAAM and AIM-9 missile shots
                                                  -	 Exceeding over 3,100 flight test missions
                                             •	 F-35 Joint Strike Fighter program, developing a family of strike fighter aircraft with maximum commonality among
                                                the variants to minimize life cycle costs. Significant accomplishments include:
                                                  -	 Completion of the Air System Design Integration and Maturity Review
                                                  -	 Pratt & Whitney F135 First Engine to Test
                                                  -	 General Electric F136 First Engine to Test




                                                                               254
                                                                                            DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information


                                         Required Supplementary Information

Deferred Maintenance of Real Property
Sustainment is the maintenance and repair activities necessary to keep the Department’s real property
(buildings, structures, and utilities) in good working order. It includes regularly scheduled adjustments and
inspections, preventive maintenance tasks, and emergency response and service calls for minor repairs. It
also includes major repairs or replacement of facility components (usually accomplished by contract) that
are expected to occur periodically throughout the life cycle of facilities. This work includes regular roof
replacement, refinishing of wall surfaces, repairing and replacement of heating and cooling systems, replacing
tile and carpeting, and similar types of work. It does not include environmental compliance costs, facility
leases, or other tasks associated with facilities operations (such as custodial services, grounds services, waste
disposal, and the provision of central utilities). The Department’s fiscal year 2005 sustainment requirements
were $7.8 billion and DoD received $6.0 billion to fund these requirements leaving a deferred sustainment
requirement of $1.8 billion this year. Deferred sustainment amounts were derived from the Facility
Sustainment Model (FSM) output for requirements, subtracting out appropriate fiscal year execution amounts.
The Department’s deferred sustainment trend for the past few years is summarized in the table below:

                                                Annual Deferred Sustainment Trend ($ Millions)
             Property Type                   FY 2000          FY 2001          FY 2002           FY2003            FY2004            FY2005
  Buildings, Structures, and Utilities           $629*           $2,036            $1,762           $1,555            $2,127             $1,876
*Army data only

Restoration is the restoration of the Department’s real property (buildings, structures, and utilities) to such
a condition that it may be used for its designated purpose. Restoration includes repair or replacement work
to restore facilities damaged by inadequate sustainment, excessive age, natural disaster, fire, accident, or
other causes. Modernization is the alteration or replacement of facilities solely to implement new or higher
standards, to accommodate new functions, or to replace building components that typically last more than
50 years (such as the framework or foundation).

The Department’s restoration and modernization requirements have steadily increased over the past few years
from $41.2 billion in fiscal year 2002, to $73.6 billion in fiscal year 2004. Beginning in fiscal year 2005, the
Department began transitioning to a more consistent and verifiable methodology to assess the total restoration
and modernization requirements of the facilities portfolio, using a standardized quality rating system (Q rating)
to replace the former Service-defined condition ratings. This transition is still in progress and will not be fully
implemented and validated until early 2006. During the transition, the Department is unable to report its
backlog of R&M requirements.

The United States Army Corps of Engineers reports $1,200 of deferred maintenance for water resources
projects. This amount is reported separately due to the nature of the projects and the different methodology
used to calculate the amount reported.



                                                                        255
                                                                                                 DoD Performance & Accountability Report FY2005
                  ..................................................................................................Part 3: Financial Information

Deferred Maintenance of Military Equipment
Depot maintenance requirements for military equipment are developed during the annual budget process.
The depot maintenance requirements for individual items are determined by considering numerous factors.
Analysis factors include: changes in the fleet size or in-use inventory; the date of last overhaul or operating
hours since last overhaul; the current maintenance engineering plan expressed as a time interval or as an
operational factor; and the planned operating tempo expressed in miles, flying hours, or steaming hours.

The depot maintenance cost for each major program is determined using costing models. Fiscal constraints
determine requirements that are funded. The deferred maintenance numbers reported in the table above reflect
the difference. The DoD Components’ financial statements contain detailed information on each program.

                                Military Equipment Type	                           Deferred Maintenance
                                	                                                                    ($ millions)
                                Aircraft	                                                              $200.4
                                Ships	                                                                   54.2
                                Missiles	                                                                71.3
                                Combat Vehicles	                                                        191.0
                                Other Weapon Systems	                                                   435.4
                                Total	                                                                 $952.3


Intragovernmental Amounts
The intragovernmental amounts displayed in the following schedules represent transactions between the
department and other federal entities.


                                                            Schedule A - Intragovernmental Assets
                                                                 As of September 30, 2005
                                                                      Treasury       Fund Balance        Accounts
                             Trading Partner                                                                                 Investments   Other
                                                                        Index        with Treasury       Receivable
                                                                                                     (Amounts in millions)
  Unidentifiable Federal Agency Entity (Other than DoD entities)             00                                  $0.5                                
  Architect of the Capitol                                                   01                                     0.1
  Government Accountability Office                                           05                                     0.1
  Executive Office of the President                                          11                                     2.1
  Department of Agriculture                                                  12                                  17.3                          $0.6
  Department of Commerce                                                     13                                     6.7                        17.4
  Department of the Interior                                                 14                                 374.3                         933.2
  Department of Justice                                                      15                                  39.3                              1.3
  Department of Labor                                                        16                                     7.1
  United States Postal Service                                               18                                     0.8
  Department of State                                                        19                                  43.2

                                                                             256
                                                                                                  DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information


                                                          Schedule A - Intragovernmental Assets
                                                               As of September 30, 2005
                                                                    Treasury          Fund Balance           Accounts
                        Trading Partner                                                                                         Investments    Other
                                                                      Index           with Treasury          Receivable
                                                                                                      (Amounts in millions)
Department of the Treasury                                                 20            $290,657.1                  8.6         $263,367.8             0.2
Resolution Trust Corporation                                               22                                        0.1
Office of Personnel Management                                             24                                                                         167.2
Social Security Administration                                             28                                        0.2
Nuclear Regulatory Commission                                              31                                        0.1
John F. Kennedy Center                                                     33                                        0.9
Department of Veterans Affairs                                             36                                       30.1
General Service Administration                                             47                                       21.3                                2.3
National Science Foundation                                                49                                       13.7                                1.6
Central Intelligence Agency                                                56                                       45.7
Tennessee Valley Authority                                                 64                                        0.1
Environmental Protection Agency                                            68                                       19.7                               15.6
Department of Transportation                                               69                                       60.0                              103.5
Homeland Security                                                          70                                     398.7                                71.6
Agency for International Development                                       72                                        1.4
Small Business Administration                                              73                                        4.6                                0.6
Department of Health and Human Services                                    75                                       29.5                                0.1
National Aeronautics and Space Administration                              80                                       34.8                               69.3
Armed Forces Retirement Home                                               84                                        0.4
Department of Housing and Urban Development                                86                                        0.4
Department of Energy                                                       89                                       90.2                                9.7
Department of Education                                                    91                                        1.6
Independent Agencies                                                       95                                       19.3
The General Fund of the Treasury                                           99                                       18.4

TOTAL                                                                                    $290,657.1             $1,291.3         $263,367.8     $1,394.2



                                                        Schedule B - Intragovernmental Liabilities
                                                               As of September 30, 2005
                                                                                             Accounts             Debts/Borrowings
                          Trading Partner                            Treasury Index                                                           Other
                                                                                              Payable            From Other Agencies
                                                                                                        (Amounts in millions)
Unidentifiable Federal Agency Entity (Other than DoD entities)                   00
Library of Congress                                                              03
Government Printing Office                                                       04                   $3.4                                             $6.8
Executive Office of the President                                                11                                                                    46.8
Department of Agriculture                                                        12                   11.2                                              0.7


                                                                           257
                                                                                           DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information


                                                  Schedule B - Intragovernmental Liabilities
                                                         As of September 30, 2005
                                                                                      Accounts             Debts/Borrowings
                          Trading Partner                       Treasury Index                                                       Other
                                                                                       Payable            From Other Agencies
                                                                                                 (Amounts in millions)
Department of Commerce                                                       13               8.5                                              1.2
Department of the Interior                                                   14              35.3                                              1.0
Department of Justice                                                        15               8.7                                             93.6
Department of Labor                                                          16              19.6                                        1,651.7
United States Postal Service                                                 18               1.7
Department of State                                                          19              26.3                                             11.2
Department of the Treasury                                                   20             290.2                        $467.1              175.6
Office of Personnel Management                                               24              43.2                                            288.8
Federal Communications Commission                                            27               2.3
Nuclear Regulatory Commission                                                31               0.2                                              0.6
John F. Kennedy Center                                                       33                                                                1.0
Department of Veterans Affairs                                               36              17.7                                              1.0
General Service Administration                                               47           1,032.1                                              1.9
National Science Foundation                                                  49               5.0                                             22.0
Central Intelligence Agency                                                  56                                                                0.3
Consumer Product Safety Commission                                           61                                                                0.1
Tennessee Valley Authority                                                   64               9.5
Environmental Protection Agency                                              68              10.7
Department of Transportation                                                 69              96.1                                              1.6
Homeland Security                                                            70             145.9                                            140.0
Agency for International Development                                         72              11.8                                              0.2
Small Business Administration                                                73               0.2                                            (0.1)
Department of Health and Human Services                                      75               2.9                                             50.7
National Aeronautics and Space Administration                                80              93.7                                              0.7
Department of Housing and Urban Development                                  86                                                              (0.1)
Department of Energy                                                         89             163.9                                              9.2
Department of Education                                                      91               0.1                                              0.2
Independent Agencies                                                         95              (0.4)                                             0.3
The General Fund of the Treasury                                             99              18.2                                        8,643.8

TOTAL                                                                                    $2,058.0                        $467.1        $11,150.8




                                                                       258
                                                                                            DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information

                                                   Schedule C - Intragovernmental Earned Revenues
                                                              As of September 30, 2005
                                          Trading Partner                                           Treasury Index              Earned Revenue
                                                                                                               (Amounts in millions)
Unidentifiable Federal Agency Entity (Other than DoD entities)                                                       00                      $0.6
Architect of the Capitol                                                                                             01                          9.8
Library of Congress                                                                                                  03                          4.1
Government Printing Office                                                                                           04                          2.5
Government Accountability Office                                                                                     05                          2.4
Executive Office of the President                                                                                    11                     141.1
Department of Agriculture                                                                                            12                      86.8
Department of Commerce                                                                                               13                      64.1
Department of the Interior                                                                                           14                      54.0
Department of Justice                                                                                                15                     336.3
Department of Labor                                                                                                  16                      12.3
United States Postal Service                                                                                         18                          6.2
Department of State                                                                                                  19                     412.7
Department of the Treasury                                                                                           20                  13,199.1
Resolution Trust Corporation                                                                                         22                          0.2
Office of Personnel Management                                                                                       24                      11.8
National Credit Union Administration                                                                                 25                          2.2
Social Security Administration                                                                                       28                          0.4
Nuclear Regulatory Commission                                                                                        31                          2.4
John F. Kennedy Center                                                                                               33                      12.2
Department of Veterans Affairs                                                                                       36                      62.1
Merit Systems Protection Board                                                                                       41                          0.7
General Service Administration                                                                                       47                      62.7
National Science Foundation                                                                                          49                      91.6
Advisory Commission on Intergovernmental Relations                                                                   55                          0.2
Central Intelligence Agency                                                                                          56                     346.5
Tennessee Valley Authority                                                                                           64                          0.3
Environmental Protection Agency                                                                                      68                     105.0
Department of Transportation                                                                                         69                     238.9
Homeland Security                                                                                                    70                   2,230.9
Agency for International Development                                                                                 72                      94.6
American Battle Monuments                                                                                            74                          0.1




                                                                        259
                                                                                                      DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information


                                                    Schedule C - Intragovernmental Earned Revenues
                                                               As of September 30, 2005
                                            Trading Partner                                                   Treasury Index               Earned Revenue
Department of Health and Human Services                                                                                         75                        148.4
National Aeronautics and Space Administration                                                                                   80                        318.3
Export-Import Bank of the United States                                                                                         83                            1.0
Department of Housing and Urban Development                                                                                     86                            1.2
National Archives and Records Administration                                                                                    88                            0.1
Department of Energy                                                                                                            89                        153.9
Department of Education                                                                                                         91                            8.9
Independent Agencies                                                                                                            95                           37.5

TOTAL                                                                                                                                                $18,264.1



                                                         Scedule D - Intragovernmental Gross Cost
                                                                 As of September 30, 2005

                                    Budget Functional Classification                                       Budget Function Code              Gross Cost

                                                                                                                          (Amounts in millions)
Department of Defense Military                                                                                                 051                   $23,280.9
Water Resources by U.S. Army Corps of Engineers                                                                                301                        942.6
Pollution Control and Abatement by U.S. Army Corps of Engineers                                                                304                            2.5
Veterans Education, Training, and Rehabilitation by Department of Defense Education Benefits Trust
                                                                                                                               702                        284.0
Fund

TOTAL                                                                                                                                                $24,510.0



                                                 Schedule E - Intragovernmental Nonexchange Revenues
                                                                 As of September 30, 2005

                               Trading Partner                                      Treasury Index:              Transfers In                Transfers Out

                                                                                                              (Amounts in millions)
Executive Office of the President                                                                     11                  $2,866.5
Department of the Interior                                                                            14                        58.1                         $3.2
Department of the Treasury                                                                            20                         0.0                          9.4
Office of Personnel Management                                                                        24                         0.0                         16.3
Tennessee Valley Authority                                                                            64                         0.0                          0.2
Department of Transportation                                                                          69                         1.6
Homeland Security                                                                                     70                         0.0                          1.7
Department of Energy                                                                                  89                       228.2
The General Fund of the Treasury                                                                      99                       900.1                      861.6

TOTAL                                                                                                                     $4,054.5                     $892.4




                                                                              260
                                                                                                                    DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Statement of Disaggregated Budgetary Resources

Department of Defense
Agency Wide
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                   Military Retirement Fund                      Other                   Research, Development,
                                                                                                                                                           Test & Evaluation

BUDGETARY RESOURCES

   Budget Authority:
       Appropriations received                                               $                        77,300.8          $               59,258.3    $                    66,695.7
       Borrowing authority                                                                                   0.0                             0.0                                 0.0
       Contract authority                                                                                    0.0                           367.0                                 0.0
       Net transfers (+/-)                                                                                   0.0                        (2,868.6)                          (466.7)
       Other                                                                                                 0.0                             0.0                                 0.0
   Unobligated balance:

       Beginning of period                                                                               206.6                           7,730.1                           8,157.7
       Net transfers, actual (+/-)                                                                           0.0                        (3,670.5)                           135.6
         Anticipated Transfers Balances                                                                      0.0                             0.0                                 0.0
   Spending authority from offsetting collections:
       Earned                                                                                                0.0                             0.0                                 0.0
         Collected                                                                                           0.0                         3,415.6                           7,677.3
         Receivable from Federal sources                                                                     0.0                         (190.5)                            157.0
       Change in unfilled customer orders                                                                    0.0                             0.0                                 0.0
         Advance received                                                                                    0.0                           (22.6)                           286.8
         Without advance from Federal sources                                                                0.0                           (93.1)                          1,573.1
       Anticipated for the rest of year, without advances                                                    0.0                             0.0                                 0.0
     Transfers
Department     from trust funds
            of Defense                                                                                       0.0                             0.0                                 0.0
    Subtotal
Agency Wide                                                                                                  0.0                         3,109.4                           9,694.2
STATEMENT     OFprior
  Recoveries of   DISAGGREGATED
                      year obligations BUDGETARY RESOURCES                                                   0.0                         1,687.0                           2,543.7
For the periods
  Temporarily notended  September
                  available pursuant30,  2005 and
                                      to Public Law2004                                              (31,845.3)                            (20.2)                              0.0
 ($ in Millions)                                                                  Military Retirement Fund                      Other                 Research, Development,
   Permanently not available                                                                                0.0                          (531.7)                         (1,231.0)
                                                                                                                                                         Test & Evaluation
   Total Budgetary Resources                                                 $                        45,662.1          $               65,060.8    $                    85,529.2
STATUS OF BUDGETARY RESOURCES

    Obligations incurred:
       Direct                                                                 $                       45,564.9          $               52,764.7    $                    65,792.0
       Reimbursable                                                                                           0.0                        2,380.3                          9,812.3
        Subtotal                                                                                      45,564.9                          55,145.0                         75,604.3
    Unobligated balance:
        Apportioned                                                                                          97.2                        7,480.1                          9,699.7
        Exempt from apportionment                                                                             0.0                           96.8                                 0.0
       Other available                                                                                        0.0                            0.0                                 0.0
    Unobligated Balances Not Available                                                                        0.0                        2,338.9                            225.2
    Total, Status of Budgetary Resources                                      $                       45,662.1          $               65,060.8    $                    85,529.2

Relationship of Obligations to Outlays:
    Obligated Balance, Net -? beginning of period                             $                        3,382.3          $                8,112.2    $                    27,233.4
    Obligated Balance transferred, net (+/-)                                                                  0.0                            0.0                                 0.0
    Obligated Balance, Net -? end of period:
        Accounts receivable                                                                                   0.0                          (78.1)                          (812.6)
       Unfilled customer order from Federal sources                                                           0.0                        (157.5)                         (4,523.7)
       Undelivered orders                                                                                146.2                           4,112.3                         32,029.9
        Accounts payable                                                                               3,562.8                           4,323.2                          1,965.7
    Outlays:
       Disbursements                                                                                  45,238.3                          53,654.1                         69,904.6
       Collections                                                                                            0.0                       (3,393.0)                        (7,964.2)
        Subtotal                                                                                      45,238.3                          50,261.1                         61,940.4
    Less: Offsetting receipts                                                                       (51,276.4)                          (2,051.8)                            0.0

    Net Outlays                                                               $                       (6,038.1)         $               48,209.3    $                    61,940.4



                                                                                   261
                                                                                                                DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                       Civil Works                        Operation and                   Procurement
                                                                                                                         Maintenance

BUDGETARY RESOURCES

   Budget Authority:
      Appropriations received                                               $                        5,987.9       $                  167,376.3      $                  96,023.7
      Borrowing authority                                                                                 0.0                                  0.0                           0.0
      Contract authority                                                                                  0.0                                  0.0                           0.0
      Net transfers (+/-)                                                                              265.0                              3,589.4                          903.1
      Other                                                                                               0.0                                  0.0                           0.0
   Unobligated balance:

      Beginning of period                                                                            1,693.3                             22,458.6                       20,170.9
      Net transfers, actual (+/-)                                                                       (7.5)                             3,357.8                        2,775.9
        Anticipated Transfers Balances                                                                    0.0                                  0.0                           0.0
   Spending authority from offsetting collections:
      Earned                                                                                              0.0                                  0.0                           0.0
        Collected                                                                                    6,471.7                             26,685.5                        2,379.2
        Receivable from Federal sources                                                                  11.1                               343.9                          (68.4)
      Change in unfilled customer orders                                                                  0.0                                  0.0                           0.0
        Advance received                                                                               (34.3)                               286.1                           35.0
        Without advance from Federal sources                                                         3,306.3                               (652.3)                         690.9
      Anticipated for the rest of year, without advances                                                  0.0                                  0.0                           0.0
      Transfers
Department      from trust funds
           of Defense                                                                                     0.0                                  0.0                           0.0
AgencySubtotal
       Wide                                                                                          9,754.8                             26,663.2                        3,036.7
STATEMENT
   RecoveriesOF   DISAGGREGATED
               of prior year obligationsBUDGETARY RESOURCES                                               0.0                            19,755.4                        5,884.0
ForTemporarily
    the periodsnot
                 ended   September
                    available pursuant30,to2005
                                            Publicand 2004
                                                    Law                                                (10.0)                                  0.0                           0.0
($ in Millions)                                                                       Civil Works                        Operation and                   Procurement
   Permanently not available                                                                           (38.4)                          (1,723.4)                        (1,416.7)
                                                                                                                         Maintenance
   Total Budgetary Resources                                                $                       17,645.1       $                  241,477.3      $                 127,377.6
STATUS OF BUDGETARY RESOURCES

  Obligations incurred:
      Direct                                                                $                        5,739.5       $                  203,776.4      $                  97,984.7
      Reimbursable                                                                                   6,902.4                             30,300.2                        4,186.4
      Subtotal                                                                                      12,641.9                          234,076.6                        102,171.1
  Unobligated balance:
      Apportioned                                                                                    4,421.1                              3,216.1                       24,188.4
      Exempt from apportionment                                                                        582.0                                  0.0                            0.0
      Other available                                                                                    0.0                                  0.0                            0.0
  Unobligated Balances Not Available                                                                     0.1                              4,184.6                        1,018.1
  Total, Status of Budgetary Resources                                      $                       17,645.1       $                  241,477.3      $                 127,377.6

Relationship of Obligations to Outlays:
  Obligated Balance, Net ?- beginning of period                             $                        1,038.7       $                     71,601.8    $                  82,758.9
  Obligated Balance transferred, net (+/-)                                                               0.0                                  0.0                            0.0
  Obligated Balance, Net ?- end of period:
      Accounts receivable                                                                            (235.8)                             (3,567.0)                       (260.4)
      Unfilled customer order from Federal sources                                                  (5,214.2)                            (7,608.8)                     (2,403.8)
      Undelivered orders                                                                             2,862.4                             69,855.9                       91,056.9
      Accounts payable                                                                               1,083.0                             14,901.2                        6,354.5
  Outlays:
      Disbursements                                                                                 11,867.7                          212,650.1                         83,676.2
      Collections                                                                                   (6,437.4)                        (26,971.6)                        (2,414.2)
      Subtotal                                                                                       5,430.3                          185,678.5                         81,262.0
  Less: Offsetting receipts                                                                         (1,744.7)                                 0.0                            0.0
  Net Outlays                                                               $                        3,685.6       $                  185,678.5      $                  81,262.0



                                                                                262
                                                                                                                 DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                   Military Personnel                           Military                      Working Capital Funds
                                                                                                                         Construction/Family
                                                                                                                              Housing
BUDGETARY RESOURCES

   Budget Authority:
       Appropriations received                                               $                   121,177.8           $                     8,430.5       $                      2,718.5
       Borrowing authority                                                                                 0.0                                    0.0                                  0.0
      Contract authority                                                                                   0.0                                    0.0                          56,386.1
      Net transfers (+/-)                                                                         (1,437.8)                                    (49.7)                            (154.7)
      Other                                                                                                0.0                                    0.0                                  0.0
   Unobligated balance:

       Beginning of period                                                                             2,163.7                             4,645.8                              6,056.2
      Net transfers, actual (+/-)                                                                      (461.9)                             (358.9)                             (1,286.0)
        Anticipated Transfers Balances                                                                     0.0                                    0.0                                  0.0
   Spending authority from offsetting collections:
       Earned                                                                                              0.0                                    0.0                                  0.0
        Collected                                                                                      1,127.5                             4,632.6                            106,538.6
        Receivable from Federal sources                                                                 (79.9)                                 (50.7)                            (140.7)
      Change in unfilled customer orders                                                                   0.0                                    0.0                                  0.0
        Advance received                                                                                   0.0                                   34.1                                56.9
        Without advance from Federal sources                                                               6.0                                  292.7                             (57.7)
       Anticipated for the rest of year, without advances                                                  0.0                                    0.0                                  0.0
      Transfers
Department      from trust funds
            of Defense                                                                                     0.0                                    0.0                                  0.0
AgencySubtotal
       Wide                                                                                            1,053.6                             4,908.7                            106,397.1
STATEMENT
   RecoveriesOF   DISAGGREGATED
               of prior year obligations BUDGETARY RESOURCES                                           4,044.9                                  937.5                           1,524.2
ForTemporarily
    the periodsnot
                 ended   September
                    available pursuant30,to2005
                                           Publicand
                                                  Law2004                                                  0.1                                    0.0                                0.0
($ in Millions)                                                                   Military Personnel                           Military                      Working Capital Funds
   Permanently not available                                                                           (323.3)                             (185.7)                            (52,849.5)
                                                                                                                         Construction/Family
   Total Budgetary Resources                                                 $                   126,217.1           $        Housing 18,328.2           $                    118,791.9
STATUS OF BUDGETARY RESOURCES

   Obligations incurred:
      Direct                                                                 $                   121,223.6           $                     7,529.0       $                       1,142.0
      Reimbursable                                                                                     4,093.7                             5,093.6                            113,214.2
      Subtotal                                                                                   125,317.3                                12,622.6                            114,356.2
   Unobligated balance:
      Apportioned                                                                                       266.0                              5,641.8                               4,196.5
      Exempt from apportionment                                                                            0.0                                    0.0                                 47.1
      Other available                                                                                    (0.2)                                    0.0                                -(0.2)
   Unobligated Balances Not Available                                                                   634.0                                    63.8                                192.3
   Total, Status of Budgetary Resources                                      $                   126,217.1           $                    18,328.2       $                    118,791.9

Relationship of Obligations to Outlays:
   Obligated Balance, Net -? beginning of period                             $                         8,258.3       $                     7,347.4       $                     23,501.1
   Obligated Balance transferred, net (+/-)                                                                0.0                                    0.0                                  0.0
   Obligated Balance, Net -? end of period:
      Accounts receivable                                                                              (172.3)                                 (195.4)                         (4,797.1)
      Unfilled customer order from Federal sources                                                      (19.9)                            (4,814.3)                           (19,725.8)
      Undelivered orders                                                                                282.7                             11,945.3                             37,861.6
      Accounts payable                                                                                 2,462.8                             1,135.6                             14,503.5
   Outlays:
      Disbursements                                                                              127,051.2                                10,719.2                            108,689.2
      Collections                                                                                 (1,127.5)                               (4,666.7)                          (106,595.5)
      Subtotal                                                                                   125,923.7                                 6,052.5                               2,093.7
   Less: Offsetting receipts                                                                               0.0                                    0.0                                  0.0
   Net Outlays                                                               $                   125,923.7           $                     6,052.5       $                       2,093.7



                                                                                 263
                                                                                                           DoD Performance & Accountability Report FY2005
                        ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  2005 Combined                    2004 Combined



BUDGETARY RESOURCES

   Budget Authority:
      Appropriations received                                               $                 604,969.5      $                 582,010.7
      Borrowing authority                                                                            0.0                             0.1
      Contract authority                                                                       56,753.1                         34,855.8
      Net transfers (+/-)                                                                        (220.0)                          (519.3)
      Other                                                                                          0.0                             0.0
   Unobligated balance:

      Beginning of period                                                                      73,282.9                        256,659.0
      Net transfers, actual (+/-)                                                                  484.5                           782.0
        Anticipated Transfers Balances                                                               0.0                             0.0
   Spending authority from offsetting collections:
      Earned                                                                                         0.0                             0.0
        Collected                                                                             158,928.0                        146,274.3
        Receivable from Federal sources                                                           (18.2)                           (79.7)
      Change in unfilled customer orders                                                             0.0                             0.0
        Advance received                                                                           642.0                           360.5
        Without advance from Federal sources                                                     5,065.9                           980.0
      Anticipated for the rest of year, without advances                                             0.0                             0.0
      Transfers
Department      from trust funds
            of Defense                                                                               0.0                             0.0
AgencySubtotal
       Wide                                                                                   164,617.7                        147,535.1
STATEMENT
   RecoveriesOF   DISAGGREGATED
               of prior year obligations BUDGETARY RESOURCES                                   36,376.7                         33,681.9
ForTemporarily
    the periodsnot
                 ended   September
                    available pursuant30,to2005
                                            Publicand
                                                   Law2004                                   (31,875.4)                           (10.0)
($ in Millions)                                                                  2005 Combined                    2004 Combined
    Permanently not available                                                                (58,299.7)                       (40,338.0)
   Total Budgetary Resources                                                $                 846,089.3      $               1,014,657.3
STATUS OF BUDGETARY RESOURCES

   Obligations incurred:
      Direct                                                                $                601,516.8       $                568,053.7
      Reimbursable                                                                           175,983.1                        152,658.9
      Subtotal                                                                               777,499.9                        720,712.6
   Unobligated balance:
      Apportioned                                                                             59,206.9                         58,631.0
      Exempt from apportionment                                                                   725.9                       183,488.1
      Other available                                                                             -(0.4)                             0.3
   Unobligated Balances Not Available                                                            8,657.0                       51,825.3
   Total, Status of Budgetary Resources                                     $                846,089.3       $               1,014,657.3

Relationship of Obligations to Outlays:
   Obligated Balance, Net -? beginning of period                            $                233,234.1       $                214,371.9
   Obligated Balance transferred, net (+/-)                                                          0.0                          (14.1)
   Obligated Balance, Net -? end of period:
      Accounts receivable                                                                    (10,118.7)                       (10,136.8)
      Unfilled customer order from Federal sources                                           (44,468.0)                       (39,402.0)
      Undelivered orders                                                                     250,153.2                        228,801.3
      Accounts payable                                                                        50,292.3                         53,470.6
   Outlays:
      Disbursements                                                                          723,450.6                        667,755.1
      Collections                                                                           (159,570.1)                      (146,634.7)
      Subtotal                                                                               563,880.5                        521,120.4
   Less: Offsetting receipts                                                                 (55,072.9)                       (46,546.4)
   Net Outlays                                                              $                508,807.6       $                474,574.0


                                                                                264
                                                                                                                  DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                  Military Retirement Fund                    Other                  Research, Development,
                                                                                                                                                       Test & Evaluation

BUDGETARY RESOURCES

   Budget Authority:
       Appropriations received                                               $                              0.0      $                   0.0    $                            0.0
       Borrowing authority                                                                                  0.0                        170.3                                 0.0
       Contract authority                                                                                   0.0                          0.0                                 0.0
       Net transfers (+/-)                                                                                  0.0                          0.0                                 0.0
       Other                                                                                                0.0                          0.0                                 0.0
   Unobligated balance:

       Beginning of period                                                                                  0.0                         24.6                                 0.0
       Net transfers, actual (+/-)                                                                          0.0                          0.0                                 0.0
         Anticipated Transfers Balances                                                                     0.0                          0.0                                 0.0
   Spending authority from offsetting collections:
       Earned                                                                                               0.0                          0.0                                 0.0
         Collected                                                                                          0.0                         16.9                                 0.0
         Receivable from Federal sources                                                                    0.0                          0.0                                 0.0
       Change in unfilled customer orders                                                                   0.0                          0.0                                 0.0
         Advance received                                                                                   0.0                          0.0                                 0.0
         Without advance from Federal sources                                                               0.0                         40.6                                 0.0
       Anticipated for the rest of year, without advances                                                   0.0                          0.0                                 0.0
     Transfers
Department     from trust funds
           of Defense                                                                                       0.0                          0.0                                 0.0
AgencySubtotal
       Wide                                                                                                 0.0                         57.5                                 0.0
STATEMENT
   RecoveriesOF    DISAGGREGATED
               of prior year obligations BUDGETARY RESOURCES                                                0.0                          0.0                                 0.0
ForTemporarily
    the periodsnot
                 ended   September
                    available pursuant30,
                                        to 2005
                                           Publicand
                                                  Law2004                                                   0.0                          0.0                             0.0
($ in Millions)                                                                  Military Retirement Fund                     Other               Research, Development,
    Permanently not available                                                                               0.0                         (2.2)                            0.0
                                                                                                                                                     Test & Evaluation
   Total Budgetary Resources                                                 $                              0.0      $                 250.2    $                        0.0
STATUS OF BUDGETARY RESOURCES

   Obligations incurred:
       Direct                                                                $                              0.0      $                 215.2    $                            0.0
       Reimbursable                                                                                         0.0                          0.0                                 0.0
       Subtotal                                                                                             0.0                        215.2                                 0.0
   Unobligated balance:
       Apportioned                                                                                          0.0                          1.5                                 0.0
       Exempt from apportionment                                                                            0.0                          0.0                                 0.0
       Other available                                                                                      0.0                          0.0                                 0.0
   Unobligated Balances Not Available                                                                       0.0                         33.5                                 0.0
   Total, Status of Budgetary Resources                                      $                              0.0      $                 250.2    $                            0.0

Relationship of Obligations to Outlays:
   Obligated Balance, Net -? beginning of period                             $                              0.0      $                 155.7    $                            0.0
   Obligated Balance transferred, net (+/-)                                                                 0.0                          0.0                                 0.0
   Obligated Balance, Net -? end of period:
       Accounts receivable                                                                                  0.0                          0.0                                 0.0
       Unfilled customer order from Federal sources                                                         0.0                       (123.7)                                0.0
       Undelivered orders                                                                                   0.0                        446.3                                 0.0
       Accounts payable                                                                                     0.0                          0.0                                 0.0
   Outlays:
       Disbursements                                                                                        0.0                          7.7                                 0.0
       Collections                                                                                          0.0                        (16.9)                                0.0
       Subtotal                                                                                             0.0                         (9.2)                                0.0
   Less: Offsetting receipts                                                                                0.0                          0.0                                 0.0
   Net Outlays                                                               $                              0.0      $                  (9.2)   $                            0.0



                                                                                  265
                                                                                                            DoD Performance & Accountability Report FY2005
                         ..................................................................................................Part 3: Financial Information

Department of Defense
Agency Wide
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the periods ended September 30, 2005 and 2004
($ in Millions)                                                                   2005 Combined                     2004 Combined



BUDGETARY RESOURCES

   Budget Authority:
       Appropriations received                                               $                        0.0      $                       0.0
       Borrowing authority                                                                         170.3                            114.6
       Contract authority                                                                             0.0                              0.0
       Net transfers (+/-)                                                                            0.0                              0.0
       Other                                                                                          0.0                              0.0
   Unobligated balance:

       Beginning of period                                                                          24.6                             21.8
       Net transfers, actual (+/-)                                                                    0.0                              0.0
         Anticipated Transfers Balances                                                               0.0                              0.0
   Spending authority from offsetting collections:
       Earned                                                                                         0.0                              0.0
         Collected                                                                                  16.9                             17.4
         Receivable from Federal sources                                                              0.0                            (0.6)
       Change in unfilled customer orders                                                             0.0                              0.0
         Advance received                                                                             0.0                              0.0
         Without advance from Federal sources                                                       40.6                             47.2
       Anticipated for the rest of year, without advances                                             0.0                              0.0
      Transfers from trust funds                                                                      0.0                              0.0
Department of Defense
      Subtotal                                                                                      57.5                             64.0
Agency Wide
   Recoveries of prior year obligations                                                               0.0                              0.0
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
ForTemporarily
    the periodsnot available
                ended        pursuant30,to2005
                        September          Publicand
                                                  Law2004                                             0.0                              0.0
    Permanently
($ in Millions) not available                                                     2005 Combined     (2.2)          2004 Combined     20.7
    Total Budgetary Resources                                                $                     250.2       $                    221.1

STATUS OF BUDGETARY RESOURCES

   Obligations incurred:
       Direct                                                               $$                     215.2      $                     196.6
       Reimbursable                                                                                  0.0                              0.0
       Subtotal                                                                                    215.2                            196.6
   Unobligated balance:
       Apportioned                                                                                   1.5                              1.4
       Exempt from apportionment                                                                     0.0                              0.0
       Other available                                                                               0.0                              0.0
   Unobligated Balances Not Available                                                               33.5                             23.1
   Total, Status of Budgetary Resources                                      $                     250.2      $                     221.1

Relationship of Obligations to Outlays:
   Obligated Balance, Net ?- beginning of period                             $                     155.7      $                      29.9
   Obligated Balance transferred, net (+/-)                                                          0.0                              0.0
   Obligated Balance, Net ?- end of period:
       Accounts receivable                                                                           0.0                              0.0
       Unfilled customer order from Federal sources                                               (123.7)                           (83.1)
       Undelivered orders                                                                          446.3                            238.8
       Accounts payable                                                                              0.0                              0.0
   Outlays:
       Disbursements                                                                                 7.7                             24.1
       Collections                                                                                 (16.9)                           (17.4)
       Subtotal                                                                                     (9.2)                             6.7
   Less: Offsetting receipts                                                                         0.0                              0.0
   Net Outlays                                                               $                      (9.2)     $                       6.7



                                                                                 266
                                                                                                         DoD Performance & Accountability Report FY2005
                    ..................................................................................................Part 3: Financial Information

Segment Information

                                                                  Segment Information
                                                                As of September 30, 2005
                                     Defense                        Joint                                          Defense
                                                    Defense                         Defense         Defense                          U.S.
                                   Information                    Logistics                                       Finance &
    Segment Information                           Commissary                        Security        Logistics                   Transportation     Total
                                     Systems                      Systems                                         Accounting
                                                    Agency                          Service          Agency                       Command
                                     Agency                        Center                                          Service

                                                                                         (Amounts in millions)

 PART A.
 Fund Balance                            $0.0         $292.0          $0.0          ($114.2)              $0.0          $0.0         ($125.6)        $52.2
 Accounts Receivable                    411.5           50.4           0.0               0.0           1,567.0         122.2            815.4      2,966.5
 Property Plant and
                                        403.1           29.4         119.5              16.0           1,896.0         789.6          1,090.0      4,343.6
    Equipment
 Other Assets                              2.9         446.9           0.0               0.0         16,206.0            0.1             18.9     16,674.8

 Total Assets                          $817.5         $818.7        $119.5           ($98.2)        $19,669.0         $911.9         $1,798.7    $24,037.1
 Liabilities Due and
     Payable for Goods
                                        985.4          550.3           0.0               1.6           2,800.2         173.4          1,241.6      5,753.8
     and Services
     Received
 Deferred Revenue                       181.4             0.0          0.0               0.0             146.7           4.1              0.7        332.9
 Other Liabilites                        32.7          283.8           0.4               0.8             537.8         149.0            312.1      1,315.3

 Total Liabilities                    1,199.5          834.1           0.4               2.4           3,484.7         326.5          1,554.4      7,402.0
 Unexpended
                                           0.0          49.8           0.0               0.0                0.0          0.0              0.0         49.8
    Appropriations
 Cumulative Results of
                                      (382.0)          (65.2)        119.1           (100.6)         16,184.3          585.4            244.3     16,585.3
   Operations

 Total Net Position                   (382.0)          (15.4)        119.1           (100.6)         16,184.3          585.4            244.3     16,635.1

 Total Liabilities And Net
                                       $817.5         $818.7        $119.5           ($98.2)        $19,669.0         $911.9         $1,798.7    $24,037.1
    Position

 PART B.
 The Full Cost of Goods
                                      3,757.1         6,602.4          0.6            106.1          33,095.5        1,718.2          8,992.7     54,272.6
   and Services Provides
 The Related Exchange
                                     (3,824.4)      (5,398.9)          0.0            (90.0)        (32,391.1)      (1,613.6)        (8,896.0)   (52,214.0)
   Revenue
 The Excess of Costs Over
                                        (67.3)        1,203.5          0.6              16.1             704.4         104.6             96.7      2,058.6
   Exchange Revenue


Explanation of Segment Information

Defense Information Systems Agency
The Defense Information Systems Agency (DISA) is a Defense Working Capital Fund (DWCF) entity.
The Defense Megacenters and the Communications Information Services Activity provide data processing,
telecommunication, and information systems service and support to the Department and other federal
government customers under a revolving fund concept. DISA’s major customers are the Army, Navy, Air Force,
DLA, and DFAS.
                                                                              267
                                                                                       DoD Performance & Accountability Report FY2005
           ..................................................................................................Part 3: Financial Information

Defense Commissary Agency
The Commissary Operations Fund finances the cost of operations for retail stores, command and region
headquarters, and the operations support center. This fund also receives appropriated funds annually.

The Commissary Resale Stock Fund finances the purchases of inventory for resale items to be sold to
commissary patrons. Revenues from sales are used to replace inventory sold.

Joint Logistics Systems Center
On August 18, 1997, the Acting Under Secretary of Defense (Comptroller) approved the decision to terminate
Joint Logistics Systems Center. All of its programs and responsibilities were returned to the individual
components. FY 2004 is the seventh year JLSC operated as a residual activity. There was minimal financial
activity during fiscal year 2005.

Defense Security Service
Effective October 1, 1998, Defense Security Service (DSS) was transferred from a direct appropriation to a
separate activity group in the DWCF. This transfer also reflected a name change from the Defense Investigative
Service to the DSS. Full implementation of the DSS as a DWCF entity began with fiscal year 2000.

The DSS was chartered to administer two major programs: Personnel Security Investigations (PSI) and
National Industrial Security Programs (NISP). The mission of the PSI program is to conduct background
investigations on individuals assigned to or affiliated with the Department. The purpose of the NISP is
to ensure that private industry, while performing on government contracts, properly safeguards classified
information in its possession. The DSS also administers the Key Asset Protection Program and the Arms,
Ammunition, and Explosives Program.

Defense Logistics Agency
The Defense Logistics Agency (DLA) is a combat support agency responsible for worldwide logistics support
throughout the DoD. The primary focus of DLA is to provide logistics support to the war fighter. In addition,
DLA provides support to relief efforts during times of national emergency. DLA’s major DoD customers
are the Army, Navy, and Air Force. Other major federal government customers include the Department of
Agriculture and the Department of Transportation. The DLA organization has active entity sub-organizations
funded through the DWCF. These sub-organizations are referred to as activity groups and are as follows:




                                                                   268
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

•	 The Supply Management Activity Group (Supply helps carry out its mission by procuring, managing and
   supplying consumable items to Military Departments, other DoD Components, federal agencies and selected
   foreign governments.

•	 The Distribution Depot Activity Group (Distribution receives, stores, and distributes commodities, principal
   end items, and depot level reparables for the Military Departments, other DoD Components, federal
   agencies, and selected foreign governments.
•	 The Defense Reutilization and Marketing Service Activity Group (DRMS provides utilization services which
   include receiving, classifying, segregating, demilitarizing, accounting for, and reporting excess material for
   screening, lotting, merchandising, and sale. They also have the mission of hazardous property disposal and
   the economic recovery of precious metals from excess and surplus precious metal-bearing material.

•	 The Information Services Activity Group provides information management support. The mission of
   this information services business is to provide integrated information management support by delivering
   products and services of increasing quality and decreasing cost, on time and within budget.

•	 The Defense Automated Printing Service Activity Group (DAPS) is responsible for document automation
   and printing within the DoD, encompassing electronic conversion, retrieval, output, and distribution of
   digital and hardcopy.

Defense Finance and Accounting Service
Defense Finance and Accounting Service (DFAS) was created in 1991. The mission of DFAS is to provide
responsive, professional finance and accounting service to the Department. DFAS has prepared the annual
financial statements as required by the CFO Act and the GMRA since 1994.

U.S. Transportation Command
Secretary of Defense memorandum, dated February 14, 1992, prescribed the creation of a consolidated
service transportation command. United States Transportation Command (USTRANSCOM) represents the
single DoD financial manager for all common-user transportation. Its components include Headquarters,
USTRANSCOM (HQTRANS); (Military) Surface Deployment and Distribution Command (SDDC);
Military Sealift Command (MSC); Air Mobility Command (AMC); and, Defense Courier Service (DCS). The
Army and Navy continue to manage their own service-unique transportation functions.




                                                                    269
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

                                    Other Accompanying Information
Improper Payments Information Act (IPIA) Reporting Details
As discussed in Part 1, “Management’s Discussion and Analysis,” the Department conducted a review of the
improper payments relating to the Military Retirement and Military Health Benefits programs per the Office of
Management and Budget (OMB) guidance. Results of the review follow.


Risk Assessment

The Department reviewed all of its programs and activities and determined that seven programs/activities
were susceptible to erroneous payments. DoD performed risk assessments for each of the seven programs/
activities that addressed the strength of the internal controls in place to prevent improper payments (such as
prepayment reviews), system weaknesses identified internally or by outside audit activities, voluntary returns of
overpayments by vendors, etc. The Department deemed one program, Military Pay, susceptible to high risk.
The Military Retirement and Military Health Benefits programs were identified previously in Section 57 as
susceptible to erroneous payments.


Statistical Sampling

The statistical sampling processes used for the Military Retirement, Military Health Benefits and Military Pay
programs are outlined below:

Military Retirement. In FY 2004, the Military Retired and Annuitant Pay began monthly random reviews
of confirmed deceased retiree accounts, in addition to monthly random reviews from the overall population of
retired and annuity pay accounts. Both of these sampling plans were designed to produce annual estimates of
improper payments, with probability of 95 percent and sample precision of plus or minus 2.5 percent.

DoD targeted the review of confirmed deceased accounts as a subset of the population highly at risk for
improper payments. A monthly sample of accounts (approximately 138) is selected from the population of
confirmed deceased accounts. Each account is audited to determine if the member was overpaid after the
member’s death was reported to Military Retired and Annuitant Pay. Statistics collected from the review
include the number of accounts reviewed, number with overpayments, dollar amount of the overpayment,
amount of correct pay (what the payment should have been), and the dollar amount collected back from the
member’s account/estate within the first 60 days after notification. These sample statistics are projected to the
population of deceased retirees to then determine an improper payment rate population estimate for deceased
accounts.

Population estimates from the deceased account reviews are then added to any improper payments identified
through other than retired pay random audits, to then determine an overall improper payments population
estimate for retired pay.


                                                                    270
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

Military Health Benefits. To determine the statistically valid estimate of the annual amount of erroneous
payments, the Department uses the following sampling methodology to pull TRICARE Encounter Data
records for the Annual Target Health Care Cost audits of the Managed Care Support Services contracts.

For each contract option period, a statistically valid sample of claims with care end dates within the specified
option period is selected for payment error auditing. Variable sampling, using stratified sampling with
optimum allocation, is used to calculate the sample size for the payment errors. The sample size is determined
with a 90 percent confidence level and 1 percent precision.

Claims with a cost less than $100 are not sampled (except claims for TRICARE dual eligibles). One stratum
includes all claims $100,000 and more. Claims with a cost of greater than $100 but less than $100,000
are broken down into 12 strata. A formula is applied to calculate the sample size for each stratum. A finite
population correction is then applied to each stratum sample size with the final sample size calculated by
summing all the corrected stratum sample sizes. Finite population correction is first applied on each stratum,
before the summation of sample sizes of all strata. A minimum sample size of 30 is forced into each stratum.
If the stratum universe count is less than 30, all the claims in that stratum are audited. The audit process for
payment samples projects universe value based on the audit results. The samples are projected separately to
the universe of claims for each quarter. The results of these projections are then combined into the following
categories: Total number of claims in the universe, government payment estimation, correct government
payment, error amount, and the estimated error percent in the universe of claims. The percentage of
overpayments is applied to all the payments to determine the amount of allowable cost. The percentage will be
recovered based on total overpayments, not net of underpayments, due to “zero tolerance” for errors.

Military Pay. The Defense Finance and Accounting Service (DFAS) uses a stratified sampling plan design
based on a maximum annual target sample of approximately 1,530 accounts per component (monthly sample
of approximately 128 accounts per component). Components are defined as the Active and Reserve/Guard
entities of the Army, Air Force, Navy, and Marine Corps. The annual sample provides estimates at the
component level of 95 percent probability with sampling precision of plus or minus 2.5 percent. This process
has been in place for over 5 years with recent year modifications to capture specific statistics in support of the
IPIA.

Pay analysts review the monthly randomly selected accounts, using the most current Leave and Earnings
Statement in the respective system and review all entitlements and deductions for accuracy, providing
written detail about any erroneous computations. Specific details for each sampled account include the
reason and source of the erroneous calculation as well as the net pay and improper payment (overpayments
and underpayments) dollar values. Appropriate pay system and operational managers are notified of any
discrepant accounts for correction. These data elements are captured and recorded in an electronic database for
consolidation and review. Results of the monthly review are analyzed and reported to senior managers.

The improper payment rate is calculated by dividing the dollar value of all erroneous payments identified in the
sample by the total net of sampled accounts to arrive at a sample rate for improper payments. Then the sample
rate is multiplied times the total net pay of the population to determine an estimated improper payment dollar
value. Any improper payments identified through means other than the random review are summarized and
added to the population estimate (from the random review) to determine an overall population improper
payment estimate for military pay.
                                                                    271
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

Corrective Action Plans

Military Retirement. Military Retirement and Annuitant Pay places great emphasis on methods to reduce
the dollar value of improper payments to deceased retirees. It fully recognizes that a certain number of retirees
will be paid after death, simply by virtue of the inability to predict death and the fact that families have more
pressing issues to address immediately following death than to notify the Military Retired and Annuitant Pay
customer contact center. To minimize the impact of a delay in death notification, it has substantially improved
its internal processing methods as well as streamlining and automating listings and data mining techniques
with the Social Security Administration. This process allows DoD to receive death notice information through
an automated system match on military retirees. In many cases, this death notification process will prevent
the payment system from generating an improper payment. Preliminary assessment of the FY 2005 estimates
suggest that these death match process improvement initiatives are contributing to a reduction of improper
payments to deceased personnel. FY 2004 improper payments to deceased retirees were estimated at
$51.8 million (the initial estimate of $26.2 million was incorrect and raised subsequently to $51.8 million).
FY 2005 improper payments to deceased retirees are estimated to be $46.5 million. The Department expects
to recover over 95 percent of this amount within 60 days of notification.

Military Health Benefits. The Medical Health Benefits Program currently audits statistically valid samples
that over the years have consistently produced an error rate of less than the 2 percent standard contained in the
TRICARE contracts—an amount less than the 2.5 percent threshold allowed by the IPIA Act as implemented
by OMB. The TRICARE Management Agency audits payments, extrapolates the results of the payments
to the universe, and disallows the full amount of the extrapolated total representing a statistical projection of
overpayments.

Improperly submitted claims by the provider community, as well as a minimal degree of human error that can
be expected with handling a large volume of claims within the tight time parameters established through the
prompt payment regulations, cause errors in health care claims processing. Using statistically valid samples
and assessing the contractor making the disbursement on behalf of the Department with financial penalties
minimizes the error rate. The construct of the managed care contracts effectively reduces improper payments
to zero.

Military Pay. DFAS is responsible for the military pay systems and places substantial emphasis on the
correctness of the pay calculation from these systems. It has established several processes to ensure correctness
of pay and thus prevent improper payments within the military pay systems. These measures include both
random and targeted pre-payroll (payday) reviews, and producing pay abnormality and inconsistent condition
reports and listing.

In the pre-payroll review process, DFAS selects random individual pay accounts from the Air Force, Army,
and Navy for review prior to mid-month and end-of-month payroll release. The goal is to identify any
incorrect pay generated by a systems or procedural issue. The pay systems staff produces a Leave and Earnings
Statement, which is reviewed for each selected pay account. Based on the review findings, the pay systems staff
is advised to complete the payroll or rerun it.

Pay abnormality lists are generated by the pay systems to identify accounts that are receiving pay at a rate of

                                                                    272
                                                                                                         DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information

225 percent or greater increase from their normal pay. It provides the normal pay amount, what is being
paid on the current payday, and identifies the input creating the increase in pay. Each account on this list
is reviewed in detail to ensure the pay is accurate based on some unique occurrence (e.g., payment of a new
entitlement, payment of a one-time item such as a bonus, etc.)

Inconsistent condition reports identify pay conditions within the pay system that should not exist (e.g., the
member is receiving Basic Allowance for Housing at the “no dependents” rate but also is receiving cost of living
allowance at the “with dependents” rate.) The reports are sent to the appropriate input source for research and
correction of the account.

The following table summarizes the Department’s improper payment reduction outlook for each of these
programs from FY 2004 through FY 2008.

                                              Prior Year                                 Calendar Year                                 Calendar Year +1
                                Outlays                                     Outlays                                           Est.
        Program                   ($)             (%)          ($)            ($)            IP (%)         IP ($)         Outlays ($)          IP (%)     IP ($)
  Military Retirement
                                  34.0B         0.1942        66.0M           35.7B         0.1381          49.3M                35.7B          0.1332      47.5M
  (Note 1)
  Military Health
  Benefits                         7.6B            1.31       99.6M               7.5B            2.0        150M                    9.1B            2.0    182M
  (Notes 2, 3 & 4)
  Military Pay (Note 1)                 n/a         n/a            n/a        69.1B         0.6254         432.0M                70.1B          0.5551     389.0M


                                                              Calendar Year +2                                       Calendar Year +3
                                                      Est.                                                 Est.
                           Program                 Outlays ($)           IP (%)          IP ($)         Outlays ($)         IP (%)          IP ($)
                     Military Retirement
                                                           35.7B         0.1283           45.8M              35.7B          0.1234           44.1M
                     (Note 1)
                     Military Health
                     Benefits                              10.2B            2.0           204M               10.9B             2.0           218M
                     (Notes 2, 3 & 4)
                     Military Pay (Note 1)                 72.1B         0.5019          361.9M              74.3B          0.4676          347.0M


Note 1. The initial estimate of erroneous payments for Military Retirement for FY 2004 was computed incorrectly at
 $34.1 million or 0.952 percent. The figures shown in the table reflect the corrected amounts. Military Retirement and
 Military Pay dollars represent net amounts (e.g., net of Federal and State withholdings).

Note 2. The audits have now completed the administrative process and the final payment error rate for FY 2004 is 1.31 percent.
 The preliminary error rate for FY 2003 was 1.36 percent and the final rate was 0.85 percent. The information for
 FY 2005 is not yet available. Projections for FY 2005 through FY 2008 are that the erroneous payment rate will be below
 the 2 percent performance standard required in the contracts. Historically, the final overall percentage has been below the
 2 percent threshold. Even though the contract performance standard is 2 percent, the Department has a zero tolerance for
 unallowable costs. If the contractor pays a claim that’s not allowable, the Department will not reimburse the contractor. The
 construct of the managed care contracts effectively reduces improper payments to zero.



                                                                                  273
                                                                                          DoD Performance & Accountability Report FY2005
              ..................................................................................................Part 3: Financial Information

Note 3. The FY 2004 Outlay includes all benefit dollars subjected to the audit process. The total was computed as $7.6 billion
 as reflected in this chart. Fee for service claims are determined to be susceptible to erroneous payments as payment is made
 based upon an individual claim being submitted by a provider or beneficiary based on a certification that the services were
 provided as billed. The $7.6 billion does not include contracts that are capitated or otherwise 100 percent at risk, such as the
 dental and the U.S. Family Health Plan contracts. Any erroneous payments in the 100 percent at risk contracts are the sole
 responsibility of the contractor—there is no shared risk with the government. Administrative or change order costs are also not
 included as those costs do not fall into the definition of areas susceptible to erroneous payments.

Note 4. Pharmacy claims for FY 2005 were not included in the audit process. The contract transitioned and an audit process is
 being established for the outyears.




Recovery Auditing

The Department of Defense utilizes a number of different mechanisms to prevent, identify, and collect
improper payments. This effort is divided into two parts, contract audit and recovery audit.

Contract Audit. The Defense Contract Audit Agency (DCAA) routinely performs billing system audits at
major contractors (e.g., contractors with a substantial amount of flexibly priced contracts and fixed price
contracts). The objective of these audits is to determine the adequacy of the contractor’s billing system internal
controls and its compliance with those controls. This effort provides assurance to the Department that the
contract payment billings received by DFAS are predicated on costs incurred and approved provisional billing
rates. DCAA also performs paid voucher reviews at major contractors and special purpose audits at contractor
locations when a risk factor for improper payments is identified and neither a billing system review nor a test of
paid vouchers is planned. For both contract payments and vendor payments, the DFAS payment offices utilize
various duplicate payment detection applications/system edits, some of which are embedded in the entitlement
systems to detect potential duplicate contract and vendor payments prior to disbursement.

Recovery Audit. The Department maintains an extensive post-payment process for identifying improper
payments. This process utilizes post-payment review techniques performed both internally and by recovery
auditing contractors paid from the proceeds actually recovered. For contract and vendor payments, this
process includes reviews by the DFAS-Internal Review and recovery auditing contractors. The process also
includes the use of data-mining for purchase and travel card transactions by the Office of the Inspector
General, Department of Defense. For purchased health care payments, the TRICARE Management Activity
has established a statistically valid post-payment process that can accurately estimate improper payments. The
TRICARE Management Activity also is using a recovery auditing contractor that specializes in identifying
overpayments to hospitals that fail to submit amended cost reports.

DFAS-Internal Review maintains a post-payment process that reviews commercial payments vouchered in a
DFAS entitlement system within 180 days of disbursement. Application of this process to FY 2003 payment
data resulted in the identification of $122 million in duplicate payments, of which $119 million has been
recouped. For FY 2004 payment data, $40 million has been identified as duplicate payments of which
$30 million has been recouped.


                                                                      274
                                                                                          DoD Performance & Accountability Report FY2005
              ..................................................................................................Part 3: Financial Information


The Department has recouped more than $19 million in erroneous commercial payments since the inception
of the program in 1996, $1.9 million of which was recovered in FY 2005. Most of the recoveries occurred
on disbursements made by the Defense Logistics Agency and the Naval Supply Systems Command. These
recoveries were achieved by providing the recovery auditing contactor access to DFAS payment data files. The
Department anticipates that the recovery auditing performed by recovery auditing contractors will be expanded
in FY 2006.

The TRICARE Management Activity utilizes contractors to perform the entitlement process related to
purchased health care claims. To ensure the integrity of the payments made, it has another contractor that
performs post-payment reviews using statistical methods to quantify the amount of improper payments. The
improper payments estimate becomes an unallowable cost to the vendor making the payment. The TRICARE
Management Activity also is utilizing a recovery audit contractor to recapture overpayments made to hospitals
that failed to submit amended cost reports from calendar years (CY) 1992 through 2004. From October 2003
to July 2005, these reviews have realized over $16.2 million in collections.

                                       Amount              Actual                              Amounts
                                      subject to           Amount           Amounts            Identified         Amounts           Amounts
                                      Review for          Reviewed          Identified          / Actual         recovered         recovered
      Agency Component               Current Year           and                for              Amount             Current            Prior
        (if applicable)               Reporting           Reported          Recovery           Reviewed             Year            Years(s)
  Agency-wide Commercial
                                           $222.8B           $222.8B           $469.5M            0.2108%           $414.9M           (Note 1)
  Payments (Note 1)
  Commercial Payments
  Recovery Auditing Contractor                  n/a                n/a           $1.9 M                 n/a          $1.9 M           $17.1 M
  (Notes 2 and 3)
  TRICARE Management Activity
  Health Care Purchased Care
                                                n/a                n/a           $1.6 M                 n/a          $1.7 M           $16.3 M
  Recovery Auditing
  Contractor (Notes 3 and 4)


Footnotes:
1.	The amount identified for recovery includes both underpayments (67%) and overpayments (33%). $460.1 million or
   98 percent of the amount identified for recovery is attributable to DFAS disbursements and represents both internal recovery
   audit efforts and recoveries identified by other means (to include contract reconciliation and statistical sampling and contractor
   voluntary refunds). Of the amount initially identified by the DFAS for recovery, $19.8 million was subsequently determined
   to be valid. Recovery efforts have recouped $103.7 million in overpayments and disbursed $307.6 million in underpayments.
   The remaining $28.9 million remains in the recovery process or has been referred to the DFAS debt management office for
   collection. This is the first year the Department has included this information (no prior year amounts are being reported).

2.	These are recoupments resulting from commercial payment recovery audits performed by recovery auditing contractors for the
   Defense Logistics Agency and the Department of the Navy. The recoupments represent duplicate payments, discounts not taken,
   etc.




                                                                      275
                                                                                          DoD Performance & Accountability Report FY2005
              ..................................................................................................Part 3: Financial Information

3.	Because of timing differences between the recovery auditing efforts and the recovery actually made (e.g., recovery audit effort
   may have been performed in a previous fiscal year on disbursements made in multiple fiscal years), there is no relationship
   between these two amounts. As a result, the table is limited to the actual amounts recovered in FY 2005 and in prior years.

4.	These are recoupments resulting from overpayments to hospitals that failed to submit amended cost reports.

Accountability

Certifying officer legislation currently in effect holds certifying and disbursing officers accountable for
government funds. Pecuniary liability attaches automatically when there is a fiscal irregularity, i.e., (a) a
physical loss of cash, vouchers, negotiable instruments, or supporting documents or (b) an erroneous payment.
Pecuniary liability for accountable officials attaches if a Commander/director determines that an erroneous
payment was the result of the accountable official’s negligence. For certifying officers and disbursing officers,
there is a presumption of negligence and those individuals bear the burden of proof in establishing the absence
of negligence; i.e., they must produce evidence to establish that there was no contributing fault or negligence
on their part. A presumption of negligence does not apply to accountable officials. Efforts to recover from
the recipient must be undertaken in accordance with the debt collection procedures prescribed in Volume 5,
Chapters 29 and 30 of the DoD Defense Financial Management Regulation.

In addition, the Department is establishing performance metrics to track and reduce erroneous payments.
These metrics will include all programs/activities that the Department has identified as having a risk of
erroneous payments.


Information Systems

Military Retirement. At the current time, Military Retired and Annuitant Pay has the information and
infrastructure needed to reduce improper payments.

Military Health Benefits. The TRICARE Management Agency has a national claims database that captures
fee-for-service claims for care rendered and paid for by TRICARE. Derived from data forwarded by TRICARE
Managed Care Support Contractors in a specific format that is compared against a specific set of quality control




                                                                      276
                                                                                        DoD Performance & Accountability Report FY2005
            ..................................................................................................Part 3: Financial Information

edits; the database maintains information on covered beneficiaries and the care each receives. The extensive
data requirement contributes to data integrity and the fiscal soundness of a single audit trail and allows for
close oversight of the claims paid by TRICARE. In addition, the TRICARE Management Agency has had
performance standards in place for a number of years and contractors have continually met or exceeded them.
Contractors already have a financial incentive to pay claims correctly and to stay below 2 percent, given that the
agency will not fund unallowable costs (overpayments) submitted by its contractors making the disbursements.

Military Pay. At the current time, Military pay has the information and infrastructure needed to reduce
improper payments.


Statutory or Regulatory Barriers

Military Retirement. Two barriers impede the agency’s ability to take corrective actions in reducing improper
payments, the Federal Acquisition Regulation and the Retired and Annuitant Pay service contract. On January
28, 2002, the servicing of Retired and Annuitant Pay came under the purview of a government contractor.
Although most functions remain unchanged from when the government performed these functions, there are
now contractual limits to the government’s involvement in the day-to-day operations of Retired and Annuitant
Pay. The Continuing Government Activities office was formed to oversee the Retired and Annuitant Pay
contract, to ensure the contractual requirements are followed, however, the government can no longer direct
how the work is accomplished. To bring about an operational change, both the government and the contractor
must agree on how to effect and fund a change. Any deviation from the current contract requires a contract
modification, which is detailed in the Federal Acquisition Regulation.

Military Health Benefits. There are currently no statutory or regulatory barriers that limit the Department’s
corrective actions for this program. In addition, as previously mentioned erroneous payments are continually
less than the 2 percent error rate for this program.

Military Pay. There are currently no statutory or regulatory barriers that limit the Department’s corrective
actions for this program.




                                                                    277
                                                                                                        DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information

Funds Appropriated to the President
Administered by the Department of Defense


                                                  International      Foreign Military         Military Debt                        Foreign Military Foreign Military
           BALANCE SHEET                       Military Education       Financing             Reduction           Special Defense Loan Liquidating Financing, Direct
        As of September 30, 2005                 and Training        Program Grants            Financing          Acquisition Fund    Account       Loan Financing
              ($ in Millions)                        11*1081             11*1082               11x4174               11x4116          11x4121          11x4122

                 ASSETS
Fund Balance With Treasury                 $                 82.4               1,913.3                10.1                   6.7                -               37.8
Accounts Receivable                                             -                     -                   -                     -                -               16.0
Other Assets                                                    -                     -                   -                     -                -                  -
Loans Receivable                                                -                     -               221.4                     -          3,237.8              703.3
Inventory and Related Property, Net                             -                     -                   -                     -                -                  -
Other Assets                                                    -                     -                   -                     -                -                  -
Total Assets                               $                 82.4               1,913.3               231.5                   6.7          3,237.8              757.1

                  LIABILITIES
Debt                                       $                    -                       -             231.5                     -          3,237.8              404.7
Other Liabilities                                               -                       -                 -                     -                -              352.4
Accounts Payable                                             27.1                     0.3                 -                     -                -                  -
Other Liabilities                                               -                       -                 -                     -                -                  -
Total Liabilities                          $                 27.1                     0.3             231.5                     -          3,237.8              757.1

             NET POSITION
Unexpended Appropriation                   $                 55.3               1,911.3                       -                 -                 -                  -
Cumulative Results of Operations                                -                   1.7                       -               6.7                 -                  -
Total Net Position                         $                 55.3               1,913.0                       -               6.7                 -                  -

Total Liabilities and Net Position         $                 82.4               1,913.3               231.5                   6.7          3,237.8              757.1




Funds Appropriated to the President
Administered by the Department of Defense
                                                                                   Foreign
                                                                                   Military                                           Foreign Military Foreign Military
                                                              International      Financing         Military Debt          Special         Loan           Financing,
            STATEMENT OF NET COST                          Military Education    Program           Reduction             Defense       Liquidating      Direct Loan
             As of September 30, 2005                        and Training          Grants           Financing           Acquisition      Account         Financing
                   ($ in Millions)                               11*1081          11*1082           11x4174            Fund 11x4116     11x4121           11x4122

Program Costs:
 Intragovernmental Gross Cost                          $                -                  -                   11.5             -              119.2             41.5
 Less: Intragovernmental Earned Revenue                                 -                  -                    -               -                -              (41.5)
 Intragovernmental Net Costs                                            -                  -                   11.5             -              119.2              -
 Gross Costs With the Public                                           82.9            4,882.7                  -               -                7.5            (72.8)
 Less: Earned Revenues From The Public                                  -                 (0.2)               (11.5)            -             (119.2)             -
Net Cost With the Public                               $               82.9            4,882.5                (11.5)            -             (111.7)           (72.8)
Total Net Costs                                        $               82.9            4,882.5                  -               -                7.5            (72.8)
Costs not Assigned to Programs                                          -                  -                    -               -                -                -

Less: Earned Revenues not Attributable to Programs                      -                  -                      -             -                -                -
Net Cost of Operations                                 $               82.9            4,882.5                    -             -                7.5            (72.8)




                                                                                278
                                                                                                     DoD Performance & Accountability Report FY2005
                  ..................................................................................................Part 3: Financial Information

Funds Appropriated to the President
Administered by the Department of Defense

                                                             International
                                                                Military                         Military Debt       Special       Foreign Military Foreign Military
    STATEMENT OF CHANGES IN NET POSITION                    Education and    Foreign Military    Reduction          Defense       Loan Liquidating Financing, Direct
           As of September 30, 2005                            Training    Financing Program      Financing      Acquisition Fund     Account       Loan Financing
                 ($ in Millions)                               11*1081       Grants 11*1082       11x4174           11x4116          11x4121           11x4122
Cumulative Results of Operations
 Beginning Balance                                     $              -                    1.5             -                16.7              -                -
 Prior Period Adjustments (+/-)                                       -                    -               -                 -                -                -
 Beginning Balance, as adjusted                        $              -                    1.5             -                16.7              -                -
Budgetary Financing Sources
 Appropriation Received                                $              -                  -                 -                 -                -                -
 Appropriations Transferred in/out (+/-)                              -                  -                 -                 -                -                -
 Other Adjustments (rescissions, etc.) (+/-)                          -                  -                 -                 -                -                -
 Appropriations Used                                                 82.9            4,882.7               -                 -                7.5              -
 Nonexchanged Revenue                                                 -                  -                 -                 -                -                -

 Donations and Forfeitures of Cash and Cash Equivalents               -                    -               -                 -                -                 -
 Transfers in/out Without Reimbursement (+/-)                         -                    -               -               (10.0)             -               (72.8)
 Other Budgetary Financing Sources (+/-)                              -                    -               -                 -                -                 -
Other Financing Sources:
 Donations and forfeitures of property                  $             -                  -                 -                 -                -                 -
 Transfers in/out Without Reimbursement (+/-)                         -                  -                 -                 -                -                 -
 Imputed financing from costs absorbed by others                      -                  -                 -                 -                -                 -
 Other (+/-)                                                          -                  -                 -                 -                -                 -
Total Financing Sources                                 $            82.9            4,882.7               -               (10.0)             7.5             (72.8)

Net Cost of Operations (+/-)                           $             82.9            4,882.5               -                 -                7.5             (72.8)

Ending Balances                                        $              -                    1.7             -                 6.7              -                -

Unexpended Appropriations
 Beginning Balance                                     $             49.1            1,801.6               -                 -                -                -
 Prior Period Adjustments (+/-)                                       -                  -                 -                 -                -                -
 Beginning Balance, as adjusted                        $             49.1            1,801.6               -                 -                -                -
Budgetary Financing Sources
 Appropriation Received                                $             89.8            5,033.5               -                 -                 7.5             -
 Appropriations Transferred in/out (+/-)                              -                 (2.8)              -                 -                 -               -
 Other Adjustments (rescissions, etc.) (+/-)                         (0.7)             (38.3)              -                 -                 -               -
 Appropriations Used                                                (82.9)          (4,882.7)              -                 -                (7.5)            -
 Nonexchanged Revenue                                                 -                  -                 -                 -                 -               -

 Donations and Forfeitures of Cash and Cash Equivalents               -                    -               -                 -                -                -
 Transfers in/out Without Reimbursement (+/-)                         -                    -               -                 -                -                -
 Other Budgetary Financing Sources (+/-)                              -                    -               -                 -                -                -
Other Financing Sources:
 Donations and forfeitures of property                  $             -                    -               -                 -                -                -
 Transfers in/out Without Reimbursement (+/-)                         -                    -               -                 -                -                -
 Imputed financing from costs absorbed by others                      -                    -               -                 -                -                -
 Other (+/-)                                                          -                    -               -                 -                -                -
Total Financing Sources                                 $             6.2                109.7             -                 -                -                -

Net Cost of Operations (+/-)                           $              -                    -               -                 -                -                -

Ending Balances                                        $             55.3            1,911.3               -                 -                -                -




                                                                              279


           DoD Performance and Accountability Report                             3-191                                    Part 3. Financial Information
                                                                                               DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information

Funds Appropriated to the President
Administered by the Department of Defense
                                                                                  Foreign                                                       Foreign
                                                                International     Military                       Special         Foreign        Military
                                                                   Military     Financing      Military Debt    Defense       Military Loan   Financing,
        STATEMENT OF BUDGETARY RESOURCES                         Education      Program        Reduction       Acquisition    Liquidating     Direct Loan
                   As of September 30, 2005                     and Training      Grants        Financing         Fund          Account        Financing
                         ($ in Millions)                          11*1081        11*1082        11x4174         11x4116        11x4121         11x4122
Budgetary Financing Accounts
Budgetary Resources
Budget Authority
 Appropriation Received                                     $          89.7        5,033.5                -              -             7.5              -
 Borrowing Authority                                                      -              -                -              -               -              -
 Contract Authority                                                       -              -                -              -               -              -
 Net Transfers (+/-)                                                      -              -                -              -               -              -
 Other                                                                    -              -                -              -               -              -
Unobligated Balance
 Beginning of Period                                                     7.7            0.3               -           16.7                -             -
 Net Transfers, Actual (+/-)                                               -           (2.8)              -              -                -             -
 Anticipated Transfer Balances                                             -              -               -              -                -             -
Spending Authority from Offsetting Collections
 Earned                                                                   -               -               -              -               -              -
  Collected                                                               -             0.2               -              -               -              -
  Receivable from Federal Sources                                         -               -               -              -               -              -
 Change in unfilled Customer Orders                                       -               -               -              -               -              -
  Advance Received                                                        -               -               -              -               -              -
  Without advance from Federal Sources                                    -               -               -              -               -              -
 Anticipated for the rest of the Year, Without Advances                   -               -               -              -               -              -
 Transfers from Trust Funds                                               -               -               -              -               -              -
 Subtotal                                                   $             -             0.2               -              -               -              -
Recoveries of Prior Year Obligations                                   12.1             4.6               -              -               -              -
Temporarily Not Available Pursuant to Public Law                          -               -               -              -               -              -
Permanently Not Available                                              (2.2)          (38.5)              -          (10.0)              -              -

Total Budgetary Resources                                   $         107.3        4,997.3                -            6.7             7.5              -

STATUS OF BUDGETARY RESOURCES
Obligations Incurred
 Direct                                                     $          95.2        4,997.0                -              -             7.5              -
 Reimbursable                                                             -              -                -              -               -              -
 Subtotal                                                   $          95.2        4,997.0                -              -             7.5              -
Unobligated Balance
 Apportioned                                                            1.1            0.1                -              -               -              -
 Exempt from Apportionment                                                -              -                -              -               -              -
 Other Available                                                          -              -                -              -               -              -
Unobligated Balances Not Available                                     11.0            0.2                -            6.7               -              -
Total, Status of Budgetary Resources                        $         107.3        4,997.3                -            6.7             7.5              -

Relationship of Obligations to Outlays
Obligated Balance, Net - Beginning of Period                $          67.4        1,803.4                -              -                -             -
Obligated Balance Transferred, Net (+/-)                                  -              -                -              -                -             -
Obligated Balance, Net - End of Period:
 Accounts Receivable                                                      -              -                -              -                -             -
 Unfilled Customer Order from Federal Sources                             -              -                -              -                -             -
 Undelivered Orders                                                    41.6        1,912.5                -              -                -             -
 Accounts Payable                                                      27.1            0.3                -              -                -             -
Outlays
 Disbursements                                                         81.8        4,883.0                -              -             7.5              -
 Collections                                                              -           (0.2)               -              -               -              -
 Subtotal                                                   $          81.8        4,882.8                -              -             7.5              -
Less: Offsetting Receipts                                                 -              -                -              -               -              -
Net Outlays                                                 $          81.8        4,882.8                -              -             7.5              -




                                                                         280
                                                                                                 DoD Performance & Accountability Report FY2005
                ..................................................................................................Part 3: Financial Information

Funds Appropriated to the President
Administered by the Department of Defense
                                                                                  Foreign                                                          Foreign
                                                                International     Military                          Special         Foreign        Military
                                                                   Military     Financing        Military Debt     Defense       Military Loan   Financing,
        STATEMENT OF BUDGETARY RESOURCES                         Education      Program          Reduction        Acquisition    Liquidating     Direct Loan
                   As of September 30, 2004                     and Training      Grants          Financing          Fund          Account        Financing
                         ($ in Millions)                          11*1081        11*1082          11x4174          11x4116        11x4121         11x4122
NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Budget Authority
 Appropriation Received                                     $              -                 -              -                -               -           2.6
 Borrowing Authority                                                       -                 -            3.1                -               -          56.2
 Contract Authority                                                        -                 -              -                -               -             -
 Net Transfers (+/-)                                                       -                 -              -                -               -             -
 Other                                                                     -                 -              -                -               -             -
Unobligated Balance
 Beginning of Period                                                       -                 -            5.0                -               -          34.5
 Net Transfers, Actual (+/-)                                               -                 -              -                -               -             -
 Anticipated Transfer Balances                                             -                 -              -                -               -             -
Spending Authority from Offsetting Collections
 Earned                                                                    -                 -             -                 -              -              -
  Collected                                                                -                 -          13.6                 -          323.6          556.8
  Receivable from Federal Sources                                          -                 -             -                 -              -              -
 Change in unfilled Customer Orders                                        -                 -             -                 -              -              -
  Advance Received                                                         -                 -             -                 -              -              -
  Without advance from Federal Sources                                     -                 -             -                 -              -              -
 Anticipated for the rest of the Year, Without Advances                    -                 -             -                 -              -              -
 Transfers from Trust Funds                                                -                 -             -                 -              -              -
 Subtotal                                                   $              -                 -          13.6                 -          323.6          556.8
Recoveries of Prior Year Obligations                                       -                 -             -                 -              -              -
Temporarily Not Available Pursuant to Public Law                           -                 -             -                 -              -              -
Permanently Not Available                                                  -                 -             -                 -         (317.8)        (509.9)
Total Budgetary Resources                                   $              -                 -          21.7                 -            5.8          140.2

STATUS OF BUDGETARY RESOURCES
Obligations Incurred
 Direct                                                     $              -                 -          11.5                 -            5.8         102.4
 Reimbursable                                                              -                 -             -                 -              -             -
 Subtotal                                                   $              -                 -          11.5                 -            5.8         102.4
Unobligated Balance
 Apportioned                                                               -                 -           2.7                 -              -             -
 Exempt from Apportionment                                                 -                 -             -                 -              -             -
 Other Available                                                           -                 -             -                 -              -             -
Unobligated Balances Not Available                                         -                 -           7.5                 -              -          37.8
Total, Status of Budgetary Resources                        $              -                 -          21.7                 -            5.8         140.2

Relationship of Obligations to Outlays
Obligated Balance, Net - Beginning of Period                $              -                 -              -                -               -       3,628.9
Obligated Balance Transferred, Net (+/-)                                   -                 -              -                -               -             -
Obligated Balance, Net - End of Period:
 Accounts Receivable                                                       -                 -              -                -               -             -
 Unfilled Customer Order from Federal Sources                              -                 -              -                -               -             -
 Undelivered Orders                                                        -                 -              -                -               -       3,417.5
 Accounts Payable                                                          -                 -              -                -               -             -
Outlays
 Disbursements                                                             -                 -           11.5                -            5.8          313.5
 Collections                                                               -                 -          (13.6)               -         (323.6)        (556.8)
 Subtotal                                                   $              -                 -           (2.1)               -         (317.8)        (243.3)
Less: Offsetting Receipts                                                  -                 -              -                -              -              -
Net Outlays                                                 $              -                 -           (2.1)               -         (317.8)        (243.3)




                                                                         281
DoD Performance and Accountability Report                          3-193                                        Part 3. Financial Information
                                                                                                   DoD Performance & Accountability Report FY2005
               ..................................................................................................Part 3: Financial Information

Funds Appropriated to the President
Administered by the Department of Defense
                                                                                    Foreign                                    Foreign     Foreign
                                                                  International     Military         Military      Special     Military    Military
                                                                     Military     Financing          Debt         Defense       Loan     Financing,
               STATEMENT OF FINANCING                              Education      Program          Reduction     Acquisition Liquidating Direct Loan
                As of September 30, 2005                          and Training      Grants         Financing        Fund      Account     Financing
                      ($ in Millions)                               11*1081        11*1082         11x4174        11x4116     11x4121     11x4122
Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations Incurred                                        $          95.2        4,997.0            11.5              -        13.3       102.2
   Less: Spending Authority from Offsetting Collections and
  Recoveries (-)                                                         (12.0)         (4.8)           (13.6)            -      (323.5)     (556.8)
Obligations Net of Offsetting Collections and Recoveries      $           83.2       4,992.2             (2.1)            -      (310.2)     (454.6)
Less: Offsetting Receipts (-)                                                -             -                -             -           -           -
Net Obligations                                               $           83.2       4,992.2             (2.1)            -      (310.2)     (454.6)
Other Resources
  Donations and Forfeitures of Property                       $             -              -                -             -           -           -
  Transfers In/Out Without Reimbursement (+/-)                              -              -                -         (10.0)          -       (72.8)
  Imputed Financing from Costs Absorbed by Others                           -              -                -             -           -           -
  Other (+/-)                                                               -              -                -             -           -           -
  Net Other Resources Used to Finance Activities                            -              -                -         (10.0)          -       (72.8)
Total Resources Used to Finance Activities                    $          83.2        4,992.2             (2.1)        (10.0)     (310.2)     (527.4)
Resources Used to Finance Items not part of the Net Cost
of Operations:
Change in Budgetary Resources Obligated for Goods,
Services, and Benefits ordered but not yet provided
  Undelivered Orders (-)                                      $           (0.3)        (109.7)              -             -           -       211.3
  Unfilled Customer Orders                                                   -              -               -             -           -           -
Resources that fund expenses recognized in Prior Periods                     -              -               -             -           -           -
Budgetary Offsetting Collections and Receipts that do not
affect Net Cost of Operations                                                -                 -         13.6             -      323.5        556.8
Resources that Finance the Acquisition of Assets                             -                 -        (11.5)            -       (5.8)      (313.5)
Other Resources or Adjustments to net Obligated
Resources that do not affect Net Costs of Operations
Less: Trust or Special Fund Receipts related to exchange in
the Entity's Budget (-)                                                      -                 -            -            -            -           -
Other (+/-)                                                                  -                 -            -         10.0            -        72.8
Total Resources Used to Finance Items not part of the Net
Cost of Operations                                            $           (0.3)        (109.7)            2.1         10.0       317.7        527.4

Total Resources Used to Finance the Net Cost of
Operations                                                    $          82.9        4,882.5                -             -         7.5           -

Components of the Net Cost of Operations that will not
Require or Generate Resources in the Current Period
Components Requiring or Generating Resources in Future
Periods
  Increase in Annual Leave Liability                          $              -                 -            -             -           -           -
  Increase in Environmental and Disposal Liability                           -                 -            -             -           -           -
  Upward/Downward Reestimates of Credit                                      -                 -            -             -           -       (72.8)
  Subsidy Expense (+/-)
  Increase in Exchange Revenue Receivable from the Public (-)                -                 -            -             -           -           -
  Other (+/-)                                                                -                 -            -             -           -           -
Total Components of Net Cost of Operations that will
require or generate Resources in Future Periods               $              -                 -            -             -           -       (72.8)

Components Not Requiring or Generating Resources
 Depreciation and Amortization                                $              -                 -            -             -           -           -
 Revaluation of Assets or Liabilities (+/-)                                  -                 -            -             -           -           -
 Other (+/-)                                                                 -                 -            -             -           -           -
Total Components of Net Cost of Operations that will not
Require or Generate Resources                                 $              -                 -            -             -           -           -


Total Components of Net Cost of Operations that will not
Require or Generate Resources in the Current Period           $              -                 -            -             -           -       (72.8)

Net Cost of Operations                                        $          82.9        4,882.5                -             -         7.5       (72.8)


                                                                           282
Part 4: Inspector
General’s Summary of
Management Challenges
                                                                             DoD Performance & Accountability Report FY2005
             ...............................................Part 4: Inspector General’s Summary of Management Challenges

                                                                  operations. Although other management challenges
Part 4. Inspector General’s Summary of                            encompass areas that impact joint warfighting
        Management Challenges                                     and readiness issues, the synergy of those other
                                                                  management challenges will determine the extent to
This part of the report contains the complete text of the         which the United States will be able to achieve its
Inspector General’s summary of the most significant               national objectives through joint operations.
management challenges facing the Department.
Management’s response to the Inspector General’s                  Discussion
assessment is at the end of this section.
                                                                  Our review of the management of National
The management challenges that the Inspector                      Committee for Employer Support of the Guard
General (IG) identified, based on audits,                         and Reserve identified several areas where controls
investigations, and inspections, fall into nine major             can be improved to ensure that Reserve component
areas. These areas, which have been identified in the             personnel continue to receive support while they
Department of Defense (DoD) Performance and                       serve their country. Similarly, the Department’s
Accountability Reports since fiscal year                          oversight of that program can also be improved.
(FY) 2002, remain significant challenges. The
challenge areas, summarized here and in past                      We have also reviewed areas and identified issues
Performance and Accountability Reports, are as                    in areas such as requirements generation, training,
follows:                                                          and adapting to meet changing conditions in the
                                                                  Department. One hurdle the armed forces face
•	 Joint Warfighting and Readiness,                               is being able to meet any threat, while operating
•	 Homeland Defense,                                              within strict resource constraints. If the Department
•	 Human Capital,                                                 becomes involved in stabilization or peacekeeping
•	 Information Technology Management,                             operations, the resources required could be great. If
•	 Acquisition Processes and Contract Management,                 that were to happen while operations in Iraq and
•	 Financial Management,                                          Afghanistan continue, the Department could face
•	 Health Care,                                                   difficult issues about troop strengths, recruiting and
•	 Logistics, and                                                 retention, and equipment readiness. In addition, the
•	 Infrastructure and Environment.                                current situations involving the nuclear programs of
                                                                  North Korea and Iran present additional resource
                                                                  requirements.
Joint Warfighting and Readiness
                                                                  DoD lacks comprehensive policy, guidance, and
U.S. forces continue to transform to meet the threats             training concerning roles, missions, functions, and
of the 21st century and beyond. The ongoing                       relationships of Combatant Command IGs. This
efforts by the Services, incorporating the lessons                significantly inhibits the ability of these IGs to
learned of Operations Iraqi Freedom and Enduring                  perform their duties in support of the combatant
Freedom, focus on evolving the armed forces to                    command commanders. DoD Office of Inspector
meet all threats, the conventional threat as well as              General (OIG) is collaborating with the Inspectors
the asymmetrical threat. But unlike previous eras,                General of the Joint Staff, Combatant Commands,
the United States finds itself with another type of               and Military Departments to provide the desired
readiness being required of its armed forces; the                 training and guidance for this community of
ability to conduct peacekeeping and stabilization                 IGs. DoD OIG organized and supervised the

                                                            285
                                                                             DoD Performance & Accountability Report FY2005
            ...............................................Part 4: Inspector General’s Summary of Management Challenges

development of the Joint/Combatant Command IG                     Homeland Defense
course. The first class for this course was held from
August 29 to September 2, 2005.                                   The Department defines “threat” as any circumstance
                                                                  or event with the potential to cause harm. The
Inspector General Assessment of Progress                          global war on terror continues to heighten the level
                                                                  of threat from adversaries to the United States.
The Department continues to make progress in the                  Direct threats to the Homeland infrastructure are
area of Joint Warfighting and Readiness. However,                 obvious and the DoD has been very successful in
much is still to be done, and the Department cannot               addressing those threats. However, greater challenges
afford to ignore new, and in some cases recurring,                are presented by threats from sources such as
situations that will require its attention. The recent            (1) dual-use items, (2) weapons of mass destruction
announcement of bases identified for closures will                in the former Soviet Union, (3) lengthy personnel
enable the armed forces to shape and focus their                  background security clearance checks, (4) critical
force structure in a way that will provide greater                infrastructure protection, and (5) “9/11.”
flexibility in responding to threats. The announced
drawdown, and coinciding reorganization of forces                 Discussion
in the European and Pacific theaters will add
to the ability of the armed forces to respond as                  Dual Use Items. Dual-use items are items that can
required. The OIG, as well as the U.S. Government                 be used for both commercial and military purposes.
Accountability Office (GAO), the Army Audit                       The items may take the form of technology,
Agency, the Naval Audit Service, and the Air Force                software, and chemical or biological items and could
Audit Agency each have covered topics related to                  be used to cause harm to the United States.
improving the ability of the armed forces to respond
to threats to the United States. During the past 5                Controlling the use and transfers of dual-use items
years we have seen inconsistent and poor guidance                 poses a significant undertaking for the Department.
used in selected programs of the Department. For                  This undertaking is significant because controls
example, reviews of depot repair, logistics support,              over dual-use items are handled on a case-by-case
and weather programs have each shown where                        basis and blanket rules or regulations may not be
improvements can be made.                                         applicable. For example, teaching someone about a
                                                                  technology might be a legitimate technology transfer
The lessons of Operations Iraqi Freedom and                       but showing the same person specifically how to
Enduring Freedom have served as reminders that                    produce the technology could be extremely risky
joint also means the full integration of the Reserve              to the Nation’s defense. Thus, the Department is
components into operations. This full participation               faced with identifying sub-components of systems
presents unique concerns, many revolving around                   that may be transferred legitimately. Determining
dependent family members that do not always                       the risks and benefits of transfers challenges the
confront the Active components. Many of those                     Department to develop controls over transfers of
issues will persist despite the best efforts of the armed         dual-use items in each of the following areas:
forces. Although the Department is taking positive
actions in order to increase its warfighting ability and          •	 Federal laboratories’ compliance with the
readiness posture, opportunities to improve continue                 deemed export (a deemed export of technology
to exist.                                                            or computer source code takes place when it is
                                                                     released to a foreign person within the United
                                                                     States) licensing requirements,

                                                            286
                                                                              DoD Performance & Accountability Report FY2005
            ...............................................Part 4: Inspector General’s Summary of Management Challenges

•	 Policies and procedures for developing,                        in an effort to improve the process. Both GAO
   maintaining, and revising lists of controlled                  and the OIG have issued reports documenting
   exports,                                                       the backlog of investigations. The Department is
•	 Export licensing and review agencies’ efforts to               involved in an unprecedented transformation of
   modernize and interface their automated licensing              the personnel security program. The scope of this
   systems,                                                       initiative includes: personnel transfers and training;
•	 Enforced export controls for both dual-use items               establishing and disestablishing offices; modifying
   and munitions (dual-use items can be used for                  and creating information systems; issuing new
   either commercial or military purposes), and                   policies, and selecting contractors. The effort to
•	 The Federal Government’s deemed exports control                transform is extraordinarily time consuming and
   laws and regulations and the export licensing                  must occur in an environment where demand
   process for chemical and biological commodities.               for security clearances continues to exceed the
                                                                  Department’s capacity.
Threat Reduction. The Department continued
to experience challenges in its threat reduction                  Critical Infrastructure Protection. In September
program. During the past 4 years, we have                         2003, the Deputy Secretary of Defense realigned
evaluated implementation of the Cooperative Threat                Critical Infrastructure Protection (CIP) oversight
Reduction Program. That program was initiated                     to the Assistant Secretary of Defense for Homeland
to reduce the threat posed by weapons of mass                     Defense (ASD(HD)). The ASD(HD) was tasked
destruction in the former Soviet Union by providing               to focus on the planning and execution of DoD
assistance to former Soviet states in building facilities         resources in preventing and responding to threats to
and operating programs to safeguard, transport, and               infrastructures and assets critical to DoD missions.
ultimately destroy chemical, biological, and nuclear              Subsequently, the ASD(HD) requested that the OIG
weapons, delivery systems, and infrastructure.                    assist them in meeting their CIP responsibilities by
                                                                  evaluating the proposed CIP policy and organization;
The Department has not sufficiently managed                       validating the efficiency and effectiveness of the
implementation and execution of cooperative threat                vulnerability assessment methodologies; reviewing
reduction projects. Adequate controls for the                     procedures related to vulnerability assessments for
program and its projects are vital to ensuring that the           data collection and analysis, implementing corrective
limited funds are used effectively.                               actions, and sharing lessons learned. Consequently,
                                                                  we announced our CIP Evaluation Program in June
Personnel Security Clearances. Obtaining timely                   2004 to assess the Defense Critical Infrastructure
personnel security clearances for DoD military and                Program with emphasis on assets exposed to high-
civilian employees is a challenge. Since at least the             risks. In February 2005, the DoD OIG presented
1990s, GAO has documented problems with DoD                       the final briefing to ASD(DH) and recommended
personnel security clearance process, particularly                a series of organizational changes and process
problems related to backlogs and the delays in                    improvements for the CIP program.
determining clearance eligibility. Since FY 2000,
the Department has declared its personnel security                ASD(HD) accepted and endorsed all of
investigations program to be a systemic weakness.                 the recommendations. Implementing the
In FY 2004, GAO added the personnel security                      recommendations will present a number of
clearance process to its list of High Risk Areas. In              management challenges. For example, the DoD
February 2005, the investigative portion of the                   must be organized to perform its mission and also
personnel security clearance process transitioned                 provide assistance to civil agencies in the event of
to the Office of Personnel Management (OPM)                       another terrorist attack. Organizational changes
                                                            287
                                                                           DoD Performance & Accountability Report FY2005
           ...............................................Part 4: Inspector General’s Summary of Management Challenges

will need to be made to ensure compliance with                  Guide that requires additional control procedures in
news laws and executive guidance. Furthermore, the              contracting was released.
transformation process will need to consider human
capital and resource requirements commensurate                  Personnel Security. The Department made changes
with program responsibilities and mission                       in the area of personnel security clearances but it is
requirements. Lastly, the ASD(HD) will need to                  uncertain whether those changes represent progress.
develop a consolidated approach for addressing                  The Department transferred responsibility for
responsibility, authority, and funding for the                  investigations to OPM and retained adjudicative
protection of Defense infrastructure both within the            responsibility. Like personnel security investigations,
continental U.S. and overseas.                                  adjudications are backlogged. It is unclear how the
                                                                Department proposes to overcome the shortage
“9/11.” The challenge is to improve response                    of appropriately skilled and trained personnel
capability. The intelligence community, the DoD,                in the Federal and private sectors to accomplish
and the Department of Transportation should be                  background investigations and clearance eligibility
able to respond to a future similar event or another            adjudications. The OIG review of the requesting
significant event.                                              activities’ role in impeding the overall clearance
                                                                process will identify additional areas for progress to
Inspector General Assessment of Progress                        be made.

The Department must always be aware of and                      Critical Infrastructure Protection. The OIG
vigilant in protecting the United States and its                examined the process used to identify critical nuclear
interests so the challenge of Homeland defense will             command and control facilities and equipment.
likely change over time but not diminish. While                 The report discussed needed improvements in DoD
the areas described require continued vigilance, the            policy oversight and management.
Department has made some progress in each.
                                                                9/11. The OIG conducted an accountability
Dual Use Items. In 2005, the interagency review                 review of intelligence community activities before
of export licensing resulted in a positive report               and after the attacks of September 11, 2001. The
on the Department’s process for reviewing export                report concluded that there was no evidence of
licenses. The Department is working with other                  omission, commission, or failure by the National
Federal entities to expand the control list for                 Security Agency personnel to meet professional
several biological commodities. The Department                  standards, but the overall effectiveness of the agency
must continue to thoroughly analyze the U.S.                    counterterrorism mission was limited because it was
interests when participating in transfer of dual-use            inadequately resourced.
technology, software, chemical, and biological items.
                                                                The OIG report on DoD forensic capabilities and
Threat Reduction. Key oversight positions were                  incident reporting discussed how the DoD prepared
vacant for about 5 years and oversight responsibilities         after-action information related to the events of the
were not clearly defined. However, in July 2004,                9/11 terrorist attacks and identified weaknesses in
a Senior Business Officer position was filled and               the DoD’s ability to sufficiently capture and report
additional oversight responsibility resides in that             on actions taken to respond to a future similar event
position. In April 2005, the Cooperative Threat                 or another significant event.
Reduction Integrating Contracts Business Processes


                                                          288
                                                                           DoD Performance & Accountability Report FY2005
           ...............................................Part 4: Inspector General’s Summary of Management Challenges

The Office of the Assistant Secretary of Defense                Without focused recruiting, knowledge management
for Homeland Defense and the U.S. Northern                      programs, and a transparent personnel system,
Command worked effectively to coordinate                        the DoD may have difficulty hiring, developing,
Departmental Homeland defense policy and                        training, and retaining high quality people to
resources. Initiatives to coordinate policy and                 become skilled soldiers, workers, managers, and
resources at the Federal level with the Department of           leaders.
Homeland Security are underway.
                                                                Discussion
The Defense Criminal Investigative Service (DCIS)
also plays an important role in the global war on               The Department’s challenge in human capital
terror. DCIS continues to participate actively in               include four major areas: recruiting and retaining
several Joint Terrorism Task Force (JTTF) initiatives           military personnel, implementing the National
nationwide. Additionally, DCIS maintains a full                 Security Personnel System (NSPS), minimizing
time liaison position with the National JTTF                    disruption from Base Realignment and Closure
located with the National Counterterrorism Center               (BRAC), and ensuring compliance with restrictions
in Northern Virginia. DCIS HQs and field agents                 on post-government employment activities.
continue to respond to inquires and investigative
assistance requests from all levels of law enforcement          Military Personnel. The DoD has three major
in regards to DoD resources and involvement in                  military operations that require significant military
JTTF matters.                                                   personnel. As pointed out in the section on Joint
                                                                Warfighting and Readiness, new operations of any
                                                                kind including stabilization or peacekeeping could
Human Capital                                                   further stress personnel resources. In addition to
                                                                overall personnel recruitment and retention, the
The challenge in the area of human capital is                   DoD faces continued challenge in filling “hard-
multifaceted. The DoD must ensure that civilian                 to-recruit/hard to retain” occupations. The GAO
and military workforces are appropriately sized, well           reported that unlike 2004, 2005 has not seen the
trained and motivated, held to high standards of                Department exceed or reach recruitment goals.
integrity, encouraged to engage in intelligent risk
taking, and capable of functioning in an integrated             National Security Personnel System. As recently
work environment and handling the emerging                      as July 2005, the GAO reported on challenges it
technologies and threats of the 21st century. That              identified that the DoD would face in implementing
challenge involves ensuring that the Department’s               the National Security Personnel System. Among
workforce planning is focused on acquiring,                     the challenges are providing adequate resources
developing and retaining a total workforce to                   to implement the system, ensuring effective
meet the needs of the future including contractor               communication in implementing and evaluating
workforce. The Department employs over                          the system, involving key players effectively,
3.38 million civilian and military personnel, with              and sustaining committed leadership. GAO
an annual financial investment of over $100 billion.            recommended creating a position and appointing a
The challenges of managing such a large workforce               chief management official to lead NSPS and other
plus contractor personnel include the need for the              initiatives.
Department to identify and maintain a balanced
level of skills to maintain core defense capabilities           BRAC. In closing and realigning installations the
and meet the 21st century challenges and threats.               Department is likely to lose general and specialized

                                                          289
                                                                           DoD Performance & Accountability Report FY2005
           ...............................................Part 4: Inspector General’s Summary of Management Challenges

skills as a result of personnel choosing to leave the           parties and has formed working groups to identify
workforce rather than move. The challenge for the               and develop options and alternatives for NSPS.
Department is to plan for the losses and provide                The Department has adjusted its implementation
for the replacement of the skills so it minimizes               schedule to better effect the changes needed for the
disruption to defense operations.                               program. It has developed communications to target
                                                                groups within the Department and methodologies to
Post-Government Employment Activities.                          gauge effectiveness. The Department efforts to gain
Compliance with restrictions on post-government                 support from the unions has not been successful and
employment activities is another challenge the                  remains a major challenge within the area.
Department faces as it strives to maintain a high
standard of integrity and public confidence.                    BRAC. Decisions regarding loss of human capital
Disclosure of a Pentagon acquisition official’s                 skills are contingent on the decisions of the
violation of post-employment guidelines prompted                BRAC Commission and approval of the of the
Members of Congress and senior level DoD                        Commission’s list. Progress on planning for the loss
officials to question whether current training and              of skills is pending.
information provided to employees are sufficient
to prevent similar irregularities. GAO issued an                In recognition that human capital is a crucial area
April 2005 report on the “Defense Ethics Program:               within the DoD, the OIG continued its audit team
Opportunities Exist to Strengthen Safeguards for                dedicated to the area of human capital.
Procurement Integrity,” (Report No. GAO-05-341),
which stated the Department of Defense lacks
information to evaluate the DoD training and                    Information Technology Management
counseling process.
                                                                The Department defines information technology
Inspector General Assessment of Progress                        (IT) as a tool that enables the Department to
                                                                perform its mission and support functions effectively
Military Personnel. The Department has                          and efficiently. In June 2004, the DoD Chief
used bonuses extensively to make enlistment                     Information Officer (CIO) developed a strategic plan
and reenlistment more attractive. In addition                   for the management and acquisition of IT. The goals
to monetary bonuses, the Department offers                      of the strategic plan are to:
educational opportunities of various kinds to attract
recruits. The services have increased the number of             •	 Develop and implement an IT infrastructure,
recruiters as a means of reaching more people. GAO              •	 Share data and information,
is reviewing the DoD efforts to recruit and retain              •	 Improve business processes and train people, and
military personnel and plans to report its findings             •	 Develop and maintain information assurance
this Fall.                                                         practices.

National Security Personnel System. The DoD                     Discussion
is phasing in the NSPS, the system designed to
change how the Department hires, pays, promotes,                The Department IT goals present a management
disciplines, and fires its civilian workforce to make           challenge regarding IT action plans to implement
practices more in line with personnel practices in              and assess the Department’s IT strategy.
the private sector. The Department has conducted
meetings with employees, unions, and other affected

                                                          290
                                                                           DoD Performance & Accountability Report FY2005
           ...............................................Part 4: Inspector General’s Summary of Management Challenges

IT Infrastructure. The Department has a strategy                Information Assurance. The Department has
for improving bandwidth, communication                          developed five priorities for information assurance:
capabilities, using commercial software, and                    protecting information, defending systems and
developing an enterprise architecture. However,                 networks, providing situational awareness, improving
the strategy does not identify responsible officials,           information assurance capabilities, and creating
establish metrics, or require the development of                a professional information assurance workforce.
action plans to implement the strategy or identify              However, an action plan does not exist to assess the
necessary changes to the strategy. Further, the                 effectiveness of these initiatives.
Department has a stated goal to eliminate internal
software design activities in favor of commercial-              Inspector General Assessment of Progress
off- the shelf-software; however, if the Department
acquires software on a cost-effective basis, internal           In April 2005, GAO identified business system
design activities will cease to exist when they cannot          modernization as a High-Risk Area. Under the
deliver better quality than commercial sources in               business systems modernization area, GAO stated
conformance with the President’s Management                     that the Department framework was good but lacked
Agenda on using performance and results to make                 a comprehensive and integrated plan of action. We
decisions.                                                      agree based upon our review of the IT strategic
                                                                plan. The Department should develop action plans
Data and Information. The Department has a                      to implement and refine the solutions made in
stated goal to make information readily available to            the IT strategic plan. Those action plans should
those who need it in a useable format. However,                 incorporate audit community recommendations.
the strategy does not require the development of an
action plan to assign responsibilities and the metrics          The OIG reported on the DoD intelligence agencies
to assess progress. The plan also does not state                security status for the Federal Information Security
whether the requirement pertains to existing data in            Management Act. Further, an OIG audit of
legacy systems. Historically, many system developers            Defense Contract Management Agency information
have opted not to convert legacy data because of the            technology security posture for selected programs
high costs attached.                                            disclosed systemic weaknesses in IT security at four
                                                                selected agency field offices, including problems
Business Processes and People. The Department                   with the certification and accreditation process,
has established the Business Management                         contingency planning, incident response programs,
Modernization Program to ensure the development                 and security awareness training.
of standard information systems. The plan lists the
CIO and Chief Financial Officer as proponents of                In December 2004, the Department agreed to
the process; however, the plan does not define the              develop and implement a Plan of Action and
roles of the Services and Defense Agencies. Further,            Milestones to manage and close identified security
the plan does not discuss an action plan that defines           performance weaknesses in information technology
the role of these key players as well as the necessary          security. The first step toward that end is a policy
metrics to assess the program. The plan does                    memorandum establishing the process. The OIG
describe the actions the DoD is taking to train DoD             received the policy memorandum for review on
personnel; however, it does not provide a mechanism             August 18, 2005.
to assess the progress made.




                                                          291
                                                                            DoD Performance & Accountability Report FY2005
            ...............................................Part 4: Inspector General’s Summary of Management Challenges

Acquisition Processes and Contract                               former Principal Deputy Secretary of the Air Force
Management                                                       for Acquisition and Management and the former
                                                                 Chief Financial Officer for the Boeing Company
The Department buys the largest amount and                       and their impact on acquisition programs highlight
biggest variety of goods and services in the world               the need for continued training for acquisition
in support of its mission to preserve and defend the             professionals. Adverse actions taken by very
security of the nation. In FY 2004, the DoD spent                few people can cause delay for major acquisition
$254 billion on acquisitions. On an average every                programs, impede quick delivery of new capabilities
working day, the DoD issues more than 25,000                     to the warfighter, and adversely affect the public
contract actions, valued at $923 million, and makes              perception of the integrity of the acquisition process.
more than 195,000 credit card transactions, valued
at $44 million. There are about 1,500 weapon                     The OIG conducted an accountability review of all
acquisition programs valued at $2.2 trillion over the            members of the Office of the Secretary of Defense
collective lives of these programs. The amount spent             and the Air Force to determine what happened,
to procure services, $77 billion in FY 2001, grew to             who was accountable, and what actions must be
$123 billion in FY 2003 as the DoD continued to                  taken to prevent a situation like the Boeing KC-
expand its need for support to the private sector. In            767A tanker aircraft lease from happening again.
addition, in FY 2004, the DoD sent about 24,000                  The report identified the DoD and Air Force
Military Interdepartmental Purchase Requests                     officials accountable. Although required to do so
valued at $8.56 billion to the General Services                  by DoD directive, the identified officials did not
Administration (GSA) for the purchases of goods                  comply with the DoD 5000 series of guidance,
and services. The management challenge is, despite               the Federal Acquisition Regulation, and the Office
this huge scale, to provide required materiel and                of Management and Budget circulars during their
services that are superior in performance, high in               efforts to lease the tanker aircraft. To prevent
quality, sufficient in quantity, and reasonable in cost.         reoccurrences of this situation, the Department of
Every acquisition dollar that is not prudently spent             Defense must change the cultural environment in
results in the unavailability of that dollar to fund the         its acquisition community to ensure that the proper
top priorities of the Secretary of Defense.                      control environment is reestablished and followed
                                                                 for major weapon-system acquisitions.
Discussion
                                                                 The Department continues to experience a variety
                                                                 of shortcomings in its approach to program office
Maintaining an effective and sustainable acquisition
                                                                 and contractor designs. Significant shortcomings
workforce in light of changing acquisition strategies
                                                                 have occurred in placing controls in the contracting
and vehicles, prior downsizing, and an aging
                                                                 process and contract terms over life-cycle costs,
workforce, is a challenge. The OIG is reviewing
                                                                 in particular of designs. For example, because of
the implications of these changes on the ability of
                                                                 cost overruns on chemical-agent disposal facilities,
the acquisition workforce to effectively manage the
                                                                 the Congress required the Department to certify
billions of dollars expended on acquisitions.
                                                                 that life-cycle costs of a specific facility would not
                                                                 exceed $1.5 billion in FY 2002 constant dollars.
The Department must be vigilant in investigating
                                                                 The overarching problem was that the program
procurement fraud and violations of procurement
                                                                 manager ignored the facility life-cycle cost limitation
integrity rules to optimize the financial resources
                                                                 that the Department certified to the Congress,
appropriated for national defense. The investigations
                                                                 resulting in the acquisition not being executable and
of violations of the Procurement Integrity Act by the

                                                           292
                                                                            DoD Performance & Accountability Report FY2005
            ...............................................Part 4: Inspector General’s Summary of Management Challenges

affecting the ability of the Department to meet its              In the GSA transactions, between $1 billion to $2
commitments.                                                     billion in Department funds were used that were no
                                                                 longer available.
The audit community continued to identify ways
that the Department could improve acquisition of                 The Defense auditing community is heavily
weapon system programs, including the following                  involved in helping the Department aggressively
examples:                                                        pursue savings through the use of credit cards and
                                                                 reduce its vulnerability to misuse. In reports and
•	 Identify quantity requirements, determine weapon              testimony, the OIG DoD and the GAO identified
   system affordability, obtain satisfactory operational         where the Department needed to increase focus on
   test results, and obtain authority to operate before          negotiating discounts and to leverage $7.2 billion
   making investment decisions (OIG audits of the                in DoD purchase card spending in order to achieve
   EA-6B Improved Capability III Program and                     hundreds of millions of savings. The OIG DoD
   Extended Range Guided Munition Program); and                  reported that controls over purchase card use were
•	 Implement effective management internal controls              not properly implemented and were ignored by
   (OIG audits of 16 Navy and Air Force acquisition              senior management at the Space and Naval Warfare
   category II and III programs valued at                        Information Technology Center, New Orleans. This
   $7.7 billion).                                                incident occurred between FY 1999 and
                                                                 FY 2002 and the OIG DoD officially closed the
The Department also has significant challenges                   report for follow-up purposes on April 22, 2005.
regarding purchases the GSA made for the                         The Washington Headquarters Services revealed
Department. Military Interdepartmental Purchase                  that agency employees made about $1.7 million of
Requests valued at about $406 million that were                  fraudulent purchases and $201,000 of improper
used primarily in the fourth quarter of FY 2004                  purchases with purchase cards to including computer
did not comply with the U.S. Constitution,                       games, coffee mugs, radios, and power tools.
appropriations law, and the Federal Acquisition
Regulation for making purchases through the GSA.                 Combating government procurement fraud remains
Of 75 purchases:                                                 a priority for Defense Criminal Investigative
                                                                 Organizations. For example, the provision of sub-
•	 68 purchases lacked acquisition planning to                   standard or defective products that are meant to
   determine that contracting through the GSA was                support and/or protect our warfighters constitutes
   the best alternative available;                               15 percent of the 1,610 DCIS open cases as of
•	 74 purchases did not have adequate interagency                August 1, 2005.
   agreements outlining the terms and conditions of
   the purchases;                                                Inspector General Assessment of Progress
•	 38 purchases were funded improperly, the
   requesting DoD organization either did not have               Overall, the Department has made progress
   a bona fide need for the requirement in the year              improving numerous acquisition processes. Despite
   of the appropriation, or did not use the correct              progress, the growing volume of acquisitions, the
   appropriation to fund the requirements; and                   decrease in the number of acquisition personnel,
•	 44 purchases were not supported by an adequate                and the numerous annual changes in regulations
   audit trail.                                                  and processes for the acquisition professional make



                                                           293
                                                                               DoD Performance & Accountability Report FY2005
            ...............................................Part 4: Inspector General’s Summary of Management Challenges

this a long-term challenge. During the last year,                  Accounting Service, the Department’s accounting
one DoD agency was developing a processing and                     services provider, on behalf of the Department: paid
exploitation system when a better and cheaper                      12.6 million commercial invoices, made 6.9 million
system already existed. In addition, the Department                travel payments, processed
has had to react to previously unidentified problems               104 million payments to 5.9 million people
related to the acquisition of major systems, such as               (including benefits to retirees and families), made
the KC-767A Tanker aircraft and C-130J aircraft,                   $455 billion in disbursements, managed
contracting for Operation Iraqi Freedom and use                    $13.5 billion in foreign military sales, managed
of multiple-award schedule contracts from other                    $226.5 billion in military retirement trust fund, and
Federal agencies. The DoD positively reacts after                  accounted for 282 active DoD appropriations.
problems are identified; however, the sheer volume
of contracting creates a challenge of correcting the               In FY 2004, as in recent years, the Office of
problems.                                                          Management and Budget (OMB) required the
                                                                   Department to prepare Department-wide financial
The Department needs to continue with vigilant                     statements and obtain an audit opinion on them
investigations of allegations of corrupt acquisition,              and on eight DoD component financial statements,
both criminally and administratively. Undoubtedly,                 including the Military Retirement Trust Fund,
the works of a few to undermine the integrity of                   the Corps of Engineers and the general funds and
the acquisition process can setback the success                    working capital funds for the Army, Air Force, and
of millions of acquisition actions within the                      Navy. Of those, only the Military Retirement Trust
department.                                                        Fund received an unqualified opinion. The others,
                                                                   including the DoD agency-wide financial statements,
Proactive efforts of the DoD OIG data mining group                 received a disclaimer of opinion, and have never
and the Department purchase card program office                    received other than a disclaimer of opinion. Three
have been increasing senior leadership involvement                 intelligence agencies also prepare financial statements
and improving management controls over the                         at the direction of the Senate Select Committee on
purchase card program. For example, the DoD                        Intelligence.
reduced the number of purchase cards by 47 percent,
from 214,000 to 114,000. Also, the Department                      Discussion
developed a standardized training program for
card holders and billing officials and improved the                The Department faces financial management
policies, guidance, and controls on purchase card                  challenges that are complex, long-standing, and
use.                                                               pervade virtually all its business operations, affecting
                                                                   the ability to provide reliable, timely, and useful
                                                                   financial and managerial data to support operating,
Financial Management                                               budgeting, and policy decisions. Because the
                                                                   DoD’s financial management problems are so
The Department of Defense financial management                     significant, the GAO has stated that DoD’s financial
environment is probably the most complex and                       management deficiencies, taken together, represent
diverse in the world. Its FY 2004, financial                       a major impediment to achieving an unqualified
statements included $1.2 trillion in assets,                       opinion on the U.S. Government’s consolidated
$1.7 trillion in liabilities, total budgetary resources of         financial statements.
more than $1 trillion, and $605 billion in Net Cost
of Operations. In FY 2004, the Defense Finance and                 GAO identified DoD financial management as

                                                             294
                                                                           DoD Performance & Accountability Report FY2005
           ...............................................Part 4: Inspector General’s Summary of Management Challenges

a High Risk Area in 1995, a designation that                    •	 Fund Balance with Treasury: DoD did not
continues to date, and which, together with the                    resolve financial and reporting inconsistencies to
High Risk Areas of business systems modernization                  accurately report Fund Balance with Treasury and
(designated a High Risk Area in 1995), and supply                  inconsistencies continue to exist related to: in-
chain management (designated a High Risk Area                      transit disbursements; problem disbursements,
in 1990) directly affect the Department’s ability to               including unmatched disbursements and negative
attain an unqualified audit opinion on its financial               unliquidated obligations; unreconciled differences
statements. Additionally, GAO designated the DoD                   in suspense accounts; and unreconciled differences
Approach to Business Transformation as a new High                  between U.S. Treasury records and DoD.
Risk Area for 2005 because the DoD lacked an                    •	 Inventory: The DoD process for inventory
integrated strategic planning approach to business                 valuation does not produce an auditable
transformation. In its June 30, 2005, Executive                    approximation of historical cost because the
Branch Management Scorecard, OMB assessed the                      associated gains and losses cannot be accurately
status of the Department’s financial performance                   tracked to specific transactions. Additionally, the
as “Unsatisfactory”. The Scorecard also assessed                   DoD does not distinguish between Inventory Held
the Department’s progress at implementing the                      for Sale and Inventory Held in Reserve for Future
Financial Performance component of the President’s                 Sale.
Management Agenda as “Unsatisfactory”.                          •	 Operating Materials and Supplies: The DoD
                                                                   continues to expense significant amounts of
The DoD OIG has previously identified several                      operating material and supplies when purchased
material control weaknesses that reflect some of the               instead of when they were consumed.
pervasive and long-standing financial management                •	 Property, Plant, and Equipment: The DoD’s
issues faced by the DoD and which also directly                    legacy property and logistic systems were not
impact the Department’s ability to attain an                       designed to capture acquisition cost, costs
unqualified opinion on its financial statements.                   of modifications and upgrades, or calculate
These include:                                                     depreciation. In addition, value of DoD Property,
                                                                   Plant, and Equipment is not reliably reported
•	 Financial Management Systems: Of the material                   because of a lack of supporting documentation.
   control weaknesses, the most significant is the              •	 Government-Furnished Material and Contractor-
   Department’s financial management systems.                      Acquired Material: The DoD is unable to comply
   The Department currently relies on an estimated                 with applicable requirements for Government-
   4,000 systems, including accounting, acquisition,               Furnished Materials and Contractor Acquired
   logistics, personnel, and management systems, to                Materials. As a result, the value of DoD property
   perform its business operations. Many of those                  and material in the possession of contractors is not
   financial management systems do not substantially               reliably reported.
   comply with Federal financial management systems             •	 Environmental Liabilities: Environmental
   requirements. The DoD financial management                      liability estimates were unreliable because certain
   and feeder systems were not designed to adequately              DoD activities did not have effective controls
   support various material amounts on the financial               in place to ensure adequate audit trails and
   statements. These systemic deficiencies in financial            supporting documentation for estimates, comply
   management and feeder systems and inadequate                    with established guidance in developing estimates,
   DoD business processes result in the inability                  maintain reliable feeder and coordination systems,
   to collect and report financial and performance                 document supervisory review of estimates, and
   information that is accurate, reliable, and timely.             establish quality control programs.

                                                          295
                                                                           DoD Performance & Accountability Report FY2005
           ...............................................Part 4: Inspector General’s Summary of Management Challenges

•	 Intragovernmental Eliminations: Because                      reaching this goal as demonstrated by the audit
   DoD’s accounting systems do not capture trading              opinions received by the Department and its
   partner data at the transaction level in a manner            components on their FY 2005 financial statements.
   that facilitates trading partner aggregations, the           The Department established a goal to achieve an
   DoD made unsupported adjustments because it                  unqualified audit opinion in FY 2007. However,
   was unable to reconcile most intragovernmental               GAO has concluded that an unqualified FY 07 audit
   transactions.                                                opinion remains simply a goal for which there is not
•	 Other Accounting Entries: The DoD continues                  yet a clearly defined, well-documented, and realistic
   to enter material amounts of unsupported                     plan to achieve. However, the Department’s ongoing
   accounting entries.                                          initiatives in the area of financial management
•	 Statement of Net Cost: Current financial                     improvement as subsequently described indicate that
   processes and systems do not capture and report              DoD management is aggressively responding to the
   accumulated costs for major programs based                   significant and pervasive financial management issues
   on performance measures identified under the                 and is positioning itself to leverage planned systems
   requirements of the Government Performance and               and business improvements to achieve sustainable
   Results Act.                                                 and long-term solutions.
•	 Statement of Financing: The DoD is unable
   to reconcile budgetary obligations to net costs              The Department’s plans to improve financial
   without making adjustments.                                  management is captured by its emphasis on the
                                                                core business mission of Financial Management as
The Department’s material control weaknesses will               one of five core business missions of the Business
prevent the Federal Government from achieving an                Management Modernization Program, which was
unqualified opinion on the FY 2005 consolidated                 established to transform business operations to
financial statements. Because the FY 2002 National              achieve improved warfighter support while enabling
Defense Authorization Act limits the audit                      financial accountability across the Department. One
procedures that the DoD OIG can perform on DoD                  of DoD’s business enterprise priorities, financial
financial statements to those procedures consistent             visibility, incorporates six Financial Management
with DoD management’s representations as to their               core business capabilities, including Financial
reliability, and the DoD has consistently represented           Reporting. The Financial Reporting component
that the Department’s financial statements are not              will focus on the ability to provide relevant financial
reliable, additional material control weaknesses may            visibility and real-time information dashboards for
exist which have not been specifically identified.              DoD decision makers and to summarize financial
                                                                information for the purpose of producing mandatory
Inspector General Assessment of Progress                        reports in compliance with regulatory requirements
                                                                and discretionary reports in support of other
One significant measure of the ongoing progress                 requirements. The Department is making efforts
in the area of financial management would be                    to comply with specific and recent congressional
the Department’s ability to obtain an unqualified               mandates requiring the DoD to make concrete
audit opinion on its financial statements. Though               progress in improving its systems and business
sound financial management goes beyond obtaining                processes. One such legislation, the Ronald W.
an unqualified audit opinion, the President’s                   Reagan National Defense Authorization Act for fiscal
Management Agenda has recognized that obtaining                 year 2005, requires the DoD to develop well-defined
an unqualified opinion is a strong indicator of a               business enterprise architecture and a transition
well-managed organization. The DoD is far from                  plan by September 30, 2005, to cover all defense

                                                          296
                                                                           DoD Performance & Accountability Report FY2005
           ...............................................Part 4: Inspector General’s Summary of Management Challenges

business systems and related business functions and             beneficiaries within fiscal constraints while facing
activities that is sufficiently defined to effectively          growth pressures, legislative imperatives and
guide, constrain, and permit implementation of a                inflation that have made cost control difficult in
corporate-wide solution and is consistent with the              both the public and private sectors. The DoD
policies and procedures established by the OMB.                 challenge is magnified because the MHS must also
Further, the act requires the development of a                  provide health support for the full range of military
transition plan that includes not only an acquisition           operations. Part of the challenge in delivering health
strategy for new systems, but also a listing of the             care is combating fraud. As of August 1, 2005,
termination dates of current legacy systems that will           health care fraud constitutes 9 percent of the 1,610
not be part of the corporate-wide solution, as well             DCIS open cases.
as a listing of legacy systems that will be modified
to become part of the corporate-wide solution for               The increased frequency and duration of military
addressing DoD’s business management deficiencies.              deployments further stresses the MHS in both
                                                                the Active and Reserve components. The MHS
During FY 2005, the Office of Undersecretary of                 was funded at $30.7 billion in 2005, including
Defense (Comptroller) established the Financial                 $18.2 billion in the Defense Health Program
Improvement and Audit Readiness (FIAR)                          appropriation, $6.4 billion in the Military
committee to prepare a FIAR plan which will                     Departments’ military personnel appropriations,
provide a roadmap for financial improvement                     $0.2 billion for military construction, and
activities and auditability. Some of the goals of the           $5.9 billion from the DoD Medicare Eligible Retiree
FIAR plan include the establishment of a single,                Health Care Fund to cover the costs of health care
comprehensive and collaboratively managed financial             for Medicare eligible retirees, retiree family members
improvement plan, and improving the visibility                  and survivors.
of financial improvement activities, progress,
accomplishments, and audit opinion timeframes.                  Discussion
The plan currently focuses on four primary areas:
military equipment, real property, environmental                Two of the primary challenges for the MHS in
liabilities, and health care. Additionally, the                 2006 will be to begin implementing the BRAC
Department has developed business rules, which if               recommendations and completing the medical
implemented as planned, should clearly establish                readiness review.
a process for ensuring that corrective actions,
as described in the DoD component plans, are                    The results of the BRAC initiative will impact the
implemented and validated in order to minimize the              numbers and types of medical facilities that will
Department’s risk of unsupported claims by DoD                  make up the MHS. The concurrent evaluation
components that reported financial information is               of transformational options will result in the
auditable.                                                      realignment of capabilities and resources to increase
                                                                the effectiveness of the MHS.

Health Care                                                     A major challenge related to medical readiness
                                                                remains the completion of a Medical Readiness
The DoD Military Health System (MHS) challenge                  Review (MRR) being overseen by a steering group
is to provide high quality health care in both                  co-chaired by the offices of the Under Secretary
peacetime and wartime. The MHS must provide                     of Defense for Personnel and Readiness and the
quality care for approximately 9.2 million eligible             Director, Program Analysis and Evaluation. The

                                                          297
                                                                            DoD Performance & Accountability Report FY2005
           ...............................................Part 4: Inspector General’s Summary of Management Challenges

MRR will identify medical readiness and personnel               2003, the DoD and VA are each required through
management capabilities required by the National                2007 to contribute annually $15 million to the DoD
Security Strategy and related transformation of                 Veterans Affairs Health Care Sharing Incentive Fund
war fighting. The MRR will examine how the                      to finance future sharing initiatives. Section 722 of
capabilities will be delivered in wartime and                   the National Defense Authorization Act for
maintained in peacetime and how the MHS will                    FY 2003 required the DoD to contribute $3 million
be sized for both foreign and domestic response.                in FY 2003, $6 million in FY 2004, and $9 million
Ongoing challenges include providing capability for             in later years to cover a “health care resources sharing
readiness of the deploying forces and the readiness             and coordination project.” We believe the sharing
of the medical staff and units. Readiness of the                requirement will benefit both agencies and reduce
force means that all deployable forces are medically            costs. The FY 2003 National Defense Authorization
ready to perform their missions before deploying,               Act also assigned the GAO responsibility for
while deployed, and upon return. Readiness of                   annually assessing the coordination effort and
the medical staff and units includes ensuring that              reporting to Congress.
medical staff can perform at all echelons of operation
and the units have the right mix of skills, equipment           During FY 2005, the DoD audit community issued
sets, logistics support, and evacuation and support             15 reports addressing health care issues such as
capabilities. The Assistant Secretary of Defense                personnel requirements, medical laboratories, third
(Health Affairs) requested that the DoD OIG                     party collections, financial management, provider
review the medical readiness reporting system. We               productivity, deployment health assessment, base
will begin that review in 2006. As with most DoD                realignment and closure, patient movement, the
functions, the MHS continues to face the challenge              medical acquisition process, global war on terrorism
of increased joint operations and management.                   funding, and tactical medical support.

The FY 2004 National Defense Authorization                      Inspector General Assessment of Progress
Act authorized temporary provisions to expand
TRICARE health and dental coverage for Reserve                  The MHS has been moving forward on improving
component members and families. The FY 2005                     health care while attempting to control costs. MHS
National Defense Authorization Act permanently                  has made significant progress in implementing new
extended health care benefits for Reserve component             TRICARE contracts. TRICARE transitioned from
members and their family members. The challenge                 12 regions and 7 contracts in the United States to
of keeping reservists medically ready to deploy                 3 regions and 3 contracts. The contracts provide
continues due to the frequency and duration of                  incentives for customer satisfaction and include the
Reserve deployments.                                            managed care support contractors as partners in
                                                                support of medical readiness. Transition to the new
In addition to the peacetime and readiness                      contracts is complete; however, some issues still exist
challenges, the President’s Management Agenda for               that are being addressed in the administration of
FY 2002 identified nine agency specific initiatives.            the TRICARE program, particularly at the regional
One of the specific initiatives was the coordination            level.
of the DoD and the Department of Veterans Affairs
(VA) medical programs and systems. This issue is                The Medical Joint Cross Service Group completed
further addressed in Section 721 of the National                its base realignment and closure process for medical
Defense Authorization Act for FY 2003, which                    facilities and has submitted recommendations to the
requires coordination and sharing of the DoD and                Secretary. The MHS must now await final decisions
the VA health care resources. Effective October 1,
                                                          298
                                                                           DoD Performance & Accountability Report FY2005
           ...............................................Part 4: Inspector General’s Summary of Management Challenges

of the BRAC Commission, the Congress and the                    challenged the Government’s legal right to control
President before implementation can begin.                      prices by establishing ceilings. Resolving this in
                                                                court will be a challenge to the Department because
The MRR continues. Four working groups have                     the DoD can realize millions of dollars of savings in
been established to address: medical readiness                  pharmacy costs dispensed in the retail venue.
capabilities, casualty estimation, capability metrics,
and medical resources. Considerable progress has                Progress is also being made with DoD/VA sharing
been made by the group. The MRR is scheduled to                 initiatives. In FY 2004, 57 proposals were submitted
be completed in 2006 and should help ensure that                for consideration for the DoD-Veteran Affairs
medical requirements are included in operational                Health Care Sharing Incentive Fund and 12 joint
planning rather than being addressed after the fact.            initiatives were approved with funds already released
                                                                for the initiatives. Proposals are currently being
The Military Health System Executive Review                     considered for FY 2005 initiatives. In addition,
(or MHSER) commissioned a study in 2004                         seven sites were selected for resource sharing
that has helped to articulate improvements in                   demonstration projects in three functions: budget
process and management for the MHS. This                        and financial management, coordinated staffing
work is called the Local Authorities Work Group                 and assignment, and medical information and
recommendations. These 24 items comprise an                     information management. The VA/DoD Health
agenda for transformation of business process at the            Executive Council is monitoring the demonstration
local (market) and MTF level.                                   projects. The demonstrations will continue through
                                                                FY 2007.
The MHSER also sanctioned the formation of the
Office of MHS Transformation, which has been                    One of the major challenges identified last year was
approved by the Deputy Secretary of Defense.                    implementation of the Health Insurance Portability
The Office will stand up for a period of two years              and Accountability Act (HIPAA). The Department
and will have as its agenda the implementation of               made progress implementing HIPAA. A MHS-wide
the MRR, BRAC and the above-mentioned Local                     training program was developed and made available
Authorities Work Group recommendations. The                     on the web. The MHS policy implementing the
Transformation Office is intended to coordinate fully           HIPAA National Provider Identifier (NPI) final
all of the various but inter-related transformational           rule was established in January 2005. The NPI will
ideas into a comprehensive package. The effort                  identify providers throughout the United States
will work under the Assistant Secretary of Defense              health care system in HIPAA covered standard
(Health Affairs) and will be led, staffed and                   electronic transactions. Full implementation of
supported by members from MHS.                                  HIPAA remains an ongoing challenge within the
                                                                MHS as well as in the industry.
The Department also made progress toward
implementing a fully integrated pharmacy program                Lastly, the DoD Quadrennial Defense Review
by developing a uniform formulary. Having a                     (QDR) will provide the MHS the opportunity to
uniform process will make the pharmacy benefit                  formalize the personnel, infrastructure and process
more cost effective and will comply with the FY                 improvement ideas the MHS is pursuing as part of
2000 National Defense Authorization Act. The                    its transformational agenda. Medical transformation
implementation of Federal ceiling prices for drugs              in the QDR is worked as part of the Integrated
has stalled because the issue is in litigation with             Process Team for Business Practices/Processes. The
industry. Some companies in the industry have                   Integrated Process Team is designed to improve

                                                          299
                                                                             DoD Performance & Accountability Report FY2005
            ...............................................Part 4: Inspector General’s Summary of Management Challenges

DoD business practices. Results from the QDR                     concepts and technology developments require
will provide clarity to the agenda and a timeline for            that the DoD continuously reevaluate its logistics
implementation of BRAC, Local Authorities Work,                  transformation strategy and reconcile such concepts
and the MRR.                                                     as focused logistics, force-centric logistics enterprise,
                                                                 and sense and respond logistics. Together these
                                                                 logistics concepts and the identified initiatives for
Logistics                                                        implementation will remain the DoD’s challenge to a
                                                                 successful logistics transformation.
The challenge of logistics is to provide the right
force the right personnel, equipment, and supplies               One particular challenge for the DoD is supply
in the right place, at the right time, and in the                chain management. The GAO identified supply
right quantity, across the full range of military                chain management as a High Risk Area due to
operations. To meet this challenge, the Department               weaknesses uncovered in certain key aspects, such
is continuously transforming logistics by assessing              as distribution, inventory management, and asset
best practices and evaluating new concepts that will             visibility. GAO has reported on numerous problems
provide the joint warfighter with support for all                associated with supply chain management, such as
functions. Overall, DoD logistics is a $90 billion per           shortages of items due to inaccurate or inadequately
year activity, involving over a million people. The              funded war reserve requirements and the DoD’s lack
Department provides supplies, transportation, and                of visibility and control over the supplies and spare
maintenance for a vast inventory of ships, aircraft,             parts it owns.
helicopters, ground combat and tactical vehicles, and
thousands of additional mission support assets.                  The DoD has taken actions to improve the
                                                                 supply chain management, such as assigning new
Discussion                                                       organizational responsibilities for distribution,
                                                                 developing a logistics transformation strategy, and
Transformation of logistics capabilities poses a                 implementing other specific process improvements.
significant challenge to the Department. The                     However, the DoD must be vigilant in ensuring
Department’s transformed logistics capabilities must             that the strategy for logistics transformation is
support future joint forces that are fully integrated,           continuously reevaluated and that new initiatives
expeditionary, networked, decentralized, adaptable,              and systems are adequately funded and effectively
capable of decision superiority, and increasingly                implemented.
lethal. Additionally, transformed logistics capabilities
must support future joint force operations that are              In late 2003, 28 members of Congress sent a letter
continuous and distributed, across the full range of             to the Department of Defense Inspector General
military operations.                                             that expressed concerns about reports regarding
                                                                 alleged lack of support for Guard units deployed
Since its approval in 2003, Focused Logistics is                 in Iraq and Afghanistan. The letter requested
the DoD’s approved joint logistics functional                    that we conduct an assessment in five logistical
concept to achieve logistics capabilities in support             areas: potable water, organizational clothing and
of distributed adaptive operations. The concept                  equipment (desert combat uniforms and desert
defines broad joint logistics capabilities that are              boots), food/food service, in-theater medical/dental
necessary to deploy, employ, sustain, and re-deploy              care, and access to communications with family
forces across the full spectrum of operations. The               members. The signatories of the letter also wanted
emergence and maturation of advanced logistics                   to know if there was disparity of support between

                                                           300
                                                                            DoD Performance & Accountability Report FY2005
           ...............................................Part 4: Inspector General’s Summary of Management Challenges

the Reserve component forces and the Active
forces. In response to this Congressional request,              Implementation of performance-based logistics has
the DoD OIG conducted and recently completed                    been at a slow pace. The DoD and the military
an evaluation of the support provided to mobilized              services have issued policy and procedures for
Army National Guard and U.S. Army Reserve units                 implementation of performance-based logistics.
in the requested areas of logistics. Although the               However, our review of performance-based logistics
Army encountered significant logistical challenges              for the Javelin, H-60 Seahawk Helicopter, and
to initiate and conduct sustained land combat                   the Joint Surveillance Target and Attack Radar
operations in Operation Enduring Freedom and                    System show that challenges still abound in the
Operation Iraqi Freedom, the team concluded that                areas of developing effective business case analyses,
support was adequate in the areas evaluated. There              performance-based agreements with warfighters,
was no evidence of systemic disparity between                   and ensuring that costs are reduced. A review of
support provided to Reserve component soldiers and              the Business System Modernization Program for the
to Active component soldiers, beyond the disparities            Defense Logistics Agency found favorable results in
“by design” associated with the tiered readiness                mission performance and information assurance;
system. The Army is transforming the policies                   however, challenges still exist in addressing usability
and procedures of the tiered readiness system to                issues.
the Active Component/Reserve Component Force
Generation Model.                                               Lastly, a review of the initiatives for minimizing
                                                                inventory to support special program requirements
Another challenge for the DoD is ensuring that                  found that although actions had been taken to
the President’s Management Agenda’s initiative                  minimize investment in inventory to support special
on improved financial performance is adhered to                 program requirements, the Defense Logistics Agency
while simultaneously implementing the specific                  needs to expand its pilot program to reduce special
initiatives for transforming DoD logistics. Several             program requirement procurement quantities in
of DoD’s initiatives, including business management             several of its defense supply centers.
modernization, performance-based logistics, and
end-to-end distribution may require significant                 In the near future, the Inspector General will also
investment to fulfill transformation. The DoD must              provide assessments of DoD’s initiatives for airlift
ensure that financial data are used to manage, make             and sealift transportation, customer wait time, and
course corrections, maximize resources, and ensure              weapon system requirements.
that programs achieve expected results and work
towards continual improvement.
                                                                Infrastructure and Environment
Inspector General Assessment of Progress
                                                                The challenge in managing approximately 3,700
The Department has made progress towards meeting                military installations and other DoD sites is to
its goal of transforming logistics through numerous             provide reasonably modern, habitable, and well-
initiatives. However, that progress is tempered by              maintained facilities, which cover a spectrum
the sheer magnitude of logistics operations that will           from test ranges to housing. The Department’s
continue to make it a long-term challenge. To this              review of our defense and security needs resulted in
goal, the Inspector General has evaluated such areas            transforming our force structure and prompting a
as performance-based logistics, business systems                corresponding new base structure.
modernization, and inventory management.

                                                          301
                                                                           DoD Performance & Accountability Report FY2005
           ...............................................Part 4: Inspector General’s Summary of Management Challenges

This challenge of a new base structure is complicated            Beginning in 2001, the Secretary of Defense
by the need to minimize spending on infrastructure              launched an executive assessment of the DoD safety
so funds can be used instead on defense capability.             program and challenged the senior leaders to reduce
Unfortunately, the Department has an obsolescence               in two years the accident mishap rate by 50 percent.
crisis in facilities and environmental requirements             Overall responsibility for the project was tasked to
have continually grown. Furthermore, the                        the Under Secretary of Defense for Personnel and
Department will need to efficiently and effectively             Readiness, who subsequently chartered the Defense
implement the Base Realignment and Closure 2005                 Safety Oversight Council (DSOC) to facilitate
recommendations to eliminate excess capacity which              oversight of DoD’s efforts to achieve the Secretary’s
will free up dollars to be used for other purposes.             goal. In late 2004, DSOC deliberations concluded
                                                                the 50 percent reduction goal may not be achievable.
Discussion                                                      Recognizing this possibility, the Deputy Under
                                                                Secretary of Defense for Readiness requested the
Implementing the results of “Transformation                     DoD IG’s assistance and asked us to conduct an
through Base Realignment and Closure 2005” will                 evaluation/review of the DoD safety program. In
pose a significant challenge for the Department.                November 2004, the Inspections and Evaluations
However, implementation of Base Realignment                     Directorate announced an evaluation plan that
and Closure 2005 will also provide an opportunity               addresses all aspects of the safety program—culture,
for the Department to eliminate excess physical                 leadership, policies, organizational structure,
capacity, transform DoD infrastructure into a more              resources, exceptional practices, and lessons learned.
efficient structure, and provide cost savings. As part          Although the evaluation process is proceeding on
of the challenge, the Department must efficiently               schedule, several challenges lie ahead. One challenge
and effectively implement the Commission’s                      is to insure appropriate resources are available to
recommendations to obtain optimal savings in the                complete the project in a timely manner. Another
most efficient manner and with the least disruption             challenge to keep all stakeholders of the military
to the Department. Until the final decisions are                departments and offices of the Secretary of Defense,
made, the Department will not know the full impact              including the DSOC, informed on the project’s
of the Transformation through Base Realignment                  progress and preliminary analyses. A third challenge
and Closure.                                                    is to establish the DoD Safety Commission. The
                                                                Secretary of Defense’s approval to establish this
The Department is the largest steward of properties             Federal Advisory Safety Commission is pending.
in the world, responsible for more than 30 million              The commission will be used to review and validate
acres in the United States and abroad with a physical           the evaluation team’s findings and recommendations
plant of some 571,900 buildings and other structures            and to offer additional observations and suggestions.
valued at approximately $646 billion. Those
installations and facilities are critical to supporting         In today’s environment, the Department will also
our military forces, and must be properly sustained             need to consider additional security measures in
and modernized to be productive assets. The goal                DoD buildings. The DoD is in the process of
of the Department is a 67-year replacement cycle                implementing the “DoD Minimum Antiterrorism
for facilities and the current program would achieve            Standards for Buildings” for new and existing
that level in FY 2008. The replacement cycle was                inhabited buildings. The Department will need
reduced from a re-capitalization rate of 136 years in           to spend additional funds for security purposes if
FY 2004 to 107 years in FY 2005.                                the antiterrorism standards for buildings are fully


                                                          302
                                                                            DoD Performance & Accountability Report FY2005
            ...............................................Part 4: Inspector General’s Summary of Management Challenges

implemented. The amount of funds the Department                  be difficult to achieve anytime soon in light of fall-
needs to implement the standards is unknown at this              out from the FY 2005 round of Base Realignment
time.                                                            and Closure and the Global Posture Initiative. The
                                                                 Inspections and Evaluations Directorate will review
As of 2nd Quarter, FY 2005, the Military                         and evaluate policy and processes for sustaining the
Departments owned 1,865 electric, water,                         environment while protecting DoD’s requirement
wastewater, and natural gas systems worldwide. The               to be mission ready. The Department of Defense
Department has implemented an aggressive program                 is increasingly challenged to conduct the realistic
that is on track to complete privatization decisions             training necessary to produce combat-ready forces.
on 90 percent of the available water, sewage, electric,          The operations tempo supporting combat operations
and gas utility systems by September 2005. In                    increases the stress to installations and training
addition, while installation commanders must strive              range infrastructure. Creating sustainable DoD
to operate more efficiently, they must do so without             installations and ranges is critical to ensure mission
sacrificing their ability to operate in the event of a           success while reducing the stresses on the natural and
terrorist attack on our homeland. Civilian control               developed environment. Effective environmental
of utilities complicates comprehensive plans for                 management systems will positively impact all
preventing sabotage and responding to attacks on                 elements of the risk management framework and
water and power at military installations.                       help the Department achieve sustainable installations
                                                                 and ranges.
As of June 30, 2005, the DoD has an estimated
$64.2 billion in environmental liabilities. The                  Inspector General Assessment of Progress
Department continues to correct past material
control deficiencies in identifying and tracking                 The Department completed the BRAC process
sites with environmental liabilities and maintaining             within their required timeframe but needs to
audit trails for financial liability estimates. The              wait on the decisions made by the Commission,
Department needs to improve documentation                        President, and Congress before it can move out on
and supervisory review of environmental liability                the recommendations. The outcome will affect the
estimates. The Base Realignment and Closure                      amount of excess capacity the Department ultimately
2005 decisions will affect the amount and extent of              reduces, the amount of savings available for other
environmental liabilities. At this juncture it is too            uses, and the amount of environmental cleanup
early to know how much cleanup is required for the               needed. The Secretary’s recommendations for the
bases closing or how long the cleanup will take to               Base Realignment and Closure 2005 exceeded the
complete.                                                        prior BRAC efforts in 1989, 1991, 1993, and 1995.
                                                                 The Department of Defense Office of Inspector
Installation restoration (clean-up) practices at                 General spent a great deal of effort on oversight
active installations and clean-up activities at closing          of the 2005 BRAC process which resulted in very
installations are the DoD’s biggest environmental                minimal oversight of other infrastructure and
expenditures. Restoration and clean up goals will                environment areas.




                                                           303
                                                                            DoD Performance & Accountability Report FY2005
            ...............................................Part 4: Inspector General’s Summary of Management Challenges

                                                                 For the most part, the Inspector General’s list echoes
Management’s Response to the Inspector                           the Government Accountability Office’s (GAO) most
       General’s Assessment                                      recent High-Risk List for government operations.
                                                                 GAO, for example, considers human capital,
                                                                 homeland security, and infrastructure protection as
In general, we agree with the Inspector General’s                government-wide challenges not unique to the DoD.
summary of the management challenges faced by                    The President’s Management Agenda also addresses
the Department. The nine areas he identified are                 many of the areas identified by the Inspector General
long-standing problems that defy quick fixes. We                 as government-wide opportunities for improvement.
have plans in place to resolve each of the areas, but            Part 1 of this report, Management’s Discussion and
we recognize that it will take time and resources to             Analysis, addresses the issues raised by the Inspector
address the problems inherent in the Department.                 General.
We are pleased to note that the Inspector General
has recognized our progress.




                                                           304
Appendixes
                                                                                            DoD Performance & Accountability Report FY2005
           .....................................................................................................................Part 5: Appendixes

                                               Appendix A: Glossary of Terms


      Acronym                                                                   Full Name
AC/RC                   Active Component/Reserve Component
AFQT                    Armed Forces Qualifying Test
AOR                     Accumulated Operating Results
APB                     Accounting Principles Board Opinion
ARMS                    Armament Retooling and Manufacturing Support Initiative
ASD (HD)                Assistant Secretary of Defense for Homeland Defense
BMMP                    Business Management Modernization Program
BRAC                    Base Realignment and Closure
CERCLA                  Comprehensive Environmental Response, Compensation Liability Act
CFO                     Chief Financial Officer
CFR                     Code of Federal Regulations
CIO                     Chief Information Officer
CIP                     Critical Infrastructure Program
COLA                    Cost of Living Adjustment
CPI                     Consumer Price Index
CPIM                    Consumer Price Index Medical
CSRS                    Civil Service Retirement System
CY                      Current Year
DAB                     Defense Acquisition Board
DCAA                    Defense Contract Audit Agency
DCIS                    Defense Criminal Investigative Service
DERP                    Defense Environmental Restoration Program
DFAS                    Defense Finance & Accounting Service
DHP                     Defense Health Program
DLA                     Defense Logistics Agency
DO                      Disbursing Officer’s
DoD                     Department of Defense
DoL                     Department of Labor
DSOC                    Defense Safety Oversight Council
DTS                     Defense Travel Service
e-Gov                   Electronic Government
FBWT                    Fund Balance With Treasury
FECA                    Federal Employees’ Compensation Act
FEGLI                   Federal Employees’ Group Life Insurance Program
FEHB                    Federal Employees’ Health Benefits


                                                                       A.1
                                                                                              DoD Performance & Accountability Report FY2005
           .....................................................................................................................Part 5: Appendixes

                                                Appendix A: Glossary of Terms
                                                                    (continued)


       Acronym                                                                    Full Name
FERS                    Federal Employees’ Retirement System
FFB                     Federal Financing Bank
FIAR                    Financial Improvement and Audit Readiness
FFMIA                   Federal Financial Management Improvement Act
FMFIA                   Federal Managers’ Financial Integrity Act
FMS                     Foreign Military Sales
FUDS                    Formerly Used Defense Sites
FY                      Fiscal Year
GAAP                    Generally Accepted Accounting Principles
GAO                     U.S. Government Accountability Office
GF                      General Fund
GMRA                    Government Management Reform Act
GPRA                    Government Performance and Results Act
GSA                     General Services Administration
HIPAA                   Health Insurance Portability and Accountability Act
HMO                     Health Maintenance Organization
HQ                      Headquarters
IBNR                    Incurred But Not Reported
IG                      Inspector General
IPAC                    Intra-Governmental Payment and Collection System
IPIA                    Improper Payments Information Act
IPv6                    Internet Protocol Version 6
IRAS                    Intragovernmental Review and Analysis System
ISR                     Intelligence, Surveillance, and Reconnaissance
IT                      Information Technology
JCS                     Joint Chiefs of Staff
JTTF                    Joint Terrorism Task Force
MAFR                    Merged Accounting & Fund Reporting System
MD&A                    Management’s Discussion and Analysis
MERHCF                  Medicare-Eligible Retiree Health Care Fund
MHPI                    Military Housing Privatization Initiative
MHS                     Military Health System
MHSER                   Military Health System Executive Review
MOU                     Memorandum of Understanding
MRF                     Military Retirement Fund


                                                                        A.2
                                                                                            DoD Performance & Accountability Report FY2005
           .....................................................................................................................Part 5: Appendixes

                                              Appendix A: Glossary of Terms
                                                                 (continued)


       Acronym                                                                  Full Name
MRR                     Medical Readiness Review
MRS                     Military Retirement System
MTF                     Military Treatment Facility
NOAA                    National Oceanic and Atmospheric Administration
NORM                    Navy Normalization of Data Systems
NPI                     National Provider Identifier
NSPS                    National Security Personnel System
NULO                    Negative Unliquidated Obligations
NRV                     Net Realizable Value
O&S                     Operation and Support
ODO                     Other Defense Organizations
ODO-GF                  Other Defense Organizations – General Fund
OIG                     Office of Inspector General
OM&S                    Operating Materials & Supplies
OMB                     Office of Management and Budget
OPM                     Office of Personnel Management
OSD                     Office of the Secretary of Defense
PART                    Program Assessment Rating Tool
PERSTEMPO               Personnel Tempo
P.L.                    Public Law
PMA                     President’s Management Agenda
PPBS                    Planning, Programming and Budgeting System
PP&E                    Property, Plant & Equipment
Q rating                Standardized indicator of facility restoration and modernization requirements
QDR                     Quadrennial Defense Review
QoL                     Quality of Life
RND                     Results Not Demonstrated
SAR                     Selected Acquisition Report
SBR                     Statement of Budgetary Resources
SFAS                    Statement of Financial Accounting Standards
SFFAS                   Statement of Federal Financial Accounting Standards
SFIS                    Standard Financial Information Structure
SoNC                    Statement of Net Cost
T2                      Training Transformation
TSP                     Thrift Savings Plan


                                                                       A.3
                                                                                           DoD Performance & Accountability Report FY2005
          .....................................................................................................................Part 5: Appendixes

                                            Appendix A: Glossary of Terms
                                                                 (continued)


      Acronym                                                                  Full Name
TOA                    Total Obligation Authority
UDO                    Undelivered Orders
UMD                    Unmatched Disbursements
USACE                  United States Army Corps of Engineers
USC                    United States Code
USCENTCOM              United States Central Command
USDA                   United States Department of Agriculture
USEUCOM                United States European Command
USNORTHCOM             United States Northern Command
USPACOM                United States Pacific Command
USSOUTHCOM             United States Southern Command
USSGL                  United States Standard General Ledger
VA                     Department of Veterans Affairs
WARS                   Worldwide Ammunition Reporting System
WCF                    Working Capital Fund




                                                                      A.4
                                                                                              DoD Performance & Accountability Report FY2005
            .....................................................................................................................Part 5: Appendixes

                                                 Appendix B: Internet Links

General information about the Department of Defense
                          LINKS                                                                     TOPIC/SUBJECT


 Internal Links

 www.defenselink.mil                                             Main Department of Defense (DoD) website, provides daily news about DoD
                                                                 activities, extensive search capabilities, photographs, and links to all DoD
                                                                 organization websites.

 www.dodig.osd.mil                                               DoD Office of Inspector General’s website, which contains information about the
                                                                 OIG’s activities and OIG reports.

 www.dod.mil/comptroller/par                                     The DoD Comptroller’s website, which includes the DoD Performance and
                                                                 Accountability Reports since 2002 and detailed FY 2005 Performance Information
                                                                 (summaries are provided in Part 2 of this report).

 www.defenselink.mil/pubs/qdr2001.pdf                            DoD Quadrennial Defense Review (2001)

 www.defenselink.mil/execsec/adr2004/index.html                  DoD Annual Defense Report (2004)

 www.defenselink.mil/news/Mar2005/d20050318nds1.pdf              National Defense Strategy

 www.defenselink.mil/news/Mar2005/d20050318nms.pdf               National Military Strategy

 www.dod.mil/comptroller/defbudget/fy2006/index.html             DoD Budget (2006)

 www.cpms.osd.mil/nsps                                           National Security Personnel System

 www.brac.gov                                                    Information about the Base Realignment and Closure process for 2005.

 External Links

 www.whitehouse.gov/results                                      Information about the President’s Management Agenda

 www.whitehouse.gov/omb                                          Office of Management and Budget’s website

 www.gao.gov                                                     U.S. Government Accountability Office’s website

 www.whitehouse.gov/nsc/nss.pdf                                  National Security Strategy

 www.cfoc.gov                                                    Chief Financial Officers Council

 www.firstgov.gov                                                U.S. Government’s Official Web Portal




                                                                        B.1
                                                                                 DoD Performance & Accountability Report FY2005
.....................................................................................................................Part 5: Appendixes
